<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
  Prepared Statement of the American Society of Landscape Architects; 
  City Parks Alliance; International Mountain Bicycling Association; 
League of American Bicyclists; PGA of America; and The Trust for Public 
                                  Land
    To the Chair and Members of the Subcommittee, as national 
organizations representing people who design, create, manage, protect 
and use the Nation's urban parks, we are writing to express our strong 
support for the Land and Water Conservation Fund (LWCF) in fiscal year 
2013 and to urge you to allocate robust funding to this valuable 
program in the fiscal year 2013 Interior and Environment Appropriations 
bill, including the proposed LWCF stateside competitive grant program.
    At this time of national fiscal crisis, investments that create 
jobs and grow our economy must be paramount. LWCF benefits local 
economies, communities, and the environment. Natural amenities like 
parks, open space, and rivers fuel economic investment, particularly 
when they are close to our population centers. Parks, greenways and 
trails augment surrounding property values--contributing to higher tax 
revenues--encourage tourism, and attract employers drawn to the 
enhanced quality of life for residents. The shared outdoor spaces also 
provide opportunities for recreation and exercise critical to 
countering skyrocketing rates of childhood obesity and other health 
problems. Moreover, our parks and public lands protect critical 
drinking water supplies through watershed, forest, and wetland 
conservation.
    Already, outdoor recreation activities contribute $730 billion 
annually to the U.S. economy, supporting 6.5 million jobs, according to 
the Outdoor Industry Foundation. New investments in parks could quickly 
create an added 100,000 to 200,000 positions--jobs based largely in 
local communities and, thus, hard to outsource.
    As you begin the process of drafting the fiscal year 2013 budget, 
we request $450 million in funding for LWCF. These investments will 
support public land conservation and ensure access to the outdoors for 
Americans, in cities and rural communities alike. We also encourage 
your support for the proposed stateside competitive matching grant 
program that would be allocated $20 million under the authorities found 
in Sections 3, 5 and 6 of the LWCF Act. Through this proposed 
competitive program, States would be eligible to apply for projects 
which: (1) enhance and create urban parks and community green spaces; 
(2) develop public access to rivers, lakes, streams and other bodies of 
water through water trails and blueways; and (3) conserve rural 
landscapes. This matching grant program would leverage private and 
philanthropic support at the local level, where urban parks have 
fostered a vital network of private-public partnerships to sustain 
them. The public values supported by these targeted LWCF investments 
are critically important to the future health of local communities and 
their residents.
    The entire suite of LWCF programs protects natural resource lands, 
outdoor recreation opportunities and working forests at the local, 
State and Federal levels, ensuring that critical wildlife habitat, 
hunting and fishing access, State and local parks, Civil War 
battlefields, productive forests and other important lands are 
protected for future generations. The LWCF stateside program is the 
Government's primary investment tool for ensuring that children and 
families have access to close-to-home recreation. It has funded over 
41,000 projects including sports fields, outdoor recreation facilities 
and trails touching all 50 States.
    LWCF receipts are not revenues for general purposes--they are 
payments to the Government specifically intended for conservation 
spending. More than $17.5 billion has been siphoned from the LWCF trust 
fund since the program's inception in 1965; these funds have been 
diverted from their original conservation purpose with no 
accountability. This chronic redirection of funding has created a large 
backlog of conservation needs, including already-negotiated 
acquisitions from willing sellers, and has led States and Federal land 
management agencies to postpone or cancel many important projects.
    The Land and Water Conservation Fund is one of the most important 
long-term investments we can make to help spur our economy, create jobs 
by putting more Americans back to work in tourism and recreation, and 
help American's stay healthier by making it easier to spend more time 
outside.
    By working together to protect our natural heritage and leveraging 
resources like LWCF to provide children and families with access and 
opportunities to enjoy the outdoors, we can make our communities 
healthier, sustainable, and more economically competitive.
                                 ______
                                 
       Prepared Statement of the American Association of Museums

    Chairman Reed, Ranking Member Murkowski, and members of the 
Subcommittee, thank you for inviting me to submit this testimony. My 
name is Ford Bell and I serve as President of the American Association 
of Museums (AAM). We urge your support for at least $154.3 million each 
for the National Endowment for the Arts (NEA) and the National 
Endowment for the Humanities (NEH)--the amounts requested in the 
President's fiscal year 2013 budget proposal. We also urge your support 
for Historic Preservation efforts funded by the Subcommittee.
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, natural history museums, planetariums, 
Presidential libraries, science and technology centers, and zoos, among 
others--along with the professional staff and volunteers who work for 
and with museums.
    AAM is proud to work on behalf of the 17,500 museums that employ 
400,000 people, spend more than $2 billion annually on K-12 educational 
programming, receive more than 90 million visits each year from primary 
and secondary school students, and contribute more than $20 billion to 
local economies.
    Museums are essential in our communities for many reasons:
  --Museums are key education providers. Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography, and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, STEM education, youth 
        training, job preparedness, and teacher training.
  --Museums create jobs and support local economies. Museums serve as 
        economic engines, bolster local infrastructure, and spur 
        tourism. Both the U.S. Conference of Mayors and the National 
        Governors Association agree that cultural assets such as 
        museums are essential to attracting businesses, a skilled 
        workforce, and local and international tourism. Museums pump 
        more than $20 billion into the American economy, creating many 
        jobs.
  --Museums address community challenges. Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities, and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum, some are 
        teaching English as a Second Language, and some are serving as 
        locations for supervised family visits through the family court 
        system.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations. Teachers, students, and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need more help in 
        digitizing collections.
    Support from the NEH, NEA, and the Historic Preservation Fund plays 
a critical role in helping museums provide all of these essential 
community services.
    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions--including museums, colleges, universities, 
archives, and libraries--for educational programming and the care of 
collections. NEH provides annual grants to State humanities councils 
located in every State and U.S. territory. NEH supports museums as 
institutions of learning and exploration, and keepers of our cultural, 
historical, and scientific heritages.
    Due to the impact of the economic downturn, many institutions and 
nonprofits around the country, including museums, are struggling to 
maintain continued access to high-quality programming and educational 
opportunities in the humanities.
    In 2011, through Preservation & Access, one of NEH's national 
program divisions, more than 90 peer-reviewed, competitive grants 
totaling over $4.1 million were awarded to museums, historical 
societies and historic sites for a variety of projects to preserve and 
provide access to our Nation's rich cultural heritage. Across all NEH 
divisions (including Preservation, Research, Education, Public 
Programs, Challenge Grants and Digital Humanities), these institutions 
received more than 160 awards totaling $12.4 million in 2011.
    Demand for humanities project support, as demonstrated by NEH grant 
application rates, far exceeds available funding. In fiscal year 2009, 
NEH received 4,366 competitive grant applications representing more 
than $402 million in requested funds, but was only able to fund 16.9 
percent of these peer-reviewed project proposals.
    Here are just two examples of how NEH funding is used to support 
museums' work in your communities:
  --The Rhode Island Historical Society in Providence is using its 
        $300,000 fiscal year 2011 Sustaining Cultural Heritage 
        Collections grant to install a sustainable environmental 
        control system and make building improvements and security 
        upgrades to preserve collections documenting the history of 
        Rhode Island from pre-European contact to the present.
  --The Sheldon Museum and Cultural Center in Haines, Alaska, is using 
        its $6,000 fiscal year 2010 Preservation Assistant grant to 
        support a general preservation assessment and the purchase of 
        preservation supplies and environmental monitoring equipment. 
        The collection consists of 2,515 historical artifacts, 885 
        pieces of art, more than 6,000 photographs, 1,677 bound 
        volumes, and 1,296 archival items dealing with the history of 
        the Chilkat Valley and the town of Haines.
    The National Endowment for the Arts provides direct Federal funding 
to State arts agencies and to nonprofit arts institutions including 
museums. Its mission is to make art accessible to all and to provide 
leadership in arts education. Established in 1965, NEA brings great art 
to every congressional district. Its grants to museums help them 
exhibit, preserve, and interpret visual material through exhibitions, 
residencies, publications, commissions, public art works, conservation, 
documentation, and public programs. Grants are awarded for specific 
projects and require at least a one-to-one match from the recipient. 
Most recently, a partnership between the NEA and Blue Star Families has 
created the Blue Star Museums program, in which more than 1,500 museums 
of all types across the Nation provide free admission to military 
families from Memorial Day through Labor Day.
    In 2011, NEA made 148 awards to museums, totaling over $6 million. 
Many museums have reduced staff and budgets as a result of the 
recession, which has hit non-profit arts particularly hard. Despite the 
economic downturn, attendance is up, causing increased pressure to 
serve more people with fewer staff and smaller budgets.
    Receiving a grant from the NEA confers prestige on supported 
projects, strengthening museums' ability to attract matching funds from 
other public and private funders. On average, each dollar awarded by 
the NEA leverages $7 from other sources. 40 percent of NEA's grant 
funds is distributed to State arts agencies for re-granting.
    Here are two examples of how NEA funding is used to support 
museums' work in your communities:
  --The Rhode Island School of Design (aka RISD) (on behalf of Museum 
        of Art) in Providence is using its $20,000 fiscal year 2011 
        Access to Artistic Excellence grant to support the exhibition 
        Ahead of the Curve: Richard Brown and Contemporary British Art, 
        with accompanying catalogue and educational programs. The 
        exhibition will feature more than 100 paintings, sculptures, 
        and drawings by late 20th-century British artists such as David 
        Hockney, Anthony Caro, Bridget Riley, Fionna Banner, Yinka 
        Shonibare, Anish Kapoor, and Damian Hirst.
  --The Seward Association for the Advancement of Marine Science (aka 
        Alaska SeaLife Center) in Seward, Alaska is using its $39,000 
        fiscal year 2012 Art Works I grant to support an expedition and 
        planning of the exhibition, GYRE, that will engage artists and 
        scientists in the global problem of marine debris. In 
        partnership with the Anchorage Museum, a group of artists 
        including Pam Longobardi, Mark Dion, Alexis Rockman, Andrew 
        Hughes, and Sonya Kelliher-Combs will accompany a team of 
        scientists aboard the ship R/V Norseman in a research 
        expedition to expose artists to the impact of marine debris on 
        various ecosystems.

                         HISTORIC PRESERVATION

    In addition to the NEH and NEA, we urge you to fund important 
historic preservation programs under the Subcommittee's jurisdiction 
providing at least $47 million for State Historic Preservation Offices 
(SHPOs) and $9 million for Tribal Historic Preservation Offices 
(THPOs). We also urge you to restore funding of $25 million for Save 
America's Treasures and $4.6 million for Preserve America, which have 
not been funded for the past 2 fiscal years.
    The 2005 Heritage Health Index of archives, libraries, historical 
societies, and museums concluded that immediate action is needed to 
prevent the loss of 190 million artifacts that are in need of 
conservation treatment.
  --59 percent have collections damaged by light.
  --56 percent have insufficient security to protect their collections.
  --80 percent do not have an emergency plan that includes collections.
  --71 percent need additional training and expertise for staff caring 
        for collections.
  --Only 13 percent have access to endowment funds for preservation.
    Historic preservation programs matter now more than ever--not only 
because they protect our national heritage, but because they serve as 
economic development engines and job creators in the thousands of 
communities they serve. For example, Save America's Treasures alone has 
been responsible for supporting more than 16,000 jobs since it was 
created just 10 years ago. A 2009 report to Congress by the Advisory 
Council on Historic Preservation found that Preserve America is 
addressing many State, local, and regional heritage tourism needs with 
a relatively small Federal investment.
    Thank you once again for the opportunity to submit this testimony.
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors

    Thank you for the opportunity to submit a statement for the record 
regarding fiscal year 2013 appropriations for the National Endowment 
for the Arts (NEA) and the National Endowment for the Humanities (NEH). 
We respectfully request that the Subcommittee approve a funding level 
of $155 million for the NEA and $155 million for the NEH, which would 
restore them to their fiscal year 2011 levels.
    The Association of Art Museum Directors (AAMD) is composed of the 
directors of more than 200 art museums in the United States, as well as 
several in Canada and Mexico. Its mission is to support its membership 
in fostering vibrant communities. The AAMD is a current grantee of the 
NEA.
    Both the NEA and the NEH help museums achieve their mission of 
preserving, exhibiting and interpreting art to the broadest possible 
audiences. To cite a recent example, the Los Angeles County Museum of 
Art (LACMA) received grants from both the NEA and the NEH to support 
the exhibition Children of the Plumed Serpent: The Legacy of 
Quetzalcoatl in Ancient Mexico, its accompanying catalogue and 
educational activities.
    According to the exhibition website:

    ``Recent scholarship demonstrates that a confederacy of city-states 
in southern Mexico . . . successfully resisted both Aztec and Spanish 
subjugation. Children of the Plumed Serpent explores the extraordinary 
wonders in fresco, codices, polychrome ceramics, gold, turquoise, 
shell, textiles, and other precious materials that were produced by 
these confederacies between AD 1200 and 1500, as their influence spread 
throughout Mesoamerica by means of vast networks of trade and exchange. 
A ruling class of nobles, or caciques, believing that Quetzalcoatl, the 
human incarnation of the Plumed Serpent, had founded their royal 
lineages, called themselves the `Children of the Plumed Serpent' . . . 
The culture hero Quetzalcoatl, the Plumed Serpent, epitomizes a Mexican 
sense of national identity that is deeply rooted in the heroic 
qualities of its ancient art.''

    Children of the Plumed Serpent opens at LACMA on April 1, 2012. 
After its run in Los Angeles it will travel to the Dallas Museum of 
Art. Together, the NEA and NEH contributed nearly 25 percent of the 
cost of the exhibition, which totaled approximately $1.3 million. As is 
always the case, the NEA and NEH ``seal of approval'' leveraged other 
contributions. There is no doubt that the Federal grants had a huge 
impact in keeping Children of the Plumed Serpent in its desired format 
and scope.
    The exhibition highlights the role of museums in cultural exchange 
and collaboration. The U.S. Department of State, having determined it 
to be in the national interest of the United States, awarded it 
protection from seizure, assuring that the works would be returned to 
their lenders. Further, LACMA collaborated with two important cultural 
institutions in Mexico, the National Council for Culture and the Arts 
and the National Institute for Anthropology and History. The exhibition 
also received indemnity from the Federal Council on the Arts and the 
Humanities, which is administered by the NEA and without which many 
objects would not be able to travel to the United States.
    (In connection with the indemnity program, which Congress expanded 
in 2007, we respectfully suggest that it may be time to look again at 
raising the limits available for domestic and international 
exhibitions.)
    The educational outreach of the exhibition is targeted to low 
income, primarily Hispanic parts of the metropolitan area, and will 
include bilingual materials. Typically, attendance at the museum is 
about 12 percent Hispanic but it doubles when there is a Latin American 
exhibition. Attendance for Children of the Plumed Serpent is estimated 
at about 100,000 people in its LACMA venue. For the past decade, LACMA 
has had a Latin American initiative, with at least one exhibition per 
year. Last year's show, Contested Visions in the Spanish Colonial 
World, which examined the significance of indigenous peoples within the 
artistic landscape of colonial Latin America, also received an NEH 
planning grant and a grant from NEA; attendance was 56,748. That 
exhibition was on view at LACMA from November 6, 2011 through January 
29, 2012 and is currently touring to two museums in Mexico.
    More information about the exhibition is available online at: 
www.lacma.org/art/exhibition/children-plumed-serpent-legacy-
quetzalcoatl-ancient-mexico.
    Museum staff notes that the majority of the cost of exhibitions 
often comes down to labor and materials--shipping, crating, couriers to 
accompany the art, and installation. This was dramatically illustrated 
recently by the ongoing creation and installation of Levitated Mass, 
which entailed quarrying and transporting a 340 ton boulder over 100 
miles across southern California. As LACMA director Michael Govan told 
the Los Angeles Times:

    ``This is not money used for buying something but for building 
something: it goes to concrete workers, truckers, quarry workers, so 
this money is being injected into the economy and lives of working 
people. It's not unlike the impulse of the 1930s WPA Works Progress 
Administration to put craftspeople in a down economy to work. For me, 
there is a key distinction: Are you putting money into the pockets of a 
European gallery or putting money into the American economy?''

    To put into context the educational scope of the museum: it serves 
between 600,000 and 1 million people a year, including more than 
300,000 through its education programs. Education activities include 
art-making programs in schools and libraries, tours of the museum for 
students and adults, art classes for children, teenagers, and adults, 
summer and holiday art camps for children, programs for college 
students, high school internships, family days, workshops and 
curriculum materials for teachers, lectures, concerts, films, 
conversations with artists, and more. Across the entire State, the 
museum's education programs reach 351 organizations including 217 
schools, 67 colleges and universities, 31 community organizations, 22 
cultural organizations, and 14 healthcare organizations. Nearly 70,000 
individuals and families are members of LACMA; membership fees start at 
$25 for college students, which entitles them to free admission all 
year. All children under 18 are NexGen members, which allows them free 
admission and free admission for one accompanying adult.
    LACMA is also a proud participant in the Blue Star Museums 
initiative, which offers free admission to military families from 
Memorial Day to Labor Day.
    The map below shows the extent of the museum's outreach, with each 
dot symbolizing an organization that uses LACMA's educational services.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The AAMD mapping project, which is supported in part by an NEA 
grant, now encompasses 100 museums, including.
    Please note that the maps are generally produced in color and with 
more detail. The map depicted was altered to fit the testimony format 
required by the Subcommittee.
    Using data from the U.S. Census Bureau, the mapping project gives 
museums the capacity to analyze their community service by geography 
and socio-economic level, allowing them to target resources to where 
they are most needed. For example, just last week a museum requested a 
list of majority-minority census tracts in its service area.
    With the NEA's help, the mapping project has given us a new level 
of understanding of the reach and depth of museum programming in their 
communities. Further, surveys of our membership show that one-third of 
them offer free admission to all, while two-thirds offer free admission 
to children. The average full price of admission for adults is under 
$10, but nearly all offer steep discounts and/or free days. One hundred 
percent of AAMD member museums serve K-12 schools; 93 percent percent 
serve colleges and universities; and 68 percent percent of our museums 
serve preschools. In total, AAMD members serve about 40,000 schools 
across the Nation. A third have programs for people with Alzheimer's, 
and their caregivers, and an increasing number offer art instruction 
for medical and nursing students, which has been proven to increase 
their powers of observation, leading to better diagnostic skills.
    None of this work is possible, however, unless museums can care for 
and present art to the public. In these basic, core functions, the help 
of the NEA and NEH has been and continues to be invaluable.
    Thank you again for the opportunity to submit testimony for the 
record.
                                 ______
                                 
   Prepared Statement of the Association of American State Geologists

Summary
    Within the USGS budget, we recommend that a sum of $29.5 million be 
budgeted for the National Cooperative Geologic Mapping Program in 
fiscal year 2013, rather than the proposed $28 million, by not 
implementing the proposed $1.5 million cut to the base program, and by 
incorporating funding for two new initiatives: WaterSMART and Hydraulic 
Fracturing.
    Also within the USGS budget, we strongly support the National 
Geological and Geophysical Data Preservation Program, and we are 
pleased that plans as we understand them call for funding of this 
activity at least equal to the fiscal year 2012 ($996,000) level as 
part of the program with which this activity has been merged.
    We believe that the U.S. Geological Survey (USGS) is responsible 
for programs that are essential for the functioning of the U.S. 
Government and of the Nation, for optimization of the health, wealth, 
and security of the American people, as well as preservation and 
appreciation of our natural heritage.
    Whether at the U.S. Federal level, the U.S. State level, or in 
national or regional jurisdictions throughout the world, geological 
survey agencies fulfill the role of maintaining systematic information 
on the landmass administered by the Government they serve, as well as 
additional roles where geologic information is needed by Government.
    Whereas academic research institutes have a conceptual mandate, 
geological survey agencies have a unique and essential spatial mandate 
associated with their landmass. While academic centers focus on 
research and education, geological surveys are engaged in mapping over 
areas, and monitoring over time, as essential roles that accompany 
their needed research roles.
    This jurisdiction-wide, long-term function builds and maintains a 
body of knowledge regarding an understanding and accounting of earth 
materials, processes, and geologic history, based on mapping, 
monitoring, and research. Benefits for society result, as this 
systematic, accessible, and authoritative knowledge is used in relation 
to energy, mineral, and water resources, as well as hazards. Management 
of these issues, guided by sound information, is needed by society to 
ensure orderly progress toward their objectives.
    In a Federal system, both Federal and State governments require 
geological survey agencies to carry out their mission and mandates in 
an informed manner. States strongly endorse and support the unique 
Federal role of the USGS, which addresses national programs, 
specialized capabilities, and the needs of the Federal Government. 
State geological surveys meanwhile work closely with users on the 
priorities of each State. In our roles, we benefit from partnerships 
with USGS, while our roles were strongly endorsed last year by a paper 
released by the American Institute of Professional Geologists.
    While USGS functions with a budget of over $1 billion, supported by 
on the order of 10,000 employees, State geological surveys in total are 
funded at a level of a quarter billion dollars per year, and are 
supported by over 2,000 employees.
    The work of the U.S. Federal and State geological surveys is 
closely coordinated. State geological surveys therefore have a great 
interest in the role of the USGS, as this role is a major factor in 
fulfillment of our roles.
    The President's budget proposal outlines support for successful and 
effective USGS programs that stimulate economic development, that save 
lives and property from natural disasters, and that protect the 
environment and public health. Through competitive grants and 
partnership programs, USGS directly benefits from collaboration with 
leading experts across the Nation.
    We endorse identification of priorities to which resources need to 
be shifted. We agree with the importance of a National Groundwater 
Monitoring Network, other water programs such as those related to 
stream gages, improved disaster mitigation and response, improved 
information needed to guide the economic benefits and risks of 
hydraulic fracturing, and increased attention to rare earth element 
research and assessment.
    We note with concern, however, potential reduction to important 
programs, including the minerals program, coal assessments, and several 
water programs. We are particularly concerned about proposed reductions 
to partnership and grant programs that promote efficiency, as well as 
preserving long-term datasets.
    Proposed reductions to the minerals programs are difficult to 
reconcile with the rapidly growing urgency of the efforts that are 
needed to ensure our access to materials that allow our economy to 
function. We endorse conservation and recycling, and we recognize that 
increasing global population and standard of living will require more 
mining.
    Most mineral commodities occur in the United States, where these 
materials can be mined using the world's best practices for 
environmental stewardship and health and safety for workers and the 
public. The USGS has a vital role in documenting domestic production 
and reserves, and in assessing the likelihood of future discoveries 
that will add to our mineral and energy resources.
    The dominance of China as a producer and consumer of mineral and 
energy commodities is a major factor that will influence our future. 
This can best be understood by utilizing critical data that are 
collected and reported by the USGS. USGS minerals data collection was 
considered to be an essential Government function in two 2008 National 
Academy of Sciences reports. We therefore believe these are programs 
and functions that should not be cut.
    We also are concerned about proposed reductions to energy-related 
programs, such as grants to States for coal resource assessments. Coal 
remains a major source of inexpensive electricity for America, while 
coal and other carbon-based energy fuels such as unconventional sources 
of oil and natural gas will continue to dominate global energy supply 
for years to come. It therefore is important that research is 
developing ways to reduce fossil-fuel-related emissions.
    While the Department of Energy maintains information on domestic 
energy production, the USGS role in long-term forecasting of energy 
supplies is unique and necessary. Much of this work is done in 
collaboration with States, using data largely compiled and provided by 
States, and the Association of American State Geologists supports this 
working relationship.
    State Geologists recognize, however, that geologic maps showing 
sediment and rock materials at and below the land surface are the 
foundation that guides all programs dealing with issues such as energy, 
minerals, construction, water, and hazards.
    In Ohio, for example, developers and engineers who used modern 
geologic maps saved about $50,000 for every project. Typically, many 
projects use the same map, multiplying these cost savings many times 
over. Furthermore, economists documented Kentucky's geologic maps to be 
worth 25 to 39 times the cost of the mapping.
    Less than half of the United States, however, is covered by 
adequate geologic maps, and many maps need to be updated due to the 
progress of science, new technology, and much new data. USGS therefore 
needs to have a vibrant geologic mapping program, as do State 
geological surveys nationwide, and we welcome the Federal role in 
maintenance of standards and coordination.
    Geologic mapping at the resolution and coverage done by geological 
survey agencies is clearly a role for Government, because the public 
benefits and cost savings are broad, and businesses must limit their 
work to small areas of immediate interest to their activity.
    While the mapping is guided by the accumulated knowledge of 
Government geologists, geologic mapping commonly utilizes surveys 
conducted by the private-sector, such as immensely useful new airborne 
laser elevation surveys known as LiDAR.
    We therefore place emphasis on our advocacy for the National 
Cooperative Geologic Mapping Program, a subactivity within the USGS 
Core Science Systems Activity, funded at $26.3 million in fiscal year 
2012. Given its proven record in stimulating economic development and 
protecting the public, we believe that this program should grow to its 
authorized level of $64 million per year in upcoming years.
    All Federal dollars in the portions of this program that we are 
involved with are matched one to one with State dollars. Despite this, 
significant State geologic mapping resources that could be used to 
match Federal dollars are being left on the table.
    We certainly are pleased, however, that the President's budget 
proposal recognizes the key role of geologic mapping in pressing 
priorities, in particular related to water and hydraulic fracturing, by 
proposing transfers to the program in relation to these topics.
    Given the importance of geologic mapping, however, we not only 
endorse these proposed transfers, but we also suggest that a proposed 
reduction to the base of the program not be implemented, thus resulting 
in a further expansion of this crucial activity. We also note that it 
is good that the National Cooperative Geologic Mapping Act provides 
clear guidance for distribution of these proposed increases.
    In turn, geologic mapping is underpinned by precious data and 
materials accumulated by scientists over decades. We thus recognize the 
fundamental importance of the National Geological and Geophysical Data 
Preservation Program, also a subactivity within the Core Science 
Systems Activity, funded at about $1 million in fiscal year 2012. This 
is another cooperative program with States, which doubles the Federal 
investment.
    The 2002 National Academy of Sciences report on Geoscience Data and 
Collections--National Resources in Peril made the case for preserving 
these irreplaceable data and physical samples and led to congressional 
authorization of this program at $30 million per year within the Energy 
Policy Act of 2005. We have seen many uses for these data and samples 
in exploration for domestic mineral and energy resources. We believe 
that this program should grow.
    In the President's budget proposal, we note that this program has 
been merged with allied activity, and we applaud efficiencies that will 
be thus achieved, while we strongly support the activity being 
maintained at a funding level at least equivalent to that of fiscal 
year 2012.
    In summary, the Association of American State Geologists strongly 
endorses the President's fiscal year 2013 budget proposal for the U.S. 
Geological Survey, because we strongly endorse what we regard as the 
essential role that the USGS fulfils in building and maintaining 
essential information needed by the U.S. Government and by people 
nationwide.
    In particular, we endorse programs that are operated as 
partnerships, thus leveraging funds, as well as encouraging 
coordination, efficiency, and adoption of nationwide standards. 
Nevertheless, we have concerns about proposed reductions in important 
programs.
    We appreciate this opportunity to offer information that we hope 
will be helpful for the work of the subcommittee.
                                 ______
                                 
          Prepared Statement of the American Bird Conservancy

    Dear Chairman Reed and Ranking Member Murkowski: American Bird 
Conservancy (ABC) is a 501(c)(3) national nonprofit organization 
dedicated to the conservation of wild native birds and their habitats 
throughout the Americas. Founded in 1994, ABC is the only U.S.-based 
group dedicated solely to overcoming the greatest threats facing native 
birds in the Western Hemisphere.
    As you know, America is blessed with a spectacular abundance and 
rich diversity of birds, with more than 800 species inhabiting the 
mainland, Hawaii, and surrounding oceans. Unfortunately, according to 
the U.S. Fish and Wildlife Service's 2009 State of the Birds Report, 
many of our bird species are in decline and some are threatened with 
extinction making it more important now than ever to continue funding 
Federal programs like the Neotropical Migratory Bird Conservation Act 
grants program, Joint Ventures, and the North American Wetlands 
Conservation Act which have been proven and effective in maintaining 
healthy and abundant native bird populations.
    Funding Federal bird conservation programs not only provides 
ecological benefits, it makes good economic sense. Birds are also a 
very important economic driver. According to a report put together by 
the Federal Government, Americans spend about $36 billion in pursuit of 
birding activities every year. Approximately 1 in 5 Americans--48 
million people--engages in bird watching, and about 42 percent travel 
away from home to go birding. Birding activities also generate about 
$4.4 billion in Federal tax revenues. Birds also naturally provide 
billions of dollars' worth of pest control each year benefiting farmers 
and consumers alike.
    American Bird Conservancy's report, Saving Migratory Birds for 
Future Generations: The Success of the Neotropical Migratory Bird 
Conservation Act found that of our 341 species that are neotropical 
migrants--meaning birds that breed in the United States and Canada and 
winter in Latin America and the Caribbean--127 are in decline. Sixty of 
those species, including 29 songbirds, are in severe decline having 
lost 45 percent or more of their population in the past 40 years. If 
these trends continue, future generations of Americans may never be 
able to see a bright blue Cerulean Warbler, Bell's Vireo, or Black-
chinned Sparrow.
    This trend can be seen all throughout the country. Here in 
Washington, DC for example an annual census of birds in Rock Creek Park 
that started in the 1940s, found that the number of migratory songbirds 
breeding there has dropped by 70 percent over the past half century. 
Three species of warbler (Black-and-white, Hooded, and Kentucky) no 
longer breed there at all. The main reasons for these precipitous 
declines are well established and reported in the 2009 State of the 
Birds Report: The largest source of bird mortality is due to habitat 
loss through conversion for human uses. Resource extraction and a 
growing human population have resulted in more development and land 
conversion for suburban sprawl so there are simply fewer and fewer 
large blocks of unbroken habitat for our native birds.
    The second major impact is from habitat degradation from 
ecologically harmful land uses, such as unsustainable forestry or 
destruction of grasslands to create farm land. Deforestation, 
especially in Latin America, is accelerating at an alarming rate, 
driven by the needs of the rapidly expanding human population, which 
has tripled from 1950-2000. Estimates of the percentage of remaining 
forests that are lost each year in the Neotropics are between 1-2 
percent.

Neotropical Migratory Bird Conservation Act (NMBCA)
    To address these two problems--habitat loss and degradation, both 
of which are rapidly increasing south of our border--ABC respectfully 
suggests that Congress act to help mitigate their impact by continuing 
to fund the Neotropical Migratory Bird Conservation Act grants program 
at the highest level possible. As the Subcommittee knows, the 
Neotropical Migratory Bird Conservation Act supports partnership 
programs in the United States, Canada, Latin America, and the Caribbean 
to conserve migratory birds, especially on their wintering grounds 
where birds of nearly 350 species, including some of the most 
endangered birds in North America, spend their winters. Projects 
include activities that benefit bird populations such as habitat 
restoration, research and monitoring, law enforcement, and outreach and 
education.
    The NMBCA grants program has a proven track record of reversing 
habitat loss and advancing conservation strategies for the broad range 
of Neotropical birds that populate America and the Western Hemisphere. 
The public-private partnerships along with the international 
collaboration they provide are proving themselves to be integral to 
preserving vulnerable bird populations.
    Between 2002 and 2011, the program supported 367 projects, 
coordinated by partners in 48 U.S. States/territories and 35 countries. 
More than $39 million from NMBCA grants has leveraged over $152 million 
in matching funds and $7 million in nonmatching funds. Projects 
involving land conservation have affected about 2 million acres of bird 
habitat. While there are over 100 worthy proposal received each year, 
the program is oversubscribed with funding only available to fund about 
40 projects. From these numbers, it is clear that conservation that 
would benefit our migrant songbirds is not able to take place due to a 
lack of funding for this program. ABC strongly believes expanding this 
program is essential to achieving conservation goals critical to our 
environment and economy. Just as importantly, this Federal program is a 
good value for taxpayers, leveraging over $4 in partner contributions 
for every $1 that we spend. ABC respectfully requests that NMBCA be 
funded at $4 million for fiscal year 2013.

Joint Ventures
    Joint Ventures (JVs) also exemplify a highly successful, cost-
effective approach to conservation. By applying science and bringing 
diverse constituents together, JVs across the United States have 
created a model for solving wildlife management problems and restoring 
habitats critical to conserving declining species. Nationally, JVs have 
protected, restored, or enhanced more than 18.5 million acres of 
important habitat for migratory bird species. There are currently 21 
JVs in the United States that provide coordination for conservation 
planning and implementation of projects that benefit all migratory bird 
populations and other species.
    Joint Ventures have a long history of success in implementing bird 
conservation initiatives mandated by Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies. For every dollar appropriated for Joint 
Ventures leveraged more than $35 in non-Federal partner funds. ABC 
respectfully requests that JVs be funded at $15 million for fiscal year 
2013.
    ABC strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, these Federal programs are good 
values for taxpayers, leveraging over $4 and $30 respectively in 
partner contributions for each one that the taxpayers spend.

North American Wetlands Conservation Act (NAWCA)
    The NAWCA has helped conserve wetlands in North America for more 
than 20 years by providing funding for conservation projects that 
benefit wetland-associated migratory birds in all 50 States, Canada, 
and Mexico. NAWCA has a proven track record of success. The program has 
received more than $1.1 billion in grants for 2,067 projects that have 
leveraged approximately $3.2 billion in matching funds affecting 26.7 
million acres. More than 4,500 partners have fostered public and 
private sector cooperation for migratory bird conservation, flood 
control, erosion control, and water quality. For every dollar of money 
invested in the program, an average of $3.20 is raised to match the 
Federal share by non-Federal entities.
    As an organization that works with migratory birds, which by 
definition cross international borders during their migration patterns, 
we know that protection and restoration of wetland and upland habitat 
must occur across the continent if the goal is to protect the species. 
As a result ABC respectfully requests that NAWCA be funded at $39.5 
million for fiscal year 2013.
    America faces a serious challenge to reverse the decline of many of 
our bird species, but it is possible. Since birds are sensitive 
indicators of how we are protecting our environment as a whole, this 
decline signals a crisis that Congress must act now to reverse it. If 
these reports tell us anything, it is that when we apply ourselves by 
investing in conservation, we can save imperiled wildlife, protect 
habitats, and solve the multiple threats at the root of this problem.
                                 ______
                                 
                 Prepared Statement of American Forests

    Dear Mr. Chairman and Members of the Subcommittee: American Forests 
appreciates the opportunity to submit written public testimony 
regarding our fiscal year 2013 appropriation recommendations. We 
understand the economic realities facing the Nation and the need for 
fiscal responsibility, and we thank this Subcommittee for its support 
of key Federal conservation programs in the fiscal year 2012 
Consolidated Appropriations Act. The return on investing in our 
Nation's forests is great, whether those forests are public or private, 
urban or rural. The economic, social and environmental benefits healthy 
forests provide are clear incentives for Federal investment. American 
Forests funding requests are generally consistent with the President's 
proposals, with the exception of an increase for Forest Health 
Management to $128 million.
    American Forests is a national nonprofit 501(c)(3) conservation 
organization that restores and protects urban and rural forests. 
Founded in 1875, American Forests is the oldest national nonprofit 
conservation organization in the country. Throughout history, American 
Forests has served as a catalyst for many of the most important 
milestones in the conservation movement, including the founding of the 
USDA Forest Service, the national forest and national park system. 
Today, American Forests' primary objectives are: (1) ensuring healthy 
forests and expanding forest cover throughout the United States; (2) 
restoring and protecting threatened forest ecosystems; (3) assuring 
that public and private forests are managed in ways that give high 
priority to ecosystem services; and (4) assessing and managing threats 
such as climate change, invasive species, insects and disease, 
wildfire, and conversion of land to non-forest uses to limit their 
impacts on healthy forests.
    The economic benefits of our Nation's forests highlight the 
importance of American Forests' priorities. For example, combined 
spending on hunting, fishing and wildlife watching associated with 
National Forest System lands totals $9.5 billion in annual retail 
sales, supports 189,400 jobs and provides $1.01 billion in annual 
Federal tax revenues.\1\ Protecting and restoring our forests will 
ensure economic and environmental viability for communities that rely 
on them for clean air, clean water, wildlife habitat, increased health 
and well-being, and recreational opportunities.
---------------------------------------------------------------------------
    \1\ Southwick Associates, ``The Economics Associated with Outdoor 
Recreation, Natural Resources Conservation and Historic Preservation in 
the United States'', October 10, 2011, p. 2.
---------------------------------------------------------------------------
Ensuring healthy forests and expanding cover
    USDA Secretary Vilsack's vision for an ``all-lands'' approach to 
managing forests at the landscape and watershed scale fits with 
American Forests' objectives of ensuring healthy forests in urban and 
rural settings whether privately owned or publically managed. American 
Forests supports the following programs within the USDA to assist 
communities and private land owners with efforts to protect, restore 
and sustainably manage their forests.
    USFS Urban and Community Forestry.--Urban forests are integral to 
any community striving to reinvest in itself, to encourage an active 
and healthy citizenry, and to create a more sustainable environment and 
economy through green infrastructure. American Forests works to better 
understand the environmental, social, and economic benefits of urban 
forests and to encourage greater investment in the protection and 
restoration of urban forests. We support the administration's request 
of $28.04 million. While this is a reduction from the fiscal year 2012 
funding level, we believe that urban forestry activities will fare well 
in the new Landscape Scale Restoration Program which the agency 
proposes as a next step in its redesign effort for State and Private 
Forestry. We support funding the new Landscape Scale Restoration 
Program at $18 million and believe that it will provide opportunity for 
innovative urban forestry projects at a landscape or watershed scale.
    USFS Forest Legacy.--The Forest Legacy Program has become a key 
tool for the Forest Service working in partnership with State 
governments and nonprofit conservation organizations to protect 
environmentally important private forests threatened by conversion to 
non-forest uses. American Forests supports the administration's request 
for an increase over fiscal year 2012 enacted to $60 million.
    USDA NRCS and USFS Farm Bill Conservation Programs.--The NRCS and 
the Forest Service partner with private landowners, providing technical 
and financial assistance to help protect farm and ranch lands and 
private forestlands. The Forest Service provides key assistance for 
management plans on private lands through the Forest Stewardship 
Program. The NRCS has the responsibility for implementing most of the 
landowner assistance programs in the Conservation Title of the 2008 
Farm Bill. In fiscal year 2013, NRCS programs will support conservation 
practices on an additional 27 million acres at a total cost of 
approximately $3.9 billion, and achieve a record total cumulative 
enrollment of nearly 329 million acres in conservation programs such as 
the Conservation Reserve Program, Environmental Quality Incentives 
Program, Conservation Security Program, and the Wildlife Habitat 
Incentives Program. American Forests supports full funding for these 
conservation programs.

Restoring and protecting threatened forests
    Specific forested landscapes need to be prioritized due to their 
level of degradation, ecological importance, or cultural significance. 
American Forests is encouraged by the Forest Service's initiative to 
increase the pace of restoration of the National forests, to prioritize 
those most in peril, and to address restoration needs through an 
integrated landscape-level approach
    USFS Integrated Resource Restoration.--The consolidated budget line 
item for restoration with specific performance measures has the 
potential to increase the rate of restoration in a much more focused 
manner. This focus is evident in the Forest Service's recent report 
``Increasing the Pace of Restoration and Job Creation on Our National 
Forests.'' The 3-region test pilot created in fiscal year 2012 was an 
important first step to fully understand how this integrated effort 
would work. American Forests' supports the concept and believes that 
better outcomes and greater efficiencies can be achieved through more 
widespread use of the IRR, particularly in combination with the 
agency's new Watershed Condition Framework. The Forest Service used 
this framework in 2011 and 2012 to complete its first national 
assessment of watershed health across the entire National Forest 
System, to identify priority watersheds and to prepare Watershed 
Restoration Action Plans. While there is currently no dedicated funding 
for this activity, the agency can make progress on implementing these 
plans through greater use of the IRR.
    USFS Collaborative Forest Landscape Restoration.--American Forests 
truly appreciates the full funding CFLR received in fiscal year 2012. 
The addition of 10 more projects to the program will enhance the 
collaborative and science-based ecosystem restoration of priority 
forest landscapes while benefiting local communities. In the first 2 
years of the program, fiscal year 2010 and 2011, the cumulative outputs 
generated by the projects included: 228 million board feet of timber; 
2,100 jobs created or maintained; $80 million in labor income; 167,000 
acres of hazardous fuels reduction to protect communities; 110,000 
acres of fire prone forest restoration; and 198 miles of road 
conditions improved to reduce sediment in streams. American Forests 
supports the full funding of this program at $40 million.
    USFS FLAME Wildfire Suppression Reserve Fund.--As part of a broad 
coalition supporting FLAME, we believe it is critical to fund FLAME at 
$315 million. The intent of FLAME was to eliminate the need to transfer 
funds from other Forest Service programs in order to fund emergency 
wildfire suppression--a practice that undermined the agency's ability 
to implement other critical programs. Failure to adequately fund FLAME 
this year could force the agency to revert to the old practice and have 
disastrous effects on those programs.

Prioritizing ecosystem services
    American Forests is dedicated to promoting all the ecological and 
societal benefits that forests provide us. Prioritizing protection of 
these forests that provide the ecosystem services saves municipalities 
money in wastewater treatment and stormwater management. They provide 
recreational opportunities and protect wildlife. The Forest Service is 
not the only steward of our Nation's forests, as the Department of the 
Interior's Bureau of Land Management, National Park Service, and Fish 
and Wildlife Service, as well as the Environmental Protection Agency 
have numerous programs dedicated to the health and restoration of 
forested lands. American Forests encourages funding these programs at 
the administration's requested levels.
    BLM National Landscape Conservation System.--The System comprises 
27 million acres of protected public land managed to maintain and 
enhance conservation values and allow for multiple, sustainable uses. 
The System's goal is to conserve, protect, and restore these important 
landscapes for their outstanding cultural, ecological, and scientific 
values. Of the 59 million visitors to BLM lands in 2010, approximately 
20 million visited these units and recreation activities on NLCS units 
created approximately 20,000 jobs. American Forests believes the 
administration's request for $69.55 million is needed to prevent 
critical damage to these resources, ensure proper management and 
provide for quality visitor experiences.
    FWS National Wildlife Refuge System.--The Refuge System, with 556 
refuges on more than 150 million acres across the country is vital to 
protecting America's wildlife and ensuring that these habitats are a 
priority. Visited by approximately 45 million people each year 
generating nearly $4 billion and more than 32,500 jobs to regional 
economies \2\, investment in the Refuge system is imperative. While it 
is well documented that an annual operations and maintenance budget 
should total at least $900 million \3\, American Forests supports the 
administration's request for $494.8 million, an $8.8 million increase 
over fiscal year 2012 enacted.
---------------------------------------------------------------------------
    \2\ The Department of the Interior's Economic Contributions, 2011.
    \3\ Restoring America's Wildlife Refuges 2011: Assets for All 
Americans, Cooperative Alliance for Refuge Enhancement.
---------------------------------------------------------------------------
    FWS Endangered Species Program.--For nearly 40 years, the 
Endangered Species Act has helped prevent the extinction of our 
Nation's treasured wildlife and plant species, many of which thrive in 
forested habitat. While the Act has made significant strides in 
protecting our most imperiled species--99 percent of species protected 
under the Act have been rescued from extinction and 20 species have 
been restored to the point of no longer needing protection--there are 
still major shortfalls. Numerous species in need of protection, 
including the whitebark pine, are precluded from the list due to lack 
of adequate resources. American Forests supports the administration's 
request for an additional $3.74 million over fiscal year 2012 to a 
total of $179.69 million.
    National Park Service.--American Forests was instrumental nearly 
100 years ago in the creation of the national parks and continues to 
this day supporting the service that is the steward of the Nation's 
most cherished natural and cultural resources--397 park units, 23 
national scenic and historic trails, and 58 wild and scenic rivers. 
However, many of these forested parks are threatened by a series of 
stresses. Invasive species and uncontrolled outbreaks of pests have 
left these forested treasures vulnerable. American Forests is dedicated 
to restoring these parks, especially those in the intermountain west 
affected by the mountain pine bark beetle. As such, we support the 
administration's request for funding the National Park System at $2.986 
billion.
    EPA Urban Waters Program.--No ecological boundaries separate urban, 
community and rural forests--and all forests play vital roles in 
delivering clean water to communities of every size. EPA's Urban Waters 
Partnership brings together multiple Federal agencies (including the 
Forest Service) to support stewardship and local restoration efforts to 
improve urban watersheds and accelerate water quality improvements by 
promoting green infrastructure, volunteer monitoring, and outreach to 
communities. American Forests supports the request of $4.7 million.

Managing under a multitude of pressures
    With all that forests provide, we need to better understand the 
multitude of pressures they face and manage them in a sustainable 
manner. Forests can be managed in ways that mitigate the impacts of a 
changing climate, invasive species, insect infestation, disease, large 
wildfires, and conversion to non-forest uses.
    USFS Forest Health Management.--This program provides insect, 
disease, and invasive plant survey and monitoring information on forest 
health conditions on Federal and non-Federal lands and provides 
technical and financial assistance to prevent, suppress, and control 
outbreaks threatening forest resources and watershed conditions. The 
number of acres affected by only the highest priority pests is 
astronomical and the prevention and suppression needs are many. Since 
1997, 41.7 million acres of conifer forests from the west coast to the 
Rocky Mountains have been affected by mountain pine bark beetles. From 
2000-2009, bark beetle caused mortality over an estimated 21.7 million 
acres in the intermountain west. American Forests proposes funding this 
critical program at $128 million in fiscal year 2013, a level higher 
than the administration's request. Our recommendation reflects the need 
to restore funding to a level more consistent with its funding prior to 
fiscal year 2012, when it was cut by $25 million.
    USFS Forest and Rangeland Research.--The Forest Service R&D 
provides scientific information and new technologies to support 
sustainable management of the Nation's forests and rangelands. The 
priority research areas of forest disturbances, forest inventory and 
analysis, watershed management and restoration, urban natural resource 
stewardship, and localized needs are all integral to better 
understanding our forests. American Forests supports the FS Forest and 
Rangeland Research at the Administration's request for $292.79 million.
                                 ______
                                 
          Prepared Statement of the American Forest Foundation

    Investments in the U.S. Forest Service Forest Stewardship Program 
and the U.S. Forest Service Forest Health Program on Cooperative Lands 
will help family forest owners get ahead of increasing threats from 
invasive pests and pathogens, wildfire, and development pressures. It 
is also critical that funding for U.S. Forest Service Forest Inventory 
and Analysis Program and overall Forest Service Research and 
Development is maintained, so these programs continue to provide the 
information and technical resources for landowners to make informed 
decisions about our forests. Investments in forestry programs will help 
strengthen rural communities, support rural jobs, and ensure that 
communities that rely on the clean water and air, wildlife habitat, and 
forest products from these forests, don't face additional costs for 
these services. Additionally, we urge continued support for the 
Environmental Protection Agency's Office of Environmental Education, 
which invests in the future--our children--ensuring the next generation 
is well-prepared to manage our Nation's natural resources.
    Family forest owners are facing a ``perfect storm'' of threats. 
Wildfires, invasive species and other insects and diseases, pressures 
from development, shrinking forest products markets, and ownership 
changes make it harder than ever to keep America's forests healthy and 
productive. It is therefore essential we ensure these families have 
tools, technical information, and policy support to keep their forests 
as forests, for current and future generations.
    The American Forest Foundation (AFF) urges the Subcommittee to 
maintain fiscal year 2012 funding for programs that support good forest 
stewardship on our Nation's 251 million acres of family owned forests 
and ensure the next generation is equipped to conserve and manage these 
forests--for the benefit of all Americans.
    Given the tight budget climate, we understand tough decisions must 
be made. However, we urge you to consider maintaining funding for the 
previously mentioned programs as a high priority, given the impact 
these programs have on rural families and communities, forest 
conservation and the future of our country's forest resources.
    The American Forest Foundation is a nonprofit conservation 
organization that works on the ground through a variety of programs 
including the American Tree Farm System, representing 83,000 Tree 
Farmers who sustainably manage more than 26 million acres under 
rigorous standards. Our mission is to help these families be good 
stewards and keep their forests healthy for future generations. Because 
we know that conserving our forests also means enabling the next 
generation to manage and care for them, AFF is also home to the largest 
environmental education program, Project Learning Tree (PLT). Our 
network of coordinators in all 50 States helps train more than 30,000 
teachers each year in peer-reviewed curricula, correlated to State 
standards. Since its inception, PLT has reached 75 million students, 
helping them learn how to think, not what to think, about complex 
environmental and natural resources issues.
    Families and individuals steward more of America's forests than the 
Federal Government or corporations. Families and individuals own 35 
percent of our Nation's forests.\1\ These private forests provide 
myriad public benefits--clean air, clean water, recreation, renewable 
resources that build our homes and communities, and good-paying rural 
jobs. Family forest owners invest their own time, resources, and energy 
into keeping their forests healthy and ensuring their children and 
grandchildren have the same opportunities. Sometimes families can do 
this on their own, but in many cases, these families need help, both 
technically and financially. In addition to the private, consulting 
forester workforce, every State has a network of reliable and trusted 
service foresters that help family forest owners make good forest 
management decisions. These boots-on-the-ground make all the 
difference.
---------------------------------------------------------------------------
    \1\ USDA, May 2008, Who Owns America's Forests?
---------------------------------------------------------------------------
    Take Steve and Janet Funk, for example. Steve and Janet are our 
2011 National Outstanding Tree Farmers of the Year from Idaho. When the 
couple first purchased their Tree Farm in the early 1970's, it was in a 
state of total disrepair. The stream banks were heavily eroded and the 
forested hillsides were overstocked and severely neglected. Knowing he 
needed professional guidance, Steve looked toward his State forestry 
agency, the Idaho Department of Lands, and local extension programs. 
Steve proceeded to work with these professionals to complete his first 
Forest Stewardship management plan, with the goal of restoring water 
quality, wildlife habitat, and the health and productivity of his 
forest.
    State service foresters were always available to help the Funks 
after a harvest, determine what species were best to plant, and 
determine the best management tactics for maximum productivity. 
Resources from the Forest Stewardship Program were instrumental in 
bringing the Funk's Tree Farm back to life.
    With the proposed cuts to the Forest Stewardship Program, fewer 
family forest owners will have access to State service foresters who 
help millions of America's forest owners keep America's private forests 
healthy. These foresters provide valuable technical advice as well as 
help forest owners write management plans to guide the future 
management of their land. We simply cannot have healthy forests without 
foresters.
    Steve and Janet Funk are just two forest landowners from a 
collection of more than 1,200 forest owners in 48 States who, in the 
last 4 weeks, signed a letter calling on Congress to maintain support 
for the Forest Stewardship Program. These folks can't imagine how they 
would continue sustainably managing our Nation's forests without the 
assistance of our network of State foresters.
    In addition to active landowners like the Funks, there is a large 
portion of family forest owners, estimates suggest close to 95 percent, 
that aren't actively engaged in the management of their lands.\2\ We 
know from the latest trends in forest health and wildfire, that leaving 
nature to take its course is no longer a viable option. We must find 
ways to engage these landowners in active management of their 
woodlands. The Forest Stewardship Program provides support for State 
agencies to reach these landowners and help them engage in management 
that will improve the health of their land.
---------------------------------------------------------------------------
    \2\ Brett J. Butler. 2010. Family Forest Owners of the United 
States, 2006: A Technical Document Supporting the Forest Service 2010 
RPA Assessment.
---------------------------------------------------------------------------
    Proper forest management is critical to ensuring the long-term 
sustainability of our Nation's forests. Every day forests across the 
country face threats from invasive pests and pathogens. 58 million 
acres of forests are at risk of being overtaken by insects, disease, 
and other invasive species, threatening to change the existing 
structure of our forest ecosystems. The implications of this forest 
loss on our Nation's clean water supply, wildlife habitat, recreation, 
renewable energy supply, and rural communities would be devastating.
    Pulling examples from across the country.--Last year, the Asian-
longhorned beetle, which threatens 15 tree species from maples to 
birches, was found, for the first time, in southern Ohio.\3\ In 
California and Arizona, the goldspotted oak borer has already killed 
more than 80,000 live oak and black oak trees in less than 15 years.\4\ 
And in Minnesota, forest owners are gearing up for what would be a 
devastating attack of thousand cankers disease on their black walnut 
trees. These are just a few in a long list of invasive threats our 
forest owners face.
---------------------------------------------------------------------------
    \3\ USDA Agriculture Research Service. 2011. Behavior and Biology 
of the Asian Longhorned Beetle.
    \4\ Center for Invasive Species Research, University of California, 
Riverside. 2011. The Goldspotted Oak Borer.
---------------------------------------------------------------------------
    Efforts such as the U.S. Forest Service Forest Health Program, help 
landowners better understand the threats they face and the management 
techniques which mitigate harm. In the case of the emerald ash borer, 
the Forest Health Program created an integrated program strategy, 
dedicated to reducing the adverse impacts of this pest on Northeastern 
area forests. Similar efforts for other threats are a main focus of 
these programs, ensuring our Nation's forest landowners are equipped 
with the best knowledge to make the most informed management decisions.
    U.S. Forest Service Forest Health Programs are critical tools in 
identifying, mitigating and eliminating the impacts of invasive pests 
and pathogens. Without these programs, our Nation's forests, and the 
livelihoods that depend on them, would be left unprotected.
    Both of these programs, the Forest Stewardship Program and the 
Forest Health Program, must be grounded in sound science and sound 
forest information. That's where the U.S. Forest Service's Forest 
Inventory and Analysis Program and the Agency's Research and 
Development Programs (R&D) come in. These programs provide 
irreplaceable data about our forests, the health and conditions, and 
give landowners the tools to know how to manage the growing threats 
they face. The R&D function is not only essential for providing forest 
management research, it is also on the leading edge of providing new 
information about the use of wood products through life cycle 
assessments. With more information about the environmental and economic 
benefits of using wood products, especially in the growing green 
building market, decisionmakers can make informed building material 
choices. And we believe as the science shows, wood is one of the top 
materials when it comes to reducing greenhouse gas emissions and 
storing carbon, reducing energy consumption and pollution, and creating 
jobs. With more decisionmakers choosing wood, family forest owners have 
more demand for their products which helps ensure they have the 
resources to reinvest in keeping their lands healthy. We urge the 
Subcommittee to support the Forest Stewardship and Forest Health 
programs and we continue to call on the U.S. Forest Service to invest 
in life cycle assessment research in particular.
    Steve, Janet, and our vast network of Tree Farmers also understand 
the importance of educating the next generation of Tree Farmers and 
natural resource managers. The Funks want to ensure that the next 
generation will take on the challenge of good stewardship and continue 
to conserve these lands. This is a growing concern, with 170 million 
acres of family forests expected to change hands in the next few 
decades as family forest owners increase in age.\5\
---------------------------------------------------------------------------
    \5\ Brett J. Butler. 2010. Family Forest Owners of the United 
States, 2006: A Technical Document Supporting the Forest Service 2010 
RPA Assessment.
---------------------------------------------------------------------------
    Steve and Janet, like so many Tree Farmers, do their part to 
educate local schoolchildren on the importance of proper forest 
management. In addition to hosting numerous school tours, every year, 
they coordinate with their State Project Learning Tree Coordinator to 
host more than 40 State teachers on their Tree Farm. These educators 
learn first-hand the many public benefits of healthy forests and the 
management necessary to protect these forest goods and services--
information that then goes back to the classroom, reaching hundreds 
more schoolchildren.
    Programs like the EPA's Office of Environmental Education, 
authorized by the National Environmental Education Act, or the U.S. 
Forest Service's Conservation Education Program, help support Project 
Learning Tree efforts and enable more Tree Farmers, like Steve and 
Janet, to reach even more kids. Without these program resources, fewer 
kids would understand the important connection of our country's well-
being to the natural world. Educating the next generation is key to 
conserving and maintaining healthy forests for the long-run, and these 
education programs make it happen.
    To conclude, AFF recognizes the Subcommittee must find areas to 
reduce spending. We simply ask the Subcommittee to consider the impact 
these reductions may have on the country's more than 10 million family 
forest owners and every American who benefits daily from the benefits 
of well-managed, working forests. We urge the Subcommittee to work to 
maintain funding levels for the U.S. Forest Service's Forest 
Stewardship Program, Forest Health Cooperative Lands Program, Forest 
Inventory and Analysis Program, Research and Development Program, 
Conservation Education Initiative, and EPA's Office of Environmental 
Education.
    I thank the Subcommittee for giving me the opportunity to provide 
some insight on these programs and appreciate consideration of my 
testimony. I am more than happy to answer any questions on these 
programs and our Tree Farm network.
                                 ______
                                 
   Prepared Statement of the Association of Fish & Wildlife Agencies

    This testimony is submitted on behalf of the following members of 
the national Teaming With Wildlife Steering Committee: American 
Fisheries Society; Association of Fish & Wildlife Agencies; Association 
of Zoos & Aquariums; National Audubon Society; Teddy Roosevelt 
Conservation Partnership; The Nature Conservancy; The Wildlife Society; 
and Wildlife Management Institute.
    Chairman Reed and Ranking Member Murkowski and Members of the 
Subcommittee, thank you for this opportunity to offer comments on the 
fiscal year 2013 Interior Appropriations bill. On behalf of the 6,366 
organizations and businesses representing millions of birders, hunters, 
anglers, boaters, hikers, conservation organizations and other outdoor 
enthusiasts, we encourage the subcommittee to provide at least $61.32 
million for the State and Tribal Wildlife Grants program in fiscal year 
2013. This is unchanged from the level funding enacted last year and is 
the same as the Administration's fiscal year 2013 request. We also 
request that the non-Federal match requirement remain at 35 percent and 
that the proportion allocated for tribal and State competitive grants 
remain at 7-9 percent respectively, the same as fiscal year 2012 
enacted.
    Although the need is much greater, level funding would help 
maintain essential capacity to conserve the more than 12,000 species 
that States have identified as at-risk in their State Wildlife Action 
Plans. The State and Tribal Wildlife Grants program is the only Federal 
program with the singular purpose of preventing Federal endangered 
species listings. It is achieving success as highlighted in the State 
Wildlife Grants Success Stories Report which showed how partnerships in 
every State are conserving vulnerable fish and wildlife, including many 
that are candidates for Federal endangered species listing.
    Preventing new endangered species listings is a goal shared by 
conservationists, business, farmers and ranchers and has broad 
bipartisan support. Through early and strategic action, we can be 
successful in preventing new endangered species listings and even 
recover species already on the list, such as the Lake Erie Water Snake, 
which was delisted in September 2011 because of State and Tribal 
Wildlife Grant investments. Adequate and consistent funding for the 
program is essential to fulfillment of the shared Federal-State 
responsibility for keeping our Nation's wildlife from becoming 
endangered. Now more than ever, we should be focusing limited resources 
on this kind of smart, effective investment in conservation.
    The State and Tribal Wildlife Grants program has been cut by one-
third since 2010. The reduction in funding is impacting States' and 
their partner's ability to restore habitat, protect land, incentivize 
private lands conservation, monitor species and habitats and conduct 
research. Past cuts are slowing conservation work and further cuts may 
jeopardize the success of the program, leading to a higher probability 
for future endangered species listings. There is no other program that 
can take the place of the State and Tribal Wildlife Grants program.
    State Wildlife Action Plans, which guide spending of State 
apportioned funds, were developed collaboratively by leading 
scientists, conservationists, sportsmen and private landowners and 
identified the most effective and practical means to prevent wildlife 
from becoming endangered. Congress can demonstrate its commitment to 
these plans in every State and territory by providing the Federal share 
of support, leveraging millions in State and private matching funds. 
This investment in conservation helps support thousands of jobs and the 
$730 billion outdoor recreation industry.
    We ask the subcommittee to support the Administration's request to 
maintain the required non-Federal match at 35 percent, the same level 
as fiscal year 2012 enacted. This level of match will help ensure 
program funds are efficiently put on the ground and will support those 
States still recovering from substantial budget cuts to their nongame 
programs the last several years. In addition, we ask the subcommittee 
to keep the proportion of funds for tribal and State competitive grants 
at roughly the same proportion, approximately 7 percent and 9 percent 
respectively. Although we feel there is an appropriate role for 
competitive grants, particularly for regional and landscape projects, 
we don't feel growth in competitive grants should come at the expense 
of apportioned funding which is at or near its lowest level since 
inception of the program in 2000. Funding provided to States through 
apportionments is already accountable in the following ways:
  --Funding dispersed through apportionments: are directed by State 
        Wildlife Action Plans that were approved by the Director of the 
        U.S. Fish and Wildlife Service; must be subsequently reviewed 
        and approved as grants to the U.S. Fish and Wildlife Service; 
        and will adhere to an effectiveness measures framework that 
        will be incorporated into the U.S. Fish and Wildlife Service's 
        new Wildlife TRACS reporting and tracking system beginning in 
        October 2012.
    We understand and appreciate the fiscal constraints that face our 
Nation. However, the State and Tribal Wildlife Grants program is modest 
compared to the scope of work it funds (proactive conservation in all 
56 States, territories and the District of Columbia) and the importance 
of that work (recovery of some of our Nation's most imperiled fish and 
wildlife). We appreciate the subcommittee's past support for the State 
and Tribal Wildlife Grants program and hope funding can be maintained 
in fiscal year 2013 at or above the fiscal year 2012 level.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute

    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2013 appropriations for 
geoscience programs within the Subcommittee's jurisdiction. AGI is a 
nonprofit federation of 50 geoscientific and professional associations 
that represents more than 250,000 geologists, geophysicists, and other 
Earth scientists who work in industry, academia and government. Founded 
in 1948, AGI provides information services to geoscientists, serves as 
a voice of shared interests in our profession, plays a major role in 
strengthening geoscience education, and strives to increase public 
awareness of the vital role the geosciences play in society's use of 
resources, resilience to natural hazards, and the health of the 
environment. We ask the Subcommittee to support and sustain the 
critical geoscience work in the United States Geological Survey (USGS), 
the National Park Service and the Smithsonian Institution. Specifically 
we ask for $1.2 billion for USGS, $333 million for the National Park 
Service's Resource Stewardship Program, and $857 million for the 
Smithsonian Institution.
    As the U.S. economy improves, the Nation must continue to focus on 
intersecting needs for energy resources, water resources, mineral 
resources, soil resources and healthy ecosystems. To speed up the 
recovery of our economy and workforce, we need to sustain and 
efficiently use our natural resources and cost-effectively improve our 
quality of life and the quality of the environment, while reducing 
risks from natural hazards. The USGS is the Nation's only natural 
resource science agency that can provide the objective data, 
observations, analyses, assessments, and scientific solutions to these 
intersecting critical needs.

U.S. Geological Survey
    Virtually every American citizen and every Federal, State, and 
local agency benefits either directly or indirectly from USGS products 
and services. A wide variety of industries rely on USGS for assessments 
and data to reduce their costs and risks and to help them develop their 
own products and services. As was made clear by the National Research 
Council report ``Future Roles and Opportunities for the U.S. Geological 
Survey'', the USGS's value to the Nation goes well beyond the 
Department of the Interior's stewardship mission for public lands.
    USGS addresses a wide range of important problems facing the 
Nation: natural hazards, environmental change, water resources, waste 
disposal, and energy and mineral resources. AGI in Critical Needs for 
the Twenty First Century: The Role of the Geosciences lists seven 
critical and policy actions to help the Nation meet these needs through 
the geosciences, including the USGS (available online at 
www.agiweb.org/gap/criticalneeds/index.html). With a burgeoning human 
population, rising demand for natural resources and the rising costs of 
natural hazards, it is critical to more fully integrate USGS data and 
understanding into actions for a sustainable world. The USGS plays a 
prominent role in meeting national needs, while growing the economy, 
building a skilled workforce and ensuring a natural resource-literate 
public.
    AGI strongly supports smart growth of about $98 million compared to 
the USGS fiscal year 2013 request for a total budget of $1.2 billion. 
Please avoid proposed cuts of $48 million and distribute an additional 
$50 million for energy, minerals, water, hazards, geospatial analyses, 
mapping and data preservation. Enhancing infrastructure, observations, 
data and understanding builds the workforce inside and outside of the 
Survey and spurs economic growth through wise resource management.
    Mineral Resources Program.--The value of domestically processed 
mineral materials was about $633 billion in 2011. The USGS Mineral 
Resources Program (MRP) is the only entity, public or private, that 
provides an analysis and assessment of the raw materials and processed 
minerals accessible from domestic and global markets. This highly 
regarded research program is the Nation's premier credible source for 
regional, national and global mineral resource and mineral 
environmental assessments, statistics and research critical for sound 
economic, mineral-supply, land-use and environmental analysis, planning 
and decisionmaking. Not only does the program track global commodities, 
it prepares assessments such as the recent report on rare earth element 
deposits in the United States.
    The data and analyses of the MRP are used by the Department of the 
Interior, Department of Defense, the Central Intelligence Agency, the 
Department of State, the Federal Reserve, other Federal, State and 
local government entities, foreign governments, private companies and 
the general public. Analyses based on the MRP data are essential for 
guiding economic and environmental policy and for providing options for 
land use decisions posed by industry, government and private land 
owners. We urge the Subcommittee to support the Mineral Resources 
Program at a level of $54 million so that it may perform its core 
missions without a loss of critical information and jobs. This level is 
the same as the fiscal year 2010 and fiscal year 2005 levels and more 
than the fiscal year 2013 request of $45 million.
    Please avoid proposed cuts of $5.25 million in Mineral Resources to 
research related to minerals and human health, research on rare earth 
elements, analysis and assessments of resources in Alaska and in other 
countries, jobs associated with this work and external funding for 
States and universities.
    AGI appreciates the consolidation of Energy, Minerals and 
Environmental Health, but we are concerned about two significant 
proposed cuts. Please avoid cuts of $1 million to the Energy Resources 
Program's State Cooperative Project for assessments of coal and oil 
shale resources. Please avoid cuts of $2 million to Toxic Substances 
Hydrology to reduce research on pharmaceuticals, pesticides, and other 
emerging contamination as well as environmentally robust approaches to 
uranium resource extraction and shale gas development.
    Water Program.--AGI is concerned with the decreased funding in the 
President's request for USGS's Water Resources Programs. The USGS is 
the Nation's premier Federal water science agency and knowledge about 
water quality and quantity is necessary for economic growth and to 
avoid catastrophes. Going forward for fiscal year 2013, AGI supports 
efficient budgets to sustain many critical water programs including 
National Streamflow Information, Ground Water Monitoring Network, the 
National Water Quality Assessment (NAWQA), Hydrologic Research and 
Development, Hydrologic Networks and Cooperative Water. We respectfully 
ask that water programs in the fiscal year 2013 request be restored to 
a total budget of $231 million, by removing proposed cuts to the 
Cooperative Water program (-$5 million in request), the Water Resources 
Research Act (-$6.5 million), the National Water Quality Assessment 
Program (-$6.5 million), and Hydrologic Networks and Analysis (-$3.7 
million).
    Please avoid proposed cuts to the Cooperative Water program to 
eliminate research and monitoring of local to State level water quality 
and availability or cuts to Water Resources Research which eliminates 
research grants to 54 institutes at universities. Please avoid proposed 
cuts to the National Water Quality Assessment Program for reductions in 
monitoring sites, well water sampling, and laboratory methods 
development for pharmaceuticals, pesticides, antibiotics, and other 
emerging contaminants in water systems or to the Hydrologic Networks 
and Analysis which eliminates real time and archived water resources 
data for all users.
    National Earthquake Hazards Reduction Program (NEHRP) and Other 
Natural Hazards.--A key role for the USGS is providing the research, 
monitoring, and assessment that are critically needed to better prepare 
for and respond to natural hazards. The tragic earthquake/tsunami in 
Japan and the Indian Ocean, the massive earthquakes in New Zealand, 
Chile, Haiti, Pakistan, and Wenchuan, and the local earthquake in 
Mineral, Virginia remind us of the need for preparation, education, 
mitigation and rapid response to natural hazards. Several National 
Academies' reports and studies by other hazard experts have shown that 
mitigation and preparation reduces fatalities, injuries and economic 
losses. With great forethought, the Earthquake Hazards Reduction 
Authorization Act of 2000 (Public Law 106-503) called for modernization 
of existing seismic networks and for the development of the Advanced 
National Seismic System (ANSS)--a nationwide network of shaking 
measurement systems focused on urban areas. ANSS can provide real-time 
earthquake information to emergency responders as well as building and 
ground shaking data for engineers and scientists seeking to understand 
earthquake processes and mitigate damage.
    With 2,142 of 7,100 stations in operation at the end of fiscal year 
2011, the ANSS is far from achieving its goals. Critical investments 
now will help to reduce earthquake risks; help to create jobs and grow 
the economy by improving and modernizing seismic networks and the built 
environment; help support external earthquake research and education 
efforts; and help to support other major earthquake science 
initiatives, such as the EarthScope Observatories run by NSF. A major 
component of EarthScope is a seismic network that is moving across the 
country and is appropriately complemented and connected to ANSS. Given 
all of these factors, now is really the time to increase investments in 
USGS-NEHRP through the Earthquake Hazards Program. AGI strongly 
supports reauthorization of NEHRP in 2012 (H.R. 3479/S. 646), the 
passage of the Volcano Warning Act (S. 566) and appropriations to meet 
the goals of both measures in fiscal year 2013. AGI strongly supports 
robust appropriations of at least the request for the Earthquake 
Hazards Program ($58.9 million), the Volcano Hazards Program ($25 
million) and Landslide Hazards Program ($3.9 million).
    National Cooperative Geologic Mapping Program (NCGMP).--AGI is very 
grateful to Congress for passing the re-authorization of the National 
Cooperative Geologic Mapping Program in the 2009 public lands omnibus 
(Public Law 111-11, Sec. 11001). This important partnership between the 
USGS, State geological surveys, and universities provides the Nation 
with fundamental data for addressing natural hazard mitigation, water 
resource management, environmental remediation, land-use planning, and 
raw material resource development. AGI supports a modest increase of 
$1.5 million for the National Cooperative Geologic Mapping Program for 
a total of $29.5 million in fiscal year 2013. This additional support 
would restore the Federal and State Partnerships to almost fiscal year 
2010 levels; still far below authorized levels of $64 million.
    National Geological and Geophysical Data Preservation Program 
(NGGDP).--The data preservation program (Public Law 109-58, Sec. 351) 
is administered by the U.S. Geological Survey in partnership with State 
Geological Surveys and other stakeholders. Private and public entities 
collect geologic and geophysical data in the form of paper records, 
digital files, and physical samples. Often these data and samples are 
given to State geological surveys either voluntarily or because of 
regulatory statutes. These data are worth far more than the cost of 
preserving them because they provide information about natural 
resources and natural hazards that are used by others for business or 
safety. The program generates more value in terms of economic 
development, environmental stewardship, hazard mitigation and 
fulfilling regulatory requirements than it costs to run.
    The President's budget request for fiscal year 2013 places the 
NGGDP and the Biological Information Management and Delivery Program 
within a single subactivity called Science Synthesis, Analysis, and 
Research. AGI supports an appropriation of $1 million, the same as the 
fiscal year 2010 amount to sustain the program.

Smithsonian Institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the Subcommittee to support Smithsonian research with steady 
funds that are a tiny fraction of the overall budget, but will 
dramatically improve the facilities and their benefit to the country. 
We strongly support the President's request of $856.8 million for the 
Smithsonian Institution in fiscal year 2013.

National Park Service
    The national parks are very important to the geoscience community 
and the public as unique national treasures that showcase the geologic 
splendor of our country and offer unparalleled opportunities for 
research, education and outdoor activities. The National Park Services' 
Geologic Resources Division was established in 1995 to provide park 
managers with geologic expertise. Working in conjunction with USGS and 
other partners, the division helps ensure that geoscientists are 
becoming part of an integrated approach to science-based resource 
management in parks. AGI supports the President's small increase ($333 
million for NPS Resource Stewardship for fiscal year 2013) so the NPS 
can adequately address the treasured geologic resources in the National 
Parks, especially as the National Parks approach their 100th 
anniversary.
    Thank you for the opportunity to present this testimony to the 
Subcommittee. If you would like any additional information for the 
record, please contact Linda Rowan at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1765786076795776707e60727539786570">[email&#160;protected]</a>, or 4220 King 
Street, Alexandria, Virginia 22302-1502.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences

    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), United States Forest 
Service (USFS), and Environmental Protection Agency (EPA) for fiscal 
year 2013. AIBS encourages Congress to provide the USGS with at least 
$1.2 billion in fiscal year 2013, with at least $177.9 million for the 
Ecosystems activity. We further request that Congress provide the USFS 
Forest and Rangeland Research program with at least $295.3 million, and 
EPA's Office of Research and Development with at least $600 million.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has nearly 160 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.

                         U.S. GEOLOGICAL SURVEY

    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector decision-
makers. Data generated by the USGS save taxpayers money by reducing 
economic losses from natural disasters, allowing more effective 
management of water and natural resources, and providing essential 
geospatial information that is needed for commercial activity and 
natural resource management. The data collected by the USGS are not 
available from other sources and our Nation cannot afford to sacrifice 
this information.
    The Ecosystems activity within USGS underpins the agency's other 
science mission areas by providing information needed for understanding 
the impacts of water use, energy exploration and production, and 
natural hazards on natural systems. The USGS conducts research on and 
monitoring of fish, wildlife, and vegetation--data that informs 
management decisions by other Interior bureaus regarding protected 
species and land use. USGS science is also used to control invasive 
species and wildlife diseases that can cause billions of dollars in 
economic losses. Collectively, the knowledge generated by these USGS 
programs is used by Federal and State natural resource managers to 
maintain healthy and diverse ecosystems while balancing the needs of 
public use.
    Other examples of successful USGS Ecosystem initiatives include:
  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan fuel reduction projects.
  --Identification of white-nose syndrome, a fungus that is devastating 
        U.S. bat populations and could jeopardize the multi-billion 
        dollar pest control services provided by bats.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species.
  --Study of the impacts of solar energy and other next generation 
        energy sources on wildlife and endangered species.
    Through the Cooperative Research Units, the USGS and their partners 
address pressing issues facing natural resource managers at the local, 
State, and Federal levels. Examples of recent research initiatives 
include studying the effects of the Gulf of Mexico oil spill on 
wildlife and fisheries, and improving management of elk and waterfowl. 
In addition to providing research expertise, these partnerships at 40 
universities in 38 States serve as important training centers for 
America's next generation of scientists and resource managers. More 
than 500 graduate students each year receive training by USGS 
scientists at Cooperative Research Units. The program is also an 
efficient use of resources: each Federal dollar invested in the program 
is leveraged more than three-fold.
    The National Streamflow Information Program within the Water 
Resources mission area provides needed information for resource 
managers and scientists. Its national network of streamgages records 
changes in streamflow due to alterations in precipitation, land use, 
and water use. This information is vital to State and local 
governments, utilities, and resource managers who make decisions about 
water use.
    The requested fiscal year 2013 budget would support several science 
priorities. The proposed budget would enable the USGS to develop 
methodologies to better prevent, detect, and control Asian carp and 
other invasive species. USGS would also be able to provide enhanced 
surveillance and diagnostic tools, and to develop management tools for 
white-nose syndrome and other ecologically and economically costly 
wildlife diseases. Additionally, USGS would be able to study and better 
inform decisions about new energy sources. Importantly, the proposed 
budget would increase support for USGS research on high priority 
conservation and land use issues faced by other Interior bureaus, which 
lack intramural scientific resources to study these issues.
    Although the proposed budget supports many USGS priorities, the 
requested funding level would result in cuts to other programs that 
support agency core missions. For instance, USGS would have to diminish 
efforts to assess the Nation's water quality and reduce studies on the 
impacts of environmental contaminants. Given the agency's critical role 
in informing the environmental and economic health of the Nation, more 
support is justified. We urge Congress to fully fund the USGS by 
restoring Administration-proposed reductions to core science programs 
and operations costs while maintaining the proposed increases for other 
areas.
    In summary, the USGS is uniquely positioned to provide a scientific 
context for many of the Nation's biological and environmental 
challenges, including water quality and use, energy independence, and 
conservation of biological diversity. Biological science programs 
within the USGS gather long-term data not available from other sources. 
These data have contributed fundamentally to our understanding of the 
status and dynamics of biological populations and have improved our 
understanding of how ecosystems function, all of which is necessary for 
predicting the impacts of land management practices and other human 
activities on the natural environment. This array of research expertise 
not only serves the core missions of the Department of the Interior, 
but also contributes to management decisions made by other agencies and 
private sector organizations. USGS science is also cost-effective, as 
the agency's activities help to identify the most effective management 
actions. In short, increased investments in these important research 
activities will yield dividends.

                          U.S. FOREST SERVICE

    United States Forest Service research provides scientific 
information and new technologies to support sustainable management of 
the Nation's forests and rangelands. These products and services 
increase the basic biological and physical knowledge of the 
composition, structure, and function of forest, rangeland, and aquatic 
ecosystems.
    The fiscal year 2013 budget request would cut funding for the 
Forest and Rangeland Research by $2.5 million. If enacted, the budget 
would reduce the Forest Service's capacity to conduct research relevant 
to wildfires, control of invasive species, and management of wildlife 
and fish. Given the importance of this scientific work to the 
management of public and private lands, we urge Congress to fund the 
program at the fiscal year 2012 enacted level.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Office of Research and Development (ORD) supports valuable 
extramural and intramural research that is used to identify and 
mitigate environmental problems facing our Nation. ORD research informs 
decisions made by public health and safety managers, natural resource 
managers, businesses, and other stakeholders concerned about air and 
water pollution, human health, and land management and restoration. In 
short, ORD provides the scientific basis upon which EPA monitoring and 
enforcement programs are built.
    Despite the important role played by ORD, its funding has declined 
by 11 percent since fiscal year 2004, when it peaked at $646.5 million. 
At $575.6 million, the budget request for fiscal year 2013 falls far 
short of addressing past and current shortfalls. We ask that Congress 
restore funding for ORD to at least the fiscal year 2010 level.
    The Ecosystem Services Research program within ORD is responsible 
for enhancing, protecting, and restoring ecosystem services, such as 
clean air and water, rich soil for crop production, pollination, and 
flood control. The program has been chronically underfunded, according 
to the EPA Science Advisory Board (SAB). Indeed, the current level of 
funding ``provides inadequate funding for research that supports 
multiple EPA regulatory programs and that the SAB has characterized as 
transdisciplinary with the `potential to be transformative for 
environmental decisionmaking' . . . ,'' according to an SAB analysis of 
the fiscal year 2012 budget request. The fiscal year 2013 request fails 
to correct this problem, instead proposing a reduction of $600,000. 
Moreover, funding for EPA ecosystem research has been cut nearly in 
half since 2004. We ask that Congress address the chronic underfunding 
of the program.
    The Science to Achieve Results (STAR) program supports valuable 
research on human health and the environment through competitively 
awarded research grants. The program enables EPA to fill information 
gaps that are not addressed by intramural EPA research programs or by 
other agencies. A report by the National Academy of Sciences found that 
the ``STAR program is an important part of the overall EPA research 
program.'' That same report recommends that funding for the STAR 
program should be at 15 to 20 percent of the overall ORD budget, ``even 
in budget-constrained times.'' Despite a proposed increase for the 
program, the fiscal year 2013 request would fund STAR at less than 15 
percent of the overall ORD budget. We urge Congress to fund STAR at the 
recommended level.
    The STAR Graduate Fellowship contributes to the training of the 
next generation of scientists by supporting graduate students pursuing 
an advanced degree in environmental science. The National Academy of 
Sciences called the fellowship ``a valuable mechanism for enabling a 
continuing supply of graduate students in environmental sciences and 
engineering.'' Since its inception in 1995, this successful program has 
supported the education and training of 1,500 fellows who have gone on 
to pursue careers as scientists and educators. The agency's request 
would flat fund the program. Given the fellowship's valuable role in 
preparing environmental scientists and engineers, we ask for the 
program's funding to be increased accordingly.
    ORD's Safe and Sustainable Water Resources program supports 
research that underpins safe and sustainable water. In addition to 
helping to ensure safe drinking water for society, the program's 
research focuses on better understanding resiliency of watersheds to 
stressors and factors that affect watershed restoration. The budget 
request would allow the program to pursue research that will inform 
decisions about water safety and to ensure the sustainability of our 
coastal watersheds and estuaries.
    In conclusion, we urge Congress to restore funding for the ORD to 
the fiscal year 2010 enacted level. These appropriation levels would 
allow ORD to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium

                            REQUEST SUMMARY

    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which compose the American Indian Higher Education Consortium (AIHEC), 
thank you for this opportunity to present our fiscal year 2013 
appropriations recommendations for the 29 colleges funded under the 
Tribally Controlled Colleges and Universities Assistance Act (Tribal 
College Act); the Bureau of Indian Education postsecondary 
institutions; and the Institute of American Indian Arts. The Bureau of 
Indian Education administers these programs, save for the Institute of 
American Indian Arts, which is congressionally chartered and funded 
directly through the Department.
    In fiscal year 2013, TCUs seek $82,872,000 for institutional 
operations, an endowment program, and technical assistance grants under 
the Tribally Controlled Colleges and Universities Assistance Act of 
1978 or Tribal College Act; of which, $73.5 million for Titles I and II 
grants (27 TCUs); $109,000 for Title III (endowment grants), and 
$601,000 for technical assistance. In fiscal year 2011, the clear 
intent of Congress was to level fund the institutional operating grants 
for the TCUs funded under Titles I and II of the Tribal College Act, 
having appropriated the same funding level for the overall pot of funds 
available to support Tribal College Act programs. However, because of a 
spike in enrollments at the TCUs, the operations funding actually 
dropped by $549 PER Indian student. TCUs are being penalized for their 
successful efforts to recruit and retain students. Our fiscal year 2013 
request restores the funding for institutional operating grants to the 
fiscal year 2010 level based on the per Indian student allocation.
    AIHEC's membership also includes tribally controlled postsecondary 
career and technical institutions whose institutional operations 
funding is authorized under Title V of the Act; AIHEC supports their 
request for $9.372 million. There are three other TCUs funded under 
separate authorities within Interior appropriations, namely: Haskell 
Indian Nations University, Southwestern Indian Polytechnic Institute, 
and the Institute of American Indian Arts. AIHEC supports their 
independent requests for support of the institutional operating budgets 
of these institutions.

                  NEED FOR CHANGE IN FUNDING STRATEGY

    Today there are 37 TCUs operating over 75 campuses in 15 States. 
These institutions, accredited by independent, regional accreditation 
agencies and like all institutions of higher education must undergo 
stringent performance reviews on a periodic basis to retain their 
accreditation status, were begun specifically to serve the higher 
education needs of American Indians. Annually, these institutions serve 
students from well over 250 federally recognized tribes, more than 75 
percent of whom are eligible to receive Federal financial aid.
    A process should be articulated, beginning in the fiscal year 2013 
Interior appropriations bill, to compare and fund TCUs annually on a 
``per Indian student'' basis, as authorized under the Tribally 
Controlled Colleges and Universities Assistance Act, rather than a lump 
sum. The current funding strategy fails to take into account annual 
growth in TCU student populations, so what might look like ``level'' 
funding year to year actually translates into annual funding decreases. 
TCU student enrollments are growing as TCUs work to help meet national 
education (completion) and accountability (retention) goals, but the 
overall funding pot is remaining nearly stagnant. In fiscal year 2011 
alone, TCUs grew by more than 1,660 full-time Indian students. This 
growth, encouraged by the Federal Government, resulted in a loss of 
funding of $549/full-time Indian student, or $9.2 million, in just 1 
year, compared to the TCUs' fiscal year 2010 funding level.
    Congress put the student-based funding formula in law to help 
reflect the realities of operating small and geographically remote 
higher education institutions engaged in strengthening tribal 
communities and growing American Indians in postsecondary education. 
But over the years, appropriations have focused on the overall dollar 
amount, with no attention to how that impacts a TCU's actual operating 
budget when allocated per student. It is imperative that a student-
focused formula be employed when determining funding priorities.
    This is not simply a matter of appropriations fluctuating greatly 
and continually falling short of an authorization; it effectively 
impedes our institutions from having the necessary resources to grow 
their programs in response to the changing needs of their students and 
the communities they serve. Ultimately, the TCUs need to be fully 
funded at the authorized level of $8,000 per Indian student. To 
illustrate the reasonableness of this request, Howard University (HU), 
located in the District of Columbia, is the only other minority-serving 
institution, besides the TCUs, to receive basic institutional 
operations funding from the Federal Government. The similarity ends 
there as HU's Federal support (exclusive of its medical school) amounts 
to over $19,000 per student. In contrast, the majority of the TCUs 
currently receives $5,235 per Indian student, with no Federal funding 
toward basic operations for the non-Indian students, which account for 
approximately 20 percent of TCU enrollments. HU needs this funding--no 
question. So do TCUs.

                         FURTHER JUSTIFICATIONS

    TCUs provide critical access to vital postsecondary education 
opportunities.--Tribal Colleges and Universities provide access to 
higher education for American Indians and others living in some of the 
Nation's most rural and economically depressed areas. According to U.S. 
Census data \1\, the annual per capita income of the U.S. population is 
$26,059. By contrast, the annual per capita income of American Indians 
is $15,671 or about 40 percent less. In addition to serving their 
student populations, TCUs offer a variety of much needed community 
outreach programs.
---------------------------------------------------------------------------
    \1\ Source: U.S. Census Bureau, 2010 American Community Survey.
---------------------------------------------------------------------------
    TCUs are producing a new generation of highly trained American 
Indian teachers, tribal government leaders, nurses, engineers, computer 
programmers, and other much-needed professionals.--By teaching the job 
skills most in demand on their reservations, TCUs are laying a solid 
foundation for tribal economic growth, with benefits for surrounding 
communities. In contrast to the high rates of unemployment on 
reservations, graduates of TCUs are employed in ``high need'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, and nurses/healthcare providers. Just as 
important, the vast majority of tribal college graduates remain in 
their tribal communities, applying their newly acquired skills and 
knowledge where they are most needed.
    TCUs meet the strict standards of mainstream accreditation boards 
offering top quality academic programs; contributing to the achievement 
of the national graduation goal, and serving as effective bridges to 4-
year institutions of higher learning.--A growing number of TCUs have 
attained a 10-year accreditation term, the longest term granted to any 
higher education institution. All TCUs offer associate degrees with 13 
offering bachelor's and 2 conferring master's degrees, making TCUs a 
critical component in achieving the national goal to once again lead 
the world in the percentage of the population with college degrees by 
2020. Additionally, TCUs' transfer function from 2-year to 4-year 
degree institutions is significant. An independent survey of TCU 
graduates conducted for the American Indian College Fund indicated that 
more than 80 percent of respondents who attended a mainstream college 
prior to enrolling at a TCU did not finish the degree they were 
pursuing at the mainstream college. The rate of completion markedly 
improved for those who attended a TCU prior to beginning a degree 
program at a mainstream institution. After completing tribal college 
coursework, less than half of respondents dropped out of mainstream 
colleges, and nearly 40 percent went on to earn a bachelor's degree. 
This clearly illustrates TCUs' positive impact on the persistence of 
American Indian students in pursuit of baccalaureate degrees. The 
overwhelming majority of respondents felt that their TCU experience had 
prepared them well for further education and noted that it had a very 
positive influence on their personal and professional achievements.

                            ADDITIONAL FACTS

    Enrollment Gains and New TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since 1981, appropriations 
have increased at a disproportionately low rate. Since they were first 
funded, the number of tribal colleges has quadrupled and continues to 
grow; Indian student enrollments have risen over 370 percent. Between 
fiscal year 2005 and fiscal year 2012, five additional TCUs have become 
accredited and eligible for funding under Title I of the Tribal College 
Act. TCUs are in many ways victims of their own successes. The growing 
number of tribally chartered colleges and universities being 
established and increasing enrollments have forced TCUs to slice an 
already inadequate annual funding pie into even smaller pieces.
    Local Tax and Revenue Bases.--TCUs cannot rely on a local tax base 
for revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 60 percent.
    Federal Trust Responsibility.--The emergence of TCUs is a direct 
result of the special relationship between American Indian tribes and 
the Federal Government. TCUs are founded and chartered by their 
respective American Indian tribes, which hold a special legal 
relationship with the Federal Government, actualized by more than 400 
treaties, several Supreme Court decisions, prior Congressional action, 
and the ceding of more than 1 billion acres of land to the Federal 
Government. Beyond the trust responsibility, the fact remains that TCUs 
are providing a public service that no other institutions of higher 
education are willing, or able, to provide by helping the Federal 
Government fulfill its responsibility to the American people, 
particularly in rural America. Despite the fact that only enrolled 
members of a federally recognized tribe or the biological child of a 
tribal member may be counted as Indian students when determining an 
institution's share of the operating funds, TCUs have open enrollment 
policies. Approximately 20 percent of TCU enrollments are non-Indians. 
These institutions are simply and effectively providing access to 
quality higher education opportunities to reservation community 
residents.
    Gaming and the TCUs.--Although several of the reservations served 
by TCUs do have gaming operations, these are not the mega casinos 
located in proximity to urban outlets and featured in the mainstream 
media. Only a handful of TCUs receive regular income from the 
chartering tribe's gaming revenue, and the amounts received vary 
greatly from year to year. Most reservation casinos are small 
businesses and use the gaming revenue to improve the local standard of 
living and potentially diversify into other, more sustainable areas of 
economic development. In the interim, where relevant, local TCUs offer 
courses in casino management and hospitality services to formally train 
tribal members to work in the local tribally run casinos.
    Although some form of gaming is legalized in 48 States, the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to public colleges or 
universities that are State-run.
    It has been implied that those tribes that operate the few 
enormously successful and widely publicized casinos should be financing 
higher education for all American Indians. However, no State is 
expected to share its gaming revenue with a non-gaming State.
   president's budget and appropriations request for fiscal year 2012
    As noted earlier, it has been three decades since the Tribal 
College Act was first funded, and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level. To fully 
fund the TCUs institutional operating grants would require an increase 
of $27 million over the current funding level. However, we do recognize 
the budget constraints the Nation is currently facing and consequently, 
we are not requesting that level of increase in fiscal year 2013, but 
rather seek to restore funding to the fiscal year 2010 level of $5,784 
per Indian student, which calls for an increase of $ $6.1 million over 
fiscal year 2012 and $3.7 million over the President's fiscal year 2013 
budget request. Additionally, we seek to maintain level funding for the 
technical assistance grants, as included in the President's fiscal year 
2013 budget request. Details of the request are outlined in the Request 
Summary above.

                               CONCLUSION

    Tribal Colleges and Universities provide quality higher education 
to many thousands of American Indians who might otherwise not have 
access to such opportunities. The modest Federal investment that has 
been made in TCUs has paid great dividends in terms of employment, 
education, and economic development. Continuation of this investment 
makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your serious 
consideration of our fiscal year 2013 appropriations requests.
                                 ______
                                 
        Prepared Statement of the Ala Kahakai Trail Association

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    The Ala Kahakai Trail Association is a partner to the Ala Kahakai 
National Historic Trail and an active member of the Partnership for the 
National Trail System. The Board is made up of individuals who have 
genealogical ties to the trail and have been and continue to work 
toward the preservation and protection of the approximate 175 miles of 
coastal trail. Many portions of the trail are in immediate danger of 
encroaching development which would significantly compromise the 
integrity and historical value of the trial.
    An analogy one member of our Board used was to liken the national 
trails as the string holding a lei together. Without the string, the 
flowers would remain separate. However, by stringing the flowers 
together a beautiful lei is created. This is the same for the national 
parks. The trails serve as a string to link national parks together. In 
the case of the Ala Kahakai NHT, the trail links four national parks; 
Puu Kohola NHP; Koloko-Honokahau NHP; Pu`uhonua O Honaunau NHP and the 
Volcanoes NP.
    Portions of the Ala Kahakai NHT are already in eminent danger. In 
recent past, a new subdivision road was paved within feet of the trail 
leading to potential damage by vehicular traffic, all terrain vehicles 
and unmonitored use of the fragile trail system. One preventative 
action is to acquire lands bordering the trail to secure protection 
against irreversible damage. The Ala Kahakai Trail Association is ever 
vigilant in seeking opportunities to acquire properties or to create 
wider buffers for the entire length of the trail. Our association has 
established partnerships with county, State and Federal agencies as 
well as with communities along the trail to fulfill this mission and to 
optimize efforts in protecting the trail.
    The Ala Kahakai Trail Association is writing in support for the 
acquisition in fiscal year 2013 by the National Park Service of a 59-
acre property located on the Ala Kahakai NHT and immediately adjacent 
to the southern boundary of Pu`uhonua O Honaunau NHP. Acquisition of 
the Pace property in the Kauleoli ahupua`a of South Kona, with its over 
half-mile of shoreline, will complement recent protection efforts at 
the national historic park and provide additional recreational 
opportunities for users of the Ala Kahakai Trail.
    The Kauleoli property represents an opportunity to protect land of 
historic and ecological significance, and its acquisition will further 
the missions of two National Park Service units. It lies within the 
priority area identified in the management plan of the trail, and its 
addition will provide further protection to the outstanding resources 
for which Pu`uhonua O Honaunau NHP is renowned. The landowners are 
currently willing to make this stunning landscape available for public 
ownership. There is real danger, however, that the land could be sold 
for development if sufficient funding is not forthcoming in a timely 
fashion.
    To protect these 59 acres with their historical, cultural, and 
ecological resources, the National Park Service needs $4.5 million from 
the Land and Water Conservation Fund for the Ala Kahakai NHT. This 
acquisition is eligible for funding under the National Trails program 
requested in the President's budget for fiscal year 2013.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Ala Kahakai 
NHT. I want to thank the Chairman and the members of the subcommittee 
for this opportunity to submit testimony on behalf of this nationally 
important protection effort in Hawaii, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                    SUMMARY: FUNDING RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
U.S. Environmental Protection Agency:
    Improving Air Quality and Addressing Climate Change:
        Federal Stationary Source Regulation...............         34.1
        Federal Support of Air Quality Management..........        134.8
        Climate Protection Programs........................        108.0
        Clean Air Allowance Trading Program................         20.8
        State and Local Air Quality Management Grants......        301.5
        Diesel Emission Reduction Act Grants...............         30.0
        Federal Vehicle and Fuels Certification............        101.9
    State Indoor Radon Grants..............................          8.0
    Indoor Air: including Radon Program....................          4.1
    Research: Air, Climate and Energy......................        105.8
    Enforcement............................................         15.8
------------------------------------------------------------------------

    The American Lung Association is pleased to support the 
Environmental Protection Agency's (EPA) program to improve the nation's 
air during fiscal year 2013. The American Lung Association was founded 
in 1904 to fight tuberculosis and today, our mission is to save lives 
by improving lung health and preventing lung disease. We urge the 
Committee to support ensuring that the U.S. Environmental Protection 
Agency has the necessary resources to protect the public health from 
air pollution, and we urge the Committee to pass an fiscal year 2013 
bill free from any policy riders.
    Protecting the public from the health threats of pollution is a 
core mission of the EPA, and it has a long history of success. 
Furthermore, the public expects EPA to implement the Clean Air Act and 
strongly supports EPA's effort to reduce air pollution. In March, we 
released a bipartisan public opinion poll that shows strong public 
support the EPA's efforts to update clean air protections. Nearly 
three-quarters (73 percent) of voters say that we do not have to choose 
between air quality and a strong economy--we can achieve both. And a 2-
to-1 majority (60 to 31 percent) believes that strengthening safeguards 
against pollution will create, not destroy, jobs by encouraging 
innovation.
    Implementing the Clean Air Act to protect health and save lives is 
a tremendous responsibility and the EPA workload is vast. In 2013, we 
expect EPA to update health-based air quality standards; implement 
rules to clean up toxic pollution from major sources such as power 
plants; clean up toxic pollution from automobile tailpipes; 
aggressively enforce the law to ensure compliance and protect the 
public; support State and local air pollution cleanup; continue 
research on the health impacts of air pollution; improve air pollution 
monitoring; and ensure that the Clean Air Act is implemented in a way 
that protects the most vulnerable. As a nation, we need EPA to be able 
to do all of these things. Below, we have highlighted key provisions of 
the President's fiscal year 2013 budget that deserve your attention 
and/or support.

          IMPROVING AIR QUALITY AND ADDRESSING CLIMATE CHANGE

    We support the President's budget increases to improve air quality 
and address climate change. Specifically, we support EPA's request for 
the Federal Stationary Source Regulation budget increase of $6.8 
million, including an additional $2.4 million to fund the review of 
existing Clean Air Act standards for criteria pollutants including 
ozone and particulate matter to ensure that the air pollution health 
standards effectively convey to local communities when the air is 
unhealthy to breathe, as required by law; as well as the requested $2 
million for the development of new source performance standards to 
reduce greenhouse gases. As EPA advances clean air protections, more 
coordination will be needed and we urge you to provide the resources to 
do so as requested.
    We also support EPA's request for an additional $8.5 million for 
Climate Protection Programs, including $2.9 million for the Greenhouse 
Gas Reporting Program, and the $2 million requested by EPA to develop 
Carbon Pollution Standards for Power Plants. Higher temperatures can 
enhance the conditions for ozone formation. Even with the steps that 
are in place to reduce ozone, evidence warns that changes in climate 
are likely to increase ozone levels in the future in large parts of the 
United States. It is clear that EPA is taking a careful and common 
sense approach to addressing climate change, including setting carbon 
pollution standards for power plants.
    The American Lung Association supports the increase requested by 
EPA to provide Federal Support for Air Quality Management of $11.9 
million (including $531,000 for science and technology needs) to assist 
States, Tribal and local air pollution agencies in the development and 
implementation of plans to meet standards established by EPA. People 
who live near major sources of pollution often face the greatest health 
risk. Through development of faster, electronic reporting, closing of 
data gaps, and continuing to develop the science necessary to reduce 
pollution to healthy levels, EPA supports States, Tribes and local 
agencies and directly benefits communities.
    The Clean Air Allowance Trading Program is responsible for 
development, implementation, and assessment, and provides regulatory 
and modeling support for efforts to address major regional and national 
air issues from stationary sources. Clean air allowance trading 
programs help implement the National Ambient Air Quality Standards 
(NAAQS) and reduce acid deposition, toxics deposition, and regional 
haze. Pollutants include sulfur dioxide (SO<INF>2</INF>), nitrogen 
oxides (NO<INF>X</INF>), and, as a co-benefit of SO<INF>2</INF> 
emission reductions, mercury. Please support a funding level of 
$792,000 (including $715,000 to meet science and technology needs) to 
implement this important program.
    Finally, we urge Congress to provide at least the requested $101.9 
million for the EPA Federal Vehicle Fuels Standards and Certifications 
Programs. It is critically important to increase the budget for EPA's 
Federal Vehicle Fuels Standards and Certifications Programs, 
particularly to improve the effectiveness of the certification and 
compliance testing programs in the face of increasing demand, more 
challenging oversight requirements, and the increasing diversity of 
technologies. Currently, EPA conducts very limited testing of small 
imported engines but a high fraction of these engines fail the test. 
Additional resources are needed to improve testing and compliance for 
this important program to protect public health.
    We strongly support EPA's planned work to update gasoline sulfur 
and tailpipe standards. Light duty cars and trucks remain a significant 
source of air pollution. This work is vital to address any adverse air 
quality impacts that may result from increased use of renewable fuels.

                        INDOOR AIR AND RADIATION

    Indoor air quality is a major concern for the American Lung 
Association, and we support the $17.8 million budget request for the 
Reducing Risks from Indoor Air Program to promote comprehensive asthma 
care that integrates management of environmental asthma triggers and 
healthcare services through community based programs, and we appreciate 
EPA's special attention to communities most at risk including children, 
low-income and minority populations.
    However, we strongly oppose the $1.9 million cut to the Indoor Air 
Radon Program (including $200,000 for science and technology needs) and 
the elimination of the $8 million State radon categorical grants 
proposed in the President's budget. Exposure to radon continues to be a 
significant risk to human health, and is the largest cause of lung 
cancer after tobacco.\1\ Without the guidance and funding support from 
EPA, State programs will simply not be able to protect the public from 
the threat of radon. Please fully restore these programs.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency. EPA's Assessment of Risks 
from Radon in Homes (2003).
---------------------------------------------------------------------------
    Please restore the Tools for Schools which has succeeded in 
improving environmental conditions and reducing asthma triggers in 
schools across the country. More schools need this help. Please fund 
this important program.

           SUPPORT FOR STATE AND LOCAL AIR POLLUTION CONTROL

    The American Lung Association strongly supports increased funding 
for State and local air pollution agencies, which are on the front 
lines in the effort to improve air quality across the Nation. These 
agencies will be called on to put in place the revised and new 
safeguards set under the Clean Air Act and must adopt and enforce a 
range of new emissions reduction programs--including the recently 
finalized Mercury and Air Toxics Standards for Power Plants that will 
save up to 11,000 lives per year when fully implemented. At this 
critical juncture, State and local air pollution agencies need more 
resources, not less, to ensure proper implementation of the Clean Air 
Act and protection of the public so we strongly support the requested 
additional $65.8 million for State and Local Air Quality Management 
Grants.
    However, we strongly oppose cuts in the President's budget to the 
widely supported Diesel Emission Reduction Act (DERA) program that was 
reauthorized in late 2010. Twenty million old diesel engines are in use 
today that pollute communities and threaten the public and workers. 
Immense opportunities remain to reduce diesel emissions and protect 
public health through the DERA program. Please restore funding to the 
$30 million level.
    As mentioned previously, we strongly oppose the elimination of the 
$8 million State radon categorical grants as proposed in the 
President's budget. Without the financial support from EPA, the State 
programs will not be able to protect the public from the pervasive 
threat of radon.

                   RESEARCH: AIR, CLIMATE AND ENERGY

    The American Lung Association strongly supports EPA's Air, Climate 
and Energy Research Program. Research is essential to improve the 
understanding of the health effects of air pollution and determining 
what levels of pollution should be set to protect the public with an 
adequate margin of safety. Specifically, we urge Congress to provide at 
least the additional $15 million requested in the President's fiscal 
year 2013 budget for improved air quality monitoring. Improving the 
Nation's air pollution monitoring network is absolutely critical in 
providing better information to enhance Federal, State and local 
knowledge and empower efforts to protect the health of their 
communities. Continued investment in other areas of research, 
especially in climate change and biofuels, is also vital to informing 
future agency action.

                              ENFORCEMENT

    The American Lung Association supports EPA's request for 
enforcement funding to ensure that air pollution standards and 
requirements are being met to protect public health. In order to 
effectively protect the public and promote justice for 
disproportionately impacted populations, EPA must have the ability to 
enforce penalties for permit violations and respond to civil 
enforcement actions authorized by the Clean Air Act. We ask Congress to 
fully fund EPA's enforcement program appropriation request of $15.8 
million, in the interests of the nation's youngest, oldest, and most 
economically challenged citizens.

                               CONCLUSION

    For 40 years the Clean Air Act has charged EPA to protect the 
public from air pollution and fulfill the promise of air that is clean 
and healthy for all to breathe. We urge the Committee to ensure that 
EPA is meeting the required deadlines and updating standards to reflect 
the best science with the maximum health protection, and to pass and 
fiscal year 2013 bill free of any policy riders. Thank you for the 
opportunity to present the recommendations of the American Lung 
Association. Every day we are fighting for clean, healthy air for all 
Americans to breathe.
                                 ______
                                 
    Prepared Statement of the Alaska Native Tribal Health Consortium

    My name is Andy Teuber, I am the Chairman and President of the 
Alaska Native Tribal Health Consortium (ANTHC). For the fiscal year 
2013 Indian Health Service (IHS) budget we are requesting full funding 
for contract support costs (CSC), currently estimated to be $571 
million for fiscal year 2013.
    ANTHC is a statewide tribal health organization that serves all 229 
tribes and over 140,000 American Indian and Alaska Natives (AI/AN) in 
Alaska. ANTHC and Southcentral Foundation co-manage the Alaska Native 
Medical Center (ANMC), the tertiary care hospital for all AI/ANs in 
Alaska. ANTHC also carries out virtually all non-residual Area Office 
functions of the IHS that were not already being carried out by Tribal 
health programs as of 1997.

                FULL FUNDING FOR CONTRACT SUPPORT COSTS

    Indian tribes and tribal organizations are the only Federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded.
    CSC is used to reimburse our fixed costs for items that we are 
required to have but are not otherwise covered by the IHS budget, 
either because another governmental department is responsible or 
because the IHS is not subject to that particular requirement. Examples 
include federally required annual audits and telecommunication systems. 
We cannot operate without these things, so when CSC reimbursements are 
underfunded we have to use other program funds to make up the 
shortfall, which means fewer providers that we can hire and fewer 
health services that we can provide to our patients.
    We are very thankful for the increases in CSC that this Committee 
has been able to provide, beginning with fiscal year 2010, particularly 
the large increase that tribes and tribal organizations received last 
year thanks to the efforts of this Committee. Although these increases 
have gone a long way toward helping to diminish the CSC shortfall, a 
significant CSC shortfall remains.
    The best projections available show that the CSC shortfall for 
fiscal year 2012 will be approximately $60 million, and that the 
shortfall in fiscal year 2013 will be nearly $99 million. Given these 
significant shortfalls, IHS's request for only a $5 million increase in 
CSC for fiscal year 2013 is extremely disappointing. Our disappointment 
is particularly acute when we consider that the BIA has requested full 
CSC for its programs.
    The inadequate IHS request could return us to a situation similar 
to the one we endured from 2002 to 2009, when there were virtually no 
increases for IHS CSC appropriations and the CSC shortfall increased by 
over $130 million. During that period, as our fixed costs increased 
every year, all major tribal health programs in Alaska were forced to 
lay off staff due to lack of funds.
    The opposite is also true: when CSC reimbursement increases occur, 
vacant positions are filled. If ANTHC had full funding of our CSC 
requirements, we would be able to fill scores of provider and support 
positions, including enrollment technicians, financial analysts, 
medical billing staff, professional recruiters, maintenance 
technicians, security officers, information technology support and 
professional support staff.
    ANTHC respectfully requests that the Federal Government honor its 
legal obligations to tribes and tribal organizations and fully fund CSC 
reimbursements by providing $571 million for IHS CSC reimbursements in 
fiscal year 2013.
    I appreciate your consideration of our recommendation for 
additional CSC funding to improve the level, quality and accessibility 
of desperately needed health services for AI/ANs whose healthcare 
status continues to lag far behind other populations in Alaska and in 
this Nation.
                                 ______
                                 
   Prepared Statement of the Aleutian Pribilof Islands Association; 
  Bristol Bay Area Health Corporation; Maniilaq Association; and the 
                    Norton Sound Health Corporation

    We submit this joint testimony on behalf of four co-signers to the 
Alaska Tribal Health Compact, which is a self-governance agreement with 
the Indian Health Service (IHS) under Title V of the Indian Self-
Determination and Education Assistance Act. Our organizations are 
responsible for providing and promoting healthcare and overseeing a 
variety of health programs in our various regions of Alaska, including 
remote villages. Our request is that Congress: direct the IHS to 
utilize existing fiscal year 2013 appropriations to fully fund the 
Village Built Clinics leases in accordance with Section 804 of the 
Indian Health Care Improvement Act. We estimate an additional $6.6 
million over current IHS resources should be allocated to VBC leases.
    We submit this testimony because we have great concern about the 
IHS's continued choice to underfund Village Built Clinics (VBCs) in 
Alaska. This IHS decision has jeopardized the provision of basic health 
services to Alaska Natives in their villages through the Community 
Health Aide Program (CHAP), because CHAP services are provided in the 
VBCs. The CHAP program is mandated by Congress as the instrument for 
providing basic health services in remote Alaska Native villages. The 
Community Health Aides and Practitioners cannot function as medical, 
behavioral health and dental providers in the villages without well 
maintained and suitable clinic facilities with teleconferencing 
capability, which the IHS has the statutory duty to provide under the 
Indian Health Care Improvement Act (IHCIA).
    Rather than allocate sufficient resources for the VBCs, the IHS has 
shifted its statutory responsibilities onto the villages and tribal 
health corporations themselves, which do not have the financial 
resources to maintain and upgrade the clinics for use by the CHAPs. 
This has caused many of the VBCs, often the only healthcare facilities 
in rural Alaska communities, to be unsafe or closed; others are 
unsuitable for use by the CHAPs. This is a longstanding problem which 
has become worse as the years go by. In 2007, the Alaska Native Health 
Board prepared a White Paper entitled ``The Village Built Clinic 
Programs; Village Clinics in Crisis.'' That Paper described this 
problem in great detail. The ANHB estimated that $5.7 million was 
needed to maintain and improve the VBCs for use by the CHAPs. However, 
no additional funding was provided.
    The VBC Lease Program.--VBCs are critical to maintaining health 
services for rural Alaska Natives. The IHS Community Health Aide 
Program was developed years ago to respond to disparities in healthcare 
access and to help facilitate improved health status in rural Alaska. 
CHAP now involves a network of health aides/practitioners who provide 
primary healthcare services and coordinate patient care through 
referral relationships with midlevel providers, physicians, and 
regional hospitals.
    The CHAP cannot operate in most of rural Alaska without clinics in 
which to provide the services. In the 1970s, the IHS established the 
VBC leasing program to provide funds for leasing health clinics from 
Alaska Native Villages for the provision of CHAP services. By 1972 the 
IHS was able to lease 142 clinics for a total cost of $842,000 
appropriated by Congress, and by 1989 the funding for the VBC leasing 
program was approximately $3 million, which came through the IHS 
Hospitals and Clinics sub-activity of the IHS appropriation.
    IHS Is Legally Responsible to Fully Fund VBC Leases.--The IHS is 
required to keep the VBCs in good repair. Under the IHCIA amendments of 
1992 Congress required the IHS to ``maintain'' the CHAP, and in the 
recent reauthorization of the Act, Congress requires the IHS to 
``develop and operate'' the CHAP for Alaska healthcare, health 
promotion, and disease prevention for Alaska Natives living in rural 
Alaska (25 U.S.C. Sec. 1616l(a)(2)). The Act also requires the IHS to 
ensure that the VBCs are upgraded to establish a teleconferencing 
capability (25 U.S.C. Sec. 1616l(a)(3)). IHS cannot fulfill these 
statutory responsibilities without keeping the VBCs maintained and in 
good repair.
    The IHS has traditionally used ``full-service'' leases (presumably 
under the leasing authority in the Federal Property and Administrative 
Services Act of 1949) as the basis for shifting the cost of operation 
and maintenance of the VBCs to the villages. This was apparently done 
as an agency initiative. We have been unable to find any specific 
language added to the IHS appropriation statute for 1970 authorizing 
the VBC leasing program; nor do the appropriation committee reports for 
that year specifically mention adding funds for this purpose. The 
``full-service'' leases require the Villages to pay for heat, cleaning, 
utilities, maintenance, and replacement. But the rental amounts--which 
in most cases have not been raised since 1994--are woefully inadequate 
to cover all of these expenses. As a result, we (and other Alaska 
regional health organizations) are forced to subsidize the VBCs, 
draining resources that could otherwise be devoted to healthcare 
services.
    IHS has had direct leasing authority under the IHCIA, since it was 
originally enacted in 1976, to enter into leases that cover a full 
range of costs, such as rent, depreciation, and operation and 
maintenance expenses. Such authority also includes reconstruction or 
renovation by IHS of the leased property. This authority was part of 
the original IHCIA, Public Law 94-437, Sec. 704. Now renumbered as 
Sec. 804 of the Act, 25 U.S.C. Sec. 1674, it authorizes the Secretary, 
``notwithstanding any other provision of law'' to enter into leases 
with Indian tribes for periods not in excess of 20 years. It provides 
that leased property may be ``reconstructed or renovated'' by the 
Secretary and that lease costs ``include rent, depreciation based on 
the useful life of the building, principal and interest paid or 
accrued, operation and maintenance expenses, and other expenses 
determined by regulation to be allowable.'' The House Report for the 
1976 legislation specifically mentions leasing village facilities in 
rural Alaska to help the IHS meet its responsibilities to provide 
health services in remote villages in Alaska.\1\
---------------------------------------------------------------------------
    \1\ H.R. Rep. No. 94-1026 (Apr. 9, 1976), 122-123, reprinted in 
1976 U.S.C.C.A.N. 2760-2761.
---------------------------------------------------------------------------
    Contrary to congressional intent, the IHS has continued to shift 
its responsibilities to the villages and to the Alaska Tribal Health 
Compact co-signers, without regard for the health of the people who 
need the VBCs for services. It has become impossible to keep up with 
the costs of operating and maintaining the VBCs, and thus continuing to 
provide needed CHAP services to rural Alaska Natives. In many 
situations, the CHAP has to be operated in unsafe facilities and, in 
some villages, the VBCs have to be closed and CHAP services suspended 
because of safety hazards to the employees and patients.
    In order to establish proper standards of care, compliance 
accreditation by the Joint Commission has been established as one of 
the terms included in the tribal health corporations annual funding 
agreements. Compliance with several of the Joint Commission's 
environments of care standards are simply not possible due to lack of 
funding made available by the IHS to maintain these facilities.
    Additionally, IHS's failure to maintain the VBCs and upgrade them 
directly hampers the ability of the co-signers to the Compact to meet 
the ``meaningful use'' standards set by the Centers for Medicare and 
Medicaid Services in order to be eligible for incentive payments for 
Electronic Health Records (EHR) technology. IHS should ensure that VBCs 
are brought up to the appropriate technological capability for the co-
signers to be able to qualify for needed incentive payments to 
implement EHR, which will improve patient health and is an important 
congressional initiative.
    Leases are Underfunded and IHS Refuses to Use Available 
Appropriations.--The majority of VBC lease rentals have not increased 
since 1989 and the current funding is not sufficient to cover 
inflationary increases and, in particular, the cost of repair and 
renovation of the facilities needed to keep them in a safe condition. 
Funds in the IHS's Hospitals and Clinics sub-activity allocated by IHS 
to the VBC leasing program increased very slowly over the years. For 
example, from 1997 to 2007, funding for the VBC system increased from 
$3,718,268 to $3,903,434, an increase of less than 5 percent over the 
entire 10 year period and well below the actual costs to operate and 
maintain the VBCs in the same period. As a result, by the end of fiscal 
year 2006 the lease rentals paid to the villages covered only 55 
percent of the village-built clinics' operating costs.\2\ The 
shortfalls have only grown in the 6 years since then, as fuel costs 
(among others) have skyrocketed.
---------------------------------------------------------------------------
    \2\ See, Village Built Clinic Programs: Village Clinics in Crisis, 
Alaska Native Health Board, May 2007 at 9. Pay act increases during 
this period were not provided to the VBC leasing program. But even if 
they had been, the additional increase would be minimal and would have 
no material impact on the current shortfall for VBC operating costs. 
Id.
---------------------------------------------------------------------------
    While the IHS leases allow costs for rent, loan amortization, fuel 
for heat, electricity, water and waste disposal, janitorial services 
and supplies, insurance, and costs associated with minor maintenance, 
none of these allowable costs are currently covered by the existing VBC 
lease payments. In 2007, the operation and maintenance shortfall for 
the average VBC was $28,692 per year. Furthermore, major maintenance 
and improvement costs are not provided by the IHS.
    In the past, when this matter has been brought to the IHS's 
attention, IHS has responded that it provides for VBC leases all of the 
funding that Congress has appropriated for the program. The IHS 
excludes clinics leased under the VBC lease program from maintenance 
and improvement funding because it asserts that (1) the leases are full 
service leases and (2) the leases do not include a reserve fund for 
building improvements and replacement. IHS has told co-signers to the 
Alaska Tribal Health Compact that they cannot use maintenance and 
improvement funding--provided to them under their self-governance 
agreements--for the VBCs. We just don't accept IHS's statements as 
legally correct, and the agency has provided no legal analysis to 
convince us otherwise.
    Based on our review, the amounts historically traceable to the VBC 
lease program are not capped by statute and are not the only funds 
available for that program. The Indian Health Facilities appropriation 
is a lump-sum appropriation that can be used for construction, repair, 
maintenance, improvement and equipment, and includes a sub-activity for 
maintenance and improvement of IHS facilities. The VBCs are IHS 
facilities acquired by lease in lieu of construction and should thus be 
eligible for maintenance and improvement funding. The IHS also has the 
ability to access other IHS discretionary funds to fully fund its VBC 
responsibilities.
    We believe there is no question that the IHS has had sufficient 
funds in its unrestricted appropriations to fully fund the VBCs' needs. 
According to a report issued by the Alaska Native Health Board in 2007, 
the operation and maintenance shortfall for the average VBC was $28,692 
per year. The Board estimated that $5.8 million should have been added 
in fiscal year 2008 to the fiscal year 2007 VBC lease program base in 
order to sustain the program. More than 4 years have gone by since then 
and the funding crisis for the VBCs has continued to get worse. 
Assuming a modest inflationary rate of 3 percent since the Board's 
analysis in 2007, we estimate at least $6.6 million should be added in 
fiscal year 2013 to the VBC lease program base funding.
    We Need Your Help to Ensure that IHS Fully Funds VBC Leases.--
Despite repeated requests from the Alaska Tribal Health Compact Co-
Signers, the IHS continues to fund VBC leases at less than 60 percent 
of costs, while adopting standards for VBC operation and maintenance 
and requiring evaluations and inspections without supplying maintenance 
and improvement or other funding to assure compliance. Our VBCs are 
falling apart, cannot keep pace with technological advances in health, 
and hamper our efforts to qualify for ``meaningful use'' incentive 
payments to implement the Electronic Health Record in the VBCs. We thus 
request that the Appropriations Committee direct the IHS in the fiscal 
year 2013 appropriations to utilize existing, available appropriations 
to fully fund the VBC leases in accordance with Section 804 of the 
IHCIA.
    The VBC program is a unique and critical component of the CHAP. 
Without VBCs that are suitable for their purposes, the CHAP cannot work 
as intended by Congress and our people cannot get the healthcare they 
need. Please help ensure that the United States' trust responsibility 
to Alaska Native people for healthcare is fully realized. For more 
information, contact:
  --Aleutian Pribilof Islands Association: Carolyn Crowder, 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="395a584b565540575a79584950585017564b5e">[email&#160;protected]</a>;
  --Bristol Bay Area Health Corporation: Robert Clark, 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="790b1a15180b12391b1b18111a57160b1e">[email&#160;protected]</a>;
  --Maniilaq Association: Ian Erlich <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="365f53445a5f555e765b57585f5f5a574718594451">[email&#160;protected]</a>;
  --Norton Sound Health Corporation: Deven <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="722213001e1b191300160213001e1b19130032151f131b1e5c111d1f5c">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                              Universities

    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the United 
States Geological Survey (USGS) and the Environmental Protection 
Agency. We appreciate the opportunity to provide recommendations for 
the following programs within USGS: $8.8 million for the Water 
Resources Research Institutes; $18.9 million for the Cooperative Fish 
and Wildlife Research Units. Within the Environmental Protection 
Agency, we recommend $81 million for the Science to Achieve Results 
extramural grants and fellowship programs.
    APLU BNR requests at least $8.8 million for the Water Resources 
Research Institutes (WRRI). The APLU BNR request is based on the 
following: $7,000,000 in base grants for the WRRI as authorized by 
section 104(b) of the Water Resources Research Act, including State-
based competitive grants; and $1,800,000 to support activities 
authorized by section 104(g) of the Act, and a national competitive 
grants program. Federal funding for the WRRI program is the catalyst 
that moves States and cities to invest in university-based research to 
address their own water management issues. State WRRI take the 
relatively modest amount of Federal funding appropriated, match it 2:1 
with State, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $15 in other funds for every dollar funded 
through this program. The added benefit is that often research to 
address State and local problems helps solve problems that are of 
regional and national importance. Many of the projects funded through 
this program provide the knowledge for State or local managers to 
implement new Federal laws and regulations. Perhaps most important, the 
Federal funding provides the driving force of collaboration in water 
research and education among local, State, Federal and university water 
professionals. This program is essential to solving State, regional and 
inter-jurisdictional water resources problems. For example, the Idaho 
Institute conducted work in 2011 for the City of Boise and the National 
Renewable Energy Laboratory to determine whether the Boise Front 
geothermal aquifer was adequate for supplying current and increased 
withdrawals. Similarly, Institutes in Louisiana, California and North 
Carolina have made major contributions in emergency planning and 
hurricane recovery, protecting groundwater aquifers from sea water 
intrusion and reducing water treatment costs.
    The institutes also train the next generation of water resource 
managers and scientists. Last year, these institutes provided research 
support for more than 1,400 undergraduate and graduate students at more 
than 150 universities studying water-related issues in the fields of 
agriculture, biology, chemistry, Earth sciences, engineering and public 
policy. Institute-sponsored students receive training in both the 
classroom and the field, often working should-to-shoulder with the top 
research scientists in their field on vanguard projects of significant 
regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
webinars, and offers other means of education in an effort to transfer 
their research information to as many users as possible. Outreach that 
succeeds in changing a farmer's approach to nitrogen application or 
reducing a homeowner's misuse of lawn treatments can reduce the need 
for restrictive regulation.
    APLU BNR requests at least $18.9 million for the Cooperative Fish 
and Wildlife Research Units (CRU). This program serves to (1) train the 
next generation of Fish and Wildlife managers; (2) conduct research 
designed to meet the needs of unit cooperators; and (3) provide 
technical assistance to State and Federal personnel and other natural 
resource managers. Originally established to provide training for 
students in fish and wildlife biology, the units were formally 
recognized by the Cooperative Units Act of 1960 (Public Law 86-686). 
The CRU provide experience and training for approximately 600 graduate 
students per year, a critical need as State and Federal workforces face 
unprecedented retirements over the next 5 to 10 years. The CRU also 
provides valuable mission-oriented research for their biggest clients, 
the U.S. Fish and Wildlife Service and cooperating State agencies. 
Today, there are 40 Cooperative Research Units in 38 States.
    Each unit is a true Federal-State-university collaboration in that 
it is a partnership between USGS, a State natural resource agency, a 
host university, and the Wildlife Management Institute. For every $1 
the Federal Government puts into the program, $3 more are leveraged 
through the other partners. The U.S. economy has long relied on the 
bountiful natural resources bestowed upon this land. Federal investment 
in the CRU will be returned many times over though the training of 
future natural resource managers who will guide the Nation in 
sustainable use of our natural resources. The research conducted by CRU 
scientists directly supports the difficult management challenges faced 
by natural resources managers. The examples below demonstrate the value 
of the CRUs to wildlife issues with local and national importance.
  --The Minnesota Cooperative Fish & Wildlife Research Unit currently 
        has 3 Federal employees, 3 post-doctoral research fellows and a 
        total of 12 graduate students. Current research funded by the 
        Minnesota Department of Natural Resources and Federal agencies 
        totals $4.9 million. Among the numerous projects being 
        conducted by unit personnel, a project determining the 
        olfactory sensitivity of Asian carp to putative hormonal sex 
        pheromones has recently received national attention. The Asian 
        carp is an invasive species that threatens many of the Nation's 
        freshwater native fish because they are more competitive than 
        native fish for food. The Minnesota CRU hopes to use the sex 
        pheromones to attract and trap Asian carp, removing them 
        permanently from the Nation's freshwater lakes and rivers.
  --The Idaho Cooperative Fish and Wildlife Research Unit has 3 Federal 
        scientists who are training 22 graduate students and supervise 
        8 year-round staff plus 15 seasonal staff and 5 work-study 
        students. Total grants and contracts for these three scientists 
        exceed $1.5 million and include projects related to gray wolf 
        monitoring and population estimation, improving fish passage at 
        lower Columbia River dams, and defining ``recovery'' for 
        endangered species.
    APLU BNR supports the President's request of $81 million for the 
Science to Achieve Results (STAR) grants and fellowship programs. The 
STAR program funds extramural research grants and graduate fellowships. 
Using a competitive and peer-reviewed process, the STAR program 
supports targeted research in support of EPA's mission. The funded 
research falls into three areas: grants awarded to individuals or small 
groups, grants awarded to multidisciplinary teams, and fellowships for 
masters and doctoral students. The STAR program allows EPA to solicit 
independent research apart from the research EPA itself conducts. 
Because the research is conducted at many of the best universities 
across the Nation, it is not unusual for the findings to be published 
in highly respected, peer-reviewed journals, allowing for widespread 
dissemination of the research.

About APLU and the Board on Natural Resources
    APLU's membership consists of 221 State universities, land-grant 
universities, State-university systems and related organizations. The 
Board's mission is to promote university-based programs dealing with 
natural resources, wildlife, ecology, energy, and the environment. BNR 
representatives are chosen by their President's office to serve and 
currently number over 500 scientists and educators, who are some of the 
Nation's leading research and educational expertise in environmental 
and natural-resource disciplines. APLU institutions enroll more than 
3.5 million undergraduate students and 1.1 million graduate students, 
employ more than 645,000 faculty members, and conduct nearly two-thirds 
of all federally funded academic research, totaling more than $34 
billion annually.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy; Crop Science 
        Society of America; and Soil Science Society of America

    Dear Chairman Reed, Ranking Member Murkowski and Members of the 
Subcommittee: On behalf of the American Society of Agronomy (ASA), Crop 
Science Society of America (CSSA), and the Soil Science Society of 
America (SSSA), I am pleased to submit comments in strong support of 
enhanced public investment in the U.S. Forest Service, U.S. Geological 
Survey, and U.S. Environmental Protection Agency. ASA, CSSA, and SSSA 
urge the Subcommittee to support the Forest Service at a minimum level 
of $4.86 billion; the U.S. Geological Survey at a level of $1.1 
billion, and the U.S. Environmental Protection Agency, Science and 
Technology appropriation at $807 million.
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) represent 
over 18,000 members in academia, industry, and government, and 13,000 
Certified Crop Advisers. The largest coalition of professionals 
dedicated to the agronomic, crop, and soil science disciplines in the 
United States, ASA, CSSA, and SSSA are dedicated to utilizing science 
in order to meet our growing food, feed, fiber, and fuel needs. With an 
ever-expanding global population and increasing food demands, 
investment in food and agriculture research is essential to maintaining 
our Nation's food, economic and national security.

U.S. Forest Service
    The U.S. Forest Service sustains the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations, and the health of soils represents a 
vital component of forest management.
            Forest and Rangeland Research
    ASA, CSSA, and SSSA urge the Subcommittee to support funding for 
Forest and Rangeland Research at a level of $292 million in fiscal year 
2013 to maintain an essential level for basic research. The research 
and development arm of the Forest Service provides scientific 
information and new technologies to support the sustainable management 
of the Nation's forests and rangelands. This knowledge and technology 
is essential to foster healthy watersheds, forest products, wildlife 
protection, outdoor recreation opportunities and other benefits across 
the United States.
            Water, Air, and Soil Research & Development Program
    Forest Service scientists in this department have conducted 
essential research such as developing a software tool to predict the 
impact of contaminant releases, including radioactive materials, to 
surface waters (which was later used for assessment purposes at Japan's 
Fukushima Daiichi nuclear powerplant). In another project, researchers 
with the Forest Service's Eastern Forest Environmental Threat 
Assessment Center applied models to measure water supply stress in 
relation to carbon and biodiversity. All of these tools provide 
important information for decisionmakers.
            National Forest System
    ASA, CSSA, and SSSA support a funding level of $1.6 billion for the 
National Forest System, as requested in the President's fiscal year 
2013 budget proposal. This funding is essential to not only provide for 
the maintenance of forests and grasslands that contribute to air and 
water quality, plants, and wildlife, but also to respond to the 
public's interests and needs. The National Forest Service programs 
support water-quality protection and improvement; recreation 
opportunities for the public; energy for the Nation; forest products; 
wildlife habitat; and forage for domestic animals--all while 
maintaining or improving the health of the land.
U.S. Geological Survey (USGS)
    ASA, CSSA, and SSSA support the President's 2013 budget request for 
$1.1 billion for the U.S. Geological Survey, a $34.5 million increase 
above the 2012 enacted level. The USGS is uniquely positioned to 
address many of the Nation's greatest challenges. The USGS plays a 
crucial role in reducing risks from earthquakes, tsunamis, floods, 
landslides, wildfires, and other natural hazards, assessing water 
quality and quantity, providing geospatial data to improve agricultural 
production, soil management, and crop adaptation. In addition, the 
science provided by the USGS is increasingly in demand as new energy 
supplies are developed, competition for water grows, and the cost of 
natural disasters expands. The USGS is working in every State and has 
nearly 400 offices across the country and works with over 2,000 
Federal, State, local, tribal and private organizations.
U.S. Environmental Protection Agency (EPA)
    In order to fulfill its mission of protecting human health and the 
environment, we need to maintain investments in the EPA's ecological 
and exploratory research as well as partnerships with academia and 
State and local government.
            Science and Technology
    ASA, CSSA, and SSSA support the President's budget request of $807 
million for the EPA Science and Technology appropriations account. This 
request includes $576 million for research through the Office of 
Research and Development (ORD), which conducts intramural and 
extramural research across a broad spectrum of disciplines. ORD seeks 
out the science and engineering solutions necessary to realizing a 
healthy, productive, and sustainable environment. ORD has worked with 
the National Institutes of Health (NIH) to develop models for how 
chemicals could impact human health, partnered with major cities to 
investigate solutions to water security issues, and collaborated with 
local municipalities to improve stormwater management practices.
            Science to Achieve Results (STAR)
    ASA, CSSA, and SSSA support the President's budget request of $81 
million for the Science to Achieve Results (STAR) grants and 
fellowships that are awarded to scientists and universities throughout 
the country to conduct targeted research in a competitive and 
independently peer reviewed program. This research has addressed 
children's health issues, hydraulic fracturing, potential endocrine 
disruptors, water infrastructure, and air monitoring.
    Thank you for your consideration of our requests. For additional 
information or to learn more about the ASA, CSSA, and SSSA, please 
visit www.agronomy.org, www.crops.org, or www.soils.org.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators

    Who We Are.--Edward G. Hallock, President, on behalf of the 
Association of State Drinking Water Administrators (ASDWA), is pleased 
to provide testimony to the Interior, Environment and Related Agencies 
Subcommittee on fiscal year 2013 appropriations for the U.S. 
Environmental Protection Agency. ASDWA represents the State drinking 
water programs in the 50 States, territories, District of Columbia, and 
the Navajo Nation in their efforts to provide safe drinking water to 
more than 275 million consumers nationwide.

Summary of Request
    ASDWA respectfully requests that, for fiscal year 2013, the 
Subcommittee appropriate funding for three State drinking water 
programs at levels commensurate with Federal expectations for 
performance; that ensure appropriate public health protection; and that 
will result in enhancing economic stability and prosperity in American 
cities and towns. ASDWA requests $200 million for the Public Water 
System Supervision (PWSS) program; $1.287 billion for the Drinking 
Water State Revolving Loan Fund (DWSRF) program; and $10 million for 
State drinking water program security initiatives. A more complete 
explanation of the needs represented by these requested amounts and 
justification for these requested levels follows.

How States Use Federal Funds
    States Need Increased Federal Support to Maintain Overall Public 
Health Protection.--State drinking water programs strive to meet public 
health protection goals through two principal funding programs: the 
Public Water System Supervision Program (PWSS) and the Drinking Water 
State Revolving Loan Fund (DWSRF) Program. These two programs, with 
their attendant State match requirements, provide the means for States 
to work with drinking water systems to ensure that American citizens 
can turn on their taps with confidence that the water is both safe to 
drink and the supply is adequate. In recent years, State drinking water 
programs have accepted additional responsibilities to work with all 
public water systems to ensure that critical drinking water 
infrastructure is protected; that plans are in place to respond to both 
natural and manmade disasters; and that communities are better 
positioned to support both physical and economic resilience in times of 
crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have reliable water supplies. Over 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system. Firefighting also relies on potable water from public 
water systems to ensure public safety. Even people who have their own 
private wells to meet their daily water needs will visit other homes or 
businesses served by a public water system. As important as public 
water systems are to the quality of water we drink and our health, the 
majority of water produced by public water systems is used by 
businesses for a variety of purposes, including processing, cooling, 
and product manufacturing. The availability of adequate supplies of 
water is often a critical factor in attracting new industries to 
communities. Public water systems--and the cities, villages, schools, 
and businesses they support--rely on State drinking water programs to 
ensure they are in compliance with all applicable Federal requirements 
and the water is safe to drink. A number of incidents in the United 
States over the past several years that have led to illnesses or deaths 
from unsafe drinking water serve as stark reminders of the critical 
nature of the work that State drinking water programs do every day and 
the dangers of inadequately funded programs,
    The PWSS Program.--To meet the requirements of the Safe Drinking 
Water Act, States have accepted primary enforcement responsibility for 
oversight of regulatory compliance and technical assistance efforts for 
over 155,000 public water systems to ensure potential health-based 
violations do not occur or are remedied in a timely manner. Over 90 
contaminants are regulated in Federal drinking water regulations and, 
the pace of regulatory activity has accelerated in recent years. Since 
1996, state drinking water programs have participated in the 
development and implementation of over 25 new Federal regulations and 
strategic initiatives designed to enhance the protection of public 
health. States are also implementing an array of proactive initiatives 
to protect public health from ``the source to the tap.'' These include 
source water assessments and protections; technical assistance with 
water treatment and distribution; and enhancement of overall water 
system performance capabilities. In recent years, States have also 
taken on an increasingly prominent role in working with Federal and 
local partners to help ensure sufficient water quantity. In short, 
State activities go well beyond simply ensuring compliance at the tap.
    The DWSRF Program.--Drinking water in the United States is among 
the safest and most reliable in the world, but it is threatened by 
aging infrastructure. The DWSRF program is helping, but greater levels 
of Federal support are needed. The payback on this investment has been 
exceptional. In the core DWSRF program, $12.4 billion in cumulative 
capitalization grants and $2 billion in American Reinvestment and 
Recovery Act (ARRA) funds since 1997 have been leveraged by States into 
nearly $22 billion in infrastructure loans to small and large 
communities across the country. Such investments pay tremendous 
dividends--both in supporting our economy and in protecting our 
citizens' health. State drinking water programs have also used DWSRF 
funds to support the technical assistance and training needs of 
numerous small drinking water systems and to help these often 
challenged water systems obtain the technical, managerial, and 
financial proficiency needed to meet the requirements of the SDWA.
    State Drinking Water Security Responsibilities.--State drinking 
water programs are critical partners in emergency planning, response, 
and resiliency at all levels of government. State primacy agencies 
provide key resources and critical support regardless of whether the 
emergency is rooted in terrorism, natural disasters, or cyber 
intrusions. States continually work toward integrating security 
considerations throughout all aspects of their drinking water programs. 
Technological advances in contaminant detection and decontamination 
capabilities, new economic risk and impact analysis models, and 
enhancements in cyber security techniques also demand State program 
awareness, implementation, and outreach to the water community.

Why Increased Funding is Urgently Needed
    State Drinking Water Programs are Hard Pressed.--States must 
accomplish all of the above-described activities, and take on new 
responsibilities, in the context of the continuing economic downturn. 
This has meant operating with less State-provided financial support--
which has historically compensated for inadequate Federal funding. 
State drinking water programs have often been expected to do more with 
less and States have always responded with commitment and ingenuity. 
However, State drinking water programs are now in crisis and are 
stretched to the breaking point. Insufficient Federal support for this 
critical program increases the likelihood of a contamination event that 
puts the public's health at risk.
    State Funding Gap Continues to Grow; States Cannot Keep Up.--
Although the 1996 SDWA Amendments authorized the PWSS Program at $100 
million per year, appropriated amounts have only recently reached that 
authorized level--a level that now, more than 16 years from the date of 
those amendments, falls far short of the need. $105 million was 
appropriated for the PWSS program in fiscal year 2012. The President's 
fiscal year 2013 budget requests $109 million for the PWSS grant--an 
amount that is woefully inadequate for the enormity of the task faced 
by State drinking water programs. A few years ago, State drinking water 
program administrators identified an annual shortfall nationally of 
approximately $360 million between available funds and those needed to 
administer their programs. That gap only continues to grow and has a 
number of negative consequences. Many States are simply unable to 
implement major provisions of the newer regulations, leaving the work 
undone or ceding the responsibility back to EPA where it is likely to 
languish because of EPA's own resource constraints and lack of ``on the 
ground'' expertise. This situation has created a significant 
implementation crisis in several regions of the country and is 
ultimately delaying implementation of critically needed public health 
protections.

Fiscal Year 2013 Request Levels and SDWA Program Obligations
    The PWSS Program.--The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
essentially ``flat-lined'' or included only meager increases. Inflation 
has further eroded these inadequate funding levels. State drinking 
water programs are hard pressed to understand a justification for these 
funding levels since they are engaged in the critical phases of 
implementing the LT 2/Stage 2 Rule cluster (two sophisticated and 
complex initiatives to control disinfection by-products and microbial 
contaminants), the recently promulgated Ground Water Rule, and changes 
to the Lead and Copper Rule. States want to offer the flexibilities 
allowed under these and other rules to local water systems; however, 
fewer State resources mean less opportunity to work one-on-one with 
water systems to meet their individual needs. Looking ahead, States 
expect that new rules for perchlorate and carcinogenic volatile organic 
carbon compounds will be forthcoming in the near future as well as 
revisions to the Total Coliform Rule.
    ASDWA respectfully requests that the fiscal year 2013 funding for 
the PWSS program be appropriated at $200 million. This figure begins to 
fill the above-described resource gap and is based on the expense of 
implementing new drinking water rules, taking on a number of other new 
initiatives, and accounting for the eroding effects of inflation.
    The DWSRF Program.--States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 but are 
disappointed at the subsequent downward trend--$963 million in fiscal 
year 2011 and $919 million in fiscal year 2012 and the alarming 
Administration request of $850 million for fiscal year 2013--a figure 
not seen since 2008. The primary purpose of the DWSRF is to improve 
public health protection by facilitating water system compliance with 
national primary drinking water regulations through the provision of 
loans to improve drinking water infrastructure. Water infrastructure is 
needed for public health protection as well as a sustainable economy, 
as explained above. States have very effectively and efficiently 
leveraged Federal dollars with State contributions to provide 
assistance to more than 8,500 projects, improving health protection for 
millions of Americans. According to the most recent figures available, 
this equals a 177.4 percent return on the Federal investment. 
Approximately 72 percent of projects and 38 percent of assistance has 
been provided to small communities (serving less than 10,000 people). 
However, EPA's most recent National Drinking Water Infrastructure Needs 
Survey (2007) indicated that water system needs total $334.8 billion 
over the next 20 years to comply with SDWA mandates. States believe the 
$2 billion in ARRA funds and the fiscal year 2010 appropriated level 
were very substantial down payments on addressing those needs and 
filling the infrastructure gap. In light of these indicators of success 
and documented needs, we believe funding at the $1.287 billion level 
will better enable the DWSRF to meet the SDWA compliance and public 
health protection goals for which it was designed.
    ASDWA respectfully requests $1.287 billion in fiscal year 2012 
funding for the DWSRF program. This was the amount appropriated in 
fiscal year 2011 and ASDWA believes this is an appropriate funding 
level on an ongoing basis.
    Security Responsibilities.--After 7 years of supporting State 
security programs through a small grant of approximately $5 million in 
EPA's appropriation, no funds have been provided for this purpose since 
fiscal year 2009 and none are requested for fiscal year 2013. State 
drinking water programs need funds to continue to maintain and expand 
their security activities, particularly for small and medium water 
systems and to support utility-based mutual aid networks for all 
drinking water systems. It is very difficult to understand why this 
grant has been zeroed out of EPA's proposed budget. Given the realities 
exemplified by ongoing Homeland Security initiatives, the goals of the 
National Infrastructure Protection Plan, and the lessons learned from 
Hurricanes Katrina, chronic flooding in the Midwest, and most recently, 
from the 2011 Northeast experience with Hurricane Irene and Tropical 
Storm Lee, state drinking water programs are working more closely than 
ever with their water utilities to evaluate, assist, and support 
drinking water systems' preparedness, response, and resiliency 
capabilities. States continue to expand their efforts to reflect a more 
resilient ``all hazards'' approach to water security and to focus their 
efforts toward smaller water systems. These systems rely heavily on the 
States to help them meet their needs and identify potential funding 
sources.
    ASDWA respectfully requests $10 million in fiscal year 2012 funding 
for the State security initiatives. These funds would be commensurate 
with the security tasks state drinking water programs must take on.

Conclusion
    In conclusion, ASDWA respectfully recommends that Federal fiscal 
year 2013 budget needs for the provision of safe drinking water be 
adequately funded by Congress. A strong drinking water program 
supported by the Federal-State partnership will ensure that the quality 
of drinking water in this country will not deteriorate and, in fact, 
will continue to improve--so that the public can be assured that a 
glass of water is safe to drink no matter where they travel or live. 
States are willing and committed partners. However, additional Federal 
financial assistance is needed to meet ongoing and ever growing 
regulatory and security needs. The financial needs of these programs is 
particularly acute when one considers that the Budget Control Act 
sequestration may well cut an additional 9 percent from whatever is 
ultimately appropriated. In 1996, Congress provided the authority to 
ensure that the burden would not go unsupported. For fiscal year 2013, 
ASDWA asks that the promise of that support be realized.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2013 appropriation for 
science and technology (S&T) programs at the Environmental Protection 
Agency (EPA). The ASM is the largest single life science organization 
in the world with more than 38,000 members.
    The administration's proposed fiscal year 2013 budget of $807.3 
million for EPA's S&T activities is $13.5 million; a 1.7 percent 
increase above the fiscal year 2012 enacted level. This request is 
roughly 10 percent of the total EPA budget proposal, and it provides 
crucial resources for EPA's science based regulatory responsibilities. 
The S&T funding supports research and development (R&D) efforts, 
personnel costs, laboratory purchases, and other operating expenses, 
resources necessary to strengthen the science underlying EPA's 
environmental standards and their enforcement.
    The fiscal year 2013 EPA budget provides critical resources for the 
agency's current strategic plan, which identifies five goals to guide 
EPA research, education, regulatory, compliance, and enforcement 
functions during fiscal year 2011-2015:
    Goal 1: Taking Action on Climate Change and Improving Air Quality
    Goal 2: Protecting America's Waters
    Goal 3: Cleaning Up Communities and Advancing Sustainable 
        Development
    Goal 4: Ensuring the Safety of Chemicals and Preventing Pollution
    Goal 5: Enforcing Environmental Laws
    The EPA has developed five cross-cutting strategies to help achieve 
the Strategic Plan's goals, one of which is ``advancing science, 
research, and technological innovation.'' EPA's strategic successes 
depend upon best practice science capabilities enabled by adequate S&T 
funding. EPA research programs contribute new knowledge to regulatory 
science; analyze environmental samples; provide technical support to 
Federal, State, and local labs; monitor regulated pollutants; check 
compliance and enforce Federal regulations; and respond to emergencies.
    In the past year, EPA monitored U.S. air quality following Japan's 
nuclear disaster, awarded grants to universities and health departments 
to develop new controls for bed bug infestations, and accepted a 
congressional directive to evaluate the potential impacts of hydraulic 
fracturing on drinking water. In January, EPA announced its fiscal year 
2012-2013 ``priority goals''--selected as measurable and achievable 
within 2 years, designed to advance the agency's long-term strategic 
objectives. One priority goal is the clean-up of 22,100 contaminated 
U.S. sites by September 30, 2013. As specified in the administration's 
request, the fiscal year 2013 budget also would support restoring water 
quality in the Great Lakes, implementing new computing tools to improve 
environmental monitoring data-gathering, and developing new standards 
for vehicles' greenhouse gas emissions. Such EPA actions require 
frequent testing and a thorough understanding of current scientific 
knowledge.

EPA Funding Builds Technical Expertise in Environmental Sciences
    The EPA Office of Research and Development (ORD) currently manages 
research programs in six priority areas to advance environmental 
science: (1) air, climate, and energy; (2) safe and sustainable water 
resources; (3) sustainable and healthy communities; (4) chemical safety 
for sustainability; (5) human health risk assessment; and (6) homeland 
security research. EPA scientists and engineers conduct this research 
at ORD's three national laboratories, four national centers, and two 
offices situated in 14 facilities. These centers and labs are 
responsible for studies spanning the agency's S&T research portfolio:
  --National Exposure Research Laboratory--employs more than 400 
        scientists, engineers, and staff to develop the knowledge and 
        tools needed for environmental risk assessments as well as 
        optimal responses to contaminants.
  --National Health and Environmental Effects Research Laboratory--
        conducts research on the effects of contaminants and 
        environmental stressors on human health and ecosystems, to 
        identify and evaluate risks.
  --National Risk Management Research Laboratory--focuses on practical 
        actions to solve environmental problems like improving air 
        quality, cleaning contaminated sites, and reducing greenhouse 
        gas emissions.
  --National Center for Computational Toxicology--uses high-throughput 
        screening technologies, systems biology, and advanced computer 
        models to develop better tools that can screen thousands of 
        chemicals for toxicity.
  --National Center for Environmental Assessment--prepares technical 
        reports and risk assessments on how pollutants, etc., might 
        impact human health and the environment; also develops new risk 
        assessment methods and tools.
  --National Center for Environmental Research--manages EPA's 
        competitive grants and fellowship programs to develop the next 
        generation of U.S. scientists and engineers.
  --National Homeland Security Research Center--created in 2002, 
        provides the scientific knowledge to counter biological, 
        chemical, and radiological pollutants.
    Research at EPA's Microbiological and Chemical Exposure Assessment 
Research Division (MCEARD) is concerned about microorganisms in the 
environment that could be beneficial or harmful to human health. MCEARD 
scientists have established risk assessment tools and methods to detect 
molds, bacteria like Escherichia coli, viruses, Giardia parasites, and 
other microbes in water, soil, and air samples. The agency's 
researchers have contributed significantly to commonly used protocols 
for monitoring microbial contaminants throughout the United States.
    Across its six priority programs, ORD is placing more emphasis on 
finding sustainable solutions, within a sustainability focused 
operational framework recently developed by the National Research 
Council at EPA's request. In addition, the six programs routinely 
leverage collaborations with other EPA offices, Federal agencies, and 
State and local stakeholders. With its Federal partners, EPA's S&T 
expertise is integral to the Nation's homeland security efforts. EPA is 
the lead agency for Federal preparations against terrorist attacks via 
water and for decontamination of indoor and outdoor areas post-attack. 
Biosecurity-related discoveries by ORD scientists and engineers also 
have clear applications to other sectors of public health and 
environmental sciences. As part of its homeland security 
responsibilities, EPA will use fiscal year 2013 funds to implement a 
Regional Center of Expertise for Chemical Warfare Agent Laboratories, 
coordinating agency efforts into a more efficient operation.

EPA Funding Protects Against Threats to Healthy Environments
    Every action taken by EPA to protect public health and the 
environment must be supported by solid S&T expertise and risk 
assessments. In the fiscal year 2013 budget, S&T funding distributed 
among EPA's five strategic goals would fall below fiscal year 2011 
levels, but slightly above fiscal year 2012 enacted levels with one 
exception: (1) taking action on climate change and improving air 
quality, $271 million (4.3 percent increase); (2) protecting America's 
waters, $151 million (1.2 percent increase); (3) cleaning up 
communities and advancing sustainable development, $183 million (2.3 
percent decrease); (4) ensuring the safety of chemicals and preventing 
pollution, $185 million (2.4 percent increase); and (5) enforcing 
environmental laws, $18.5 million (2.5 percent increase).
    To achieve EPA's strategic goals, fiscal year 2013 funds will 
support prioritized actions in the coming year, all dependent upon S&T 
capabilities, including the following:
  --About 70 Federal rules directing EPA's air toxic control efforts 
        are due for review, and EPA experts and health risk data will 
        shape the resultant standards and their enforcement.
  --EPA will replace outdated technologies to detect air contaminants 
        currently used in the national monitoring networks, using S&T 
        funds to develop improved monitors for ambient air pollutants 
        that are more cost-effective for EPA, State, and local 
        agencies.
  --Fiscal year 2013 increases include funds for the Drinking Water 
        program that will provide additional technical assistance to 
        States. By September 30, 2013, EPA also will have collaborated 
        with 20 States to specifically improve small drinking water 
        systems. A partnership created last August with the U.S. 
        Department of Agriculture will direct fiscal year 2013 EPA 
        resources toward protecting rural drinking water and wastewater 
        systems.
  --With the Department of Energy and the U.S. Geological Survey, EPA 
        researchers will prepare a detailed study of potential air, 
        ecosystem, and water quality impacts of hydraulic fracturing.
  --The EPA Pollution Prevention Program will focus its R&D efforts on 
        evaluating and encouraging greater use of greener chemicals, 
        products, and technologies.
    EPA programs play a role in preserving healthy environments in U.S. 
communities. In January, EPA provided nearly $10 million in grants to 
38 States, territories, and tribes to protect swimmers at beaches 
against bacterial and other contamination. A recent annual EPA report 
showed that EPA actions in fiscal year 2011 stopped more than 1.8 
billion pounds of harmful pollution in the Nation's air, land, and 
waters. In the past year, EPA safeguarded our food supply by issuing 
compliance orders to several beef feedlots in the Midwest and warning 
against consuming fish from contaminated waters in Texas. The agency 
also announced improvements to its Integrated Risk Information System 
(IRIS), an online repository of EPA's scientific evaluations of health 
risks associated with environmental contaminants. There currently are 
540 chemical substances in the IRIS database.
EPA Funding Stimulates Scientific and Economic Innovation
    In fiscal year 2013, EPA grants will continue to support both the 
university researchers who make new discoveries in environmental 
sciences and the educational institutions that train our future 
scientists and engineers. One example is EPA's principal sponsorship of 
the University of California's Center for Environmental Implications of 
Nanotechnology, created in 2008 to help design environmentally safe 
nanomaterials for what is expected to become a $1 trillion industry in 
the near future. Another is the exemplary Science To Achieve Results 
(STAR) fellowship program, which supports graduate environmental study.
    The ASM recommends that Congress provide increased funding for EPA 
science programs in the fiscal year 2013 budget for the agency. EPA's 
effectiveness in enforcing Federal environmental standards clearly 
depends upon the quality of EPA science and technology and increased 
resources are needed for the important EPA mission of protecting the 
public against unhealthy environments. The external portion of EPA's 
S&T funds which goes to universities is of major importance in training 
the next generation of scientists and engineers who will implement more 
cost-effect and sustainable protection of human health and the 
environment.
                                 ______
                                 
   Prepared Statement of the Arctic Slope Native Association Limited

    Thank you for the honor and opportunity to provide testimony. My 
name is Marie Carroll and I am the President/CEO of the Arctic Slope 
Native Association Limited (ASNA) based out of the northern most 
community of the United States of America, Barrow, Alaska. We operate 
the Samuel Simmonds Memorial Hospital under the Self Determination Act 
through a Title V 683 Compact with the Indian Health Service (IHS). Our 
service area is the size of the State of Minnesota.
    The Indian Health Service began the work to replace our 48 year old 
hospital in 1991. In 1996, ASNA took over management of the health 
facilities under 638 Compact with IHS. Since then, ASNA took over the 
Project Justification and other related documents to get the project in 
line with the IHS facilities construction program. ASNA is constructing 
the hospital through a Title V hospital construction agreement with 
IHS. I am pleased to report to you that our hospital construction 
project is on time and on budget, it is also the first project of its 
size to be constructed by a tribal health organization under Title V. 
We anticipate the completion of the project in December of this year. 
The IHS and ASNA have agreed to go through the acceptance and 
commissioning process jointly at the end of this year.
    ASNA plans to move from the 48 year old facility 2 by 4 facility to 
a more modern hospital in April 2013. However, we have a challenge 
because our staffing package was excluded in the fiscal year 2013 
President's budget. IHS has told ASNA that they did not recommend a 
staffing package for fiscal year 2013 because of the uncertainty of 
full funding for our construction budget in fiscal year 2012. Thanks to 
Congress our project was fully funded in fiscal year 2012 which has 
kept our project on time and on budget without additional cost of 
delaying a project in the Arctic environment. Which brings me to the 
final point, ASNA has been responsible in carrying out the construction 
program, we are now without a staffing package to bring a new hospital 
on line in April unless our staffing package be fully funded along with 
other tribal facilities opening in fiscal year 2013 at least through 
the portion of the fiscal year that the facilities are operational.
    We are grateful for the new facility that will benefit not only the 
Alaskan Native people who reside in the northern most communities in 
our country, it will also benefit everyone who lives there or visits 
our region because we operate the only hospital north of the Arctic 
Circle.
    In my language we end our public statements by simply saying, 
Quyanaq, meaning thank you.
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals

    On behalf of our 2.5 million supporters, The American Society for 
the Prevention of Cruelty to Animals (ASPCA) appreciates this 
opportunity to submit testimony to the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies. Founded in 
1866, the ASPCA is the first humane organization established in the 
Americas and serves as the nation's leading voice for animal welfare. 
The ASPCA's mission is to provide effective means for the prevention of 
cruelty to animals throughout the United States, and for that reason we 
request the Subcommittee consider the following concerns regarding 
BLM's Wild Horse and Burro Program when making fiscal year 2013 
appropriations.

                              WILD HORSES

    In the 40 years since the Bureau of Land Management (BLM) was first 
charged with protecting our country's wild horses and burros, Americans 
have witnessed BLM's Wild Horse and Burro Program deteriorate into a 
continuous cycle of roundups and removals with little regard to the 
preservation-focused mandate dictated by The Wild Free-Roaming Horses 
and Burros Act (the Act). Our wild horses and burros are to be revered 
as historical icons, treated humanely, and managed fairly and 
respectfully on our public lands. We appreciate BLM's recognition that 
there is a great need for reform in the Wild Horse and Burro Program. 
We applaud its effort to incorporate the use of on-the-range management 
methods such as immunocontraception and to find alternatives to long-
term holding of wild horses. However, further and significant 
reformations must be swiftly incorporated.

Prohibit BLM funding for euthanasia or sale of wild horses as 
        management methods
    In December 2004, Congress passed the Consolidated Appropriations 
Act for Fiscal Year 2005 which contained a provision that amended the 
Wild Free-Roaming Horses and Burros Act to allow for the sale of 
certain groups of wild horses and burros. This instant transfer of 
title from the U.S. Government to the individual purchaser revokes the 
animal's status as a protected equine and makes it vulnerable to the 
still-thriving horse slaughter industry. Additionally, in 2008 BLM 
publicly announced that it was considering using its statutory 
authority to destroy old, sick, or unadoptable wild horses and burros 
for the first time by implementing mass euthanasia as a population 
control method. The roar of public opposition that followed forced BLM 
to quickly withdraw the proposal. However, both the sale provision and 
the language allowing for the destruction of wild horses and burros 
remain in the law. The ASPCA requests that the Subcommittee include the 
following language in the appropriations bill that specifically 
prohibits funding programs or projects that subject wild horses and 
burros to the possibility of slaughter or euthanasia as a means of 
population control: ``Appropriations herein made shall not be available 
for the destruction of healthy, unadopted, wild horses and burros in 
the care of the Bureau or its contractors or for the sale of wild 
horses and burros that results in their destruction for processing into 
commercial products.''

Ensure that removals do not exceed adoption demand
    The majority of BLM's budget is spent caring for wild horses in 
long-term holding facilities. The budget requested for BLM's Wild Horse 
and Burro Program has necessarily increased each fiscal year, as has 
the portion of the budget that funds the care of wild horses in long-
term holding facilities. Unfortunately, instead of letting these wild 
horses remain in their natural habitats as part of their established 
herds, their family structures have been disrupted and they have been 
removed to fenced facilities where taxpayer dollars go for their care. 
There are now as many or more wild horses in holding facilities as in 
the wild. Without substantial change in management techniques, the 
number in holding facilities will only increase and taxpayer dollars 
will be further wasted in ever increasing amounts. The ASPCA believes 
wild horses belong in their natural habitats and should not be subject 
to the terror of removals nor the confines of holding facilities 
without hope of return to the range or adoption.
    Adoption rates have varied between 3,000 and 4,000 horses since 
2008. During that same time period, BLM has rounded up and removed 
approximately 7,800 annually, several thousand above the adoption 
demand, thereby guaranteeing most of those wild animals will be kept in 
taxpayer-funded holding facilities for the remainder of their lives. 
Warehousing horses in holding facilities does nothing to manage the on-
range populations and only delays the inevitable need for more 
preventative management. This cycle must be broken. The ASPCA 
encourages BLM to limit the number of horses removed from the range to 
the number matching current adoption demand.

Prioritize on-the-range management over roundup and removal
    The Wild Free-Roaming Horses and Burros Act makes clear that on-
the-range management should be preferred over roundup and removal as 
the primary method of wild horse management. There are multiple ways 
BLM can reform its program to favor on-the-range management methods.
    The ASPCA realizes that there are situations where population 
control is necessary, and we appreciate BLM's public recognition that 
fertility control methods such as immunocotraception must be a 
significant part of wild horse population management. Porcine Zona 
Pellucida (PZP), the contraceptive vaccine that has been used in 
managing horse and deer populations for decades, was recently 
registered by EPA and is now commercially available. For the past 2 
years, BLM has capped its goal for vaccinating horses at 2,000 horses 
per year. For PZP to become a serious part of the solution, its use 
must be increased to levels that will significantly impact population 
growth. As part of President Obama's proposed fiscal year 2013 budget 
for BLM, the Wild Horse and Burro Program requested a $2 million 
increase specifically for research and development of population-
control methods. The ASPCA recommends that the requested funds go 
toward prioritizing the use of humane, reversible fertility control 
when it is necessary to stem the population growth of wild horse or 
burro herds.
    In addition to escalating its use of immunocontraception, BLM must 
also reconsider Herd Management Areas (HMAs) that have been zeroed out 
as wild horse and burro habitat and make them available for 
reintroduction. Over 20 million acres of HMAs originally designated as 
wild horse and burro habitat have been zeroed out and horses have been 
removed and placed in holding facilities. This 40-year pattern has 
resulted in American taxpayers paying more each year for the cost of 
privatized care when millions of acres of habitat are available. The 
ASPCA recommends that the Subcommittee direct BLM to reestablish zeroed 
out HMAs as viable wild horse and burro habitat wherever possible.

Require humane and transparent roundup operations
    Finally, the ASPCA requests that, when roundups are necessary, the 
Subcommittee charge BLM with establishing humane and transparent 
standards and procedures for those operations. Observers have witnessed 
horses suffering and dying due to brutal roundup practices. Foals have 
been run over such extreme distances that they literally have lost 
their hooves, mares have been driven to the point of physical 
exhaustion, and a burro was physically assaulted with helicopter skids. 
BLM recognizes a need to reform its roundup protocol. The ASPCA 
applauds this acknowledgement and asks that the Subcommittee encourage 
BLM to expedite its development of Standard Operating Procedures for 
roundups that incorporate animal welfare standards. No roundups for 
removal or any other purposes should occur without procedures in place 
that will ensure these incidents are never repeated. For the public to 
continue to invest in this management program and to allow this agency 
to have any authority over these animals, it is vital that no horses or 
burros are harmed at the hands of BLM agents or contractors. We also 
urge the Subcommittee to designate funds for researching, and 
developing protocols that take into consideration the impact of 
separating family groups of wild horses during removals. To allow for 
more visibility of roundup operations, and thus more accountability, we 
urge the Subcommittee to designate funds for the installation of video 
cameras on helicopters and at trap and holding sites.
    Thank you for this opportunity to submit testimony. We appreciate 
the steps BLM has already taken to reform the Wild Horse and Burro 
Program, and we look forward to working with the agency on this issue 
in the future. With the help of the Subcommittee, the BLM Wild Horse 
and Burro Program can hopefully achieve sustainability and comply with 
the mission of the Wild Free-Roaming Horses and Burros Act: to protect 
and preserve these animals as historic American icons.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    Thank you for the opportunity to submit testimony regarding fiscal 
year 2013 funding for White-Nose Syndrome activities of the U.S. Fish 
and Wildlife Service, U.S. Geological Service, Bureau of Land 
Management, and the U.S. Forest Service; and for the Wild Horse and 
Burro program of the Bureau of Land Management.
    Since Congress last received testimony on the devastation being 
wrought on bat populations by White-Nose Syndrome (WNS), the picture 
has grown more alarming. In January, the U.S. Fish and Wildlife Service 
released new estimates of the death toll: Having now spread to 20 
States (this time last year it was 16) and 4 Canadian provinces, with 
over 200 sites affected, WNS has caused the deaths of at least 5.7 
million hibernating bats. Mortality rates at many affected sites 
continue to be at or near 100 percent. Insect-eating bats provide pest-
control services worth at least $3.7 billion, and possibly as much as 
$53 billion, per year to U.S. agriculture. When the death toll stood at 
1 million, scientists estimated that that many bats could have eaten 
nearly 700 tons of insects per year. With the disappearance of bats due 
to White-Nose Syndrome--necessitating greater use of pesticides and 
raising the price of food for consumers--our country's agriculture 
industry is at risk of serious economic losses that will likely be 
noticeable in 4 to 5 years. There are public health impacts as well due 
to greater numbers of disease-carrying insects.
    The above-mentioned agencies have been hard at work to understand 
the fungus, Geomyces destructans, involved in the deaths of so many 
bats, to identify steps to control and prevent its spread, and assist 
States with WNS oversight, surveillance, research, education, and 
outreach. Scientists succeeded in mapping the genome of the fungus and 
identifying its origin. Now, having also been able to conclude that 
Geomyces destructans does indeed cause WNS, they are in a better 
position to deal with it. Projects underway include but are not limited 
to: detailed studies of the fungus, its transmission, and possible 
means of mitigation, including non-chemical control; improving WNS 
detection techniques; and developing a better understanding both of 
bats' resistance and susceptibility to infection and of the persistence 
of the fungus in the environment. Additional priorities include 
assessing the post-WNS world, evaluating remnant populations, and 
determining the broader ecological impacts of WNS.
    We very much appreciate Congress' concern over this wildlife, 
environmental, and economic disaster, and the steps it took in the 
fiscal year 2012 appropriations redirecting $4 million in Fish and 
Wildlife Service spending to WNS, as well as instructing the Bureau of 
Land Management and U.S. Forest Service to prioritize research related 
to WNS and the inventorying and monitoring of bat resources on agency 
lands. There is a need, however, for new funds to support the many 
research, surveillance, prevention, and mitigation efforts needed to 
address this increasingly urgent problem. As noted above, much has been 
accomplished since the disease was first detected and scientists are on 
the verge of accomplishing a good deal more. Modest increases in the 
agencies' budgets for WNS will prevent the unraveling of this hard-won 
progress.

U.S. Fish and Wildlife Service: +$4.5 million
    The U.S. Fish and Wildlife Service leads the Federal Government's 
WNS efforts and supports all of the Working Groups under the White-Nose 
Syndrome National Plan. Its accomplishments include assembling an 
investigative team, support for research and State response activities, 
developing national and State plans, putting containment protocols in 
place, and providing surveillance.
    We ask the committee to maintain the President's fiscal year 2013 
recovery fund request of $81.909 million, including the requested 
$1.897 million within that amount for WNS, to be supplemented by an 
additional $2.603 million for WNS, for a total of $4.5 million, for an 
incremental increase in Congress' fiscal year 2012 commitment.
    These funds are needed for the following: (1) Interagency 
coordination, providing and relaying scientific information and 
guidance to and among Federal and State agencies, tribes, landowners, 
recreation, and conservation groups to ensure best practices on WNS-
related issues, such as research findings, status of disease spread, 
and fungus decontamination procedures; (2) identifying priorities for 
applied research that will assist in combating WNS and managing its 
spread, and funding projects that support these goals; (3) support to 
state wildlife agencies to conduct disease surveillance, monitor bat 
populations, implement conservation measures, and conduct research; and 
(4) conservation action for bat species in decline due to WNS, 
including assessing populations and spectrum of threats and providing 
guidance to Federal and State agencies and private landowners on the 
needs of species.

U.S. Geological Survey: +$1million +1 FTE
    We ask the committee to maintain the $1 million increase requested 
in the President's fiscal year 2013 budget in order to allow 
enhancements to USGS's WNS surveillance and diagnostic capabilities, 
and to support research on topics such as the following: (1) Immunology 
and pathogenesis (the origin, development, and resultant effects of 
WNS); (2) vaccine development; (3) prevalence and survival of WNS 
fungus in cave environments; and (4) modeling WNS disease processes.
    These activities support the goals of the following working groups 
of the National Plan: (1) diagnostics; (2) disease management; (3) 
epidemiological and ecological research; (4) disease surveillance; and 
(5) conservation and recovery

National Park Service: +$300,000
    Fourteen parks have significant cave resources (there are 4,000 
caves in NPS sites), account for 2,600 jobs, and generate $105 million 
in ``value added'' to the local communities. Seven of these sites are 
affected by WNS; they receive approximately 22 million visitors per 
year. We ask the committee to provide $300,000 for the National Park 
Service's WNS efforts, which include the following: (1) Preventing WNS 
spread by conducting visitor decontamination and monitoring flow of 
visitors on an as-needed basis; (2) conducting on-the-ground 
surveillance of disease; and (3) monitoring for disease presence or 
absence on NPS lands.
    These activities support the goals of the National Plan Disease 
Management Working Group.

Bureau of Land Management: +$1 million
    In order for the Bureau of Land Management (BLM) to comply with 
Congress' fiscal year 2012 directive to ``prioritize research related 
to White Nose Syndrome in bats and the inventory and monitoring of bat 
resources on Bureau-administered lands,'' we ask the committee to 
provide $1 million for BLM's WNS efforts. This will fund conducting bat 
inventories of the BLM's presently known caves and abandoned mines, 
which will support the goals of the National Plan Disease Management 
Working Group.

U.S. Forest Service: +$1.5 million
    In order for the Forest Service (USFS) to comply with Congress' 
fiscal year 2012 directive to ``prioritize research related to White 
Nose Syndrome as well as inventory and monitoring of bat resources on 
Forest Service lands,'' we ask the committee to provide $1.5 million. 
With this level of funding, the USFS will be able to undertake the 
following: (1) Research on topics such as enhancing environmental 
conditions for bat survival in the face of WNS, possible biological 
controls for WNS, and ways to measure the status and fitness of bat 
populations; (2) preventing WNS spread by conducting visitor 
decontamination and monitoring flow of visitors on an as-needed basis; 
(3) conducting on-the-ground surveillance of disease; (4) monitoring 
for disease presence or absence; and (5) managing forests to optimize 
bat habitat. Among other pests in their diet, bats eat mosquitoes and 
gypsy moths, and there are 15 beetles and 10 moths in the diet of the 
little brown bat alone, one of the species badly affected by WNS. 
Massachusetts expects an increase in defoliation by the winter moth, 
which is also found in Connecticut and New Hampshire, all of whose bat 
populations have been significantly decimated by WNS. More research 
into the economic impact on forests from the loss of bat populations is 
greatly needed.
    These activities support the goals of the Disease Management, 
Epidemiological and Ecological Research, and Conservation and Recovery 
Working Groups of the National Plan.

Wild Free-Roaming Horses and Burros Act (WFRHBA)
    The wild horse is as much a symbol of American heritage as the 
image of Uncle Sam and baseball. Currently, these wild horses are at 
risk of mistreatment by the Bureau of Land Management (BLM), which 
misuses most of its budget to round up and warehouse wild horses and 
burros to make room for privately owned cattle. Wild horses have been 
removed from over 19 million of the 52 million acres allocated to them 
by Congress. Since 2004, wild horses have been at risk of being sold to 
killer-buyers who make a profit by sending horses to slaughter for 
human consumption. AWI requests that any increase in appropriations 
under the WFRHBA be solely used for implementation of humane, on-the-
range management methods such as immunocontraception versus unnecessary 
roundup. AWI strongly encourages that this ``no-kill'' language also be 
maintained to ensure the BLM does not kill healthy wild horses and 
burros:

    ``Provided, That appropriations herein made shall not be available 
for the sale or destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors''.
                                 ______
                                 
   Prepared Statement of the Bernalillo Board of County Commissioners

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Fish and 
Wildlife Service included an allocation of $1.5 million for Middle Rio 
Grande NWR. I am pleased that this funding was included in the request 
and urge Congress to provide necessary funds for LWCF for this 
important project.
    The 570 acre Price's Dairy property is located in the South Valley 
of Albuquerque, New Mexico, 5 miles south of downtown. This tract is 
one of the largest remaining farms in the Middle Rio Grande Valley and 
the largest agricultural property within the Albuquerque metro region. 
The city of Albuquerque is among the fastest growing urban areas in the 
United States, and its developing sprawl contributes to a loss of 
history and culture while placing significant stress on the natural 
resources of the Valley and the Rio Grande.
    Over the years, various attempts have been made to preserve this 
property. During that time, other large-acreage properties on the river 
have been subdivided and developed and the water rights sold to support 
other needs. With a landowner who seeks a conservation outcome, the 
opportunity exists now to protect this section of the Rio Grande, 
engage the next generation though environmental education and outreach, 
and support economic development on the south side of the city. This is 
a property that has high environmental values but also will benefit New 
Mexico residents and visitors far into the future.
    These conservation efforts culminated on September 29, 2011, with 
an announcement by Secretary of the Interior Ken Salazar and the U.S. 
Fish and Wildlife Service (USFWS) to authorize the Price's Dairy 
property as the Middle Rio Grande National Wildlife Refuge (MRGNWR). 
The unit would be the first urban refuge in the USFWS Southwest Region. 
Overwhelming public support for the new refuge was generated throughout 
the Service's planning process, and it was named one of the 50 State 
projects under the Obama administration's America's Great Outdoors 
(AGO) initiative.
    The creation of this new refuge will protect the natural resource 
values of the property that would be lost through subdivision and 
development, bolster environmental education and outreach for local 
students and residents, and provide a gateway to the larger regional 
park system. In addition, because of the prop erty's significant senior 
water rights, the protection of this property would also add to the 
health and vitality of the adjacent Rio Grande, which is struggling to 
support the people and wildlife that depend on it for water. About 70 
percent of the State's population--more than 1.3 million people--live 
in the 10 counties along the Rio Grande.
    The USFWS proposal creating the new MRGNWR emphasizes restoration 
of river, bosque, and wildlife habitats on the property. The section of 
the river next to Price's Dairy has been designated critical habitat 
for Rio Grande silvery minnow and southwestern willow flycatcher, two 
endangered species. The restoration of the landscape and the 
redistribution of acquired senior water rights on the property to 
increase instream flows would meet objectives to improve habitats and 
their viability, lower the threat to fish and wildlife of drought, and 
mitigate expected effects of climate change. Price's Dairy provides an 
important waypoint for migratory birds such as sandhill cranes, Arctic 
geese, and varied duck species that move up and down the river from 
summer breeding grounds in the north to wintering havens in the south.
    The river corridor also provides an opportunity for hiking and 
biking along the planned Rio Grande Trail, which is proposed to 
parallel the river as it cuts through New Mexico from north to south. 
The MRGNWR would provide an important trailhead for this system and 
also be a new southern terminus of the City of Albuquerque's existing 
Paseo del Bosque Trail. These recreational connections would improve 
public access to the Rio Grande and underscore the significant Federal, 
State, local, and private efforts to promote recreation and the 
outdoors.
    As an urban refuge, the MRGNWR will connect Albuquerque residents 
to the outdoors in ways not previously available. The refuge plan calls 
for the eventual construction of an onsite environmental education 
center to enhance student learning and connection with nature. The 
refuge unit could also become the site of agricultural extension 
offices, a native plant materials center, small farm demonstration 
plots that promote regionally cherished crops, and university-level 
scientific and agricultural research.
    Protection of Price's Dairy offers myriad benefits for the public. 
As open space and as a trailhead, it would provide recreational 
opportunities for an underserved part of the Albuquerque metro area. 
Its proximity to the Rio Grande, large undeveloped acreage, and 
existing farming activity offer the USFWS and State agencies an 
opportunity to engage in sound environmental restoration practices 
while connecting young people and urban residents to the natural world. 
With the attraction of a USFWS visitor's center and the nearby access 
to Interstate 25, there are also economic benefits to the South Valley.
    The acquisition of the property and associated senior water rights 
is expected to cost up to $20 million. Demonstrating the importance of 
the project to the Albuquerque metropolitan area, the Bernalillo County 
Board of Commissioners, of which I am a member, unanimously voted on 
September 28, 2010 to appropriate $5 million in county funds for the 
acquisition. These funds were made available only over a period of 2 
years from approval and expire in late September 2012. To match these 
funds, other funding is being sought from a variety of local, State and 
Federal sources, and the landowner agreement in place requires a Phase 
I closing by the end of June 2012.
    To date, in addition to the county funds, $1 million has been 
secured from the Albuquerque Metropolitan Flood Control Authority and 
$1 million from the Bureau of Reclamation. The fiscal year 2013 
President's budget request for the U.S. Fish and Wildlife Service 
includes an allocation of $1.5 million from the Land and Water 
Conservation Fund to the MRGNWR, which may be supplemented by 
additional LWCF dollars and FWS grants. In order to ensure that this 
project moves forward in a timely way, the fiscal year 2013 President's 
budget recommendation is urgently needed, while the effort to secure 
supplemental local, State, Federal and private funds continues.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Middle Rio 
Grande NWR. I want to thank the Chairman and the members of the 
subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in New Mexico, and I appreciate 
your consideration of this funding request.
                                 ______
                                 
          Prepared Statement of Bat Conservation International

    Chairman Reed, Ranking Member Murkowski, and members of the 
Subcommittee, thank you for the opportunity to submit testimony. Bat 
Conservation International (BCI) is a nonprofit organization that 
conducts and supports science-based research, education, and 
conservation to ensure that bats will still be helping to maintain 
healthy environments and human economies far into the future. We are 
based in Austin, Texas, with a membership of more than 10,000 from all 
50 of the United States. We respectfully request $7,800,000 plus 1 
full-time employee in fiscal year 2013 funding to address White-nose 
Syndrome (WNS), a disease decimating North American bats.
    WNS poses the gravest threat ever faced by U.S. bats. Since its 
discovery in 2006, the disease has killed at least 5.7 million bats. It 
is named for the previously unknown, cold-loving white fungus that 
causes the disease, found on the faces and wings of infected bats. WNS-
infected bats awaken frequently during hibernation, burning the fat 
reserves they need to survive the winter. They often emerge early from 
hibernation, before the return of warm weather and insects, only to 
freeze or starve to death. The disease or its associated fungus has 
spread to 20 States and 4 Canadian provinces in the 6 years since WNS 
was first observed in a cave near Albany, New York. The northeastern 
United States has borne the brunt of WNS so far, but the disease or its 
fungus has spread as far south as Alabama. It has also reached as far 
west as Oklahoma, in a location closer to the Pacific Ocean than to the 
site of WNS's first observation in New York.
    Biologists consider the WNS die-off to be North America's most 
precipitous wildlife decline in the past century. The disease strikes 
hibernating bats--those that sleep through the winter in caves and 
mines--and has affected every hibernating bat species in its geographic 
path. Of the Nation's 47 bat species, 25 hibernate, and all of these 
hibernating species are considered at risk of the disease. WNS or the 
fungus currently affects 9 species, including the federally endangered 
Indiana and gray bats, which could well be even closer to extinction as 
a result. Some WNS-infected sites experience mortality rates of almost 
100 percent. Losses are so severe that researchers are predicting 
regional extinctions of the little brown bat--previously one of 
America's most common mammals--in northeastern States within 15 years.
    Bats provide many benefits to humankind. As primary predators of 
night-flying insects, bats are critical to maintaining the balance of 
nature. A bat can eat half to all of its body weight in insects per 
night, consuming vast numbers of pests that damage crops such as corn, 
cotton, and potatoes. A study published last year in the journal 
Science estimates the value of bats to the U.S. agriculture industry 
ranges from $3.7 billion to $53 billion per year. Bats also eat insects 
that damage forests and spread disease. Some bat species pollinate 
crops and disperse seeds. Research of bat biology has yielded important 
chemical products, including a medication to prevent strokes. Bat 
droppings in caves support unique ecosystems, including microorganisms 
that could be used in detoxifying industrial wastes and producing safer 
pesticides and antibiotics.
    The loss of bats would have serious ecological and economic 
consequences. With millions of bats dead from WNS, their would-be prey 
insects are surviving to attack crops and forests. The Science article 
argues that, as a result of WNS, North American agriculture will begin 
noting economic losses within 3 to 4 years, with especially severe 
impacts to the Midwest and Great Plains regions. In addition to crop 
losses, farmers will need to use more pesticides, increasing the 
financial strain on farming families, raising the price of food for 
consumers, and releasing more chemicals into our environment. Bats are 
important predators, so their disappearance could have broad, ripple 
effects on the environment that we cannot yet assess.
    Population declines from WNS could lead to listing more bat species 
under the Federal Endangered Species Act, as well as State-level 
statutes, which would cause far-ranging economic costs. Due to WNS, FWS 
is conducting a status review of the little brown bat and listing 
reviews of the northern long-eared bat and eastern small-footed bat. At 
the State level, Ohio and Wisconsin have each listed four bat species, 
and other States are considering designations. Bat species affected by 
WNS have broad geographic distributions and complex ecological 
patterns, which would likely require very high recovery costs. Finally, 
regulations stemming from listing more bat species would have economic 
impacts on industries such as mining, defense, energy, forestry, 
construction, transportation, tourism, and outdoor recreation.
    BCI appreciates the commitment Congress has demonstrated toward 
fighting WNS. In fiscal year 2010, Congress made an appropriation of 
$1.9 million to FWS for WNS. In the fiscal year 2012 spending package, 
Congress directed FWS to spend no less than $4 million on WNS, and 
directed BLM and USFS to prioritize WNS activities. We thank Congress 
for recognizing not only the gravity of WNS, but also the institutional 
and geographic scope of the response needed to fight the disease. The 
Federal Government--in conjunction with partners in State, Local, and 
Tribal agencies, academic institutions, and nonprofits--has mounted an 
admirable response to the disease within the framework of the National 
Plan for Assisting States, Federal Agencies, and Tribes in Managing 
White Nose Syndrome in Bats (National Plan).
    The increases for WNS requested in the President's fiscal year 2013 
budget will enable Federal agencies to capitalize on, and add to, the 
hard-won progress they have made against WNS. Researchers have answered 
many of the basic science questions about this previously unknown 
disease, and are ready to apply the knowledge to exploring management 
and conservation measures. Failing to fund WNS this year will undermine 
the accomplishments Federal agencies and their partners have made to 
fight this devastating epidemic.
    BCI therefore supports the requests for WNS funding in the 
President's fiscal year 2013 budget, and we urge the Subcommittee to 
maintain them. If the Subcommittee can invest more in fighting WNS to 
protect bats and the valuable contributions bats make to the economy, 
agriculture, and the environment, we suggest the following outlays.

U.S. Fish & Wildlife Service--$4,500,000
    We ask the Subcommittee to maintain the $1.897 million for WNS in 
the President's fiscal year 2013 budget, and to maintain the 
President's fiscal year 2013 Recovery Fund request of $81.909 million. 
An additional $2.603 million for WNS--for a total of $4.5 million--
would incrementally increase Congress's fiscal year 2012 commitment.
    This will fund:
  --Research.--Identify priorities for applied research that will 
        assist in combating WNS and managing its spread, and fund 
        projects that support these goals.
  --Interagency coordination.--Provide and relay scientific information 
        and guidance to and among Federal and State agencies, tribes, 
        landowners, recreation, and conservation groups to ensure best 
        practices on WNS-related issues, such as research findings, 
        status of disease spread, and fungus decontamination 
        procedures.
  --State support.--Provide funding for State wildlife agencies to 
        conduct disease surveillance, monitor bat populations, 
        implement conservation measures, and conduct research.
  --Conservation action for bat species in decline due to WNS.--Assess 
        populations and threats; provide guidance on needs of species 
        to Federal and State agencies and private land owners.

U.S. Geological Survey--$1,000,000 plus 1 FTE
    We ask the Subcommittee to maintain the requested increase in the 
President's fiscal year 2013 budget for $1 million and 1 full-time 
employee to carry out work related to WNS.
    This will support:
  --Enhancing WNS surveillance and diagnostic capabilities.
  --Research, on topics such as:
    --Vaccine development;
    --Pathogenesis--the origin, development, and resultant effects--of 
            WNS;
    --Prevalence and survival of WNS fungus in cave environments;
    --Modeling WNS disease processes.
    These activities support the goals of the following working groups 
of the National Plan:
  --Diagnostics
  --Disease Management
  --Epidemiological and Ecological Research
  --Disease Surveillance
  --Conservation and Recovery

National Park Service--$300,000
    We ask the committee to provide $300,000 for the National Park 
Service's WNS efforts.
    This will fund:
  --Preventing WNS spread by conducting visitor decontamination and 
        monitoring flow of visitors on an as-needed basis.
  --Conducting on-the-ground surveillance of disease.
  --Monitoring for disease presence or absence.
    These activities support the goals of the National Plan Disease 
Management Working Group.

Bureau of Land Management--$1,000,000
    In order for the Bureau of Land Management to continue Congress's 
fiscal year 2012 directive to ``prioritize research related to White 
Nose Syndrome in bats and the inventory and monitoring of bat resources 
on Bureau-administered lands'', we ask the committee to provide 
$1,000,000 for BLM's WNS efforts.
    This will fund bat inventories of the BLM's presently known caves 
and abandoned mines, supporting the goals of the National Plan Disease 
Management Working Group.

U.S. Forest Service--$1,000,000
    In order for the Forest Service to continue Congress's fiscal year 
2012 directive to ``prioritize research related to White Nose Syndrome 
as well as inventory and monitoring of bat resources on Forest Service 
lands'', we ask the committee to provide $1,000,000, to be divided 
between the Research and Development branch and the National Forest 
System branch.
    This will fund:
  --Research, on topics such as:
    --Enhancing environmental conditions for bat survival in the face 
            of WNS.
    --Possible biological controls for WNS.
    --Ways to measure the status and fitness of bat populations.
  --Preventing WNS spread by conducting visitor decontamination and 
        monitoring flow of visitors on an as-needed basis.
  --Conducting on-the-ground surveillance of disease.
  --Monitoring for disease presence or absence.
  --Managing forests to optimize bat habitat.
    These activities support the goals of the following National Plan 
Working Groups:
  --Disease Management
  --Epidemiological and Ecological Research
  --Conservation and Recovery
    Money spent on WNS is a wise investment. First, preventing the 
spread of WNS will spare businesses the regulatory and other impacts of 
bat die-offs. In addition, implementing WNS response generates jobs. 
Finally, conducting WNS research, management, and prevention now will 
reduce future expenses to the U.S. economy resulting from pest impacts 
to agriculture and forestry, businesses affected by additional bat 
listings, and the cost of listed-species recovery. In this case, an 
ounce of prevention is truly worth a pound of cure.
    Thank you for the opportunity to share BCI's position on this 
serious matter, and we respectfully ask you to consider our urgent 
request.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement

    Chairman Reed, Ranking Member Murkowski, and Members of the 
Subcommittee, thank you for the opportunity to offer comments on the 
fiscal year 2013 Interior Appropriations bill. The National Wildlife 
Refuge System stands alone as the only land and water conservation 
system with a mission that prioritizes wildlife and habitat 
conservation and wildlife-dependent recreation. Since 1995, the 
Cooperative Alliance for Refuge Enhancement (CARE) has worked to 
showcase the value of the Refuge System and to secure a strong 
Congressional commitment for conserving these special places. Located 
in every U.S. State and territory, refuges conserve a diversity of 
America's environmentally sensitive and economically vital ecosystems, 
including oceans, coasts, wetlands, deserts, tundra, prairie, and 
forests. We respectfully request a funding level of $495 million for 
the Operations and Maintenance accounts of the National Wildlife Refuge 
System for fiscal year 2013.
    This testimony is submitted on behalf of CARE's 22 member 
organizations, which represent approximately 15 million Americans 
passionate about wildlife conservation and related recreational 
opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    Although CARE strives to make steady progress toward funding the 
Refuge System at $900 million annually, a budget that more accurately 
reflects demands on the ground, our request of $495 million for fiscal 
year 2013 essentially maintains the Refuge System at a flat funding 
level. It includes only a modest increase over the fiscal year 2012 
appropriation in order to keep fuel in the trucks, pay for rising 
utilities and building rent, and cover other fixed costs. The Refuge 
System generally requires an annual increase of at least $15 million to 
offset these rising costs, but our request for approximately $8 million 
in additional funding for fiscal year 2013 accounts for the current 
salary freeze for Federal employees.
    An appropriation of $495 million in fiscal year 2013 would 
stabilize the workforce by keeping workforce downsizing plans securely 
on the shelf, thereby reducing pressure on the U.S. Fish and Wildlife 
Service (FWS) to cut refuge staff below already insufficient levels. It 
would enable refuge staff to continue making progress toward protecting 
and restoring America's wildlife and habitat, and providing a positive 
experience for nearly 46 million annual visitors who use refuges for 
hunting, fishing, watching wildlife, and educational and interpretive 
programs.
    This funding would also allow the Refuge System to continue its 
recently initiated inventory and monitoring program. The need for this 
program was made clear by the Deepwater Horizon oil spill, which forced 
FWS staff to hastily catalog the assets of gulf coast refuges in order 
to recoup the cost of damaged resources from responsible parties. 
Without adequate baseline data, most refuges are ill-prepared to assess 
or respond to such impacts, and the inventory and monitoring program is 
needed to fill the widespread information gaps that exist across the 
Refuge System.
    Many years of inadequate budgets have left the Refuge System's 
Operations and Maintenance backlog at nearly $3.2 billion. While budget 
increases in fiscal year 2008 through fiscal year 2010 helped 
immensely, too many visitors still show up to find roads and visitor 
centers closed, viewing platforms and hiking trails in disrepair, and 
habitat restoration and nature education programs eliminated.
    Annual budgets that do not cover fixed costs are particularly 
harmful because the Refuge System is already stretched thin responding 
to damages from natural disasters. From fiscal years 2005-2011, the 
Refuge System sustained $693 million in damages from natural disasters 
including hurricanes, flooding, tornadoes, fires, a tsunami, and an 
earthquake. The damages in 2011 alone were almost $200 million, 
approximately 40 percent of the Refuge System's operations and 
maintenance funds for the year. Of the $693 million in damages, 
Congress appropriated $254 million in emergency supplemental funding, 
but the remaining $439 million has been added to the Refuge System's 
$2.5 billion deferred maintenance backlog.
    Today, more than 35 percent of America's national wildlife refuges 
have no on-site staff, leaving no one to unlock gates, teach 
schoolchildren, administer hunting programs, or carry out restoration 
projects. Refuges with only one or two staff lack the capacity to 
partner with interested stakeholders, and opportunities for volunteer 
involvement and leveraging of additional dollars are lost. Non-native, 
invasive plants have infested approximately 2.5 million acres, and only 
10 percent of this acreage was treated in 2011. Further, a crippling 
shortage of law enforcement officers has left refuges sorely under-
protected from illegal activities such as drug production and 
trafficking, wildlife poaching, illegal border activity, assaults, and 
many types of natural resource violations. Currently, only 244 full-
time law enforcement officers are tasked with managing the 150 million 
acre System--the equivalent of one officer per 650,000 acres--which an 
independent analysis recommends be patrolled by a force of 845 
professional officers. For instance, one officer in the Pacific Region 
is responsible for covering nearly 54,000,000 acres of the Refuge 
System alone.
    National wildlife refuges are critically important on local and 
regional scales. According to data from a recent report by Southwick 
Associates, the Refuge System generates $8 in economic activity for 
every $1 appropriated by Congress. Further, more than 32,500 American 
jobs are attributed to recreation on refuges. And, as stated in the 
fiscal year 2013 budget justification for the U.S. FWS, ``On a national 
level, each $5 million invested in the Refuge System's appropriations 
(salary and non-salary) impacts an average of 83.2 jobs, $13.6 million 
in total economic activity, $5.4 million in job-related income and 
$500,000 in tax revenue. Each 1 percent increase or decrease in 
visitation impacts $16.9 million in total economic activity, 268 jobs, 
$5.4 million in job-related income, and $608,000 in tax revenue. 
Therefore, maintaining a healthy visitor program at national wildlife 
refuges is vital to the economic well-being of communities all across 
the Nation.''
    Refuges also provide important environmental and health benefits, 
such as filtering storm water before it runs downstream to municipal 
water supplies and, in many areas, reducing flooding by capturing 
excess rainwater and attenuating coastal storm surges. The Southwick 
Associates report states that in 2010, refuges generated more than 
$32.3 billion in these ecosystem services, a return of over $65 for 
every $1 appropriated by Congress.
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends groups and 
volunteers do approximately 20 percent of all work on refuges. In 2011, 
these 1.5 million hours equated to roughly 8 volunteers for every 1 
refuge employee, or the equivalent of almost 650 full-time employees. 
Without staff to oversee volunteers, their commitment and passion is 
lost, as is their desperately needed contribution to the Refuge System.
    Funding increases in fiscal year 2008 through fiscal year 2010 
allowed for meaningful progress toward properly patrolling and 
enforcing laws on the Refuge System's 150 million acres, maintaining 
recreation and education programs for the public, sustaining high water 
quality, completing habitat restoration projects, and more, although 
our new marine monuments comprising one-third of the Refuge System 
largely remain a major unfunded need. Cutting Operations and 
Maintenance funding back to fiscal year 2008 levels would result in the 
elimination of several hundred staff positions and loss of important 
wildlife management, education, and hunting and fishing programs. The 
way to keep from reversing recent progress is to fund the Refuge System 
at $495 million in fiscal year 2013.
    On behalf of our more than 15 million members and supporters, CARE 
thanks the Subcommittee for the opportunity to offer comments on the 
fiscal year 2013 Interior Appropriations bill and we look forward to 
meeting with you to discuss our request.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network

    The Children's Environmental Health Network (CEHN or the Network) 
providing testimony on fiscal year 2013 appropriations, especially 
appropriations for the Environmental Protection Agency (EPA) and the 
Agency for Toxic Substances and Disease Registry (ATSDR).
    We are writing today to provide testimony on the fiscal year 2013 
budget currently before your committee, especially the budget proposed 
by the President for the Environmental Protection Agency (EPA).
    This year, the Children's Environmental Health Network is 
celebrating its 20th anniversary as a national nonprofit organization 
whose mission is to protect the developing child from environmental 
hazards and promote a healthier environment. The Network's Board and 
committee members include internationally recognized experts in 
children's environmental health science and policy who serve on key 
Federal advisory panels and scientific boards. We recognize that 
children, in our society, have unique moral standing.
    The Network is deeply concerned about the health of the Nation's 
children and urges the Subcommittee to help all children grow up in 
healthy environments by embracing its role in protecting our 
environment and our health.
    American competitiveness depends on having healthy educated 
children who grow up to be healthy productive adults. Yet, growing 
numbers of our children are diagnosed with chronic and developmental 
illnesses and disabilities. The National Academy of Sciences estimates 
that toxic environmental exposures play a role in 28 percent of 
neurobehavioral disorders in children and this does not include other 
conditions such as asthma or cancers. Thus, it is vital that the 
Federal programs and activities that protect children from 
environmental hazards receive adequate resources.
    CEHN urges the Subcommittee to provide funding at or above the 
requested levels for the following EPA activities: Office of Children's 
Health Protection, Children's Environmental Health Research Centers of 
Excellence, Office of Research and Development, School and Child Care 
Environmental Health, The Pediatric Environmental Health Specialty 
Units, and The National Children's Study.
    CEHN also urges full funding of all activities that advance healthy 
school and childcare environments for all children.
    As epidemiologists see increasing rates of asthma, learning 
disabilities, and childhood cancers; as parents seek the causes of 
birth defects; as researchers understand more and more about the fetal 
origins of disease, policymakers must do a much better job of 
understanding and acting on the connections between children's health 
and the environments in which they spend their time.
    These environments include but go beyond home, school, and 
childcare settings. A growing number of studies are finding unexpected 
impacts of prenatal environmental exposures on health in later years. 
For example, prenatal exposures to either a common air pollutant or a 
common pesticide have both been linked to lower IQs and poorer working 
memory at age 7.
    Thus, all agencies should assure that their children's programs 
build on and respond to the growing evidence of the importance of 
prenatal exposures to a child's health and future.
    This evidence also highlights the shortcomings of the Toxic 
Substances Control Act, which does not adequately protect human health, 
including that of vulnerable populations such as children. The Network 
urges you, as members of Congress, to support the long overdue reform 
of this important statute to give priority to the protection of human 
health under this law.
    A variety of factors, such as children's developing systems, their 
unique behaviors and differing exposures, mean that children can be 
more susceptible than adults to harm from toxic chemicals. Standards 
and guidelines that are based on adults cannot be assumed to be 
protective of children. The EPA programs of highest importance in the 
protection of children are described below.
    EPA's Office of Children's Health Protection.--EPA's efforts to 
protect children from environmental hazards have been led by the Office 
of Children's Health Protection (OCHP) since 1997. Despite an effective 
track record, funding for OCHP has been level, at approximately $6 
million, since its creation. CEHN strongly supports an increase in 
funding for OCHP for its work on environmental health in the home, 
school and child care settings. This valuable work includes the 
office's interagency work promoting healthy housing and healthy 
children, where we find that environmental interventions result in 
great cost savings, not to mention the health problems averted, such as 
asthma episodes and lead poisoning cases. There is great interest but 
few resources for these approaches. OCHP--and the Agency--must also 
build on the research on prenatal exposures, an area of growing 
concern. OCHP should help healthcare providers better understand the 
science and in translating these findings for clinical consultation and 
communicating with patients. CEHN urges the Subcommittee to provide 
funds above the proposed level for OCHP.
    Children's Environmental Health Research Centers of Excellence.--
The Centers, jointly funded by EPA and NIEHS, play a key role in 
providing the scientific basis for protecting children from 
environmental hazards. With their modest budgets, which have been 
unchanged over more than 10 years, these centers generate valuable 
research. We were pleased to see the commitment by EPA's Office of 
Research and Development to this program in the budget language and 
applaud the recent release of Requests for Proposals for the Children's 
Centers. A unique aspect of these Centers is the requirement that each 
Center actively involves its local community in a collaborative 
partnership, leading both to community-based participatory research 
projects and to the translation of research findings into child-
protective programs and policies. The scientific output of these 
centers has been outstanding. It was these centers, for example, that 
generated the findings I mentioned earlier about connections between 
prenatal exposures and lower IQ at age 7. We urge you to provide full 
funding for these Centers.
    Office of Research and Development (ORD).--This office is critical 
in efforts to understand environmental impacts on children's health. 
Children's environmental health is a priority of the Agency's strategic 
plan and we were pleased to see the mention in the 2013 budget 
supporting continued research on children's issues. Yet the funding and 
research dedicated to this area is not specifically listed or 
identified in the plan. If this area is indeed a priority, where are 
measurable goals on this area of research? Where is the documentation 
of the amount and type of research conducted as well as how the 
protection of children is given priority throughout ORD? We ask that 
your subcommittee direct the office to improve transparency by tracking 
and reporting on the funding and research across the office dedicated 
to children's environmental health.
    ORD's focus on sustainability in its work is commended; no truly 
sustainable development paradigm could be developed without protecting 
children and their future. Children's environmental health is an issue 
that cuts across all of ORD's programs. For example, EPA's National 
Health and Environmental Effects Research Laboratory scientists are 
protecting children's health through the development of cost-effective 
methods to test and rank chemicals for their potential to cause 
developmental neurotoxicity. Historic methods using laboratory animals 
are expensive and time consuming. To date, only a small number of the 
thousands of chemicals currently in commerce have been assessed for 
their potential toxicity and for their effects on the child's 
developing nervous system. These new testing methods can screen in 
hours to days instead of months to years and will provide faster, less 
expensive ways of assessing potential toxicity.
    These new testing methods, however, do not replace the need for 
continued research in childhood exposures and health effects. Our 
understanding is that of the $81 million proposed for the grants 
program, only $6.3 million is targeted to children's research (for the 
centers mentioned above). Much of the research in this field cannot be 
conducted in a short timeframe and requires sustained funding if 
scientists are to conduct research and measure effectiveness.
    School and Chlid Care Environmental Health.--In America today, 
millions of infants, toddlers and preschoolers, often as young as 6 
weeks to 4 years of age, spend 40-50 hours a week in childcare. Yet, 
little is known about the environmental health status of the Nation's 
childcare centers or how to assure that these facilities are protecting 
this highly vulnerable group of children. Environmental health is 
rarely if ever considered in licensing centers or training childcare 
professionals. Similarly, about 54 million children and nearly 7 
million adults--20 percent of the total U.S. population--spend up to 40 
hours per week inside school facilities every week. Unfortunately, many 
of these facilities contain unsafe environmental conditions that harm 
children's health and undermine attendance, achievement, and 
productivity. Thus, it is vital that EPA maintain and expand its 
activities for healthy school and child care settings, such as the 
Indoor Air Quality Tools for Schools program.
    Pediatric Environmental Health Specialty Units.--Funded jointly by 
EPA and the Agency for Toxic Substances and Disease Registry, the 
Pediatric Environmental Health Specialty Units (PEHSUs) form a valuable 
resource network, with a center in each of the U.S. Federal regions. 
PEHSU professionals provide medical consultation to healthcare 
professionals on a wide range of environmental health issues, from 
individual cases of exposure to advice regarding large-scale community 
issues. PEHSUs also provide information and resources to school, child 
care, health and medical, and community groups to help increase the 
public's understanding of children's environmental health, and help 
inform policymakers by providing data and background on local or 
regional environmental health issues and implications for specific 
populations or areas. We urge the Subcommittee to provide adequate 
funding for both EPA's and ATSDR's portions of this program.
    National Children's Study.--The National Children's Study (NCS) is 
examining the effects of environmental influences on the health and 
development of more than 100,000 children across the United States, 
following them from before birth until age 21. This landmark 
longitudinal cohort study--involving a consortium of agencies including 
CDC and NIEHS--will be one of the richest research efforts ever geared 
toward studying children's health and development and will form the 
basis of child health guidance, interventions, and policy for 
generations to come. CEHN urges the Subcommittee to restore the budget 
of NCS for fiscal year 2013 to ensure that EPA has sustained funding 
for the necessary infrastructure for data access and the ability to 
collaborate with its partners on the NCS.
    Children's health and healthy children must be an ongoing priority 
for this and every administration.--Since the Network's creation 20 
years ago, great leaps forward have been made. We commend the EPA for 
its great progress in recognizing children's unique susceptibilities to 
environmental toxicants. More remains to be done, however. The Network 
urges the Subcommittee to direct the Agency to assure that all of its 
activities and programs--including regulations, guidelines, assessments 
and research--specifically consider children.
    The Agency's work must always assure that children and other 
vulnerable subpopulations are protected, especially poor children, 
minority children, farmworker children, and others at risk. A wonderful 
example doing just that is the Agency's long-awaited decision to limit 
emissions of mercury and other toxicants from power plants. Mercury is 
a potent neurotoxin, which can permanently damage a child's sensitive 
nervous system. If we want our children to reach their full potential, 
we need to get mercury out of their environment. This proposal is a 
practical, cost-effective and vital step toward this goal. Other 
benefits of this rule will be decreased exposures to pollutants that 
can cause cancer or trigger asthma attacks.
    Thank you for the opportunity to testify on these critical issues, 
and thank you for your concern about the environmental health of 
children.
                                 ______
                                 
          Prepared Statement of the Cook Inlet Tribal Council

    Chairman Reed and Members of the Subcommittee, thank you for the 
opportunity to speak before you today. My name is Gloria O'Neill and I 
am the President and CEO of Cook Inlet Tribal Council (CITC), an Alaska 
Native tribal nonprofit organization which serves as the primary 
education and workforce development center for Native people in 
Anchorage. CITC has been designated tribal authority through Cook Inlet 
Region Inc., organized through the Alaska Native Claims Settlement Act 
and recognized under Section 4(b) of the Indian Self-Determination Act 
and Education Assistance Act, Public Law 93-638. CITC builds human 
capacity by partnering with individuals to establish and achieve both 
educational and employment goals that result in lasting, positive 
change for themselves, their families, and their communities.

Demographics and Expanding Service Population
    CITC's programs serve Alaska Native and American Indian people in 
the Cook Inlet Region, which includes Alaska's most urbanized and 
populated communities, and is home to an Alaska Native/American Indian 
population of more than 40,000, approximately 40 percent of the Native 
population of the State of Alaska. In Anchorage alone, the Native 
population is approximately 22,000, about 20 percent of the total 
Native population in the State. Anchorage is the fourth largest Native 
community in the Nation. CITC's programs address many of the social, 
economic, and educational challenges faced by Alaska Native people. For 
example, Alaska Native students are twice as likely to drop out as 
their non-Native peers; 33 percent of Alaska's unemployed are Alaska 
Native people, and almost 20 percent of Alaska Native people have 
incomes below the Federal poverty line--nearly three times the rate of 
non-Native people.
    In-migration from rural, largely Alaska Native communities to the 
urban areas in the Cook Inlet Region is accelerating as Alaska Native 
people find it increasingly difficult to make a living in rural Alaska. 
Fifty-nine percent of CITC's participants have been in Anchorage for 5 
years or less; and employment, training, and education are frequently 
cited as reasons for moving to Anchorage. In contrast, the current 
Bureau of Indian Affairs funding formula for CITC is based on the 
population figure of 14,569--from the 1990 census--which leaves CITC 
with a funding shortfall to meet the needs of the 40,000 Alaska Native 
and American Indian people currently residing in our service region. 
CITC is able to create and maintain successful programs, despite this 
shortfall, due to flexibility granted by the 477 program that allows us 
to leverage our existing funding and maximize efficiencies.

Public Law 102-477 is Essential to Effective Service Provision
    The Indian Employment Training and Related Services Demonstration 
Act, Public Law 102-477, as amended, 25 U.S.C. Sec. Sec. 3401-3417 (or 
the ``477 program''), administered by the Office of Indian Energy and 
Economic Development in the Department of the Interior, provides a 
critical foundation for maximizing the effectiveness of CITC's 
programs. The law allows the consolidation of funding streams from the 
U.S. Departments of the Interior, Health and Human Services, and Labor 
into a single employment and training program. The 477 program enables 
flexibility on the part of the receiving organization to plan the 
programming to best fit the needs of the community and minimize 
administrative redundancy by merging reporting requirements, while 
still adhering to the Government Performance Results Act's stringent 
accountability standards.

CITC 477 Programs
    The 477 Program is essential to the success of our program as it 
allows CITC to increase effectiveness and innovation, enhance 
interoperability, and eliminate inefficiency while maximizing program 
outcomes. The wrap-around services we provide include job training and 
placement, TANF, and child care. CITC's Employment and Training 
Services Department (ETSD) provides comprehensive services to assist 
Native job seekers. CITC's employment and training programs are based 
on the premise that effective solutions to workforce development 
require integrated approaches to ensuring job readiness, training, and 
placement. By working closely with State and Federal programs, 
community and tribal nonprofits, universities, vocational training 
centers, employers, and Native corporations, CITC is able to provide a 
wide array of training and employment assistance, coupled with 
supportive services, to help overcome many barriers to employment.
    CITC is the sole provider of Tribal TANF in Anchorage, a key 
component of our 477 program. Our TANF program is built on an 
integrated service model that connects participants to the range of 
programs offered throughout CITC's departments. Through our integrated 
service model, CITC has reduced caseloads as well as effectively 
implemented TANF prevention. This is precisely the type of innovation 
and interoperability that would be impossible without the flexibility 
provided by the 477 program.
    Furthermore, efficiencies gained within the TANF program resulted 
in a 5-year savings of $7.1 million--savings that have been re-invested 
in supportive services and programs going directly to participants. 477 
allows Tribes and Tribal entities (e.g. CITC) to administer federally 
funded employment and job training programs as a single program, with a 
single budget and single set of reporting requirement. CITC relies on 
the 477 program to provide our people more effective and integrated 
services while reducing costly administrative redundancy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Over the past 5 years CITC 477-supported programs have:
  --Provided 8,257 job seekers with career coaching, training and job 
        search assistance; 5,403 (65 percent) of these individuals were 
        placed in jobs. In 2010, the average hourly wage (AHW) of a job 
        seeker coming to CITC for services was $9.95--upon leaving CITC 
        their AHW was $17.23.
  --Transitioned 2,270 TANF recipients from welfare to work, with an 
        AHW of $11.53.
  --Provided training opportunities and job placement in critical 
        employment sectors, including: Customer Service/Retail 
        Management (AHW $11.01); Driver's Education (AHW $14.16) and 
        CDL Driver's Certification (AHW $16) Union Apprenticeship (AHW 
        $number needed); Weatherization Training (AHW $14.77-$22.15); 
        Healthcare: CNA, LPN, RN, Medical Coding (AHW $13.79)
    We are proud of the effective programs that we provide and the 
success that our participants enjoy. The 477 program is critical to our 
effectiveness, especially in this environment of shrinking funding 
sources.

Subcommittee Support for 477
    Last year the Tribes sought assistance from Congress regarding two 
problematic changes the agencies proposed to the administration of the 
477 program that would significantly undermine its success: (1) ending 
the practice of transferring 477 program funds to participating Tribes 
and Tribal organizations through Public Law 93-638 contracts or Self-
Governance agreements, as authorized by the Indian Self-Determination 
and Education Assistance Act (ISDEAA); and (2) a new requirement that 
477 Tribes and Tribal organizations report their 477 expenditures 
separately by funding source number for audit purposes.
    This Committee has been very responsive to the Tribes' concerns and 
supportive of the 477 program. The House/Senate Appropriations 
conferees on the fiscal year 2012 Interior appropriations bill 
instructed the Federal agencies to engage in consultations with the 477 
Tribes and Tribal organizations to reach consensus on the transfer and 
reporting of funds administered by Tribes through program plans adopted 
by Tribes and approved by the Department of the Interior under the 477 
program.
    The Federal agencies and 477 Tribes agreed to try to resolve their 
differences over these issues, which led to the formation of the Public 
Law 102-477 Administrative Flexibility Work Group. This group has met 
weekly and included policy and program representatives from the 
Departments of the Interior (DOI), which administers the 477 program, 
Health and Human Services (HHS), Labor (DOL) and the Office of 
Management and Budget (OMB), as well as representatives from 10 
affected Tribes and Tribal organizations. In the meantime, the agencies 
agreed to temporarily allow funds to continue to be transferred through 
ISDEAA and have suspended the reporting requirements instituted in the 
March 2009 OMB Circular. The agencies and Tribes have moved toward 
consensus in some general areas:
  --First, the agencies and Tribal representatives agree in principal 
        that the 477 program is one provided for Tribes by virtue of 
        their status as Indians. Its targeted purpose is to facilitate 
        employment opportunities for Indian youth and adults, as well 
        as to encourage Tribal self-sufficiency consistent with self-
        determination principles. The 477 program is structured so that 
        Tribal program plans, as authorized under the 477 Act, are 
        approved and administered by DOI Indian Affairs, and thus can 
        be funded through ISDEAA.
  --Second, the both sides have agreed in principal that the 477 Act 
        authorizes Tribes to develop 477 program plans to integrate 
        services and expenditures from various agency programs in a 
        single, coordinated, comprehensive Tribal program plan with a 
        single budget and a single annual report delivered to the 
        Department of the Interior. The current reporting system 
        includes OMB-approved statistical, narrative, and financial 
        reporting forms. The Federal agencies have identified limited 
        additional reporting information required by law but not 
        currently reported in the consolidated reports provided 
        annually to the Department of the Interior. Discussion is 
        ongoing as to what, if any, additional information needs to be 
        included in the statistical, narrative, and financial reports.
    In spite of this progress, it has become clear that the agencies 
continue to question one of the fundamental purposes of the 477 
program--to allow tribes and tribal organizations to reallocate their 
funds within their approved 477 program in order to address local 
issues and programmatic needs in the most effective manner. From our 
perspective, giving this authority and responsibility to tribes to meet 
their own needs is exactly the point and strength of the 477 program. 
It is precisely this flexibility that has allowed us to be so 
successful. In addition, the Tribal representatives have requested, but 
not received, written confirmation that this funding mechanism will 
continue without restriction and be available for new programs coming 
into the 477 program in the future. Finally, the Tribes continue to 
request that the 2009 OMB Circular A-133 be permanently suspended or 
rescinded.
    Given this disagreement of fundamental principle, we urge the 
Subcommittee to remain involved in this issue and supportive of the 477 
program. Specifically, we request that the Subcommittee maintain 
Section 430, the language on 477 that was included in the bill last 
year, and amend to clarify the intent of the program by adding 
following language:

    ``(3) all funds transferred under an approved Public Law 102-477 
plan may be reallocated and rebudgeted by the Indian tribe or tribal 
organization to best meet the employment, training and related needs of 
the local community served by the Indian tribe or tribal 
organization.''.

Conclusion
    Mr. Chairman, CITC, as a 477 Tribal organization is grateful for 
this Subcommittee's interest in and support for the 477 program. This 
program is essential to our ability to meet the needs of our people in 
innovate and efficient ways that allow us to provide wrap around 
services designed on a model of integration and interoperabilty. The 
Tribal Work Group representatives remain concerned that, in the absence 
of specific legislative authorization as provided in Section 430 with 
the above addition, the spirit, the letter and the opportunities of the 
Public Law 102-477 law will be subject to changes in implementation 
from administration to administration.
    Thank you for your time and consideration.
                                 ______
                                 
               Prepared Statement of the Cherokee Nation

                              INTRODUCTION

    Chairman Reed, Ranking Member Murkowski and members of the 
Subcommittee, thank you for accepting testimony into the record on 
fiscal year 2013 budgetary concerns regarding Native American Issues. 
Cherokee Nation requests that in setting fiscal year 2013 Bureau of 
Indian Affairs (BIA) and Indian Health Services (IHS) budget 
priorities, the Federal Government uphold its Trust Responsibility to 
tribes.
    Cherokee Nation was one of the first tribes to enter into a treaty 
with the United States. In that tradition, the Cherokee Nation executed 
a self-determination contract in 1990 under Title III of the Indian 
Self-Determination and Education Assistance Act (ISDEA), which gave the 
tribe more authority to administer its programs. In just two decades, 
Cherokee Nation has taken over the administration of several BIA and 
IHS programs, including healthcare, education, and law enforcement. 
ISDEA is a powerful mechanism that provides tribes with the opportunity 
to control and administer essential governmental services and engage in 
local economic and resource development.
    Cherokee Nation is the largest employer in northeastern Oklahoma 
and has an economic impact of more than $1.06 billion on the State's 
output level, including $401 million in State income impacts, and 
supports 13,527 jobs in a predominantly under-developed, rural region 
of Oklahoma. While 3,250 people are employed in the Nation's 
Government, an ever-increasing number of people are employed in the 
Nation's diverse portfolio of businesses, including hospitality, 
healthcare, aerospace, and technology sectors.
    The combined revenue from the Tribe's business operations helps 
fund essential Government services while offering a foundation to 
expand and diversify economic development and create job growth in 
Oklahoma. Therefore, adequate funding for both IHS and BIA is vital to 
maintain and increase our recent progress and strength.

               FIXED COSTS--CONTRACT SUPPORT COSTS (CSC)

    One of the most important budgetary issues facing Indian Country 
for the next fiscal year is the funding of contract support by BIA and 
IHS. In Indian Country, every dollar lost in contract support costs is 
$1 subtracted from healthcare, education, law enforcement and other 
critical governmental services. The contract support cost deficiency 
has caused severe financial strains on Cherokee Nation's programs and 
facilities.
    Because CSCs are fixed costs that a contractor must incur, tribes 
are required to either (1) reduce funds budgeted for critical 
healthcare, education and other services under contract to cover the 
shortfall; (2) divert tribal funds to subsidize the Federal contract 
(when such tribal funds are available); or (3) use a combination of 
these two approaches. For every $1 million that the Cherokee Nation 
must divert from direct patient care to cover contract support costs, 
the Cherokee Nation health system must forego 5,800 patient visits.
    While the President's fiscal year 2013 budget request for IHS is 
$4.42 billion--an increase of $115.9 million over the fiscal year 2012 
enacted level--IHS sees only a very modest $5 million increase in IHS 
funding for contract support. The Cherokee Nation appreciates the 
increase, but it is less than a 1 percent increase over the fiscal year 
2012 enacted level. At this level, the IHS contract support cost 
shortfall is estimated to increase to approximately $100 million in 
fiscal year 2013. This shortfall will substantially impact Cherokee 
Nation, which, like other tribes across the United States, operates 
replacement or joint venture facilities throughout our tribal 
jurisdiction.
    The projected CSC shortfall will force the Cherokee Nation to 
divert investments in job creation and other important programs to 
avoid decreasing primary care, dental treatment, and pharmaceutical 
coverage. As long as the Federal Government maintains the status quo of 
inadequate funding, the United States is failing in its partnership 
with tribes and is ignoring its Trust Responsibility.
    Fortunately, BIA does not have the same CSC shortfall crisis. 
Cherokee Nation appreciates the President's budget proposal because it 
increases Indian self-determination funds by $8.8 million. This 
increase must be protected during the appropriations process to avoid 
the same problems IHS has with CSC funding and BIA should be seen as a 
model for IHS.
    We appreciate past and current efforts to reduce shortfalls, but it 
is unacceptable for sequestration or domestic deficit reduction efforts 
to single out tribes by cutting tribally administered health and law 
enforcement programs. The Federal Government has a moral and legal 
obligation to fund these essential governmental services. The trust 
responsibility is not, and should not be viewed as, discretionary 
spending.

                      INDIAN HEALTH SERVICE (IHS)

    Under a Self-Governance compact with the Department of Health and 
Human Services, the Cherokee Nation constructs and maintains waterlines 
and improves sanitary services throughout the region. Furthermore, in 
conjunction with IHS contract support cost dollars, the Tribe operates 
a sophisticated network of eight rural outpatient health centers that 
provide Native People with primary medical care, dental service, 
optometry, radiology, mammography, behavioral health promotion and 
disease prevention, and a public health nursing program.
    In addition to these services, the Cherokee Nation operates WW 
Hastings Indian Hospital in Tahlequah, Oklahoma. Hastings is a 60-bed 
facility offering outpatient and ancillary services with over 300,000 
outpatient visits each year and more than 335,000 prescriptions filled 
annually. Adequate funding is required to continue this successful 
partnership in fulfillment of the Unites States' trust obligations and 
IHS must be exempt from future reductions during appropriations and the 
sequestration process as prescribed in the Budget Control Act of 2011.

                  EXPANDING THE JOINT VENTURE PROGRAM

    The IHS Joint Venture program demonstrates the shared commitment of 
Tribal Nations and IHS. This program provides additional health 
facilities within the Indian health system and the staff necessary to 
support the facilities across Indian Country. This program has been 
effective in the Oklahoma City Area as well as providing staff at our 
clinics across eastern Oklahoma. Cherokee Nation requests the Joint 
Venture program be funded at an adequate level, including CSC funds.

              INDIAN HEALTH CARE IMPROVEMENT FUND (IHCIF)

    In addition to the well-documented disparate funding between IHS 
and other federally funded health programs, funds among the various IHS 
areas are distributed inequitably. In order to address such inequities, 
the IHCIF was created to achieve parity among the IHS Areas. Over the 
years, tribes have recommended the Federal Government implement a time-
limited plan to bring all IHS Operating Units to the 80 percent level. 
To achieve parity, a $1 billion investment will be required over a 4-
year period.

  SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION (SAMHSA) 
                           BLOCK GRANT FUNDS

    The President's fiscal year 2013 budget request for SAMHSA is $3.4 
billion, a $141.9 million decrease from the fiscal year 2012 enacted 
level. Each State receives block grant (formula) funds from SAMHSA for 
providing behavioral health services to all residents within the State. 
However, when an American Indian is in need of behavioral health 
services, he typically seeks care through an IHS or tribally operated 
facility, as opposed to a State agency or State-operated facility. As 
with competitive and discretionary funds, increasing and giving the 
Cherokee Nation access to this type of funding would expand our 
opportunity to improve our behavioral health services and better meet 
the system's current demand.

                     BUREAU OF INDIAN AFFAIRS (BIA)

    Cherokee Nation compacts with the Department of the Interior to 
administer a wide array of Federal programs serving American Indians. 
Full Federal funding is crucial for continued administration of social 
services, child wellness programs, child abuse services, adult and 
higher education, housing improvement, law enforcement service, road 
and bridge construction, planning and maintenance, forestry and real 
estate programs, and Johnson O'Malley education programs.

                     INDIAN GUARANTEED LOAN PROGRAM

    The Indian Guaranteed Loan Program, established under the Indian 
Financing Act of 1974, helps Cherokees and other Native Americans 
access capital by guaranteeing and insuring loans to promote economic 
development throughout Indian Country. The program leverages 
appropriated monies by a ratio of 13 to 1. However, in the upcoming 
budget, the program sees a $2.1 million reduction to $5 million because 
it is purportedly duplicative of programs in other agencies. However, 
these programs do not replace the Guaranteed Loan Program. Cherokee 
Nation requests this highly successful program be fully funded so 
tribes may access loans when attempting to increase their economic 
livelihood in often economic-depressed regions.

                   TRIBAL PRIORITY ALLOCATIONS (TPA)

    We join our fellow Self-Governance Tribes in continuing to request 
funding increases for the fundamental services provided as Tribal 
Priority Allocations. Of the 566 federally recognized Tribes, 235 
Tribes manage their own affairs under Self-Governance agreements with 
the BIA. Although these Tribes account for 42 percent of the federally 
recognized tribes, they received roughly only 15 percent of the BIA 
budget, which bears the responsibility for providing services to all 
federally recognized Tribes. Collectively, most of the varied programs 
fall under the broad category of ``Tribal Priority Allocations.''
    The President's fiscal year 2013 budget includes $2.5 billion for 
BIA, which is $4.6 million or 0.2 percent below the fiscal year 2012 
enacted level. While this is basically level with fiscal year 2012's 
budget, any decrease strains tribal governments. Further, the budget 
proposes a total of $897.4 million in Tribal Priority Allocations and 
these funds must be protected as the budget process proceeds.

               SEQUOYAH SCHOOLS AND THE TED PILOT PROJECT

    In 1985, Cherokee Nation gained control of Sequoyah Schools, a 
former, underperforming BIA boarding school. After years of tribal 
control, Sequoyah is now regionally and State accredited, consistently 
meets Adequate Yearly Progress goals and is flourishing. While Sequoyah 
receives funding from Bureau of Indian Education grants, the Cherokee 
Nation also utilizes tribal funding from motor vehicle tag sales to 
fund the School.
    The Campus now covers over 90 acres and houses more than 400 
students in grades 7-12 representing 42 Tribes. Cherokee Nation and 
other tribes better understand how to educate our children and provide 
cultural curricula that revitalizes and protects language and tribal 
history. The School also creates an academic environment that mirrors 
college preparatory schools by utilizing an advanced curriculum and 
using data collection to track student progress and School performance, 
which allows the administrators to quickly address any deficiencies or 
problems that develop.
    Therefore, Cherokee Nation is very appreciative of the $2 million 
appropriated for the Tribal Education Departments (TEDs) Pilot Project 
in the fiscal year 2012 Department of Education budget. Funding for 
TEDs is also authorized in No Child Left Behind Act for DOI, but has 
not been funded. This pilot project will increase the role of TEDs in 
education and will help tribes provide an equitable learning 
environment for our children. Therefore, we request $2 million in 
fiscal year 2013 for the TED pilot project.
    The pilot project will allow tribes and the Federal Government to 
utilize a method of funding that has been demonstrated to increase 
efficiency and self-determination in other areas. The pilot project 
allows TEDs to receive funding as authorized in the Elementary and 
Secondary Education Act (ESEA) for education programs and authorizes 
the TED to directly administer such ESEA programs in a similar fashion 
as the Cherokee Nation receives and administers funding for IHS and BIA 
self-governance programs. The Nation respectfully requests this 
Subcommittee work with the House Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies and 
Subcommittee on Interior, Environment, and Related Agencies to ensure 
the pilot project is funded and that the Appropriations Act language 
directs the Department of the Interior and Education to directly 
provide ESEA funding to the tribes chosen to participate in the pilot 
project.

                               CONCLUSION

    Cherokee Nation is committed to providing Federal services and 
direct, local-level programs, including job creation, education, health 
and law enforcement services, in a time when economic issues and 
desired deficit reduction hinder Federal attempts to accomplish the 
same. The Federal Government's current fiscal situation does not negate 
its trust responsibility to Cherokee Nation and Indian Country. Thank 
you for your continued support and for the opportunity to provide 
testimony on these critical fiscal year 2013 budget issues. Please 
contact the Cherokee Nation Washington Office at 202.393.7007 with any 
questions or requests for additional information.
                                 ______
                                 
                 Prepared Statement of Taos, New Mexico

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $2.656 million for Carson National 
Forest. I am pleased that this funding was included in the request and 
urge Congress to provide necessary funds for LWCF for this important 
project.
    Some of the finest mountain scenery in the Southwest is found in 
the 1.5 million acre Carson National Forest. Elevations rise from 6,000 
to 13,161 feet at Wheeler Peak in the Sangre de Cristo Mountains, the 
highest peak in New Mexico. The scenery varies from high desert scrub 
and red soil to spruce and fir-filled mountainsides and wildflower 
meadows. In addition to the various landscapes, there are also many 
recreational opportunities in the forest. The magnificent mountain 
scenery and cool summer temperatures lure visitors to enjoy fishing, 
hunting, camping, and hiking. Winter activities include skiing, 
snowshoeing and snowmobiling. There are 330 miles of trails for hiking, 
horseback riding, mountain biking, and 4-wheel drive exploring. For the 
backcountry enthusiast, there are 86,193 acres of wilderness in the 
forest that have been virtually undisturbed, where travel is restricted 
to foot or horseback.
    There are many species of animals in the Carson National Forest 
including mule deer, elk, antelope, black bear, and bighorn sheep along 
with many species of songbirds and a wonderful display of wildflowers. 
The forest has 400 miles of clean mountain streams and many lakes that 
offer outstanding trout fishing including rainbow, eastern brook, 
German brown and cutthroat trout.
    Available for acquisition as part of the Carson National Forest is 
the 5,087 acre Miranda Canyon property located just 10 miles south of 
Taos. The property is adjacent to the western edge of the national 
forest and ranges in elevation from 7,200 to 10,801 feet. It has 
enormous scenic value, as it forms the southern backdrop to Taos and is 
highly visible as one travels south along Route 68.
    The 5,000 acre Miranda Canyon property contains important watershed 
lands that feed public water supplies for local communities and 
maintain flows of clean, cold water to the nationally significant Rio 
Grande. The highest elevation lands on the property fall within the 
Headwaters Rio Grande de Rancho watershed, which is rated as 
functioning properly under the U.S. Forest Service Watershed Condition 
Framework. Acquisition of this area will prevent conversion for 
development, meeting the Framework goal to protect the best, and will 
complete the agency's ownership of this watershed. The majority of the 
property at lower elevations falls within two other watersheds that are 
rated as functioning at risk. Acquisition will allow the Forest Service 
to apply a range of restoration actions to move these watersheds up a 
condition class. These watersheds are also significant in that they 
contain an important recharge zone for the underlying aquifer, which 
provides domestic water for the communities of Llano Quemado and 
Ranchos de Taos.
    The property also has various vegetative types from low elevation 
sagebrush and pinon juniper to high elevation mixed conifer forest 
containing large aspen stands. There are also numerous meadows and 
riparian vegetation that provide excellent habitat for wildlife. The 
landscape has numerous ridges and peaks that provide breathtaking views 
of the Rio Grande Gorge to the west and of Wheeler Peak, the highest 
peak in New Mexico, to the north. Picuris Peak is located on the 
property along a popular hiking route. The property also contains 
historical features such as the Old Spanish Trail, a pack mule trail 
that served as a link between land-locked New Mexico and coastal 
California between 1829 and 1848, after which other routes became more 
popular. Recognizing the national significance of this historic trade 
route, Congress designated it the Old Spanish National Historic Trail 
in 2002. Other geological features on the property include a unique 
small volcano and 1.7 billion year old rock outcrops that rival the age 
of rock found at the bottom of the Grand Canyon.
    Due to the strong opposition of the Taos community to a proposal to 
develop the Miranda Canyon property into 150 lots, the landowner has 
agreed to a multi-phase 3-year conservation sale to the Carson NF. If 
Miranda Canyon had been subdivided and developed, tremendous 
recreational, scenic, and ecological resources would have been 
diminished or lost forever. Even without county subdivision approval, 
the Miranda Canyon property could have been developed into 140 acre 
lots, with potentially adverse impact on the drinking water supply of 
nearby communities. Because the landowner's timing did not allow for a 
long-term purchase agreement, The Trust for Public Land stepped in and 
purchased the property in January 2011. The conveyance of this $10.8 
million tract to the U.S. Forest Service is moving ahead in phases, 
with Phase I receiving an allocation of $3.442 million from the Land 
and Water Conservation Fund in fiscal year 2012.
    While this arrangement offers a bit of breathing room for the 
agency to secure the necessary acquisition funding, it is critical that 
the purchase continue to move ahead in fiscal year 2013 with another 
allocation of $2.656 million for Phase II. Only when Miranda Canyon is 
fully conveyed to the Carson National Forest will it be permanently 
protected for the public, ensuring protection of this vital watershed 
and the associated local water quality as well as enhancing 
recreational opportunities such as hunting, camping, hiking, mountain 
biking, and horseback riding.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Carson 
National Forest. I want to thank the Chairman and the members of the 
subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in New Mexico, and I appreciate 
your consideration of this funding request.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma

    On behalf of Chief Gregory E. Pyle, of the Great Choctaw Nation of 
Oklahoma, I bring greetings to the distinguished Members of the 
Committee. I am Mickey Peercy, the Executive Director of Health 
Services. I appreciate this opportunity to provide testimony to the 
Committee on our top budget priorities for fiscal year 2013 in the 
Indian Health Service.
    The Choctaw Nation of Oklahoma is the third largest Native American 
Tribal government in the United States, with over 208,000 members. The 
Choctaw Nation territory consists of all or part of 10 counties in 
Southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving over 33,000 patients 
with a hospital in Talihina, Oklahoma, eight outpatient clinics, 
referred specialty care and sanitation facilities construction; higher 
education; Johnson O'Malley program; housing improvement; child welfare 
and social services; law enforcement; and many others.
    Appropriations for Indian Country remain severely deficient for 
each of these programs, and it is simply not acceptable for such 
programs to be further debilitated by budget cuts. Thus, it is 
essential that programs impacting Indian Country be exempted from any 
sequestration for fiscal year 2013 and forward.
    In my testimony today, I will focus on Indian health and related 
programs, appropriations which are critical in order to address the 
health disparities of Native Americans as compared to other Americans. 
The current funding levels have created a system of rationed healthcare 
and perpetuate these health disparities for Native people.

Joint Venture--Increase to $90 million
    The Joint Venture program, although a relatively small program, 
remains the most innovative, timely and cost-effective means within the 
Indian Health Service (IHS) to acquire new or replacement health 
facilities for Indian Country. The IHS Joint Venture program 
demonstrates the shared commitment of Tribal Nations and the IHS in 
providing additional health facilities within the Indian health system 
and the staff necessary to support the facilities. This strategy has 
been especially effective in the Oklahoma City Area, allowing us to 
replace some antiquated facilities and extending healthcare to 
underserved Tribal citizens in our communities. However, the need for 
adequate health facilities remains great. We request that funds 
continue to be appropriated for the Joint Venture program on an annual 
basis, including the associated contract support costs and adequate 
operational funds.

Contract Health Services--Increase of $200 million
    Contract Health Services (CHS) remain a high priority for the 
Choctaw Nation and many other Tribes in the Nation. CHS funds all of 
the referrals from Tribal and IHS facilities for specialty care that 
cannot be delivered at the Tribal/IHS clinic or hospital site. 
Referrals are often deferred or denied, due to lack of funds, despite 
the determination of medical need by our health providers. The Oklahoma 
City Area and the Choctaw Nation suffer some of the highest deferral/
denial rates of CHS cases in the Nation. For example, denied or 
deferred cases in our health system resulted in some of our patients 
not receiving necessary diagnostic tests, cancer treatment or neurology 
services last year.

Contract Support Costs--Increase of $100 million over fiscal year 2013 
        President's request
    One of the most important appropriation issues facing Indian 
Country is the underfunding of contract support costs (CSC), which 
negatively affects nearly every single Tribal Nation. This issue is 
especially significant for Self-Governance/Self-Determination Tribes 
because it protects direct service operations from sharing in overall 
funding reductions and limitations. Every dollar in unfunded contract 
support costs is a direct reduction in healthcare or other services to 
our Tribal citizens.
    Contract Support Costs appropriations go directly to the Tribal 
Nations at the local level, with immediate positive impact on 
healthcare and other critical programs. CSC funds mandatory costs for 
which the Federal Government is legally and contractually responsible 
to provide. Failing to adequately fund CSC defeats the very program 
that has most improved health conditions for American Indian and Alaska 
Natives.
    Tribal programs have significantly increased the quality and level 
of services in our health systems compared to direct service programs. 
Since contract support costs are fixed costs that a contractor must 
incur, Tribes are required to either (1) reduce funds budgeted for 
critical healthcare or other services under contract to cover the 
shortfall; (2) divert Tribal funds to subsidize the Federal contract 
(when such Tribal funds are available); or (3) use a combination of 
these two approaches. For every $1 million that the Choctaw Nation 
would be required to divert from direct patient care to cover contract 
support costs, the Nation's health system must forego an estimated 
5,800 patient visits.
    The reported CSC shortfall is nearly $5.5 million annually for the 
Choctaw Nation alone. The President's budget request for fiscal year 
2013 includes only a $5 million increase in IHS CSC funds for all 567 
Tribes in the country, an amount insufficient to fund even the Choctaw 
Nation's shortfall for 1 year. This current budget request is woefully 
inadequate to not only address the present shortfall, but to prevent 
the shortfall from growing in future years. We urge you to consider the 
total unfunded need for CSC, which we estimate for fiscal year 2013, 
will approach $100 million within the IHS.

Special Diabetes Program for Indians--Support 5 Year Reauthorization at 
        $200 million/Year
    The Special Diabetes Program for Indians (SPDI) was authorized in 
1997 in response to an alarming and disproportionate high rate of type 
2 diabetes in American Indian and Alaska Native people. Tribal advocacy 
has contributed greatly to changing the course of this once devastating 
health menace in Indian Country. Continued innovation and increased 
funding are required to further arrest the disparity and achieve 
equity. SDPI funding has been at $150 million since it was reauthorized 
in 2004. During this time nearly 400 Indian Health Service, Tribal and 
Urban (I/T/U) Indian health programs have assisted in developing 
innovative and culturally appropriate strategies, vital resources and 
tools to prevent and treat diabetes. Congressional funding remains the 
critical factor in the battle against diabetes which translates into 
documented improvements in blood glucose control, reduced amputation 
rates and decreased cases of kidney failure, just to name a few of the 
maladies associated with this disease. The Choctaw Nation has been an 
aggressive soldier in the fight against diabetes and we ask this 
Committee to support the crusade to ensure the continuation of the 
SDPI. We also request that you urge your colleagues on the Labor, 
Health and Human Services and Education Appropriations Subcommittee to 
increase funding for the SDPI program, which is administered by the 
Indian Health Service. Without the SDPI, the epidemic status of Type 2 
diabetes will once again be a serious life-changing disease to future 
generations of our people.

Indian Health Care Improvement Fund--Request $45 million increase
    Overall funding for the IHS remains at less than 60 percent of 
need; using the benchmark of the Federal employee benefit package. 
Deplorably, IHS average funding per patient remains less than that 
expended on Federal inmates. In addition to the well-documented 
disparate funding between the IHS and other federally funded health 
programs, funds among the IHS Areas are distributed inequitably. The 
Oklahoma City Area, specifically, suffers a funding level even below 
that of the average within the IHS. In order to address such inequities 
and resulting health disparities, the Indian Health Care Improvement 
Fund (IHCIF) was created to direct funding to the most severely 
underfunded programs first. Tribal Nations have previously recommended 
that the Federal Government implement a time-limited plan to bring all 
IHS Operating Units to the 80 percent level, and the Choctaw Nation 
supports that position.
    In addition, the Choctaw National supports these National Indian 
Program Priorities
  --Mandatory Costs--Provide $304 million increase to maintain current 
        services.--Mandatory cost increases are necessary to maintain 
        the current level of services. These ``mandatories'' are 
        unavoidable and include medical and general inflation, pay 
        costs, phasing in staff for recently constructed facilities, 
        and population growth.
  --Alcohol and Substance Abuse Programs--Provide $40 million 
        increase.--Alcohol and Substance Abuse Programs (ASAP) and 
        community-based prevention activities are an integrated part of 
        behavioral health programs needed to reduce the incidence of 
        alcohol and substance abuse in American Indian and Alaska 
        Native communities and to address the special needs of Native 
        people dually diagnosed with both mental illness and drug 
        dependency. Youth Region Treatment Centers are also funded by 
        this line item.
  --Funding for Implementation of the Indian Health Care Improvement 
        Act (IHCIA).--Implementation of the IHCIA remains a top 
        priority for Indian Country. IHCIA provides the authority for 
        Indian healthcare, but does not provide any funds to IHS. The 
        American healthcare delivery system has been revolutionized 
        while the Indian healthcare system waited for the 
        reauthorization of the IHCIA. Resources are needed to implement 
        all provisions of the IHCIA.
  --Office of Tribal Self-Governance--Increase $5 million to the IHS 
        Office of Tribal Self-Governance.--In 2003, Congress reduced 
        funding for this office by $4.5 million, a loss of 43 percent 
        from the previous year. In each subsequent year, this budget 
        was further reduced due to the applied congressional 
        rescissions. As of 2012, there are 337 Self-Governance (SG) 
        Tribes managing approximately $1.4 billion in funding. This 
        represents almost 60 percent of all federally recognized Tribes 
        and 33 percent of the overall IHS funding. The Self-Governance 
        process serves as a model program for Federal Government 
        outsourcing, which builds Tribal infrastructure and provides 
        quality services to Indian people.
    We also support the testimony presented by the National Indian 
Health Board and the National Congress of American Indians.
    In closing, on behalf of the Choctaw Nation of Oklahoma, and Chief 
Gregory E. Pyle, thank you for the honor to provide this testimony and 
we respectfully urge your consideration and support of these program 
funding requests in the fiscal year 2013 budget for the IHS.
                                 ______
                                 
              Prepared Statement of The Conservation Fund

    Chairman Reed, Ranking Member Murkowski, and members of the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit outside witness 
testimony on behalf of The Conservation Fund. The Conservation Fund 
(TCF) supports full funding of the President's budget request of $450 
million in fiscal year 2013 for the Land and Water Conservation Fund 
(which includes the Federal land acquisition programs of the Bureau of 
Land Management, National Park Service, U.S. Fish and Wildlife Service 
(FWS), and U.S. Forest Service (USFS), as well as several important 
State grant programs). Additionally, TCF supports full funding of the 
President's request for the FWS's North American Wetlands Conservation 
Fund ($39.425 million) and USFS's Community Forest and Open Space 
Conservation Program ($4 million). In addition, we want to thank the 
Subcommittee for reauthorizing the Federal Land Transaction 
Facilitation Act (FLTFA) in 2010, though it is currently expired and we 
support the fiscal year 2013 President's budget request to reauthorize 
this important program.
    The Conservation Fund (TCF) is a national, nonprofit conservation 
organization dedicated to conserving America's land and water legacy 
for future generations. Established in 1985, TCF works with landowners; 
Federal, State and local agencies; and other partners to conserve our 
Nation's important lands for people, wildlife and communities. To date, 
TCF has helped our partners to conserve over 7 million acres. These 
accomplishments are due, in large measure, to the leadership of this 
Subcommittee over many years to appropriate funds to Federal agencies 
to acquire lands for future generations.
    Below are highlights of some benefits of the LWCF and land 
acquisition programs. While these projects show the tremendous 
diversity of benefits of land acquisition for the public, they have one 
thing in common--landowners drive each of these projects. Many farmers, 
ranchers and forestland owners have significant financial equity in 
their land. By enabling a landowner to sell a conservation easement or 
fee title, the LWCF program provides landowners with funds to stay in 
business, reinvest in businesses, or meet other financial goals.
    Bureau of Land Management--Land Acquisition.--TCF supports the 
fiscal year 2013 President's budget request of $33.575 million for the 
Bureau of Land Management's (BLM) Land Acquisition Program for its 
``core'' and ``collaborative'' lists, and would like to highlight the 
following projects:
  --Upper Snake/South Fork Snake River ACEC, Idaho--$1.75 million (#4 
        on core list).--Idaho's Upper Snake/South Fork is visited by 
        more than 300,000 people each year to enjoy world-class fishing 
        and floating, abundant wildlife and one of the most scenic 
        rivers in the West, supporting 350 jobs and generating $12 
        million in income per year. Working in partnership with 
        landowners, this project primarily utilizes conservation 
        easements to protect valuable fish and wildlife habitat and 
        agricultural lands from fragmentation while simultaneously 
        supporting important recreational and tourism opportunities and 
        allowing agricultural lands to remain in production/private 
        ownership.
  --Cascade-Siskiyou National Monument, Oregon--$2 million (#6 on core 
        list).--An ``ecological wonder,'' supporting 3,500 species, the 
        54,900-acre CSNM was designated specifically for its 
        extraordinary biological diversity. BLM has worked with private 
        landowners to acquire inholdings within the national monument, 
        but thousands of acres remain in private ownership, closed to 
        public use, and unprotected from development. This project will 
        allow the BLM to purchase high-priority inholdings from 
        timberland owners within Cascade-Siskiyou, complementing BLM's 
        work with past LWCF appropriations.
    National Park Service--Land Acquisition.--TCF supports the fiscal 
year 2013 President's budget proposal of $59.421 million for the 
National Park Service's (NPS) Land Acquisition Program. I would like to 
highlight the following from the NPS' ``core'' list:
  --National Rivers and Trails Initiative--$4 million (#2 on core 
        list).--This new initiative would assist in the acquisition of 
        numerous, smaller parcels throughout the National Trails 
        System, creating new recreational opportunities and protecting 
        important natural and cultural resources. This initiative will 
        involve the coordination with other Federal agencies, such as 
        the U.S. Forest Service and Bureau of Land Management that 
        manage lands crossed by trails.
  --Civil War Sesquicentennial Units--$5 million (#1 on core list).--
        These funds will allow for the acquisition of land within the 
        NPS' Civil War battlefield parks. According to the NPS, 
        priority needs exist at Fort Donelson National Battlefield, 
        Fredericksburg and Spotsylvania County Battlefields Memorial 
        National Military Park, Kennesaw Mountain National Battlefield 
        Park, Pecos National Historical Park, Richmond National 
        Battlefield Park, and others park units.
  --Petrified Forest National Park--$5 million (#4 on core list).--At 
        the request of the National Park Service, TCF is currently 
        working with several willing landowners to acquire key 
        inholdings within the Park, which feature unique 
        paleontological and archeological resources as well as 
        outstanding scenery, riparian resources and wildlife habitat. 
        The over 630,000 annual visitors to the Park contribute over 
        $80 million to the local economy and support over 600 local 
        jobs.
    U.S. Fish and Wildlife Service--Land Acquisition.--TCF supports the 
fiscal year 2013 President's budget proposal of $106.892 million for 
the U.S. Fish and Wildlife Service's (FWS) Land Acquisition Program for 
its ``core'' and ``collaborative'' lists, including:
  --Dakota Grasslands, North Dakota and South Dakota--$2.5 million (#1 
        on core list).--To address the accelerating loss of wetland and 
        grassland habit in the Prairie Pothole region--our Nation's 
        ``duck factory''--the FWS recently established the Dakota 
        Grassland Conservation Area. LWCF funds will allow willing 
        private landowners to sell conservation easements to the FWS to 
        conserve migratory birds by protecting the region's unique, 
        highly diverse, and endangered ecosystem.
  --Neches River National Wildlife Refuge, Texas--$1.0 million (#6 on 
        core list).--In 2006, the FWS established the 25,000-acre 
        Neches River NWR to protect habitat for migratory birds of the 
        Central Flyway and bottomland hardwood forests, as well as to 
        provide for compatible wildlife-dependent recreation 
        opportunities. At the request of the FWS, TCF acquired a 6,715-
        acre tract that features 8 miles of Neches River frontage, 
        dense bottomland hardwood forest, and numerous oxbows and 
        ponds. The FWS has an approved appraisal of the property and 
        TCF has raised significant private funds to provide excellent 
        leverage for the requested Federal funds of $1 million in 
        fiscal year 2013.
  --Rocky Mountain Front Conservation Area, Montana--$19.742 million 
        (Collaborative list).--As part of the Crown of the Continent 
        Collaborative Landscape Planning Project, this project will 
        allow TCF to continue working in close partnership with the 
        FWS, The Nature Conservancy and local ranchers to acquire 
        conservation easements along the Rocky Mountain Front, a 
        spectacular range that runs from just north of Helena to 
        Glacier National Park. This voluntary conservation project will 
        allow local ranchers to expand and strengthen their ranching 
        operations while conserving vital wildlife habitat for grizzly 
        bear and a range of other important species. Tens of millions 
        of private philanthropic dollars are helping to further advance 
        this effort for ranching families and wildlife and leverage 
        Federal funding.
  --Okefenokee National Wildlife Refuge, Georgia--$13.636 million 
        (Collaborative list).--As part of the Longleaf Pine 
        Collaborative Landscape Planning Project, the FWS is seeking 
        funds to acquire timber and recreation rights from a timberland 
        owner on 16,000 acres within the Okefenokee National Wildlife 
        Refuge. In addition, these funds, if appropriated, would enable 
        FWS to acquire 7,000 acres fee land from TCF. If approved, FWS 
        will be able to restore the site to the native longleaf pine 
        system and to increase the population of the endangered red-
        cockaded woodpecker, a bird of older growth pine stands. 
        Additionally, the lands will provide a critical fire buffer and 
        allow for the long-term adaptive management of the fire-based 
        plant community through the use of prescribed fire.
    U.S. Forest Service--Land Acquisition.--TCF supports the fiscal 
year 2013 President's budget proposal of $57.934 million for the U.S. 
Forest Service's (USFS) Land Acquisition Program for its ``core'' and 
``collaborative'' lists. I particularly want to highlight the 
following:
  --North Carolina Threatened Treasures--$1.25 million (#13 on core 
        list).--TCF, the Trust for Public Land, Southern Appalachian 
        Highlands Conservancy and Carolina Mountain Land Conservancy 
        and other groups are working with the USFS to conserve critical 
        lands in National Forests in North Carolina. One such project 
        is the 753-acre Backbone Ridge project, which is located near 
        the Blue Ridge Parkway, Grandfather Mountain State Park and 
        surrounded on three sides by the Pisgah National Forest 
        adjoining the Forest for almost 10 miles. The property will 
        provide a gateway for hiking in a network of protected Federal 
        and State lands. The USFS is seeking $4.5 million over several 
        years to acquire a portion of the property, while the State of 
        North Carolina seeks to acquire the balance as a State forest.
    LWCF State Grant Programs.--In addition to these Federal LWCF 
projects, we wish to highlight the LWCF State grant programs and 
encourage the Subcommittee to give consideration to fully funding the 
President's fiscal year 2013 budget request for:
  --FWS' Section 6 Cooperative Endangered Species Conservation Fund--
        $60 million;
  --USFS' Forest Legacy Program--$60 million; project highlights 
        include:
    --South Boulder Creek Watershed/Toll, Colorado (#1)--$5 million;
    --East Grand/Orient, Maine (#5)--$1.8 million;
    --Gilchrist State Forest, Oregon (#6)--$3 million;
    --East Fork of French Broad Headwaters/Taylor, North Carolina 
            (#7)--$3 million;
    --Blood Run National Historic Landmark Area, South Dakota (#10)--
            $1.205 million; and
    --Eagle Rock/Michaux State Forest, Pennsylvania (#12)--$1.5 
            million.
    Priority Land Acquisition Programs.--Additionally, TCF encourages 
the Committee to fund:
  --FWS' North American Wetlands Conservation Fund--$39.425 million; 
        and
  --USFS' Community Forest and Open Space Conservation Program--$4 
        million.
    Reprogramming Authority.--We support the fiscal year 2013 
President's budget request to allow the BLM, USFWS, NPS and USFS to re-
allocate past unspent LWCF funds, i.e., ``allocate either greater or 
lesser amounts than those specified under the heading `Congressionally 
Directed Spending' accompanying Public Law 111-8 and in the table 
entitled `Incorporation of Congressionally Requested Projects' in the 
joint explanatory statement of managers accompanying Public Law 111-88 
within the construction, land acquisition, or capital improvement and 
maintenance accounts when necessary to complete projects based on the 
original project scope or to utilize excess funds available after 
completion of a project on other projects within the same account, in 
consultation with the House and Senate Committees on Appropriations.'' 
The proposed language is necessary to allow the agencies to re-allocate 
funds to needed areas.
    Federal Land Transaction Facilitation Act Reauthorization (S. 714/
H.R. 3365).--The FLTFA program is now expired and we support the fiscal 
year 2013 President's budget request to reauthorize this important 
program that provides conservation funding for the West, at no cost to 
the taxpayer. Through FLTFA's ``land for land'' program, BLM sells land 
identified for disposal to ranchers, farmers, businesses and others to 
consolidate land ownership, create jobs, support economic development 
and increase revenues to counties by putting land on the tax rolls. 
These sales generate funding for BLM, USFS, NPS and USFWS to acquire 
critical inholdings from willing sellers in certain designated areas, 
which often complements LWCF, NAWCA and other public and private 
funding. The sales provide revenue for Federal agencies to acquire 
high-priority lands with important recreational access for hunting, 
fishing, hiking, boating, other activities, as well as properties with 
historic, scenic and cultural resources. Over 100 groups are working 
together to support Congress' efforts to reauthorize FLTFA.
    We are grateful for the Subcommittee's leadership in the fiscal 
year 2013 appropriations process to support the LWCF program. Thank you 
for your consideration of this request.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    This testimony is in support of fiscal year 2013 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
with the subactivity that assists Title II of the Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). This long-standing 
successful and cost-effective salinity control program in the Colorado 
River Basin is being carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500).
    The Colorado River Board of California (Board) is the State agency 
charged with protecting California's interests and rights in the water 
and power resources of the Colorado River system. In this capacity, 
California participates along with the other six Colorado River Basin 
States through the Colorado River Basin Salinity Control Forum (Forum), 
the interstate organization responsible for coordinating the Basin 
States' salinity control efforts. In close cooperation with the U.S. 
Environmental Protection Agency (EPA) and pursuant to requirements of 
the Clean Water Act, the Forum is charged with reviewing the Colorado 
River water quality standards every 3 years. The Forum adopts a Plan of 
Implementation consistent with these water quality standards. The level 
of appropriation being supported in this testimony is consistent with 
the Forum's 2011 Plan of Implementation. If adequate funds are not 
appropriated, significant damages associated with increasing salinity 
concentrations of Colorado River water will become more widespread in 
the United States and Mexico.
    The EPA has determined that more than 60 percent of the salt load 
of the Colorado River comes from natural sources. Due to geological 
conditions, much of the lands that are controlled and managed by BLM 
are major contributors of salt to the Colorado River system. Past 
management practices have led to human-induced and accelerated erosion 
processes from which soil and rocks have been deposited in various 
stream beds or flood plains. As a result, salts are dissolved and enter 
the Colorado River system causing water quality problems downstream.
    Through passage of the Colorado River Basin Salinity Control Act in 
1974, Congress recognized that much of the salts in the Colorado River 
originate on federally owned lands. Title I of the Salinity Control Act 
deals with the U.S. commitment to efforts related to maintaining the 
quality of waters being delivered to Mexico pursuant to the 1944 Water 
Treaty. Title II of the Act deals with improving the quality of the 
water delivered to U.S. users. In 1984, Congress amended the Salinity 
Control Act and directed that the Secretary of the Interior develop a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by BLM. In 2000, Congress reiterated its 
directive to the Secretary and requested a report on the implementation 
of BLM's program (Public Law 106-459). In 2003, BLM employed a Salinity 
Coordinator to coordinate BLM efforts in the Colorado River Basin 
States to pursue salinity control studies and to implement specific 
salinity control practices. With a significant portion of the salt load 
of the Colorado River coming from BLM-administered lands, the BLM 
portion of the overall program is essential to the success of the 
entire effort.
    The BLM's budget justification document for fiscal year 2013 has 
stated that the BLM continues to implement on-the-ground projects, 
evaluate progress in cooperation with the U.S. Bureau of Reclamation 
(Reclamation) and the U.S. Department of Agriculture (USDA), and report 
salinity control measures in order to further the Plan of 
Implementation associated with the Federal Salinity Control Program in 
the Colorado River Basin. The BLM budget, as proposed in the BLM budget 
justification document, calls for six key performance goals within the 
BLM's Soil, Water, and Air Management Program. One of the goals is to 
reduce saline runoff from public lands into the Colorado River system 
by 10,000 to 20,000 tons of salt from new projects. Additionally, the 
BLM budget justification document reported a cumulative salt-loading 
reduction from ongoing BLM efforts in 2011 that totaled 126,000 tons 
per year. The Soil, Water and Air Management Program subactivity is 
responsible for reducing the discharge of salts to waters of the 
Colorado River Basin to ensure usable water supplies to tens of 
millions of downstream users of which nearly 20 million are located in 
Southern California.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by Reclamation through its Basin-wide Program and by the 
USDA through its on-farm Environmental Quality Incentives Program.
    The 2011 Colorado River Basin Salinity Control Advisory Council 
report states that the funding from BLM's Soil, Water and Air Program 
has been generally expended on studies, research, and implementation. 
These studies and research have successfully identified several 
different tools which could be used to reduce salinity contributions to 
the Colorado River from publicly administered lands. BLM's efforts are 
now transitioning toward implementation of salinity control. During the 
past several years proposals for implementation of salinity control 
specific efforts have exceeded more than $1.5 million. The Advisory 
Council's 2011 report recommends that BLM make at least $1.5 million 
available annually for salinity-specific activities in addition to the 
$5.2 million expended under the Soil, Water and Air Program for general 
improvements within the Colorado River Basin. The Colorado River Board 
supports the Advisory Council's recommendation and urges the 
Subcommittee to specifically designate $1.5 million for the Colorado 
River Basin Salinity Control Program.
    Over the 28 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $300 million in quantifiable damages 
in the United States annually. Economic and hydrologic modeling by 
Reclamation indicates that the quantifiable damages could rise to more 
than $500 million by the year 2030 without the continuation of the 
Salinity Control Program. For example, damages can be incurred related 
to the following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    In addition, the Federal Government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin States with regard to the delivery of quality water pursuant to 
the 1944 Water Treaty. In order for those commitments to be honored, it 
is essential that in fiscal year 2013, and in future fiscal years, that 
the Congress continue to provide adequate funds to BLM for its salinity 
control activities within the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through an effective salinity control program will 
avoid the additional economic damages to users in California and the 
other States that rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    Waters from the Colorado River are used by approximately 35 million 
people for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (BOR) has estimated 
the current quantifiable damages at about $300 million per year. 
Congress authorized the Colorado River Basin Salinity Control Program 
(Program) in 1974 to offset increased damages caused by continued 
development and use of the waters of the Colorado River. Modeling by 
BOR indicates that the quantifiable damages would rise to more than 
$500 million by the year 2030 without continuation of the Program. 
Congress has directed the Secretary of the Interior to implement a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by the Bureau of Land Management (BLM). 
BLM funds these efforts through its Soil, Water and Air Program. BLM's 
efforts are an essential part of the overall effort. A funding level of 
$5.2 million for general water quality improvement efforts within the 
Colorado River Basin and an additional $1.5 million for salinity 
specific projects in 2013 is requested to prevent further degradation 
of the quality of the Colorado River and increased downstream economic 
damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is administered by BLM. In implementing 
the Colorado River Basin Salinity Control Act in 1974, Congress 
recognized that most of the salts in the Colorado River originate from 
federally owned lands. Title I of the Salinity Control Act deals with 
the U.S. commitment to the quality of waters being delivered to Mexico. 
Title II of the Act deals with improving the quality of the water 
delivered to U.S. users. This testimony deals specific with Title II 
efforts. In 1984, Congress amended the Salinity Control Act and 
directed that the Secretary of the Interior develop a comprehensive 
program for minimizing salt contributions to the Colorado River from 
lands administered by BLM. In 2000, Congress reiterated its directive 
to the Secretary and requested a report on the implementation of BLM's 
program (Public Law 106-459). In 2003, BLM employed a Salinity 
Coordinator to coordinate BLM efforts in the Colorado River Basin 
States to pursue salinity control studies and to implement specific 
salinity control practices. With a significant portion of the salt load 
of the Colorado River coming from BLM administered lands, the BLM 
portion of the overall program is essential to the success of the 
effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Concentrations of salt in the Colorado River cause approximately 
$300 million in quantified damages and significantly more in 
unquantified damages in the United States and result in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salt 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM has proven to be a very cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
adequate funding levels for salinity within the Soil, Water and Air 
Program will prevent the water quality of the Colorado River from 
further degradation and significant increases in economic damages to 
municipal, industrial and irrigation users.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission

    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of the Interior, Bureau of Indian Affairs' (BIA) fiscal 
year 2013 budget. We have specifically identified three funding needs 
and one allocation recommendation:
  --$7.7 million, an increase of $3,054,000 above the President's 
        request for Columbia River Fisheries Management within the 
        Rights Protection Implementation account to meet the base 
        program funding needs of the Commission and the fisheries 
        programs of its member tribes, specifically to implement 
        Federal court-ordered management obligations, including efforts 
        for species listed under the Endangered Species Act;
  --$4.8 million, an increase of $436,000 above the President's 
        request, for U.S./Canada Pacific Salmon Treaty within the 
        Rights Protection Implementation account to implement new 
        obligations under the recent agreement adopted by the United 
        States and Canada under the Treaty;
  --$328 million for Public Safety and Justice, Criminal Investigations 
        and Police Services--of which $718,000 supports enforcement of 
        Federal laws at in-lieu and treaty fishing sites on the 
        Columbia River. This supports the President's request; and
  --We request that the subcommittee direct the BIA to allocate Rights 
        Protection Implementation accounts at the 2008 percentages 
        unless or until account holders receive a rationale or 
        justification for a variance.
    CRITFC was founded in 1977 by the four Columbia River treaty 
tribes: Confederated Tribes of the Umatilla Indian Reservation, 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
Confederated Tribes and Bands of the Yakama Nation, and Nez Perce 
Tribe. CRITFC provides coordination and technical assistance to these 
tribes in regional, national and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. Our collective ancestral homeland covers nearly one-third of 
the entire Columbia River Basin in the United States.
    In 1855, the United States entered into treaties with the four 
tribes \1\ whereupon we ceded millions of acres of our homelands to the 
United States. In return, the United States pledged to honor our 
ancestral rights, including the right to fish. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    Today, the CRITFC tribes are leaders in fisheries restoration and 
management working with State, Federal and private entities. CRITFC's 
member tribes are principals in the region's efforts to halt the 
decline of salmon, lamprey and sturgeon populations and rebuild them to 
levels that support ceremonial, subsistence and commercial harvests. To 
achieve these objectives, the tribes' actions emphasize ``gravel-to-
gravel'' management including supplementation of natural stocks, 
healthy watersheds and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated as much as possible with State and Federal salmon management 
and restoration efforts.

     COLUMBIA RIVER FISHERIES MANAGEMENT WITHIN RIGHTS PROTECTION 
                             IMPLEMENTATION

    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management issues increase the 
complexity, requiring greater data collection and more sophisticated 
analyses. Funding shortfalls prohibit the achievement of tribal self-
determination goals for fisheries management, ESA recovery effort, 
protecting non-listed species, conservation enforcement and treaty 
fishing access site maintenance. We are seeking an increase of 
$3,054,000 over fiscal year 2012 for a new program base of $7,712,000 
for Columbia River Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes.
    In 2008 CRITFC and its member tribes successfully concluded lengthy 
negotiations resulting in three landmark agreements: (1) the Columbia 
Basin Fish Accords with Federal action agencies overseeing the Federal 
hydro system in the Columbia Basin \2\, (2) a Ten-Year Fisheries 
Management Plan with Federal, tribal and State parties under U.S. v OR, 
and (3) a new Chinook Chapter of the Pacific Salmon Treaty.\3\ These 
agreements establish regional and international commitments on harvest 
and fish production efforts, commitments to critical investments in 
habitat restoration, and resolving contentious issues by seeking 
balance of the many demands within the Columbia River basin. While 
through these agreements the Tribes have committed to substantial on-
the-ground projects with some additional resources from the Bonneville 
Power Administration, the overall management responsibilities of the 
tribal programs have grown exponentially without commensurate increases 
in BIA base funding capacity. For example, the tribes' leadership in 
addressing Pacific Lamprey declines is this species' best hope for 
survival and recovery. The tribes are also addressing unmet mitigation 
obligations, such as fish losses associated with the John Day and The 
Dalles dams.
---------------------------------------------------------------------------
    \2\The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_109.pdf.
---------------------------------------------------------------------------
    Compounding the challenges in implementing tribal fish management 
agreements are the impacts that climate change will have on the 
interior Columbia Basin and the tribe's treaty resources. The 
University of Washington Climate Impact Group predicts new challenges 
to salmon management due primarily to thermal effects and runoff timing 
changes. The CRITFC is being asked to develop mitigation and adaption 
strategies on behalf of our member tribes. CRITFC and its member tribes 
currently have insufficient funds to do the technical work and allow 
policy-level participation in the co-management arena.
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
public and private forums. Lost purchasing power through rising costs, 
inflation and lack of pay-cost adjustments to tribal funding has 
further challenged us to deliver these essential services.

       U.S./CANADA PACIFIC SALMON TREATY UNDER RIGHTS PROTECTION 
                             IMPLEMENTATION

    For tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4,800,000 for BIA.
    The United States and Canada entered into the Pacific Salmon Treaty 
in 1985 to conserve and rebuild salmon stocks, provide for optimum 
production, and control salmon interceptions. The treaty established 
the Pacific Salmon Commission (PSC) as a forum to collaborate on 
intermingled salmon stocks. The U.S. Section of the PSC annually 
develops a coordinated budget for tribal, State and Federal programs to 
ensure cost and program efficiencies. Congress increased funding in 
2000 in order to implement the 1999 Agreement but funding has 
significantly eroded since then. In 2008, the United States and Canada 
adopted a new long term Treaty agreement after nearly 3 years of 
negotiations. Both parties agreed to significant new management 
research and monitoring activities to ensure the conservation and 
rebuilding of the shared salmon resource.
    The $4,800,000 provides for direct tribal participation with the 
Commission, panels and technical committees. The funding enables the 
tribes to assist in Treaty implementation and facilitates management 
protecting trust resources. This funding maintains tribal resource 
assessment and research programs structured to fulfill required Treaty 
implementation activities. The fiscal year 2012 recommended level for 
this program is an increase of $436,000 over the President's request 
and $600,000 above the fiscal year 2012 enacted level. Our request 
correlates to the U.S. Section's recommendation.
    The tribal management programs provide needed beneficial and 
technical support to the U.S. Section. The Pacific Salmon Commission 
relies heavily on the various technical committees established by the 
Treaty. The work of these Committees is integral to the task of 
implementing fishing regimes consistent with the Treaty and the goals 
of the Parties. Numerous tribal staff appointed to these committees and 
all of the tribal programs generate data and research to support their 
efforts. For example, indicator stock tagging and escapement monitoring 
provides key information for estimating the parties' annual harvest 
rates on individual stocks, evaluating impacts of management regimes 
established under the Treaty, and monitoring progress toward the 
Chinook rebuilding program started in 1984.

 PUBLIC SAFETY AND JUSTICE, CRIMINAL INVESTIGATIONS AND POLICE SERVICES

    Public safety continues to be a high priority for CRITFC and our 
tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers have obtained BIA Special Law Enforcement 
Commissions to aid our efforts protecting and serving tribal members 
and Federal trust properties along the Columbia River. We are grateful 
for the support of the BIA Office of Justice Services in obtaining the 
SLECs. We are also very pleased that the BIA has created OJS District 8 
and housed it in Portland. Beginning in February 2011, CRITFC entered 
into a Public Law 93-638 contract with BIA for enforcement services 
along the Columbia River. That contract provides funding for two 
enforcement positions.
    It's important that CRITFC build its enforcement capacity above the 
level of the two officers currently funded by the BIA Office of Justice 
Services. Our immediate priority is to add two officers. Funding for 
two additional officers would cost $313,560 plus indirect. Full funding 
for this project would be a total budget of $716,053 plus indirect 
which would support four officers, a sergeant and a dispatcher.
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of the Interior's BIA budget.
                                 ______
                                 
      Prepared Statement of Chugach Regional Resources Commission

    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony 
reflecting the needs, concerns and requests of CRRC regarding the 
proposed fiscal year 2013 budget. As is everyone, we are aware of the 
ongoing economic problems in the United States. While the Government is 
trimming its spending, the Federal Government must still fulfill its 
legal and contractual spending obligations. The Bureau of Indian 
Affairs not only has a legal and contractual obligation to provide 
funding for the CRRC, but the CRRC is able to translate this funding 
into real economic opportunity for those living in the Prince William 
Sound region.
    After failing to seek funding for CRRC for more than a decade, we 
are very pleased that the BIA has recognized its obligation to CRRC and 
has requested $350,000 for CRRC in fiscal year 2013. In its fiscal year 
2013 Budget Justification, the BIA recognized CRRC's role in developing 
the capabilities of its member villages to better facilitate their 
active participation in resource use and allocation issues in Alaska. 
We urge the subcommittee to support this funding and include it in the 
final bill.
    Chugach Regional Resource Commission History.--CRRC is a coalition 
of Alaska Native Villages, organized in 1987 by the 7 Native Villages 
located in Prince William Sound and Lower Cook Inlet in South-central 
Alaska: Tatitlek Village IRA Council, Chenega IRA Council, Port Graham 
Village Council, Nanwalek IRA Council, Native Village of Eyak, Qutekcak 
Native Tribe, and Valdez Native Tribe. CRRC was created to address 
environmental and natural resources issues and to develop culturally 
sensitive economic projects at the community level to support the 
sustainable development of the region's natural resources. The Native 
Villages' action to create a separate entity demonstrates the level of 
concern and importance they hold for environmental and natural resource 
management and protection--the creation of CRRC ensured that natural 
resource and environmental issues received sufficient attention and 
focused funding.
    Employment.--Through its many important programs, CRRC has provided 
employment for up to 35 Native people in the Chugach Region annually--
an area that faces high levels of unemployment--through programs that 
conserve and restore our natural resources.
    An investment in CRRC has been translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
to support their families, thereby removing them from the rolls of 
people needing State and Federal support. In turn, they are able to 
reinvest in the community, supporting the employment and opportunities 
of other families. Our programs, as well, support future economic and 
commercial opportunities for the region--protecting and developing our 
shellfish and other natural resources.
    Programs.--CRRC has leveraged its $350,000 from BIA into almost $2 
million annually to support its several community-based programs. 
Specifically, the $350,000 base funding allowed CRRC to maintain core 
administrative operations, and seek specific projects funding from 
sources such as the Administration for Native Americans, the Exxon 
Valdez Oil Spill Trustee Council, the State of Alaska, Bureau of Indian 
Affairs, U.S. Forest Service, U.S. Fish and Wildlife Service, and the 
U.S. Department of Education. This diverse funding pool has allowed 
CRRC to develop and operate several important programs that provide 
vital services, valuable products, and necessary employment and 
commercial opportunities. These programs include:
  --Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
        Hatchery is the only shellfish hatchery in the State of Alaska. 
        The 20,000 square foot shellfish hatchery is located in Seward, 
        Alaska, and houses shellfish seed, brood stock and algae 
        production facilities. Alutiiq Pride is undertaking a hatchery 
        nursery operation, as well as grow-out operation research to 
        adapt mariculture techniques for the Alaskan Shellfish 
        industry. The Hatchery is also conducting scientific research 
        on blue and red king crab as part of a larger federally-
        sponsored program. Alutiiq Pride has already been successful in 
        culturing geoduck, oyster, littleneck clam, and razor clam 
        species and is currently working on sea cucumbers. This 
        research has the potential to dramatically increase commercial 
        opportunities for the region in the future. The activities of 
        Alutiiq Pride are especially important for this region 
        considering it is the only shellfish hatchery in the state, and 
        therefore the only organization in Alaska that can carry out 
        this research and production.
  --Natural resource curriculum development.--Partnering with the 
        University of Alaska, Fairbanks, and the National Oceanic and 
        Atmospheric Administration, CRRC is developing and implementing 
        a model curriculum in natural resource management for Alaska 
        Native students. This curriculum integrates traditional 
        knowledge with Western science. The goal of the program is to 
        encourage more Native students to pursue careers in the 
        sciences. In addition, we are working with the Native American 
        Fish & Wildlife Society and Tribes across the country 
        (including Alaska) to develop a university level textbook to 
        accompany these courses.
      In addition, we are in the process of completing a K-12 Science 
        Curriculum for Alaska students that integrates Indigenous 
        knowledge with western science. This curriculum is being 
        piloted in various villages in Alaska and a thorough evaluation 
        process will ensure its success and mobility to other schools 
        in Alaska.
  --Alaska Migratory Bird Co-Management Council.--CRRC is a member of 
        the Council responsible for setting regulations governing the 
        spring harvest of migratory birds for Alaska Natives, as well 
        as conducting harvest surveys and various research projects on 
        migratory birds of conservation concern. Our participation in 
        this State wide body ensures the legal harvest of migratory 
        birds by Indigenous subsistence hunters in the Chugach Region.
  --Statewide Subsistence Halibut Working Group.--CRRC participates in 
        this working group, ensuring the halibut resources are secured 
        for subsistence purposes, and to conduct harvest surveys in the 
        Chugach Region.
    We urge Congress to sustain the $350,000 included in the BIA's 
fiscal year 2013 budget for CRRC. We appreciate the opportunity to 
submit this important testimony.
                                 ______
                                 
               Prepared Statement of the Civil War Trust

Introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony. My name is James Lighthizer, 
and I am the President of the Civil War Trust. I come before you today 
to respectfully request that the Senate Appropriations Subcommittee for 
Interior, Environment, and Related Agencies fund the Civil War 
Battlefield Preservation Program (CWBPP), financed through the Land and 
Water Conservation Fund in the Department of the Interior, at its 
authorized amount of $10 million.
    I would like to start by providing a little information about our 
organization. The Civil War Trust is a 55,000-member nonprofit 
organization--the only national one of its kind--dedicated to 
preserving America's remaining Civil War battlefields. To date, the 
Trust has permanently protected more than 32,000 acres of hallowed 
ground in 20 States, most of it outside National Park Service (NPS) 
boundaries.
    I write to you today regarding the highly effective Federal land 
conservation program that has made much of our success possible: the 
Civil War Battlefield Preservation Program (CWBPP). This authorized 
competitive matching grants program, operated through the National Park 
Service (NPS) American Battlefield Protection Program office, requires 
a 1 to 1 Federal/non-Federal match, although on many occasions the 
Federal dollars are leveraged much more than 1 to 1. The program has 
successfully promoted cooperative partnerships between State and local 
governments and the private sector to preserve targeted, high priority 
Civil War battlegrounds outside NPS boundaries. Since it was first 
funded in fiscal year 1999, the program has been used to protect more 
than 17,500 acres of our Nation's hallowed ground.

Battlefield Lands are Our Shared American Heritage
    These battlefield lands are an irreplaceable part of our shared 
national heritage. These lands are consecrated with the blood of brave 
Americans who fought and died to create the country we are today. By 
preserving these hallowed grounds, we can rightfully honor all who made 
the ultimate sacrifice, whether it was on the rolling fields of 
Gettysburg or the sandy beaches of Fort Wagner.
    Development threatens to erase these sacred sites; living history--
our shared history--will consequently fade into distant memory. The 
private sector organizations engaged in battlefield preservation--and 
we are just one among many nonprofit battlefield preservation groups--
are competing with developers to acquire this land. Once these hallowed 
grounds are lost, they are lost forever.
    We estimate that 30 acres of battlefield lands are lost every day. 
These lands, when preserved, serve as outdoor classrooms to educate 
current and future generations of Americans about this defining moment 
in our Nation's history. In addition, preserved battlefields are 
economic drivers for communities, bringing in tourism dollars that are 
extremely important to State and local economies.
    With the sesquicentennial commemoration of the Civil War underway, 
now is the opportune time to reaffirm our national commitment to the 
protection of these hallowed grounds. Throughout the sesquicentennial, 
millions are expected to learn about our Nation's unique history by 
visiting Civil War sites around the country. This anniversary provides 
the perfect opportunity to promote preservation of Civil War 
battlefields.

Origins of the Program
    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians and 
preservationists. Its goal: determine how to protect America's 
remaining Civil War battlefields. In 1993, the Commission released a 
study entitled ``Report on the Nation's Civil War Battlefields.'' The 
report identified the 384 most historically important Civil War 
battlegrounds and further prioritized them according to preservation 
status and historic significance. Eighteen years later, this landmark 
report and a recent update conducted by NPS remain our guide for 
targeting only the most historically significant remaining Civil War 
battlefields.
    In addition to creating a prioritized list of battlefield 
preservation targets, the Commission also recommended that Congress 
establish a Federal matching grant program to help the nonprofit sector 
save high-priority Civil War battlefields. The Commission's proposal 
for a Federal matching grant program was the genesis of the Civil War 
Battlefield Preservation Program.

Congressional Funding and First Successes
    Five years after the ``Report on the Nation's Civil War 
Battlefields'' was released, Congress acted upon the Commission's 
recommendation by setting aside $8 million over a 3-year period from 
the Land and Water Conservation Fund for Civil War preservation 
matching grants. Grants were competitively awarded through the American 
Battlefield Protection Program (ABPP), an arm of NPS. Funding was 
solely for acquisition of properties outside NPS boundaries at 
battlefields identified in the 1993 report. Land could be purchased 
from willing sellers only; there was--and there remains--no eminent 
domain authority.
    Thanks to the new program, there began an unprecedented and almost-
immediate surge in Civil War battlefield preservation. The $8 million 
appropriation generated $24 million for land acquisition by encouraging 
State and private investment in battlefield land protection. The 
program inspired the Virginia and Mississippi legislatures to 
appropriate $3.4 million and $2.8 million, respectively, to meet the 
Federal match. The Civil War Trust alone contributed $4 million in 
private sector funds to meet the match.
    As a result of the non-Federal funds generated by the program, 
battlefields like Virginia's Brandy Station and Manassas received a new 
lease on life. In addition, other sites such as Prairie Grove in 
Arkansas, Champion Hill in Mississippi, and Bentonville in North 
Carolina--just to name a few--were substantially enhanced. Largely 
because of the success of those first 3 years, Congress appropriated an 
additional $11 million for the program in fiscal year 2002.

Authorization of the Program
    The Civil War Battlefield Preservation Program was first authorized 
through the Civil War Battlefield Preservation Act of 2002. Supporters 
on Capitol Hill felt that authorization of the program would convey to 
the Department of the Interior congressional intent regarding the 
program's goals and objectives. The bipartisan bill formally tied the 
program to the 1993 CWSAC report, creating a Federal conservation 
program with a highly focused, prioritized list of acquisition targets. 
It also provided for an annual appropriation of up to $10 million per 
year--the level originally recommended by the Commission in 1993. The 
Civil War Battlefield Preservation Act was passed with the unanimous 
consent of both the House and Senate in the fall of 2002, and was 
signed into law by President Bush on December 17, 2002 (Public Law 107-
359). Authorization has provided funding predictability for the 
program's non-Federal partners, encouraging continued private-sector 
involvement in battlefield preservation.

Program's Continued Successes and Reauthorization
    Since the program was first funded in fiscal year 1999, Civil War 
Battlefield Preservation Program grants have been used to protect 
17,500 acres of hallowed ground in 14 States. Among the many 
battlefields that have benefited from this program are: Antietam, 
Maryland; Averasboro, North Carolina; Chancellorsville, Virginia; 
Chattanooga, Tennessee; Corinth, Mississippi; Harpers Ferry, West 
Virginia; Mill Springs, Kentucky; and Prairie Grove, Arkansas.
    The Civil War Battlefield Preservation Program was reauthorized as 
part of the Omnibus Public Land Management Act of 2009 (H.R. 146), 
which President Obama signed into law on March 30, 2009 (Public Law 
111-11).

Urgent Need for Funding
    We thank the Senate Appropriations Subcommittee on Interior, 
Environment and Related Agencies for providing $9 million for the Civil 
War Battlefield Preservation Program in fiscal year 2012. This 
appropriation has allowed for the preservation of many historically 
significant lands at battlefields such as: Bentonville, North Carolina; 
Franklin, Tennessee; Gettysburg, Pennsylvania; New Market Heights, 
Virginia; South Mountain, Maryland; and Perryville, Kentucky.
    To build off the successes of the program in fiscal year 2012, we 
respectfully ask the Senate Appropriations Subcommittee on Interior, 
Environment, and Related Agencies to fund the Civil War Battlefield 
Preservation Program at its authorized amount of $10 million. We 
recognize that these are difficult economic times and appreciate the 
constraints on this Subcommittee as you work to draft an appropriation 
bill that meets the needs of the agencies and programs under your 
jurisdiction. However, we believe that now, as we commemorate the 150th 
anniversary of the conflict that shaped our Nation, is the opportune 
time to provide robust funding for the Civil War Battlefield 
Preservation Program.
    Funding at this level will allow for the continued success of the 
program and the preservation of key battlefield lands that will serve 
as lasting, tangible legacies for the sesquicentennial. In addition, 
with time rapidly running out to forever protect these hallowed 
grounds, funding for this program will soon no longer be necessary. We 
estimate that in the next 10 years the remaining Civil War battlefield 
lands will be either paved over or protected. That is why we must act 
now in order to preserve as much key battlefield land as possible 
before time runs out.

Conclusion
    There is no question that the Civil War was a defining moment in 
our country's history. For 4 long years, North and South clashed in 
hundreds of battles that reunited our Nation and sounded the death 
knell for slavery. More than 625,000 soldiers and 50,000 civilians 
perished as a result of the war.
    Preserved battlefields not only honor the memory of our Civil War 
ancestors, but all of our Nation's brave men and women in uniform. 
Further, preserved battlefields serve as outdoor classrooms to teach 
new generations of Americans about the significance of the Civil War--
and remind them that the freedoms we enjoy today came at a terrific 
price.
    Mr. Chairman, I sincerely hope you and your subcommittee will 
consider our request to provide funding of the Civil War Battlefield 
Preservation Program at its authorized level of $10 million. We look 
forward to working with you and other subcommittee members on 
battlefield protection and other historic preservation issues. Thank 
you for the opportunity to address the committee.
                                 ______
                                 
                    Prepared Statement of Dance/USA

    Mr. Chairman and distinguished members of the subcommittee, Dance/
USA is grateful for this opportunity to submit testimony on behalf of 
our members across the United States. We urge the Committee to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2013. This testimony is intended to 
highlight the importance of the Federal investment in the arts to 
sustaining a vibrant cultural community to our national character.
    Dance/USA, the national service organization for not-for-profit 
professional dance, believes that dance is essential to a healthy 
society, demonstrating the infinite possibilities for human expression 
and potential, and facilitating communication within and across 
cultures. Dance/USA sustains and advances professional dance by 
addressing the needs, concerns, and interests of artists, 
administrators, and organizations. By providing services and national 
leadership, Dance/USA enhances the infrastructure for dance creation, 
education and dissemination. To fulfill its mission, Dance/USA offers a 
variety of programs, including data research and regional professional 
development, and works with organizations within and outside the arts 
field with whom common goals are shared. Dance/USA's membership 
currently consists of over 450 ballet, modern, ethnic, jazz, culturally 
specific, traditional and tap companies, dance service and presenting 
organizations, artist managers, individuals, and other organizations 
nationally and internationally. Dance/USA's member companies range in 
size from operating budgets of under $100,000 to over $50 million.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The Arts Endowment has 
helped to strengthen regional theater, opera, ballet and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographic limitations. The Endowment embodies the ideal that no one 
should be deprived of the opportunity to have art in their lives. The 
Arts Endowment has helped the arts become accessible to more Americans, 
which in turn has increased public participation in the arts.
    Despite diminished resource, the NEA awards more than 1,000 grants 
annually to nonprofit arts organizations for projects that encourage 
artistic creativity. These grants help nurture the growth and artistic 
excellence of thousands of arts organizations and artists in every 
corner of the country. NEA grants also preserve and enhance our 
Nation's diverse cultural heritage. The modest public investment in the 
Nation's cultural life results in both new and classic works of art, 
reaching the residents of all 50 States.
    NEA grants are instrumental in leveraging private funding. On 
average, each $1 from an NEA grant generates at least $8 from other 
sources. Government cultural funding plays a catalytic leadership role 
that is essential in generating private support for the arts.
    The NEA is a great investment in the economic growth of every 
community. The return of the Federal Government's small investment in 
the arts is striking. The nonprofit arts industry generates $166.2 
billion annually in economic activity, supports 5.7 million full-time 
equivalent jobs, and returns $12.6 billion to the Federal Government in 
income taxes. Measured against direct Federal cultural spending of 
about $1.4 billion, that's a return of nearly nine to one. Few other 
Federal investments realize such economic benefits, not to mention the 
intangible benefits that only the arts make possible. Even in the face 
of tremendous cutbacks in recent years, the NEA continues to be a 
beacon for arts organizations across the country.

                           NEA GRANTS AT WORK

    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. The following are some examples of the impact of 
NEA funding on dance programs from the NEA's 2012 Art Works Program:

Alabama Dance Council
Birmingham, Alabama
$10,000
    To support the presentation of the 2012 statewide Alabama Dance 
Festival that will feature performances by Ronald K. Brown's Evidence: 
A Dance Company and Brazz Dance Theater, showcases of Alabama dance 
companies, pre-professional and professional master classes, 
professional dance development workshops, summer intensive auditions, 
and dance education workshops.

Ballet Hispanic of New York
New York, New York
$20,000
    To support the creation and presentation of a new work by artistic 
director Eduardo Vilaro. The work, titled Reina, will be inspired by 
the music of Celia Cruz, the Queen of Salsa.

Chicago Dancing Festival
Lombard, Illinois
$10,000
    To support the presentation of local and national dance companies 
as part of the 2012 Chicago Dancing Festival. Activities include 
performances, open rehearsals, open company classes, and moderated 
lecture-demonstrations.

Nai-Ni Chen Dance Company
Fort Lee, New Jersey
$10,000
    To support dance performances and education and outreach activities 
based on the ancient legends and folklore of the Chinese dragon. The 
project includes curriculum guides for students and teachers.

Ragamala Dance
Minneapolis, Minnesota
$20,000
    To support the creation and presentation of a new work, titled 1001 
Buddhas, inspired by the 12th-century Sanjusangendo temple in Kyoto, 
Japan, famous for its 1001 life-sized statues of Kannon, the Buddhist 
Goddess of Mercy.

San Francisco Ballet Association
San Francisco, California
$70,000
    To support the creation and presentation of new works by several 
choreographers including: Yuri Possokhov, Wayne McGregor, Mark Morris, 
and Christopher Wheeldon. The project includes audience engagement 
activities such as matinees for students and seniors, reduced-price 
tickets, pre-performance discussions, podcasts, and lectures.

Trey McIntyre Project
Boise, Idaho
$15,000
    To support the creation and presentation of a new work, by 
choreographer Trey McIntyre. The dance will be the third piece in an 
autobiographical trilogy and is inspired by the 1970's show Free to Be 
You and Me.

               THE NONPROFIT PROFESSIONAL DANCE COMMUNITY

    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And yet, American can boast some of the greatest dance 
companies of the world and can take credit for birthing two indigenous 
dance styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
almost 300 nonprofit dance companies from across the United States, 
Dance/USA estimates that dance companies:
  --Employed over 12,800 people in a mix of full-time and part-time 
        positions;
  --Paid approximately $316 million in wages and benefits;
  --Earned $178.9 million, or 30 percent of their income, from 
        performances;
  --Received $235.7 million, or 47 percent of their income in 
        contributions (including public support, corporate 
        contributions, foundation support, and individual donations);
  --Generated more than $585 million in economic activity across the 
        United States.

                               CONCLUSION

    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million in the past 2 years, leaving its 
programs seriously underfunded. We urge you to continue toward 
restoration and increase the NEA funding allocation to $155 million for 
fiscal year 2013.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School, 
                             Navajo Nation

                            REQUEST SUMMARY

    Mr. Chairman and Members of the Subcommittee: My name is Ervin 
Chavez, School Board President of the Dzilth-Na-O-Dith-Hle Community 
School (DCGS) on the Navajo Reservation in Bloomfield, New Mexico. With 
me is Faye BlueEyes, Finance Director, who will be presenting our 
testimony on behalf of the DCGS School Board. We will focus on three 
areas of particular concern to our School in the fiscal year 2013 
funding requests for the Bureau of Indian Education (BIE). The DCGS 
requests the following, all under the BIE budget category:
  --Provide $109.8 million in facilities operations and $76 million in 
        facilities maintenance as recommended by the National Congress 
        of American Indians in its budget requests.
  --Support requested $2 million increase, at a minimum, for Tribal 
        Grant Support Costs; provide $72.3 million to fully fund.
  --Restore $4.4 million in reductions to the Indian School 
        Equalization Program Formula Funds account.

                               BACKGROUND

    DCGS is a tribally controlled grant school is located in 
Bloomfield, New Mexico, approximately 170 miles northwest of 
Albuquerque, within the boundaries of the Navajo Indian Reservation. 
DCGS is primarily funded through appropriations received from the BIE, 
and pass-through funding from the Department of Education. Our school, 
which has been in continuous service since 1968, operates a K-8 
educational program and a dormitory program for students in grades 1-
12. Residential students in grades 9-12 attend the local public school. 
There are 109 students currently enrolled in our academic program, and 
67 students are housed in campus dormitories. Our all-Navajo Board 
operates the DCGS through a Grant issued by the BIE under the Tribally 
Controlled Schools Act. The DCGS mission is to make a difference in the 
educational progress of our students and we believe that all of our 
students are capable of achieving academic success. DCGS, however, has 
struggled with chronic underfunding of virtually each and every one of 
its educational and related programs. We describe below the impacts of 
the underfunding in several key areas.
    Funding for Facilities Maintenance in the amount of $76 million and 
Facilities Operations in the amount of $109.8 million.--Facilities 
Maintenance funds are intended to provide for the preventative, 
routine, and unscheduled maintenance for all school buildings, 
equipment, utility systems, and ground structures. There are numerous 
studies that attest to the fact there is close correlation between poor 
or inadequate facility conditions and poor student and staff 
performance. And it is documented fact that 63 of the 181 schools for 
which BIE is responsible are rated in ``poor'' condition on the 
Bureau's ``Education Facility Condition Index (FCI) for fiscal year 
2013,'' the same number as in fiscal year 2012. Without a significant 
increase in facilities maintenance funding, there is little doubt there 
can be no measurable progress in addressing the ever-growing deferred 
maintenance backlog of at least $967 million (according to the 2011 
draft No Child Left Behind School Facilities and Construction 
Negotiated Rulemaking Committee Report). The report also acknowledged 
that persistent underfunding of Facilities Maintenance contributes to 
more rapid deterioration of the aging buildings.
    The DCGS is, unfortunately, one of the ``poor'' rated schools and 
with an FCI of 0.4001, it is among the poorest-rated facilities. From a 
practical standpoint, this means that we are not able to provide a 
safe, healthy learning environment for our students and staff. 
Realistically, some of the health and safety problems at DCGS include 
the closure of the restrooms servicing our junior high classrooms due 
to leaking sewer lines. Whereas the required industry standard for 
plumbing today is PVC piping, our 40 plus year-old buildings have 
galvanized pipes that have become so rusted, corroded and contain 
sediment experts estimate only about one-quarter inch diameter of the 
pipes remain open. Repairs are also difficult because extensive 
corrosion makes any disturbance of the pipes makes it susceptible to 
crumbling. Adding to the sewer problems is that the sewage lagoon 
servicing the DCGS is not the adequate size for our complex, thus 
requiring weekly cleanouts, meaning our already over-burdened 
facilities have to send out one staff member to manually hose out each 
of the sewage cells in the lagoon.
    The age of the facilities also impacts the water lines, which are 
also very corroded and contain so much sediment that we must provide 
bottled drinking water for the students (an additional cost that most 
public schools do not face). We also have issues with an outdated 
electrical transformer for which parts are no longer available and 
insufficient internal electrical wiring that must be replaced to avoid 
further electrical fires.
    Most public schools have readily available, reliable Internet 
access. The DCGS, on the other hand, has for years relied on a 
satellite link to support the educational technology needs of the 
students. The Internet access was very unreliable--depending on weather 
conditions and other reasons that were not able to be fully determined 
by the provider--which more often than not resulted in frustrating 
students trying to do research and/or cancelling academic lessons. We 
pleaded with the BIE to assess and address the problem or at least 
facilitate rewiring the facilities to accommodate better IT access but 
sadly that tech support has been so lacking for over 6 years that we 
have turned to the Navajo Nation Technology Department (NNTD) for 
assistance. Sadly we are placing blind faith that through the Federal 
E-rate program we will be able to recoup the installation payment we 
had to pay upfront for the NNTD to begin work and to also fund the 
additional work to complete the technology upgrades. Even with the 
limited work that has been completed, the students are already seeing 
noticeable improvements in Internet availability.
    Despite our best efforts to maximize the limited facilities 
maintenance funds for upkeep of our buildings, there is only so much 
that our five-member facilities staff can do. The BIE has estimated 
$7.7 million would be needed to fix all that is on the DCGS deferred 
maintenance backlog, and the replacement cost would be $19.1 million. 
The BIE's fiscal year 2013 request for facilities maintenance is nearly 
level funding again ($50.9 million), which means that once again there 
will not be enough to make a significant dent in the maintenance 
backlog of DCGS or any of the other schools.
    Facilities Operations funding is for the ongoing operational 
expenses like electricity, heating fuels, communications, ground 
maintenance, refuse collection, water and sewer service, etc. However, 
the facilities operation expenses are currently funded at approximately 
46 percent of need. In light of the escalating costs of these essential 
services--especially the cost of electricity and heating costs--it is 
evident the BIE's fiscal year 2013 request of $58.6 million (level 
funding) is still grossly inadequate.
    When the facilities operations and maintenance costs are not funded 
at a realistic level, our schools are not able to address the small, 
preventable problems to keep them from becoming bigger and more 
expensive to fix, or we cannot even perform some needed maintenance. 
Further, in emergency situations, school funding must be diverted from 
other programs to meet these needs. For the health and safety of our 
students and staff, we support the NCAI-recommended $76 million for 
facilities maintenance and $109.8 million in facilities operation 
funding.
    Funding for Tribal Grant Support Costs in the amount of $72.3 
million.--Tribal Grant Support Costs (TGSC), formerly known as 
Administrative Costs Grants, are funds provided to tribally operated 
schools to cover the administrative or indirect costs associated with 
the operation of a school. Currently, 125 of the 183 BIE funded schools 
are operated by tribes or tribal school boards, with another three BIE-
operated schools possibly being converted to grant status in fiscal 
year 2013. TGSC funding is applied to the costs of payroll, accounting, 
insurance, background checks, and other legal, reporting and record-
keeping requirements, including the preparation of required annual 
audits. TGSC are appropriated in a lump sum and then awarded to 
individual schools after application of a complex statutory formula 
that divides the available funding--not the statutorily required 
amount--among eligible recipients. In fiscal year 2012, the funding 
available for TGSC met only 63.7 percent of the need of the schools, 
which is below the BIE estimated rate for fiscal year 2012. This means 
that at 100 percent of TGSC need, DCGS should have received nearly 
$700,000; instead, we received only $445,000. What happens when there 
is a $250,000 shortfall? At DCGS we have consolidated internal 
controls, streamlined checks and balances, and scaled back 
significantly our management staff. For example, our business office 
now has only two full-time staff to handle all the DCGS business-
related functions, such as process payroll for 90 on a bi-weekly basis; 
complete all the accounting; complete all tax reporting requirements; 
process account payables-requisitions-purchase orders, and ensure 
conformance with all audit requirements.
    For fiscal year 2013, the BIE requests a $2 million increase, which 
they estimate will provide a TGSC rate of 65 percent of need. The DCGS 
is very concerned this projected percentage is being over reported. 
Consider that the BIE does not request separate start-up funds for 
newly converting schools but they report there may be as many as three 
in fiscal year 2013. With no start-up funds, the additional school 
conversions will consume an inordinate amount of the already limited 
TGSC, thus further limiting the funds available to the ongoing grants/
contracts.
    The increase sought by the administration not only falls well short 
of the schools' actual support cost needs, it fails to make even 
minimal progress in promoting fairness or equity with respect to the 
Government's support costs paid for other Indian programs. As a result 
of contract support cost (CSC) litigation brought by tribes for BIA and 
IHS failures to fully fund CSC, in all other BIA program areas except 
education, growth has been tremendous. In fact, for the period covering 
fiscal year 2009 to fiscal year 2012, the non-school BIA CSC account 
has grown by an astounding $73.9 million, which raised the percentage 
of CSC need paid from 75 percent to nearly 100 percent. In contrast, 
the TGSC funding during the same period increased by a mere $2.8 
million, and that was in the last 2 fiscal years; with the TGSC rate 
rising from 61 percent to 63.7 percent during that period. The schools 
should not have to spend years before the courts litigating their being 
short-changed by the BIE. Congress should fix the problem and fully 
fund TGSC at $72.3 million for the indirect cost requirements of 
current tribally controlled schools, and provide $2 million in start-up 
funds for newly converting schools.
    Restore $4.4 million to Indian School Equalization (ISEP) Formula 
Funds account.--The fiscal year 2013 budget request proposes a $4.4 
million (or 1 percent) reduction in ISEP formula funds due to a 1 
percent decline in student population. The Bureau, however, fails to 
recognize that schools still have costs that are not directly tied to 
the number of students enrolled; in essence a minimum operating costs 
to keep our doors open. For instance, our electrical bill is not based 
on the number of students served, and the buses must cover their routes 
whether there is 1 student or 50 students on that route. Further, as we 
have testified, many of the accounts that support School Operations are 
seriously underfunded so that we must constantly utilize our education-
program (ISEP) funds to offset non-academic costs such as student 
transportation, maintenance, administrative functions to name a just a 
few. Despite our best efforts to stretch each and every dollar, in 
school year 2012-2013 DCGS will be forced to reduce the number of 
student school days and instead operate on providing the requisite 
number of contact hours for each grade level.

                               CONCLUSION

    It is widely acknowledged that investments in education have a 
direct economic impact as well as benefits to the individual. Studies 
have also shown that reductions in education expenditures have 
negatively impacted employment rates. With our native students coming 
from some of the hardest hit areas in these times of economic downturn, 
we ask Congress to provide the levels of education funding that will 
enable us to provide a quality education in safe and secure environment 
for our students. We are grateful for any assistance you can provide.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife

    Mister Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than 1 million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    Wildlife and its habitat are valuable national assets. Even in the 
face of dire fiscal realities, investments in the protection of 
wildlife and habitat are a wise choice for our Nation. Wildlife related 
recreation is a $122 billion a year industry.\1\ Moreover, protecting 
wildlife and its habitat also supports healthy natural systems that 
provide clean air and water, food, medicines and other products. The 
value of benefits provided by natural habitats in the United States is 
estimated at more than $2 trillion per year.\2\ Defenders appreciated 
the successful efforts of the Senate Appropriations Committee to 
protect wildlife programs from deep cuts both in the Senate bill and in 
H.R. 2055, the Consolidated Appropriations bill. Defenders opposes cuts 
to crucial programs that conserve wildlife and habitat, and we support 
the modest but crucial increases in the President's request.
---------------------------------------------------------------------------
    \1\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States 
www.nfwf.org/Content/ContentFolders/NationalFishandWildlifeFoundation/
HomePage/ConservationSpotlights/
TheEconomicValueofOutdoorRecreation.pdf.
    \2\ Ibid.
---------------------------------------------------------------------------
                       FISH AND WILDLIFE SERVICE

    We urge the subcommittee to do as much as possible to protect the 
accounts of the Fish and Wildlife Service (FWS), our Nation's premier 
wildlife conservation agency. We strongly support the following modest 
increases in the President's request and oppose one disappointing 
decrease:
    Renewable Energy.--A crucial $4 million increase associated with 
renewable energy development that includes $1.5 million for Endangered 
Species Program Consultation, $750,000 for Conservation Planning 
Assistance, $750,000 for Migratory Bird Management and $1 million for 
the Office of Law Enforcement. This increase will help to ensure siting 
of renewable energy projects in a way that prevents harm to species 
such as golden eagles, seabirds, bats and desert tortoise.
    Cooperative Recovery.--A praiseworthy new initiative to implement 
recovery actions for species listed under the Endangered Species Act on 
National Wildlife Refuges and surrounding lands. The $5.4 million 
increase includes $2.5 million for Refuges, $883,000 for Partners for 
Fish and Wildlife, $800,000 for Fisheries Population Assessment, 
$770,000 for Adaptive Science and $400,000 in the Endangered Species 
program. This initiative will support more efficient efforts across 
landscapes to recover threatened and endangered species.
    Endangered Species.--
  --A $1 million increase to support consultations on pesticides that 
        may impact listed species including the development of 
        protocols to determine safe levels of exposure. This increase 
        is vital to facilitate likely needed consultations on several 
        hundred pesticides out of at least 739 pesticide cases 
        identified by the Environmental Protection Agency that are 
        scheduled for review by 2022.
  --A $1.6 million increase for listing species. This funding will 
        support progress in listing more than 250 candidate species, 
        many of which have awaited protection for years.
  --A $12.3 million increase for the Cooperative Endangered Species 
        Fund to provide assistance to states to protect threatened and 
        endangered species.
  --A $998,000 reduction for the Wolf Livestock Loss Demonstration 
        Program that assists livestock owners co-existing with wolves. 
        In light of the recent delisting of wolves in the Northern 
        Rockies and Western Great Lakes and potential expansion of 
        wolves into California, it is important to continue this 
        valuable program which is intended to both compensate ranchers 
        for livestock losses due to wolves and to implement proactive, 
        nonlethal methods to prevent these losses. We urge restoration 
        of this funding.
    National Wildlife Refuge System (NWRS).--A net increase of $9.1 
million for NWRS Operations and Maintenance in the request includes not 
only the $2.5 million for Cooperative Recovery but also $3 million for 
baseline inventory and monitoring of refuge resources, $3.6 million for 
Challenge Cost Share projects with partners and volunteer groups, $1 
million for law enforcement, and $1.4 million for priority operations. 
Even with the increase, the request is still $8 million below the 
fiscal year 2010 level, even though refuges need an annual increase of 
a least $8 million just to keep fuel in trucks and pay for rising 
utilities and other costs. Moreover, in 2011, devastating disasters 
including tornadoes, wildfires, hurricanes, an earthquake, and a 
tsunami caused more than $190 million in damages to the Refuge System, 
an amount that totals nearly 40 percent of its budget that will put the 
System at further risk without supplemental disaster funding.
    Cooperative Landscape Conservation and Adaptive Science.--Threats 
to the conservation of our natural resources are increasingly large-
scale and complex. Combined with decreasing financial resources, there 
is a need to work more effectively and efficiently across 
jurisdictional boundaries. This comprehensive initiative is helping the 
natural resource management agencies improve landscape-level 
coordination of conservation efforts and provide science and technical 
capacity to tackle today's complex environmental problems. We oppose 
any cuts to this activity.
    Environmental Contaminants.--A $1.3 million increase in this 
program that has been flat since 2001 to help expedite and complete 
more restoration activities for Natural Resource Damage Assessment and 
Restoration cases.
    International Affairs.--An $83,000 increase which is the fiscal 
year 2012 level with fixed costs to sustain vital efforts to provide 
crucial capacity building, education, and training for priority species 
and habitats of global concern and for the growing permitting, research 
and monitoring workload for species subject to trade, including native 
U.S. species.
    Office of Law Enforcement and Migratory Bird Management.--In 
addition to the increases requested for these two programs related to 
renewable energy development, Defenders wishes to underscore their 
vital importance for wildlife conservation in our Nation. In fiscal 
year 2011, the Office of Law Enforcement's 143 inspectors processed 
approximately 167,000 declared shipments of wildlife and wildlife 
products worth more than $2.7 billion and the 219 special agents 
investigated nearly 13,000 cases, from breaking up smuggling rings to 
working with states to protect U.S. game species from poaching. The 
Migratory Bird Management program is working to reverse precipitous 
declines in U.S. bird populations including native Hawaiian birds, 
ocean birds, coastal shorebirds, arid lands birds, and grassland birds.
    Other key grant programs.--In addition to the increase for the 
Cooperative Endangered Species Fund referenced above, we support the 
President's request for the Multinational Species Conservation Fund, 
$9.98 million, for the Neotropical Migratory Bird Fund, $3.8 million, 
and for the State and Tribal Wildlife grants, $61.3 million.

              FOREST SERVICE AND BUREAU OF LAND MANAGEMENT

    The Bureau of Land Management (BLM) and the U.S. Forest Service 
(FS) are crucial to the conservation of wildlife and habitat in the 
United States, yet their resources are not adequate to meet significant 
challenges. A top priority for Defenders is ensuring that renewable 
energy development on these lands proceeds in a balanced way that 
maintains the ecological integrity of our public lands and waters, 
conserves wildlife habitat and populations, and contributes to agency 
efforts to successfully recover our most imperiled wildlife. We urge 
strong oversight to ensure that any energy development is done in an 
environmentally sensitive fashion. Given their large land ownerships it 
is imperative that both participate fully in landscape level 
conservation and management efforts.
    FS Integrated Resource Restoration (IRR)/Wildlife and Fisheries 
Habitat Management.--The budget has again proposed merging a number of 
accounts, including Wildlife and Fisheries Habitat Management, into an 
integrated budget. However, Defenders supports continuing IRR as a 3-
year pilot as directed by Congress in the final fiscal year 2012 
Omnibus appropriations bill so that the agency can demonstrate its 
ability to adequately protect habitat for fish and wildlife under the 
consolidated program. We urge no less than the fiscal year 2012 level 
of $140 million for Wildlife and Fisheries Habitat Management. Even at 
that level, the program would be nearly $25 million below the fiscal 
year 2001 inflation adjusted level.
    FS Land Management Planning/Inventory and Monitoring.--The budget 
has again proposed merging these two programs into a single line item. 
As with IRR, we are concerned about such a consolidation unless the 
agency can demonstrate its ability to carry out its responsibilities 
under these two programs, especially given that in the coming year, the 
Forest Service will finalize and begin to implement a new forest 
planning rule that requires sufficient funding for critical inventory 
and monitoring activities, including the assessments that will be 
fundamental to the implementation of the new planning rule. We urge no 
less than the fiscal year 2012 level for each of these two programs: 
$39.9 million for Land Management Planning and $161.7 million for 
Inventory and Monitoring.
    FS Collaborative Forest Landscape Restoration Program (CFLRP).--We 
support the administration's request of $40 million for the CFLRP, a 
unique program that was established specifically to create job 
stability, achieve reliable wood supply, restore forest health, and 
reduce the costs of fire suppression in overgrown forests.
    FS Forest and Rangeland Research (FS R&D).--Defenders supports the 
administration's request of $292.8 million for FS R&D. Within FS R&D 
our highest priority is the Wildlife and Fish Research and Development 
program that supports science-based fish and wildlife management on 
National Forest System lands and beyond such as grappling with the 
question of how changes in snow pack will impact wolverines and other 
climate vulnerability assessments.
    BLM Sage Grouse.--A critically needed increase of $15 million in 
the BLM Wildlife Management program for sage grouse conservation in 10 
western States includes $10 million for amendments to Resource 
Management Plans, $2.5 million for on-the-ground habitat restoration, 
and $2.5 million for inventory, monitoring and mapping. Almost half of 
all sagebrush habitat has been destroyed and this loss has been 
compounded by fragmentation of the remaining sage-grouse habitat. Over 
the 42 years between 1965 and 2007, population decline was estimated at 
3.1 percent each year. This modest funding increase is desperately 
needed to support a broad effort to stop this iconic bird's decline and 
avert the need for listing under the Endangered Species Act.
    BLM Renewable Energy.--An increase of $7.1 million for renewable 
energy includes support for regional land use planning studies and 
environmental reviews of potential wind energy zones. These studies 
will help to identify future renewable energy zones that will avoid 
areas with potential natural resource conflicts, including wildlife 
conflicts (especially sage grouse, golden eagles, desert tortoise or 
other sensitive species).
    BLM Resource Management Planning.--Another crucial increase is $4.7 
million for Resource Management Planning in this program that has been 
cut by nearly 25 percent since fiscal year 2010 and needed to help 
address 47 plans under revision and another 45 that need revision.
    BLM Challenge Cost Share.--Defenders supports a total of $7.5 
million, same as the fiscal year 2012 level for proactive wildlife and 
habitat conservation projects on the ground with partners.

                         U.S. GEOLOGICAL SURVEY

    The U.S. Geological Survey provides the basic science necessary for 
conservation of fish, wildlife and habitat. We urge support for the 
following increases in the request:
    Ecosystems.--A $16.6 million increase that includes $1 million for 
research on White Nose Syndrome that is devastating bat populations. 
The base program also supports crucial scientific efforts needed to 
avoid harm to birds, bats, desert wildlife, and other species that 
could be impacted by the development of wind and solar energy.
    Climate and Land Use Change.--A $500,000 increase for the National 
Climate Change and Wildlife Science Center/DOI Climate Science Centers 
and a $6.5 million increase in Science Support for DOI Bureaus to 
address scientific needs in planning for adaptation to climate change.

                LAND AND WATER CONSERVATION FUND (LWCF)

    Finally, each day, 6,000 acres of open space in the United States, 
including wildlife habitat, is lost to fragmentation and destruction. 
Once these lands are lost, they can never be recovered. Defenders 
supports the requested increase of $104.7 million for LWCF. A portion 
of the LWCF total, about $108 million, is for an Interior-Forest 
Service collaborative interagency land acquisition program to protect 
strategic landscape-scale projects that at the same time meet core 
agency acquisition priorities. This innovative initiative will help to 
bring larger conservation benefits and build resilience across 
landscapes with scarce dollars. Thank you for the opportunity to 
testify.
                                 ______
                                 
Prepared Statement of Friends of Balcones Canyonlands National Wildlife 
                                 Refuge

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Friends of Balcones Canyonlands National Wildlife Refuge (Friends of 
Balcones) and its membership, thank you for your strong support for the 
National Wildlife Refuge System (NWRS). The Friends of Balcones 
appreciates the opportunity to offer comments on the fiscal year 2013 
Interior Appropriations bill. We are specifically requesting an 
allocation of $700 million for the Land and Water Conservation Fund 
(LWCF), including $150 million for the National Wildlife Refuge System 
(NWRS).
    The meaningful funding increases in fiscal years 2008-2010 allowed 
the System to emerge from years of chronic funding shortfalls. But 
unfortunately, those substantial gains are undermined by more than $17 
million in cuts to the System's funding in fiscal years 2011 and 2012 
that equate to a larger loss of over $41 million when annual increases 
in refuge fixed costs are factored in. Consequently, we support the 
President's 2013 budget request of $495 million because it will 
maintain existing management capabilities. Should across-the-board 
sequestration cuts of 9-10 percent take effect in fiscal year 2013, the 
impacts to the Refuge System would be devastating and could force FWS 
to close or end major programs at more than 130 refuges.
    We respectfully request the Subcommittee support all of the funding 
allocations requested by the National Wildlife Refuge Association as 
detailed and explained in their testimony letter. All of the 
allocations are critical to the health of the NWRS but the one that 
will impact the Balcones Canyonlands NWR the most is the allocation of 
$700 million for the Land and Water Conservation Fund, including $150 
million for the NWRS. Balcones Canyonlands Refuge, although 20 years 
old, is only slightly over 50 percent complete. The Friends of Balcones 
urges you to fund the LWCF at $700 million so we can continue to buy 
land toward our goal of 46,000 acres. Out of that amount, we are 
requesting $5 million from the Land and Water Conservation Fund for 
2013. Completing the Refuge is anticipated to cost over $87 million in 
today's dollars, so acting now is especially important for monetary 
reasons and because of the intense pressure from urban expansion that 
is occurring within the Refuge acquisition boundary.
    We feel a sense of urgency to complete the land acquisition for the 
Refuge. Twenty years after the creation of the Refuge and just over 
23,000 acres are protected! Austin Texas is a short drive from the 
Refuge and is among the top 10 fastest growing cities in the United 
States. That rate of development will impact the ability of the FWS to 
complete the Refuge if something isn't done quickly.
    Balcones Canyonlands Refuge is located in the Texas Hill Country 
northwest of Austin, Texas and resides in Burnet, Travis, and 
Williamson counties. The Refuge was formed in 1992 to conserve habitat 
of the endangered Golden-cheeked Warbler as a step toward recovery and 
eventual delisting of the species. In addition to the Golden-cheeked 
Warbler, the Refuge serves to protect the habitat of the endangered 
Black-capped Vireo and numerous other wildlife species.
    State-sponsored biological studies show that to stabilize and 
sustain these endangered songbirds, Balcones Canyonlands needs a total 
of 46,000 acres of habitat. It presently has some 23,000 acres. The 
Refuge augments a similarly named Preserve in Austin, comprised of 
nearly 30,000 acres and operated by the City and Travis County. The two 
parts were established for the same purpose and together are intended 
to provide habitat needed to enable recovery of these species.
    In addition to the recovery of these endangered species, Balcones 
Canyonlands Refuge is a source of eco-tourism for the surrounding area. 
Over the longer term, the Balcones Refuge is expected to become a major 
draw for birders interested in viewing the endangered Warbler and 
Vireo, for which this area provides unique habitat. As you likely know, 
the Texas Hill Country is very special, and the Balcones Canyonlands 
National Wildlife Refuge is one of the best places to experience the 
beauty and uniqueness of this Texas landscape. The Refuge has been 
described as one of the Last Great Places by the Nature Conservancy and 
as an ``Important Bird Area'' by two national conservation groups based 
on its ``global importance'' to the endangered Warbler and Vireo. When 
completed, Balcones Canyonlands will be a step toward providing 
additional accessible public outdoor areas, identified as a critical 
need in a study by Texas Parks and Wildlife.
    There are many willing sellers within the acquisition boundary of 
the Refuge. All we need is money to move forward immediately! An 
appropriation of $5 million will fund purchase of the 350 acre 3 Creeks 
Ranch (second phase of this acquisition) and 1,000 acres of the Sunset 
Ranch, one of the last remaining large tracts of land with high quality 
Golden-cheeked Warbler habitat left within the Refuge acquisition 
boundary. The rolling hills and steep canyons on this ranch provide 
nesting habitat for the Golden-cheeked Warbler and potential for Black-
capped Vireo habitat management. The purchase of this large tract will 
also protect habitat for additional endemic species in the Hill Country 
as well as the unusual Karst topography of the Edwards Plateau. The 
ranch is situated near other Refuge property which makes it even more 
valuable as we attempt to protect large contiguous tracts of land. The 
properties have been appraised, and the sellers are willing. These 
acquisitions would be a significant step toward the long range goal of 
completing the Refuge. As mentioned earlier, acting now is particularly 
important, as the window of time is closing rapidly as a result of 
urban expansion, and the opportunity for protecting these species is at 
risk.
    The Friends of Balcones Canyonlands National Wildlife Refuge is a 
nonprofit, volunteer organization. Our mission is to support, complete, 
and enhance Balcones Canyonlands Refuge and to promote the Refuge's use 
for recreational, educational, and scientific purposes. Our membership 
is drawn primarily from Central Texas communities situated near the 
Refuge. Our members care passionately about preserving our natural 
heritage and fulfilling our organization's mission of completing the 
Refuge. Because of all the reasons listed above, we strongly recommend 
that you allocate $700 million for the Land and Water Conservation Fund 
and set aside $5 million from the LWCF for Balcones Canyonlands Refuge 
for fiscal year 2013.
    In closing, thank you for considering our request of $700 million 
for the Land and Water Conservation Fund (LWCF). Your actions in 
support of our request will significantly improve our chances and the 
chances of other Refuges in similar situations to create fully 
functioning Refuges that are a testament to America's amazing natural 
heritage. We are entrusted with the protection of our wild spaces for 
the benefit and enjoyment of current and future generations. Anne Frank 
wrote the following:

    ``The best remedy for those who are afraid, lonely or unhappy is to 
go outside, somewhere where they can be quiet, alone with the heavens, 
nature and God.
    Because only then does one feel that all is as it should be and 
that God wishes to see people happy, amidst the simple beauty of 
nature. I firmly believe that nature brings solace in all troubles.''

    Please help us provide places of solace for all Americans. We very 
much appreciate your attention to this matter and thank you for the 
opportunity to present this statement to the Subcommittee.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. We appreciate having the opportunity to provide you 
with testimony on fiscal year 2013 appropriations for the Indian 
programs funded through the U.S. Department of the Interior and Indian 
Health Service (IHS). The Fond du Lac Band provides health, education, 
social and other governmental services to approximately 6,700 Indian 
people living on or near our Reservation in northeastern Minnesota. 
These programs are essential to our ability to educate our children, 
care for our elderly and infirm, prevent crime, and protect and manage 
natural resources.

BIE: Education
    We urge Congress to increase funding for Bureau of Indian Education 
(BIE) Elementary/Secondary School Programs. The Fond du Lac Band relies 
on BIE funding for the operation of the Band's pre-K through grade 12 
Ojibwe School. The Ojibwe School serves approximately 340 students most 
of whom are tribal members or descendants of tribal members. Most of 
our students come from very low income households, as illustrated by 
the fact that more than 90 percent of our students qualify for free or 
reduced rate lunches. But although American Indian students are the 
most at-risk group of students in our Nation, the BIE Elementary/
Secondary School Programs have been historically underfunded. We ask 
that BIE Elementary/Secondary School Program funding be increased as 
follows:
    ISEP funding.--We urge Congress to provide $431 million for Indian 
School Equalization Program (ISEP) Formula funds. These are the primary 
source of funding for our school, covering salaries for teachers, 
teacher aides, reading and math specialists, language and culture 
teachers, administrative personnel and school governance (School Board 
costs). While the President's proposed budget would reduce ISEP funds 
to offset other funding increases, ISEP should not be reduced as it is 
critical to the ability of tribal schools to recruit and retain 
qualified teachers and to cover shortfalls in other budget areas, such 
as transportation, facilities and maintenance.
    Tribal Grant Support Costs.--We urge Congress to provide $72.3 
million to fully fund Tribal Grant Support Costs (TGSC). The funds are 
critical to maximizing tribal self-determination and ensuring effective 
program administration. We rely on TGSC to help pay for accounting, 
payroll, insurance, background checks, legal and record-keeping 
requirements. Inadequate funding of TGSC forces our school to use ISEP 
and other funds to meet these important needs.
    School Facility Operations and School Facility Maintenance.--We 
urge Congress to provide $109.8 million in facilities operations and 
$76 million in facilities maintenance. Facility funding is used to keep 
our building in safe condition, pay for preventative and unscheduled 
maintenance for our school building, and cover insurance and increasing 
utility costs, e.g., electricity, heating and cooling, water and sewer. 
Increased funding for school facility operations and school facility 
maintenance is needed as past funding has not kept pace with the cost 
of school operations or the growing backlog of Indian schools and 
facilities needing repair.
    School Construction and Repair.--We urge Congress to provide $263.4 
million for BIE school construction and repair. Research studies 
continue to document a link between inadequate facility conditions and 
poor performance by students. Inadequate support for school repairs 
will cause the unmet needs for construction and repair to continually 
increase. Not addressing these critical infrastructure needs will only 
jeopardize student and staff safety.
    Student Transportation.--We urge Congress to provide $73 million 
for student transportation. Flat funding levels mean that there is no 
mechanism for replacing buses that need replacing, nor any way to keep 
pace with rising fuel costs. Without an increase in funding for student 
transportation, the costs to maintain, repair, and replace buses and 
cover rising fuel costs must be paid out of education program funds.

BIA: Public Safety and Justice
    We support the President's proposal to increase Bureau of Indian 
Affairs (BIA) funding for law enforcement. We also ask Congress to 
increase the Band's base funding by $2 million for court operations and 
law enforcement, and provide a one-time appropriation of $8 million to 
allow us to expand the facility that houses our law enforcement 
department--a facility that is completely inadequate for that purpose.
    We continue to face massive unmet needs for law enforcement. The 
Fond du Lac Band had to assume responsibility for law enforcement after 
the Minnesota Supreme Court ruled that the State lacked jurisdiction to 
enforce traffic laws on roads within Indian reservations, State v. 
Stone, 572 N.W.2d 725 (Minn. 1997). Over the years, we have done this 
using a combination of tribal and available Federal funds and by 
cooperative agreements with local law enforcement agencies. But those 
sources do not meet our needs. We face huge demands on our Law 
Enforcement Department due to the insurgence of methamphetamine, 
alcohol, illegal prescription drug use, and gang-related activities on 
our Reservation. Prescription drug abuse is an epidemic. Increasing 
numbers of our elders and others are the victims of more frequent 
assaults and robberies that are drug related. Our law enforcement 
officers are responding to a growing number of drug overdoses and 
deaths, as well as juvenile offenses involving drugs, alcohol, thefts, 
assaults and burglaries. They also respond to a wide range of other 
matters, including, for example, reports involving domestic disputes, 
disturbances, disorderly conduct, property damage, theft, medical 
emergencies, fire, neglected children, runaways, suicide threats, as 
well as numerous traffic-related matters. In 2011 alone, our Law 
Enforcement Department responded to close to 4,900 incidents and 
requests for assistance.
    To address these problems, we need to increase our law enforcement 
staff so we can ensure effective law enforcement coverage 24/7. This is 
especially important because the Band needs to implement a community 
policing model under which the Band operates neighborhood stations at 
the different community centers within the Reservation. But we do not 
have sufficient funds to hire the number of officers we need. We 
currently employ 13 patrolmen, 1 investigator, 1 school resource 
officer (assigned to the Ojibwe School), a Chief of Police, and 3 
administrative staff. To the extent possible we schedule three officers 
per shift, but we do not have sufficient funds to do this around the 
clock. In fact, to effectively patrol the Reservation we should have 4 
officers working each shift and a second investigator, for a total of 
20 officers. Fewer officers on duty means serious safety issues for 
both officers and the people we need to protect. The large number of 
calls for police assistance also means that we need more than one 
investigator and, with our limited staff we cannot implement proactive 
measures, such as education and outreach programs.
    Federal funding is also vital for law enforcement equipment. We 
have only six vehicles--three patrol cars, and one vehicle each for the 
use of the K-9 officer, investigator and school resource officer. Much 
of the Fond du Lac Reservation is rural, and there are many dirt roads 
as well as minimum maintenance roads. As a result, the vehicles take 
some punishment and, with a patrol area of approximately 136 square 
miles, the mileage covered by each patrol vehicle adds up very quickly. 
Budget limitations make it difficult to repair and replace patrol cars 
in a timely manner.
    In addition to this, the Band has a substantial need for a a new 
facility for our law enforcement department. The Department is still 
housed in a six-room building, which we share with the Band's housing 
program. It has neither room for investigative interviews, nor office 
space for specialty positions such as investigators. The evidence room 
and reception area are all completely inadequate for law enforcement 
purposes and, with the increased number of calls we are receiving, are 
becoming more inadequate each day. A new building with a garage, along 
with a larger evidence room, storage room for record-keeping, and a 
training room for officers, is essential.

BIA: Natural Resources
    We very much appreciate the funding for BIA Natural Resource 
programs that Congress has provided in past years as well as the 
proposed increases for these programs contained in the President's 
fiscal year 2013 budget. Natural resources are vitally important to our 
Tribal members, as they provide the foundation for our culture, meet 
subsistence needs, and provide employment. The Fond du Lac Band's right 
to access natural resources within and outside our Reservation was 
reserved by Treaties with the United States in 1837, 1842, and 1854 and 
reaffirmed by the courts. In connection with these Treaty rights, the 
Band is responsible for managing natural resources and for enforcing 
Band conservation laws that protect those natural resources by 
regulating Tribal members who hunt, fish and gather those resources 
both within and outside the Reservation. Funding is essential for that 
work. Fond du Lac routinely partners with State, Federal, and tribal 
organizations to conduct research and management activities. We request 
that $2 million be added to our base budget for Resource Management 
programs, as funds for this program have not been increased since 1991.
    We urge Congress to at least maintain current funding levels for 
all Federal programs that support the conservation and restoration of 
natural resources. Specifically, we request that Congress fund the U.S. 
Fish and Wildlife Service's State and Tribal Wildlife Grant Program, 
Tribal Historic Preservation Offices, and all BIA programs related to 
natural resources and land management at the levels indicated in the 
President's budget request.
    Additionally, as a member of the Great Lakes Indian Fish & Wildlife 
Commission, the Fond du Lac Band supports the Commission's request for 
BIA funding of $6.367 million and EPA funding of $1.2 million to 
continue its longstanding treaty rights protection and implementation 
program on behalf of its member Tribes.

BIA: Human Services
    We urge Congress not to cut funding for Human Services programs. 
Although some of the cuts are due to administrative streamlining, 
increased funding is needed to address the impact that the 
methamphetamine epidemic has on not only public health and safety, but 
also on child protection, child welfare and foster care services. 
Increased funding for social services and Indian Child Welfare Act 
programs is essential if Tribes are to have any realistic hope of 
protecting Indian children, preventing domestic violence, and fostering 
Indian families.

Indian Health Service
    We fully support the President's proposed increase in funding for 
the Indian Health Service and appreciate the commitment that the 
administration and Congress have made to address the funding needs for 
healthcare in Indian country. The President's proposed increase is 
essential to address the high rates of medical inflation and the 
substantial unmet need for healthcare among Indian people. Indians at 
Fond du Lac, like Indians throughout the Nation, continue to face 
disproportionately higher rates of diabetes and its associated 
complications, than the rest of the population. Heart disease, cancer, 
obesity, chemical dependency and mental health problems are also 
prevalent among our people. While other Federal programs, like Medicare 
and Medicaid, have seen annual increases in funding to address 
inflation, the budget for the IHS has never had comparable increases, 
and, as a result, IHS programs have consistently fallen short of 
meeting the actual needs. All Indian tribes should receive 100 percent 
of the Level of Need Formula (LNF), which is absolutely critical for 
tribes to address the serious and persistent health issues that 
confront our communities. The Band serves approximately 7,129 Indian 
people at our clinics, but the current funding level meets only 42 
percent of our healthcare funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. Additional funding for the Methamphetamine, Suicide 
Prevention Initiative should be made available to tribes and the IHS so 
that this ``new sickness'' can be addressed. Best practices in pharmacy 
inventory and prescription monitoring need to be modeled and replicated 
throughout Indian Country. Related to this is the fact that more and 
more Government agencies are expecting local units of governments, 
including Tribes, to address these problems and the increasing number 
of individuals who become homeless as a result of them, through the 
operation of supportive housing. But Fond du Lac, like most tribes, 
lacks the financial resources to establish new program initiatives, 
like supportive housing, without assistance from the Federal 
Government. We urge Congress to support programs through the IHS or the 
BIA that would fund supportive housing for tribes in every area of the 
country.
    In sum, the needs at Fond du Lac and throughout Indian Country 
remain massive. Congress' support on these funding issues is essential 
to our ability to maintain vitally important programs and improve the 
delivery of services to Band members.
    Miigwech. Thank you.
                                 ______
                                 
 Prepared Statement of the Friends of the Florida Panther Refuge, Inc.

    Chairman Reed, Ranking Member Murkowski and Members of the 
Subcommittee, thank you for the opportunity to offer comments on the 
fiscal year 2013 Interior Appropriations bill. The Friends of the 
Florida Panther Refuge is a nonprofit volunteer organization that works 
to support the 26,400-acre refuge established in southwest Florida to 
protect the critically endangered Florida panther and its habitat.
    Refuge managers at the Florida Panther National Wildlife Refuge are 
challenged by a variety of funding shortfalls to fully carry out 
habitat restoration, invasive species control, prescribed burning, 
baseline and updated inventories, education/interpretation, acquisition 
of outparcels and expansion, law enforcement, as well as technical 
assistance and collaborative efforts across boundaries with private 
land owners. For example, as a result of cuts to the refuge's fire 
budget, several fire technician vacancies have not been filled, which 
significantly limits burning the desired acreage to maintain and 
restore habitat for the Florida panther, its prey and the many other 
species found within its natural community.
    Understanding the difficult economic realities, we respectfully 
request a funding level of $495 million for the Operations and 
Maintenance accounts of the National Wildlife Refuge System for fiscal 
year 2013 that would essentially maintain the Refuge System at a flat 
funding level, given increasing fixed operating costs.
    On behalf of our members and supporters, the Friends of the Florida 
Panther Refuge thanks the Subcommittee for the opportunity to offer 
comments on the fiscal year 2013 Interior Appropriations bill and we 
appreciate your full consideration of the aforementioned funding level.
                                 ______
                                 
      Prepared Statement of the Federal Forest Resource Coalition

    The following testimony is submitted on behalf of the Federal 
Forest Resource Coalition, a 501(c)(6) trade association, representing 
purchasers of Forest Service and BLM timber across the country with 
members in more than 24 States, over 650 member companies representing 
350,000 workers and about $19 billion in payroll.
    The FFRC supports sustainable management of the National Forests 
and Bureau of Land Management lands to produce clean water, enhance 
wildlife habitat, produce forest products including timber and biomass, 
support rural economic development, and to reduce the threats of 
catastrophic wildfires and insect outbreaks. Our members come from 
every link on the forest products value chain, from loggers to 
landowners and from large pulp and paper facilities to forest bioenergy 
plants. Our member companies are frequently located in rural areas, 
which have higher than average unemployment, poverty, and population 
loss compared to their States' averages.
    Many of our member companies rely on the National Forests and BLM 
lands to provide a consistent and sustainable timber supply. Forest 
products companies also represent the lowest cost, and most effective, 
tool for Federal land managers to improve the health of our public 
lands. Increased management and forest products outputs would provide a 
much-needed economic boost to rural America, creating thousands of 
jobs, as well as increasing the pace of forest restoration on our 
public lands, particularly the National Forests. The health of the 
National Forests, the economic health of our member companies, and the 
health of the communities where we live and work, are inextricably 
linked.
    Increasing the Pace of Forest Restoration.--Last month, the 
Secretary of Agriculture announced an initiative to accelerate the pace 
of forest restoration on the National Forests. While we applaud the 
administration for recognizing the urgency of the forest health threat 
on the National Forests, we are concerned that the initiative does not 
go either far, or fast, enough. Some of my member companies have faced 
situations where the Forest Service is proposing management projects 
which either fail to address pressing forest health concerns, like the 
pine beetle epidemic in the Rockies, or which don't go as far as local 
collaborative groups would like to go, such as in the Northeast 
Washington Forest Vision project around the Colville National Forest.
    Even in these extremely challenging wood markets, some FFRC member 
companies have been frustrated by the Forest Service's lack of 
commitment to sell adequate log supplies. The result is idled 
investments, reduced shifts at sawmills, jobs lost to foreign 
competition, and a failure to position the Forest Service to help 
sustain or enhance a value-added, manufacturing industry that can 
capture greater domestic and international market share. Our member 
companies are extremely competitive in the global market, and only need 
a fairly priced raw material to capture more of those markets. The time 
available to capture these opportunities is limited, and we urge you to 
reward the Forest Service's recent initiative by investing in more 
aggressive in management of the National Forests.
    We have worked--and will continue to work--closely with the 
leadership in the Forest Service and USDA to find ways of reducing 
overhead and making the forest products and fuels reductions program 
more efficient. We believe some of the steps taken by the Forest 
Service in their February 2, 2012 report will help achieve these 
efficiencies. However, other authorities, like allowing the Forest 
Service to use designation by description on regular timber sales, much 
as they do on current Stewardship contracts, will help reduce unit 
costs even further.
    Investing in Land Management.--We are very thankful to the 
Subcommittee for including national direction to the Forest Service to 
increase timber outputs from 2.4 billion board feet to 3 billion board 
feet in 2012. We urge the subcommittee to continue raising the bar for 
the agency and set a goal of 3.5 billion board feet for fiscal year 
2013. The current annual harvest from the National Forests represents 
less than 10 percent of annual forest growth, and less than half the 
allowable sale quantity under existing forest plans. In many regions, 
the Forest Service is falling short of its own management goals; 
including in reacting to the pine beetle outbreak in the Rockies and in 
managing aspen habitat in the Lake States. Stepping up management, 
through formal collaboratives where they exist and normal timber 
programs elsewhere, will help address pressing forest health concerns 
while helping bolster employment in rural communities where 
unemployment is frequently near 20 percent and poverty is well above 
state averages. Investing in the Forest Service timber program is a 
very effective job creator, generating 16.5 new direct and indirect 
jobs per million board feet harvested.
    While we appreciate the support for forest management, we urge the 
subcommittee to make new investments in the National Forest Timber 
Management line item this year. This program has not received an 
increase since 2008, and due to inflation it has lost about 5 percent 
of its purchasing power. Further, extraordinarily high overhead rates 
have further eroded the program's effectiveness. To help keep the 
program pointed in the right direction, we urge the subcommittee to 
invest $371 million, an increase of $36 million over the current fiscal 
year to achieve a fiscal year 2013 target of 3.5 billion board feet.
    Forest Roads, Hazardous Fuels Reduction.--It is also urgent that 
the subcommittee restore funding which has been cut since 2010 from the 
Capital Improvement and Maintenance Account, as well as the Wildland 
Hazardous Fuels Reduction program. These two programs are vital to 
maintaining access to the National Forests and in helping to reduce the 
massive, 90 million acre backlog of lands which urgently need hazardous 
fuels reduction. The work cannot be done economically without the 
ability to use the Forest Service road system. We continue to oppose a 
blanket moratorium on new roads, because this arbitrarily restricts the 
agency from implementing needed management, and also prohibits the 
Forest Service from replacing poorly located or damaged roads with new 
roads which are engineered and located properly.
    We appreciate the efforts of the subcommittee to remove the 
arbitrary requirements for hazardous fuels reduction work in the 
Wildland Urban Interface (WUI), but we were troubled that the 
President's budget continues to focus the Forest Service's efforts 
there. A greater percentage of lands in need of fuels reduction are 
outside of the WUI, and mechanical thinning allows the Forest Service 
to take advantage of the wood products infrastructure to reduce 
treatment costs. Extensive Forest Service research shows that 
mechanical thinning (which included removing useable wood fiber) 
followed by prescribed fire is the best approach to significantly 
reduce threats from wildfire and forest pests.
    Reducing NEPA Costs.--The President's Council on Environmental 
Quality issued a memo on increasing the efficiency and effectiveness of 
environmental reviews required by the National Environmental Policy Act 
in December. The Forest Service has told Congress that complying with 
NEPA and other environmental laws costs them $356 million annually, 
which is more than the agency spends on timber management, or Research, 
or State and Private Forestry. Saving even a portion of these expenses 
would free up resources to actually manage forests and reduce the 
threat of wildfire and insect outbreaks. We urge the subcommittee to 
direct the Forest Service and CEQ to take more aggressive steps to 
reduce NEPA costs than the comparison study of two landscape 
restoration projects approved on February 9.
    Timber purchasers across the country report that Forest Service 
personnel frequently conduct exhaustive NEPA analysis, only to propose 
and implement small scale land management projects which do not meet 
the objectives the agency set out to meet. Examples include leaving 
higher than called for stand densities, or dropping entire units from 
proposed sales even though doing so leaves forest stands susceptible to 
insects and mortality. The Forest Service's February 2 report on 
increasing the pace of forest restoration touches on this subject, but 
we believe direction from this subcommittee would help reinforce the 
urgency of directing the resources to management rather than paperwork.
    When National Forests in the Lake States are up to 75 percent 
behind on their management goals for early successional habitat, and 
the National Forests in the Rocky Mountains are falling woefully behind 
in dealing with a massive, 41 million acre and growing pine beetle 
outbreak, finding some way of reducing NEPA costs is urgently needed.
    Land Acquisition.--Considering the fiscal situation facing the 
Nation and the backlog of both forest management and roads and 
facilities maintenance needs on the National Forests, we recommend no 
funding for the National Forest System Land Acquisition line item. It 
makes little sense to increase the size of the National Forest System 
at a time when the agency has a demonstrated backlog in maintenance and 
land management. We recommend that the $59 million recommended by the 
administration be redirected to the land management priorities 
recommended above.
    BLM Forest Management.--The President's fiscal year 2013 budget 
includes a sharp reduction in funding for the BLM Public Domain Forest 
Management Program. The President's budget proposes to reduce BLM PD 
Forest Management funding by nearly 40 percent, which will result in 
reduction of 40 percent of associated FTEs, 50 percent reduction in 
biomass volume, and 80 percent reduction in Stewardship Contracts. This 
would mean the BLM would drop from offering 123 million board feet in 
2012 to offering 19 million board feet, a decline of over 85 percent of 
the public domain timberlands. FFRC supports funding for BLM PD Forest 
Management Program at no less than the fiscal year 2012 level of $9.7 
million. Aggressive action is also needed to offer regeneration 
harvests from the O&C lands in Oregon that meet the needs of local 
mills. This will necessitate funding at or near fiscal year 2011 
levels, coupled with strong direction to the agency to fulfill its 
statutory duty under the O&C Act to produce a sustainable flow of 
timber for local economies.
    Alaska.--The timber industry in Alaska faces several challenges 
stemming from years of controversy over the management of the Tongass 
National Forest. FFRC members depend upon supplies of timber from this 
forest, and have been hard pressed as the Forest Service has placed 
complete restrictions on harvest in roadless areas. Current efforts 
billed as ``restoration'' forestry have instead focused on a particular 
approach to fisheries management and on a transition to harvesting 
second growth timber that will not meet the local industries needs for 
decades. Steps must be taken to offer a timber sale program that 
complies with the National Forest Management Act and can sustain the 
local value added industry in order to save the capacity to manage the 
very small percent of the Tongass that is open to any harvest. Current 
policies of avoiding all litigation risk will surely cause the death of 
the local industry in Southeast Alaska, leaving the region dependent on 
a less diversified, tourism-based economy.
    Forest Health and Forest Restoration.--2011 demonstrated that the 
poor health of our National Forests and other Federal Forests impacts 
everyone, from the industries that depend on useable wood fiber to 
casual weekend visitors to the Forests. The large fires in Arizona and 
New Mexico last year forced the closures of popular campgrounds, 
destroyed dozens of recreational cabins, and forced cancellations of 
Fourth of July events at popular mountain resorts. Many miles of forest 
roads and several campgrounds in Arizona remain closed. The large scale 
beetle infestation in the Black Hills has forced local campground 
owners to spend more than $100,000 annually to remove beetle killed 
trees and spray others in an effort to stop beetles from spreading off 
of the National Forests. The Pagami Creek fire in Minnesota disrupted 
popular hiking and canoeing areas in an around the Boundary Waters 
Canoe Area. Campers, hikers, hunters, and skiers all want to visit 
healthy, green, and growing forests.
    In each of these cases, wood using industries, from start-up 
biomass plants to family run sawmills to internationally competitive 
pulp and paper facilities, stand ready to help the Forest Service and 
BLM to actively manage the public lands they oversee. Opportunities to 
expand this management, and the benefits that come from it, abound 
nationwide. We thank you for your support for our efforts to manage 
these lands and help our rural communities in the process.
                                 ______
                                 
 Prepared Statement of the Friends of the National Wildlife Refuges of 
                              Rhode Island

    On behalf of the 150 members of the Friends of the National 
Wildlife Refuge of Rhode Island as well as our hundreds of volunteers 
I, as Chairman of the Friends, write urging you to provide $495 million 
of funding for the refuge system in the fiscal year 2013 budget.

Background on Rhode Island Friends Group
    In Rhode Island there are five national wildlife refuges 
encompassing over 2,000 acres which present visitors with very 
different experiences ranging from the woodlands of the Ninigret NWP 
located in Charlestown to a more coastal experience at Sachuest Point 
NWR in Middletown, just north of Newport. Trustom Pond NWR in South 
Kingstown is unique in that it encompasses a coastal pond, the only one 
in our State totally free of shoreline development. The Friends group 
serves all three of these refuges as well as the Block Island NWR and 
John Chafee at Pettaquamscutt Cove NWR. Each refuge has its own unique 
characteristics. Staffing due to the budget constraints has been an 
issue and the Kettle Pond (Ninigret) Visitors Center and Sachuest Point 
Visitors Center as well as the Trustom Pond Contact Station are only 
open on a daily basis due to our dedicated volunteers. Last year over 
17,000 volunteer hours were recorded helping out at these locations as 
well as doing other maintenance and other tasks on the refuges.

Budget Request for Operations and Maintenance
    We request that the Committee provide $495 million in fiscal year 
2013 for Refuge System Operations and Maintenance which is about the 
same level as provided in fiscal year 2012. Refuges need more than that 
but given the current economic and fiscal situation, it is unrealistic 
to expect the significant additions needed to properly maintain the 
refuges and staffing and management capabilities. The Cooperative 
Alliance for Refuge Enhancement estimates that the Refuge System needs 
at least $900 million in annual funding to properly administer its 150 
million acres and remains committed to aiming for this goal.
    The Refuges are vital places for wildlife--ours are all along the 
Atlantic Flyway and provide resting and nesting places for over 80 bird 
species as well as other wildlife. The Refuges are also places for the 
American people to connect with nature and get involved. Currently, 
refuge Friends and volunteers do approximately 20 percent of all work 
on refuges. In 2011, these 1.5 million hours equated to roughly eight 
volunteers for every one Refuge System employee. Without staff to 
oversee volunteers, their commitment and passion is lost, as is their 
desperately needed contribution to the System. We request $80 million 
for Visitors Services for the NWRS.

Land and Water Conservation Fund
    We also request that the Congress fund the Land and Water 
Conservation Fund (LWCF) at $700 million. This Fund, which was created 
in 1965 and authorized at $900 million per year (more than $3 billion 
in today's dollars), is our most important land and easement 
acquisition tool. With more than 8 million acres still unprotected 
within existing refuge boundaries, and the need to establish key 
wildlife corridors and connections between protected areas, the LWCF is 
more important than ever. Here in Rhode Island there are opportunities 
to acquire land adjoining existing refuges to further protect the land 
and wildlife. Land prices are now at levels not seen in years and the 
opportunities to acquire may never happen again so it is urged that the 
LWCF be funded. We also request that the Congress support the new 
Collaborative Conservation requests of the Departments of the Interior 
and Agriculture, bringing together several Federal agencies around a 
common goal.
    Thank you,
                                 ______
                                 
     Prepared Statement of the Friends of the Potomac River Refuges

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
Friends of the Potomac River Refuges and its 136 members, we would like 
to thank the committee for their strong support of the National 
Wildlife Refuge System and for giving us the opportunity to submit 
testimony. We are a nonprofit volunteer organization whose purpose is 
to promote conservation, awareness, and appreciation of the wildlife 
and habitats of the Potomac River National Wildlife Refuge Complex and 
to provide assistance to Refuge programs. We urge you to show your 
continued support of the National Wildlife Refuge System by approving 
the President's fiscal year 2013 budget request of $495 million for the 
operations and maintenance of the world's premier system of public 
lands and water set aside to conserve America's fish, wildlife, and 
plants. This level of funding will maintain existing management 
capabilities.

Potomac River National Wildlife Refuge Complex
    The refuges that comprise the Potomac River National Wildlife 
Refuge (NWR) Complex are approximately 25 miles from Capitol Hill in 
northern Virginia. They border the Occoquan River as it meets the 
Potomac River. The complex is made up of three refuges: Elizabeth 
Hartwell Mason Neck NWR, Occoquan Bay NWR, and Featherstone NWR.
    Elizabeth Hartwell Mason Neck NWR is in Fairfax County, Virginia 
and is the oldest and largest refuge within the Complex containing 
2,277 acres. Residents of the Mason Neck Peninsula saw the need to 
preserve bald eagle habitat and worked with Fish and Wildlife Service 
to create the first national wildlife refuge specifically created for 
the protection of bald eagles. The newest refuge in the complex is 
Occoquan Bay NWR, which was 640 acres of military surplus lands, that 
now provides essential habitat for over 200 species of birds and has 
been designated by Audubon as an Important Bird Area. The smallest 
refuge in the complex is Featherstone NWR containing 325 acres of marsh 
and riverine habitat important to both waterfowl and eagles.
    In addition to providing critical habitat for wildlife in an urban 
environment the refuges are places where residents and visitors can 
enjoy nature and experience the diversity of plants and animals. 
Visitors enjoy birding, photography, hiking, hunting, and even biking 
and kayaking. Students, whether from surrounding school districts or 
those schooled at home, come to the refuges to observe environmental 
concepts and gain an appreciation for environmental stewardship. Many a 
scouting merit badge has been earned learning about wildlife and 
volunteering on a refuge.

Current Challenges and Needs
    Even though there were meaningful funding increases to the National 
Wildlife Refuge System in fiscal years 2008-2010 the Potomac River 
Refuges still struggle with the impacts of budget cuts in fiscal year 
2006. At that time the staff was reduced from eight to six full-time 
employees.
    Effects of Fiscal Year 2006 Cuts.--As a result of those budget cuts 
two positions were eliminated and have not been replaced. Biological 
programs have been generally suspended and maintenance has been 
curtailed. Research and investigation on the refuge by graduate and 
local universities have mostly been eliminated since there is no staff 
available to oversee the programs. Some habitat management is 
continuing, however monitoring of the treatments and management actions 
are not being conducted.
    Maintenance of the 6 miles of trails, 9 miles of roads, and other 
facilities has been reduced and delayed. When storm events wash debris 
or drop trees across trails or roads they may remain obstructed for 
weeks reducing the public's access to the refuge. Maintenance that is 
deferred continues to be added to the Refuge System's $2.5 billion 
deferred maintenance backlog.
    Law Enforcement.--The presence of a law enforcement officer has 
improved safety. Prior to his arrival the refuges were plagued with 
prostitution, homeless camps, poaching, drugs, gangs, and illegal 
trespass. These refuges are in an urban area and so they will never be 
crime free, but the presence of law enforcement has greatly reduced 
illegal activities and improved safety for visitors and wildlife. The 
International Association of Chiefs of Police did an analysis of the 
Refuge System's law enforcements needs in 2005. The Association 
recommended a force of 845 full-time officers yet the Refuge System 
only has 246 officers to protect resources and visitors on the 150 
million acre System. We ask that you budget $39 million for Refuge Law 
Enforcement.
    Visitor Services.--While over 1.8 million people live within 20 
miles of these refuges in the Washington Metropolitan Area, services 
for potential visitors are very limited. The refuges lack the 
facilities to greet and orient visitors. For years the Potomac River 
Refuges have been on the Service's short list for a visitor/
administration building, yet nothing has happened. The Refuge System 
has almost $1 billion worth of construction needs. Staff is currently 
housed in an office park miles away from the refuges. Without 
facilities and staffing the Service is only able to reach approximately 
1 percent of the surrounding population. Visitor enhancements will 
provide greater efficiencies and economic impacts. Refuges that offer a 
board range of programs generate more visits, create more jobs, and 
provide more income to the local communities.
    Volunteer Programs.--Refuges need the staffing and facilities to 
draw visitors in, entice them to volunteer, and become stewards of the 
refuge and their communities. Friends groups and other volunteers 
contribute nearly 20 percent of all the work hours on refuges. At 
Potomac, volunteers are picking up trash, mowing, presenting 
interpretive programs, organizing festivals, and assisting staff. Could 
we do more? Yes, but there are obstacles that prevent volunteer 
programs from reaching their full potential. Without staff to oversee 
and interact with volunteers, projects are not done and volunteer 
retention is difficult. The National Wildlife Refuge System needs to 
invest $80 million in Visitor Services in order to capitalize on the 
opportunities to involve the public in fulfilling its mission.
    Challenge Cost Share Program.--The Challenge Cost Share program has 
allowed our Friends organization to leverage our time and funds to help 
our local refuges complete small-scale projects. We, along with other 
partners, have constructed overlooks and sun shelters, created 
interpretive signs, hosted festivals, equipped environmental education 
programs, and removed invasive species. In 2011 the cost share program 
was shelved while reforms could be made. We ask that you re-establish 
the Challenge Cost Share program and provide $3.6 million in funding.

The Tale of Two Refuges
            Sequestration
    The Friends of the Potomac River are very concerned about the 
devastating impact across-the-board sequestration cuts of 9-10 percent 
in fiscal year 2013 will have on our refuges and the entire Refuge 
System. If sequestration occurs refuge management estimates there will 
just enough funds to pay salaries and utilities. The impacts will 
affect wildlife and visitors.
    Impacts on Wildlife.--Managing the habitat will be staff's first 
goal, however management will not be as effective. The deer population, 
which is managed through hunts, will explode. The increased browsing of 
the forest floor reduces biodiversity and decreases forest 
regeneration. This will affect creatures from chipmunks to the bald 
eagles. Invasive animal and plant species will consume native species 
and acres of habitat. The Northern Snakehead and other non-native 
species will have more opportunity to consume and displace native 
species. Mason Neck NWR has the largest blue heron colony in the Mid-
Atlantic. Mile-A-Minute, a very aggressive herbaceous plant, has been 
found there and left unchecked it could smother trees that the rookery 
depends upon. The grasslands at Occoquan Bay NWR must be burn or mowed 
for nesting grassland birds. The burn program was eliminated with the 
loss of the biologist, and now the mowing program is in jeopardy.
    Impact on Visitors.--If sequestration goes into effect all refuge 
led visitor service programs will be eliminated. The part-time visitor 
service intern will be released. There will be no ranger led programs, 
youth fishing events, festivals at Mason Neck NWR, or scouting 
programs. The Fall Festival that the Friends organize will be suspended 
because the entire staff is involved the event and there will be no 
overtime funds to pay them.
    Access to the refuges will be reduced. Trails and roads that are 
obstructed by storm events will be closed. There will be no extended 
hours during the summer or weekends. Regular trail and road maintenance 
will be deferred. Vaulted toilets will be cleaned every few weeks 
instead of weekly and portable toilets will be closed.
    Friends and other volunteers will not be able to compensate for all 
of these loses. To assist with managing the habitat, volunteers need 
oversight and training, but there will be no funds to pay for the 
training. The Friends organization is willing to expand our 
interpretive programs; the challenge will be access, safety, and the 
quality of wildlife viewing.
            Opportunities to Embrace
    The Potomac River Refuges are the epitome of an urban wildlife 
refuges. Residential and industrial developments border the refuges. 
The surrounding land uses create additional stresses for the refuges 
such as stormwater runoff, illegal trespass, and invasive species. But 
the surrounding communities provide these refuges and the entire Refuge 
System with the exceptional opportunity to engage the public and 
increase their awareness of the National Wildlife Refuge System and its 
role in conservation.
    In 2011 the National Wildlife Refuge System created a vision to 
guide the management of the System during the next decade and beyond. 
The new vision seeks to make wildlife conservation more relevant to the 
public and engage them in the National Wildlife Refuge System. With 80 
percent of Americans now living in urban or suburban areas the System 
is placing special emphasize on helping urban America connect with and 
understand the benefits of its wildlife heritage.
    What better place to engage the American people than at the Potomac 
River Refuges? Increasingly the population has become more racially and 
ethnically diverse; in Prince William County less than half of the 
population is reported as non-Hispanic and of one race. These refuges 
have the potential of embracing all Americans and sharing with them our 
wildlife heritage.

In Summary
    Wildlife Refuges matter to your constituents. Last fall, on a cold 
rainy day, we hosted a festival on Occoquan Bay NWR. A young mother and 
her four children came and all of them looked unprepared for the 
weather. The oldest boy gave me a dollar saying, ``My mother wants you 
to have this.'' The family was living in homeless shelter, but that did 
not stop this wonderful woman from showing her appreciation for the 
natural heritage we all share and demonstrating to her child how 
important it is to support it. I hope all of us will follow her 
example.
    Our members realize that our country is facing difficult economic 
times and we must all share in the challenges of the recovery. We thank 
you for the meaningful funding increases allowed the System in fiscal 
year 2008-2010 that provided stability to our refuges. We respectfully 
ask you to support the following funding allocations for the National 
Wildlife Refuge System that will allow the System to maintain existing 
management capabilities:
  --$495 million for the operations and maintenance accounts of the 
        National Wildlife Refuge System including:
    --$39 million for Refuge Law Enforcement;
    --$80 million for Visitor's Services;
    --$3.8 million for Challenge Cost Share; and
  --$37 million for the Fish and Wildlife Service construction account.
                                 ______
                                 
         Prepared Statement of Friends of the Refuge Headwaters

    Chair and Members of the Subcommittee: On behalf of the Friends of 
the Refuge Headwaters (FORH), I am writing regarding the fiscal year 
2013 Interior appropriations bill and the impact this bill will have on 
the Refuge we support: the Upper Mississippi River National Wildlife 
and Fish Refuge (Upper Miss Refuge). We are very proud to be part of 
the National Wildlife Refuge System and ask that you support the 
President's funding proposals for programs in the NWRS and the U.S. 
Fish and Wildlife Service (FWS).
    Below I will begin by briefly describing FORH, the Upper Miss 
Refuge, and use of the Refuge by 3.7 million visitors per year. With 
respect to the Upper Miss Refuge in particular, I will explain the 
importance of the following allocations:
  --$495 million for Operations and Maintenance (O&M) of the NWRS. This 
        includes $80 million for Visitor's Services, and $39 million 
        for Refuge Law Enforcement;
  --$700 million for the Land and Water Conservation Fund (LWCF). This 
        includes $150 million for the NWRS.
  --$3.8 million in fiscal year 2013 for Challenge Cost Share (CCS).
    The Refuge System has endured significant cuts during the last 2 
fiscal years, the cuts reduced an already austere budget, and they have 
negatively impacted the people who use the Upper Miss Refuge and who 
deeply care about it, as well as the wildlife that is the reason for 
the Refuge's existence. I will illustrate this to you below, and show 
how additional cuts will have harmful consequences out of proportion to 
any money saved by carrying them out. Finally, I will describe how 
deeply people care about the Upper Miss Refuge and their commitment to 
paying for its proper management.

The Friends of the Refuge Headwaters (FORH)
    FORH is an all-volunteer group that began in 1997. Our mission is 
to support the Refuge's goals of sustaining diverse and abundant 
wildlife as well as providing compatible recreation, education, and 
interpretation to the public. Our current activities include sponsoring 
public outings for fishing, birding, canoeing, planting trees, removing 
invasive species, surveying Refuge users, holding public events with 
expert speakers, monthly meetings, and advertising and communicating 
through print, electronic, and social media. We also seek and write 
grants to aid the Refuge and these grants often require challenge cost 
shares at rates of 10-20 percent. That is why it is so important to 
provide sufficient funding for challenge cost shares in the 2012 
budget: these dollars will then be multiplied 5-10 times.

The Upper Mississippi River National Wildlife and Fish Refuge
    The Refuge winds through 261 miles of the Upper Mississippi River 
across four States: Minnesota, Wisconsin, Iowa, and Illinois. It 
comprises 240,000 acres of bottomland forests, wooded islands, marshes, 
backwaters, and upland prairies. It has more than 300 species of birds, 
more than 100 species of fish, and more than 50 species of mammals, as 
well as 250 bald eagle nests and 5,000 heron and egret nests. The 
Refuge is part of one of the four major waterfowl migration flyways in 
the United States, where birds must find reliable food, water, and 
resting places: during fall migration you can find hundreds of 
thousands of waterfowl using the Refuge on a single day.
    But the Upper Miss Refuge is not just for wildlife. It's also a 
paradise for people. Minnesota is known as the land of 10,000 lakes and 
there are just as many lakes in Wisconsin, but not the part of 
Minnesota and Wisconsin where I live. We live in the land of the land 
of the Mississippi River, and thankfully, the land of the Upper 
Mississippi National Wildlife and Fish Refuge.

Public Use of the Upper Miss Refuge
    So I will now describe for you how much people use this Refuge and 
how deeply they care about it. That's not hard for me to do, because 
I'm one of them. I'm out on the Refuge a lot and for many reasons. I 
fish year-round, from my boat, shore, or ice, and in the fall I hunt on 
the Refuge. You'll find my wife and I on backwaters or pools in our 
canoe or kayaks, sometimes with friends, exploring and observing 
wildlife. We take walks through the bottomland forest or upland 
prairie, on trails, on ice-covered channels in the winter, or on 
levees. We walk or drive to observation platforms to watch birds. We 
often join with friends to take one or more boats to an island shore 
for a picnic. On a warm summer day we may swim at the riverside bathing 
beach directly across the river from Winona.
    People like us make 3.7 million visits per year to the Refuge to 
hunt, fish, watch wildlife, boat, canoe, camp, or just walk. That's 
because the Refuge is not put away behind a fence or distant from the 
cities that dot the river. It's our backyard. That's why it's so 
heavily used by families, schools, colleges, youth groups such as Boy 
Scouts and Girl Scouts, and many others. If you drive through my town--
Winona, Minnesota--or through other towns and cities along the river, 
you'll see boats on trailers parked in side-yards, driveways, and often 
on the street. They're fishing boats with rod holders and trolling 
motors, pleasure boats with picnic and swimming gear, or hunting boats 
painted camo and surrounded by a cattail fence, or airboats used by 
trappers. Inside our garages, in the backyard, or on the side of the 
house you'll find canoes and kayaks.
    Any week of the year that you go out into the Refuge, you'll find 
people: a couple of dozen anglers in boats and on shore at a pool below 
a dam (the Refuge receives more than 1 million visits annually for 
fishing), a group of boats pulled up on the sandy beach of an island to 
swim and picnic on a summer day (more than 1.3 million visits for such 
activities), bunches of duck hunters heading out from landings on a 
fall morning (300,000 waterfowl hunters), or birdwatchers lining the 
sides of an observation platform (300,000 visit to observe wildlife or 
for education). And they're not just in the easy-to-reach places. 
You've canoed far back into a remote maze of islands, pulled your ice-
fishing sled as far down a channel as you can stand, or stalked through 
the forest with your gun until you may be lost. And you think you're 
alone. Around the corner comes another person, maybe doing the same 
thing you are, but just as likely there for another reason. But they 
wouldn't be there if the Refuge was not.

The Austerity in which the Upper Miss Refuge Operates
    The Refuge is understaffed for many positions and has been for 
years. For example, four law enforcement officers patrol 261 miles of 
river and 240,000 acres over four States with over 3.7 million 
visitors. That is an impossible task. Not only is that level of 
enforcement inadequate for the safety and protection of visitors and 
wildlife, but it is a threat to the officers themselves. The officers 
patrol alone and are often far from other enforcement agencies. Imagine 
how it feels to cruise toward an isolated island beach at night to 
confront 100 intoxicated people--and you're alone. For another example, 
two Rangers and four Visitor Services Coordinators plan and carry out 
activities with thousands of visitors and must often simply say no to 
requests for programs from schools, youth groups, and many others.
    Other key positions are simply vacant. The Refuge has 51,000 acres 
of floodplain forest but no Forester, getting guidance instead from the 
Corps of Engineers Forester. Yet those same forests are declining due 
to invasive insects, plants, and trees such the Emerald Ash Tree Borer 
beetle, Buckthorn shrub, Oriental Bittersweet vine, and Black Locust 
tree. There is likewise no Fisheries Biologist, a position that 
provides a crucial link to States. Thus the Refuge has little or no say 
in fish management, fishing tournaments, commercial fishing, fishing 
seasons, fishing methods, or even catch limits, though fishing is an 
extremely popular activity on the Refuge and has large impacts on it. 
Even in the face of an advancing threat like Asian Carp, which have 
caused severe harm to fish populations and injuries to boaters, the 
Refuge can do little. In addition, there is no Private Lands Biologist 
to reach out to adjacent private landowners and help them restore fish 
and wildlife habitat on their lands through both FWS and USDA programs.
    In other cases lack of funding means the Refuge cannot carry out 
its obligations. Currently the Refuge has authorized $2.25 million for 
land acquisition through the LWCF and has land acquisitions waiting for 
either appraisals, signed purchase agreements, or final closing to 
fulfill its obligations for these funds. In sum, the Refuge cannot 
carry out its own goals and this underscores the need to increase the 
Operations and Maintenance Budget.

Consequences of the Fiscal Year 2011-2012 Budget Cuts for the Upper 
        Miss Refuge
    The fiscal year 2011 and 2012 cuts have had many negative 
consequences, but I will mention just two. First, the Refuge has 
reduced the number of people it hired seasonally, most of whom are 
young people taking part in the Student Temporary Experience Program 
(STEP). As a result, high school and college students lost an important 
path for gaining direct on-the-job experience. Second, the Refuge has 
reduced its outreach programs for the general public at weekend and 
evening events, most often within the communities adjacent to the 
Refuge. Not only does this mean less education, interpretation, and 
recreation for children and adults, but it also means fewer volunteer 
opportunities on the Refuge, fewer contacts between Refuge staff and 
volunteers and local citizens and leaders, and a decrease in tourists 
who support local economies.

Consequences of a 10 Percent Budget Reduction for the Upper Miss Refuge
    The Refuge is understaffed and absorbed cuts in fiscal year 2011 
and 2012. To carry out a further cut of 10 percent, the Refuge would 
eliminate special hunts for the disabled, youth, and others requiring 
special accommodations. All weekend environmental education and 
interpretation programs would be eliminated. Visitor centers would not 
provide weekend or evening hours for the public. In addition, there 
would be reductions in environmental education programs for schools, 
weekend outreach/interpretation programs regarding fish and wildlife 
and other refuge programs, restoration projects with State and other 
Federal agencies, oversight of trust species (bald eagle, endangered 
species), and law enforcement including search and rescue operations, 
drug enforcement and accident investigations, hunting and fishing 
contacts, refuge trespassing, and habitat destruction. Clearly, these 
actions will have harmful consequences for wildlife and for the people 
who use the Refuge, and they can be avoided.

Economic Benefits of the Upper Miss Refuge
    The authors of an economic study that is now 8 years old \1\ found 
that the Refuge generated over $19 million annually in expenditures and 
economic value, $98 million in economic output, 1,266 jobs with an 
income of $21.4 million, and Federal, State and local taxes of $10.4 
million. Given the importance of Refuge to the economies in four States 
and in the lives of the several million people who use it, the budgets 
for the two refuges is remarkably small. So funding of the Refuge has 
huge leverage. That's one of the reasons why reducing the budget will 
have such large negative consequences and increasing the budget would 
have similarly large positive consequences.
---------------------------------------------------------------------------
    \1\ Caudill, J. 2004a. The Economic Effects of the Upper 
Mississippi River National Wildlife and Fish Refuge: Baseline and 
Effects of Alternatives. U.S. Fish and Wildlife Service, Arlington, 
Virginia. 32 pp.
---------------------------------------------------------------------------
Public Commitment to the Upper Miss Refuge
    The people who use it have strong feelings about the Upper Miss 
Refuge. We truly care, because it's a big part of our lives. That 
Refuge is part of our regional heritage, just as the National Wildlife 
Refuge System is part of our national heritage. We also have strong 
expectations for it. We want it taken care of so that it's there not 
just for us, but also for our children and grandchildren and beyond. 
When people in this region learned last month that all three species of 
Asian carp had been caught in the river in one day by commercial 
fishermen, we were scared, depressed, and to be honest, angry. Because 
those fish threaten the Refuge that we care about so much, we saw that 
threat coming years ago, and there was a failure to address it.
    We're also willing to pay for management of the Refuge. In 2008, by 
statewide referendum, Minnesotans voted by a large margin to increase 
our sales tax by three-eighths of 1 percent for three decades. 80 
percent of the new revenues are dedicated to protecting, restoring, and 
improving wildlife habitat, surface waters and ground water, and parks 
and trails. Iowans passed a similar amendment in 2010, but are waiting 
on their Legislature to put their wishes into action. I'm confident the 
voters of Wisconsin would do the same if they had the opportunity, as 
would the voters of many other States. We Americans care deeply about 
our lands, waters, and wildlife. Doing so is a proud part of our 
history, as evidenced by more than a century of commitment to our 
National Wildlife Refuge System. We ask that you carry on this 
tradition.
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils

    The Federation of State Humanities Councils respectfully requests 
that the Senate Appropriations Subcommittee on the Interior allocate 
$154.255 million for the National Endowment for the Humanities and $44 
million for the State humanities councils for fiscal year 2013.
    As full partners of the NEH, councils receive their core funding 
through the Federal/State Partnership line of the NEH budget and use 
that funding to leverage additional funds from foundations, 
corporations, private individuals, and State governments. In 2011, 
every Federal dollar the councils awarded through grants to local 
institutions leveraged, on average, $5 in local contributions. Councils 
further extend their resources by forming programming partnerships with 
organizations and institutions throughout their States.
    We are requesting a funding increase for fiscal year 2013 for the 
work of the council because cuts over the past 2 years have had serious 
consequences for the communities and institutions the councils serve. A 
recent survey by the Federation of State Humanities Councils revealed 
that councils have had to shrink their grants programs significantly, 
even though requests for council funding have increased due to the 
troubled economy. These reductions in turn have led to fewer dollars 
leveraged and therefore even less funding for local organizations and 
communities.
    Our communities and our Nation as a whole will benefit from 
increased funding to the State councils, in part because State 
humanities council programs serve critical needs. Dozens of councils, 
for example, support family literacy programs, which make a significant 
difference in the lives of participants--low-income families, immigrant 
families, or simply families that need help to engage with words and 
ideas. Thousands of families have benefited from the Prime Time 
program, developed by the Louisiana Endowment for the Humanities and 
now active in a dozen other States throughout the Nation. In 2011, the 
Nebraska Humanities Council's Prime Time program reached 325 families 
in six communities. More than 1,800 free books were distributed through 
the program, and 100 new library cards were issued. Of the 
participating families, 89 percent said that as a result of the program 
they now spend more time reading as a family. Connecticut's Family Read 
program, operating primarily in the State's urban areas, fosters a 
culture of literacy in many public schools and community-based agencies 
where it is most needed, helping to address an achievement gap that is 
among the largest in the Nation.
    Council programs also serve other critical needs. The Literature 
and Medicine program, created by the Maine Humanities Council and now 
offered by 26 other councils, improves patient care and enables 
overtaxed medical personnel to find the renewed energy and inspiration 
to continue in the profession. By expanding into VA hospitals, the 
program provides invaluable resources for caregivers of returning 
veterans. The Missouri council has gone directly to the veterans 
themselves with a program that offers creative writing workshops and 
mentoring for veterans.
    Thirty-one organizations in the State of New York can attest that 
councils serve critical needs. After Hurricanes Irene and Lee hit last 
year, the New York Council for the Humanities swiftly distributed funds 
from an NEH Chairman's Discretionary Grant to provide relief to small 
cultural organizations in the affected area, prompting one museum 
director to observe, ``The council's response reflects an understanding 
of how best to serve the urgent needs of cultural institutions.''
    Council funding ensures that humanities programming is widely 
available to the general public. Councils reached 5,700 communities 
across the Nation in 2011, including rural towns, suburban communities, 
and urban neighborhoods. Councils supported programs in every 
congressional district and served hundreds of thousands of students, 
teachers, healthcare professionals, seniors, veterans, and many more.
    Council programs help communities and institutions not adequately 
served through other means. In rural communities, council programs are 
often the only cultural resources available. For more than 25 years the 
Idaho Humanities Council has offered the ``Let's Talk About It'' 
reading and discussion program, which now totals 75 scholar-led 
programs annually and is especially popular with small libraries 
lacking the resources to plan and seek funds for their own programs. 
The program's outreach to small communities is so powerful that it 
attracted the attention of a corporate sponsor that has provided about 
one-third of the program's cost for the past decade. ``Montana 
Conversations'' provides up to 200 programs annually for communities 
with populations of 2,000 or less. The South Dakota council reports 
that in their sparsely populated State, ``libraries, cultural centers, 
and museums often serve entire communities that stretch for miles, and 
these are the very institutions in need of the programming support that 
the South Dakota council can provide.''
    But it is not just rural States that face these issues. In 
California, where libraries have had to cut many services, the council 
joined forces with the California Center for the Book to create 
California Reads, a reading and discussion program. The council awarded 
more than $400,000 to 52 library jurisdictions serving 65 percent of 
the State. The project not only encouraged civic conversation 
throughout the State, but also offered a much-needed boost to 
libraries. In State after State, where cuts in State budgets are slowly 
starving both Government and private institutions, councils have been 
compelled to step in and try to help fill the gap.
    Council programs also serve communities whose stories and issues 
have too long been overlooked. The Oklahoma Humanities Council 
supported ``Carry the Fire,'' a Native Humanities forum hosted by the 
Chickasaw Nation Division of Arts and Humanities to create a dialogue 
among tribal members, students, and the general public. The Forum 
explored issues important to the tribal community but unknown to many 
members of the public, such as comparisons of indigenous humanities to 
the humanities in general, the importance of the study of the 
humanities to Native people and others, and indigenous thinking and 
learning styles.
    In Wyoming, the council has made a special effort to engage those 
who have been left out of the mainstream conversations. Last summer the 
council launched the dialogue series ``Government, God, Google, and 
Guns'' as part of the broader program, ``Civility Matters,'' which 
involved sending a traveling tent to summer festivals and interviewing 
Wyomingites on civility issues. They learned that civility also 
includes listening to all voices in a democracy, so this year the 
council launched ``Giving Voice,'' a program that will reach out to 
youth, individuals and families below the poverty line, and those 
struggling with mental health.
    Council programs improve the quality of K-12 education. One of the 
many casualties of the poor economy has been State support for the 
educational structure. Councils have significantly lessened the impact 
of cuts on teachers and students. The Teacher Enrichment Program in 
Texas addresses the dual, interconnected problems of teacher training 
and teacher retention. Heeding studies that suggest that many teachers 
abandoned the profession in part because they felt ill prepared to 
teach their subjects, and recognizing the high cost of teacher 
turnover, the council created teacher institutes designed to provide 
intensive, deep-content enrichment using top-quality faculty. The 
council pays particular attention to early-career teachers working in 
low-performing schools--another example of councils stepping in where 
the need is greatest and no one else is providing help.
    Many councils offer teacher institutes, providing what is typically 
the only professional development in the humanities offered in their 
States. But councils also improve K-12 education in other ways. Several 
councils sponsor National History Day, which was recently awarded a 
National Humanities Medal by the President. The Maryland Humanities 
Council, for example, has been the State affiliate of National History 
Day since 1999, involving more than 18,400 students in 18 jurisdictions 
in 2011. The skills that students develop through Maryland History Day 
have been shown not only to strengthen students' performance in other 
subject areas, including reading, math, and science, but also to 
prepare students for college and their future careers.
    Council programs contribute to the civic health of their 
communities. Using texts and discussion techniques steeped in the 
humanities, councils allow community members to engage in dialogue with 
each other about both local and global problems. From Maryland to 
Indiana to Nebraska to Washington, councils bring a humanities 
perspective to discussions of community problems that allow for 
respectful airing of diverse viewpoints and movement toward possible 
solutions. Councils also engage citizens in the civic life of their 
communities by supporting thousands of reading and discussion groups. 
The Vermont Humanities Council's ``Vermont Reads'' program, now in its 
10th year, has enabled thousands of Vermonters to explore themes and 
ideas generated through the shared experience of reading. This 
intergenerational program, which draws on the expertise of teachers, 
librarians, and community leaders, not only is a catalyst for 
meaningful discussion of important themes but also it has a lasting 
impact on how children and adults understand ``community'' and how they 
experience reading as a lifelong activity.
    Councils extend resources through partnerships. Councils worked 
with an estimated 9,800 organizations in 2011. These included museums, 
libraries, schools, universities, senior centers, veterans' hospitals, 
churches, social service agencies, corporations and local businesses, 
chambers of commerce, State tourism offices, radio and television 
stations, and many more.
    Councils also fostered lasting partnerships among the groups with 
whom they worked. The Minnesota Humanities Center's traveling exhibit, 
``Why Treaties Matter,'' which explores relationships between Dakota 
and Ojibwe Indian Nations and the U.S. Government, demonstrates 
collaboration in many directions. The council developed the exhibit in 
consultation with the Minnesota Indian Affairs Council and the National 
Museum of the American Indian, and they have worked with dozens of 
agencies in Minnesota to create programming around this important 
topic. One host institution said that ``Partnering with the Minnesota 
Humanities Center on `Why Treaties Matter' isn't just about putting an 
exhibit up for a month. It's about working with local organizations to 
increase our capacity to engage audiences and provide multiple 
interpretive experiences and opportunities. Getting the exhibit is 
great, but it's this interaction and education that continues to shape 
our institutions well after the month is over.''
    And finally, funding allocated to councils makes good economic 
sense. Councils protect local economies through their support for 
struggling organizations that have seen other funding sources decline 
or disappear. In addition, every Federal dollar awarded by councils 
leverages, on average, more than $5 for programs carried out by local 
organizations. Even when grants are modest, council support has helped 
small organizations save programs, staff positions, and even 
organizations themselves.
    Council funding and programming yield other economic benefits. The 
many council-sponsored book festivals that take place throughout the 
country are an undeniable economic boon for their host cities. The 
annual Virginia Festival of the Book, created nearly two decades ago by 
the Virginia Foundation for the Humanities, has seen increases in 
audience, partners, participating authors, and programs each year. The 
Director of Economic Development of the City of Charlottesville 
estimates the economic impact of the Festival at more than $1 million.
    The Museum on Main Street tours, conducted through a partnership 
with the Smithsonian Institution Traveling Exhibition Service, enliven 
small-town economies by attracting audiences to the exhibits and 
accompanying programs that are sometimes larger than the populations of 
the towns themselves. Councils also provide support for cultural 
heritage tourism efforts to draw additional visitors--and their 
dollars--to local economies. Last year the Rhode Island Council for the 
Humanities provided a grant to the Rhode Island Marine Archaeology 
Project (RIMAP) for ``Rhode Island in the Revolution: A Heritage 
Tourism Project,'' which expanded existing knowledge of the State's 
Revolutionary War history by creating four heritage trails. The council 
has continued its work with RIMAP to expand its reach and impact, with 
plans to add digital applications to allow them to market their tours 
to the public and to Rhode Island schools.
    The State humanities councils invigorate their State's cultural 
institutions, K-12 education, civic health, and local economies. By 
partnering with over 9,800 local organizations, the councils achieve a 
five-fold return on their Federal funding. The councils ensure that 
this Federal investment benefits the public as a whole--citizens in 
every congressional district and 5,700 communities in 2011. In ways 
both intangible and concrete, the humanities programs made possible by 
the Federal funding to the councils simply make our States better 
places to live.
                                 ______
                                 
   Prepared Statement of Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.

    Mr. Chairman and Members of the Subcommittee, on behalf of the 152 
members of the Friends of the Tampa Bay National Wildlife Refuges, 
including Egmont Key National Wildlife Refuge (NWR), Passage Key NWR, 
and Pinellas NWR, I would like to thank you for your commitment to the 
National Wildlife Refuge System (NWRS) through increased funding over 
the past few years. We realize that in this time of budget cuts, it may 
be difficult to justify increasing the NWRS funding, but once the 
Refuges start to decline it will cost many times more than these small 
increases to return them to a condition that will fulfill their 
mandates. We respectfully request that you consider the following in 
your appropriations:
  --Fund the National Wildlife Refuge System $495 million in fiscal 
        year 2013, essentially keeping level funding from fiscal year 
        2012.
  --Fund the Land and Water Conservation Fund (LWCF) at $700 million 
        for fiscal year 2013.
  --Fund Visitor Services for the NWRS at $80 million for fiscal year 
        2013.
  --Support $3.8 million in fiscal year 2013 for Challenge Cost Share 
        (CCS).
    The Tampa Bay Refuges are located at the mouth of Tampa Bay on the 
west central gulf coast of Florida. The budget increases in the past 
few years have meant increased management, protection, and restoration 
of the Refuges and the ability to better meet the Comprehensive 
Conservation Plan (CCP) goals. In 2008 the Tampa Bay Refuges (TBRs) had 
one staff person who was split duty manager/law enforcement. Because of 
the incremental increases to the Refuge budgets over the last few 
years, the TBRs have a full-time manager and a law enforcement officer 
every weekend during the summer nesting season. Due to those past 
increases in budget and personnel the TBRs are able to do long range 
planning for big picture issues such as erosion and increased public 
use. With decreases in budget, these will fall by the wayside and the 
wildlife will have a degraded or useless habitat. Egmont Key NWR has 
the Fort Dade Guardhouse that has been restored and will become the 
visitor center. The Refuge has grant money to fund the first phase of 
the displays. If the budgets are cut, staff may not have time to 
oversee construction of the center displays or to keep the center open 
to the public. This will compromise outreach and education goals for 
the TBRs. The TBR's have made small steps to begin to control the 
invasive plants and animals that threaten the native species. If there 
are budget cuts there will be less money for facilities maintenance 
which will then cost more to restore in the future. If the TBRs were to 
again lose ground on their budgets they may not be able to meet many of 
their CCP goals. Please consider keeping the Operations and Management 
budget at $495 million for fiscal year 2013.
    The Friends of the Tampa Bay National Wildlife Refuges (FTBNWR) was 
incorporated and became a 501(c)(3) in 2008 to better assist the Tampa 
Bay National Wildlife Refuges with volunteers and fundraising. In 2011 
FTBNWR was able to provide 3,800 hours of volunteer hours to assist the 
refuge staff with exotic invasive control, refuge cleanups, and 
education. FTBNWR has been able to raise funds to remove invasive 
raccoons on the Pinellas Refuges that prevent birds from nesting and 
eat eggs laid by the Terrapin turtles that reside there. The Friends 
also started an Education Program to provide outdoor environmental 
educational programs at our local schools for grades K-5 and also 
environmental field trips to nearby preserves to teach our fourth and 
fifth graders about the NWRS and the environment. We also provide bird 
stewards on Egmont Key NWR during the summer nesting season to enhance 
the visitors experience on the refuge through education and an up close 
look at the birds through spotting scopes. Our refuges do not have 
enough staff to provide these education programs so we have stepped up 
as volunteers. Our volunteers are passionate about the Refuge System 
and donate their time, money, and expertise to protect them.
  --The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
        that the NWRS needs a budget of at least $900 million annually 
        in operation and maintenance funding in order to properly 
        administer its 150 million acres as mandated in the Refuge 
        Improvement Act. The current budget is far short of the amount 
        actually required to effectively operate and maintain the 
        Refuges. In this time of tightening budgets, we respectfully 
        request that you keep the NWRS budget at the same level as 
        fiscal year 2012 ($495 million) so that the Refuges do not 
        backslide even further in protecting these valuable lands and 
        ecosystems.
  --The Land and Water Conservation Fund was created in 1965 and 
        authorized at $900 million. We ask that you fund the LWCF at 
        $700 million for fiscal year 2013. These funds are used for 
        land acquisition to protect wildlife and their habitats. With 
        the effects of a changing climate, it is more important now 
        than ever to establish key wildlife corridors between protected 
        areas so wildlife can migrate to more suitable habitat as their 
        historic ones changes. These landscape level conservation 
        efforts through conservation easements and land purchases are 
        the best way to protect the diversity of flora and fauna. The 
        price of real estate is low at this time and the $700 million 
        can go much further in protecting habitats than it can in a 
        higher market. When we start to lose species due to lack of 
        food, water, shelter, or space, we are changing the balance of 
        nature. We urge you to fund the LWCF at $700 million for fiscal 
        year 2013. The LWCF is not funded by taxpayer money.
  --The refuges give the American people places to connect with nature 
        and get involved. In 2011 refuge Friends and volunteers 
        contributed 1.5 million hours of work for the refuge system. 
        This is about eight volunteers for every one refuge system 
        employee. These Friends and volunteers do approximately 20 
        percent of all work on refuges for free. Without a refuge 
        system employee to guide them, the volunteers can't perform 
        these valuable free services. We request $80 million for 
        Visitors Services for the NWRS.
  --Please support the Challenge Cost Share (CCS) with $3.8 million in 
        fiscal year 2013. Partners are the key to successful 
        conservation. The Federal Government doesn't need to foot the 
        bill alone. Through programs that leverage Federal dollars 
        (such as the CCS program), partner organizations such as our 
        Refuge Friends groups can get matching dollars from other 
        entities to give the American taxpayers more for their dollars. 
        Projects such as trails, education, boardwalks, and habitat 
        restoration give the American public places to connect with 
        nature and relax.
    The Friends of the Tampa Bay National Wildlife Refuges is one of 
230 Friends groups who support the National Wildlife Refuges. The 
interest in our National Wildlife Refuge System is significant and we 
are proving it with our donated time and funds.
    In conclusion, the Friends of the Tampa Bay National Wildlife 
Refuges believes the National Wildlife Refuge System can meet its 
important conservation objectives only with strong and consistent 
funding leveraged by the valuable work of refuge staff and volunteers. 
We again extend our appreciation to the Subcommittee for its ongoing 
commitment to our National Wildlife Refuge System. We encourage you to 
approve a $495 million for the fiscal year 2013 National Wildlife 
Refuge System Operations and Maintenance budget managed by FWS and to 
approve $700 million for fiscal year 2013 for the LWCF land acquisition 
budget as well as funding refuge Visitor Services at $80 million and 
the CCS at $3.8 million.
                                 ______
                                 
     Prepared Statement of Friends of Virgin Islands National Park

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the National Park 
Service included $2.738 million for the acquisition of land at Virgin 
Islands National Park. I am pleased that this funding was included in 
the request and urge Congress to provide necessary funds for LWCF for 
this important project.
    Virgin Islands National Park, located on the island of St. John, is 
a tropical paradise preserved for the enjoyment and edification of the 
public. Beautiful white sand beaches, protected bays of crystal blue-
green waters, coral reefs rich in colorful aquatic life, and an on-
shore environment filled with a breathtaking variety of plants and 
birds make St. John a magical place for visitors. More than 800 species 
of trees, shrubs, and flowers are found in the park, and more than 30 
species of tropical birds breed on the island, which was designated a 
Biosphere Reserve by the United Nations in 1976. St. John is also home 
to two species of endangered sea turtles, the hawksbill and the green. 
In addition, the park contains archeological sites indicating 
settlement by Indians as early as 770 B.C. The later colonial history 
of St. John is also represented by remnants of the plantations and 
sugar mills established by the Danes in the 18th and 19th centuries.
    One of St. John's most popular eco-campgrounds sits on a cliff 
overlooking Maho Bay and its pristine white sand beaches. The bay's 
campgrounds create memorable vacations in the beautiful setting of St. 
John without sacrificing the delicate ecosystem of the island. Few 
places on Earth match the breathtaking beauty of Maho Bay. Its crystal 
waters and soft white beaches are rimmed by a lush forested slope 
rising 11,086 feet. Hundreds of tropical plant species and more than 50 
species of tropical birds fill these lands on the island of St. John, 
at the heart of the American paradise of Virgin Islands National Park. 
Just offshore are seagrass beds, green and hawksbill turtles, and 
magnificent coral reefs. This fragile area contains large nesting 
colonies of brown pelicans, as well as the migratory warblers and terns 
that winter on St. John. In addition to its natural treasures, the 
largest concentration of historic plantations and ruins on the island 
is found within this area.
    Maho Bay is an important destination for visitors to St. John. The 
popular Maho Bay Camps are adjacent to the lands being acquired by the 
Park Service, and protection of Estate Maho Bay is key to maintaining 
the character and appeal of this area. Visitors to Maho Bay often come 
back again and again because of the unspoiled natural beauty of these 
lands. The Department of the Interior recently reported that in 2010 
visitors to Virgin Islands NP spent over $61 million in the surrounding 
community. This spending supported 1,084 local jobs. Major U.S. air 
carriers bring an average of 11,000 visitors to St. Thomas/St. John 
each week. Overall, tourism accounts for 80 percent of the U.S. Virgin 
Islands' GDP and employment.
    Available for acquisition in fiscal year 2013 is the final phase of 
a 205 acre acquisition of land overlooking Maho Bay within the Virgin 
Islands National Park boundaries. The property offers spectacular views 
of the bay and extends the amount of publicly owned beachfront at Maho 
Bay. This property, known as Estate Maho Bay, is extremely important 
because it connects the southern and northern sections of the national 
park and will preserve significant natural and cultural resources. The 
land was historically used during the plantation era for agricultural 
activities such as sugar cane, coconut, and cotton cultivation. With 
increasing growth and investment throughout the Caribbean--including 
places not far from the unspoiled beauty of St. John--these vulnerable 
lands have become the focus of intense development threats. In recent 
years, more than one investor has envisioned private development along 
these shores, which would jeopardize the unique character of Maho Bay 
and the visitors' experience of the park.
    Estate Maho Bay was originally 419 acres owned by 11 interests, 
only 3 of which had been acquired by the National Park Service. 
Following years of litigation and negotiation, The Trust for Public 
Land (TPL), using philanthropic support in the form of a loan, obtained 
seven of the remaining interests. A partition of the property was 
approved. The National Park Service received 114 acres as its share, 
and approximately 100 acres will remain in private hands, although most 
of these will have strict covenants to prevent incompatible building 
and uses. TPL is in the process of conveying the remaining 205 acres to 
the Virgin Islands National Park. In fiscal year 2013, 74 acres will 
remain for the Park Service to acquire.
    Recognizing the need to protect this unique property, over the past 
3 years Congress and two different presidential administrations have 
allocated a total of $6.75 million to the Park Service for Estate Maho 
Bay. This year, $2.25 million is needed from the Land and Water 
Conservation Fund to complete the purchase of the property. TPL will 
convey these lands to the Park Service at a significant discount made 
possible by private donations. The estimated value of the 205 acres is 
$18.6 million.
    The 205 acre Estate Maho Bay project has been made available to the 
National Park Service for $9 million. The appraised value of these 
lands is $20.5 million, more than twice the purchase price. An 
additional 18 acres of land on Mamey Peak, overlooking the ongoing 
Estate Maho Bay project, have been donated by The Trust for Public Land 
to the Virgin Islands National Park. Because of the generosity of TPL's 
donors, the Park Service is receiving 223 acres valued at over $29.5 
million for only $9 million, truly a remarkable example of the public-
private partnerships that the Park Service seeks to promote.
    This acquisition will ensure continued public access to the beach, 
protect ecologically and historically significant land from 
development, and connect two separate sections of the national park. In 
fiscal year 2013, a total of $2.25 million is needed from the Land and 
Water Conservation for the National Park Service to complete the 
acquisition of this outstanding property in Virgin Islands National 
Park.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for Virgin Islands 
National Park. I want to thank the Chairman and the members of the 
subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in the U.S. Virgin Islands, and 
I appreciate your consideration of this funding request.
                                 ______
                                 
   Prepared Statement of Friends of Wertheim National Wildlife Refuge

    Mr. Chairman and Members of the Subcommittee, I am submitting 
testimony on behalf of Friends of Wertheim National Wildlife Refuge. 
(Wertheim National Wildlife Refuge is the Headquarters for the 9 
refuges in the Long Island National Wildlife Complex in New York.) We 
ask that you fund the National Wildlife Refuge System operations and 
maintenance (O&M) accounts at $495 million in the fiscal year 2013; 
which is essentially level funding from fiscal year 2012. We estimate 
that refuges would need at least $527 million in fiscal year 2013 to 
maintain management capabilities from fiscal year 2010; this request 
would only maintain status quo at current funding levels. The current 
Federal salary freeze still leaves Refuges needing at least $8 million 
to absorb other fixed costs. The Cooperative Alliance for Refuge 
Enhancement (CARE) estimates that the Refuge System needs at least $900 
million in annual funding to properly administer its 150 million acres 
and remains committed to accomplishing this goal. It is of the utmost 
importance that our Nation protects and enhances our National Wildlife 
Refuge System for future generations.
    Economically, according to the Banking on Nature report produced by 
the U.S. Fish and Wildlife Service in 2006, Federal spending on refuges 
offers a 4 to 1 return to local economies. Every $1 you appropriate 
generates $4 in local economic activity and in many cases it's much 
more. This makes an fiscal year 2013 appropriation of $495 a ``win-
win'' for the habitat and wildlife, for educational opportunities, for 
visitors and for the local economies of the communities surrounding our 
refuges.
    Friends of Wertheim NWR feels that the National Wildlife Refuge 
System deserves $495 million in Federal funding for fiscal year 2013 
because U.S. Fish and Wildlife is the Federal agency charged with 
conserving, protecting and enhancing the Nation's fish, wildlife and 
plants for the continuing benefit of the American people. Another top 
priority of the Service is connecting people with nature: ensuring the 
future of conservation. While there is no doubt that our public lands 
need to be managed through community partnerships/community resources, 
the Federal Government should be the catalyst in making this happen.
    When the funding for the National Wildlife Refuge System is 
compared to the entire national spending it is not even a ``blip on the 
radar screen''. The National Wildlife Refuge System is one of our 
``National Treasures'' and the dedicated Refuge staff, Friends and 
volunteers do much with very little. Only by being ``faithful 
stewards'' of all of the National Wildlife Refuges in the United States 
will we ensure that they will be here for our children and our 
children's children. This is why we ask that you support our National 
Wildlife Refuge System with adequate funding, $495 million for fiscal 
year 2013.
    Friends of Wertheim NWR also ask that you:
  --Provide $80 million in funding for Refuge System Visitor Services 
        programs. Visitor Services funding pays for many Friends and 
        volunteer programs. Currently, refuge Friends and volunteers do 
        approximately 20 percent of all the work on refuges. Staff is 
        needed to oversee the volunteers. The 80 million in funding 
        will allow all of the Friends groups to remain effective 
        stewards of our refuge and offer programs to get more people 
        outdoors in nature.
  --Please support $3.8 million for Challenge for Cost Share (CCS). 
        Partners are the key to successful conservation; no Federal or 
        State agency can do it alone. Therefore, we support programs 
        that leverage Federal dollars such as the CCS Program. Partner 
        organizations such as the Friends groups leverage these funds 
        and it gives taxpayers more ``bang for their buck'' for 
        projects like trails, boardwalks and habitat restoration.
  --We ask that you fund the Land and Water Conservation Fund (LWCF) at 
        $700 million. LWCF was created in 1965 and authorized at $900 
        million per year; which would be more than $3 billion in 
        today's dollars. LWCF is our most important land and easement 
        acquisition tool. There are more than 8 million acres still 
        unprotected within existing refuge boundaries and there is a 
        need to establish key wildlife corridors and connections 
        between protected areas making LWCF more important than ever.
    Last but not least, please support the new Collaborative 
Conservation requests of the Department of the Interior and 
Agriculture, bringing together several Federal agencies around a common 
goal.
    On behalf of Friends of Wertheim NWR thank you for your 
consideration of our request.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

BIA Great Lakes Area Resource Management: $6,367,000
    Fiscal year 2013 requested allocation within the administration's 
fiscal year 2013 Rights Protection Implementation request in the amount 
of $32,645,000.
    Agency/Program Line Item.--Department of the Interior, Bureau of 
Indian Affairs, Operation of Indian Programs, Trust-Natural Resources 
Management, Rights Protection Implementation, Great Lakes Area Resource 
Management.
    Funding Authorizations.--Snyder Act, 25 U.S.C. Sec. 13; Indian 
Self-Determination and Education Assistance Act, (Public Law 93-638), 
25 U.S.C. Sec. Sec. 450f and 450h; and the treaties between the United 
States and GLIFWC's member Ojibwe Tribes, specifically Treaty of 1836, 
7 Stat. 491, Treaty of 1837, 7 Stat. 536, Treaty of 1842, 7 Stat. 591, 
and Treaty of 1854, 10 Stat. 1109.\1\
---------------------------------------------------------------------------
    \1\ The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
BIA Contract Support: $228,000,000
    Agency/Program Line Item.--Department of the Interior, Bureau of 
Indian Affairs, Operation of Indian Programs, Tribal Government.
    Funding Authorization.--Indian Self-Determination and Education 
Assistance Act, (Public Law 93-638), 25 U.S.C. Sec. Sec. 450f and 450h.
EPA Great Lakes Restoration: $300,000,000. Tribal need: $25,000,000. 
        GLIFWC need: $1,200,000 (estimated annual need).
    Agency/Program Line Item.--Environmental Protection Agency, 
Environmental Programs and Management, Geographic Programs, Great Lakes 
Restoration.
    Funding Authorizations.--Clean Water Act, 33 U.S.C. Sec. 1268(c); 
and treaties cited above.
    glifwc's goal--a secure funding base to fulfill treaty purposes
    For over 25 years, Congress has funded GLIFWC to meet 
nondiscretionary treaty obligations and associated Federal court 
orders. This funding has allowed GLIFWC to implement comprehensive 
conservation, natural resource protection, and law enforcement programs 
that ensure member tribes are able to exercise their treaty reserved 
rights to hunt, fish, and gather throughout the ceded territories, and 
that ensure a healthy and sustainable natural resource base to support 
those rights. These programs also provide a wide range of public 
benefits and assure full participation in management partnerships in 
Wisconsin, Michigan, and Minnesota.
    GLIFWC and its member tribes would like to take this opportunity to 
thank Congress, and specifically this Subcommittee, for its strong 
support of these treaty obligations. In fiscal year 2012 Congress 
increased its support for treaty rights protection and the 
administration followed suit by more fully supporting these treaty 
obligations in its fiscal year 2013 request. GLIFWC recently estimated 
the full cost of its program at approximately $9,870,000, including: 
$5,434,000 provided in fiscal year 2012 through the RPI line item, 
approximately $1,800,000 provided by grants and other ``soft'' funding 
in fiscal year 2012, and $2,636,000 in unmet needs. Funding at the 
proposed fiscal year 2013 level would begin to address these unmet 
needs. For more detail, the three elements of this fiscal year 2013 
funding request are:
  --BIA Great Lakes Area Management: $6,367,000.--This program falls 
        within the Rights Protection Implementation (RPI) line item, 
        which is proposed at $32,645,000 in fiscal year 2013. Funds 
        provided to GLIFWC under the RPI program ensure that GLIFWC's 
        member tribes continue to comply with Federal court orders by 
        ensuring effective implementation of tribal self-regulatory and 
        co-management systems.
      In previous fiscal years, GLIFWC has testified about chronic 
        underfunding of the Rights Protection Implementation line item 
        and the impacts of that underfunding on GLIFWC's programs. In 
        fiscal year 2010, Congress recognized this threat and provided 
        a much-needed increase in support. Following congressional 
        lead, the administration has incorporated and supplemented that 
        increase in its fiscal year 2013 proposal. The funding provided 
        through the Great Lakes Area Resource Management line item in 
        fiscal year 2010 allowed GLIFWC to restore some program cuts. 
        Funding at the proposed fiscal year 2013 level would enable 
        GLIFWC to meet even more of its program needs, including 
        funding for research and assessments of threats to the ceded 
        territories and for conservation enforcement officers.
  --BIA Contract Support: $228,000,000.--GLIFWC supports the 
        $228,000,000 proposed for Contract Support. This amount would 
        meet the needs identified in the most recent Contract Support 
        Shortfall Report to fully fund this account, which provides 
        funds to meet costs incurred in fulfilling administrative 
        requirements that are mandated when operating programs, 
        including costs for accounting, personnel administration, and 
        property management. Rectifying this chronic underfunding will 
        allow GLIFWC to direct scarce resources toward restoring 
        program cuts and service capacity.
  --EPA Environmental Programs and Management: $300,000,000.--GLIFWC 
        supports continued funding for the Great Lakes Restoration 
        Initiative (GLRI) at no less than the administration's proposed 
        fiscal year 2013 level of $300,000,000. It also recommends that 
        at least $25 million be provided to the BIA for tribes, to 
        ensure they are able to undertake local projects that 
        contribute to the protection and restoration of the Great 
        Lakes.
    Sustained funding for GLIFWC at approximately $1.2 million will 
enable GLIFWC to retain jobs created through this program, to fully 
implement projects it undertook to meet the goals of the GLRI, and to 
meaningfully participate in the decisionmaking processes that will 
affect the treaty rights of its member tribes.
    Funding provided through the BIA should be made available under the 
Indian Self-Determination and Education Assistance Act (ISDEAA). In 
2010, GLRI funding awarded through the ISDEAA was virtually the only 
GLRI funding that was available before the 2010 field season. This 
enabled tribes to begin project implementation much earlier and realize 
substantial, early ``on-the-ground'' ecosystem benefits.

       CEDED TERRITORY TREATY RIGHTS--GLIFWC'S ROLE AND PROGRAMS

    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area that extends to Minnesota, Wisconsin, 
and Michigan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Through its staff of 65 full-time biologists, scientists, 
technicians, conservation enforcement officers, policy specialists, and 
public information specialists, GLIFWC's mission is to: (i) ensure that 
its member tribes are able to exercise their Treaty-protected rights to 
meet subsistence, economic, cultural, medicinal, and spiritual needs; 
and (ii) ensure a healthy, sustainable natural resource base to support 
those rights. GLIFWC is a ``tribal organization'' as defined by the 
Indian Self-Determination and Education Assistance Act, governed by a 
Constitution that is ratified by its member tribes and by a Board 
composed of the Chairs of those tribes.

              JUSTIFICATION AND USE OF THE REQUESTED FUNDS

    With the requested stable funding base, GLIFWC will:
  --Maintain the Requisite Capabilities to Meet Legal Obligations, to 
        Conserve Natural Resources and to Regulate Treaty Harvests.--
        Although it does not meet all GLIFWC's needs, sustained funding 
        at the fiscal year 2013 level would go a long way in 
        facilitating continued tribal compliance with various court 
        decrees and intergovernmental agreements governing the tribes' 
        treaty-reserved hunting, fishing and gathering rights. It also 
        enhances GLIFWC's capability to undertake work and participate 
        in relevant partnerships to tackle ecosystem threats that harm 
        treaty natural resources, including invasive species, habitat 
        degradation and climate change.
  --Remain a Trusted Environmental Management Partner and Scientific 
        Contributor in the Great Lakes Region.--With the requested EPA 
        funding base, GLIFWC would maintain its role as a trusted 
        environmental management partner and scientific contributor in 
        the Great Lakes Region. It would bring a tribal perspective to 
        the interjurisdictional mix of Great Lakes managers \2\ and 
        would use its scientific expertise to study issues and 
        geographic areas that are important to its member Tribes but 
        that others may not be examining.\3\
---------------------------------------------------------------------------
    \2\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Restoration 
Initiative, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \3\ With the requested fiscal year 2013 funds, GLIFWC would: (i) 
continue a ceded territory wild rice enhancement project; (ii) 
facilitate tribal input and participation in the implementation of the 
revised Great Lakes Water Quality Agreement; (iii) continue to 
participate in the development and implementation of the Lake Superior 
Lakewide Management Plan; (iv) build upon its long-standing fish 
contaminant analysis and consumption advisory program by testing 
additional species, testing in a wider geographic range, and testing 
for chemicals of emerging concern; (v) enhance its invasive species and 
animal disease prevention, monitoring and mitigation programs, 
particularly given the potential impacts of climate change, the recent 
discovery of viral hemorrhagic septicemia (VHS) in Lake Superior and 
the potential migration of the Asian Carp into the Great Lakes, and 
(vi) enhance its capacity to protect ceded territory natural resources 
by responding to development proposals such as those related to mining.
---------------------------------------------------------------------------
  --Maintain the Overall Public Benefits That Derive From its 
        Programs.--Over the years, GLIFWC has become a recognized and 
        valued partner in natural resource management. Because of its 
        institutional experience and staff expertise, GLIFWC has built 
        and maintained numerous partnerships that: (i) provide accurate 
        information and data to counter social misconceptions about 
        tribal treaty harvests and the status of ceded territory 
        natural resources, (ii) maximize each partner's financial 
        resources and avoid duplication of effort and costs, (iii) 
        engender cooperation rather than competition, and (iv) 
        undertake projects and achieve public benefits that no one 
        partner could accomplish alone.\4\
---------------------------------------------------------------------------
    \4\ For example, on March 14, 2012, U.S. District Judge Barbara B. 
Crabb sentenced Norberto Burciago to 10 years in Federal prison for his 
involvement in a conspiracy to manufacture marijuana in the 
Chequamegon-Nicolet National Forest. The ``grow'' was discovered by 
hunters, monitored by law enforcement, and raided by more than 200 law 
enforcement officers from a dozen local, State, and Federal agencies, 
including 9 officers from the Great Lakes Indian Fish and Wildlife 
Commission.
---------------------------------------------------------------------------
                 OTHER RELATED APPROPRIATIONS CONCERNS

    Support for BIA Conservation Law Enforcement Officers.--GLIFWC 
supports BIA's proposal to provide $500,000 in fiscal year 2013 to 
support conservation officers like those employed by GLIFWC. This 
program will assist tribal conservation enforcement programs in 
protecting and monitoring natural resources both on and off-
reservation.
    BIA Circle of Flight Tribal Wetland & Waterfowl Initiative.--GLIFWC 
supports BIA funding of the Circle of Flight Tribal Wetland & Waterfowl 
Enhancement Initiative for Michigan, Minnesota, and Wisconsin. The 
Circle of Flight program is a long-standing tribal contribution to the 
North American Waterfowl Management Plan that has leveraged matching 
partnership funding on a 3 to 1 ratio. In 2010, this program was 
awarded a Department of the Interior ``Partners in Conservation'' 
Award.
                                 ______
                                 
             Prepared Statement of the Green Mountain Club

    As Director of Conservation for the Green Mountain Club, the 
nonprofit organization which maintains the Long Trail, the Nation's 
oldest long-distance hiking trail, I appreciate the opportunity to 
present this testimony in support of the Forest Legacy Program (FLP) in 
the fiscal year 2013 Interior appropriations bill. The President's 
budget for this year recommended $60 million for FLP. The Forest Legacy 
Program works with landowners, the States, and other partners to 
protect critical forestlands with important economic, recreation, water 
quality, and habitat resources through conservation easement and fee 
acquisitions. The program has protected over 2 million acres in 43 
States and territories, consistently with a 50 percent non-Federal cost 
share, double the required 25 percent cost share. For several years 
this important conservation program has been funded under the umbrella 
of the Land and Water Conservation Fund (LWCF), which as a whole 
received $450 million in the budget request.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the Forest 
Legacy Program will permanently pay dividends to the American people 
and to our great natural, historic and recreational heritage. As LWCF 
is funded from Outer Continental Shelf (OCS) revenues, not taxpayer 
dollars, these funds should go to their intended and authorized use as 
a conservation offset to the energy development of our offshore oil and 
gas resources.
    As part of the FLP request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $2.72 million for the Northern Green 
Mountains Linkage project in Vermont. I am pleased that this funding 
was included in the request and urge Congress to provide necessary 
funds for FLP for this important project.
    The Forest Legacy Program in Vermont seeks to achieve significant 
conservation goals for the State by protecting the following types of 
land: large contiguous and productive forest blocks, wildlife habitats 
dependent on large contiguous forest blocks, threatened and endangered 
species habitat, State fragile areas and undeveloped shoreline, 
significant wetlands, and important recreational corridors. Sustainable 
timber harvesting is also critical; the annual contribution of forest 
products, forest-based manufacturing, and forest-related recreation to 
Vermont's economy is over $2.6 billion. All tracts are well suited for 
development of large estate lots or subdivisions due to the extensive 
road frontage, gentle terrain, scenic value, and proximity to ski 
resorts and urban areas.
    The 5,768 acre Northern Green Mountains Linkage project is situated 
on the spine of the Northern Green Mountains in Lamoille and Orleans 
Counties, and will protect managed and productive timberland as well as 
16 miles of streams, several rare species, and high quality wildlife 
habitat. Using fee and easement acquisitions, the project will link 
68,300 acres of conserved lands, including lands the Green Mountain 
Club has protected for the Long Trail, providing connectivity from the 
Green Mountains north to Quebec and east to the Worcester Range. This 
project will address the problem of forest fragmentation and associated 
impacts on the timber economy, improve public access to recreation, and 
secure wildlife habitat connectivity in Vermont's northern region by 
permanently protecting critically located properties.
    Vermont's Northern Green Mountains are one of the wildest and 
largest forested landscapes remaining in all of New England. The 
region, which follows the spine of the Green Mountains north from Mount 
Mansfield to the Canadian border, encompasses sweeping tracts of forest 
where moose, bobcat, black bear, and a myriad of rare and endangered 
songbirds make their home. These mountains and their slopes are 
remarkably diverse, containing all the major ecosystem types of the 
region, from boreal forests, temperate mixed hardwoods, and alpine 
meadows to floodplain forests and marshes. It is also a magnet for 
hikers, skiers, backpackers, and other outdoor enthusiasts, 
particularly those drawn by more than 65 miles of the Long Trail--the 
Nation's oldest long-distance hiking path and the inspiration for the 
Appalachian Trail, built by the Green Mountain Club between 1910 and 
1930. Also snaking through the region is the increasingly popular 
Catamount Trail, a skiing trail traversing the length of Vermont.
    The Northern Green Mountains have long been recognized as a top 
conservation priority by many of the region's small towns, such as Jay, 
Westfield, and Hyde Park, which are now mobilizing to conserve the 
places that define and sustain their communities. Two Countries One 
Forest (2C1Forest), a Canadian-American coalition of 50 conservation 
organizations, public agencies, and researchers, sponsored scientific 
research to identify important wildlife corridors in the Northern 
Appalachian Acadian ecoregion. In 2007, 2C1Forest chose the Northern 
Green Mountains-to-Sutton Mountains linkage as one of their top five 
conservation priorities. The area has also been identified as 
significant in Vermont Fish & Wildlife's statewide assessment and 
ranking of large forested blocks and associated linkage habitats. The 
Northern Green Mountains are a crucial place for regional landscape 
connectivity because they help tie the Adirondacks of New York, and the 
central Appalachians of Massachusetts and points south to the Northern 
Appalachians of Maine and Canada. In so doing they serve as an 
important north-south corridor for wildlife, and because of their large 
range in elevation, provide species with flexibility in their movement.
    Projects like the Northern Green Mountains Linkage that maintain 
connectivity on local, State, and regional scales are also critical to 
support adaptation of wildlife species to climate change. These 
corridors will facilitate species movement in response to shifts in 
forest habitat, food availability, and snowpack. These forested tracts 
also offer important climate adaptation value as habitat refugia for 
cold-loving species whose habitats will be lost in other areas. The 
Northeast Climate Impacts Synthesis Assessment Team projects that this 
region will retain consistently cold winters and reliable snowpack 
through the end of the 21st century, even under high carbon emission 
scenarios. This is significant for a wide range of snow-dependent 
species like snowshoe hare and marten, as these same projections 
suggest that snowpack will largely disappear from New England to the 
south of the project area. Protection of this area is also important 
for adaptation of the eastern brook trout. Some of the parcels for 
protection include important headwater streams to the Missisquoi River, 
one of Vermont's important habitat areas for eastern brook trout. 
Conserving these high elevation headwater streams will help maintain 
flows and cooler water temperatures in the lower lying Missisquoi as 
the climate warms in this area.
    The 3,984 acres that will be conserved with fiscal year 2013 Forest 
Legacy funding is made up of four separate parcels. Almost the entire 
expanse--95 percent of the 1,748 acre Jay Brook tract in Westfield is 
above 1,500 feet, providing critical wildlife habitat protection and an 
important refugia to species adapting to climate change. Protection of 
this land would conserve 3.6 miles of the Catamount Trail and add an 
extra conserved buffer to 5.8 miles of The Long Trail, where portions 
of the Long Trail State Forest are only 650 feet wide--an inadequate 
buffer for the State's most well-known and well-loved trail. The 1,478 
acre Bullard Tract in Eden and Hyde Park provides a wide linkage that 
connects lowland forest to previous Forest Legacy Program investments 
around Green River Reservoir State Park (protected with fiscal year 
1999 funds) up to the ridgeline of the Green Mountains on the Eden 
Forest property (protected with fiscal year 2009 and fiscal year 2010 
funds). The 553 acre Moffat property, half of which was funded in 
fiscal year 2011, is part of a significant east-west corridor of 
conserved forestland and contains significant wetlands and sugar maple 
stands. Last, the 513 acre Westfield Mountain Tract is managed for the 
production of maple syrup and high value timber and would be a 
significant addition to a previously conserved block of forestland in 
the Northern Green Mountains.
    The vast majority of the land in the Northern Greens remains in 
private hands, with thousands of acres available on the open market. 
Threats from an expanding second-home industry (even in today's 
uncertain economy), road construction, and changing forestry, and 
farming practices put key blocks of forestland at risk and create 
barriers to wildlife movement. Such changes also threaten the vibrant 
rural culture and economy of the Northern Greens, with its mix of 
small-scale community farms, forestry and recreation. A recent 
explosion of development pressure in the Northern Green Mountains, 
resulting from expanding ski resorts and the area's proximity to 
greater Burlington and other population centers, has made this a ``now 
or never'' moment to conserve key landscapes in this important habitat 
and recreation area. According to census data, growth rates in Lamoille 
and Orleans Counties are more than double the growth rate in Vermont as 
a whole. In Vermont, only 21 percent of the Northern Green Mountains is 
protected from development, compared to 45 percent of the central and 
southern Green Mountains.
    Forest Legacy Program funding in fiscal year 2011 secured the first 
1,784 acres of the Northern Green Mountains Linkage project. A Forest 
Legacy grant of $2.72 million in fiscal year 2013 for the remaining 
3,984 acres would complete this important project. These Federal funds 
are needed to ensure the protection of critical forest resources in 
northern Vermont and will be matched by $950,000 of non-Federal 
contributions for the acquisition of full fee and partial interests 
through conservation easement.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Forest 
Legacy Program and the Northern Green Mountains Linkage project. I want 
to thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in Vermont, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
        Prepared Statement of the Geological Society of America

    The Geological Society of America (GSA) urges Congress to fully 
fund the fiscal year 2013 request for the U.S. Geological Survey (USGS) 
and restore cuts in the request to key programs, including the Mineral 
Resources Program, the Water Resources Research Act, and the National 
Water Quality Assessment Methods Development and Monitoring program. As 
one of our Nation's key science agencies, the USGS plays a vital role 
in understanding and documenting mineral and energy resources, 
researching and monitoring potential natural hazards, monitoring 
effects of climate change, and determining and assessing water 
availability and quality. These issues are truly some of society's 
greatest challenges. Despite the critical role played by the USGS, 
funding for the Survey has stagnated in real dollars for more than a 
decade. Given the importance of the many activities of the Survey that 
protect lives and property for natural hazards, stimulate innovations 
that fuel the economy, provide national security, and enhance the 
quality of life, sustained, steady growth in Federal funding for the 
Survey is necessary for the well being of our Nation.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 25,000 members from academia, government, and 
industry in all 50 States and more than 90 countries. Through its 
meetings, publications, and programs, GSA advances the geosciences, 
enhances the professional growth of its members, and promotes the 
geosciences in the service of humankind. GSA encourages cooperative 
research among Earth, life, planetary, and social scientists, fosters 
public dialogue on geoscience issues, and supports all levels of earth 
science education.

Broader Impacts of the U.S. Geological Survey
    The USGS is one of the Nation's premier science agencies. 
Approximately 70 percent of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities of 
the Department of the Interior, this research is used by communities 
across the Nation to assist in land use planning, emergency response, 
natural resource management, engineering, and education. USGS research 
addresses many of society's greatest challenges, including natural 
hazards, mineral and energy resources, climate change, and water 
availability and quality.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, floods, droughts, wildfires, and hurricanes--are a 
        major cause of fatalities and economic losses world-wide. 
        Recent natural disasters provide unmistakable evidence that the 
        United States remains vulnerable to staggering losses. 2011 was 
        a record year for natural disasters in the United States, with 
        12 separate billion dollar weather/climate disasters, breaking 
        the previous mark of $9 billion weather/climate disasters in 1 
        year, which occurred in 2008. The combined historic and recent 
        geologic records demonstrate that several areas in the United 
        States will continue to experience major earthquake and/or 
        volcanic activity in the future. An improved scientific 
        understanding of geologic hazards will reduce future losses 
        through better forecasts of their occurrence and magnitude, and 
        allow for better planning and mitigation in these areas. GSA 
        urges Congress to increase funding for the USGS to modernize 
        and upgrade its natural hazards monitoring and warning systems 
        and support the proposed increases for early warning systems in 
        the budget request.
  --Energy and mineral resources are critical to national security and 
        economic growth. Improved scientific understanding of these 
        resources will allow for their more economic and environmental 
        management and utilization. The USGS is the sole Federal 
        information source on mineral potential, production, and 
        consumption. USGS assessments of mineral and energy resources--
        including those that have recently become of greater and 
        greater importance (such as unconventional natural gas and 
        geothermal resources)--are essential for making informed 
        decisions about the Nation's future. Therefore, we are greatly 
        concerned about the proposed $5 million cut in mineral 
        resources and its effect on the ability of our Nation to safely 
        develop new resources.
  --Many emerging energy technologies--such as wind turbines and solar 
        cells--depend on rare Earth elements and critical minerals that 
        currently lack diversified sources of supply. China accounts 
        for 95 percent of world production of rare Earth elements 
        (USGS, 2010). The increases proposed for rare Earth research at 
        USGS will help ease our dependence on these foreign sources.
  --Improved understanding of geologic processes across Earth's history 
        can increase our confidence in the ability to predict future 
        climate States and long-term ecological changes and thus 
        enhance the prospects for mitigating or adapting to adverse 
        impacts. USGS research on climate impacts is used by the 
        Department of the Interior and local partners to make informed 
        land-use decisions.
  --The devastating droughts in 2011 reminded us of our dependence on 
        water. The availability and quality of surface water and 
        groundwater are vital to the well being of both society and 
        ecosystems. Greater scientific understanding of these 
        resources--and communication of new insights by geoscientists 
        in formats useful to decision makers--is necessary to ensure 
        adequate and safe water resources for the future. The 
        establishment of a National Groundwater Monitoring Network will 
        expand our understanding of this critical resource.
  --The budget request proposes a $13 million increase at USGS for 
        hydraulic fracturing research as part of a joint effort with 
        the Department of Energy and the Environmental Protection 
        Agency. The USGS would play a critical role in this endeavor to 
        better understand and minimize the environmental, health, and 
        safety impacts of hydraulic fracturing. The USGS research will 
        focus on better understanding induced seismicity, water 
        quality, and creating an atlas of shale resources.
    Research in Earth science is also fundamental to training and 
educating the next generation of Earth science professionals. A recent 
study, Status of the Geoscience Workforce 2011, by the American 
Geosciences Institute found:

    ``The supply of newly trained geoscientists falls short of 
geoscience workforce demand and replacement needs. According to the 
U.S. Bureau of Labor Statistics there were a total of 262,627 U.S. 
geoscientist jobs in 2008, and in 2018, the projected number of U.S. 
geoscientist jobs will be 322,683, a 23 percent increase. These 
projections do not include replacements due to attrition . . . With 
this adjustment, aggregate job projections are expected to increase by 
35 percent between 2008 and 2018 . . . . The majority of geoscientists 
in the workforce are within 15 years of retirement age. Even in oil and 
gas companies, which typically offer the highest salaries of all 
geoscience employing industries, the supply of new geoscientists is 
short of replacement needs. By 2030, the unmet demand for geoscientists 
in the petroleum industry will be approximately 13,000 workers for the 
conservative demand industry estimate.''

    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
research pay substantial dividends. According to the National 
Academies' report ``Rising Above the Gathering Storm'' (2007), 
``Economic studies conducted even before the information-technology 
revolution have shown that as much as 85 percent of measured growth in 
U.S. income per capita was due to technological change.'' Likewise, the 
National Commission on Fiscal Responsibility and Reform, headed by 
Erskine Bowles and Alan Simpson, said: ``We must invest in education, 
infrastructure, and high-value research and development to help our 
economy grow, keep us globally competitive, and make it easier for 
businesses to create jobs.'' Earth science is a critical component of 
the overall science and technology enterprise. Growing support for 
Earth science in general and the U.S. Geological Survey in particular 
are required to stimulate innovations that fuel the economy, provide 
security, and enhance the quality of life.
    GSA supports the efforts of USGS, NASA, NOAA and OSTP to examine a 
future path forward for the Landsat satellites that maintains funding 
for other key programs within USGS. The Landsat satellites have amassed 
the largest archive of remotely sensed land data in the world, a 
tremendously important resource for natural resource exploration, land 
use planning, and assessing water resources, the impacts of natural 
disasters, and global agriculture production.

Budget Shortfalls
    GSA supports the fiscal year 2013 budget request for the U.S. 
Geological Survey and the increases provided for key areas such as 
hydraulic fracturing research, early earthquake warning, and 
establishing a National Groundwater Monitoring Network. However, we are 
concerned about cuts in some programs and ask that these areas be 
restored. Some proposed cuts of concern in the budget request include:
  --$6.5 million for Water Resources Research Act Program;
  --$6 million for National Water Quality Assessment Methods 
        Development and Monitoring;
  --$5 million for Cooperative Water Program Interpretive Studies;
  --$5 million for Mineral Resources Program;
  --$3.3 million for Hydrologic Networks and Analysis Information 
        Management and Delivery; and
  --$2 million for Toxic Substances Hydrology Methods Development and 
        Assessments.
    We urge Congress to support the fiscal year 2013 budget request and 
restore these and other detrimental cuts. We recognize the financial 
challenges facing the Nation, but losing irreplaceable data can 
increase costs to society in the long term.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. The Geological Society of America is grateful to 
Senate Appropriations Subcommittee on Interior, Environment, and 
Related Agencies for its leadership in strengthening the U.S. 
Geological Survey over many years. For additional information or to 
learn more about the Geological Society of America--including GSA 
Position Statements on water resources, mineral and energy resources, 
climate change, natural hazards, and public investment in Earth science 
research--please visit www.geosociety.org or contact Kasey White at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="28435f40415c4d684f4d475b474b414d5c5106475a4f06">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States; Humane 
         Society Legislative Fund; and Doris Day Animal League

    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations with a combined membership of more than 11 million 
supporters nationwide. We urge the Subcommittee to address these 
priority issues in the fiscal year 2013 Department of the Interior 
appropriation.

Rock Creek Park Deer
    The HSUS requests that funds made available in this Act give 
preference to non-lethal deer management programs. The National Park 
Service (NPS) recently decided to implement lethal methods for 
controlling the deer population in Rock Creek Park despite the 
availability of non-lethal methods that would have cost significantly 
less taxpayer money and resulted in a more effective long-term solution 
to human-wildlife conflicts in the park and its environs. In future 
decisions regarding deer management we ask that priority be given to 
humane, non-lethal methods.

Large Constrictor Snakes
    The HSUS commends the U.S. Fish and Wildlife Service for listing 
four of nine species of large constrictor snakes as ``injurious,'' 
which will prohibit importation and interstate movement of these 
animals as pets. A recent, comprehensive report by the U.S. Geological 
Survey showed these snakes all pose medium or high risk to our 
environment; none are low risk. Large constrictor snakes have been 
released or escaped into the environment and have colonized Everglades 
National Park and other portions of south Florida and scientists warn 
they may become established in other areas of the country. Releasing 
these animals to fend for themselves can also lead to an inhumane death 
from starvation, dehydration, being struck by cars, or exposure to 
bitterly cold temperatures. The Service must have the resources to 
respond quickly to prevent the spread of these species and 
establishment of new ones.

Environmental Protection Agency
            Endocrine Disruptor Screening Program
    Research focused on molecular screening has the potential to 
revolutionize toxicity testing improving both its efficiency as well as 
the quality of information available for human safety assessment in the 
Endocrine Disruptor Screening Program (EDSP). These ``next generation 
tools'' will speed up the assessments of chemicals in the EDSP and 
reduce, and ultimately, replace animal use. We urge the Committee to 
incorporate the following report language:

    ``The Committee recognizes that EPA is continuing to extend 
existing long-term reproduction studies in birds, fish, and other 
species to two- or multi-generation tests for the Endocrine Disruptor 
Screening Program (EDSP). The Committee is also aware that EPA is 
considering replacing the two-generation mammalian study with an 
extended one-generation test on the basis of an international review of 
rat reproduction studies that shows the lack of utility of a second 
generation. The Committee directs EPA to maximize the efficiency of 
each protocol and minimize unnecessary costs and animal use by 
assessing the utility (including sensitivity, specificity and value of 
information added relative to the assessment of endocrine disruption) 
of each endpoint in the study, including specifically the need to 
produce more than one generation of offspring in the bird, fish and 
amphibian EDSP Tier 2 tests and issue a public report on its findings 
for comment. The Committee also directs EPA to determine what 
information the Agency requires to assess and manage potential risks to 
human health and the environment in regards to endocrine disruption, to 
minimize to eliminate unnecessary endocrine screening and testing, and 
to use existing scientific data in lieu of requiring new data, when 
possible. The Committee understands that EPA is currently working with 
OECD to develop and modify EDSP methods. EPA should work within the 
framework and timing of the OECD Test Guideline work plan to minimize 
duplicative efforts.''
            Science and Technology Account--21st Century Toxicology
    In 2007, the National Research Council published its report titled 
``Toxicity Testing in the 21st Century: A Vision and a Strategy.'' This 
report catalyzed collaborative efforts across the research community to 
focus on developing new, advanced molecular screening methods for use 
in assessing potential adverse health effects of environmental agents. 
It is widely recognized that the rapid emergence of omics technologies 
and other advanced technologies offers great promise to transform 
toxicology from a discipline largely based on observational outcomes 
from animal tests as the basis for safety determinations to a 
discipline that uses knowledge of biological pathways and molecular 
modes of action to predict hazards and potential risks. We urge the 
Committee to incorporate the following language:

    ``The Committee supports EPA's leadership role in the creation of a 
new paradigm for chemical risk assessment based on the incorporation of 
advanced molecular biological and computational methods in lieu of 
animal toxicity tests. The Committee encourages EPA to continue to 
expand its extramural and intramural support for the use of human 
biology-based experimental and computational approaches in health 
research to further define toxicity and disease pathways and develop 
tools for their integration into evaluation strategies. Extramural and 
intramural funding should be made available for the evaluation of the 
relevance and reliability of Tox21 methods and prediction tools to 
assure readiness and utility for regulatory purposes, including pilot 
studies of pathway-based risk assessments. The Committee requests EPA 
provide a report on associated funding in fiscal year 2013 for such 
activity and a progress report of Tox21 activities in the congressional 
justification request, featuring a 5-year plan for projected budgets 
for the development of Tox21 methods, including prediction models, and 
activities specifically focused on establishing scientific confidence 
in them for regulatory. The Committee also requests EPA prioritize an 
additional (1-3 percent) of its Science and Technology budget from 
within existing funds for such activity.''

Multinational Species Conservation Fund
    The administration's fiscal year 2013 budget requests $9.980 for 
the Multinational Species Conservation Fund (MSCF) program which funds 
African and Asian elephants, rhinos, tigers, great apes like chimps and 
gorillas, and sea turtles. The HSUS joins a broad coalition of 
organizations in support of the administration's request while ensuring 
that the sales from the semi-postal stamps benefiting this program 
remain supplementary to annually appropriated levels. We also request 
$13 million for the Wildlife Without Borders and International Wildlife 
Trade programs within the USFWS Office of International Affairs.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and future opportunities for funds 
from these conservation programs to be allocated to promote trophy 
hunting, trade in animal parts, and other consumptive uses--including 
live capture for trade, captive breeding, and entertainment for public 
display industry--under the guise of conservation for these animals. 
Grants made to projects under the MSCF must be consistent with the 
spirit of the law.

Protection for Walruses
    We urge this subcommittee to appropriate the necessary funds in 
fiscal year 2013 to permit the listing of the Pacific walrus, which has 
been placed on the candidate list for threatened or endangered status 
under the Endangered Species Act. The USFWS recently found that listing 
the Pacific walrus was warranted, due primarily to threats the species 
faces from loss of sea ice in its arctic habitat as a result of climate 
change. Walruses are targeted by native hunters for subsistence; 
hundreds are killed annually, with this number climbing to as many as 
7,000 in some years. In some hunting villages, females and their calves 
are preferentially killed, against the recommendation of the USFWS and 
standard management practice. By waiting to list the Pacific walrus, 
the species' likelihood of survival is in doubt. We encourage this 
subcommittee to direct the USFWS to prioritize the Pacific walrus 
listing by immediately moving forward with the listing process.

Bureau of Land Management--Wild Horse and Burro Program
    The Humane Society of the United States (The HSUS) is one of the 
leading advocates for the protection and welfare of wild horses and 
burros in the United States with a long history of working 
collaboratively with the Bureau of Land Management (BLM)--the agency 
mandated to protect America's wild horses and burros--on the 
development of effective and humane management techniques. Wild free-
roaming horses and burros deserve first to be given every chance to 
live out their lives wild and free, as the American public has clearly 
mandated and Congress has stated. When intervention is required, we owe 
them our best efforts to ensure that any human actions that affect 
their lives--such as gathers, transportation, confinement, and 
adoption--are done in a way to assure their humane treatment.
    Therefore, The HSUS strongly supports a significant reduction in 
the number of wild horses and burros gathered and removed from our 
rangelands annually. We believe removing horses from the range without 
implementing any active program for preventative herd growth is 
unsustainable, and simply leads to a continual cycle of roundups and 
removals when more long-term, cost-efficient and humane management 
strategies, such as fertility control, are readily available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. For instance, between 2001 and 2007, 
the BLM removed approximately 74,000 (an average of about 10,600 
animals per year) from the range, but could only place 3,000 horses a 
year, with the rest forced into holding facilities. The annual costs 
associated with caring for one wild horse in a long term holding 
facility is approximately $500, and the average lifespan of a wild 
horse in captivity is 30 years. Today, there are more than 47,000 wild 
horses and burros in these pens currently. In the most recently 
completed fiscal year (2011), holding costs accounted for $35.7 million 
(or 47 percent) out of a total wild horse and burro budget of $75.8 
million.
    We are encouraged by the BLM's announcement in the spring of 2011 
(referenced in the agency's fiscal year 2012 budget justifications \1\) 
regarding the agency's intent to open ``a new chapter in the management 
of wild horses, burros, and our public lands'' by fast-tracking 
``fundamental reforms'' to its current policies and procedures. 
Specifically, the agency announced that it would strengthen its 
commitment to the use of fertility control by significantly increasing 
the number of mares treated with fertility control--from 500 in 2009, 
to a target of 2,000 in each of the next 2 years. This represents a 
huge step in the right direction.
---------------------------------------------------------------------------
    \1\ Bureau of Land Management 2012 Budget Justifications (Page IV 
66-67) http://www.doi.gov/budget/2012/data/greenbook/
FY2012_BLM_Greenbook.pdf.
---------------------------------------------------------------------------
    The idea of using fertility control to efficiently manage wild 
horses and burros on the range is nothing new, and one that we have 
been actively supporting and involved with for several decades. As 
early as 1982, the National Academy of Sciences (NAS) called on the BLM 
to use immunocontraception to manage wild horse and burro populations, 
finding it an effective technology and part of a pro-active management 
strategy. And in its 1990 report on the BLM's wild horse management 
program, the U.S. Government Accountability Office (GAO) found then 
that keeping excess animals in long-term holding was costly and 
recommended that BLM examine alternatives, such as treating animals 
with reproductive controls and releasing them back on the range.\2\ 
Further, a 2008 paper determined that contraception on-the-range could 
reduce total wild horse and burro management costs by 14 percent, 
saving $6.1 million per year.\3\ Finally, the results of an economic 
model commissioned by The HSUS indicates that by treating wild horses 
and burros with the fertility control vaccine Porcine Zona Pellucida 
(PZP), the BLM could save approximately $204 million over 12 years 
while achieving and maintaining Appropriate Management Levels (AML) on 
wild horse Herd Management Areas (HMA) in the United States.
---------------------------------------------------------------------------
    \2\ GAO, Rangeland Management: Improvements Needed in Federal Wild 
Horse Program, GAO/RCED-90-110 (Washington D.C.: Aug. 20, 1990).
    \3\ Bartholow, J. 2007. Economic benefit of fertility control in 
wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.
---------------------------------------------------------------------------
    However, even with a significant increase in the number of mares 
treated and released back onto the range, by the end of fiscal year 
2012, the BLM plans to remove an additional 15,000 wild horses from our 
public lands. Since there are already over 47,000 wild horses and 
burros living in Government holding facilities today--and, on average, 
the agency is only able to find homes for approximately 3,000 animals a 
year--by 2013, there could be more than 50,000 animals in captivity. 
That's almost twice the number of wild horses and burros living on our 
public lands today, and as a result, the cost of caring for these 
animals off the range could more than double in a just a few years.
    The BLM must balance the number of animals removed from the range 
annually with the number of animals it can expect to adopt in a given 
year if it hopes to effectively reduce off-the-range management costs. 
For these reasons, we strongly support the BLM's request for a $2 
million budget increase to fund new research on contraception and 
population growth suppression methods. Developing additional methods to 
reduce wild horse population growth will allow the agency to maintain 
healthy herds while reducing the need for costly removal regimes that 
will further flood Government holding facilities with additional 
animals.
    Again, we commend the Secretary and the BLM for taking critical 
steps toward a more sustainable wild horse management program and 
believe the Subcommittee's guidance and support for humane and 
sustainable management will further the implementation of a program 
that will be of great benefit not only to our Nation's beloved wild 
horse populations, but also to the American taxpayer.
                                 ______
                                 
     Prepared Statement of the Illinois Lake Management Association

    Dear Chairman Reed, Ranking Member Murkowski, and Members of the 
Committee: The Illinois Lake Management Association (ILMA) encourages 
the subcommittee to provide the most robust funding possible for the 
State and Tribal Wildlife Grants program in fiscal year 2013. This 
program is the only one within the Federal Government with the singular 
purpose of preventing Federal endangered species listings, and it is 
achieving success as highlighted in the recent State Wildlife Grants 
Success Stories Report (http://teaming.com/tool/state-wildlife-grants-
success-stories-report-2011). We also ask that the non-Federal match 
requirement for States remain at 35 percent to help States who are 
still struggling to recover from significant reductions in conservation 
budgets to meet match requirements.
    The State and Tribal Wildlife Grants program provides critical 
capacity for State fish and wildlife agencies and their partners to 
implement congressionally required State Wildlife Action Plans. The 
program is used by States to conserve more than 12,000 fish and 
wildlife species that have been identified as at-risk, including those 
that are candidates for Federal endangered species listing. Despite the 
success of the program, the State and Tribal Wildlife Grants program 
has been cut by one-third since 2010. The reduction in funding is 
impacting States' ability to restore habitat, protect land, provide 
incentives to private landowners, monitor, conduct research and 
implement other measures needed to conserve declining fish and 
wildlife.
    The State and Tribal Wildlife Grants program supports 
implementation of State Wildlife Action Plans that were developed 
collaboratively by leading scientists, sportsmen, conservationists and 
private landowners and identified the most effective and practical 
means to prevent wildlife from becoming endangered. Congress can 
demonstrate its commitment to these plans by providing the Federal 
share of support, leveraging millions in State and private matching 
funds. This investment in conservation helps support jobs and the $730 
billion outdoor recreation industry. The State and Tribal Wildlife 
Grants program is modest compared to the scope of work it funds: The 
recovery of some of our Nation's most imperiled fish and wildlife. We 
hope the Senate Interior Appropriations Committee can provide the most 
robust funding possible for the program in fiscal year 2013.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission

    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission, on whose behalf I am 
appearing today. I appreciate the opportunity to present this statement 
to the Subcommittee regarding the views of the Compact's 24 member 
States on the fiscal year 2013 budget request for the Office of Surface 
Mining Reclamation and Enforcement (OSM) within the U.S. Department of 
the Interior. In its proposed budget, OSM is requesting $57.3 million 
to fund Title V grants to States and Indian tribes for the 
implementation of their regulatory programs, a reduction of $11 million 
or 15 percent below the fiscal year 2012 enacted level. OSM also 
proposes to reduce mandatory spending for abandoned mine lands (AML) 
program by $180 million pursuant to a legislative proposal to eliminate 
all AML funding for certified states and tribes.
    The Compact is comprised of 24 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $57.3 million for Title V grants to 
States and tribes in fiscal year 2012, an amount which is matched by 
the States each year. These grants support the implementation of State 
and tribal regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs. Pursuant to these primacy 
programs, the States have the most direct and critical responsibilities 
for conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The States 
accomplish this through a combination of permitting, inspection and 
enforcement duties, designating lands as unsuitable for mining 
operations, and ensuring that timely reclamation occurs after mining.
    In fiscal year 2012, Congress approved $68.6 million for State 
Title V grants. This continued a much-needed trend whereby the amount 
appropriated for these regulatory grants aligned with the demonstrated 
needs of the States and tribes. The States are greatly encouraged by 
the significant increases in Title V funding approved by Congress over 
the past 3 fiscal years. Even with mandated rescissions and the 
allocations for tribal primacy programs, the States saw a $12 million 
increase for our regulatory programs over fiscal year 2007 levels. 
State Title V grants had been stagnant for over 12 years and the gap 
between the States' requests and what they received was widening. This 
debilitating trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
minimize the potential adverse impacts of coal extraction operations on 
people and the environment.
    In its fiscal year 2013 budget, OSM has once again attempted to 
reverse course and essentially unravel and undermine the progress made 
by Congress in supporting State programs with adequate funding. As 
States prepare their future budgets, we trust that the recent increases 
approved by Congress will remain the new base on which we build our 
programs. Otherwise, we find ourselves backpedaling and creating a 
situation where those who were just hired face layoffs and purchases of 
much needed equipment are canceled or delayed. Furthermore, a clear 
message from Congress that reliable, consistent funding will continue 
into the future will do much to stimulate support for these programs by 
State legislatures and budget officers who each year, in the face of 
difficult fiscal climates and constraints, are also dealing with the 
challenge of matching Federal grant dollars with State funds. In this 
regard, it should be kept in mind that a 15 percent cut in Federal 
funding generally translates to an additional 15 percent cut for 
overall program funding for many States, especially those without 
Federal lands, since these States can generally only match what they 
receive in Federal money.
    It is important to note that OSM does not disagree with the States' 
demonstrated need for the requested amount of funding for Title V 
regulatory grants. Instead, OSM's solution for the drastic cuts comes 
in the way of an unrealistic assumption that the States can simply 
increase user fees in an effort to ``eliminate a de facto subsidy of 
the coal industry.'' No specifics on how the States are to accomplish 
this far-reaching proposal are set forth, other than an expectation 
that they will do so in the course of a single fiscal year. OSM's 
proposal is completely out of touch with the realities associated with 
establishing or enhancing user fees, especially given the need for 
approvals by State legislatures. IMCC's polling of its member States 
confirmed that, given the current fiscal and political implications of 
such an initiative, it will be difficult, if not impossible, for most 
States to accomplish this feat at all, let alone in less than 1 year. 
OSM is well aware of this, and yet has every intention of aggressively 
moving forward with a proposal that was poorly conceived from its 
inception. We strongly urge the Subcommittee to reject this approach 
and mandate that OSM work through the complexities associated with any 
future user fees proposal in close cooperation with the States and 
tribes before proposing cuts to Federal funding for State Title V 
grants.
    At the same time that OSM is proposing significant cuts for State 
programs, the agency is proposing sizeable increases for its own 
program operations ($4 million) for Federal oversight of State 
programs, including an increase of 25 FTEs. In making the case for its 
funding increase, OSM's budget justification document contains vague 
references to the need ``to improve the implementation of existing 
laws'' and to ``strengthen OSM's skills base.'' More specifically, OSM 
states in its budget justification document (on page 60) that ``with 
greater technical skills, OSM anticipates improved evaluation of 
permit-related actions and resolution of issues to prevent 
unanticipated situations that otherwise may occur as operations 
progress, thereby improving implementation of existing laws''. In our 
view, this is code language for enhanced and expanded Federal oversight 
of State programs. However, without more to justify the need for more 
oversight and the concomitant increase in funding for Federal 
operations related thereto, Congress should reject this request. The 
overall performance of the States as detailed in OSM's annual State 
program evaluation reports demonstrates that the States are 
implementing their programs effectively and in accordance with the 
purposes and objectives of SMCRA.\1\
---------------------------------------------------------------------------
    \1\ While not alluded to or fully addressed in OSM's budget 
justification document, there are myriad statutory, policy and legal 
issues associated with several aspects of the agency's enhanced 
oversight initiative, especially three recently adopted directives on 
annual oversight procedures (REG-8), corrective actions (REG-23) and 
Ten-Day Notices (INE-35). IMCC submitted extensive comments regarding 
the issues associated with these directives and related oversight 
actions (including Federal inspections) on January 19, 2010, July 8, 
2010 and January 7, 2011.
---------------------------------------------------------------------------
    In our view, this suggests that OSM is adequately accomplishing its 
statutory oversight obligations with current Federal program funding 
and that any increased workloads are likely to fall upon the States, 
which have primary responsibility for implementing appropriate 
adjustments to their programs identified during Federal oversight. In 
this regard, we note that the Federal courts have made it abundantly 
clear that SMCRA's allocation of exclusive jurisdiction was ``careful 
and deliberate'' and that Congress provided for ``mutually exclusive 
regulation by either the Secretary or State, but not both.'' Bragg v. 
West Virginia Coal Ass'n, 248 F. 3d 275, 293-4 (4th Cir. 2001), cert. 
denied, 534 U.S. 1113 (2002). While the courts have ruled consistently 
on this matter, the question remains for Congress and the 
administration to determine, in light of deficit reduction and spending 
cuts, how the limited amount of Federal funding for the regulation of 
surface coal mining and reclamation operations under SMCRA will be 
directed--to OSM or the States. For all the above reasons, we urge 
Congress to approve not less than $70 million for State and tribal 
Title V regulatory grants, as fully documented in the States' and 
tribes' estimates for actual program operating costs.\2\
---------------------------------------------------------------------------
    \2\ We are particularly concerned about recent OSM initiatives, 
primarily by policy directive, to duplicate and/or second-guess State 
permitting decisions through the reflexive use of ``Ten-Day Notices'' 
as part of increased Federal oversight or through Federal responses to 
citizen complaints. OSM specifically addresses this matter in its 
budget justification document (on page 69) where it states that ``OSM 
has an obligation under section 521 of SMCRA to take steps to ensure 
that all types of violations, including violations of performance 
standards or permit conditions and violations of permitting 
requirements, are corrected if the State does not take action to do so. 
Aside from the impact on limited State and Federal resources, these 
actions undermine the principles of primacy that underscore SMCRA and 
are likely to have debilitating impacts on the State-Federal 
partnership envisioned by the Act.
---------------------------------------------------------------------------
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize Title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State Title IV 
grants are funded primarily by mandatory appropriations. As a result, 
the States should have received a total of $488 million in fiscal year 
2013. Instead, OSM has budgeted an amount of $307 million based on an 
ill-conceived proposal to eliminate mandatory AML funding to States and 
tribes that have been certified as completing their abandoned coal 
reclamation programs. This $180 million reduction flies in the face of 
the comprehensive restructuring of the AML program that was passed by 
Congress in 2006, following over 10 years of Congressional debate and 
hard fought compromise among the affected parties. In addition to the 
elimination of funding for certified States and tribes, OSM is also 
proposing to reform the distribution process for the remaining 
reclamation funding to allocate available resources to the highest 
priority coal AML sites through a competitive grant program, whereby an 
Advisory Council will review and rank AML sites each year. The 
proposal, which will require adjustments to SMCRA, will clearly 
undermine the delicate balance of interests and objectives achieved by 
the 2006 Amendments. It is also inconsistent with many of the goals and 
objectives articulated by the administration concerning both jobs and 
environmental protection. We urge the Congress to reject this 
unjustified proposal, delete it from the budget and restore the full 
mandatory funding amount of $488 million. A resolution adopted by IMCC 
last year concerning these matters is attached. We also endorse the 
statement of the National Association of Abandoned Mine Land Programs 
(NAAMLP) which goes into greater detail regarding the implications of 
OSM's legislative proposal for the States and tribes, a copy of which I 
would like to submit for the record.
    We also urge Congress to approve continued funding for the AML 
emergency program. In a continuing effort to ignore congressional 
direction, OSM's budget would completely eliminate funding for State-
run emergency programs and also for Federal emergency projects (in 
those States that do not administer their own emergency programs). 
Funding the OSM emergency program should be a top priority for OSM's 
discretionary spending. This funding has allowed the States and OSM to 
address the unanticipated AML emergencies that inevitably occur each 
year. In States that have federally operated emergency programs, the 
State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events. And for minimum program States, emergency funding is critical 
to preserve the limited resources available to them under the current 
funding formula. We therefore request that Congress restore funding for 
the AML emergency program in OSM's fiscal year 2013 budget.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of AMD from 
abandoned mines. This is a perennial, and often expensive, problem, 
especially in Appalachia. IMCC therefore requests the Committee to once 
again include language in the fiscal year 2013 appropriations bill that 
would allow the use of AML funds for any required non-Federal share of 
the cost of projects by the Federal Government for AMD treatment or 
abatement.
    We also urge the Committee to support funding for OSM's training 
program, including moneys for State travel. These programs are central 
to the effective implementation of State regulatory programs as they 
provide necessary training and continuing education for State agency 
personnel. In this regard, it should be noted that the States provide 
nearly half of the instructors for OSM's training course and, through 
IMCC, sponsor and staff benchmarking workshops on key regulatory 
program topics. IMCC also urges the Committee to support funding for 
TIPS, a program that directly benefits the States by providing critical 
technical assistance. Finally, we support funding for the Watershed 
Cooperative Agreements in the amount of $1.2 million.
    Attached to our testimony today is a list of questions concerning 
OSM's budget that we request be included in the record for the hearing. 
The questions go into further detail concerning several aspects of the 
budget that we believe should be answered before Congress approves 
funding for the agency or considers advancing the legislative proposals 
contained in the budget.
    Thank you for the opportunity to present this statement.

                              ATTACHMENTS

          QUESTIONS RE OSM'S PROPOSED FISCAL YEAR 2013 BUDGET

    What does OSM plan to do with the additional $4 million that has 
been budgeted for ``enhanced Federal oversight of State regulatory 
programs''? How does OSM justify an increase in money for Federal 
oversight while decreasing money for State Title V grants? What is the 
demonstrated need for an additional 25 FTEs to perform Federal 
oversight of State programs? Will this not simply lead to duplication 
of effort, second-guessing of State decisionmaking, undermining of 
State primacy and wasted resources?
    If pressed by Congress, how expeditiously does OSM intend to push 
the States to recover more of their regulatory costs from the coal 
industry through user fees? Has OSM undertaken a full analysis of the 
administrative and rulemaking complexities inherent in such an 
undertaking?
    OSM's newest AML legislative proposal (to eliminate payments to 
certified States and tribes and to utilize a competitive bidding 
process for the allocation of remaining AML reclamation funds for non-
certified States) is the fourth time that the agency has put forth 
potential legislative adjustments to the 2006 amendments to SMCRA in 
its proposed budgets. Based on the legislative proposal we have seen to 
date, there are many more questions than answers about how this process 
will work. (See attached list) Does OSM intend to seek input from the 
States and tribes, especially given the role that the States and tribes 
will play in the bidding/selection process and the significant impact 
this will have on current program administration? What is the basis for 
OSM's proposal to essentially upend the carefully crafted legislative 
resolution related to future AML program funding and AML reclamation 
work approved by Congress in 2006? Has OSM thought and worked through 
the implications for AML program management and administration that 
would result from its legislative proposal?
    Why has OSM chosen to advocate for a hardrock AML reclamation fee 
to be collected by OSM but not distributed by OSM? Why bring another 
Federal agency (BLM) into the mix when OSM has the greater expertise in 
this area?

Specific Questions re Cost Recovery/User Fees
    OSM has requested an amount for State Title V regulatory program 
grants in fiscal year 2013 that reflects an $11 million decrease from 
fiscal year 2012. And while OSM does not dispute that the States are in 
need of an amount far greater than this, the agency has suggested once 
again that the States should be able to make up the difference between 
what OSM has budgeted and what States actually need by increasing cost 
recovery fees for services to the coal industry. What exactly will it 
take to accomplish this task?
    Assuming the States take on this task, will amendments to their 
regulatory programs be required?
    How long, in general, does it take OSM to approve a State program 
amendment?
    The State of Alabama submitted a program amendment to OSM in May 
2010 to raise current permit fees and authorize new, additional fees. 
It took OSM a full year to approve this amendment, resulting in lost 
fees of over $50,000 to the State. If OSM is unable to approve 
requested State program amendments for permit fee increases in less 
than a year, how does the agency expect to handle mandated permit 
increases for all of the primacy States within a single fiscal year?
    If OSM is not expecting to pursue this initiative in fiscal year 
2013, why include such a proposal in the budget until OSM has worked 
out all of the details with the States in the first instance?
    Speaking of which, what types of complexities is OSM anticipating 
with its proposal at the State level? Many of the States have already 
indicated to OSM that it will be next to impossible to advance a fee 
increase proposal given the political and fiscal climate they are 
facing.
    OSM's solution seems to be that the agency will propose a rule to 
require States to increase permit fees nationwide. Won't this still 
require State program amendments to effectuate the Federal rule, as 
with all of OSM's rules? How does OSM envision accomplishing this if 
the States are unable to do it on their own?
    Even if a Federal rulemaking requiring permit fee increase 
nationwide were to succeed, how does OSM envision assuring that these 
fees are returned to the States? Will OSM retain a portion of these 
fees for administrative purposes?

Specific Questions re Federal Program Increases
    In OSM's budget justification document, the agency also notes that 
the States permit and regulate 97 percent of the Nation's coal 
production and that OSM provides technical assistance, funding, 
training and technical tools to the States to support their programs. 
And yet OSM proposes in its budget to cut funding to the States by $11 
million while increasing OSM's own Federal operations budget by nearly 
$4 million and 25 FTEs. How does OSM reconcile these seemingly 
contradictory positions?
    OSM's budget justification document points out in more detail why 
it believes additional Federal resources will be needed based on its 
recent Federal oversight actions during fiscal year 2011, which 
included increased Federal inspections. Was OSM not in fact able to 
accomplish this enhanced oversight with its current resources? If not, 
where were resources found wanting? How much of the strain on the 
agency's resources was actually due to the stream protection rulemaking 
and EIS process?
    In light of recent annual oversight reports over the past 5 years 
which demonstrate high levels of State performance, what is the 
justification for OSM's enhanced oversight initiatives and hence its 
Federal program increase?
    Something has to give here--no doubt. There is only so much money 
that we can make available for the surface mining program under SMCRA. 
Both Congress and the courts have made it clear that the States are to 
exercise exclusive jurisdiction for the regulation of surface coal 
mining operations pursuant to the primacy regime under the law. It begs 
the questions of whether OSM has made the case for moving away from 
supporting the States and instead beefing up the Federal program. 
Unless the agency can come up with a better, more detailed 
justification for this realignment of resources, how can Congress 
support its budget proposal?

Specific Questions re OSM Oversight Initiative
    OSM has recently finalized a Ten-Day Notice directive (INE-35) that 
had previously been withdrawn in 2006 based on a decision by then 
Assistant Secretary of the Interior Rebecca Watson. The basis for 
terminating the previous directive was several court decisions that 
clarified the respective roles of State and Federal governments 
pursuant to the primacy regime contained in SMCRA. The Secretary's 
decision also focused on the inappropriate and unauthorized use of Ten-
Day Notices under SMCRA to second-guess State permitting decisions. 
OSM's new TDN directive flies in the face of both this Secretarial 
decision and Federal court decisions. Does OSM have a new Secretarial 
decision on this matter? If not, how can its recent action overrule 
this prior decision? Has the Solicitor's office weighed in on this 
matter? If so, does OSM have an opinion supporting the agency's new TDN 
directive? Will OSM provide that to the Committee?
    In light of limited funding for the implementation of SMCRA, how 
does OSM justify the State and Federal expenses that will necessarily 
follow from reviewing and second-guessing State permitting decisions? 
States have complained that responding to a single OSM TDN, especially 
with respect to State permitting decisions, can require the investment 
of 2-3 FTE's for upwards of a week. How do you justify this?
questions and concerns re the aml legislative proposal in osm's fiscal 

                            YEAR 2013 BUDGET

The Proposed Competitive Allocation Process
    What is the potential for this new review and ranking process to 
reduce expenditures and increase efficiency without being counter-
productive? Will it introduce an additional level of bureaucracy and 
result in more time being spent formulating proposals and less on 
actual AML reclamation? The present funding formula, while not perfect, 
at least provides some direction on which to base long term strategic 
planning and efficient use of available funds. The closest analogy to 
what OSM is proposing by way of its competitive allocation process is 
the way BLM and the Forest Service currently allocate their AML funds 
through competitive proposals to various State offices and regions. 
Because of the uncertainties of funding, neither agency has been able 
to develop significant in-house expertise, but instead often rely on 
SMCRA-funded States like Montana, New Mexico, Utah and Colorado to do a 
good portion of their AML work. Why would OSM want to duplicate a 
system that has proven problematic for other agencies?
    Who would be the ``other parties'' potentially bidding on AML grant 
funds? Would this include Federal agencies such as BLM, FS, NPS, etc? 
If so, in many cases, those agencies already rely on the States to 
conduct their reclamation work and also determine priorities based on 
State input or guidance.
    What do the State project managers and inspectors do if a State 
does not win a competitive bid for AML funds? How does a State gear up 
if it receives funding for more projects than it can handle with 
present staffing? Each State and tribe has different grant cycles. 
Unless all are brought into one uniform cycle, how will everyone 
compete for the same dollars? In this regard, how can the competitive 
allocation process and the use of the Advisory Council be more 
efficient and simple than what we already have in place?
    How long will OSM fund a State's/tribe's administrative costs if it 
does not successfully compete for a construction grant, even though the 
State/tribe has eligible high priority projects on AMLIS? How will OSM 
calculate administrative grant funding levels, especially since 
salaries and benefits for AML project managers and inspectors 
predominantly derive from construction funds? Would funding cover 
current staffing levels? If not, how will OSM determine the funding 
criteria for administrative program grants?
    How do the States and tribes handle emergency projects under the 
legislative proposal? Must these projects undergo review by the 
Advisory Council? Will there be special, expedited procedures? If a 
State/tribe has to cut back on staff, how does it manage emergencies 
when they arise? If emergency programs do compete for AML funds, 
considerable time and effort could be spent preparing these projects 
for review by the Advisory Council rather than abating the immediate 
hazard. Again, how can we be assured that emergencies will be addressed 
expeditiously?
    What ranking criteria will be used to determine the priority of 
submitted AML project grant requests? The number of people potentially 
affected? The current priority ranking on AMLIS? How would the Council 
determine whether a burning gob pile near a city presents a greater 
hazard than a surface mine near a highway or an underground mine 
beneath a residential area? Would the winning bid be the ``most 
convincing'' proposal? The one with the most signatures on a petition? 
The one with the most influential legislative delegation? Will AMLIS 
continue to serve as the primary mechanism for identifying sites and 
their priority status?
    If the current AML funding formula is scrapped, what amount will be 
paid out to the non-certified AML States and tribes over the remainder 
of the program? What does OSM mean by the term ``remaining funds'' in 
its proposal? Is it only the AML fees yet to be collected? What happens 
to the historic share balances in the Fund, including those that were 
supposed to be re-directed to the Fund based on an equivalent amount of 
funding being paid to certified States and tribes each year? Would the 
``remaining funds'' include the unappropriated/prior balance amounts 
that have not yet been paid out over the 7-year installment period? 
What about the amounts due and owing to certified States and tribes 
that were phased in during fiscal year 2009-2011?
    Has anyone alleged or confirmed that the States/tribes are NOT 
already addressing the highest priority sites for reclamation within 
the context of the current AML program structure under the 2006 
Amendments? Where have the 2006 Amendments faltered in terms of high 
priority sites being addressed as envisioned by Congress? What would 
remain unchanged in the 2006 Amendments under OSM's proposal?

The Nature and Purpose of the Advisory Council
    Who would be on the AML Advisory Council and how could they 
collectively have better decisionmaking knowledge about hazardous AML 
sites than the State and tribal project managers and administrators who 
work with these sites on a daily basis?
    What will be the criteria to serve on the Advisory Council? Will 
the Federal Advisory Committee Act (FACA) requirements apply to the 
formation and deliberations of the Council? How long does OSM envision 
it will take to establish the Council and when will it become 
operational?
    Will the Advisory Council be providing recommendations to OSM or 
will OSM make all final decisions? Will these decisions by appealable? 
If so, to who? Does OSM envision needing to develop internal guidance 
for its own review process? If so, how long will it potentially take 
from Advisory Council review and recommendation to final OSM decision 
in order to complete the grant process so a State can begin a project?
    What degree of detail will be required in order to review and 
approve competitive grant applications? Will the Council review each 
project? What type of time constraints will be placed on their review?
    Will the Advisory Council consider partial grants for projects that 
may exceed the allocation for a single year? Would minimum program 
States be authorized to apply for a grant that would exceed $3 million?
    Will grant applications be based on an individual project or will 
the grant be based on a project year? How will cost overruns be 
handled?

Planning for AML Work
    One of the greatest benefits of reauthorization under the 2006 
Amendments to SMCRA was the predictability of funding through the end 
of the AML program. Because State and tribes were provided with 
hypothetical funding levels from OSM (which to date have proven to be 
quite accurate), long-term project planning, along with the 
establishment of appropriate staffing levels and project assignments, 
could be made more accurately and efficiently. How can States/tribes 
plan for future projects given the uncertainty associated with having 
to annually bid for AML funds? NEPA compliance issues alone can take 
years of planning. One State recently asked its State Historic 
Preservation Office for initial consultation regarding project sites 
that may be reclaimed over the next 5 years. This process will also 
have significant impacts on those States that utilize multi-year 
construction contracts that are paid for with annual AML grants.
    State and tribal AML projects are often planned 18 months to 2 
years in advance of actually receiving construction funds, based on 
anticipated funding under the 2006 Amendments. During that time, States 
and tribes are performing environmental assessments, conducting 
archeology reviews, completing real estate work and doing NEPA 
analyses. There could be considerable effort and money wasted if a 
project does not get approved during the competitive allocation 
process.
    At what point does a State or Tribe seek approval from the advisory 
council? Considerable investigation must take place prior to developing 
most projects, whether they be acid mine drainage projects or health 
and safety projects. How much time should be spent in design prior to 
proceeding to the Council? How accurate must a cost estimate be prior 
to taking a project before the Council? The greater the accuracy, the 
greater the design time expended, possibly for a project that will be 
rejected.
    State and tribes often seek and obtain valuable matching funds from 
watershed groups, which take considerable lead time to acquire. It will 
be difficult to commit to partners if we don't know what level of 
funding, if any, will be made available from OSM.
    Several States have committed significant amounts of money to 
waterline projects across the coalfields. Local governmental entities 
have started designs and applied for additional funds from other 
agencies to match AML funds in order to make these projects a reality. 
Ending all AML funding for these projects (assuming they are not 
considered ``high priority'') could have significant consequences for 
local communities. Our understanding is that these projects were 
excluded under the 2006 Amendments from the priority scheme contained 
in section 403(a) of SMCRA.
    Does OSM's proposal allow acid mine drainage (AMD) projects to be 
undertaken? Can these be designated as high priority? (Our 
understanding is that those AMD projects undertaken pursuant to the 
``AMD set-aside program'' are not subject to the priority scheme under 
Section 403(a) and that those AMD projects done ``in conjunction with'' 
a priority 1 or 2 project are considered ``high priority''.) How do 
States handle ongoing engineering, operating and maintenance costs for 
existing AMD treatment systems? As the administration works diligently 
to develop a new rule to protect streams nationwide, why would it 
advance a proposal to essentially halt the cleanup of streams funded by 
the AML program?

Overarching Concerns
    Given the original design of SMCRA by its framers that AML funds 
will only be allocated to those States who agree to implement Title V 
regulatory programs for active mining operations, to what extent can we 
expect that States will continue to implement and fund their Title V 
programs if Title IV funding is drastically cut or eliminated under the 
proposal? Furthermore, since States and tribes will not know what level 
of AML program staffing to maintain from year to year under the 
proposal, who would desire to work for a program that is in a constant 
state of flux?
    The SMCRA 2006 Amendments were the result of roughly 10 years of 
negotiations, discussions, and debates in Congress. Since the 
legislative process to enact these new proposed changes could take 
years, why didn't OSM begin with the legislation and then follow up 
with an appropriate budget proposal? Why weren't the States/tribes or 
the NAAMLP included in discussions that led to this legislative 
proposal?
    As OSM develops the legislative proposal for a competitive bidding 
process, the agency should consider the impacts on minimum programs and 
consider maintaining the minimum allocation of $3 million for minimum 
program States.
    What type of State AML plan amendments does OSM foresee as a result 
of this new process?

Proposed Elimination of Funding for AML Emergencies
    While amendments to Title IV of SMCRA in 2006 (Public Law 109-432) 
adjusted several provisions of the Act, no changes were made to OSM's 
emergency powers in Section 410. Quite to the contrary, Section 
402(g)(1)(D)(2) states that the Secretary shall ensure ``strict 
compliance'' with regard to the States' and tribes' use of non-
emergency grant funds for the priorities listed in Section 403(a), none 
of which include emergencies. The funding for the emergency program 
comes from the Secretary's discretionary share, pursuant to Section 
402(g)(3) of the Act. This share currently stands at $416 million. 
OSM's elimination of funding for the emergency program will result in 
the shift of approximately $20 million annually that will have to be 
absorbed by the States. This is money that cannot be spent on high 
priority AML work (as required by SMCRA) and will require the 
realignment of State AML program operations in terms of personnel, 
project design and development, and construction capabilities. In most 
cases, depending on the nature and extent of an emergency project, it 
could preclude a State's ability to undertake any other AML work during 
the grant year (and even following years), especially for minimum 
program States. How does OSM envision States and tribes being able to 
meet their statutory responsibility to address high priority AML sites 
in light of the elimination of Federal funding for AML emergencies? How 
does OSM reconcile this proposal with the intentions of Congress 
expressed in the 2006 amendments to move more money out of the AML Fund 
sooner to address the backlog of AML problems that continue to linger?

Proposed Elimination of Funding to Certified States and Tribes
    From what we can ascertain, OSM proposes to eliminate all payments 
to certified States and tribes--in lieu of funds; prior balance 
replacement funds; and monies that are due and owing in fiscal year 
2018 and 2019 from the phase-in during fiscal years 2008 and 2009. Is 
this accurate? OSM says nothing of what the impact will be on non-
certified States as a result of eliminating these payments to certified 
States and tribes--especially the equivalent payments that would 
otherwise be made to the historic production share that directly relate 
to ``in lieu of'' payments to certified States and tribes under section 
411(h)(4). Previously, OSM has stated that ``the amounts that would 
have been allocated to certified States and tribes under section 
402(g)(1) of SMCRA will be transferred to the historical production 
allocation on an annual basis to the extent that those States and 
tribes receive in lieu payments from the Treasury (through the 
Secretary of the Interior) under section 402(i) and 411(h)(2) of 
SMCRA.'' By OSM's own admission in its fiscal year 2013 proposed 
budget, this will amount to $1.2 billion over 10 years. If the in lieu 
payments are not made (as proposed), how can the transfer to historic 
production occur? The result, of course, would be a drastic impact on 
the historic production allocation otherwise available to uncertified 
States. Will OSM address this matter in its proposed legislation? If 
so, how?
    Has OSM considered the fiscal and programmatic impacts that could 
result if the certified States and tribes, who no longer receive AML 
monies, choose to return their Title V regulatory programs to OSM 
(especially given the severe reductions being proposed for fiscal year 
2013 in Title V grants)?
    Finally, how do the cuts in the Title IV program line up with the 
administration's other economic, fiscal and environmental objectives as 
articulated in the deficit reduction and jobs bills that have been 
considered by Congress? These objectives include environmental 
stewardship, cleaning up abandoned mines (coal and noncoal) nationwide, 
creating green jobs, pumping dollars into local communities, putting 
money to work on the ground in an expeditious manner, sustainable 
development, infrastructure improvements, alternative energy projects, 
protecting public health and safety, and improving the environment. It 
seems to us that there is a serious disconnect here and we remain 
mystified as to how these laudable objectives and OSM's budget proposal 
can be reconciled.
                                 ______
                                 
                               RESOLUTION
                  INTERSTATE MINING COMPACT COMMISSION

BE IT KNOWN THAT:

WHEREAS, Title IV of the Surface Mining Control and Reclamation Act of 
        1977 (SMCRA) established the Abandoned Mine Land (AML) 
        reclamation program; and
WHEREAS, the Interstate Mining Compact Commission (IMCC) is a multi-
        state organization representing the natural resource and 
        environmental protection interests of its 24 member States, 
        including the elimination of health and safety hazards and the 
        reclamation of land and water resources adversely affected by 
        past mining and left in an abandoned or inadequately restored 
        condition; and
WHEREAS, pursuant to the cooperative federalism approach contained in 
        SMCRA, several IMCC member States administer AML programs 
        approved, funded and overseen by the Office of Surface Mining 
        Reclamation and Enforcement (OSM) within the U.S. Department of 
        the Interior; and
WHEREAS, SMCRA, Title IV establishes a reclamation fee on each ton of 
        coal mined in the United States to pay for abandoned mine land 
        reclamation; and
WHEREAS, SMCRA, Title IV mandates that 50 percent of the reclamation 
        fees collected annually are designated as State share funds to 
        be returned to the States from which coal was mined to pay for 
        reclamation projects pursuant to programs administered by the 
        States; and
WHEREAS, SMCRA, Title IV also mandates that a minimum level of funding 
        should be provided to ensure effective State program 
        implementation; and
WHEREAS, Congress enacted amendments to SMCRA in 2006 to address, among 
        other things, continued collection of AML fees and funding for 
        State programs to address existing and future AML reclamation; 
        and
WHEREAS, the 2006 Amendments established new, strict criteria that 
        ensure States expend funds on high priority AML sites; and
WHEREAS, the proposed 2012 budget for the Office of Surface Mining 
        Reclamation and Enforcement within the U.S. Department of the 
        Interior would disregard the State-Federal partnership 
        established under SMCRA and renege on the funding formula under 
        the 2006 Amendments by, among other things, eliminating 
        mandatory funding for States who have certified the completion 
        of their coal reclamation work and adjusting the mechanism by 
        which non-certified States receive their mandatory funding 
        through a competitive bidding process; and
WHEREAS, if statutory changes are approved by Congress as suggested by 
        the proposed fiscal year 2012 budget for OSM, reclamation of 
        abandoned mine lands within certified States would halt; 
        reclamation of abandoned mine lands in all States would be 
        jeopardized; employment of contractors, suppliers, technicians 
        and others currently engaged in the reclamation of abandoned 
        mine lands would be endangered; the cleanup of polluted lands 
        and waters across the United States would be threatened by 
        failing to fund reclamation of abandoned mine lands; minimum 
        program State funding would be usurped; the AML water supply 
        replacement program would be terminated, leaving coalfield 
        citizens without potable water; and the intent of Congress as 
        contained in the 2006 Amendments to SMCRA would be undermined

NOW THEREFORE BE IT RESOLVED:

That the Interstate Mining Compact Commission opposes the legislative 
proposal terminating funding for certified States and altering the 
receipt of mandatory AML funding for non-certified States contained in 
the fiscal year 2012 budget proposal for the Office of Surface Mining 
Reclamation and Enforcement and instead supports the AML funding 
mechanism contained in current law.

                                   Issued this 10th day of March, 2011

                                   ATTEST:

                                   Gregory E. Conrad,
                                   Executive Director.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team

    Thank you for the opportunity to testify today and to address the 
serious funding needs that have limited and continue to hinder the 
operations of Tribal judicial systems in Indian Country. I am the Lead 
Judge representing the Independent Tribal Court Review Team. We thank 
this Committee for the additional $10 million funding in fiscal year 
2010. These funds were a blessing to Tribes. Even minimal increases 
were put to good use. It is the strong recommendation of the 
Independent Tribal Courts Review Team that the Federal Tribal Courts 
budget be substantially increased in fiscal year 2013 to support the 
needs of Tribal judicial systems.

Budget Priorities, Requests and Recommendations
    +$10 million increase for tribal courts above the fiscal year 2010 
enacted level
    Fully fund all provisions of the Tribal Law and Order Act of 2010
    +$58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds have been appropriated to date)
    The budget requests will support:
  --Hiring and Training of Court Personnel
  --Compliance with the Tribal Law and Order Act of 2010
  --Salary Increases for Existing Judges and Court Personnel
  --State-of-the-Art Technology for Tribal Courts
  --Security and Security Systems to Protect Court Records and Privacy 
        of Case Information
  --Tribal Court Code Development
  --Financial Code Development

Background
    The Bureau of Indian Affairs (BIA) within the Department of the 
Interior provides funding to Tribal governments to supplement their 
justice systems including courts. Tribal courts play a ``vital role'' 
in Tribal Self-Determination and Self-Governance as cited in 
longstanding Federal policy and acts of Congress. Funding levels from 
BIA to support Tribal justice systems have not met the Federal 
obligations.
    For the past 6 years, the Independent Court Review Team has been 
traveling throughout Indian Country assessing how Tribal Courts are 
operating. During this time, we have completed approximately 84 court 
reviews. There is no one with more hands-on experience and knowledge 
regarding the current status of Tribal Courts than our Review Team.
    We have come into contact with every imaginable composition of 
Tribe; large and small, urban and rural, wealthy and poor. What we have 
not come into contact with is any Tribe whose Court system is operating 
with financial resources comparable to other local and State 
jurisdictions.

Justification for Request
    Hiring and Training of Court Personnel.--Tribal Courts make do with 
underpaid staff, under-experienced staff and minimal training. (We have 
determined that hiring Tribal members limits the inclination of staff 
to move away; a poor excuse to underpay staff.)
    Compliance with the Tribal Law and Order Act of 2010.--To provide 
Judges, Prosecutors, Public Defenders, who are attorneys and who are 
bared to do ``enhanced sentencing'' in Tribal courts.
    Salary Increases for Existing Judges and Court Personnel.--Salaries 
should be comparable to local and State Court personnel to keep pace 
with the non-Tribal judicial systems and be competitive to maintain 
existing personnel.
    Tribal Courts Need State-of-the-Art Technology (software, 
computers, phone systems, tape recording machines).--Many Tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends.
    Security and Security Systems to Protect Court Records and Privacy 
of Case Information.--Most Tribal Courts do not even have a full time 
Bailiff, much less a state-of-the-art security system that uses locked 
doors and camera surveillance. This is a tragedy waiting to happen.
    Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of Tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with under-
developed Codes. The Adam Walsh Act created a hardship for Tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
Tribal jurisdiction.)
    Financial Code Development.--We have rarely seen Tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from Tribe to Tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among Tribes.

Tribal Courts Review
    There are many positive aspects about Tribal Courts. It is clear 
that Tribal Courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their Court systems. Tribes with even modest resources tend to 
allocate funding to Courts before other costs. After decades of 
existence, many Tribal Courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian Courts.
    Tribal Courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and Non-Indian Courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained Judges, without doing away with 
Judges who have cultural/traditional experience. Tribal Court systems 
have Appellate Courts, jury trials, well-cared-for Courthouses (even 
the poorer Tribes), and Tribal Bar listings and fees. Perhaps most 
importantly, Tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate Courts and Judges from political 
pressure. No longer in Indian country are Judges automatically fired 
for decisions against the legislature.
    Our research indicates Tribal Courts are at a critical stage in 
terms of need. Nationwide, there are 184 Tribes with Courts that 
received $24.7 million in Federal funding in 2011. Assessments have 
indicated that the Bureau of Indian Affairs only funds Tribal Courts at 
26 percent of the funding needed. This is further documented in the BIA 
budget book under the Tribal Priorities Allocation Account/Tribal 
Courts reflecting only a $1 million increase ``to enhance the ongoing 
daily operations of the Indian Affairs funded Tribal courts and Courts 
of Federal Regulations throughout Indian Country''. That's real bang 
for the buck and certainly validates the adage ``you get what you pay 
for''! The lack of investment in Tribal Courts is an atrocity given the 
challenges and impediments they must endure to remain effective. Tribes 
who have economic development generally subsidize their Tribal Courts. 
On the flip side, Tribes who cannot afford to assist in the financial 
operations of the Court are tasked with doing the best they can with 
what they have even at the expense of decreasing or eliminating 
services elsewhere. This while operating at a disadvantage with already 
overstrained resources and underserved needs of the Tribal citizens. 
The assessment suggests that the smaller Courts are both the busiest 
and most underfunded.
    The grant funding in the DOJ is intended to be temporary, but 
instead it is used for permanent needs; such as funding a Drug Court 
Clerk who then is used as a Court Clerk with Drug Court duties. When 
the funding runs out, so does the permanent position. We have witnessed 
many failed Drug Courts, failed Court management software projects (due 
to training costs) and incomplete Code development projects. When the 
Justice funding runs out, so does the Project.
    As a directive from the Office of Management and Budget, our 
Reviews specifically examined how Tribes were using Federal funding. In 
the last 6 fiscal years through fiscal year 2011 there were only two 
isolated incidents of a questionable expenditure of Federal funds. It 
is speculated that because of our limited resources, we compromise 
one's due process and invoke ``speedy trials'' violations to save 
Tribal Courts money. Everyone who is processed through the Tribal 
judicial system is afforded their Constitutional civil liberties and 
civil rights.
    We do not wish to leave an entirely negative impression about 
Tribal Courts. Tribal Courts need an immediate, sustained and increased 
level of funding. True. However, there are strong indications that the 
Courts will put such funding to good use.
    There are Tribes like the Fort Belknap Tribe of Montana whose Chief 
Judge manages both offices and holds Court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
Team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the Tribes to fix the damaged ceilings.
    Tribal Courts have other serious needs. Tribal Appellate Court 
Judges are mostly Attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
Courts offer Jury Trials. In many Courts, one sustained Jury Trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many Tribal Courts have Defense Advocates. These advocates 
are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in Court budgets and if 
the defense advocate, or Prosecutor, should leave, the replacement 
process is slow.
    We feel it is our duty to come here on behalf of Tribes to advocate 
for better funding. Tribes ask us to tell their stories. They open 
their files and records to us and say, ``We have nothing to hide''. 
Tell Congress we need better facilities, more law enforcement, more 
detention facilities, more legal advice, better codes . . .  the list 
goes on and on. But, as we have indicated, it all involves more 
funding. This Congress and this administration can do something great. 
Put your money where your promises have been.

National Requests
    We support the requests and recommendations of the National 
Congress of American Indians. We support the increases for: contract 
support costs of $8.8 million, law enforcement of $30 million, 10 
percent increase over 2012 for TPA and an additional $10 million for 
Tribal Courts.
    On behalf of the Independent Tribal Court Review Team, Thank you.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America appreciates the opportunity to 
submit testimony for the record concerning appropriations for fiscal 
year 2013 for various agencies and programs under the jurisdiction of 
the Subcommittee. The League is a national, nonprofit organization with 
more than 39,000 members and 250 local chapters nationwide. Our members 
are committed to advancing common sense policies that safeguard 
wildlife and habitat, support community-based conservation, and address 
pressing environmental issues. The following pertains to programs 
administered by the Departments of Agriculture and Interior, Fish and 
Wildlife Service, U.S. Geological Survey, and Environmental Protection 
Agency.

Keep Fiscal Year 2013 Bill Free of Extraneous Policy Provisions
    This year, the American people will be celebrating the 40th 
anniversary of passage of the Clean Water Act. With this in mind, the 
League strongly urges the Subcommittee not to accept any provision in 
its fiscal year 2013 bill barring the Environmental Protection Agency 
(EPA) from finalizing and implementing Clean Water Act guidance or 
proceeding with the formal rulemaking process to revise its clean water 
regulations. Our organization and other hunting, angling and 
conservation groups across the country actively opposed a similar 
provision advanced by the U.S. House in its fiscal year 2012 bill.
    Since proposing draft guidance last spring, EPA has conducted a 
nearly unprecedented public engagement process for agency guidance. 
During this process, EPA and the Army Corps of Engineers held a 90-day 
public comment period. The agencies received more than 230,000 comments 
and have publicly stated that 90 percent of individual comments 
supported the proposal. In mid-February 2012, the Corps and EPA 
submitted revised guidance to the Office of Management and Budget (OMB) 
for another round of inter-agency review. This process also allows 
nongovernmental organizations to meet with OMB to discuss this policy.
    Guidance proposed by EPA and the Corps is based on sound science 
and clearly complies with the Supreme Court decisions in SWANCC and 
Rapanos. Allowing EPA to proceed with guidance will partially restore 
protections for streams flowing to public drinking water supplies for 
117 million Americans. It will also begin--but only begin--to restore 
protections for some wetlands. Healthy wetlands provide essential 
habitat for waterfowl, fish, and other wildlife, offer cost-effective 
flood protection, and improve water quality. They also support hunting, 
angling, and wildlife watching, which together inject $122 billion 
annually into our economy. Finalizing the guidance will also provide 
more clarity and certainty about Clean Water Act implementation to 
landowners, developers, agency personnel, and State and local 
governments.

Departments of Agriculture and Interior, Land and Water Conservation 
        Fund (LWCF)
    The League supports providing $450 million for the LWCF in fiscal 
year 2013 as requested by the administration. It is important to begin 
to reinvest in strategic land acquisition to protect critical habitat, 
secure valuable in-holdings, and expand recreational access to existing 
Federal public lands. Dramatically reducing funding for LWCF will not 
provide meaningful savings to taxpayers because it is capitalized with 
revenue from offshore oil and gas drilling. As importantly, diverting 
resources from LWCF to offset other expenditures from the general 
treasury directly undermines the fundamental premise on which LWCF is 
based. That common sense premise is a portion of the revenue generated 
by natural resource extraction should be invested in conserving other 
natural resources at the national, regional, and State levels.
    In addition to supporting the overall request, the League backs 
proposals by the Bureau of Land Management (BLM) and USDA Forest 
Service to allocate $2.5 million and $5 million, respectively, to 
projects which expand recreational access to existing public lands 
through easements or acquisition from willing sellers. The League and 
many other national hunting, angling, and conservation groups support 
legislation in Congress that would achieve a similar purpose by 
annually allocating 1.5 percent of LWCF appropriations to expand 
recreational access.

Fish and Wildlife Service, National Wildlife Refuge System Operations 
        and Maintenance
    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 22 wildlife, 
sporting, conservation, and scientific organizations representing 
approximately 15 million of members and supporters, in supporting the 
$495 million requested for operations and maintenance of the National 
Wildlife Refuge system.
    The League and CARE groups appreciate the importance of fiscal 
discipline and making strategic spending decisions. CARE annually 
develops an estimate of the operations and maintenance budget that is 
necessary to effectively provide visitor services and law enforcement 
and conserve and manage fish, wildlife, and habitat across the refuge 
system. CARE estimates operations and maintenance needs total $900 
million annually. Although our long-term goal is to make steady 
progress toward a budget which more accurately reflects demands on the 
ground, the fiscal year 2013 request balances fiscal responsibility 
with pressing resource conservation, visitor services, and law 
enforcement needs.

Fish and Wildlife Service, State and Tribal Wildlife Grants
    As a member of the Teaming with Wildlife Coalition, the League 
urges the Subcommittee to provide at least $61 million in fiscal year 
2013 for State and Tribal Wildlife Grants. This amount equals the 
administration's request and the appropriation for the current fiscal 
year. State Wildlife Grants support proactive conservation projects 
aimed at preventing wildlife from becoming endangered. Experience shows 
that efforts to restore imperiled wildlife can be particularly 
contentious and costly when action is taken only after species are 
formally listed as threatened or endangered pursuant to the Endangered 
Species Act. State Wildlife Grants augment State and community-based 
efforts to safeguard habitat and wildlife before either reaches the 
tipping point. The Federal investment leverages significant funding 
from private, State, and local sources.

U.S. Geological Survey, Asian Carp Research and Control
    Asian carp pose a serious and potentially devastating threat to the 
long-term health of the Great Lakes. Asian carp have been steadily 
migrating north along the Mississippi River and could reach the Great 
Lakes through a system of canals that artificially connect the 
Mississippi River and Great Lakes basins. Experts warn invasive carp 
could devastate the $7 billion commercial and recreational fishery in 
the Great Lakes. In fiscal year 2013, the U.S. Geological Survey (USGS) 
requests a $3 million increase to accelerate research designed to 
detect, limit, and control carp in the Upper Mississippi River and 
Great Lakes. In the Upper Mississippi region, the research would focus 
on improving methods to detect Asian carp populations at low levels and 
identifying habitats most vulnerable to colonization. In the Great 
Lakes, research would be directed toward developing methods for oral 
delivery of fish toxicants, identifying and developing chemical 
attractants to aid in targeted removal of carp, and testing seismic 
technology as a means of restricting the passage of carp through locks 
and other navigation infrastructure.
    The League believes one of the most effective ways to safeguard the 
Great Lakes from aquatic invasive species is to restore the natural 
hydrologic separation between the Great Lakes and Mississippi River 
basins. In the mean time, we support this request, which represents a 
prudent near-term investment in invasive carp control.

U.S. Geological Survey/Environmental Protection Agency, Hydraulic 
        Fracturing Research and Analysis
    The League supports requests by the USGS and Environmental 
Protection Agency (EPA) for funding to continue and augment research 
concerning the potential effects of high-volume hydraulic fracturing on 
water and air quality, surface and groundwater resources, habitat, and 
fish and wildlife. The League supports responsible development of 
domestic energy resources, including natural gas, as well as greater 
emphasis on renewable sources and energy efficiency in order to improve 
energy independence and security. At the same time, the accelerated use 
of hydraulic fracturing in the Marcellus region, in particular, 
continues to outpace our knowledge about potential negative impacts on 
a wide range of natural resources.
    The proposed budget would augment research across a range of 
issues. For example, the USGS requests approximately $18.6 million for 
fracturing-related research. With this funding, USGS would prioritize 
research on water quality and supply, air quality, characterizing gas 
resources and the related geologic formations, movement of methane gas 
during the drilling process, and the impacts of fracturing on 
landscapes, habitat, and other natural resources. EPA is requesting 
approximately $14 million in fiscal year 2013 for research in this 
area. This will support an ongoing EPA study assessing the impacts of 
hydraulic fracturing on water resources and other applied research in 
cooperation with USGS and the Department of Energy.

Environmental Protection Agency, Great Lakes Restoration Initiative
    The League supports providing $300 million as requested for the 
Great Lakes Restoration Initiative. The Great Lakes provide drinking 
water to 35 million people and support jobs and recreational 
opportunities for millions more. However, the health of the Great Lakes 
is seriously threatened by untreated sewage, toxic pollution, invasive 
species, and habitat loss. The eight States that border the Lakes and 
many non-governmental organizations have invested significant resources 
to safeguard these national treasures. Sustained Federal investment at 
a significant level is also needed or the problems will only get worse 
and cost even more to fix.
    Cleaning up the Great Lakes will provide many benefits, including 
economic development in the region. According to the Brookings 
Institution, Great Lakes restoration efforts produce $2 in economic 
return for every $1 invested. Restoration projects create jobs for 
engineers, landscape architects, and construction workers and improve 
water quality, support outdoor recreation, and reestablish healthy fish 
and wildlife habitat. These results lay the foundation for long-term 
prosperity in the region.

Environmental Protection Agency, Non-point Source Management Program 
        (Clean Water Act Section 319)
    The League is concerned that Congress and EPA have reduced funding 
for Section 319, the Non-point Source Management Program. These 
reductions are counterproductive as EPA and many States report that 
non-point source pollution is the leading cause of water quality 
problems, including harmful effects on drinking water supplies, 
recreation, fisheries and wildlife. Based on the pressing nature of the 
problem, it makes sense to invest resources that help States and local 
governments more aggressively tackle non-point source pollution. The 
League urges the Subcommittee to provide at least the amount requested 
by EPA for Section 319.

Environmental Protection Agency, Chesapeake Bay Program
    The League supports the administration's request for approximately 
$72.6 million in fiscal year 2013 for the Chesapeake Bay Program. The 
Chesapeake Bay is the largest estuary in the United States and one of 
the largest in the world. More than 16 million people live within the 
Bay watershed. The Bay is a critical economic, environmental, and 
recreational resource for these residents and the Nation as a whole. 
However, the productivity and health of this nationally significant 
resource remain seriously impaired by nutrient pollution from multiple 
sources throughout the watershed.
    The EPA and States have launched a significant and rigorous effort 
to cut pollution and improve water quality. Few would argue that 
implementing the total maximum daily load (TMDL) will not be 
challenging or not require significant investment to reduce point and 
non-point source pollution. However, EPA is requesting additional 
funds, in part, to support States, local governments, and other 
partners as they begin implementing the TMDL. The League believes it is 
essential to provide technical and financial assistance to achieve 
results on-the-ground and lay the foundation for sustained pollution 
reductions over the long-term.
    The Izaak Walton League appreciates the opportunity to testify 
about these important issues.
                                 ______
                                 
 Prepared Statement of the Jamestown S'Klallam Tribe, Washington State

    On behalf of the Jamestown S'Klallam Tribe, we are pleased to 
submit this written testimony on our funding priorities and requests 
for the fiscal year 2013 Bureau of Indian Affairs (BIA) and Indian 
Health Service (IHS) budgets. While we recognize that Congress faces 
unusually difficult funding decisions this year, funding for Tribal 
programs and services must be a priority in the Federal budget if the 
United States is to fulfill its trust obligation and live up to the 
promises made to American Indian/Alaska Native (AI/AN) Tribal 
governments.
    Congressional support of our proposed funding initiatives will 
promote efficiency and accountability, strengthen reservation and 
surrounding local economies, and affirm Tribal sovereignty and Self-
Governance. We have long appreciated this Subcommittee's support of our 
funding requests and are pleased to submit the following 
recommendations and requests:

Tribal-Specific Appropriation Priorities
    $495,000 land purchase for Tamanowas Rock Sanctuary Project
    $200,000 increase to BIA tribal base budget for fish & wildlife 
management

Local/Regional Requests and Recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.

National Requests and Recommendations
            BIA Requests
    Provide $89 million increase for tribal priority allocations;
    Provide $8.8 million increase for BIA contract support cost (CSC);
    Provide $13.7 million increase for fixed costs/pay costs;
    Restoration and increase funding for Indian Loan Guarantee Program; 
and
    Establishment and funding for a Surety Bonding Guarantee Program.
            IHS Requests
    Hold Harmless Indian Health Programs;
    Provide $99.4 million increase over President's fiscal year 2013 
budget to fully fund contract support costs;
    Provide $304 million increase to fund mandatory costs for current 
services;
    Provide $45 million increase for the Indian Health Care Improvement 
Fund.
    The leadership of the Jamestown S'Klallam Tribe remains actively 
involved in both the National Congress of American Indians (NCAI) and 
the National Indian Health Board (NIHB).and we are extremely supportive 
of their requests.

Tribal-Specific Appropriation Justification
            $495,000 land purchase for Tamanowas Rock Sanctuary Project
    The purpose of the project is to preserve Tribal cultural and 
ceremonial access to an important archaeological site of the S'Klallam 
American Indian people. Tamanowas Rock, located in Eastern Jefferson 
County on the Olympic Peninsula of Washington State, is of great 
cultural and spiritual significance to the Tribes in the region, and 
also holds special significance for the local non-Indian community. As 
a geological formation, the estimated age of the Rock is 43 million 
years. More importantly, the oral history associated with the Rock 
among the local Tribes includes the era of the mastodons (extinct for 
8,000 years), when it was used as a perch by Tribal hunters and a story 
of a great flood (assumed to be a tsunami from around 3,000 years ago) 
when people tied themselves to the Rock to avoid being swept away.
    In 1976, the Rock was listed in the Washington Heritage Register as 
having significant archaeological interest. The Tribes, Washington 
State Parks, and local community have been working for more than 13 
years to try to protect the Rock from development. In February 2005, 
the Jamestown S'Klallam Tribe, acting on behalf of all the S'Klallam 
Tribes, obtained loans to purchase a 20 acre parcel and a group of 
platted properties totaling 66.32 acres (if dedicated roads are 
vacated, the acreage is closer to 100 acres for the platted 
properties). This property was in imminent threat of development in the 
vicinity of the Rock. We are taking the lead to seek funds to purchase 
the land and the remaining 80 acres directly surrounding Tamanowas 
Rock, all of which would be protected in perpetuity.
            $200,000 increase to BIA tribal base budget for fish & 
                    wildlife management
    Jamestown S'Klallam Tribe is one of four Tribes that signed the 
Point No Point Treaty with the U.S. Government in 1855. The U.S. 
Government formally recognized Jamestown in 1981. By then, the BIA was 
contracting with Tribes to provide fisheries management services. The 
Point No Point Treaty Council (PNPTC) was serving as the fisheries 
management agency for the other Klallam and Skokomish Tribes. Rather 
than redistribute the funding pie, Jamestown received a smaller portion 
for fisheries management in relation to the other three Tribes. Even 
with Self-Governance, the BIA continues to distribute contracted funds 
based on funding history, thus Jamestown receives a significantly 
smaller portion of the PNPTC base funding than the other three Tribes. 
The Jamestown S'Klallam Tribe is nonetheless required to meet the basic 
fisheries and wildlife management responsibilities of U.S. v. 
Washington including planning, negotiation, regulation, technical 
expertise and enforcement.
    In addition to meeting our own responsibilities under U.S. v. 
Washington, our Tribal staff regularly perform the essential fisheries 
management duties that other governmental jurisdictions are charged 
with but either do not administer or administer poorly. As a result, 
Treaty Tribes are assuming responsibility for observing, documenting 
and urging the agencies with regulatory responsibilities to act in 
order to preserve critical fish habitat and protect dwindling fish 
species from further decline. Development pressures along streams and 
rivers have increased the need for local government monitoring and 
enforcement of shoreline regulations; however, local and State funding 
shortfalls have contributed to the decline in biologists and 
environmental enforcement officers. Our immediate concerns are that as 
State and local governments cut back on their capacity to carry out and 
enforce these obligations, our Treaty rights are further imperiled. The 
$200,000 increase to our fiscal year 2012 Self-Governance base is 
needed to implement these essential treaty fish and wildlife management 
services.

National Requests and Priorities
            BIA requests
    The President has committed to support and advance Tribal Self-
Determination and Self-Governance for the Nation's 567 federally 
recognized Tribes. Consistent with that commitment, the fiscal year 
2012 budget should include the following critical increases:
  --TPA General Increase--Provide $89 million (10 percent increase over 
        fiscal year 2012 enacted).--TPA is one of the most important 
        funding areas for Tribal governments. Tribes use these funds to 
        administer social service programs for our Tribal communities 
        including, critical services such as law enforcement, 
        education, transportation, natural resources and economic 
        development. This funding has steadily eroded due to inflation 
        and population growth. We urge you to adequately fund TPA to 
        enhance the health and well-being of Tribal reservations and 
        the surrounding non-Native communities.
  --Contract Support Costs--Provide $8.8 million increase as included 
        in the President's fiscal year 2013 budget request for BIA to 
        fully fund contract support cost (CSC).--The Indian Self-
        Determination and Education Assistance Act of 1975, (Public Law 
        93-638) allowed Indian Tribes to manage Federal trust programs 
        for the benefit of their citizens that would otherwise be 
        administered by the U.S. Government. Under Self-Determination 
        contracts or Self-Governance compacts, Tribes administer a vast 
        array of governmental services, including healthcare, law 
        enforcement services, education, housing, land and natural 
        resource management, as well as many other vital social service 
        programs. The greatest impediment to the successful 
        administration of these trust programs is the failure on the 
        part of the U.S. Government to fully fund contract support 
        costs.
  --Fixed Costs/Pay Costs--Provide $13.7 million increase.--Most 
        Federal agencies receive adjustments to their fixed cost rates 
        each year to cover inflationary costs associated with fringe 
        benefits and pay costs. Tribes have never received similar 
        adjustments to account for these costs.
  --Indian Loan Guarantee Program--Restoration and increase funding.--
        The Bureau of Indian Affairs (BIA) loan guarantee program is 
        vital to Tribes because it creates jobs, provides new sources 
        of revenue to Tribal communities, and critical support in 
        advancing economic development in Indian Country. Part of the 
        rationale to cut back this program is that the program could be 
        duplicating other services, such as SBA loan programs. This 
        assumption is wrong and will undermine the Tribes economic 
        development efforts.
  --Surety Bonding--Establishment and funding of a Surety Bonding 
        Program.--There has long been a need for a Surety Bonding 
        program for Indian Country. The traditional bonding industry--
        uncomfortable and unfamiliar with sovereign Tribes--requires 
        excessive waivers of sovereign immunity to issue surety bonds 
        for our companies requiring these bonds. This industry 
        impediment clearly suppresses our business opportunities.
            IHS requests
    Our Tribe strongly encourages the following:
  --Hold Harmless.--Hold Indian health programs harmless and protect 
        prior year and proposed fiscal year 2012 and fiscal year 2013 
        increases from budget roll-backs, freezes and rescissions. We 
        are encouraged by the increased investments in Indian health we 
        are equally concerned that efforts by Congress and the 
        administration to reduce the overall size of the Federal budget 
        may jeopardize the recent progress.
  --Contract Support Costs (CSC)--Provide $145 million for IHS to fully 
        fund CSC, including direct CSC.--Tribal healthcare systems have 
        proven successful in providing quality, culturally appropriate 
        services to their citizens. However, the success of the program 
        will not be realized, without adequate CSC funding to support 
        these efforts.
  --Fund Mandatory Costs--$400 million.--Mandatory costs include 
        adjustments for inflation, pay costs, staffing for new 
        facilities and population increases. Failing to fund these 
        mandatory requirements forces the Tribes to cut vital 
        healthcare services.
  --Fund the Indian Health Care Improvement Fund--$45 million.--The 
        purpose of the Indian Health Care Improvement Fund is to ensure 
        the equitable provision of healthcare services to Indian 
        people. The fiscal year 2010 $45 million appropriation brought 
        all operating units within the IHS to a 45 percent Level of 
        Need Funded (LNF). We are requesting $45 million in 2013 to 
        further decrease the disparity.
    In closing, thank you for this opportunity to provide this written 
testimony.
                                 ______
                                 
        Prepared Statement of the Kodiak Area Native Association

    My name is Andy Teuber and I am the President and CEO of the Kodiak 
Area Native Association (KANA) in Kodiak, Alaska. KANA is a 501(c)(3) 
nonprofit Tribal Organization formed in 1966 to provide health and 
social services for Alaska Natives of the Koniag region. KANA provides 
these services on behalf of the United States Government through 
contracts with the Indian Health Service (IHS) and with the Bureau of 
Indian Affairs (BIA). I am submitting this testimony on behalf of the 
Kodiak Area Native Association, which experienced contract support cost 
shortfalls but has been denied its day in court, due to no fault of its 
own. On behalf of this tribal organization, I request that the 
Committee include language which would deem its claims to have been 
timely filed so that it can finally have its day in court. The language 
would not guarantee any outcome on the claims, and would only assure 
that the tribal o rganization is permitted to bring them.
    Indian tribes and tribal organizations are the only Federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded.
    CSC is used to reimburse our fixed costs for items that we are 
required to have but are not otherwise covered by the IHS budget, 
either because another governmental department is responsible or 
because the IHS is not subject to that particular requirement. Examples 
include federally required annual audits and telecommunication systems. 
We cannot operate without these things, so when CSC reimbursements are 
underfunded we have to use other program funds to make up the 
shortfall, which means fewer providers that we can hire and fewer 
health services that we can provide to our patients.
    We are very thankful for the increases in CSC that this Committee 
has been able to provide, beginning with fiscal year 2010, particularly 
the large increase that tribes and tribal organizations received last 
year thanks to the efforts of this Committee. Although these increases 
have gone a long way toward helping to diminish the CSC shortfall, a 
significant CSC shortfall remains.
    The best projections available show that the CSC shortfall for 
fiscal year 2012 will be approximately $60 million, and that the 
shortfall in fiscal year 2013 will be nearly $99 million. Given these 
significant shortfalls, IHS's request for only a $5 million increase in 
CSC for fiscal year 2013 is extremely disappointing. Our disappointment 
is particularly acute when we consider that the BIA has requested full 
CSC for its programs.
    The inadequate IHS request could return us to a situation similar 
to the one we endured from 2002 to 2009, when there were virtually no 
increases for IHS CSC appropriations and the CSC shortfall increased by 
over $130 million. During that period, as our fixed costs increased 
every year, all major tribal health programs in Alaska were forced to 
lay off staff due to lack of funds.
    KANA respectfully requests that the Federal Government honor its 
legal obligations to tribes and tribal organizations and fully fund CSC 
reimbursements by providing $571 million for IHS CSC reimbursements in 
fiscal year 2013.
    I appreciate your consideration of our recommendation for 
additional CSC funding to improve the level, quality and accessibility 
of desperately needed health services for AI/ANs whose health care 
status continues to lag far behind other populations in Alaska and in 
this Nation.
                                 ______
                                 
Prepared Statement of the Kern County Valley Floor Habitat Conservation 
                 Plan Industry and Government Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior appropriations bill for fiscal year 2013.
    First, the Coalition supports the President's budget request for 
the Department of the Interior's Cooperative Endangered Species 
Conservation Fund, especially funding for HCP land acquisition.
    Second, the Coalition urges the Subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President. The additional funding requested by the Coalition 
anticipates that $1 million will be needed by the Kern County program 
to be used for purposes of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to complete 
and implement the KCVFHCP. The County's local oil and gas production 
industry and Water Districts have contributed over $573,500 to the 
development of this program. In 1997, the U.S. Fish and Wildlife 
Service allocated $500,000 of Federal Endangered Species Act Section 6 
funds to assist in program implementation (land acquisition and 
endowment). The California State Government has authorized $1 million 
to augment the Federal funds. In order to secure the $3 million total 
necessary to assist in the implementation of the plan, we will require 
$1 million for fiscal year 2013 and $500,000 for fiscal year 2014.
    The Coalition requests that the Subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and need support this request.
    Kern County's program is unique from other regions in the Nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 11 wildlife 
species and 14 plant species covered as threatened or endangered under 
the program. The potential for conflict with the Federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities, water conveyance and management efforts and other economic 
pursuits that are occurring. Since Kern County is the top oil producing 
county in the Nation and experiencing continued growth, potential 
conflicts with the ESA and their resolution through a proactive 
conservation program has significant national importance.
    In recognition of the conflicts posed to economic growth by Federal 
and State endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish and Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Division of Oil and Gas and Geothermal Resources, California Department 
of Fish and Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and Federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, water conveyance and other economic 
pursuits to continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, State and local government agencies, as well as the oil and 
gas industry, water interests, utilities and environmental groups.
    Kern County's Valley Floor Habitat Conservation Plan is one of the 
largest and most diverse endangered species conservation programs under 
development in the Nation encompassing over 3,110 square miles. The 
program represents a departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it will utilize an incentive-
based system of selling or trading habitat credits in an open market. 
This innovative approach, for the first time, provides landowners with 
real incentives and more importantly, the ability to choose how best to 
manage their own private property. The KCVFHCP is in the final stages 
of preparation. The HCP document is completed. An environmental impact 
statement is being prepared for public review in the near future. Final 
approval will occur in 2013.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. This program will be completed in 2013, provided there is 
the necessary Federal funding for the acquisition of habitat to 
mitigate for oil and gas operations and development. Additional funding 
is critical to completing the HCP. This is one of the final steps 
necessary to implement the conservation strategy. Because of the 
extensive private, local and State government financial support that 
went into the development of this program, Federal participation in 
program implementation will demonstrate that the burden of ESA 
compliance is not being placed exclusively on private property owners. 
Program funding will also contribute to eventual species recovery.

                         PROGRAM FUNDING NEEDS

    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
State and Federal funding received in 1997) that could be funded in 
increments over the first 2 years of the program. The purpose of this 
funding is described as follows:

Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.

Urban Development/County Infrastructure Issue
    The conservation program includes an Urban Development/County 
Infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws which, in turn, will encourage the owners 
of such properties to offer lands for the benefit of species 
conservation. Protected species of plants and animals will benefit from 
a program that promotes private property owners to conserve permanent 
habitat preserves consistent with the objectives of the ESA.

Water District Activity Issue
    A Water District Strategy is included in the program to address 
Covered Species protection due to the construction of new facilities 
and the operation and maintenance of existing water management and 
conveyance facilities. The Covered Species will benefit from reduced 
and less intrusive operation and maintenance measures than have been 
conducted historically due to concerns for conflicts with endangered 
species laws.

Federal Funding Support will Augment Local Government and Private 
        Industry Efforts to Comply with the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and other development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair Federal share of financial support for this 
important effort. This unique cooperative partnership involving State 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
Subcommittee's consideration of this request for a fiscal year 2013 
appropriation to support implementation of this significant program.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras

    The League of American Orchestras urges the subcommittee to approve 
fiscal year 2013 funding for the National Endowment for the Arts (NEA) 
at a level of $155 million. We urge Congress to continue supporting the 
important work of this agency, which broadens public access to the 
arts, nurtures cultural diversity, spurs the creation of new artistic 
works, and fosters a sense of cultural and historic pride, all while 
supporting countless jobs in communities nationwide.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of approximately 850 orchestras across North America 
runs the gamut from world-renowned symphonies to community groups, from 
summer festivals to student and youth ensembles.
    With communities throughout the Nation continuing to weather 
difficult economic conditions, the award of an intensely competitive 
NEA grant is a compelling boost to an orchestra's pursuit of funding 
from other sources. A grant from the NEA is seen as a mark of public 
value and national artistic significance, and the distinction of 
presenting these nationally recognized programs is enjoyed by 
communities large and small. In fiscal year 2011, the NEA's Grants to 
Organizations included 88 grants to orchestras, and continued funding 
for the agency will support orchestras' ability to serve the public. 
The NEA promotes creation, engagement, and learning in the arts through 
Art Works, the major support category for organizations, and the 
Challenge America: Reaching Every Community grant program--as well as 
through vital Federal/State partnerships.
    In addition to educating and engaging people of all ages, fueling 
local economies, and attracting new business development, orchestras 
unite people and cultures in a uniquely powerful way. The League is 
committed to helping our members engage with their communities, and the 
NEA plays an invaluable leadership role through its direct grants, 
strategic initiatives, and research on trends in public participation 
and workforce development.
     nea grants help orchestras educate and engage america's youth
    The Boston Youth Symphony Orchestras (BSYO), comprising 9 full-time 
administrative staff and 68 part-time artistic staff serves 
approximately 450 students every year. With an fiscal year 2012 NEA Art 
Works grant, BYSO initiated and continues to develop the Intensive 
Community Program (ICP), a nationally recognized string training 
program for underrepresented youth from Boston's inner city. BYSO 
provides ICP students with financial assistance for weekly music 
lessons, ensemble classes, instrument rental and tuition subsidy in 
BYSO orchestras. Additionally, BYSO makes more than 6,000 free tickets 
available each year to the community through partnerships and offers 
free outreach concerts directly in inner-city Boston neighborhoods, 
bringing classical music to traditionally underserved populations.
    Thanks to an NEA Art Works grant, the Eugene Symphony Orchestra, 
with 7 full time employees and 84 part time musicians, will be able to 
continue the Laura Avery Visiting Masters Program, an artistic 
development program for student musicians. This program is an annual 
series of artistic development activities for student musicians in 
Eugene, Springfield, and Roseburg, Oregon, which offers master classes, 
coaching sessions, lectures, and workshops by guest artists from the 
Eugene Symphony's season, which in 2012 include violinist Midori and 
pianist Adam Golka. All program activities are free and open to the 
public.
    The San Francisco Symphony Youth Orchestra (SFSYO) also received an 
NEA Art Works grant, which it will use in its Artistic Development 
Program to provide specialized training to prepare students for careers 
in music through intensive coaching, collaboration with guest artists, 
internships, mentoring, and training in chamber music, instrument care, 
and audition techniques. An annual concert series and community 
appearances reach more than 20,000 attendees each year, serving a broad 
and diverse population through free tuition for its members; free open 
rehearsals for seniors, students, and community groups; free concert 
tickets for public school instrumental music students; and ensemble 
performances at community events. The youth orchestra provides paid 
part-time apprenticeships to 4-5 students each year.

 NEA FUNDING INCREASES PUBLIC ACCESS TO CULTURALLY DIVERSE EXPERIENCES

    The NEA, together with the organizations it helps support, is 
dedicated to improving public access to the arts. The experience of 
live music can serve as a conduit for disparate communities to connect 
with each other, and the Pacific Symphony, which employs 88 part-time 
musicians and 44 full-time staff, is utilizing an NEA Art Works grant 
to produce a celebration of the Persian New Year. The centerpiece is 
the world premiere of Toward a Season of Peace, a work for chorus, 
orchestra and solo soprano by the Iranian American composer Richard 
Danielpour. The Symphony is committed to building unity in the 
community through music, exploring a different facet of American music 
each year. The Nowruz celebration has sparked considerable interest 
nationally and spurred cross-cultural discourse among the orchestra's 
culturally diverse surrounding community.
    An fiscal year 2012 Challenge America grant will enable the 
Billings Symphony Orchestra and Chorale, with 4 full time employees, 
500 volunteers, and 160 musicians, to present Classical Music/World 
Class Artists, a three-concert series that will engage Montana 
audiences in symphonic music presented by internationally acclaimed 
guest artists who have roots in Ireland, Serbia, and Mexico. Challenge 
America grants are specifically intended to support projects from 
primarily small and mid-sized arts organizations that extend the reach 
of the arts to underserved audiences. Accordingly, in addition to 
making international artistry available to the regional population of 
250,000, the Billings Symphony Orchestra and Chorale will offer master 
classes, a community concert in rural Red Lodge, and three school 
showcases in conjunction with this concert series.
    With an NEA Art Works grant, the Baltimore Symphony Orchestra (BSO) 
will establish the Orchestra Fellows Program for post-conservatory 
musicians of color. Fellows will rehearse and perform in the main BSO 
season and receive private coaching and preparation for auditions. 
Beyond the concert stage, Fellows will engage in the orchestra's after-
school and community programs, including OrchKids, the BSO Academy, and 
Rusty Musicians. The Orchestra Fellowship Program is part of the BSO's 
broader vision of inclusivity and relevance within the community that 
has marked the tenure of Music Director Marin Alsop. Among its goals, 
the Fellows Program seeks to create a welcoming destination for 
musicians of color and to increase the number of African-American 
musicians in the BSO, thus better reflecting the diversity of 
Baltimore. The BSO has 138 full-time and 318 part-time/freelance 
employees, and a volunteer force of 438.
    This May, an NEA Art Works grant will support the Milwaukee 
Symphony Orchestra's (MSO) participation in the second annual Spring 
for Music Festival at Carnegie Hall in New York. The Festival is a 
series of concerts by North American symphony and chamber orchestras 
with artistic profiles built around innovative, creative programming. 
The MSO, which employs 35 full-time staff, was selected for 
participation based on the submission of a program including works by 
Olivier Messiaen, Claude Debussy and Qigang Chen. The program's 
inspiration comes from the influence of world cultures and the 
generational teacher-student dynamic that enhances the creation and 
performance of the music.
    While many orchestras draw inspiration from the various ethnic 
cultures that make up our country, others celebrate distinctly local 
traditions and landscapes, such as the Louisiana Philharmonic Orchestra 
(LPO), which received funding from the NEA to support the concert 
Becoming American: The Musical Journey. Presented in collaboration with 
The Historic New Orleans Collection, the concert celebrated the 200th 
anniversary of Louisiana statehood by exploring the diverse classical 
music traditions of New Orleans influencing the development of jazz 
into the American tradition it has become today. The LPO, with 16 full-
time employees and 67 full-time musicians, was able to leverage its NEA 
grant to secure funding from a national foundation to webcast the 
performance to Internet audiences, resulting in over 1,000 views by 
audience members from 41 States and 17 countries.
    Meanwhile, the Arkansas Symphony Orchestra, which employs 10 full-
time musicians, approximately 50 contracted musicians, 13 full-time 
staff and 2,436 volunteers in three community guilds across the State, 
will utilize its NEA grant for the American premiere of Michael Torke's 
Mojave Concerto for Marimba. The Mojave Desert directly inspired the 
composition, with the pulse of the marimba and accompaniment 
representing the moving panorama as one drives the interstate between 
Las Vegas and Los Angeles. In addition to the premiere, the composer 
and percussionist will spend 1 week leading education workshops and 
lectures for student musicians and community members.

          NEA FUNDING ENCOURAGES NEW WORKS AND LOCAL ARTISTRY

    NEA grants to orchestras help support the creative initiatives of 
American composers and musicians. The Bismarck-Mandan Symphony 
Orchestra, with a staff of 3 full-time employees, received its first-
ever NEA Challenge America grant for A Place in Heaven, a series of 
activities culminating in a full orchestra concert featuring 
Metropolitan Opera star and North Dakota native soprano Korliss Uecker. 
Area students will be offered a college-level master class and there 
will be an open rehearsal and presentation for students with 
disabilities in partnership with VSA North Dakota.
    A grant from the NEA will support the City of Fountains 
Celebration, presented by the Kansas City Symphony, whose 80 musicians 
and 30 full-time staff are dedicated to sharing music with audiences. 
The Celebration includes world premiere performances of Daniel 
Kellogg's Water Music, Steven Hartke's Muse of the Missouri, and Chen 
Yi's Fountains of KC, all inspired by the fountains of Kansas City. The 
project includes discussions with the composers, master classes, open 
rehearsals for students, visual media postings, and a special 
presentation about the fountains co-sponsored by the Kansas City Public 
Library.
    The Rochester Philharmonic Orchestra (RPO) also received NEA 
support to commission and premiere a new work, which will include a 
composer residency, by American composer Margaret Brouwer. The project 
includes workshops with high school and college-level composers and 
coaching at the International Viola Congress in Rochester with an 
Eastman School of Music student performing Brouwer's Viola Concerto. 
The RPO employs 58 full-time core musicians and 21 full-time 
administrative employees. In addition, nearly 900 volunteers assist the 
RPO, giving more than 22,000 hours of their time.
    NEA grants encourage orchestras to commission innovative 
compositions, bring music to underserved regions, and help educate and 
engage citizens young and old. Thank you for this opportunity to convey 
the tremendous value of NEA support for orchestras and communities 
across the Nation. The Endowment's unique ability to provide a national 
forum to promote excellence, both through high standards for artistic 
products and the highest expectation of accessibility, remains one of 
the strongest arguments for a Federal role in support of the arts. We 
urge you to support creativity and access to the arts by approving $155 
million in funding for the National Endowment for the Arts.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    My name is Tom Maulson, I am President of the Lac du Flambeau Band 
of Lake Superior Chippewa Indians, located in Wisconsin. I am pleased 
to submit this testimony, which reflects the needs and concerns of our 
Tribal members for the upcoming fiscal year 2013. I would especially 
like to thank the Subcommittee for its leadership and commitment to 
Tribes and the programs that are critical to our operations.
    This Subcommittee's support of Tribal programs demonstrates the 
very best of Congress and our Nation's leaders. Today, I am going to 
discuss the funding needs of several programs vital to Tribes, 
including Tribal EPA funding, the BIA Natural Resource Programs and 
Indian Health Service funding.

                ENVIRONMENTAL PROTECTION AGENCY PROGRAMS

    Tribal General Assistance Program.--The Tribe strongly supports the 
proposed $28 million increase for the Tribal General Assistance Program 
(Tribal GAP). The Tribal GAP program provides base environmental 
funding to assist Tribes in the building of their environmental 
capacity to assess environmental conditions, utilize available data and 
build their environmental programs to meet their needs. According to 
the EPA's budget justification, this level of funding would increase 
the funding amounts available to eligible Tribes by 40 percent, which 
is the first base increase these programs have received since 1999. 
This increased funding will help reduce staff turnover rates and 
enhance long-term sustainability of Tribal environmental programs. This 
funding is critical for Tribes in the Great Lakes as our region begins 
to examine resource extraction issues, in particular mining. While we 
understand the need for job creation, we believe any action must be 
done in a way that does not destroy our natural resources, which are 
the basic foundation of our way of life and economies today.
    Great Lakes National Program Office.--We want to express our 
continuing support for the Great Lakes Restoration Initiative (GLRI) 
and in particular, the $3 million Tribal set-aside. As the Subcommittee 
knows, the Great Lakes represent three-quarters of the world's supply 
of fresh water. But for us, the indigenous people of Wisconsin, the 
Great Lakes represent the life blood of our economies and our culture. 
The protection and preservation of the Great Lakes is necessary to the 
protection and preservation of the tribal communities that have made 
the Great Lakes their home since time immemorial.
    The Tribal GLRI funding has allowed the Lac du Flambeau Tribal 
Natural Resource Program to conduct a comprehensive bird survey and 
establish an inventory of current and past wild rice beds. This data 
will be used to draft restoration plans. The Tribe also purchased a 
Marsh Master. This all-terrain vehicle allows us to implement our Fire 
Management Plan on the 8,000 acre Powell Marsh, a critical Reservation 
wetland habitat area for wildlife and waterfowl, and to establish and 
restore other important wildlife areas.
    Clean Water Program.--The Clean Water Program provides grants to 
tribes under Section 106 of the Clean Water Act to protect water 
quality and aquatic ecosystems. The Lac du Flambeau Clean Water program 
monitors, maintains and improves water quality for the tremendous 
amount of surface and ground water within the exterior boundaries of 
our Reservation. According to the 2010 census, the Lac du Flambeau 
Reservation includes nearly one-half of all of the water area (56.34 
square miles) within the Wisconsin Indian Reservations. The Tribe's GIS 
Program indicates that there are 260 lakes covering 17,897 acres, 71 
miles of streams, and 24,000 acres of wetlands within the Reservation. 
Surface waters cover nearly one-half of the Lac du Flambeau 
Reservation. Funding to maintain clean waters on our Reservation has 
already decreased below the minimum required to maintain our program. 
We ask the Subcommittee to protect funding for this program that is so 
important to the health of our communities.

                        BUREAU OF INDIAN AFFAIRS

    While the Tribe is disappointed that the BIA's proposed budget for 
fiscal year 2013 is essentially level funding for most programs, the 
Tribe recognizes the difficult fiscal times the Nation is in and thus, 
the Tribe is pleased that the BIA did not propose decreases to many of 
the BIA's programs. In particular, we are pleased that the BIA 
maintained funding for critical welfare and education programs. The 
Tribe is concerned that the BIA has proposed an administrative 
streamlining initiative (including offering incentives for early 
retirements) to achieve cost savings. We are fearful that if these cost 
savings are not achieved that there will be a reduction across the 
board in program funding. Thus, we urge the Subcommittee to be mindful 
of this and require the BIA to regularly report its progress in 
achieving this initiative's goals.
    Today, we want to particularly focus on the funding needs for the 
BIA Education and Natural Resource Programs.
    Tribal Education Programs.--Education is a top priority for the Lac 
du Flambeau Band. We believe that it is through investment in education 
that we will be able to restore stability to our Nation's economy. In 
particular, to continue the progress Indian Country has made in 
participation and control of education programs and schools, it is 
imperative that funding for tribal higher education programs be 
increased.
    Thus, we support the budget's proposed small increases for the BIA 
scholarship and adult education program and for the BIA Special Higher 
Education Scholarships (SHEP) program. This funding supports Indian 
students working for higher education and advanced degrees. Tribal 
communities have made great strides in educating their youth. Those 
strides are evident in the fact that more Indian students are attending 
and graduating from colleges and other post-secondary institutions. 
However, tribal communities must continue to evolve with other 
communities. The national and global economy has changed--students must 
earn college and graduate degrees to remain competitive. After making 
progress in Indian education, Indian students cannot be allowed to fall 
behind again because of lack of access to higher education programs.
    Tribal Natural Resource Departments.--Tribes are leaders in natural 
resource protection and BIA natural resource funding is essential to 
maintain our programs. Lac du Flambeau has a comprehensive Natural 
Resources Department and dedicated staff with considerable expertise in 
natural resource and land management. Our activities include raising 
fish for stocking, conservation law enforcement, collecting data on 
water and air quality, developing well head protection plans, wildlife 
habitat protection and enhancement, conducting wildlife surveys and 
administering timber stand improvement projects on our 86,000 acre 
Reservation.
    We would like to remind Congress that, in addition to being 
important cultural and environmental resources for current and future 
generations, natural resources provide many Tribes and surrounding 
communities with commercial and economic opportunities. Whether Tribes 
use those resources to sell licenses for hunting or recreational 
fishing, or operate subsistence fisheries, these resources often 
provide much needed hunting and fishing resources for families and 
Tribes. As you all know, each and every economic and subsistence 
opportunity today is invaluable, and should not be taken lightly. To 
ensure that these opportunities continue, these resources must be 
protected.
    It is with this understanding of the importance of our natural 
resources, that the Tribe strongly supports proposed increases for the 
Tribal Natural Management Development Programs, which would allow for a 
$60,000 increase to the Lac du Flambeau Program alone. This increased 
funding is the first significant increase these programs have received 
in more than a decade. This funding will allow us to improve our 
efforts to conserve and enhance the natural resources that are the very 
foundation of our way of life.
    Conservation Law Enforcement Officers.--One of the critical 
elements of our Natural Resource program is our Conservation Law 
Enforcement Officers. These officers are primarily responsible for 
enforcing hunting and fishing regulations related to the exercise of 
treaty rights, but they also have a much larger role in law 
enforcement. They are often the first to respond to emergency 
situations. These officers play an integral part in protecting our 
cultural and economic resources, as well as assisting with the most 
important role of protecting public safety.
    Thus, we urge the Subcommittee to support the BIA's proposed 
$500,000 increase for Conservation Law Enforcement in the fiscal year 
2013 budget. While this funding will be divided among Tribes nationwide 
and not sufficient to meet the overall need, it does represent an 
acknowledgement of the importance of Tribal conservation law 
enforcement officers to the Federal law enforcement family.
    Circle of Flight: Wetlands Waterfowl Program.--We urge the 
Subcommittee to support the $800,000 for the BIA Circle of Flight 
Program. This program supports Tribal efforts throughout the Great 
Lakes Region to restore and preserve wetlands and waterfowl habitat 
within Tribal territories. This program also gives the Great Lakes 
Region Tribes, States, USFWS, USDA, Ducks Unlimited and other private 
sector groups an opportunity to work cooperatively in projects that 
provide wetland protection, flood control, clean water and recreation 
in the Great Lakes Region. The Subcommittee's strong support of this 
program for the last two decades has resulted in tremendous successes 
in restoring wetlands and waterfowl habitat throughout the Mississippi 
Flyway.
    Great Lakes Indian Fish and Wildlife Commission.--Related to the 
Tribe's natural resource needs, we would like to voice our continuing 
support for the Great Lakes Indian Fish and Wildlife Commission 
(GLIFWC). The Tribe is a member of the Commission, which assists the 
Tribe in protecting and implementing its treaty-guaranteed hunting, 
fishing and gathering rights. We urge the Subcommittee to fully support 
the increased programmatic funding for GLIFWC. GLIFWC has played an 
invaluable role in providing science and sound management practices for 
our off-reservation resources. This role could not be filled by any 
other agency.
    Cooperative Landscape Conservation.--The Tribe strongly supports 
the $1 million for the BIA's Cooperative Landscape Conservation 
initiative. This funding will allow tribal participation in activities 
intended to address climate change throughout the country, as well 
develop and implement adaption/mitigation projects. Only through 
collaborative initiatives will we address the challenges that climate 
change presents for all of us.

                         INDIAN HEALTH SERVICE

    The Tribe strongly supports the testimony of both the National 
Congress of American Indians and the National Indian Health Board 
regarding the Indian Health Service's fiscal year 2013 funding needs. 
We join with them in expressing great appreciation to this Subcommittee 
for your efforts to increase the funding for tribal programs in the 
face of very difficult fiscal times. Nevertheless, the level of funding 
has not kept pace with the rising cost of healthcare or with the 
population growth of our communities. Thus, we urge this Subcommittee 
to continue your efforts.
    Contract Health.--We want to call particular attention to the need 
for contract healthcare funding, which is a need that is expressed to 
the Subcommittee every year. This request is constant because contract 
healthcare funding is so important to the basic health and well-being 
of our communities, and is historically and continually tragically 
underfunded. Again we would like to express our appreciation to the 
Subcommittee for providing increases to contract healthcare funding 
over the past couple of years. In this regard, we strongly support the 
$20 million programmatic increase for contract healthcare services 
proposed for the fiscal year 2013 budget.

                         CONTRACT SUPPORT COSTS

    We cannot commend the Subcommittee enough for your efforts to fully 
fund Tribal Contract Support Costs. The last 2 years of increases have 
been unprecedented and vital to the continued success of the Indian 
self-determination policy. While we appreciate the BIA's $8.9 million 
increase for Contract Support Costs, which the Agency reports should 
fully fund this account, we are disappointed in the Indian Health 
Service's request of only $5 million. We understand that this will 
result in a $100 million shortfall for fiscal year 2013. Under the 
Indian Self-Determination Act, many Tribes have assumed responsibility 
for providing core services to their members. If these services were 
provided by the Federal Government, employees would receive pay cost 
increases mandated by Federal law, but Congress and Interior have 
historically failed to fulfill their obligation to ensure that Tribes 
have the same resources to carry out these functions.
                                 ______
                                 
     Prepared Statement of the Little River Band of Ottawa Indians

    Aaniin! (greetings) My name is Jimmie Mitchell, Director of Natural 
Resources for the Little River Band of Ottawa Indians, located in 
Manistee, Michigan. First of all, allow me to thank you for the past 
support that you have respectfully provided and also for this 
opportunity to present our testimony in support of the President's 
fiscal year 2013 budget.
    I represent the Chippewa Ottawa Resource Authority, herein referred 
to as CORA, a natural resource management coalition comprised of 5 
federally recognized indian tribes: the Bay Mills Indian Community, the 
Grand Traverse Band of Ottawa and Chippewa Indians, the Little River 
Band of Ottawa Indians, the Little Traverse Bay Bands of Odawa Indians, 
and the Sault Ste Marie Tribe of Chippewa Indians.
    The CORA Tribes currently manage federally-protected Treaty-
reserved Rights under the BIA Rights Protection Implementation Program 
(RPI). These program funds are crucial as they greatly assist CORA and 
its member Tribes with the ability effectively and responsibly uphold 
management obligations found under two separate decrees in United 
States v. Michigan: the 2000 Great Lakes Consent Decree and the 2007 
Inland Consent Decree.

United States v. Michigan
    The five CORA tribes are parties to the historic United States v. 
Michigan court case concerning the exercise of treaty-reserved fishing, 
hunting, trapping and gathering rights under Article 13 of the 1836 
Treaty of Washington of March 31, 1836. In Article 13 the tribes 
``stipulate[d] for the right of hunting on the lands ceded, with the 
other usual privileges of occupancy, until the land is required for 
settlement.'' The 1836 Ceded Territory covers a significant portion of 
the Northern Great Lakes surrounding Michigan and also 13.7 Million 
Acres of land found in the Northern Lower and Western Upper Peninsula 
of Michigan. The 1836 Ceded Territory is quite arguably the oldest 
expanse of its type remaining where Treaty Reserved Rights have been 
reserved and exercised upon, prior to its inception through to current 
times.
    In the early 1970's, tribal members sought to further expand their 
Article 13 rights by engaging in commercial fishing activities on the 
Great Lakes. The State of Michigan did not recognize the tribes' 
Article 13 rights and responded by citing, arresting and prosecuting 
tribal members. The dispute led the United States to file United States 
v. Michigan in the United States District Court for the Western 
District of Michigan, to seek an adjudication of the tribes' Article 13 
rights. Eventually, all five CORA tribes intervened in the case.

2000 Great Lakes Consent Decree
    United States v. Michigan focused initially on the tribes' fishing 
rights in the treaty-ceded waters of the Great Lakes. In a landmark 
decision in 1979, the court held that the tribes retained their 
aboriginal fishing rights in the Great Lakes. The court found 
specifically that the ``usual privileges of occupancy'' reserved in 
Article 13 included the right to fish and that the Great Lakes had not 
been required for settlement. The court has since entered two decrees 
governing the allocation and management of the Great Lakes fishery: a 
15-year decree entered in 1985 that expired in 2000, and a subsequent 
20-year decree entered in 2000 that remains in force today.
    The 2000 Great Lakes consent decree was negotiated by all parties 
to the case, including the United States, the tribes and the State, and 
contains extensive provisions for the restoration, preservation and 
enhancement of Great Lakes fishery resources. In accordance with these 
provisions (and their predecessors in the 1985 decree), the tribes have 
developed programs that are necessary to protect and manage the Great 
Lakes fishery resource while continuing to exercise the tribes' 
commercial and subsistence fishing rights. These programs include the 
following elements:
  --Enactment of conservation-based regulations governing the manner 
        and means by which tribal members may exercise the right to 
        harvest resources;
  --Staffing of conservation enforcement departments;
  --Establishment of adjudicatory bodies to determine the existence of 
        violations of regulations;
  --Biological assessment of the fishery resource and conduct of 
        resource protection and enhancement programs;
  --Development of access sites for use by tribal fishermen; and
  --Development of an inter-tribal management organization to provide 
        coordination and cooperation among the tribes and with the 
        State, the United States and international organizations.

2007 Inland Consent Decree
    It was not until after the entry of the 2000 Great Lakes Consent 
Decree that the parties to United States v. Michigan addressed the 
tribes' inland hunting, fishing, trapping and gathering rights under 
Article 13 of the 1836 Treaty. After several years of litigation, 
followed by several years of negotiations, the court entered a 
permanent consent decree on November 2, 2007, that recognizes the 
continued existence of the tribes' inland Article 13 rights and defines 
the nature and extent of those rights.
    The 2007 Inland Consent Decree contains allocation and management 
provisions governing treaty-reserved hunting, fishing, trapping and 
gathering rights throughout the expanse of the 1836 Ceded Territory. It 
is a comprehensive and complex document that resolves the final phase 
of United States v. Michigan.
    The 2007 Inland Consent Decree establishes many new obligations and 
responsibilities for the tribes. These responsibilities are heavily 
weighted toward:
  --Biological programs to protect and enhance inland natural 
        resources;
  --Establishment of appropriate regulations of member harvesting 
        activities;
  --Provision of adequate law enforcement personnel to ensure that such 
        harvesting is conducted in compliance with applicable law;
  --Provision of judicial forums for the adjudication of any alleged 
        violations; and
  --Establishment, implementation, and maintenance of joint information 
        sharing and management activities through CORA to assist in 
        inter-tribal coordination and co-management with State and 
        Federal resource managers.
    All of these obligations impose a substantial and permanent 
financial burden for the Tribes to realize the full potential the 
Consent Decree is designed to provide.
    In order to meet the obligations mandated by the 2007 Inland 
Consent Decree, while providing for long-term sustainable use of the 
resources for the next seven generations, each of the tribes are 
required to establish a management capability in several core areas, 
including Conservation Enforcement, Biological Monitoring and 
Assessment, Tribal Court, and Administration. Initiation of these 
management programs necessitates adequate funding to ensure that the 
Tribes can meet their obligations, which is critical to ensure the 
future viability of both the treaty right and the newly established 
2007 Inland Consent Decree.

Support for BIA Rights Protection Implementation Program in the 
        President's Budget
    After making such landmark, long-term commitments, it is imperative 
that the tribes not be placed in a position where inadequate funding 
prohibits them from meeting their obligations, responsibilities, and 
opportunities under either the Great Lakes or Inland consent decrees. 
Adequate funding is absolutely critical to achieving the objectives and 
responsibilities described in both consent decrees.
    CORA's base funding for implementation of the Great Lakes consent 
decree has suffered Congressional funding reductions in recent years, 
threatening the tribes' ability to meet consent decree obligations and 
effectively manage and self-regulate their treaty fishery. However, 
most of the proposed increase in funding for CORA is for implementation 
of the newly enacted 2007 Inland consent decree, which has not been 
provided with recurring base funding. Very little funding to implement 
the Inland consent decree has been provided since it was entered into 5 
years ago.
    CORA heralds the BIA Rights Protection Implementation Program in 
the President's budget, which provides an increase of $1.6 million in 
CORA's funding. A small portion of the requested increase will be 
provided through CORA to return the CORA tribes' funding base for the 
Great Lakes treaty fishery to fiscal year 2010 levels. The vast 
majority of the increase will provide $1.5 million to allow the 
beneficiary tribes and their members to meet their obligations under 
the 2007 Inland consent decree and to implement their treaty-reserved 
inland hunting, fishing, trapping and gathering rights. The BIA Rights 
Protection Implementation Program in the President's budget provides 
base funding for the very first time for affected tribes to meet 
Federal-court mandated responsibilities in the conservation and 
management of fish and wildlife resources.
    The CORA Tribes stand united in reminding Congress of the Federal 
Government's trust obligations to sustain funding for tribal natural 
resource management programs. This obligation is the result of treaties 
negotiated by Tribes and Federal Government, which must be honored and 
protected within the limits of available funding, including current 
limits on discretionary funding. The President's budget demonstrates 
that this can be achieved.
    CORA hopes that you will recognize the fact that the Tribes, State 
of Michigan and the United States have successfully resolved many 
difficult legal, biological, social and political problems confronting 
the Great Lakes fishery and inland resources in the 1836 ceded 
territory. With your assistance, the Tribes can continue to enhance 
cooperative inter-governmental programs, build upon past collaborative 
successes and to secure and promote our shared natural resources with 
sound management structures for both tribal and non-tribal users now 
and forward into future generations.
    I thank you again for providing this opportunity to convey with 
you, both the challenges we face and the opportunities the RPI funds 
assist us to accomplish as managing co-sovereigns'.
                                 ______
                                 
                 Prepared Statement of the Lummi Nation

    Thank you Mr. Chairman and distinguished Committee Members for the 
opportunity to share with you the appropriation priorities of the Lummi 
Nation for the fiscal year 2013 budgets of the Bureau of Indian Affairs 
and the Indian Health Service.

                         BACKGROUND INFORMATION

    The Lummi Nation is located on the northern coast of Washington 
State, and is the third largest Tribe in Washington State serving a 
population of over 5,200. The Lummi Nation is a fishing Nation. We have 
drawn our physical and spiritual sustenance from the marine tidelands 
and waters for hundreds of thousands of years. Now the abundance of 
wild salmon is gone. The remaining salmon stocks do not support 
commercial fisheries. Our fishers are trying to survive from shellfish 
products. In 1999 we had 700 licensed fishers who supported nearly 
3,000 tribal members. Today, we have about 523 remaining. This means 
that over 200 small businesses in our community have gone bankrupt in 
the past 15 years. This is the inescapable reality the Lummi Nation 
fishers face without salmon. We were the last surviving society of 
hunters/gatherers within the contiguous United States. We can no longer 
survive in the traditional ways of our ancestors.

Lummi Specific Requests--Advisory Council on Historic Preservation 
        (ACHP)
    The Role of the ACHP in Preserving Ancestral Knowledge.--We would 
first like to acknowledge the most recent revisions to Section 106 that 
emphasize landscapes when dealing with locations of cultural and 
historical significance. However, we need to bring to your attention 
the marginalization and de-legitimization of Native American ancestral 
knowledge. The question is not whether ancestral knowledge is 
meaningful to Native Americans when we speak of the significance of 
sacred landscapes. Instead, the question is how, for what reason, to 
whose benefit, at what cost, and by what authority Native American ways 
of knowing knowledge have been marginalized as less than true 
knowledge. Our ancestral knowledge must contend with the influences of 
Christian belief and its moral order as well as conventional education, 
anatomo-economic regulations of the capitalized workplace, 
bureaucratized and jural-legal as opposed to ancestral systems of 
governance, and the imperium of science that marginalizes through the 
re-representation of Native American traditional knowledge and ways of 
knowing our world. The ACHP is one of the few entities in a position to 
acknowledge our forms and frameworks of knowledge as coeval with those 
of modern science and bring a degree of justice to our efforts to 
protect not only our sacred landscapes, but also our ways of 
understanding and experiencing them.

Lummi Specific Requests--Bureau of Indian Affairs
    +$2 million--Phase 1. New Water Supply System--Increase in funding 
for Hatchery construction, operation and maintenance.--Funding will be 
directed to increase hatchery production to make up for the shortfall 
of wild salmon. +$300,000 funding for the Conservation Law Enforcement 
Officer Program to insure that Lummi Nation need for Natural Resources 
Enforcement Officers will be funded.
            Committee Directive Requests
    Bureau of Reclamation.--The Lummi Nation requests that the 
Committee directs the Bureau of Reclamation to fund Lummi Nation work 
to develop comprehensive water resources conservation and utilization 
plans that accommodates the water needs of its residents, its extensive 
fisheries resources.
    Bureau of Indian Affairs Natural Resources Branch.--Direct the BIA 
to work with Lummi Nation to insure that its needs related to the 
removal of wild stocks from the salmon available for harvest are 
compensated through increased hatchery construction, operations and 
maintenance funding.
    Direct the DOI Office of Indian Energy, Economic and Workforce 
Development to work with the Lummi Nation in support of its 
comprehensive Fisherman's Cove Harbor and Working Water Front Project 
which addresses Indian Energy, Economic and Workforce Development needs 
of the Lummi Nation membership.

Lummi Specific Requests--Indian Health Service
    Implement ACA & IHCIA.--Direct the Department and the U.S. Indian 
Health Services to fully and completely implement the Indian Specific 
provision of the Affordable care Act and the newly re-authorized Indian 
Health Care Improvement Act.
    Wellness is the #1 Priority of the Council in 2012-13.--Lummi 
Nation requests the committee support the SAMHSA Proposed Tribal Block 
Grant to combat Drug Epidemic among the Lummi Nation membership.
    Head Start for Tribal Development.--The Lummi Nation requests the 
Committee directs BIE and DHHS, Children's Bureau support the 
construction of a new Lummi Nation head start/day care facility with 
technical and financial assistance.
    Serve Native American Veterans.--Direct the Indian Health Services 
to immediately develop and provide formal consultation between Indian 
Health Services, U.S. Veteran's Affairs and Tribes on the formal 
Memorandum of Understanding for the provision of VA medical services to 
Tribal veterans and their families.

Lummi Specific Requests--Bureau of Indian Affairs
    +$2 million--Phase 1. New Water Supply System-Increase in funding 
for Hatchery construction, operation and maintenance. Funding will be 
directed to increase hatchery production to make up for the shortfall 
of wild salmon.--The Lummi Nation currently operates two salmon 
hatcheries that support tribal and non-tribal fishers in the region. 
The tribal hatchery facilities were originally constructed utilizing 
Federal funding from 1969-1971. Understandably most of original 
infrastructure needs to be repaired, replaced and/or modernized. Lummi 
Nation Fish Biologists estimate that these facilities are currently 
operating at 30 percent of their productive capacity. Through the 
operation of these hatcheries the Tribe annually produces 1 million 
fall Chinook and 2 million Coho salmon. To increase production, we must 
pursue a ``phased approach'' that addresses our water supply system 
first. The existing system only provides 850 GPM to our hatchery. To 
increase production to a level that will sustain tribal and non-tribal 
fisheries alike, we need to increase our water supply four-fold. A new 
pump station and water line will cost the Tribe approximately $6 
million. We are requesting funding for the first phase of this project. 
Our goal is to increase fish returns by improving aquaculture and 
hatchery production and create a reliable, sustainable resource to 
salmon fishers by increasing enhancement.
    +$300,000 to increase the funding for the BIA Conservation Officer 
Program to support Natural Resources Law Enforcement.--The Lummi people 
rely on several commercial fisheries for their livelihood and several 
non-commercial fish, game, fowl and natural plants for ceremonial and 
subsistence purposes. There are currently three Natural Resource 
Enforcement Officers (NREO's) and one Sergeant to patrol the 1,846 
square miles of marine area and 9,145 square miles of the ceded lands. 
The Natural Resource Officers patrol a vast area, with a large amount 
of Natural Resources to protect, including: shellfish, salmon, halibut, 
deer and elk, and other protected species. Although Lummi Code of Laws 
Title 10 (Natural Resources Code) prohibits timber harvests without a 
permit, members and non-members periodically conduct timber harvests 
without necessary permits. Tideland Trespass on the Lummi tidelands is 
a major enforcement challenge. The fact that all of the Reservation 
tidelands are held in trust by the United States for the exclusive use 
of the Lummi Nation was most recently re-affirmed in United States and 
Lummi Nation v. Milner, et al. No. CV-01-00809-RBL (9th Cir. 2009). 
Although all of the Reservation tidelands are closed to persons, who 
are not members of the Lummi Nation in the absence of a lease 
permitting non-member use of the tidelands, or use permits issued 
pursuant to LCL Title 13 (Tidelands Code), and this closure is posted 
at several places around the Reservation, non-members continue to 
regularly trespass on these tidelands. Although LCL Title 17 (Water 
Resources Protection Code) prohibits the withdrawal of Reservation 
Waters without a permit, non-members continue to drill ground water 
wells on the Reservation. Illegal dumping is a major challenge on the 
Reservation. Although LCL Title 18 (Solid Waste Control and Disposal 
Code) prohibits solid waste dumping, like many places throughout rural 
America, illegal dumping continues to occur. Currently, the Lummi NREOs 
are only able to concentrate their patrol to the major Treaty concerns 
of fishing, crabbing, and shellfish harvesting. Additional funding is 
necessary for to prosecute actual incidents.
    Direct the Bureau's Office of Indian Energy, Economic and Workforce 
Development Division to work with the Lummi Nation in support of its 
comprehensive Fisherman's Cove Harbor and Working Waterfront Project.--
Unemployment on the reservation has been very difficult to address with 
limited on-reservation jobs. Tribal governments need to be able to meet 
the employment and training needs of our membership as well as the 
business development needs of our communities. This is the objective of 
the Lummi Nation Fisherman's Cove Harbor and Working Waterfront 
Project. We need financial assistance to enable our membership to get 
the job skills the local (Reservation and Non-Reservation) labor market 
demands. We ask the Committee to direct the Bureau to work with the 
Lummi Nation to fully develop the Working Waterfront Project for the 
benefit of the Lummi Nation fishers, members and others invested in the 
marine economy of the extreme northwest corner of the United States.

Lummi Specific Requests--Indian Health Service
    Support for full and complete implementation of the Indian Specific 
provision of the Affordable care Act and newly re-authorized Indian 
Health Care Improvement Act.--Tribes are dismayed by the lack of 
support they have received in the development and implementation of the 
following: Long Term and Community Based Care: The authorization of 
long term and community based care Tribal communities are among the 
last to receive access to this all important health care option. Tribal 
Medicaid Program Demonstration Project: The Act authorizes a 
demonstration project to enable Tribes to demonstrate their ability to 
successfully plan, develop, implement and operate Medicaid Programs for 
the benefit of their membership. Health care Insurance Exchanges: to 
support the planning development, implementation and operation of 
tribes as providers of healthcare insurance on the same basis as State 
are receiving this technical and financial assistance from the 
Department.
    Lummi Nation requests the committee support the SAMHSA Proposed 
Tribal Block Grant to combat Drug Epidemic among the Lummi Nation 
membership.--Wellness is the #1 Priority of the Council in 2012-13. 
Drug abuse is at epidemic proportions on the Lummi Reservation. The 
proximity of the Lummi Reservation to the U.S. and Canadian Borders 
makes for a key ingredient in successful drug trafficking. With that 
prime ingredient add production, transportation, distribution, abuse 
and drug related crimes . . . this is our reality where my people are 
becoming prisoners in our own homes.
  --What We Have Done.--Our people are seeking a return to health 
        through massive consumption of Lummi Nation Health Care 
        resources. We have increased the number of Tribal members 
        receiving substance abuse treatment and mental health 
        counseling.
  --What We Still Need.--We are not equipped to keep pace with the 
        increasing access and use of heroin and other opiate additive 
        drugs that have besieged our ports, borders, communities and 
        citizens. Lummi Nation and other Tribes cannot successfully 
        compete with politically connected communities and interest 
        groups which receive the majority of the funding that is 
        available through the State block grant system. We need 
        assistance to secure funding to plan develop, construct and 
        implement, programs services and facilities needed to improve 
        health and safety in our communities.
    Head Start for Tribal Development--New Head Start Facility.--The 
Lummi Nation Requests that the Committee directs BIE and DHHS, 
Children's Bureau support the construction of a new head start/day care 
facility for the Lummi Nation membership with technical and financial 
assistance. Lummi has operated a Head Start program since 1966 in the 
same facility. Successive Head Start Performance reviews have 
consistently identified the building as not meeting Head Start 
Performance standards. The Tribe is seeking gap financing in the amount 
of $1.2 million to complete the proposed new facility. These additional 
costs are generated by Head Start Performance and tribal Child Care 
Facility Standards.
    Support formal consultation between Indian Health Services, U.S. 
Veteran's Affairs and Tribes on the formal Memorandum of understanding 
for the provision of VA medical services to Tribal veterans and their 
families.--Tribes have been seeking the development of relationship 
between the Veterans Administration and the U.S. Indian Health Services 
which results in simple parity of services between Indian and non-
Indian Veterans for more than a century. There is a need to insure that 
the provisions of the final agreement between the U.S. Veterans 
Administration and the U.S. Indian Health Services are consistent with 
Indian Veterans needs.
    National & Self-Governance Fiscal Year 2013 Budget Priorities.--In 
general, all Bureau of Indian Affairs (BIA) and Indian Health Services 
(IHS) line items should be exempt from any budget recessions and 
discretionary funding budget reductions.
    Bureau of Indian Affairs.--Fully Fund Contract Support Costs 
(CSC)--Support $8.8 million increase included in fiscal year 2013 
President's request. Tribal Priority Allocations--Provide $89 million 
increase. Law Enforcement--Full Fund all Provisions of the Tribal Law & 
Order Act of 2010 that affect Indian Tribes & Increase funding for 
Bureau of Indian Affairs Law Enforcement by $30 million. Office of 
Self-Governance (OSG)--Provide increase funding to the OSG.
    Indian Health Services.--Contract Support Costs (CSC)--Provide 
increase of $99.4 million over President's fiscal year 2013 request to 
fund the CSC shortfall. Mandatory Costs--Provide $304 million increase 
to for Mandatory costs to address these ongoing fiscal responsibilities 
to maintain current services. Contract Health Services (CHS)--Provide 
$200 million increase to provide CHS. Adequate Funding for 
Implementation of the Indian Health Care Improvement Act (IHCIA). 
Office of Tribal Self-Governance--Increase $5 million to the HIS Office 
of Tribal Self-Governance.
    Hy'shqe (thank you) for the opportunity to provide these 
appropriations priorities of the Lummi Nation.
                                 ______
                                 
  Prepared Statement of the Land and Water Conservation Fund Coalition

    Mr. Chairman, Ranking Member Murkowski, and Honorable Members of 
the Subcommittee: Thank you for the opportunity to present testimony in 
support of the Land and Water Conservation Fund (LWCF) in the fiscal 
year 2013 Interior appropriations bill. My name is Kevin Boling, I am a 
resident of Coeur d'Alene, Idaho and owner of The Boling Company, a 
forestland investment company. I am pleased to be appearing today on 
behalf of the Land and Water Conservation Fund (LWCF) Coalition. The 
Coalition represents a broad array of groups and individuals across the 
country who value land conservation and outdoor recreation with members 
from ranging from business leaders to sportsmen to conservation 
organizations.
    In a career spanning thirty years, I have had the great good 
fortune to combine a personal passion for the outdoors with a career in 
forest management, planning and investment. During the two decades that 
I managed Potlatch Corporation's logging and forestry operations, I 
became aware of the challenges for private landowners in the face of 
changing land use patterns and development pressures. Beginning in 
2002, I managed extensive timberland investments for Forest Capital 
Partners and, later, oversaw the successful closing of land and 
conservation easements sales valued at $87 million. I worked on several 
transactions funded through the Land and Water Conservation Fund and 
experienced firsthand its importance in helping communities and 
landowners work together to maintain privately owned working forests 
while protecting public values.
    I appreciate this opportunity to advocate for the Land and Water 
Conservation Fund (LWCF), America's premier Federal program to ensure 
that we all have access to the outdoors. Whether it is a local 
community park or playground, or the vast expanses of our Federal 
public lands, Congress created the LWCF in 1964 to guarantee America's 
natural, historical and outdoor recreation heritage. In 1968, Congress 
had the wisdom to authorize an income stream of $900 million annually 
for LWCF from offshore oil and gas leasing revenues--not taxpayers' 
dollars. With an average of over $6 billion coming in from offshore 
leasing royalties annually (and significantly more expected in future 
years), $900 million for the LWCF account is a reasonable conservation 
offset to offshore energy development. It only makes sense as we draw 
down some natural resources, that we reinvest a portion of the proceeds 
to conserve other natural resources.
    LWCF is a time-tested program with remarkable range, reaching all 
Americans. Each of us has likely visited a local or State park, trail 
or fishing access site that has benefitted from it. In total, more than 
40,000 LWCF State assistance grants have added value to every State and 
98 percent of the counties across the country. Each year, millions of 
Americans as well as international tourists visit our national parks 
and forests, hunt, fish or bird watch at our national wildlife refuges, 
or hike along our national trails. Yet, few are aware of the added 
protection that the LWCF program provides to our public lands. From 
Gettysburg to Yosemite, and countless places in between, LWCF funding 
has protected our natural, cultural, historical and recreation legacy, 
preserving our uniquely American landscapes, stories and traditions.
    Continued strategic LWCF investments in inholdings and conservation 
easements protects the asset that is our public lands, preventing 
incompatible development, creating management efficiencies, and 
enhancing access to outdoor recreation opportunities. During my tenure 
at Forest Capital, with the help of a conservation partner, we worked 
on the conveyance of 6,600 acres of Forest Capital timber holdings to 
the Siskiyou National Monument south of Medford, Oregon. This 
represented the best possible outcome to meet the management needs of 
the public agency, the financial considerations of Forest Capital, and 
the interests of the local community. From the vantage point of the 
private landowner, having a reasonable expectation that LWCF funding 
would be made available for the purchase was critical in our decision 
to invest time and manpower towards this conservation outcome at the 
Siskiyou.
    Increasingly, LWCF funding is playing an important role in 
landscape scale protection. This doesn't involve extensive Federal 
purchases of land. Rather, open space, clean water and wildlife habitat 
can often be preserved by partnering with private landowners to sustain 
working landscapes and keep land on the tax rolls. Conservation 
easements purchases allow ranchers and farmers to remain responsible 
land stewards, as they have for generations. Today, LWCF funding is 
needed to protect working lands from the Everglades Headwaters to the 
Dakota Grasslands to the Rocky Mountain Front. These projects--stunning 
in scale and impact to local communities and traditional landscapes--
are relatively small and strategic in terms of Federal investment.
    In my home State of Idaho, LWCF funding has contributed 
substantially to the conservation of working farms and ranches along 
the South Fork of the Snake River. Over the last decade and a half, a 
unique partnership of landowners, local communities, conservation 
partners, and Federal agencies has resulted in the permanent protection 
of what the U.S. Fish and Wildlife Service has dubbed one of our 
country's most sensitive and unique natural areas. Today, this 
continuous corridor of conservation easement-protected lands is keeping 
the ranching traditional alive. With 350 recreational visitor days per 
year along the South Fork Snake, it is also providing a major economic 
driver in East Idaho.
    The Forest Legacy Program, funded under LWCF since 2004, has 
partnered with States and private landowners to protect over 2 million 
acres of working forests in 42 States and the Commonwealth of Puerto 
Rico. Even during tough economic times, with presumably fewer private 
buyers out there, the reality is that these properties are still worth 
more to a second-home or subdivision developer than today's forest 
investor is willing or able to invest in them on a long-term basis. 
Through the purchase of development rights today, the timberland owner 
is no longer held hostage to future development considerations. They 
can focus on the full measure of long-term forest management 
opportunities and protect conservation values, while continuing to pay 
property taxes, produce logs for local mills and, importantly, preserve 
private sector jobs for rural communities.
    One such example is the McArthur Lake Corridor in northern Idaho. 
Several years ago, while a manager at Forest Capital, I oversaw the 
conveyance of development rights over 3,943 acres utilizing Forest 
Legacy funding. An important wildlife travel corridor between the 
Bitterroot and Selkirk ranges, this ownership was already surrounded by 
considerable rural residential development, so preventing further 
development was critical. This year, the State of Idaho has requested a 
Forest Legacy Program grant of $4 million to protect an additional 
6,000 acres of working forests lands across the McArthur Lake Wildlife 
Corridor. Stimson Lumber Company, the landowner, is contributing over 
$1 million in donated land value. Stimson will continue sustainable 
timber harvest operations of approximately 2.5 million board feet 
annually supporting about 33 full-time forest products jobs plus 
another 69 full-time in other related sectors of the economy. By 
guaranteeing public access to these lands in perpetuity, the easement 
will also help to support numerous local businesses that are part of 
Idaho's outdoor recreation economy--which statewide supports 37,000 
jobs and accounts for over $2 billion annually in retail sales and 
services This is a win-win that maintains vital timber industry jobs 
and production while supporting the local tourism and recreation 
economy.
    If we are serious about creating jobs and getting the economy back 
on track, conservation spending on LWCF is not only a wise, but an 
essential investment. Today, outdoor recreation and tourism represent a 
major part of the U.S. economy, one that America still dominates 
globally, and one that represents opportunities for sustained economic 
growth in rural and urban communities across America. A recent report 
from the National Fish and Wildlife Foundation tells us that, together, 
outdoor recreation, natural resource preservation and historic 
preservation activities support 9.4 million jobs (1 out of every 15 
jobs in the United States) and contributes $1.06 trillion annually to 
our economy. The popularity and demand for opportunities to recreate on 
public lands will only increase as our population grows and these 
natural places increase in aesthetic and economic value.
    I am an avid outdoorsman and my most treasured memories are of time 
spent in Idaho with family and friends, hunting and fishing, skiing and 
camping, and rafting our magnificent rivers. Across the country, LWCF 
purchases within federally designated areas, as well as conservation 
easements across private lands, are protecting our most threatened 
waterfowl, trout and big-game habitat. These Federal dollars often 
provide leverage for significant State, local and private investments 
in land protection as well. Furthermore, LWCF funding can play an 
increasingly important role in making public lands public by ensuring 
that sportsmen and other outdoor enthusiasts have access to favorite 
hunting grounds, trout streams, and trails. With changing land use and 
ownership patterns, historic recreational access is being cut off or 
blocked in many areas. Strategic LWCF purchases can defuse conflicts 
with private landowners by securing permanent access. Additionally, 
they serve to connect existing public lands and create expanded parking 
and trailhead access for the public. Conservation easement acquisitions 
through the Forest Legacy Program compensate private landowners who 
have often provided voluntary public access to lands, thereby ensuring 
permanent public access to prime hunting and fishing lands.
    Mr. Chairman and members of the Subcommittee, I join with the LWCF 
Coalition and many others across the Nation in urging you to support 
funding for the Land and Water Conservation Fund. This year, the 
administration's budget request includes high-priority, now-or-never, 
willing seller projects across our national parks, wildlife refuges, 
forests and other public land. It makes investments in stateside LWCF 
grants including local parks and trails, and in non-Federal protection 
of working forests, key wildlife habitat, and other irreplaceable 
outdoor resources. It also expands LWCF investments in landscape 
conservation, hunting and fishing access, civil war heritage sites, and 
national trails. These are priorities I think we can all agree upon.
    We understand the severe financial constraints under which you and 
this Congress are operating. At the same time, we recognize that 
America simply cannot afford to lose the public opportunities that LWCF 
provides, or the activity it injects into the economy. It is a program 
that enables local communities and private landowners to make 
economically sound choices to protect the natural, cultural and 
recreation resources we all commonly share. I therefore respectfully 
ask that you support the administration's fiscal year 2013 
recommendation of $450 million for LWCF program. At one-half the 
authorized funding level for the program, this represents a measured 
proposal that spreads limited resources wisely across urgent and 
diverse LWCF priorities and programmatic goals.
    In closing, I thank you for your dedication and service. I can 
think of no greater legacy for my three lovely granddaughters than the 
conservation of our traditional working landscapes, and the protection 
of our recreation lands, clean waters and wildlife heritage.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute

    Mr. Chairman and Members of the Subcommittee: Marine Conservation 
Institute, based in Bellevue, Washington, is a nonprofit conservation 
organization that uses the latest science to identify important marine 
ecosystems around the world, and then advocate for their protection. As 
a member of the Cooperative Alliance for Refuge Enhancement (CARE), we 
support the U.S. Fish and Wildlife Service (USFWS) National Wildlife 
Refuge System (NWRS), particularly the monuments and refuges that 
conserve marine environments. I wish to thank the members of the 
Subcommittee on Interior, Environment, and Related Agencies for the 
opportunity to submit written testimony to support the President's 
request of $494.8 million in fiscal year 2013 for the NWRS. This is an 
$8.8 million increase over the fiscal year 2012 enacted level. Marine 
Conservation Institute recommends $3.5 million of that increase be 
allocated for the management of our Nation's unique marine monuments.
    President George W. Bush established four marine national monuments 
in the Pacific Ocean: Papahanaumokuakea Marine National Monument, 
Marianas Trench Marine National Monument, Pacific Remote Islands Marine 
National Monument, and Rose Atoll Marine National Monument. Together, 
these monuments protect approximately 335,348 square miles of marine 
habitat, and constitute about one-third of the entire Refuge System. 
The four monuments include 12 marine refuges and more than 20 islands, 
atolls and reefs spread across the Pacific Ocean. Each monument was 
designated because of its individual ecological and cultural 
uniqueness.

Papahanaumokuakea Marine National Monument
    Papahanaumokuakea Marine National Monument, also referred to as the 
Northwestern Hawaiian Islands, is home to millions of seabirds, an 
incredible diversity of coral reef species (including deep-sea corals), 
and the highly endangered Hawaiian monk seal. Approximately 90 percent 
of Hawaii's green sea turtles nest in the monument, as do about 99 
percent of the world's population of Laysan albatross and 98 percent of 
the black-footed albatross. These islands are also important to Native 
Hawaiians for culture, history, and religion.

Pacific Remote Islands Marine National Monument
    The Pacific Remote Islands Marine National Monument contains some 
of the last remaining, relatively intact coral reef and pelagic 
ecosystems in the Pacific Ocean. Any one of the seven coral islands 
within the monument contains nearly four times more shallow water, 
reef-building coral species than the entire Florida Keys. The monument 
provides habitat for an estimated 14 million seabirds and many 
threatened or endangered species, such as leatherback, loggerhead, and 
green sea turtles; humphead wrasse; bumphead parrotfish; and the 
globally depleted giant clam. An estimated 200 seamounts, most of which 
have yet to be identified or explored, are predicted to exist in the 
pelagic zone within 200 nautical miles of the seven islands. Seamounts 
are important biodiversity hotspots because they provide habitat and 
localized nutrients for many species in the vast pelagic waters of the 
Pacific.

Rose Atoll Marine National Monument
    Rose Atoll Marine National Monument is home to a very diverse 
assemblage of terrestrial and marine species, many of which are 
threatened or endangered. Rose Atoll supports 97 percent of the seabird 
population of American Samoa, including 12 federally protected 
migratory seabirds and 5 species of federally protected shorebirds. 
Rose Atoll is the largest nesting ground in the Samoan Islands for 
threatened green sea turtles, and is an important nesting ground for 
the endangered hawksbill turtle. Rose Atoll also provides sanctuary for 
the giant clam, whose population is severely depleted throughout the 
Pacific Ocean.

Marianas Trench Marine National Monument
    The Marianas Trench Marine National Monument protects areas of 
biological, historical and scientific significance. The monument is 
home to many unusual life forms found in its boiling and highly acid 
waters, highly diverse and unique coral reef systems (more than 300 
species of stony coral), and an astonishingly high population of apex 
predators, including large numbers of sharks. The monument also 
encompasses the Mariana Trench, the deepest ocean area on Earth, which 
is deeper than Mount Everest is tall.

Marine National Monument Management Implementation
    President Bush gave the Department of the Interior (U.S. Fish and 
Wildlife Service) management responsibility over the three newest 
monuments, while the Department of Commerce has primary responsibility 
for managing fishing in the outer waters of each monument. Although it 
has been over 3 years since their designation, very little funding 
(<$200,000 annually) has been added specifically for managing the Rose 
Atoll, Marianas Trench, and Pacific Remote Islands Marine National 
Monuments. As a result, monument plans and fishing regulations have not 
been completed and most islands remain essentially unmanaged and 
unmonitored.
    It is imperative that USFWS establish appropriate management 
measures to adequately protect the land, waters and seafloor of all 
four marine monuments. In particular, the USFWS must have adequate 
funds to finalize management plans for the three newest monuments, hire 
adequate personnel, provide transportation to visit the islands on a 
regular basis, develop plans to restore damaged reefs and lands, and 
consult with the National Oceanic and Atmospheric Administration and 
the U.S. Coast Guard to provide proper surveillance and enforcement of 
illegal activities such as trespassing and illegal fishing.
    Restoration actions are needed at most of the islands, including 
restoring natural habitats, removing discarded equipment and structures 
from past military occupations, and dealing with old waste disposal 
sites. Additionally, human exploration and occupation introduced many 
invasive species to the islands which should be removed.
    For example, two fishing vessels that grounded in the Pacific 
Remote Islands Marine National Monument have yet to be removed and are 
currently devastating the surrounding coral ecosystems. In 1991, a 121-
foot Taiwanese fishing boat sank on Palmyra Atoll; in 2007 an abandoned 
85-foot fishing vessel was discovered on Kingman Reef. These two 
islands are home to some of the most pristine coral reefs in the world. 
The Palmyra wreck sits directly on the reef and continues to damage the 
ecosystem by leaching iron into the water which has accelerated the 
rapid growth of a nuisance corallimorph, Rhodactis howesii. According 
to a recent report by the U.S. Geological Service, more than 740 acres 
of the coral habitat has been smothered and destroyed so far by the 
corallimorph whose growth continues to be promoted by the wreck's 
presence.
    A recent study by L. Wegley, et al. on nearby Kingman Reef, 
indicates that the live coral cover surrounding the wreck has decreased 
to less than 10 percent of its original size due to accelerated algae 
growth and corallimorph infestation. The reef destruction extends 1.5 
kilometers along the reef horizontally, and was observed spreading down 
the reef slope to approximately 35 meters. As this growth continues 
unabated, it is expected to spread toward the north facing shoreline 
where fragile coral gardens are located.

Appropriations Needs
    Marine Conservation Institute requests that the subcommittee 
increase funding for NWRS operations by $8.8 million to a level of 
$494.8 million in fiscal year 2013 to better manage our Nation's 
refuges. We recommend that $3.5 million of that amount be allocated to 
the marine monuments, which now receive approximately $200,000 
annually. USFWS responsibilities in the Pacific Islands have increased 
substantially since the designation of the monuments in 2009, but 
funding has not followed suit.
    Additional monument funding would allow USFWS to properly manage 
Midway Atoll Airfield, and more adequately protect and restore the 
Papahanaumokuakea Marine National Monument. Furthermore, the additional 
funding would allow USFWS to provide adequate management of the three 
newest monuments. Funding is needed to hire managers for Marianas and 
Pacific Remote Islands (a Rose Atoll Manager has been funded over the 
last several years); hire one public planner position to aid in 
management responsibilities; and pay for associated administrative 
costs such as office space costs and travel expenses. Additional funds 
would also continue to address nuisance and invasive species that are 
hurting native wildlife populations, and hire additional law 
enforcement officers to combat illegal entry and fishing. The remaining 
funds would pay for an initial cost assessment for removal of the two 
shipwrecks mentioned above that are damaging coral reef habitats.
    Thank you for the opportunity to share our views.
                                 ______
                                 
          Prepared Statement of the Moat Creek Managing Agency

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF. As part of this LWCF request, the 
Bureau of Land Management included $4.5 million for the acquisition of 
land at the California Coastal National Monument in Mendocino County. I 
respectfully urge you to support robust funding for the LWCF to ensure 
that this critical California conservation priority will receive the 
necessary funds.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries. LWCF investments also support jobs, tourism and economic 
vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    For over 100 years the small incorporated City of Point Arena and 
the Point Arena Lighthouse have clung to the rugged and remote 
coastline of Mendocino County in California. Surrounding the point and 
lying north of the town of Point Arena are the Stornetta Public Lands 
and Manchester Beach State Park, a complex of Federal and State 
conserved lands totaling approximately 3,350 acres.
    A unique designation, the national monument was proclaimed in 2000 
by President Bill Clinton to protect the coastline; offshore rocks, 
reefs, and islands; and marine habitats along the 1,100 mile Pacific 
Coast of California. The monument is part of the BLM's National 
Landscape Conservation System (NLCS), first created in 2000 and later 
authorized by Congress in 2009. The State of California protects 1,500 
acres at Manchester Beach State Park. A privately held conservation 
easement inland along the Garcia River protects another 589 acres. In 
total the public lands complex protects 6 miles of coastline.
    The jagged coastline of Northern California is a major draw for 
tourists to Mendocino County. Most visitors access the area via 
California Route 1. Attracted by the scenery of the coast and 
recreational opportunities including hiking, biking, camping, wildlife 
viewing, ocean sports, and horseback riding, tourists also enjoy the 
hospitality of small communities like Point Arena. Tourism depends not 
only on the multiple small businesses along the Route 1 corridor, 
ranging from inns, shops, restaurants, and historic sites like the 
lighthouse, but also from the ecological and visual integrity of the 
high quality surrounding landscape.
    Available for acquisition in fiscal year 2013 is the 409 acre 
second phase of the Cypress Abbey property. This property has BLM lands 
on three of its borders including California Coastal National Monument 
to its west, Stornetta Public Lands to its north, and the tract 
recently acquired in the first phase of the project to its south. The 
property boasts miles of gentle coastal bluff, rich riparian corridors, 
and approximately 2 miles of terraces and wild beach with natural 
bridges, tide pools, waterfalls, sinkholes and blowholes. The coastal 
bluffs and terraces include open meadows and forests of Shore Pine. The 
property and surrounding area supports habitat for the Behren's 
Silverspot Butterfly, Point Arena Mountain Beaver, and California Red-
legged Frog, all federally listed endangered or threatened species.
    The acquisition will allow for a variety of onsite recreational 
uses, including interpretive hikes and studies; walking, and bicycling 
along multi-modal trails; and wildlife viewing. Visitors will be able 
to observe an array of seabirds along with wintering and migrating 
shorebirds such as black turnstones, surfbirds, and rock sandpipers. 
The exposed and vegetated offshore rocks support nesting sites for 
pelagic cormorants, pigeon guillemots, and black oystercatchers.
    Coastal trail access resulting from the proposed acquisition would 
create a gateway to the national monument and the scenic coastline, 
making this extraordinary resource accessible for public enjoyment. 
Acquisition of phase II lands will also provide the opportunity to 
create over 8 miles of California Coastal Trail originating in the 
heart of the City of Point Arena and connecting to the protected open 
space. The protection of the property will also enhance the viewshed 
along California Route 1, the main access road for visitors to the 
coastline. The route is designated by Caltrans as an eligible State 
scenic highway.
    The project has the support of the U.S. Fish and Wildlife Service, 
the California State Coastal Conservancy, the California Department of 
Fish and Game, Mendocino County, the City of Point Arena, and other 
interested groups and organizations. The first phase of the project, 
comprising 123 acres, was completed in January 2012 using funds from 
the BLM and the California State Coastal Conservancy. A total of $5.3 
million is needed for the acquisition of the second phase.
    In its budget request for fiscal year 2013, the BLM included $4.5 
million from the Land and Water Conservation Fund (LWCF) for California 
Coastal National Monument. Additional funds are being sought from State 
sources, the Federal Public Lands Highways Discretionary program, and 
private donors.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for California 
Coastal National Monument. I want to thank the Chairman and the members 
of the subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in California, and I appreciate 
your consideration of this funding request.
                                 ______
                                 
 Prepared Statement of the Mississippi Interstate Cooperative Resource 
                              Association

Background
    One of the most significant threats to biodiversity in the Nation's 
coastal and estuarine habitats as well as inland navigable waters is 
the introduction of nonindigenous aquatic nuisance species (ANS) into 
the ecosystem. The introduction of ANS through intentional or 
accidental means establishes a stress on ecosystems that can result in 
the decline of native species population, serve as an impediment to 
species recovery and pose a long-term economic and ecological threat to 
the health of the area. The control and management of these ANS in such 
areas as the Mississippi River Basin Drainage, Great Lakes, Everglades, 
and San Francisco Bay/Inland Delta costs the economy and taxpayers 
billions of dollars annually.
    MICRA commends Congress and the Federal Government's recognition of 
this problem and efforts to address it through enactment of the Non-
indigenous Aquatic Nuisance Prevention and Control Act (NANPCA) of 1990 
(Public Law 101-646) and the National Invasive Species Act (NISA) of 
1996 (Public Law 104-332). The establishment of the Aquatic Nuisance 
Species Task Force (ANSTF) makes use of a coordinating body to improve 
efforts to administer the Government's responsibilities as carried out 
by the National Oceanic and Atmospheric Administration, U.S. Fish and 
Wildlife Service (USFWS), U.S. Coast Guard, U.S. Environmental 
Protection Agency, U.S. Army Corps of Engineers, and other Federal 
agencies.
    As a part of their authority and responsibility for water resources 
management, individual States have moved forward with State based 
programs to combat aquatic nuisance species and to prevent their 
introduction into State waters. These programs supplement the national 
activity and are indicative of an ongoing need for resources and action 
to reduce the threat and minimize the impacts of ANS on U.S. waters.

State/Interstate Aquatic Nuisance Species Management Plan
    The NANPCA (as amended by NISA) recognized that States are integral 
partners in the battle against ANS by authorizing the State/Interstate 
Aquatic Nuisance Species Management Plan (SIANSMP) grant program. 
Managed by the Service, the program provides annual funding to States, 
Tribes and Regional organizations to support the implementation of 
State and interstate ANS management plans that have been approved by 
the ANSTF. The SIANSMPs identify feasible, cost effective measures to 
be undertaken by the States and cooperating entities to manage ANS 
infestations in an environmentally sound manner. This funding has 
helped many States initiate an ANS program and has enabled them to 
establish mechanisms for prevention, early detection and rapid 
response, containment, and control. Through their SIANSMPs, State 
efforts link together to form an effective national ANS program that 
combines strong Federal and State partnerships to eliminate or reduce 
the environmental, economic, public health and human safety risks 
associated with ANS.
    Section 1301(c) of NANPCA authorized a total of $4 million for the 
SIANSMP grant program; however, that amount has never been fully 
appropriated. Funding was gradually increased from $68,000 for the 
first approved State Management Plan in 1994, to its current level of 
$1,075,000 beginning in 2004. Over the years, the number of plans 
approved far outpaced the capacity of the SIANSMP funding. In 2011, the 
number of approved plans had reached 39, and the amount of support 
requested by the States was more than $9 million. The number of plans 
has increased almost 2.5 times since 2004, causing the amount of annual 
funding per plan to decrease over the same time period. In 2000, the 
Service provided approximately $100,000 per State for plan 
implementation; in 2004, it was approximately $71,000 per plan. In 
fiscal year 2011, the Service provided $29,800 to support each of the 
36 approved SIANSMPs that requested funding.
    More than 75 percent of the States have approved SIANSMPs. All but 
one Mississippi River Basin State are implementing an ANSTF approved 
plan or are at various stages of developing their State ANS plan. Each 
State has invested significant resources to develop a plan that meets 
its needs and addresses its priority ANS issues, and each has been able 
to significantly leverage available Federal funds. In 2010, the States 
combined the Federal contribution of $1.075 million with more than $6.6 
million in State and partner funds to complete a wide array of 
accomplishments toward the goals and objectives of their SIANSMPs.
    In some cases the funding from the USFWS for SIANMPs represents the 
only funding the States spend on AIS, while in other cases, the annual 
allocation from the Service represents only a small portion of their 
total Invasive Species Management budgets. In either case, however, 
these funds are vital to supporting State AIS Coordinator positions or 
are pooled with other funds, and with other partners, to allow for 
effective and efficient collaborative projects to address plan 
priorities. For many States, a lack of dedicated State funding for the 
ANS Plans is an ongoing problem. Many elements of the SIANSMP have not 
been successfully implemented due to a lack of sufficient resources, 
and demands placed on the capacity of States to address these issues 
continue to outpace the availability of resources.

President's Fiscal Year 2013 Budget
    The States have developed ANSTF approved management plans and ANS 
programs in accordance with congressional authorizations in NANPCA and 
NISA. The SIANSMP grant program remains a high priority to States and 
is critical to their ability to implement successful ANS prevention and 
control programs. Funding for the SIANSMPs has remained stable since 
2004 at only 25 percent of the authorized level, however total requests 
to support the 36 approved State/Interstate ANS Management Plans that 
applied for funding in fiscal year 2011 exceeded $9,000,000. The States 
have consistently demonstrated a need for increased appropriations to 
implement ANS prevention and control priorities, yet the President's 
fiscal year 2013 budget eliminates the SIANSMP grant program for 
implementation of ANSTF-approved plans.
    MICRA urges Congress to restore fiscal year 2013 appropriations of 
$1,075,000, and to provide additional fiscal year 2013 appropriations 
to fully fund that SIANSMP grant program at $4,000,000 as authorized by 
NANPCA and NISA.
    Note.--Information provided in this document was pulled from 
existing documents including:
    2011-2012 Policy Positions for the Jurisdiction of the Environment 
Committee, National Conference of State Legislatures, http://
www.ncsl.org/state-Federal-committees.aspx?tabs=855,23,667.
    State/Interstate Aquatic Nuisance Species Management Plans 2010 
(1st in a Series of 3). U.S. Fish and Wildlife Service. April 2012.
    Accomplishments of the State/Interstate Aquatic Nuisance Species 
Management Plans A Summary of State Efforts in the Battle Against ANS 
(2nd in a Series of 3). U.S. Fish and Wildlife Service. February 2012.
    The Evolution of the State/Interstate Aquatic Nuisance Species 
Management Plan Grant Program (3rd in a Series of 3). U.S. Fish and 
Wildlife Service. April 2012.
                                 ______
                                 
     Prepared Statement of the Merritt Island Wildlife Association

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
nearly 1,300 members of the Merritt Island Wildlife Association (MIWA), 
thank you for this opportunity to submit comments on the proposed 
fiscal year 2013 Interior appropriations bill. MIWA is a nonprofit 
volunteer organization formed in 1994. Our mission is ``to promote 
conservation, awareness, appreciation, and use of the Merritt Island 
National Wildlife Refuge (MINWR) and to support Refuge programs.''
    We appreciate your prior support of the National Wildlife Refuge 
System (NWRS), and specifically request that you continue that 
commitment to sustaining the world's foremost wildlife conservation 
system with approval of the President's budget request of $495 million 
for NWRS operation and maintenance. In the broader context of the 
overall Fish and Wildlife Service budget request, we also urge your 
support of the $51 million appropriation proposed for the Migratory 
Bird Management program. Further, we believe funding of the Land and 
Water Conservation Fund at $700 million is vitally important to 
acquisition and preservation of critical habitat throughout the United 
States.

Merritt Island National Wildlife Refuge
    MINWR was established in 1963, the 286th refuge in the system which 
now numbers 556. It serves as the headquarters for a complex of seven 
refuges which comprise a total of 172,000 acres located in five 
counties in east-central Florida. The complex includes Pelican Island 
NWR, the Nation's first Refuge, as well as the system's most recent 
addition--the Everglades Headwaters NWR. MINWR itself is an overlay of 
NASA's Kennedy Space Center and extends over 140,000 acres of northern 
Brevard and southern Volusia Counties. Over 2 million people live 
within an hour's drive of the Refuge.
    The initial primary purpose of MINWR was ``. . . for use as an 
inviolate sanctuary . . . for migratory birds.'' (Migratory Bird 
Conservation Act); later expanded under the North American Wetlands 
Conservation Act to include ``. . . to protect, enhance, restore, and 
manage an appropriate distribution and diversity of wetland ecosystems 
and other habitats for migratory birds and other fish and wildlife . . 
.'' and ``. . . to sustain an abundance of waterfowl and other 
migratory birds consistent with the goals of the North American 
Waterfowl Management Plan . . .''
    The Refuge has been designated by the State of Florida as an 
``Outstanding Florida Water'' in recognition of the exceptional 
ecological value and water quality of the Indian River Lagoon within 
MINWR; and is also identified as ``Essential Fish Habitat'' under the 
Magnuson-Stevens Act.
    These mandates and accolades speak to the quality of the biological 
and physical resources within MINWR and the necessity to preserve and 
protect them. Implicit in the mission of the NWRS, however, is the firm 
commitment to also serve the interests of the people who pay the bills. 
MINWR has done an excellent job of this. The Refuge receives over 
750,000 visitors each year and another 250,000 visit the rest of the 
complex's lands and facilities. The spectrum of interests is broad--
many come for wildlife observation, photography, or simply to enjoy 
some quiet time in a natural setting; but there are also waterfowl 
hunters, anglers, boaters, and hundreds of school children drawn by the 
environmental education programs. MINWR is a highly favored stop on the 
Great Florida Birding Trail managed by the Florida Fish & Wildlife 
Conservation Commission.
    They come from near and far--over 60 percent from outside the local 
area (50 mile radius) according to an extensive 2010-2011 visitor 
survey. For most, visiting the Refuge was either the primary purpose of 
their trip or one of a few equally important purposes. And they spend 
money locally; an average of $52 per day for local visitors, and $91 
for those from farther away (who typically stayed in the area for a few 
days). Nearly 80 percent of the respondents stopped at the Visitor 
Center for information, services, and gift shopping; over 95 percent 
said they were very satisfied with all aspects of their visit; and 92 
percent believed that National Wildlife Refuges provide a unique 
recreational experience in comparison to other public lands. The 
survey, one of several done at refuges across the country, achieved a 
remarkable 79 percent response rate.

The NWRS Operations and Maintenance Budget Request
    It has been estimated that ``full funding'' of the NWRS would 
require a $900 million annual appropriation. We are all aware of the 
realities of our current economy, however, and request your approval of 
the fiscal year 2013 request of $495 million. We note that while this 
amount will avoid further sharp cuts in system staff and programs, it 
falls short of holding the line in terms of constant dollars. The 
Refuge staff has done an admirable job with the available resources, 
but they face a number of current and impending budget-related issues:
  --The current MINWR staff is 29 people, which provides less than one-
        half man-hour per acre per year of available labor for all 
        operation and maintenance requirements. (The staff of the other 
        six refuges in the complex is only 11.) One Refuge Manager 
        position was eliminated in 2011, and the Supervisory Refuge 
        Ranger position remains vacant for lack of available funding. 
        That position is responsible for managing the Refuge's public 
        services program . . . for those 750,000 people who visit each 
        year. The vacancy will force the reduction of Visitor Center 
        hours to 5 days per week from its current level of 7 days 
        during the winter ``high season'' and 6 days through the 
        summer.
  --Some of the Refuge's roads that historically have been open to the 
        public have been closed this year due to lack of maintenance 
        funds. Lack of adequate staffing also has caused planned 
        expansions of the hunting program (to include upland game at 
        MINWR and the satellite St. Johns NWR) to be postponed until 
        2015 or later. Inadequate funding also will reduce maintenance 
        of the levees and control structures used to manage water 
        levels in the impoundments critical for waterfowl habitat. 
        Without proper and timely water control, wintering waterfowl 
        numbers can decline precipitously.
  --There are only about 250 law enforcement personnel within the 
        entire NWRS; the MINWR 7-refuge complex has but 2. A 2005 
        assessment by the International Association of Chiefs of Police 
        recommended a NWRS force of 845 full-time officers. While crime 
        within our refuge complex has not yet become a major problem, 
        it is increasing. The law enforcement budget request for the 
        entire NWRS is less than $40 million . . . for 150 million 
        acres in over 500 locations spread over 50 States. That is 
        about a third of the annual budget for either the Brevard 
        County Sheriff's Office or the Orlando Police Department.
  --Nationally, the 230 ``Friends'' groups such as MIWA and individual 
        volunteers provide 1.4 million hours for NWRS programs and 
        facilities--the equivalent of 665 full-time positions. But 
        volunteers must be trained and managed to be effective, and 
        that requires F&WS staff.
  --MINWR is responsible for wildfire protection throughout the Refuge, 
        including Kennedy Space Center. Prescribed burning is the 
        primary management tool for both fire risk reduction and for 
        maintenance of scrub habitat for one of Florida's largest 
        populations of the endangered Florida Scrub Jay. Staff has 
        projected that prescribed burns may have to be reduced by up to 
        25 percent in the coming year if sufficient staff and funds are 
        not available.
    The impact of these issues on visitor orientation, assistance, and 
satisfaction is obvious, and quite likely to result in reduced 
visitation. And that problem extends well beyond MINWR.
    The Refuge is a linchpin in the local economy, and its senior staff 
have been closely and cooperatively involved in the efforts of 
Titusville and northern Brevard County--indeed, all of east central 
Florida--to deal with the repercussions of the ending of the NASA Space 
Shuttle program. The area has lost thousands of jobs in the past year 
and suffers from a painfully high unemployment rate.
    Local leaders have united to address this immediate and pressing 
problem . . . to turn an extraordinarily sour lemon into lemonade, to 
fall back on an old cliche. A notable example is the Greater Titusville 
Renaissance whose mission is to ``embark on an exciting path of 
revitalization by celebrating our natural and historic resources, 
cultivating arts and culture, and energizing our economy.'' Promoting 
and sustaining our nature-based tourism is an integral part of that 
concept.
    Using the survey data presented above, we estimate that our 750,000 
annual visitors are the source of more than $50 million in local gas, 
food, lodging, and other spending. MINWR is clearly a significant 
element in local economic recovery planning. Our community will be even 
more severely damaged if the Refuge's funding is eroded. We are a 
reflection of the entire NWRS in this regard. Nationwide, 45 million 
annual refuge visitors contribute nearly $1.7 billion to local 
economies and support tens of thousands of local jobs.

Migratory Bird Management Program Budget
    Given the fundamental importance of migratory bird habitat 
preservation and enhancement to the purpose of MINWR, MIWA strongly 
supports the $51 million budget request for these programs. While 
originally focussed on our wintering waterfowl populations, the Refuge 
also includes some of the last intact coastal hammock and upland scrub 
along the Florida coast. These areas are heavily used by migrating 
neotropical land birds--passerines and other woodland species--moving 
along the Atlantic Flyway. MINWR also has many large expanses of mud 
flats and salt marsh used by migrating shorebirds, many of which are 
species of concern, and several miles of undisturbed beach and dunes.
    Coupled with our excellent waterfowl areas, these additional 
components of the Refuge underlie its 2001 designation by the American 
Bird Conservancy as a Globally Important Bird Area. There are only 500 
such areas worldwide--including 183 of our National Wildlife Refuges.
    This also underscores the global nature of the need for migratory 
bird protection. Many of the species passing through MINWR winter in 
Central and South America where habitat degradation is an increasingly 
serious problem. We also support the proposed $3.8 million 
appropriation request for the Neotropical Migratory Bird Conservation 
Fund.
    A significant percentage of the visitors to MINWR are birders. 
Without large numbers of wintering species and the recurring passage of 
the migrants, our birders will go elsewhere.

Land and Water Conservation Fund
    The Land and Water Conservation Fund (LWCF) was created in 1965 
with the intention, never fulfilled, of annual funding of $900 million. 
These funds are derived primarily from offshore oil and gas drilling 
fees, not from general tax revenue. The administration's request this 
year is $104.7 million for the NWRS, but the Senate Transportation 
bill, as amended, would provide $700 million for national, State, and 
local efforts to conserve irreplaceable lands. We ask for your support 
of the increased amount. The LWCF can be an unequalled mechanism for 
the acquisition and preservation of critical habitats at the landscape 
scale. These would include the 8 million acres still unprotected within 
our National Wildlife Refuges and wildlife corridors between existing 
sanctuaries, preserves, and refuges.

Summary
    We believe our National Wildlife Refuges are viewed as great 
national assets by the American people, and we know that Merritt Island 
National Wildlife Refuge enjoys that support in Florida. These are 
places where we go for the enjoyment of things not built by man, for 
reconnection with our natural heritage, and sometimes simply for stress 
relief. Our members know they provide all of that. We hope you will 
find the time to experience these things personally and often, and that 
you will support the National Wildlife Refuge System to--and perhaps 
beyond--the extent we have requested.
    Thank you again for this opportunity to comment on this proposed 
appropriation.
                                 ______
                                 
   Prepared Statement of Maine's Department of Inland Fisheries and 
                                Wildlife

    Congress created the State Wildlife Grant [SWG] Program in 2001 to 
help State and tribal fish and wildlife agencies address the unmet 
needs of fish and wildlife and associated habitats, especially species 
of greatest conservation need [SGCN]. Funds appropriated under the 
State Wildlife Grants program are allocated to States according to a 
formula that takes into account each State's size and population. To 
date, Maine has received more than $6.5 million in SWG funds. Projects 
funded to date are diverse, covering many species groups, all 
geographic areas of the State, and ranging in scale from ecosystems to 
subspecies. They vary in length from 1 to 5 years, and include baseline 
surveys and inventories, research, and habitat conservation. State 
Wildlife Grant funds support 10 full-time positions within the Maine 
Department of Inland Fisheries and Wildlife [MDIFW] and have funded 
many projects that support conservation actions identified in Maine's 
Wildlife Action Plan [WAP]. Here are a few examples of projects that 
State Wildlife Grant funds have supported. Other SWG-supported 
activities not described here include: organizing a network of citizen-
volunteers to locate and monitor colony-nesting wading birds such as 
herons; and population monitoring and public outreach for species such 
as falcons, bats, New England cottontail rabbit, rare butterflies, 
dragonflies, and freshwater mussels, and significant wildlife habitats.

Beginning with Habitat
    Beginning with Habitat is a cooperative effort of agencies and 
organizations working together to secure Maine's outdoor legacy. The 
goal of the program is to maintain sufficient amounts of habitats to 
support all native plant and animal species currently breeding in Maine 
100 years from now. We aim to provide each Maine town with a collection 
of maps and accompanying information depicting and describing various 
habitats of statewide and national significance in the town. Beginning 
with Habitat partners then work with communities to design a landscape 
that accommodates the growth they need with the highest resource 
conservation. Beginning with Habitat is the foundation of Maine's 
Wildlife Action Plan and is a non-regulatory collaborative and 
information-based habitat conservation tool.

Seabird Outreach
    The principal objective of this project was to inform Maine 
students and the general public about seabird biology and marine 
conservation by providing insight into the lives of Maine seabirds 
[e.g., puffins and terns] through a web-based school curriculum and 
Internet access that features live-streaming video from Eastern Egg 
Rock, a State-owned 7-acre sanctuary managed by National Audubon 
Society.

Distribution and Ecology of Purple Sandpipers Wintering in Maine
    The northeast Atlantic Coast is recognized by the U.S. Shorebird 
Conservation Council as an area that is extremely important to the 
survival of wintering purple sandpipers in the Western Hemisphere. In 
fact, there is strong evidence that Maine supports a large percentage 
of the wintering population. With threats from catastrophic oil spills 
and consequent damage to shorebird habitats or shorebirds themselves, 
the Maine Department of Inland Fisheries and Wildlife identified the 
need to locate and map important purple sandpiper habitats and 
determine population abundance, distribution, and limiting factors. 
This project enabled the Department to: (1) estimate abundance and 
distribution of purple sandpipers in Maine; (2) assess movements and 
site fidelity of individuals at particular sites; and (3) develop a 
protocol for monitoring purple sandpiper populations in Maine.

Enhance Management of Piping Plovers and Least Terns
    Piping plovers and least terns are designated as endangered species 
in Maine and are known to nest on a handful of beaches in the State. To 
successfully raise young, these birds need sand beaches free from human 
disturbance and predators. This project enabled MDIFW, working in 
cooperation with Maine Audubon and local towns, to conduct the planning 
and data gathering necessary to enhance the management of piping 
plovers and least terns, including the development of cooperative beach 
management agreements with Maine municipalities.

Bald Eagle Survey and Essential Habitat
    Bald eagles continue their dramatic comeback in Maine. Presently, 
the State is home to at least 500 nesting pairs, a remarkable increase 
from the 30 nesting pairs reported in the late-1970s. Despite this 
accomplishment, our ultimate challenge is to provide suitable habitat 
for eagles in the future. Nesting eagles need mature trees and wooded 
buffers in shorelands, a niche that will always be at risk to land 
development and recreational pressures. This project devised statewide 
strategies and identified optimal sites for long-term conservation of 
bald eagle nesting habitat as the fundamental safeguard for a lasting 
recovery of the species in Maine. The delisting of the bald eagle is a 
great example of what SWG is all about. This is a tremendous story of 
conservation successful through Federal and State partnership, and we 
are striving for many more to come.

Ecoregional Surveys
    Since 1997, MDIFW and the Maine Natural Areas Program have been 
working on a systematic, statewide, 10-year survey of rare and 
endangered wildlife, plants, and natural communities. Surveys are 
designed to document new locations of rare species to better assess 
their status and distribution and design conservation strategies to 
predict potential new occurrences and promote their recovery. SWG funds 
helped support surveys in the Aroostook Hills and Lowlands [2.5 million 
acres], Eastern Lowlands [2.2 million acres], and Central and Western 
Mountains ecoregions [5 million acres]. Inventories focused on high 
value habitats supporting rare, threatened, and endangered animals. 
Data gathered support voluntary land protection by large and small 
private landowners.

Canada Lynx Ecology
    The Canada lynx has long been a rare carnivore in northern and 
western Maine. Ten years ago, its status was largely unknown and was 
based on anecdotal reports or a track in the snow. SWG funds helped 
support an ongoing study of Canada lynx in Maine to: (1) determine that 
there is in fact a viable, self-supporting population of lynx in the 
State; (2) document mortality factors affecting lynx; (3) identify 
habitats used by lynx and how they relate to distribution and abundance 
of prey; (4) investigate how lynx distribution in Maine is affected by 
populations of bobcats, coyotes, fishers, and fox; and (5) test the 
efficacy of various survey methods used to determine status of lynx.

Stream Survey Databasing of Restored Aquatic Habitats
    The Maine Department of Inland Fisheries and Wildlife is enhancing 
its efforts toward managing and conserving flowing water habitats and 
their respective animal communities. Although the Department currently 
holds extensive survey information regarding these ecosystems, most 
data exist in a multitude of formats and physical locations. This 
project will compile existing stream habitat and fish community data 
into a computerized Geographic Information System [GIS] database for 
easier use, analysis, and visualization within landscapes.

Lake Habitat Inventories
    One of the primary responsibilities of the Maine Department of 
Inland Fisheries and Wildlife is to conduct habitat surveys of the 
aquatic resources in the State. These surveys include gathering data 
related to water quality, fish species composition and relative 
abundance, bathymetry, aquatic habitat types, and macroinvertebrate 
species composition. Surveys are important to present and future 
management of Maine's lakes and ponds. To date, there are roughly 3,800 
ponds that have never been inventoried by MDIFW staff and many that 
have been completed need to be updated. The purpose of this project is 
to use various fisheries techniques to collect data to properly plan 
for the future management of lacustrine habitat in Maine.

Aquatic Biodiversity Project
    Effective resource management depends on ready access to existing 
data resources and on the ability to design and implement future data 
collection efforts in a rational and cost effective manner. This 
project enabled the Department to ensure that all priority freshwater 
fisheries data were in a format that permitted electronic mapping and 
analyses of this information.

Unique Aquatic Ecosystems
    Fishless ponds are believed to be rare in the Maine landscape. Many 
of these ponds occur in mountainous terrain where fish access is 
limited because of local topography. These sites have sometimes been 
targeted for introductions of sport fish, but they may have unique 
ecological attributes, especially for invertebrates and amphibians. 
Introduction of predatory fish could permanently alter the ecology of 
fishless ponds. This study documented the ecology of fishless ponds in 
Maine and conducted a landscape analysis to predict and evaluate the 
presence of these potentially unique natural communities.

Wildlife Park Displays
    The Maine Wildlife Park receives more than 80,000 visitors 
annually, including a large number of school children on field trips. 
These visitors come to the park to learn more about Maine's fish and 
wildlife resources and management. This project enabled the Department 
to construct a new fisheries display and to complete educational 
exhibits for moose, deer, coyote, turkeys, and turtles.

Fish and Wildlife Education
    This project provided educational materials to every fourth grade 
classroom in the State to increase students' awareness and 
understanding of fish and wildlife resources. The materials consisted 
of posters, activity guides for teachers, animal and fish guides, and 
management reports.

Wildlife Management Areas: Planning and Habitat Management for the 
        Future
    Two-thirds of MDIFW's 52 Wildlife Management Areas [WMAs] contain 
special habitats or communities that support Federal or State-listed 
threatened or endangered wildlife, species of special concern, and 
species identified of greatest conservation need. SWG funds supported 
development of a statewide WMA database, update of WMA management 
plans, development of a WMA schedule of development and maintenance 
treatments, and implementation of a schedule of habitat treatments 
across all WMAs to benefit a diversity of featured wildlife species and 
species of greatest conservation need.

An Investigation of Blanding's Turtle Road Mortality
    There is increasing emphasis on the part of Federal and State 
transportation authorities to minimize and mitigate impacts to wildlife 
passage and mortality from road construction projects. This project 
helped the Maine Departments of Inland Fisheries and Wildlife and 
Transportation identify the location and extent of road impacts on 
endangered turtles in Maine as a precursor toward designing strategic 
mitigation measures.

Status and Monitoring of Maine Owls
    MDIFW worked with Maine Audubon to evaluate the abundance and 
distribution of owls in Maine and to develop a volunteer-based 
monitoring system. Both Partners in Flight and recent initiatives 
directed at integrated bird conservation have identified monitoring of 
nocturnal birds as a high priority research and management need in the 
northeast.

Species of Greatest Conservation Need Research and Status 
        Investigations
    Maine has identified 213 species of greatest conservation need 
[SGCN] in its Wildlife Action Plan: 103 birds, 7 herpetofauna [1 
amphibian and 6 reptiles], 72 invertebrates, 12 inland fish, 6 non-
marine mammals, and 13 marine species [5 diadromous fish, 5 whales, and 
3 turtles]. For many SGCN, there is a need for financial resources to 
evaluate population dynamics and habitat relationships and use 
information gathered to support listing and de-listing proposals [State 
endangered, threatened, or special concern] and aid in conservation and 
management of these species, so that they may ultimately be de-listed.
    For more information on Maine's Wildlife Action Plan please visit 
www.mefishwildlife.com.
                                 ______
                                 
           Prepared Statement of Malheur Wildlife Associates

    Mr. Chairman and Members of the Subcommittee: On behalf of Malheur 
Wildlife Associates, the friends group for Malheur National Wildlife 
Refuge and its 110 members, we would like to thank the committee for 
their strong support of the National Wildlife Refuge System and for 
giving us the opportunity to submit testimony. We are a volunteer 
nonprofit organization whose purpose is to promote conservation, 
awareness, and appreciation of the wildlife and habitats of the Malheur 
National Wildlife Refuge and to provide assistance to Refuge 
operations. We urge you to show your continued support of the National 
Wildlife Refuge System by approving the President's fiscal year 2013 
budget request of $495 million for the operations and maintenance of 
the world's premier system of public lands and water set aside to 
conserve America's fish, wildlife, and plants. This level of funding 
will barely maintain current management capabilities. The National 
Wildlife Refuge Association estimates that refuges would need at least 
$527 million in fiscal year 2013 to maintain management capabilities 
from fiscal year 2010, and the Cooperative Alliance for Refuge 
Enhancement (CARE) estimates that the Refuge System needs at least $900 
million in annual funding to properly administer its 150 million acres 
and remains committed to aiming for this goal.
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends and volunteers do 
approximately 20 percent of all work on refuges. In 2011, these 1.5 
million hours equated to roughly eight volunteers for every one Refuge 
System employee. Without staff to oversee volunteers, their commitment 
and passion is lost, as is their desperately needed contribution to the 
System. We request $80 million for Visitors Services for the NWRS.
    We ask you to support $3.8 million in fiscal year 2013 for 
Challenge Cost Share (CCS). Partners are the key to successful 
conservation; no Federal or State agency can do it alone. Because of 
this, we support programs that leverage Federal dollars such as the CCS 
program. Partner organizations such as local volunteer ``Friends'' 
groups leverage these funds to give American taxpayers more bangs for 
their buck for projects like trails, education, boardwalks and habitat 
restoration. Malheur Wildlife Associates is helping Malheur NWR with 
such projects by providing matching grant funds and volunteer work 
crews.
    We also request that you fund the Land and Water Conservation Fund 
(LWCF) at $700 million. Created in 1965 and authorized at $900 million 
per year (more than $3 billion in today's dollars), the LWCF is our 
most important land and easement acquisition tool. With more than 8 
million acres still unprotected within existing refuge boundaries, and 
the need to establish key wildlife corridors and connections between 
protected areas, the LWCF is more important than ever. Also please 
support the new Collaborative Conservation requests of the Departments 
of Interior and Agriculture, which brings together several Federal 
agencies around a common goal.

Malheur National Wildlife Refuge
    Malheur NWR is one of the largest freshwater wetland refuges in the 
Refuge System. It is considered one of the jewels of the Refuge System 
and despite its remote location, receives very high visitor use, which 
is very beneficial to both the local Harney County and Oregon economy. 
It is the most popular birding destination in the State of Oregon. A 
2004 study reported that Malheur NWR visitors spent $2.2 million. The 
net economic benefit showed an economic value of $1.62 for every dollar 
of the refuge budget. Such funding is a worthy investment in our 
Nation's economy.
    The refuge encompasses over 187,000 acres and is critical to 
migrating and nesting waterfowl and waterbirds in the Pacific Flyway. 
It supports one of the largest nesting sandhill crane populations in 
North America and is home to many other important bird species such as 
the Greater Sage Grouse, Trumpeter Swan and American White Pelican and 
also a wide variety of other native plants and animals.

Current Challenges and Needs
    Malheur NWR wetlands have been seriously degraded by an introduced 
population of invasive common carp. Carp have destroyed much of the 
critical habitat on the Refuge, and are also affecting wetlands on 
private lands in all the tributaries to Malheur and Harney Lakes. These 
adjacent private lands have very high values for waterfowl and 
waterbirds and along with the Refuge, make up one of the most important 
wetlands complexes in North America. The refuge staff is embarking on a 
monumental effort to reduce carp impacts on wetland habitats and 
improve conditions for birds to further the Refuge's Mission. This 
effort has also resulted in a strong local partnership between Malheur 
NWR, private landowners, the Burns Paiute Tribe and State and Federal 
agencies to focus on restoring wetlands and enhancing conditions for 
wildlife on a landscape scale in Harney County.
    There is also huge maintenance backlog at Malheur NWR and much work 
is needed to properly manage the refuge. Malheur has one of the largest 
infrastructures in the National Wildlife Refuge System, with 
approximately 200 miles of public roads; 2,000 miles of waterways/
dikes; 5 dams; 1,000 water control structures; 6 automated fish 
screens; 27 administrative, 7 quarters, and 25 visitor services 
facilities; 4 historic building sites; and a large fleet of heavy/light 
vehicles and equipment. This extensive infrastructure requires a high 
degree of routine maintenance/repair to efficiently and effectively 
support the various Refuge programs and maintain tens of thousands of 
acres of wetlands, 30 miles of rivers/creeks, and 16,000 acres of 
irrigated meadow. At the current staffing level, a vast majority of 
routine maintenance and repair needs are addressed reactively. 
Additional funding is needed to proactively address the maintenance and 
repair backlog and move this Refuge forward to its full ecological 
potential and ensure biological integrity. In 2011, the deferred 
maintenance backlog for the Refuge was approximately $48 million.
            Sequestration
    Malheur Wildlife Associates is very concerned about the devastating 
impact across-the-board sequestration cuts of 9-10 percent in fiscal 
year 2013 will have on our refuges and the entire Refuge System. If 
sequestration occurs refuge management estimates there will just enough 
funds to pay salaries and utilities. The impacts will affect wildlife, 
visitors and the local Harney County economy.
    Impacts on Wildlife.--Managing the habitat will be staff's first 
goal; however management will not be as effective. Invasive carp will 
further degrade Refuge wetlands, reducing the value to waterfowl and 
other wildlife that depend on them. Important populations of waterfowl 
and waterbirds will suffer from this neglect. Refuge efforts to control 
invasive weeds will be curtailed, causing further loss of wildlife 
habitat and natural diversity, resulting in more costly control needs 
in the future. Reduced law enforcement efforts will likely lead to 
increased poaching of big game, livestock trespass, and looting of 
Refuge archeological sites.
    Impact on Visitors.--If sequestration goes into effect, refuge led 
visitor service programs will be severely reduced. Staff time for 
assisting visitors will be very restricted and access to the refuge 
will be reduced. Trails and roads that are obstructed by storm events 
will be closed. There will be no extended hours during the summer or 
weekends. Regular trail and road maintenance will be deferred. Vaulted 
toilets will be cleaned every few weeks instead of weekly and portable 
toilets will be closed.
    Friends and other volunteers will not be able to compensate for all 
of these loses. To assist with managing the habitat, volunteers need 
oversight and training, but there will be no funds to pay for the 
training. The Friends organization is willing to expand our 
interpretive programs; the challenge will be access, safety, and the 
quality of wildlife viewing.
            Opportunities to Embrace
    Malheur NWR staff has been presented a great opportunity for 
forming a ``Beyond the Boundaries'' partnership, the Harney Basin 
Wetlands Initiative. This is a collaborative partnership which includes 
the Refuge, local landowners, State and Federal agencies and the Burns 
Paiute Tribe. The goal of this initiative is to improve aquatic health 
and restore wetlands on a large scale (over 300,000 acres of lands) in 
the Basin. Malheur Wildlife Associates is assisting with these efforts.
    In 2011 the National Wildlife Refuge System created a vision to 
guide the management of the System during the next decade and beyond. 
The new vision seeks to make wildlife conservation more relevant to the 
public and engage them in the National Wildlife Refuge System. Because 
of its high visitation, Malheur NWR has the opportunity to help the 
public understand the values of the National Wildlife Refuge System and 
the benefits of our wildlife heritage.

In Summary
    Wildlife Refuges matter to your constituents. In spite of its 
remote location, Malheur NWR is by far the most popular destination for 
birders in Oregon and has many fans who visit annually.
    Our members realize that our country is facing difficult economic 
times and we must all share in the challenges of the recovery. We thank 
you for the meaningful funding increases allowed the System in fiscal 
year 2008-2010 that provided stability to our refuges. We respectfully 
ask you to support the following funding allocations for the National 
Wildlife Refuge System that will allow the System to maintain existing 
management capabilities:
  --$495 million for the operations and maintenance accounts of the 
        National Wildlife Refuge System including:
    --$39 million for Refuge Law Enforcement;
    --$80 million for Visitor's Services;
    --$3.8 million for Challenge Cost Share; and
  --$37 million for the Fish and Wildlife Service construction account.
    The Malheur Wildlife Associates invite all the members of this 
Subcommittee, your family, and staff to visit Malheur NWR, to see what 
a treasure the place is, watch the wildlife, enjoy the scenery and 
relax.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the Subcommittee's support for the U.S. 
Bureau of Land Management's (BLM) Soil, Water, and Air Program. This 
includes for fiscal year 2013, Federal funding of $5.2 million for 
general water quality improvement efforts within the Colorado River 
Basin and, of that amount, specifically $1.5 million for salinity 
specific projects to prevent further degradation of Colorado River 
water quality and increased downstream economic damages.
    The concentrations of salts in the Colorado River cause 
approximately $300 million in quantified damages in the lower Colorado 
River Basin States each year and significantly more in unquantified 
damages. Salinity concentrations of Colorado River water are lower than 
at the beginning of Program activities by over 100 milligrams per liter 
(mg/L). Modeling by the U.S. Bureau of Reclamation (USBR) indicates 
that the quantifiable damages would rise to more than $500 million by 
the year 2030 without continuation of the Colorado River Basin Salinity 
Control Program (Program).
    Water imported via the Colorado River Aqueduct has the highest 
level of salinity of all of Metropolitan's sources of supply, averaging 
around 630 mg/L since 1976, which leads to economic damages. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the River's flow. Irrigation improvements (sprinklers, 
gated pipe, lined ditches) and vegetation management reduce the amount 
of salt transported to the Colorado River. Point sources such as saline 
springs are also controlled. The Federal Government, Basin States, and 
contract participants spend over $40 million annually on salinity 
control programs.
    The Program, as set forth in the Act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the River's salinity.
    The Act provides that the Secretary of the Interior shall ``develop 
a comprehensive program for minimizing salt contributions to the 
Colorado River from lands administered by the Bureau of Land 
Management.'' BLM is the largest landowner in the Colorado River Basin. 
Due to geological conditions, much of the lands that are controlled and 
managed by the BLM are heavily laden with salt. Past management 
practices have led to human-induced and accelerated erosion processes 
from which soil and rocks, heavily laden with salt have been deposited 
in various stream beds or flood plains. As a result, salts are 
dissolved into the Colorado River system causing water quality problems 
downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the U.S. Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its on-farm 
Environmental Quality Incentives Program.
    Over the past years, the Colorado River Basin Salinity Control 
Program has proven to be a very cost effective approach to help 
mitigate the impacts of increased salinity in the Colorado River. 
Continued Federal funding of this important Basin-wide program is 
essential.
    Metropolitan urges the Subcommittee to fund BLM's Soil, Water, and 
Air Program for fiscal year 2013 at $5.2 million for general water 
quality improvement efforts in the Colorado River Basin. Metropolitan 
additionally urges you to specifically designate $1.5 million of that 
amount for the Colorado River Basin Salinity Control Program.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs

    My name is Madeline Roanhorse and I serve as the Manager of the AML 
Reclamation/UMTRA Department with the Navajo Nation. I am appearing 
today on behalf of the National Association of Abandoned Mine Land 
Programs (NAAMLP) The NAAMLP represents 30 States and tribes with 
federally approved abandoned mine land reclamation (AML) programs 
authorized under Title IV of the Surface Mining Control and Reclamation 
Act (SMCRA). Title IV of SMCRA was amended in 2006 and significantly 
changed how State and tribal AML grants are funded. These grants are 
still based on receipts from a fee on coal production, but beginning in 
fiscal year 2008, the grants are funded primarily by mandatory 
appropriations. As a result, the States and tribes should receive $488 
million in fiscal year 2013. In its fiscal year 2013 budget, the Office 
of Surface Mining (OSM) is requesting $307 million for State and tribal 
AML grants, a reduction of $180 million. OSM's budget also includes a 
legislative proposal for the establishment of a competitive grant 
process that would allegedly improve AML program efficiency. The 
legislative proposal would also eliminate funding to States and tribes 
that have ``certified'' completion of their highest priority abandoned 
coal reclamation sites.
    Over the past 30 years, the accomplishments of the States and 
tribes under the AML program has resulted in tens of thousands of acres 
of abandoned mine lands having been reclaimed, thousands of mine 
openings having been closed, and safeguards for people, property and 
the environment having been put in place. Be assured that States and 
tribes continue to be committed to address the unabated hazards at both 
coal and non-coal abandoned mines. We are all united to play an 
important role in achieving the goals and objectives as set forth by 
Congress when SMCRA was first enacted--including protecting public 
health and safety, enhancing the environment, providing employment, and 
adding to the economies of communities impacted by past coal and 
noncoal mining.
    SMCRA was passed in 1977 and set national regulatory and 
reclamation standards for coal mining. The Act also established a 
Reclamation Fund to work toward eliminating the innumerable health, 
safety and environmental problems that exist throughout the Nation from 
the mines that were abandoned prior to the Act. The Fund generates 
revenue through a fee on current coal production. This fee is collected 
by OSM and distributed to States and tribes that have federally 
approved regulatory and AML programs. The promise Congress made in 
1977, and with every subsequent amendment to the Act, was that, at a 
minimum, half the money generated from fees collected by OSM on coal 
mined within the boundaries of a State or tribe, referred to as ``State 
Share'', would be returned for the uses described in Title IV of the 
Act if the State or tribe assumed responsibility for regulating active 
coal mining operations pursuant to Title V of SMCRA. The 2006 
Amendments clarified the scope of what the State Share funds could be 
used for and reaffirmed the promise made by Congress in 1977.
    If a State or tribe was successful in completing reclamation of 
abandoned coal mines and was able to ``certify'' under Section 411 of 
SMCRA, then the State Share funds could be used to address a myriad of 
other abandoned mine issues as defined under each State's or tribe's 
approved Abandoned Mine Reclamation Plan. These Abandoned Mine 
Reclamation Plans are approved by the Office of Surface Mining and they 
ensure that the work is in accordance with the intent of SMCRA. Like 
all abandoned mine reclamation, the work of certified States and tribes 
eliminates health and safety problems, cleans up the environment, and 
creates jobs in rural areas impacted by mining.
    The elimination of funding for certified State and tribal AML 
grants not only breaks the promise of State and Tribal Share funding, 
but upsets the balance and compromise that was achieved in the 
comprehensive restructuring of SMCRA accomplished by the 2006 
Amendments following more than 10 years of discussion and negotiation 
by all affected parties. The funding reduction is inconsistent with the 
administration's stated goals regarding jobs and environmental 
protection. We therefore respectively ask the Subcommittee to support 
continued funding for certified States and tribes at the statutorily 
authorized levels, and turn back any efforts to amend SMCRA in this 
regard.
    In addition to the $180 million reduction for certified States and 
tribes, the proposed fiscal year 2013 budget perpetuates the 
termination of Federal funding for the AML emergency program, leaving 
the States and tribes to rely on funds received through their non-
emergency AML grant funds. This contradicts the 2006 amendments, which 
require the States and tribes to maintain ``strict compliance'' with 
the non-emergency funding priorities described in Section 403(a), while 
leaving Section 410, Emergency Powers, unchanged. Section 410 of SMCRA 
requires OSM to fund the emergency AML program using OSM's 
``discretionary share'' under Section (402)(g)(3)(B), which is entirely 
separate from State and tribal non-emergency AML grant funding under 
Sections (402)(g)(1), (g)(2), and (g)(5). SMCRA does not allow States 
and tribes to administer or fund an AML emergency program from their 
non-emergency AML grants, although, since 1989, 15 States have agreed 
to implement the emergency program on behalf of OSM contingent upon OSM 
providing full funding for the work. As a result, OSM has been able to 
fulfill their mandated obligation more cost effectively and 
efficiently.
    Regardless of whether a State/tribe or OSM operates the emergency 
program, only OSM has the authority to ``declare'' the emergency and 
clear the way for the expedited procedures to be implemented. In fiscal 
year 2011, OSM issued guidance to the States that the agency ``will no 
longer declare emergencies.'' OSM provided no legal or statutory 
support for its position. Instead, OSM has ``transitioned'' 
responsibility for emergencies to the States and tribes with the 
expectation that they will utilize non-emergency AML funding to address 
them. OSM will simply ``assist the States and tribes with the projects, 
as needed''. Of course, given that OSM has proposed to eliminate all 
funding for certified States and tribes, it begs the question of how 
and to what extent OSM will continue to assist these States and tribes.
    If Congress continues to allow the elimination of emergency program 
funding, States and tribes will have to adjust to their new role by 
setting aside a large portion of their non-emergency AML funds so that 
they can be prepared for any emergency that may arise. Emergency 
projects come in all shapes and sizes, vary in number from year to year 
and range in cost from thousands of dollars to millions of dollars. 
Requiring States and tribes to fund emergencies will result in funds 
being diverted from other high priority projects and delay 
certification under Section 411, thereby increasing the backlog of 
projects on the Abandoned Mine Land Inventory System (AMLIS). For 
minimum program States and States with small AML programs, large 
emergency projects will require the States to redirect all or most of 
their AML resources to address the emergency, thereby delaying other 
high-priority reclamation. With the loss of stable emergency program 
funding, minimum program States will have a difficult, if not 
impossible, time planning, budgeting, and prosecuting the abatement of 
their high priority AML problems. In a worst-case scenario, a minimum 
program State would not be able to address a costly emergency in a 
timely fashion, and would have to ``save up'' multiple years of funding 
before even initiating the work to abate the emergency, in the meantime 
ignoring all other high priority work.
    OSM's proposed budget suggests addressing emergencies, and all 
other projects, as part of a competitive grant process whereby States 
and tribes compete for funding based on the findings of the proposed 
AML Advisory Council. OSM believes that a competitive grant process 
would concentrate funds on the highest priority projects. While a 
competitive grant process may seem to make sense at first blush, 
further reflection reveals that the entire premise is faulty and can 
only undermine and upend the deliberate funding mechanism established 
by Congress in the 2006 Amendments. Since the inception of SMCRA, high 
priority problems have always taken precedence over other projects. The 
focus on high priorities was further clarified in the 2006 Amendments 
by removing the lower priority problems from the Act and requiring 
``strict compliance'' with high priority funding requirements. OSM 
already approves projects as meeting the definition of high priority 
under its current review process and therefore an AML Advisory Council 
would only add redundancy and bureaucracy instead of improving 
efficiency.
    Based on our understanding of OSM's legislative proposal, there are 
a myriad of potential problems and implications for the entire AML 
program. A listing of our questions and concerns regarding the 
legislative proposal is attached to this statement and we urge the 
Subcommittee to press OSM for answers. Given the uncertainties and the 
negative implications for the accomplishment of AML work under Title IV 
of SMCRA, Congress should reject the proposed amendments to SMCRA as 
being counterproductive to the purposes of SMCRA and an inefficient use 
of funds. We request that Congress continue mandatory funding for 
certified States and tribes and provide funding for AML emergencies. A 
resolution to this effect adopted by NAAMLP last year is attached.
    On a somewhat related matter, there appears to be increasing 
concern by some in Washington that the States and tribes are not 
spending the increased AML grant moneys that they have received under 
the 2006 Amendments in a more expeditious manner, thus resulting in 
what the administration has characterized as unacceptable levels of 
``undelivered orders''. What these figures and statements fail to 
reflect is the degree to which AML grant moneys are obligated or 
otherwise committed for AML reclamation work as part of the normal 
grant process. Most AML grants are either three or 5 years in length 
and over that course of time, the States and tribes are in a continual 
process of planning, bidding and contracting for specific AML projects. 
Some projects are multi-layered and require extended periods of time to 
complete this process before a shovel is turned at the AML site. And 
where Federal funding is concerned, additional time is necessary to 
complete the myriad statutory approvals for AML work to begin, 
including compliance with the National Environmental Policy Act and the 
National Historic Preservation Act.
    In almost every case, however, based on the extensive planning that 
the States and tribes undertake, AML grant funds are committed to 
specific projects even while clearances and bidding are underway. While 
funds may not technically be ``obligated'' because they are not yet 
``drawn down'', these funds are committed for specific purposes. Once 
committed, States and tribes consider this grant money to be obligated 
to the respective project, even though the ``order'' has not been 
``delivered'' and the funds actually ``drawn down''. The latter can 
only occur once the project is completed, which will often be several 
years later, depending on the size and complexity of the project. We 
would be happy to provide the Subcommittee with more detailed 
information about our grant expenditures and project planning in order 
to answer any questions you may have about how we account for and spend 
our AML grant moneys. Given the confusion that often attends the 
various terms used to describe the grant expenditure process, we 
believe it is critical that Congress hear directly from the States and 
tribes on this matter and not rely solely on the administration's 
statements and analyses. We welcome the opportunity to brief your 
Subcommittee in more detail regarding this issue should you so desire.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is an ongoing, and often 
expensive, problem, especially in Appalachia. NAAMLP therefore requests 
the Subcommittee to support the inclusion of language in the fiscal 
year 2013 appropriations bill that would allow the use of AML funds for 
any non-Federal cost-share required by the Federal Government for AMD 
treatment or abatement.
    We also urge the Subcommittee to support funding for OSM's training 
program and TIPS, including moneys for State/tribal travel. These 
programs are central to the effective implementation of State and 
tribal AML programs as they provide necessary training and continuing 
education for State/tribal agency personnel, as well as critical 
technical assistance. Finally, we support funding for the Watershed 
Cooperative Agreements in the amount of $1.2 million because it 
facilitates and enhances State and local partnerships by providing 
direct financial assistance to watershed organizations for acid mine 
drainage remediation.
    Thank you for the opportunity to submit this statement regarding 
OSM's proposed budget for fiscal year 2013. We would be happy to answer 
any questions you may have or provide additional information.

                               ATTACHMENT
QUESTIONS AND CONCERNS RE THE AML LEGISLATIVE PROPOSAL IN OSM'S FISCAL 
                            YEAR 2013 BUDGET

The Proposed Competitive Allocation Process
    What is the potential for this new review and ranking process to 
reduce expenditures and increase efficiency without being counter-
productive? Will it introduce an additional level of bureaucracy and 
result in more time being spent formulating proposals and less on 
actual AML reclamation? The present funding formula, while not perfect, 
at least provides some direction on which to base long term strategic 
planning and efficient use of available funds. The closest analogy to 
what OSM is proposing by way of its competitive allocation process is 
the way BLM and the Forest Service currently allocate their AML funds 
through competitive proposals to various State offices and regions. 
Because of the uncertainties of funding, neither agency has been able 
to develop significant in-house expertise, but instead often rely on 
SMCRA-funded States like Montana, New Mexico, Utah and Colorado to do a 
good portion of their AML work. Why would OSM want to duplicate a 
system that has proven problematic for other agencies?
    Who would be the ``other parties'' potentially bidding on AML grant 
funds? Would this include Federal agencies such as BLM, FS, NPS, etc? 
If so, in many cases, those agencies already rely on the States to 
conduct their reclamation work and also determine priorities based on 
State input or guidance.
    What do the State project managers and inspectors do if a State 
does not win a competitive bid for AML funds? How does a State gear up 
if it receives funding for more projects than it can handle with 
present staffing? Each State and tribe has different grant cycles. 
Unless all are brought into one uniform cycle, how will everyone 
compete for the same dollars? In this regard, how can the competitive 
allocation process and the use of the Advisory Council be more 
efficient and simple than what we already have in place?
    How long will OSM fund a State's/tribe's administrative costs if it 
does not successfully compete for a construction grant, even though the 
State/tribe has eligible high priority projects on AMLIS? How will OSM 
calculate administrative grant funding levels, especially since 
salaries and benefits for AML project managers and inspectors 
predominantly derive from construction funds? Would funding cover 
current staffing levels? If not, how will OSM determine the funding 
criteria for administrative program grants?
    How do the States and tribes handle emergency projects under the 
legislative proposal? Must these projects undergo review by the 
Advisory Council? Will there be special, expedited procedures? If a 
State/tribe has to cut back on staff, how does it manage emergencies 
when they arise? If emergency programs do compete for AML funds, 
considerable time and effort could be spent preparing these projects 
for review by the Advisory Council rather than abating the immediate 
hazard. Again, how can we be assured that emergencies will be addressed 
expeditiously?
    What ranking criteria will be used to determine the priority of 
submitted AML project grant requests? The number of people potentially 
affected? The current priority ranking on AMLIS? How would the Council 
determine whether a burning gob pile near a city presents a greater 
hazard than a surface mine near a highway or an underground mine 
beneath a residential area? Would the winning bid be the ``most 
convincing'' proposal? The one with the most signatures on a petition? 
The one with the most influential legislative delegation? Will AMLIS 
continue to serve as the primary mechanism for identifying sites and 
their priority status?
    If the current AML funding formula is scrapped, what amount will be 
paid out to the non-certified AML States and tribes over the remainder 
of the program? What does OSM mean by the term ``remaining funds'' in 
its proposal? Is it only the AML fees yet to be collected? What happens 
to the historic share balances in the Fund, including those that were 
supposed to be re-directed to the Fund based on an equivalent amount of 
funding being paid to certified States and tribes each year? Would the 
``remaining funds'' include the unappropriated/prior balance amounts 
that have not yet been paid out over the 7-year installment period? 
What about the amounts due and owing to certified States and tribes 
that were phased in during fiscal year 2009-2011?
    Has anyone alleged or confirmed that the States/tribes are NOT 
already addressing the highest priority sites for reclamation within 
the context of the current AML program structure under the 2006 
Amendments? Where have the 2006 Amendments faltered in terms of high 
priority sites being addressed as envisioned by Congress? What would 
remain unchanged in the 2006 Amendments under OSM's proposal?

The Nature and Purpose of the Advisory Council
    Who would be on the AML Advisory Council and how could they 
collectively have better decisionmaking knowledge about hazardous AML 
sites than the State and tribal project managers and administrators who 
work with these sites on a daily basis?
    What will be the criteria to serve on the Advisory Council? Will 
the Federal Advisory Committee Act (FACA) requirements apply to the 
formation and deliberations of the Council? How long does OSM envision 
it will take to establish the Council and when will it become 
operational?
    Will the Advisory Council be providing recommendations to OSM or 
will OSM make all final decisions? Will these decisions by appealable? 
If so, to who? Does OSM envision needing to develop internal guidance 
for its own review process? If so, how long will it potentially take 
from Advisory Council review and recommendation to final OSM decision 
in order to complete the grant process so a State can begin a project?
    What degree of detail will be required in order to review and 
approve competitive grant applications? Will the Council review each 
project? What type of time constraints will be placed on their review?
    Will the Advisory Council consider partial grants for projects that 
may exceed the allocation for a single year? Would minimum program 
States be authorized to apply for a grant that would exceed $3 million?
    Will grant applications be based on an individual project or will 
the grant be based on a project year? How will cost overruns be 
handled?

Planning for AML Work
    One of the greatest benefits of reauthorization under the 2006 
Amendments to SMCRA was the predictability of funding through the end 
of the AML program. Because State and tribes were provided with 
hypothetical funding levels from OSM (which to date have proven to be 
quite accurate), long-term project planning, along with the 
establishment of appropriate staffing levels and project assignments, 
could be made more accurately and efficiently. How can States/tribes 
plan for future projects given the uncertainty associated with having 
to annually bid for AML funds? NEPA compliance issues alone can take 
years of planning. One State recently asked its State Historic 
Preservation Office for initial consultation regarding project sites 
that may be reclaimed over the next 5 years. This process will also 
have significant impacts on those States that utilize multi-year 
construction contracts that are paid for with annual AML grants.
    State and tribal AML projects are often planned 18 months to 2 
years in advance of actually receiving construction funds, based on 
anticipated funding under the 2006 Amendments. During that time, States 
and tribes are performing environmental assessments, conducting 
archeology reviews, completing real estate work and doing NEPA 
analyses. There could be considerable effort and money wasted if a 
project does not get approved during the competitive allocation 
process.
    At what point does a State or Tribe seek approval from the advisory 
council? Considerable investigation must take place prior to developing 
most projects, whether they be acid mine drainage projects or health 
and safety projects. How much time should be spent in design prior to 
proceeding to the Council? How accurate must a cost estimate be prior 
to taking a project before the Council? The greater the accuracy, the 
greater the design time expended, possibly for a project that will be 
rejected.
    State and tribes often seek and obtain valuable matching funds from 
watershed groups, which take considerable lead time to acquire. It will 
be difficult to commit to partners if we don't know what level of 
funding, if any, will be made available from OSM.
    Several States have committed significant amounts of money to 
waterline projects across the coalfields. Local governmental entities 
have started designs and applied for additional funds from other 
agencies to match AML funds in order to make these projects a reality. 
Ending all AML funding for these projects (assuming they are not 
considered ``high priority'') could have significant consequences for 
local communities. Our understanding is that these projects were 
excluded under the 2006 Amendments from the priority scheme contained 
in section 403(a) of SMCRA.
    Does OSM's proposal allow acid mine drainage (AMD) projects to be 
undertaken? Can these be designated as high priority? (Our 
understanding is that those AMD projects undertaken pursuant to the 
``AMD set-aside program'' are not subject to the priority scheme under 
Section 403(a) and that those AMD projects done ``in conjunction with'' 
a priority 1 or 2 project are considered ``high priority''.) How do 
States handle ongoing engineering, operating and maintenance costs for 
existing AMD treatment systems? As the administration works diligently 
to develop a new rule to protect streams nationwide, why would it 
advance a proposal to essentially halt the cleanup of streams funded by 
the AML program?

Overarching Concerns
    Given the original design of SMCRA by its framers that AML funds 
will only be allocated to those States who agree to implement Title V 
regulatory programs for active mining operations, to what extent can we 
expect that States will continue to implement and fund their Title V 
programs if Title IV funding is drastically cut or eliminated under the 
proposal? Furthermore, since States and tribes will not know what level 
of AML program staffing to maintain from year to year under the 
proposal, who would desire to work for a program that is in a constant 
state of flux?
    The SMCRA 2006 Amendments were the result of roughly 10 years of 
negotiations, discussions, and debates in Congress. Since the 
legislative process to enact these new proposed changes could take 
years, why didn't OSM begin with the legislation and then follow up 
with an appropriate budget proposal? Why weren't the States/tribes or 
the NAAMLP included in discussions that led to this legislative 
proposal?
    As OSM develops the legislative proposal for a competitive bidding 
process, the agency should consider the impacts on minimum programs and 
consider maintaining the minimum allocation of $3 million for minimum 
program States.
    What type of State AML plan amendments does OSM foresee as a result 
of this new process?

Proposed Elimination of Funding for AML Emergencies
    While amendments to Title IV of SMCRA in 2006 (Public Law 109-432) 
adjusted several provisions of the Act, no changes were made to OSM's 
emergency powers in Section 410. Quite to the contrary, Section 
402(g)(1)(D)(2) states that the Secretary shall ensure ``strict 
compliance'' with regard to the States' and tribes' use of non-
emergency grant funds for the priorities listed in Section 403(a), none 
of which include emergencies. The funding for the emergency program 
comes from the Secretary's discretionary share, pursuant to Section 
402(g)(3) of the Act. This share currently stands at $416 million. 
OSM's elimination of funding for the emergency program will result in 
the shift of approximately $20 million annually that will have to be 
absorbed by the States. This is money that cannot be spent on high 
priority AML work (as required by SMCRA) and will require the 
realignment of State AML program operations in terms of personnel, 
project design and development, and construction capabilities. In most 
cases, depending on the nature and extent of an emergency project, it 
could preclude a State's ability to undertake any other AML work during 
the grant year (and even following years), especially for minimum 
program States. How does OSM envision States and tribes being able to 
meet their statutory responsibility to address high priority AML sites 
in light of the elimination of Federal funding for AML emergencies? How 
does OSM reconcile this proposal with the intentions of Congress 
expressed in the 2006 amendments to move more money out of the AML Fund 
sooner to address the backlog of AML problems that continue to linger?

Proposed Elimination of Funding to Certified States and Tribes
    From what we can ascertain, OSM proposes to eliminate all payments 
to certified States and tribes--in lieu of funds; prior balance 
replacement funds; and monies that are due and owing in fiscal year 
2018 and 2019 from the phase-in during fiscal years 2008 and 2009. Is 
this accurate? OSM says nothing of what the impact will be on non-
certified States as a result of eliminating these payments to certified 
States and tribes--especially the equivalent payments that would 
otherwise be made to the historic production share that directly relate 
to ``in lieu of'' payments to certified States and tribes under section 
411(h)(4). Previously, OSM has stated that ``the amounts that would 
have been allocated to certified States and tribes under section 
402(g)(1) of SMCRA will be transferred to the historical production 
allocation on an annual basis to the extent that those States and 
tribes receive in lieu payments from the Treasury (through the 
Secretary of the Interior) under section 402(i) and 411(h)(2) of 
SMCRA.'' By OSM's own admission in its fiscal year 2013 proposed 
budget, this will amount to $1.2 billion over 10 years. If the in lieu 
payments are not made (as proposed), how can the transfer to historic 
production occur? The result, of course, would be a drastic impact on 
the historic production allocation otherwise available to uncertified 
States. Will OSM address this matter in its proposed legislation? If 
so, how?
    Has OSM considered the fiscal and programmatic impacts that could 
result if the certified States and tribes, who no longer receive AML 
monies, choose to return their Title V regulatory programs to OSM 
(especially given the severe reductions being proposed for fiscal year 
2013 in Title V grants)?
    Finally, how do the cuts in the Title IV program line up with the 
administration's other economic, fiscal and environmental objectives as 
articulated in the deficit reduction and jobs bills that have been 
considered by Congress? These objectives include environmental 
stewardship, cleaning up abandoned mines (coal and noncoal) nationwide, 
creating green jobs, pumping dollars into local communities, putting 
money to work on the ground in an expeditious manner, sustainable 
development, infrastructure improvements, alternative energy projects, 
protecting public health and safety, and improving the environment. It 
seems to us that there is a serious disconnect here and we remain 
mystified as to how these laudable objectives and OSM's budget proposal 
can be reconciled.
                                 ______
                                 
 RESOLUTION OF THE NATIONAL ASSOCIATION OF ABANDONED MINE LAND PROGRAMS

WHEREAS, Title IV of the Surface Mining Control and Reclamation Act of 
        1977 (SMCRA) established the Abandoned Mine Land (AML) 
        reclamation program; and
WHEREAS, the National Association of Abandoned Mine Land Programs 
        (NAAMLP) was established as a nonprofit corporation to 
        accomplish the objectives of its 30 member tribes and States to 
        eliminate health and safety hazards and reclaim land and water 
        resources adversely affected by past mining and left in an 
        abandoned or inadequately restored condition; and
WHEREAS, NAAMLP members administer AML programs funded and overseen by 
        the Office of Surface Mining Reclamation and Enforcement (OSM), 
        U.S. Department of the Interior; and
WHEREAS, pursuant to the cooperative Federalism approach contained in 
        SMCRA, all tribes and States who are members of NAAMLP have 
        federally approved abandoned mine reclamation plans; and
WHEREAS, SMCRA, Title IV, establishes a reclamation fee on each ton of 
        coal mined in the United States to pay for abandoned mine land 
        reclamation; and
WHEREAS, SMCRA, Title IV, mandates that 50 percent of the reclamation 
        fees collected annually are designated as State/tribal share 
        funds to be returned to the States and tribes from which coal 
        was mined to pay for reclamation programs administered by the 
        States and tribes; and
WHEREAS, SMCRA Title IV also mandates that a minimum level of funding 
        should be provided to ensure effective State program 
        implementation; and
WHEREAS, Congress enacted amendments to SMCRA in 2006 to address, among 
        other things, funding for State and tribal programs and fee 
        collection to address existing and future AML reclamation; and
WHEREAS, the 2006 Amendments established new, strict criteria that 
        ensures States and tribes expend funds on high priority AML 
        sites; and
WHEREAS, the proposed 2012 budget for the Office of Surface Mining 
        Reclamation and Enforcement within the U.S. Department of the 
        Interior would abandon the 50/50 State-Federal partnership 
        established under SMCRA and renege on the funding formula under 
        the 2006 amendments by, among other things, eliminating 
        mandatory funding for those States and tribes who have 
        certified the completion of their coal reclamation work and 
        adjusting the mechanism by which non-certified States receive 
        their mandatory funding through a competitive bidding process; 
        and
WHEREAS, if statutory changes are approved by Congress as suggested by 
        the proposed fiscal year 2012 budget for OSMRE, reclamation of 
        abandoned mine lands within certified States and tribes would 
        halt; reclamation of abandoned mine lands in all States would 
        be jeopardized; employment of contractors, suppliers, 
        technicians and others currently engaged in the reclamation of 
        abandoned mine lands would be endangered; the cleanup of 
        polluted lands and waters across the United States would be 
        threatened by failing to fund reclamation of abandoned mine 
        lands in some States; minimum program State funding would be 
        usurped; the AML water supply replacement program would be 
        terminated, leaving coalfield citizens without potable water; 
        and the intent of Congress as contained in the 2006 amendments 
        to SMCRA and its 2006 Amendments would be undermined

NOW, THEREFORE BE IT RESOLVED BY THE NATIONAL ASSOCIATION OF ABANDONED 
MINE LAND PROGRAMS THAT ITS MEMBER TRIBES AND STATES:

Opposes the legislative proposal terminating funding for certified 
States and tribes and altering the receipt of mandatory AML funding for 
non-certified States contained in the fiscal year 2012 budget proposal 
for the Office of Surface Mining Reclamation and Enforcement and 
instead supports the AML funding mechanism contained in current law.

                                   Issued this 22nd day of February, 
                                       2011

                                   ATTEST:

                                   Michael P. Garner,
                                   President, NAAMLP.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies

    The National Association of Clean Air Agencies (NACAA) appreciates 
this opportunity to provide testimony on the fiscal year 2013 proposed 
budget for the United States Environmental Protection Agency (EPA). 
NACAA is a national, non-partisan, nonprofit association of air 
pollution control agencies in 45 States, the District of Columbia, 4 
territories and over 165 metropolitan areas. The members of NACAA have 
the primary responsibility under the Clean Air Act for implementing our 
Nation's clean air program. The air quality professionals in our member 
agencies have vast experience dedicated to improving air quality in the 
United States. The comments we offer are based upon that experience. 
The views expressed in these comments do not necessarily represent the 
positions of every State and local air pollution control agency in the 
country. NACAA supports the President's request for a $65.8 million 
increase in Federal grants for State and local air pollution control 
agencies under Sections 103 and 105 of the Clean Air Act--part of the 
State and Tribal Assistance Grant (STAG) program (for a total of $301.5 
million).

Air Pollution is a Significant Public Health Problem
    With all the competing requests Congress must address, one may ask 
why air quality programs should receive additional funding. The answer 
is that dirty air poses a significant risk; tens of thousands of people 
die prematurely every year. In fact, it would be fair to say that more 
people die from air pollution than from almost any other problem under 
this Subcommittee's jurisdiction. Many more people suffer serious 
health problems as a result of air pollution, including aggravation of 
existing respiratory and cardiovascular disease; damage to lung tissue; 
impaired breathing; irregular heart beat; heart attacks; adverse 
effects on learning, memory, IQ, and behavior; and cancer.
    While Federal, State and local clean air programs have made 
tremendous progress, millions of people in this country continue to 
breathe unhealthful air. EPA estimated that about 124 million people 
lived in areas that violated at least one of the health-based National 
Ambient Air Quality Standards (NAAQS) in 2010.\1\ EPA's data on toxic 
air pollution showed that everyone in the United States had an 
increased cancer risk of over 10 in 1 million (1 in 1 million is 
generally considered ``acceptable'') in 2005.\2\ Finally, air pollution 
also harms vegetation and land and water systems, impairs visibility 
and causes other adverse impacts.
---------------------------------------------------------------------------
    \1\ Our Nation's Air: Status and Trends Through 2010 (February 
2012), EPA, www.epa.gov/airtrends/2011/.
    \2\ National Air Toxics Assessment for 2005--Fact Sheet, 
www.epa.gov/ttn/atw/nata2005/05pdf/sum_results.pdf.
---------------------------------------------------------------------------
The Current State of Funding for Air Quality Programs
    Funding for State and local air pollution control programs comes 
from several sources, including State and local appropriations; the 
Federal permit fee program under Title V of the Clean Air Act; State 
and local permit and emissions fee programs and Federal grants under 
Sections 103 and 105 of the Clean Air Act. Section 103 has usually 
funded specific monitoring efforts (e.g., particulate matter 
monitoring), while Section 105 supports the foundation of State and 
local air quality programs, including, but not limited to, personnel.
    The Clean Air Act authorizes the Federal Government to provide 
grants up to 60 percent of the cost of State and local air quality 
programs, while State and local agencies must provide a 40-percent 
match (as per Section 105). In reality, however, the Federal Government 
provides less than one-quarter of the total State/local air budget, 
while State and local governments supply over three-quarters (not 
including income from Title V permit fees). Furthermore, numerous air 
quality agencies receive no Section 105 grants and must supply all of 
the funds to implement federally mandated programs to attain and 
maintain the national air quality standards.
    Not only do Federal funds provide a small share of the cost of 
Clean Air Act programs, those grants have actually decreased in 
purchasing power over the years due to inflation. As the following 
chart shows, this decline between fiscal year 2000 and fiscal year 2011 
has equaled 9 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because of current economic conditions, many State and local air 
agencies are finding it difficult to keep essential programs operating. 
Many have had to reduce or eliminate programs that protect public 
health and have had to reduce their staffs. As a result, States and 
localities are more dependent than ever on their Federal grants.
    In this time of limited State and local resources, where State and 
local governments are straining to maintain existing programs, 
additional Federal funding is needed to meet the ongoing and ever-
increasing responsibilities and challenges of air quality programs. A 
2009 NACAA funding study documented an annual shortfall of $550 million 
in Federal grants for State and local air programs.\3\ While the 
proposed increase would not solve all our funding problems, it is 
critically needed to help fill the gap in our efforts to attain and 
maintain healthful air quality.
---------------------------------------------------------------------------
    \3\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies (April 2009), NACAA, 
http://www.4cleanair.org/Documents/Reportneedssurvey042709.pdf.
---------------------------------------------------------------------------
    An EPA study from March 2011 highlighted the cost effectiveness of 
air quality programs, showing that the benefits from the Clean Air Act 
have outweighed the costs by over 30 to 1.\4\ Moreover, an EPA White 
Paper from last year reported that environmental protection, including 
air quality, has had a significant positive effect on our economy in 
general and job creation in particular.\5\ Certainly additional jobs, a 
healthier and more productive workforce and fewer healthcare 
expenditures are all beneficial to our economy and should be encouraged 
through congressional appropriations, such as grants to State and local 
agencies.
---------------------------------------------------------------------------
    \4\ The Benefits and Costs of the Clean Air Act Amendments from 
1990 to 2020 (March 1, 2011), EPA, http://www.epa.gov/air/sect812/
feb11/summaryreport.pdf.
    \5\ Empirical Evidence Regarding the Effects of the Clean Air Act 
on Jobs and Economic Growth, EPA White Paper (February 9, 2011), http:/
/www.epa.gov/ocir/pdf/hottopics/2011_0208_white_paper.pdf.
---------------------------------------------------------------------------
Permit Fees Cannot Fill the Gap
    Some believe that the permit and emission fee program under Title V 
of the Clean Air Act is the answer to the State and local air agencies' 
financial problems. Unfortunately, this is not so for several reasons. 
First, the fees must support only the operating permit program (and 
associated program support) and must not be used for other activities. 
Second, fees only apply to major sources and do not cover the 
significant costs related to non-major sources, which include minor 
source permits, monitoring, enforcement, compliance assistance, etc. 
Third, fee revenue is decreasing due to reductions in the emissions on 
which they are based.
    Increases in costs for air quality programs (except for permit 
programs themselves) are not addressed by Title V permit fee programs. 
The Clean Air Act's fee program, while essential to State and local 
efforts, is not the solution to the funding problem. Federal grants 
must be expanded to meet the significant resource requirements.

The Increases Will Support Essential Programs
    The President's proposed budget calls for a much-needed increase of 
$65.8 million over fiscal year 2012 levels for several very important 
activities. We urge Congress to provide the amount of increased grants 
the administration is recommending, but to allow State and local air 
agencies the flexibility to determine which activities are most in need 
of additional funds in their areas. While there is a need for 
additional funds for a myriad of programs and activities at the State 
and local levels, most agencies find that they will require additional 
grants primarily for two major categories: core programs and 
monitoring.
    Core Activities.--We are gratified that the President's request 
calls for additional grants to support State and local air agencies' 
core programs. These activities are the very foundation of our programs 
and include current day-to-day activities, as well as new and 
innovative efforts to address additional requirements. As EPA issues 
updated health-based NAAQS, State and local air agencies must prepare 
or update State Implementation Plans (SIPs). Specifically in fiscal 
year 2013, State and local air agencies must implement the revised 
lead, nitrogen dioxide (NO<INF>2</INF>), and sulfur dioxide 
(SO<INF>2</INF>) NAAQS, and the current particulate matter (PM), and 
ozone NAAQS. This includes the 1997 PM<INF>2.5</INF> NAAQS, the 2006 
24-hour PM<INF>2.5</INF> NAAQS, the 1-hour ozone NAAQS (through anti-
backsliding requirements), the 1997 8-hour ozone NAAQS, and the 2008 8-
hour ozone NAAQS. To develop these SIPs, State and local air agencies 
must compile emission inventories, carry out sophisticated modeling, 
significantly expand and operate monitoring networks, adopt and enforce 
regulations and address complex multi-pollutant and multi-state 
transport issues, among others. Additionally, agencies must 
continuously reassess and change SIPs as they are implemented. All of 
these important activities require significant resources.
    Monitoring.--State and local air agencies are facing a host of 
ongoing and additional monitoring requirements to address standards for 
ozone, lead, NO<INF>2</INF> and SO<INF>2</INF> that are either new or 
have been revised. In addition to monitoring for the health-based 
criteria pollutants, additional monitoring of toxic air pollutants is 
necessary. These monitoring activities provide information about the 
amount of pollution in the air and, later, about how successful our 
control strategies have been. In order to accomplish this monitoring, 
these agencies must purchase and operate additional ambient air 
monitoring equipment. While the budget request for air quality 
monitoring in fiscal year 2013 would not address all our additional 
monitoring needs, it would certainly help clean air agencies to expand 
their monitoring programs.
    EPA is proposing to begin the process of shifting funds for fine 
particulate matter (PM<INF>2.5</INF>) monitoring from Section 103 
authority, where no match is needed, to Section 105, which would 
require additional matching funds. We strongly urge that these funds 
remain under Section 103 authority, as they have in the past. For 
individual agencies that have concerns about the matching requirements, 
this will ensure that they can continue receiving these monitoring 
funds. Additionally, we are concerned that EPA is proposing to reduce 
the total amount specifically set aside for fine particulate matter 
monitoring, based on the theory that State and local air agencies will 
fill in the reduced amount as part of their matching funds. However, as 
many agencies are already over matched and would not be adding to the 
funds set aside for PM<INF>2.5</INF> monitoring, this important 
monitoring program could suffer. We recommend that EPA allot the same 
amount for PM<INF>2.5</INF> monitoring as it did last year and leave 
the entire amount under Section 103 authority.

Conclusion
    The President's budget request calls for a much-needed increase in 
grants to State and local air quality agencies at a time when they are 
required to take on significant new responsibilities and continue their 
current efforts. While these increases would not completely address the 
enormous funding deficit that these programs face, they would be very 
helpful to State and local air quality programs.
    NACAA recommends, therefore, that Congress appropriate an amount 
consistent with the President's fiscal year 2013 request for Federal 
grants to State and local air quality agencies under Sections 103 and 
105 of the Clean Air Act, which is $305.1 million. This represents an 
increase of $65.8 million above the fiscal year 2012 appropriated 
amount.
    Thank you for this opportunity to testify on this important issue 
and for your consideration of the funding needs of State and local air 
quality programs as they work to improve and protect public health.
                                 ______
                                 
   Prepared Statement of the National Association of Forest Service 
                                Retirees

    Mr. Chairman and members of the Subcommittee, the National 
Association of Forest Service Retirees (NAFSR) respectfully submits the 
following statement for the record to the Subcommittee on Interior, 
Environment, and Related Agencies regarding the fiscal year 2013 budget 
for the United States Forest Service. I am Hank Kashdan, Legislative 
Director for NAFSR. I retired from the Forest Service in December 2010 
having served as Associate Chief immediately prior to retirement. Let 
me first express NAFSR's gratitude for this opportunity to provide 
recommendations on the proposed budget for the Forest Service. The 
NAFSR organization is a national, nonprofit organization of former 
Forest Service employees and associates. Members of the Association 
possess a unique body of knowledge, expertise and experience in the 
management of the National Forests, other public lands, forestry 
research, State and private forestry assistance, agency history, laws 
and regulations, and international forestry. Members of NAFSR are 
devoted to contributing to understanding and resolving natural resource 
issues through education, independent and cooperative analysis, and 
periodic review and critiques of agency policies and programs.
    This statement will address four areas of the administration's 
proposed budget and programs for the Forest Service: the Wildland Fire 
Management Program; the Agency's Focus on Restoration; State and 
Private Forestry and Redesign; and Potential Administrative Reforms to 
be Implemented by the Department of Agriculture.
    Before addressing the specific areas noted above, NAFSR would first 
like to express its appreciation to the Subcommittee for its clear 
commitment to preserving the core programs of the Forest Service during 
some difficult budgetary times. In our opinion, the final enacted 
budget for fiscal year 2012 clearly indicates Congress' appreciation of 
the importance of the Forest Service mission in managing the America's 
precious natural resources. As the budgetary pressure continues to 
affect the discretionary funding in the Federal budget, we are 
confident that with your support, the Forest Service will continue its 
ability to effectively steward the Nation's forests and grasslands and 
maintain a Forest and Rangeland Research program that is among the best 
in the world.

                        WILDLAND FIRE MANAGEMENT

    The administration proposes to fund wildfire suppression costs at 
the 10-year average and proposes a slight decrease in fire preparedness 
while targeting $24 million for ``modernizing the firefighting large 
airtanker fleet.'' NAFSR feels it important to raise several concerns 
regarding this budget proposal. First pertaining to wildfire 
suppression; while we concur that it is appropriate to fund wildfire 
suppression at the 10-year average, it is important to note the strong 
potential to exceed this amount during the fire season. The last three 
wildfire seasons have involved lower than normal large fires and 
significantly reduced expenditures. As a result under provisions of the 
FLAME Act, unexpended funds would normally have remained available for 
use in a season where expenditures exceeded available funds. However 
due to significant budgetary pressure, Congress elected to use these 
unobligated funds for other purposes, thus resulting in funds only 
being available to the level of the 10-year average. While the Forest 
Service's attention to appropriate wildfire suppression response can 
credited with some of the reduced wildfire suppression costs, it is 
clear that Mother Nature has been the primary contributor. These lower 
than normal wildfire seasons should not be expected to continue. The 
prospect of suppression costs exceeding available funding raises the 
very significant concern about a return to the ``wildfire suppression 
transfers'' that so detrimentally affected the agency's mission during 
wildfire seasons in the fiscal years of 2000 through 2005. As the 
Forest Service ramps up its effort to restore unhealthy and wildfire 
prone ecosystems, a return to fire transfers of the past is a serious 
issue that can be disruptive to the critical work of the agency. This 
was pointed out by the Government Accountability Office in its report 
entitled ``Funding Transfers Cause Project Cancellations and Delays, 
Strained Relationships, and Management Disruptions, GAO-04-612, June 2, 
2004.'' In these challenging budgetary times, NAFSR can only assume 
that should fire transfers occur, the prospect of immediate action to 
provide supplemental funding will be unlikely. This eventuality is one 
of the primary reasons FLAME was enacted, and which would not be 
redeemed if the coming season, or that of fiscal year 2013 is severe. 
NAFSR urges the Subcommittee to prepare for a bad season through some 
form of advance emergency suppression provision in the fiscal year 2013 
budget.
    The President's budget for wildfire preparedness reflects a $2.9 
million decrease and specifically targets $24 million for modernizing 
the large airtanker fleet. The agency's budget overview indicates there 
will be a decreased preparedness staffing level of 438 full-time 
equivalents based on this budget request. NAFSR urges the Subcommittee 
to provide funding to retain a level wildfire preparedness staffing 
level. It has been continually demonstrated that the most effective way 
to control suppression costs is to be successful upon initial attack. 
Any decrease in staffing levels jeopardizes such ability to 
successfully suppress a wildfire at the time of initial attack. A 
single wildfire could cost as much as $100 million to suppress. Thus 
the agency needs to be aggressive in suppressing all wildfires at the 
point of initial attack as this will help contain costs; costs that can 
be turned into landscape restoration actions which are investments that 
will cut the costs to the Federal budget and impacted communities.
    In regards to the targeted funding for large airtankers, NAFSR 
concurs that any viable option for providing new airframes will cost 
more. However, NAFSR strongly discourages the Subcommittee from 
authorizing any Forest Service purchase of C-130 aircraft (an option in 
the recently released airtanker strategy) at a cost of close to $80 
million each. With the airtanker industry clearly able to provide 
suitable airframes if the Forest Service can expand its contracting 
authorities, there is no reasonable rationale to use large sums of 
taxpayer money to purchase aircraft. This situation has become 
critical. The continuing loss of airtankers and medium retardant 
helicopters is making more perilous the ability with cooperators to 
effectively achieve initial wildfire attack response requirements. In 
fiscal year 2000 there were 43 available airtankers. Only 11 are 
available for the 2012 fire season. Adequate Federal airtanker 
capability is essential to keep a balance of local, State and Federal 
airtankers available to meet fire response time standards that are 
critical to protecting natural resources, watershed values, 
communities, public safety, and infrastructure. We encourage the 
Subcommittee to continue to explore enhanced contracting authorities 
that will enable private industry to meet the large airtanker needs.

                    FOREST SERVICE RESTORATION FOCUS

    The President's budget reflects a strong focus on restoration 
programs to restore ecosystems to healthy and resilient conditions. 
NAFSR concurs with this focus and recognizes that such efforts will 
improve the economy of local communities and over the long term reduce 
the vulnerability to catastrophic wildfire events. Key components of 
the restoration focus involve community collaboration, full funding of 
the Collaborative Forest Landscape Restoration Program (CFLRP), and 
achieving permanent authority for Stewardship Contracting. In this 
regard NAFSR is fully supportive of the President's budget. However, we 
note that the President's budget again reflects a request to 
consolidate restoration activities under an Integrated Resource 
Restoration (IRR) budget line item. While NAFSR agrees this line item 
has potential to improve overall agency performance, and reflects a 
better integration of the broad range of agency programs, from the an 
accountability standpoint, ``the jury is still out.'' NAFSR is very 
appreciative that Congress authorized a pilot program to test the IRR 
concept in three regions, and recommends that further consolidations of 
budget line items not be enacted until the agency can demonstrate 
improved efficiency and performance over the life of the pilot. 
Although the budget reflects a reduction of $12.1 million in 
restoration related programs, NAFSR does support the budget overall in 
light of the challenging budgetary outlook in fiscal year 2013. In 
order to offset this reduction NAFSR recommends full funding of the 
CFLRP as requested in the budget. NAFSR further recommends continued 
support for implementing permanent authority for Stewardship 
Contracting. This contracting authority is a core element of community 
collaboration and is quickly becoming the tool of choice for Forest 
Service land managers in achieving desired restoration objectives.

                 STATE AND PRIVATE FORESTY AND REDESIGN

    Efforts to significantly improve forest and grassland restoration 
objectives must be accomplished in concert with the Forest Service 
State and Private Forestry Program. NAFSR notes an overall decrease in 
State and private funding of $2.1 million, and recommends that such a 
reduction not occur at the expense of International Forestry and Forest 
Inventory and Analysis. Rather, NAFSR recommends that the proposed 
funding level for the Forest Legacy Program be reduced to levels that 
will restore Forest Inventory and Analysis and International Forestry 
to the fiscal year 2012 level.
    The President's budget for the State and Private Program includes a 
proposal to combine several budget line items for Federal Lands Forest 
Health and Cooperative Lands Forest Health, as well as the 
establishment of a Landscape Scale Restoration budget line item which 
consolidates six previously separate programs funded under Wildland 
Fire and State and Private. NAFSR supports these consolidations. 
Although NAFSR expressed concern for a similar consolidation under the 
National Forest System account, in the case of State and Private, we 
are supportive. This budget proposal is a result of extensive 
collaboration with partners over several years which has led to the 
``State and Private Redesign.'' The reality of the State and Private 
Program's budget is that the individual programs have small amount of 
funds (compared to other agency line items) that achieve efficiency 
through leveraging with partners. NAFSR supports the consolidated line 
item as a way of stretching these funds over the widest possible 
restoration focus in cooperation with State and local partners.

POTENTIAL ADMINISTRATIVE REFORMS TO BE IMPLEMENTED BY THE DEPARTMENT OF 
                              AGRICULTURE

    The NAFSR organization consists of retired employees who reside 
across the Nation and who maintain extensive contact with the 
organization and partners at all levels. Many of our members are 
raising concerns about the prospect of future administrative 
consolidations that might be implemented by the Department of 
Agriculture (USDA). While the agency has recovered for the most part 
from the impacts of major efficiency efforts that resulted in 
consolidated services for information technology, human resources, and 
financial management, it appears the Forest Service is likely to be 
forced through another set of reforms as USDA undertakes significant 
efforts to improve efficiency. While NAFSR is supportive of any effort 
to enhance efficiency and stretch funding to accomplish the agency's 
mission, we do have concerns that the USDA efforts, if not done 
incrementally and with full recognition of prior consolidation 
missteps, will once again result in chaotic impacts and expense. NAFSR 
notes that the President's budget for the Forest Service involves an 
increased assessment of approximately $7.6 million in ``Central Cost'' 
and ``Green Book'' programs which currently total more than $200 
million in assessments. While NAFSR understands that the Forest Service 
must pay its ``fair share'' of total USDA operating costs, these 
increased assessments do not tend to imply that efficiencies will 
readily occur and that despite efforts to implement reforms, costs over 
the long term will continue to rise. NAFSR strongly encourages the 
Subcommittee to work with its Agriculture Appropriations counterparts 
to assure that future USDA efficiency reforms have a strong potential 
to result in improved service to the Nation, and that such reforms are 
implemented incrementally based on well established benchmarks for 
accountability.

                               CONCLUSION

    Mr. Chairman and members of the Subcommittee, this concludes 
NAFSR's statement for the record. We close by once again expressing our 
sincere appreciation for your commitment to supporting the mission of 
the Forest Service and for your support of a program of work that 
assures quality natural resource stewardship will continue into the 
future. We are ready to assist Subcommittee at any time.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Mr. Chairman, Ranking Member and members of the Subcommittee, I am 
David Terry, Executive Director of the National Association of State 
Energy Officials (NASEO). NASEO represents the energy offices in the 
States, territories and the District of Columbia. NASEO is submitting 
this testimony in support of funding for the Energy Star program 
(within the Climate Protection Division of the Office of Air and 
Radiation) at the U.S. Environmental Protection Agency (EPA). NASEO 
supports funding of at least $55 million, including specific report 
language directing that the funds be utilized only for the Energy Star 
program. The Energy Star program is successful, voluntary and cost-
effective. With energy prices increasingly volatile, Energy Star can 
help consumers quickly.
    The Energy Star program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments and business to achieve these 
goals in a cooperative manner. NASEO has worked very closely with EPA 
and over 40 States are Energy Star Partners. In 2005, EPA and NASEO 
announced a State Partnership program, which has many State members. 
With very limited funding, EPA's Energy Star program works closely with 
the State energy offices to give consumers and businesses the 
opportunity to make better energy decisions, without regulation or 
mandates.
    Energy Star focuses on energy efficient products as well as 
buildings. For example, in 2008, 550 million Energy Star products were 
purchased. The Energy Star label is recognized across the United 
States. It makes the work of the State energy offices much easier, by 
working with the public on easily recognized products, services and 
targets. In order to obtain the Energy Star label a product has to meet 
established guidelines. Energy Star's voluntary partnership programs 
include Energy Star Buildings, Energy Star Homes, Energy Star Small 
Business and Energy Star Labeled Products. The program operates by 
encouraging consumers and working closely with State and local 
governments, to purchase these products and services. Marketplace 
barriers are also eradicated through education. State energy offices 
are working with EPA to promote Energy Star products, Energy Star for 
new construction, Energy Star for public housing, etc.
    In addition to the State partners, the program has over 14,000 
voluntary partners including over 2,000 manufacturers using the label, 
more than 1,000 retail partners, more than 5,000 builder partners, 
4,500 businesses, 550 utilities and thousands of energy service 
providers. The Home Performance with Energy Star activity allows us to 
focus on whole-house improvements, not simply a single product or 
service. This is extremely beneficial to homeowners. We are also 
working closely with EPA in the implementation of the Energy Star 
Challenge, which is encouraging businesses and institutions to reduce 
energy use by 10 percent or more, usually through very simple actions. 
We are working with the building owners to identify the level of energy 
use and compare that to a national metric, establish goals and work 
with them to make the specified improvements. Again, this is being done 
without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding Energy Star business partners 
program. We hope this expansion will continue. EPA has been expanding 
the technical assistance work with the State energy offices in such 
areas as benchmark training (how to rate the performance of buildings), 
setting an energy target and training in such areas as financing 
options for building improvements and building upgrade strategies.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
The level of cooperation from the agency has been extraordinary and we 
encourage these continued efforts.

                               CONCLUSION

    The Energy Star program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding in 
fiscal year 2013. Funding for the Energy Star program is justified. 
NASEO endorses these activities and the State energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters

    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the Senate 
Appropriations Subcommittee on Interior, Environment and Related 
Agencies regarding our fiscal year 2013 appropriations recommendations. 
Our priorities center on appropriations for the USDA Forest Service 
(Forest Service) State and Private Forestry (S&PF) programs. State 
Foresters fully appreciate the difficult choices that come with 
spending decisions. However, the commitment to the American people must 
also include making smart investments in programs that provide 
significant benefits to the health of our economy and our environment. 
We therefore recommend that fiscal year 2013 appropriations for S&PF be 
held at $262 million, representing similar funding levels enacted in 
fiscal year 2012.
    State Foresters deliver technical and financial assistance, along 
with forest health, water and wildfire protection for more than two-
thirds of the Nation's forests. The Forest Service S&PF mission area 
provides vital support for delivering these services alongside other 
socioeconomic and environmental health benefits in both rural and urban 
areas. The comprehensive process for delivering such services is 
articulated in each of the State Forest Action Plans as authorized in 
the 2008 Farm Bill. S&PF programs provide a significant return on the 
Federal investment by leveraging the boots-on-the-ground and financial 
resources of State agencies to deliver assistance to forest landowners, 
tribes and communities. As State and Federal governments face extremely 
tight fiscal conditions, State Foresters, in partnership with the S&PF 
mission area of the Forest Service, are best positioned to maximize the 
effectiveness of the limited resources available to respond to priority 
forest issues and focus efforts in those areas where they are needed 
most.

        RESPONDING TO PRIORITY FOREST ISSUES, TRENDS AND THREATS

    Management activities are underway to implement the State Forest 
Action Plans and respond to the following trends, issues and 
priorities:

Forest Pests and Invasive Plants
    Among the greatest threats identified in the Forest Action Plans 
are exotic forest pests and invasive species. The growing number of 
damaging pests is often a result of the introduction and spread by way 
of wooden shipping materials, movement of firewood and through various 
types of recreation. A new pest is introduced every 2 to 3 years. These 
pests have the potential to displace native trees, shrubs and other 
vegetation types in forests. The Forest Service estimates that hundreds 
of native and nonnative insects and diseases damage the Nation's 
forests each year. In 2009, approximately 12 million acres suffered 
mortality from insects and diseases.\1\ These losses impact the 
availability of clean and abundant water, wildlife habitat, clean air 
and other environmental services that may be lost or impacted due to 
insect and disease infestation. Further, extensive areas of high insect 
or disease mortality can set the stage for large-scale, catastrophic 
wildfire.
---------------------------------------------------------------------------
    \1\ Man, Gary. 2010. Major Forest Insect and Disease Conditions in 
the United States: 2009 Update. Last accessed on March, 7, 2012 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_09_final.pdf
---------------------------------------------------------------------------
    In response, the Cooperative Forest Health Management program 
provides technical and financial assistance to States and territories 
to maintain healthy, productive forest ecosystems on non-Federal forest 
lands. Funding for the Program supports activities related to 
prevention, suppression, and eradication of insects, diseases, and 
plants as well as conducting forest health monitoring through pest 
surveys. The Program helped combat native and invasive pests on over 
766,000 acres of Cooperative lands in fiscal year 2011.\2\
---------------------------------------------------------------------------
    \2\ USDA Forest Service Fiscal Year 2013 President's Budget 
Justification. Last accessed February 21, 2012 at http://www.fs.fed.us/
aboutus/budget/2013/fy2013-justification.pdf.
---------------------------------------------------------------------------
    NASF supports the proposed consolidation of the Forest Health 
Program under State and Private Forestry and urges funding the Forest 
Health--Cooperative Lands Program at the current fiscal year 2012 
enacted level of $49 million. Any further cuts to this program beyond 
those made in fiscal year 2012 will necessitate deeper reductions in 
support for communities already facing outbreaks and expose more of the 
Nation's forests and trees to the devastating and costly effects of 
exotic and invasive pests and pathogens. This request is supported by a 
strong diversity of organizations in the forestry, conservation and 
environmental community.\3\
---------------------------------------------------------------------------
    \3\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
Fuel Loads and Wildland Fire
    More people in fire-prone landscapes, high fuel loads, drought and 
unhealthy landscapes are among the factors that have led State 
Foresters to identify wildland fire as a significant priority issue in 
their Forest Action Plans. These factors have created a wildland fire 
situation that has become increasingly expensive and complex and, in 
many cases, threatens human life and property. In 2011, over 74,000 
wildland fires burned more than 8.7 million acres.\4\ In the wake of 
these larger fires, the number of structures destroyed also surpassed 
the annual average with over 5,200 structures, including nearly 3,500 
residences.\1\ Of the 66,700 communities across the country currently 
at risk of wildland fire, only 21 percent are prepared for wildland 
fire.\5\ NASF and many other organizations in the forestry, 
conservation and environmental community agrees that the Forest Service 
State Fire Assistance (SFA) Program is essential in addressing the 
threat of wildland fire on non-Federal lands.\6\
---------------------------------------------------------------------------
    \4\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, pg. 9. Last accessed February 1, 2012 at http://
www.predictiveservices.nifc.gov/intelligence/2011_statssumm/
intro_summary.pdf.
    \5\ National Association of State Foresters, Communities at Risk 
Report FY2011. Last accessed February 1, 2012 at http://
www.stateforesters.org/files/2011-NASF-finalCAR-report-FY11.pdf.
    \6\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
    SFA is the fundamental Federal mechanism that assists States and 
local fire departments in developing preparedness and response 
capabilities for wildland fire management on non-Federal lands. This 
program helps train and equip first responders who can quickly and 
efficiently respond to wildland fires. By directing resources to 
actions that help reduce the number of large wildland fires--including 
prevention education, preparedness activities and fuels mitigation--the 
SFA program directly addresses concerns over rising wildland fire 
suppression costs, while also reducing wildland fire risks. In fiscal 
year 2011, SFA directly funded hazardous fuel treatments on nearly 
202,000 acres and provided assistance to 14,724 communities as they 
prepare for (and mitigate the risk of) wildland fire.\2\ NASF supports 
funding for the program at no less current enacted levels of $86 
million and endorses the proposal to consolidate SFA into one line 
item.

Working Forest Landscapes
    Working forest landscapes are a key part of the rural landscape and 
provide an estimated 900,000 jobs, in addition to clean water, wood 
products and other essential services to millions of Americans. For 
instance, 80 percent of renewable biomass energy comes from wood, 53 
percent of all freshwater in the United States originates on forest 
land and more than $200 billion in sales of consumer products and 
services are provided through the Nation's forests each year.\7\ 
Working forests are necessary to help the forest products industry 
recover and (re)employ nearly 300,000 full-time jobs that have been 
lost over the past 5 years as a result of the economic downturn.\8\
---------------------------------------------------------------------------
    \7\ Society of American Foresters. The State of America's Forests. 
2007.
    \8\ Guldin, R.W. and W. B. Smith. Forest Sector Reeling During 
Economic Downturn. 2012. Last accessed online at: http://
www.nxtbook.com/nxtbooks/saf/forestrysource_201201/index.php?startid=1.
---------------------------------------------------------------------------
    Private forests make up two-thirds of all the forestland in the 
United States and support an average of eight jobs per 1,000 acres.\9\ 
The ability of working forests to continue providing jobs, renewable 
energy, clean and abundant water and other important services is in 
jeopardy as private forests are lost to development. The Forest Service 
estimates that 57 million acres of private forests in the United States 
are at risk of conversion to urban development over the next two 
decades. The Forest Stewardship Program, Forest Legacy Program and 
other programs within USDA are key tools identified in the Forest 
Action Plans to keep working forests intact.
---------------------------------------------------------------------------
    \9\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    The Forest Stewardship Program (FSP) is the most extensive family 
forest-owner assistance program in the country. Planning assistance is 
delivered in cooperation with State forestry agencies primarily through 
the development of Forest Stewardship Plans. The program provides 
information to private landowners to help them manage their land for 
wildlife, recreation, aesthetics, timber production, and many other 
purposes. The technical assistance provided through the FSP is a 
gateway to other effective USDA, State and private sector programs 
designed to help keep working forests intact. For instance, the FSP 
enables landowners to participate in USDA programs including the Forest 
Legacy Program and Environmental Quality Incentives Program. NASF 
recommends maintaining current funding at $29 million for the Forest 
Stewardship Program in fiscal year 2013. This program (and funding 
recommendation) enjoys support from landowners in every corner of the 
country.\10\
---------------------------------------------------------------------------
    \10\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
Urban and Community Forest Management Challenges
    Urban forests provide environmental, social and economic benefits 
to the more than 84 percent of Americans who live in metropolitan 
areas. Forest Action Plans identified a number of benefits associated 
with urban forests including energy savings, improved air quality, 
neighborhood stability, aesthetic values, reduced noise and improved 
quality of life for communities across the country. At the same time, 
the plans reported a number of threats to urban and community forests 
including fire in the wildland urban interface (WUI), urbanization and 
development, invasive plants and insects, diseases and others.
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the Forest Service's Urban & Community Forestry (U&CF) 
program has provided technical and financial assistance to promote 
stewardship of urban forests in communities of all sizes across the 
country. The program is delivered in close partnership with State 
Foresters and leverages existing local efforts that have helped 
thousands of communities and towns manage, maintain, and improve their 
tree cover and green spaces. In fiscal year 2011, the U&CF program 
delivered technical, financial, educational, and research assistance to 
7,172 communities in all 50 States, the District of Columbia, U.S. 
territories and affiliated Pacific Island nations.\11\ The program 
reached nearly 195 million Americans (i.e., over 60 percent of the U.S. 
population) and leveraged an additional $30 million in State and local 
support. NASF and the broad urban forestry community support an 
appropriation of $31 million in fiscal year 2013 for the Urban and 
Community Forestry Program.\12\
---------------------------------------------------------------------------
    \11\ USDA Forest Service Fiscal Year 2013 President's Budget 
Justification. Last accessed February 21, 2012 at http://www.fs.fed.us/
aboutus/budget/2013/fy2013-justification.pdf.
    \12\ Letter of support posted at www.stateforesters.org.
---------------------------------------------------------------------------
LANDSCAPE SCALE RESTORATION AND RESPONSE TO FISCAL YEAR 2012 MANAGER'S 
                               STATEMENT

    Members of NASF recognize the value of competitively allocating a 
percentage of CFAA funds to encourage innovative approaches to 
addressing national, regional and State-specific priorities consistent 
with each State's Forest Action Plan. NASF also recognizes that the 
ability to provide State Foresters flexibility, with appropriate 
accountability, to reapply a portion of their allocations is necessary 
to address changing forest conditions and priorities. To that end, NASF 
supports the proposed Landscape Scale Restoration (LSR) line item with 
the understanding expressed in the fiscal year 2013 Budget 
Justification that the current competitive process would be 
``formalized'' and that options for potentially establishing ``funding 
flexibility'' (per the fiscal year 2012 Interior Appropriations 
Managers Statement) would not be eliminated.
    NASF greatly appreciates (and requests) the continued support from 
the Subcommittee to further explore options for providing State 
Foresters the ability to apply Federal funds in the highest priority 
areas including, but not limited to, through the new LSR line item. Our 
recommended funding level for the LSR line item is contingent upon 
further discussions with the Subcommittee and with the Administration 
to better understand the budget relationships between the new line 
item, other CFAA programs and funding flexibility. NASF remains 
committed to working with the Administration, including the USDA Forest 
Service, Congress and other non-Federal partners to further define how 
Forest Action Plans can best inform and enhance Federal budget 
formulation and funding allocation decisions for CFAA programs.
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis (FIA) program, managed by Forest 
Service Research, is the Nation's only comprehensive forest inventory 
system for assessing the health and sustainability of the Nation's 
forests across all ownerships. FIA provides essential data related to 
forest species composition, forest growth rates, and forest health data 
and delivers baseline inventory estimates used in State Forest Action 
Plans. The Program provides unbiased information that serves as the 
basis for monitoring trends in wildlife habitat, wildfire risk, insect 
and disease threats, predicting spread of invasive species and for 
responding to priorities identified in the Forest Action Plans.
    We urge Congress to support the FIA program in fiscal year 2013 at 
no less than current funding levels of $69 million and provide 
direction to the Forest Service to look for the most efficient way(s) 
to deliver the program including contracting with partners, most 
notably State forestry agencies, who can accomplish necessary field 
work at lower cost. With efficient delivery, current funding levels can 
contribute towards the original goals of providing a fully annualized 
inventory in all States and provide policy makers, forest managers, 
private investors, and others with the information they need to make 
sound decisions regarding the Nation's forests.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to present the Nature Conservancy's recommendations for 
fiscal year 2013 appropriations. My name is Christy Plumer and I am the 
Director of Federal Land Programs for the Conservancy. The Nature 
Conservancy is an international, nonprofit conservation organization 
working around the world to protect ecologically important lands and 
waters for nature and people. Our mission is to conserve the lands and 
waters upon which all life depends.
    As we enter the fiscal year 2013 budget cycle and another year of 
this challenging fiscal environment, the Conservancy continues to 
recognize the need for fiscal austerity. The Conservancy also wishes to 
thank this Subcommittee for the final fiscal year 2012 Consolidated 
Appropriations Act funding levels for Department of the Interior and 
U.S. Forest Service conservation programs. As this Subcommittee begins 
to tackle another difficult budget cycle, the Conservancy stresses our 
concerns that the wildlife and land conservation programs should not 
shoulder a disproportionate share of cuts in this budget. Our budget 
recommendations this year do not exceed the President's budget request 
except for a few instances in which we recommend fiscal year 2012 
funding levels. Moreover, as a science-based and business-oriented 
organization, we believe strongly that the budget levels we support 
represent a prudent investment in our country's future that will reduce 
risks and ultimately save money based on the tangible economic, 
recreation and societal benefits natural resources provide each year to 
the American people. We look forward to working with you, Mr. Chairman, 
and Members of the Committee, as you address the ongoing needs for 
conservation investments to sustain our nation's heritage of natural 
resources that are also important to the economic vitality of 
communities across this country.
    Land and Water Conservation Fund (LWCF).--The Conservancy supports 
the President's fiscal year 2013 budget request of $450 million for the 
Land and Water Conservation Fund with the aim of continuing to work 
toward full funding for the program. The President's America's Great 
Outdoors Initiative is the prominent focus of this annual LWCF budget, 
and includes several top priority landscape conservation areas for the 
Conservancy including the Rocky Mountain Front/Crown of the Continent 
(MT/WY/ID) and Longleaf Pine Conservation Area (FL/GA/SC). This year, 
the Conservancy is specifically supporting 18 biologically rich land 
acquisition projects totaling $94.122 million. Some of our priorities 
include the continuing phased acquisition of the Montana Legacy 
Project, Florida's northern refuges (St. Marks and St. Vincent's), 
Silvio O. Conte NFWR within a four State integrated landscape, and 
Francis Marion NF in South Carolina. We are also pleased to support the 
Administration's proposals for investing in conservation easements on 
the working ranches of Florida's Everglades Headwaters NWR & 
Conservation Area, Kansas's Flint Hills Legacy Conservation Area, North 
Dakota and South Dakota's Dakota Grasslands Conservation Area, and 
Montana's Rocky Mountain Front Conservation Area. All of these projects 
exemplify landscape scale conservation through the cost effective means 
of conservation easements.
    Forest Legacy.--We support $60 million for this program, and 
specifically 3 projects--Pascagoula River Conservation Lands, Carter 
Mountain Working Forest Conservation Easement, and Discover Woods--
totaling $7.41 million. We hope this year to complete the acquisition 
of these important lands that will provide recovery for wildlife 
habitat and rare species, public recreational access for hunting and 
fishing, and outdoor experiences for financially disadvantaged children 
and those with special needs.
    Endangered Species.--The Conservancy enthusiastically supports $60 
million for the Cooperative Endangered Species Conservation Fund 
(CESCF). The Conservancy and its partners have used the Habitat 
Conservation Plan (HCP) and Recovery Land Acquisition Programs to 
conserve key habitat for numerous threatened, endangered and at-risk 
species and, thus, to help avoid conflicts over ESA issues. It has been 
an important catalyst for several local government-led HCPs that 
facilitate urban development and streamline permitting of essential 
transportation and energy infrastructure. In one part of Riverside 
County, California, a single HCP has facilitated development of 
transportation infrastructure that alleviates congestion and creates 
jobs in this rapidly growing area. The plan facilitates development on 
over 700,000 acres through acquisition of 153,000 acres in new 
conservation lands. We also support continued endangered species 
funding for the Table Rocks Area, Oregon, to protect critical habitat 
for the threatened vernal pool fairy shrimp, and funding for the Upper 
Colorado River Endangered Fish Recovery Program, recovery funds for the 
San Juan River Basin Recovery Implementation Program, and fish hatchery 
needs associated with the recovery plans in this region.
    Climate Change.--Fish, wildlife, and their habitats are and will 
continue to be profoundly impacted by climate change, regardless of our 
successes in reducing greenhouse gas emissions. If we are to get out 
ahead of such change to avoid disastrous losses in critical habitat and 
the species that depend on that habitat, we must develop the place-
based science to make informed, cost-effective management investments. 
The Conservancy appreciates the President's commitment to respond to 
the global climate challenge, and this Committee's sustained leadership 
in supporting cooperative, science-based programs to respond to the 
global climate challenge help ensure resilient land and seascapes. In 
particular, we welcome this Committee's ongoing commitment to both the 
USGS-led Climate Science Centers as well as DOI's Landscape 
Conservation Cooperatives, and efforts to ensure integration and 
coordination of these initiatives with existing efforts such as the 
Joint Ventures and National Fish Habitat Partnerships.
    National Wildlife Refuge System.--The Conservancy supports the 
Cooperative Alliance for Refuge Enhancement Coalition's request of $495 
million for Refuge System O&M. This is the President's request and 
represents the funding necessary to maintain management capabilities 
for the Refuge System in fiscal year 2013. It is an $8.3 million 
increase and takes into account the freeze on Federal salaries.
    USGS--Water Resources.--We support increased funding levels for the 
National Streamflow Information Program and the Cooperative Water 
Program, including work on water availability studies and work to 
implement a national water use and assessment program. As climate 
change, drought and population growth increase the demands on water 
resources, it is critical to invest in the integration of State and 
Federal water resource data and to better understand water needs of 
human communities and the environment.
    Bureau of Land Management: Renewable Energy Development, Rapid 
Ecoregional Assessments & Resource Management.--The Conservancy 
supports the Administration's recommended funding for DOI's ``New 
Energy Frontier'' which includes $26.8 million for BLM to support 
environmentally sound develop,ment of renewable energy sources on 
public lands and offshore. The request supports evaluation of the 
impacts of renewable energy development on wildlife and habitat and 
effective coordination with affected States and Tribes to assess energy 
resources and evaluate project proposals. We also support funding for 
BLM completion of Rapid Ecoregional Assessments (REAs), a key 
information tool for the agency to respond to the growing challenges of 
climate change and energy development. We also recommend robust funding 
for BLM resource management and transportation planning activities. 
These funds are needed to complete ongoing planning efforts and to 
initiate new planning efforts in key places, without which the agency 
cannot make informed energy mitigation and siting decisions and take 
the management actions necessary to improve priority wildlife and 
aquatic habitats, ensure water quality, control invasive species and 
manage off-road vehicle use. BLM should also be encouraged to use 
existing data sets when available for REAs and RMPs so that funding can 
be focused on critical data needs instead of creating duplicitous data 
sets.
    Collaborative Forest Landscape Restoration.--We appreciate the 
Committee's support for Collaborative Forest Landscape Restoration and 
demonstration of collaboratively developed forest restoration plans at 
a large scale. We recommend fiscal year 2012 funding be sustained for 
Collaborative Forest Landscape Restoration with $40 million to restore 
large forest landscapes, provide jobs that sustain rural economies, 
reduce the risk of damaging wildfire, address invasive species, improve 
wildlife habitat and decommission unused, damaging roads. We are 
monitoring many CFLR projects closely and are very encouraged by 
progress to date. We also recommend reauthorization of stewardship 
contracting, a vital tool for forest landscape restoration.
    Wildland Fire Management.--We appreciate the Committee's ongoing 
support for the Hazardous Fuels Reduction, that removes overgrown brush 
and trees through a variety of methods, leaving the forest in a more 
natural condition that is resilient to wildfires. It is essential to 
keep at least level funding for this program. Funding reductions will 
result in greater, more damaging wildfires and larger Federal and State 
outlays for emergency wildfire suppression, with more damage to life, 
property, and natural resources. We note that fuels reduction also 
creates jobs: for every $1 million invested, approximately 16 full-time 
equivalent jobs are created or maintained, along with more than half a 
million in wages and over $2 million in overall economic activity.
    We urge you to repeat your instructions in the fiscal year 2012 
conference report regarding allocation of hazardous fuels funding. 
Community protection is a vital goal of the hazardous fuels program and 
strategic treatment of natural wildland areas that supply water, wood, 
recreation, and wildlife habitat protects communities and the resources 
citizens are also essential. We note that the President's budget for 
fiscal year 2013 has a disturbing focus on protecting structures at the 
expense of wildland natural areas. Significant progress to protect 
communities and natural areas has been achieved since 2001 with a 
roughly equal allocation of funding between the wildland urban 
interface and wildlands. Shifting too much funding away from wildlands 
will forestall treatments in strategic forest locations where 
treatments may prevent mega-fires, and will allow fuels to regrow on 
acres already treated that need maintenance with controlled burns.
    We recommend $317 million for Hazardous Fuels Reduction in the 
Forest Service budget, with $76 million for wildland and $241 million 
for wildland urban interface, and $183 million for Hazardous Fuels 
Reduction in the Department of the Interior budget, with at least 25 
percent allocated for treatment of wildlands necessary to achieve the 
conservation missions of the Fish and Wildlife Service, National Park 
Service and Bureau of Land Management.
    Integrated Resource Restoration.--We appreciate the Committee's 
work to create an Integrated Resource Restoration (IRR) pilot in the 
Consolidated Appropriations Act of 2012, allowing Forest Service 
Regions (Northern, Intermountain, and Southwestern) to test the 
integrated budget approach. The Nature Conservancy has actively 
followed implementation of the pilot in the 3 regions and expects an 
increase in restoration outcomes to result. The Conservancy thinks it 
is premature to take this pilot national, so we support continuation of 
the pilot for a second year. Important lessons will be learned from the 
pilot and this information is necessary if full implementation of IRR 
is to succeed.
    Watershed Protection, Cooperative State Fire Assistance and 
Landscape Scale Restoration.--Forest health problems and fire 
management are most effectively and efficiently addressed at large 
scales. The Nature Conservancy recommends support for watershed 
restoration and leveraging State funding to address wildfire risks and 
begin cooperative Landscape Scale Restoration. Our recommendations 
include funding at the fiscal year 2012 enacted levels for Legacy Road 
and Trail Remediation, with $45 million for the National Forest System, 
$86 million for State Fire Assistance and $18 million for the new 
Landscape Scale Restoration program, to coordinate cost-effective 
investment in fuels treatments.
    Forest Health Management. America's forests are threatened by a 
growing number of non-native pests and diseases. The Conservancy asks 
the Committee to maintain funding at the fiscal year 2012 enacted 
level, which totals $112 million. This funding is necessary to address 
effectively the most economically and ecologically damaging pests, 
including the Asian Longhorned Beetle, Emerald Ash Borer, Hemlock 
Woolly Adelgid, Sudden Oak Death, thousand-canker disease of walnut, 
and the goldspotted oak borer.
    Forest Service Research Program.--We support the President's 
request for the Forest Service Research program to maintain funding of 
research to improve detection and control methods for the Emerald Ash 
Borer, Hemlock Woolly Adelgid, goldspotted oak borer, thousand cankers 
disease, and other non-native forest pests and diseases.
    State Wildlife Grants.--The Conservancy endorses the Teaming with 
Wildlife Coalition's support for robust funding for this important 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats. We also support the Administration's request to maintain the 
current program match requirement of 65:35 to help fiscally impacted 
States.
    Migratory Bird, Joint Ventures and Fish Habitat Partnership 
Programs. --The Committee has consistently provided vitally important 
investments for a number of migratory bird programs. Such investments 
are essential to reverse declines in bird populations through direct 
conservation action, monitoring and science. We urge the Committee to 
fund the President's request for such established and successful 
programs as NAWCA and the Joint Ventures, and the Migratory Bird 
Management Program. We support the President's request for the FWS 
Coastal Program and Partners for Fish and Wildlife Program and request 
strong funding this year for the National Fish Habitat Initiative, 
particularly in light of the recent Memorandum of Understanding 
announced between the Secretaries of Interior, Commerce and Agriculture 
in support of the Initiative.
    International Programs.--There are large unmet needs for 
international conservation. When well-managed, international 
conservation contributes much to human welfare in the developing 
countries and globally. Recognizing the current fiscal situation 
requires a measure of austerity, we support the President's fiscal year 
2013 request for the FWS' Multinational Species Conservation Funds, the 
international wildlife trade programs, and Wildlife Without Borders. 
These programs have already been cut and are currently below the fiscal 
year 2010 enacted levels; further cuts would be very damaging. We also 
support a line item and funding for the U.S. Forest Service's 
International Programs at its fiscal year 2012 enacted level of $8 
million.
    USGS--Water Resources.--We support increased funding levels for the 
National Streamflow Information Program and the Cooperative Water 
Program, including work on water availability studies and work to 
implement a national water use and assessment program. As climate 
change, drought and population growth increase the demands on water 
resources, it is critical to invest in the integration of State and 
Federal water resource data and to better understand water needs of 
human communities and the environment.
    Environmental Protection Agency. --TNC acknowledges that reductions 
in EPA's budget are necessary to support national deficit reduction. We 
believe that the overall President's budget request of $8.34 billion 
for EPA, which represents a $105 million decrease from the fiscal year 
2012 enacted amount, is appropriate. However, Congress should remain 
mindful of the relatively small size of EPA's discretionary budget as 
it considers where additional budget cuts should occur government-wide. 
Congress should avoid disproportionate cuts to EPA's ecosystem-oriented 
water programs because those programs have such wide-reaching and 
beneficial impacts throughout the country. Unlike established point 
source pollutant control programs, these landscape scale programs 
support a more forward-looking conservation approach that can enhance 
ecosystem value (and therefore economic value) over time. Examples of 
such value-adding activities include coastal restoration, watershed 
protection, wetland mitigation, climate adaptation, protection from 
invasive plants and animals, and non-point source nutrient management.
    Furthermore, TNC recommends that Congress require EPA to give 
greater emphasis to innovative approaches that promote ecosystem 
protection and restoration over after-the-fact remediation. We continue 
to support the allocation of sufficient funds for innovative strategic 
planning programs like the Healthy Watersheds Initiative, which 
embraces a whole-system planning approach to water resource management. 
This program should be endorsed as a means to enable Federal and State 
programs to protect and restore freshwater habitats at large scale 
through more bang-for-the-buck actions. The same holds true for major 
grant programs such as the Clean Water State Revolving Fund and the 
Section 319 Non-Point Source grant program. These vital accounts should 
be sufficiently funded to enable cash-strapped States and localities to 
take actions to protect priority aquatic ecosystems. At the same time, 
Congress should require EPA to promote the allocation of SRF and 319 
funds for projects that support the development of green infrastructure 
and sustainable conservation practices, because of the long-term 
environmental and economic value they provide.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2013 Interior, Environment and 
Related Agencies Appropriations Bill.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians

    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to testify on tribal programs in the 
fiscal year 2013 budget under the Interior-Environment Appropriations 
bill. This testimony will address programs in the Department of the 
Interior, Environmental Protection Agency, and Indian Health Service. 
Full funding of the Federal Government's trust, treaty and statutory 
obligations to tribes remains a bipartisan goal for Indian Country.
    In preparation for the President's budget, some agencies have 
consulted with tribes about programs in the budget. Recommendations 
from Indian Country that were included in the President's fiscal year 
2013 proposal include increases for contract support costs, some 
natural resource and environmental protection programs, public safety 
initiatives, and contract health services. While the administration's 
budget proposal maintains support for many critical programs, some cuts 
proposed represent significant setbacks to progress in Indian Country, 
such as for education construction. NCAI looks forward to working with 
this subcommittee to ensure that the Federal programs that fulfill the 
trust responsibilities to tribes receive bipartisan support in the 
appropriations process.
    Indian Country recognizes the state of the economy, the pressures 
on Government at all levels, and the related challenges for job 
seekers. Tribes take the responsibility to manage Federal funds as 
seriously as we do the Federal trust responsibility to provide them, 
and we propose the following general recommendations for the fiscal 
year 2013 budget.
  --Continue to promote the successful and efficient initiatives in 
        Indian Country that work, such as Self-Determination programs. 
        Critical to implementing these policies are the Bureau of 
        Indian Affairs (BIA) funding streams for Tribal Priority 
        Allocations, Contract Support Costs at BIA and the Indian 
        Health Service (IHS), and Tribal Grant Support Costs for tribal 
        schools.
  --Tribes urge Congress to support legislation that will fully restore 
        the Secretary of the Interior's authority to take land into 
        trust for tribes (Carcieri).
    NCAI has compiled recommendations on many specific programs and 
agencies that affect Indian Country, but, in general, NCAI urges 
Congress to at least hold Indian programs harmless in the fiscal year 
2013 appropriations process and exempted from across-the-board 
rescissions.

Public Safety and Justice
    Although they have taken various forms, the public safety problems 
that plague tribal communities are not new. They are the result of 
decades of gross underfunding for tribal criminal justice systems, a 
painfully complex jurisdictional scheme, and a centuries-old failure by 
the Federal Government to fulfill its public safety obligations on 
American Indian and Alaska Native lands.
    NCAI supports the Department of the Interior's Protecting Indian 
Country Initiative and the Priority Goal to reduce violent crime in 
Indian communities. Last year, the Department of the Interior launched 
the Safe Indian Communities Initiative, a 2-year program that included 
targeted community policing on four reservations, and the program has 
achieved successful and encouraging results. Since its inception, there 
has been a 35 percent overall decrease in violent crime across the four 
tribal communities. With an initial target of reducing violent crime by 
at least 5 percent, the initiative far exceeded this goal, achieving a 
68 percent decrease in violent crime at the Mescalero Reservation in 
New Mexico, a 40 percent reduction at Rocky Boy in Montana, and a 27 
percent reduction in violent crime at Standing Rock in North and South 
Dakota. The successful program is now being expanded to two additional 
reservations: the Rosebud Sioux Reservation in South Dakota and the San 
Carlos Apache Reservation in Arizona. Indian Country would like to see 
it expanded even further--to reach even more tribes--and we would like 
to see Congress appropriate adequate funding to ensure the Initiative's 
continued success. This Initiative has been a proven success, and these 
are the types of efforts that can make a real difference on the ground 
level, provided there is funding available to pursue them.
Indian Health Service
    The President's budget request demonstrates the administration's 
ongoing commitment to Indian Country and the recognition of the trust 
responsibility for providing healthcare in perpetuity to all American 
Indian and Alaska Native people. The increase of $116 million in the 
Indian Health Service (IHS) budget request was a confirmation of that 
commitment. Tribal leaders annually, through the National IHS Tribal 
Budget Formulation Workgroup, provide IHS with tribal leader priorities 
for the upcoming fiscal year. We applaud the administration for 
including targeted funding increases that have long been a priority for 
the Workgroup, such as for Contract Health Services, staffing, and 
contract support costs.
    While these increases are much needed, we must be clear that the 
IHS budget remains woefully short of providing full funding to the IHS 
system; and only full funding will ensure that parity is achieved in 
our healthcare system. Providing funding increases that addresses 
population growth and inflation so that current services can still be 
provided is vitally important.
    Tribal leaders provided Congress and the administration a blueprint 
to bring parity to Indian people. The Indian Health Care Improvement 
Act (IHCIA) includes programs and services designed to bring the IHS 
into the 21st century. However, authorization only creates the program, 
appropriations are needed to fulfill its promise. Currently, there are 
23 unfunded provisions in the IHCIA.

Education
    The fiscal year 2013 budget request for the Construction program is 
a reduction of $17.7 million below fiscal year 2012. The request cuts 
$17.8 million, eliminating new school construction funding. Indian 
Affairs will focus on improving existing school facilities as part of 
the Department's strategic approach to not fund new construction in 
fiscal year 2013. The total fiscal year 2013 request for Education 
Construction is $52.9 million. NCAI urges funding for new school 
construction to be restored. All students in America deserve a safe, 
secure, and culturally appropriate environment in which to attend 
school. As cited in the draft No Child Left Behind School Facilities 
and Construction Negotiated Rulemaking Committee Report, numerous 
research studies have noted the link between inadequate facility 
conditions and poor performance by students and teachers. The report 
also underscored the fact that the quality of the school environment 
impacts student behavior, test scores, and teacher retention, among 
other issues. As of December 31, 2009, an estimated $1.34 billion was 
needed to bring 64 schools ranked in ``poor'' condition, meaning in 
significant need of repair, up to ``fair'' condition. Continued 
inadequate support for school facilities will cause the unmet need for 
construction and repair funds to balloon. Equally disconcerting is that 
the fiscal year 2013 budget directives could result in the continued 
elimination of funding for replacement school and replacement 
facilities. Delaying the replacement and repair of existing facilities 
not only jeopardizes student and staff safety, but also increases the 
amount of school funds that must be diverted to emergency repairs and 
other facilities maintenance--accounts which are also extremely 
underfunded.

Natural Resources
    The vitality and sustainability of natural resources is integral to 
the health of American Indian and Alaska Native peoples, communities, 
cultures, and economies. It also has demonstrable positive impacts on 
surrounding communities. The ecological practices tribal peoples have 
cultivated for millennia are inherently sustainable and practical.
            Environmental Protection Agency
    Although the Environmental Protection Agency's (EPA) fiscal year 
2013 budget decreased approximately $105 million overall from fiscal 
year 2012, much of the tribal set asides received increased funding. 
Recognizing tribes and States as the primary implementers of 
environmental programs the EPA continued funding its State and Tribal 
Assistance Grants program, which accounts for 40 percent of the EPA's 
budget request and is the largest percentage of the EPA's budget 
request. Tribes received an increase of approximately $29 million over 
fiscal year 2012 appropriations to the Tribal General Assistance 
Program. These additional funds will assist tribes in capacity building 
and promote protections for the environment and human health. NCAI 
strongly supports the increased proposed for the Tribal General 
Assistance Program.
            Bureau of Indian Affairs, Natural Resources
    Tribes have voiced support for increased funding for natural 
resources programs in the Bureau of Indians Affairs through the Tribal 
Interior Budget Council, which provides input to the Department of the 
Interior on tribal budget concerns. The President's fiscal year 2013 
budget includes some of the recommendations for natural resources. 
Under trust land management, the fiscal year 2013 budget would provide 
increases in Trust Natural Resources of $3.5 million for the Rights 
Protection Implementation program and $2 million for the Tribal 
Management and Development program to support fishing, hunting, and 
gathering rights on and off reservations. The budget request would 
provide program increases of $1 million for the Forestry program and 
$500,000 for the Invasive Species program. An increase of $800,000 
supports greater BIA and tribal participation in the Landscape 
Conservation Cooperatives, for a total of $1 million. NCAI urges 
Congress to retain these proposed increases in the final fiscal year 
2013 appropriations bill.

Supporting Tribal Governments
            Bureau of Indian Affairs
    The fiscal year 2013 President's budget includes $2.5 billion in 
current appropriations for Indian Affairs, which is $4.6 million or 0.2 
percent below the fiscal year 2012 enacted level. The budget proposes a 
total of $897.4 million in Tribal Priority Allocations. Critical to 
implementing the Indian Self-Determination policy is the Bureau of 
Indian Affairs (BIA) funding streams for Tribal Priority Allocations, 
Contract Support Costs at BIA, and Tribal Grant Support Costs for 
tribal schools. NCAI supports the programmatic increases in Indian 
Affairs, which follow the recommendations from tribes. However, NCAI 
would note that the President's budget includes rather large reductions 
due to streamlining measures in the BIA. These reductions include $19.7 
million in streamlining measures and $13.8 million in administrative 
savings. Although tribes appreciate that the administration is 
proposing increases to programs, NCAI would urge caution when cutting 
so deeply into BIA functions.

Economic Development
            Indian Guaranteed Loan Program
    The fiscal year 2013 proposed budget would provide $5 million for 
the Indian Guaranteed Loan program, a reduction of $2.1 million from 
the 2012 enacted level. The Department of the Interior's Office of 
Indian Energy and Economic Development (OIEED) Division of Capital 
Investment oversees the Indian Loan Guarantee Program that is the only 
Federal guarantee program that enables eligible borrowers to obtain 
conventional lender financing to develop Native businesses and eligible 
construction, while also enabling other companies to obtain 
supplemental surety bond guarantees. In the last several years, 
significant tightening of the credit markets made loans more difficult 
to obtain, reducing demand for loan guarantees. The revolving credit 
facility of the OIEED Loan Guarantee Program can greatly assist Native 
borrowers seeking guarantees for lines of credit for: working capital, 
payrolls for hiring new employees, and assurances sufficient for 
sureties to provide performance bonds to tribal- and other Native-owned 
contractors. The OIEED's Loan Guarantee Program is the most appropriate 
and urgently needed source of financing for business, energy, and other 
economic development in Indian Country. With the promises of a 
broadband-enabled economy in Indian Country looming on the horizon, an 
expanded investment in the OIEED Loan Guarantee Program would enable 
operating businesses to build their technological capacity as well as 
to provide seed financing for new businesses to begin operations. NCAI 
encourages Congress to provide funding for the Indian Guaranteed Loan 

Program at a level of at least $10 million.
            Transportation
    NCAI urges an increase for the BIA roads maintenance program in 
fiscal year 2013, which services 29,000 miles of Indian Affairs-owned 
roads. As of 2011, the backlog in deferred maintenance was approximated 
to be $285 million, yet the funding level for BIA roads maintenance has 
been at about $25 million for the last 10 years.

Conclusion
    We look forward to working with Members of Congress to continue to 
build upon our successes. Tribal leaders urge Congress to uphold its 
solemn promises to tribes, even as policymakers seek to reduce the 
deficit through spending reductions and revenue generation. The 
obligations to tribal citizens funded in the Federal budget are the 
result of treaties negotiated and agreements made between tribes and 
the United States in exchange for land and resources, known as the 
trust responsibility. The fulfillment of this trust responsibility is a 
solemn historic and legal duty.
                                 ______
                                 
       Prepared Statement of the National Cooperators' Coalition

Summary
    The National Cooperators' Coalition (NCC) urges the Subcommittee on 
Interior, Environment, and Related Agencies to increase the funding of 
the U.S. Geological Survey's Cooperative Fish and Wildlife Research 
Units (CFWRUs) by $2.7 million above the amount in the fiscal year 2010 
continuing resolution to fill vacant scientist positions. At a time 
when Federal spending needs to be reduced, the CFWRUs are precisely the 
type of program that should receive greater support because they 
successfully leverage $3 for every $1 of Federal funds appropriated for 
the program. With typically just three Federal scientists, each of the 
38 CFWRUs is lean and highly productive and uses partnerships to avoid 
the need for Federal spending on administrative personnel, building 
space and much of the operating expenses. This cost-effective program, 
however, is in jeopardy unless funds are provided to replace its 
retiring scientists.
    The NCC also recognizes the efforts of several States that want to 
establish new unit capacity. Contingent on full funding of the base 
CFWRU program, it is vital to these efforts that an additional $2.5 
million be appropriated for the new capacity which will add units in 
Nevada, New Jersey and North Dakota and complete the wildlife mission 
at existing units in Hawaii and California.

Continue to Build on This Subcommittee's Efforts
    We greatly appreciate your leadership in adding funding in fiscal 
years 2008, 2009, and 2010 for the CFWRU research and training 
partnership, which for over 75 years has brought together State fish 
and wildlife agencies, State universities, and Federal agencies around 
a local, applied research agenda. As a result, to provide the capacity 
in the CFWRU program that existed a decade ago, the fiscal year 2012 
USGS appropriation now needs just $2.7 million more than the fiscal 
year 2010 enacted level.
    Each of the CFWRUs in 38 States is a true Federal-State-university-
private partnership among the U.S. Geological Survey, a State natural 
resource agency, a host university, and the Wildlife Management 
Institute. The CFWRUs build on these partner contributions to leverage 
more than $3 for every $1 appropriated to the program by Congress. The 
CFWRUs have established a record of educating new natural resource 
professionals who are management-oriented, well-versed in science, 
grounded in State and Federal agency experience, and able to assist 
private landowners and other members of the public. Restoration of 
funding support would ensure that the Interior Department provides the 
Federal scientist staffing agreed to with CFWRU partners so that the 
return on the continuing investment in the program by those partners is 
realized and fully leveraged. At a time when Federal spending needs to 
be reduced, the role of the CFWRU program in facilitating solutions to 
natural resources management challenges and training the fish and 
wildlife managers of tomorrow should be expanded rather than 
compromised by funding shortfalls that result in the absence of 
scientist leaders.
    State and Federal natural resources agencies are facing 
unprecedented challenges posed by energy development needs, invasive 
species, infectious diseases, wildfire, and increased demand for 
limited water resources. These agencies also face the challenge of 
replacing an extraordinary number of natural resource professionals who 
are retiring. Finding workable solutions to these challenges requires 
the kind of approaches to research emphasized by the CFWRUs, which rely 
on leveraging Federal dollars through collaborative, interdisciplinary 
efforts to help resolve emerging issues at scales that transcend 
individual State boundaries.
    With appropriation of $22 million for the CFWRUs for fiscal year 
2012, a sound foundation will exist on which new capacity should be 
built. With appropriation of an additional $2.5 million will add CFWRUs 
in Nevada, New Jersey and North Dakota and complete the wildlife 
mission at existing CFWRUs in Hawaii and California. Rutgers 
University, University of Nevada--Reno, North Dakota State University-
The University of North Dakota, University of Hawaii--Hilo and Humboldt 
State University bring a wealth of research, education and innovative 
technology to address contemporary conservation issues at regional and 
national scales. The respective State agency partners bring an 
extensive history of successful fish and wildlife management skills and 
resources that complement those existing at the universities. The State 
agency and university partners are well equipped to collaborate with 
CFWRUs to help resolve natural resources management challenges that 
transcend State boundaries.
    We urge you to make greater use of the Cooperative Fish and 
Wildlife Research Units and to expand this program in five States. The 
program's efficient and cost-effective research and training 
partnership brings together State fish and wildlife agencies, State 
universities, and Federal agencies around a local, applied research 
agenda. With your assistance, this program can make the best use of 
limited Federal funds to become even more effective in using science 
and collaboration to address the natural resources challenges facing 
the Interior Department, other Federal, State, local agencies and this 
country's citizens.
    Thank you for consideration of our request.
    The National Cooperators' Coalition is an alliance of non-Federal 
CFWRU program cooperators and other supporters. Its members include 
State fish and wildlife agencies, universities, and non-governmental 
organizations. The mission of the NCC is to build a stronger and more 
coordinated base of support to serve research, education, and technical 
assistance needs of the non-Federal CFWRU program cooperators.

                                SPONSORS

University of Arkansas
University of Arizona
Arizona Game and Fish Department
Humboldt State University
Colorado State University
Colorado Division of Wildlife
University of Florida
Florida Fish and Wildlife Conservation Commission
University of Georgia
Georgia Department of Natural Resources
University of Hawaii
University of Idaho
Idaho Department of Fish and Game
Indiana Department of Natural Resources
Purdue University
Iowa State University
Iowa Department of Natural Resources
Louisiana State University
Maine Department Inland Fisheries and Wildlife
University of Maryland Eastern Shore
University of Minnesota
Minnesota Department Natural Resources
University of Missouri
Missouri Department of Conservation
University of Montana
Montana State University
Montana Fish, Wildlife and Parks
University of Nebraska
Nebraska Game and Parks Commission
University of Nevada, Reno
New Mexico Department of Game and Fish
New Mexico State University
North Carolina State University
North Carolina Wildlife Resources Commission
Oklahoma Department of Wildlife Conservation
Oklahoma State University
Oregon State University
Pennsylvania Game Commission
Pennsylvania Fish and Boat Commission
Clemson University
Rutgers University
South Dakota Department of Game, Fish and Parks
South Dakota State University
Tennessee Wildlife Resources Agency
Texas Parks and Wildlife Department
Texas Tech University
Utah State University
Virginia Tech University
Vermont Fish and Wildlife Department
Wisconsin Dept. Natural Resources
University of Wisconsin--Madison
Wyoming Game and Fish Department
University of Wyoming
Ducks Unlimited, Inc.
Association of Fish and Wildlife Agencies
Izaak Walton League of America
Midwest Association of Fish and Wildlife Agencies
Western Association of Fish and Wildlife Agencies
National Association of University Fish and Wildlife Programs
North American Grouse Partnership
The Wildlife Society
Wildlife Management Institute
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
Fiscal Year 2013 Request
  --$46.925 million for State Historic Preservation Offices (SHPOs); 
        and
  --$10 million for a Historic Preservation Grant Program to be run 
        though the SHPOs.
    Funded through withdrawals from the Historic Preservation Fund (16 
U.S.C. 470h) U.S. Department of the Interior's National Park Service 
Historic Preservation Fund (HPF).\1\
---------------------------------------------------------------------------
    \1\ The NCSHPO also supports the Tribal Historic Preservation 
Officer's fiscal year 2013 request of $9.7 million.
---------------------------------------------------------------------------
Preservation = ROI = Federal-State Partnership
    In 1966 Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (NHPA 16 U.S.C. 470), 
which established historic preservation as a Federal Government 
priority. Instead of using Federal employees to carry out the Act, the 
Department of the Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs to: (1) 
locate and record historic resources; (2) nominate significant historic 
resources to the National Register of Historic Places; (3) foster 
historic preservation programs at the local government level and 
promote the creation of preservation ordinances; (4) provide funds for 
preservation activities; (5) comment on Federal preservation tax 
projects; (6) review all Federal projects for their impact on historic 
properties; and (7) provide technical assistance to Federal agencies, 
State and local governments and the private sector. And, States 
contribute to the Federal Government half the operating cost.
Preservation = ROI = Job Creation
    Historic preservation creates jobs. Whether it is through the 
historic tax credit program, preservation grants, or other 
rehabilitation avenues, preservation creates skilled, principally 
local, jobs. The following are excellent examples of how historic 
preservation creates jobs and job training:
  --In 2011, while slowly climbing out of a national recession, there 
        were nearly 1,000 new historic tax credit projects started, 
        averaging 55 jobs per project. The private investment in the 
        approved and completed projects in 2011 totaled $4.02 
        billion.\2\
---------------------------------------------------------------------------
    \2\ ``Federal Tax Incentives for Rehabilitating Historic 
Buildings--Statistical Report and Analysis for Fiscal Year 2011'' 
National Park Service.
---------------------------------------------------------------------------
  --When compared to new construction, $1 million spent to rehabilitate 
        a building will create 5-9 more construction jobs and 4.7 new 
        jobs will be created elsewhere in the community.\3\
---------------------------------------------------------------------------
    \3\ The Economics of Rehabilitation, Donovan Rypkema.
---------------------------------------------------------------------------
  --In California $1 million of rehabilitation creates five more jobs 
        than manufacturing $1 million worth of electronic equipment. In 
        Oklahoma $1 million of rehabilitation creates 29 more jobs than 
        pumping $1 million worth of oil.\4\
---------------------------------------------------------------------------
    \4\ The Economics of Historic Preservation, Rypkema 1998:13.
---------------------------------------------------------------------------
Preservation = ROI = Economic Development
    From Providence, Rhode Island to Anchorage, Alaska historic 
preservation plays a key role in creating, maintaining, and growing 
these communities while preserving their historical significance. The 
Federal Rehabilitation Tax Credit program is an important driver in 
economic development. The program benefits communities by:
  --Increasing the value of the rehabilitated property and returning 
        vacant or underutilized structures to the tax roles.
  --Encouraging protection of landmarks through the promotion, 
        recognition, and designation of historic structures, and acting 
        as a catalyst for further community renewal.
  --Upgrading downtowns and neighborhoods and often increasing the 
        amount of available housing within the community.
    In 2011, still in the midst of a recession, the Federal 
rehabilitation tax credit spurred $4.02 billion in private investment, 
created over 55,400 skilled, local jobs and nearly 7,500 moderate and 
low income housing units. All of which brings in both short and long-
term economic opportunities for the community.
    According to the Major of Dubuque, Iowa, Roy D. Buol, ``The City of 
Dubuque views historic preservation as a key component of 
sustainability with its economic, environmental, and social/cultural 
benefits. Preservation enhances the vibrancy of neighborhoods and our 
community, instilling pride and value through increased property 
values, as well as enhanced quality of life, sense of place and 
neighborhood pride. Preservation translates into economic prosperity 
through creation of new jobs, retention of existing jobs especially in 
construction trades, stimulation of private investment, tourism and 
business growth, and financial investment in property improvements.''
    Heritage tourism also creates jobs, new businesses, builds 
community pride and can improve quality of life. SHPOs are essential, 
ground level partners in identifying historic places and providing 
research for tourism interpretation. According to the Department of 
Commerce's ``2010 Cultural Heritage Traveler'' report of activities 
that international visitors participate in, touring America's non-
National Park historical places ranks third, behind only shopping and 
dining. Visiting America's non-National Park Historical Places, 
Cultural Heritage Sites, and America's Small towns all rank above 
visiting National Parks--where the bulk of Federal money is spent.

----------------------------------------------------------------------------------------------------------------
        Activity Participation while in the United States         2009 (percent)  2010 (percent)   Point Change
----------------------------------------------------------------------------------------------------------------
Shopping........................................................              90              90             0.3
Dining in Restaurants...........................................              86              86  ..............
Visit Historical Places.........................................              68              68             0.2
Sightseeing in Cities...........................................              60              59            -0.9
Art Gallery/Museum..............................................              41              41            -0.1
Cultural Heritage Sites.........................................              40              41             0.7
Visit Small Towns...............................................              36              37             1.5
Amusement/Theme Parks...........................................              32              34             2.1
Visit National Parks............................................              34              34             0.2
Concert/Play/Musical............................................              30              29            -0.3
----------------------------------------------------------------------------------------------------------------
Department of Commerce, Office of Travel and Tourism Industries ``2010 Cultural Heritage Traveler''.

Preservation = ROI = America's Heritage
    Preservation honors the significant places of American history at 
the local, State and national levels through creating historic 
districts and listing resources in National and State Historic 
Registers. State Historic Preservation Officers, through the authority 
of the National Historic Preservation Act are there to assist, support 
and encourage communities with their efforts. National Register 
recognition by the Secretary confirms citizens' belief in the 
significance of their community. That recognition, in turn, builds 
community pride and stable, livable communities such as Deadwood, South 
Dakota and Knoxville, Tennessee. Further, this neighborhood improvement 
comes from individual, private investment, not from Federal programs.
    The National Historic Preservation program is one of assistance, 
not acquisition. The Federal Government does not own, manage, or 
maintain responsibility for the historic assets in the National 
Historic Preservation program. Instead, the program, through the SHPOs, 
provides individuals, communities, and local and State governments the 
tools they need to preserve and utilize their historic heritage for the 
betterment of their community and the Nation.
Preservation = ROI = Money Well Spent
    Federal funding for SHPOs is money well spent. Under the 
administration's Program Assessment Rating Tool, management of Historic 
Preservation Programs received a score of 89 percent, indicating 
exemplary performance of mandated activities. Reinforcing this finding 
is the December 2007 National Academy of Public Administration (NAPA) 
report ``Back to the Future: A Review of the National Historic 
Preservation Program'', and the 2009 National Parks Second Century 
Report, which called for fully funding the Historic Preservation Fund.
    NAPA, a nonprofit, independent coalition of top management and 
organizational leaders, found that the National Historic Preservation 
Program ``stands as a successful example of effective Federal-State 
partnership and is working to realize Congress' original vision to a 
great extent. However, the Panel concluded ``that a stronger Federal 
leadership role, greater resources, and enhanced management are needed 
to build upon the existing, successful framework to achieve the full 
potential of the NHPA on behalf of the American people.'' \5\
---------------------------------------------------------------------------
    \5\ NAPA, ``Back to the Future: A Review of the National Historic 
Preservation Programs'' December 2007, p. 29.
---------------------------------------------------------------------------
2011 State Historic Preservation Offices' Accomplishments
    SHPOs used their HPF allocations well in 2011. While virtually 
every State continues to experience staffing and operation reductions, 
SHPOs are still charged with implementing the requirements of the NHPA 
to the fullest extent. Highlights of 2011 historic preservation 
accomplishments include:
  --Reviewing 140,000 Federal undertakings within 30 days.
  --Leveraging over $4.02 billion of private investment in the 
        rehabilitation of commercial historic properties under the 
        Federal Rehabilitation Tax Credit (FRTC) program.
  --An estimated 55,458 jobs created by the FRTC program in 2011.
  --7,470 low and moderate income housing units created through the 
        FRTC.
  --Approximately 20.5 million acres surveyed for the presence and 
        absence of cultural resources and over 610,700 properties 
        evaluated for their historical significance.
  --1,061 new listings in the National Register of Historic Places.
  --104,700 National Register eligibility opinions.
  --37 new communities became Certified Local Governments (CLGs).
  --Under local law, CLG's newly designated 57,000 properties, and 
        66,300 properties took part in local preservation review, 
        programs, and incentives.

Conclusion
    On behalf of all 57 SHPOs, I'd like to thank you Chairman Reed, 
Ranking Member Murkowski, and members of the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies for the 
opportunity to submit testimony.
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary 50, 100 or 500 years from now. I 
would like to thank the committee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and through our partnership, SHPOs 
stand committed to identify, protect, and maintain our Nation's 
historic heritage. Thank you.
                                 ______
                                 
        Prepared Statement of the Nevada Department of Wildlife

    To the Chair and Members of the Subcommittee, thank you for this 
opportunity to provide testimony on behalf of the Nevada Department of 
Wildlife (NDOW) regarding the importance of restoring and increasing 
appropriations in the fiscal year 2013 for State implementation of 
aquatic nuisance species (ANS) programs.
    Aquatic invasive species are a growing national concern in the 
United States and pose serious economic and ecological threats to our 
national aquatic resources. At the State level, very limited 
opportunities exist for Federal and State partnerships to combat the 
threat associated with the invasion and spread of aquatic nuisance 
species. The invasion and spread of aquatic nuisance species continues 
to escalate at both the national and State level. Many of the newer 
aquatic invaders have the ability to adapt and withstand various 
environmental factors making them more prolific and a larger threat to 
our native aquatic life, ecosystems and water resources. The problem is 
not one that can be adequately managed or solved by individual States 
or agencies but will take the coordinated efforts of private entities 
and various Federal and State agencies.
    Thus, NDOW urges Congress to restore the fiscal year 2012 
appropriation of $1,075,000 to States with approved ANS plans and the 
additional $3 million appropriation that was originally authorized by 
the National Aquatic Nuisance Plants and Animals Act (NANPCA) of 1990. 
These appropriations would provide grant funds for State fish and 
wildlife agencies with approved aquatic nuisance species plans to 
implement their plans, as authorized by NANPCA, and as amended in the 
National Invasive Species Act of 1996 (NISA). The additional 
appropriations in fiscal year 2013 will provide much needed assistance 
for State fish and wildlife agencies with approved ANS plans to combat 
these invaders. Although NDOW currently does not have an approved ANS 
plan, it is currently under development and is expected to be completed 
in the next several months. Nevada's ANS Plan will be an extremely 
valuable component to NDOW's Aquatic Invasive Species Program; however, 
implementation of the plan, without Federal support, will effectively 
make the plan of little value in preventing the introduction and spread 
of aquatic invaders.
    The threat of invasion and the spread of numerous prolific aquatic 
invasive species are placing our Nation's water resources and aquatic 
ecosystems at risk. The threat is real and States cannot be expected to 
effectively manage and eradicate ANS on their own; it will take the 
coordinated efforts of both State and Federal agencies to combat these 
invaders.
    Thank you for the opportunity to present this testimony to the 
subcommittee. As you deliberate appropriate funding levels for ANS 
issues, please consider the important public policy implications that 
could entail.
                                 ______
                                 
              Prepared Statement of Americans for the Arts

    Americans for the Arts is pleased to submit written testimony to 
the Senate Appropriations Subcommittee on the Interior supporting 
fiscal year 2013 funding for the National Endowment for the Arts (NEA) 
at a level of $155 million, which aligns closely with President Obama's 
fiscal 2013 budget request.
    I would first like to thank Chairman Jack Reed and Ranking Member 
Lisa Murkowski for your efforts last year to appropriate $155 million 
to the National Endowment for the Arts. Your leadership helped to 
prevent a large cut that was being proposed in the U.S. House of 
Representatives. The arts community owes you and your colleagues a debt 
of gratitude for your public stance in support of the NEA's critical 
Federal leveraging dollars. Those dollars help support creative sector 
jobs, improve community access to high quality artistic programming, 
spur innovation, and strengthen the country's nonprofit arts 
infrastructure. Thank you again for your support.
    I want to take this opportunity to describe an improving nonprofit 
arts landscape and the role the NEA plays in that improvement. This is 
not to say there are no challenges. According to our new 2012 National 
Arts Index, nonprofit arts organizations are still struggling to 
maintain their bottom lines as Government and private-sector support 
for the arts decreases due to the economic downturn. Even as the 
country continues to move out of the worst of the recession, nonprofit 
arts organizations are not immune to the prevailing economic realities. 
45 percent of them ended the year with a deficit in 2009--an increase 
from 36 percent in 2007. Our research shows that this closely mirrors 
the recession's impact on other types of nonprofit organizations.
    But upon closer inspection of the nonprofit arts, a resilient 
industry built upon a solid foundation for future growth is revealed. 
Despite the current harsh economic landscape, the creative sector has 
maintained its well-earned reputation as one of the country's premier 
economic drivers. I am pleased to say that the nonprofit arts are 
playing a true leadership role in restoring our economy. The arts are 
about jobs. The arts are about the revitalization of communities. The 
NEA is the signature Federal resource that enables nonprofit arts 
organizations and institutions to leverage relatively modest Federal 
seed money and maximize their influence.
    You have heard me cite the numbers from our studies before, but 
they bear repeating. Especially as our elected officials are tasked 
with assessing what priorities to fund while the Nation struggles to 
balance its books and still provide essential services. Our Arts & 
Economic Prosperity III study shows that the nonprofit arts industry 
generates $166 billion in economic activity every year, supporting 5.7 
million jobs in the United States and generates nearly $30 billion in 
Government revenue.
    Since its creation in 1965, the NEA has grown the arts and culture 
sector significantly. The year of its founding, there were fewer than 
7,000 nonprofit arts organizations; today there are 113,000. Five State 
arts agencies have blossomed to 50 and some 200 local arts agencies to 
5,000. The NEA's one-to-one matching grant requirement has created a 
positive economic domino effect that promotes communities, businesses, 
and local government working in unison to deliver quality arts 
programming. And this creates jobs. Also since that time, the number of 
artists in the United States has grown from 560,000 to 2.2 million--now 
accounting for 1.5 percent of the total workforce.
    And that is just the nonprofit side of the ledger. Our analysis of 
Dun & Bradstreet data shows that there are an additional 800,000 for-
profit arts businesses such as film, design, and architecture firms 
with 3.3 million people on the payroll. Our 2012 Creative Industries 
study provides a research-based approach to understanding the scope and 
importance of the arts to the Nation's economy. Arts-centric businesses 
from nonprofit museums, symphonies, and theaters to for-profit film, 
architecture, and advertising companies represent 4.25 percent of all 
businesses and 2.15 percent of all employees nationwide.
    As of January 2012, Rhode Island is home to 3,248 arts-related 
businesses that employ 13,445 people. Alaska is home to 2,229 arts-
related businesses that employ 6,522 people. Nationally, there are 
904,581 businesses in the United States involved in the creation or 
distribution of the arts. Arts are the cornerstone of tourism. Arts 
travelers are ideal tourists--they stay longer and spend more. The U.S. 
Department of Commerce reports that the percentage of international 
travelers who include arts and culture events during their stay has 
increased annually for the last 6 years. The arts industry generates 
$150 billion annually in consumer spending domestically and the U.S. 
export of goods has increased to the point where is it running a $41 
billion trade surplus.
    As you can see, the arts are big business. The NEA is helping lead 
the way for the nonprofit aspects of this business to continue aiding 
in our Nation's recovery.
    The creative community's rate of return to Federal and State 
coffers would be the envy of any industry. Whether it is through 
supporting State arts agencies, Blue Star Museums, Art Works grants, 
the tried and true Mayors Institute on City Design (MICD), or the 
innovative Our Town initiative, the NEA is the Nation's most recognized 
partnership between the Government and culture and plays a crucial role 
in fostering a highly developed creative sector.
    The NEA, under the leadership of Chairman Rocco Landesman, has 
fully grasped the challenges of its primary role of ensuring access to 
the arts to all Americans through their signature grants but also by 
providing a range of programming and research that addresses and 
measures changing audiences and artistic delivery. The cornerstone 
grant programs like Art Works, Challenge America Fast Track Grants, and 
Our Town continue to advance distinctive cultural art forms, promote 
artistic access across the country, and help revitalize communities.
    The NEA continues to be pivotal for investments in local cultural 
programming. Chairman Landesman continues to build upon the proven 
successes of the NEA grants models with inventive agency initiatives 
that recognize the changing landscape and their unique position to help 
strengthen communities through partnerships with local and State 
governments, the business sector, and the nonprofit arts.
    With these guiding principles in mind, the creative placemaking 
concept of Our Town was born. According to the NEA, ``Communities 
across our Nation are engaging design and leveraging the arts to create 
livable, sustainable neighborhoods with enhanced quality of life, 
increased creative activity, distinct identities, a sense of place, and 
vibrant local economies that capitalize on existing local assets.'' A 
limited amount of grants ranging from $25,000 to $125,000 are made to 
improve quality of life, sustainability, and livability of communities 
with the arts as an anchor toward those goals.
    Artists, designers, community organizations and Government agencies 
work to together to systematically ``Improve their quality of life; 
Encourage creative activity; Create community identity and a sense of 
place and Revitalize local economies.''
    I want to acknowledge the work that Chairman Landesman and the 
agency have done to address the ever-changing arts landscape. Today, 
audiences are absorbing and participating in the arts in many different 
ways. The NEA is constantly evolving with the times while still 
ensuring quality arts programming reaches all our communities. We are 
excited that the administration has proposed doubling Our Town funding 
to $10 million in grant funds.
    In conclusion, I respectfully request that the Subcommittee fund 
the National Endowment for the Arts at $155 million, as you did last 
year. Recent decreases in funding have led to fewer grants and less 
leveraging support that impact jobs in every State. Recent efforts by 
the agency to streamline the grants process and trim administrative 
costs have led to incremental boosts for all grant categories across 
the board. It is my profound hope that the Subcommittee can do even 
more for citizen participation in the arts by continuing to demonstrate 
leadership, believing in the nonprofit arts sector and by supporting 
the NEA.
    The cultural community stands ready to assist you in supporting 
these fundamentally important programs and initiatives. Thank you for 
the honor of testifying before the Subcommittee today.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute

    The Nuclear Energy Institute \1\ (NEI) appreciates the opportunity 
to express its concern over the revision or enforcement of certain 
regulations promulgated, and actions taken under certain laws, by the 
Department of the Interior, the Bureau of Land Management, and the 
Environmental Protection Agency:
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute is the industry's policy 
organization, whose broad mission is to foster the beneficial uses of 
nuclear technology in its many commercial forms. Its membership, more 
than 350 corporate members in 17 countries, includes every U.S. utility 
that operates a nuclear powerplant as well as international utilities, 
plant designers, architect and engineering firms, uranium mining and 
milling companies, nuclear service providers, universities, 
manufacturers of radiopharmaceuticals, universities, labor unions and 
law firms.
---------------------------------------------------------------------------
  --EPA's infeasible requirements and prohibitively restrictive 
        definitions in the proposed rule for existing facilities 
        implementing Section 316(b) of the Clean Water Act governing 
        cooling water intake structures;
  --DOI's withdrawal of land in northern Arizona from uranium mining 
        activity;
  --BLM's proposal to amend land segregation regulations to allow 
        withdrawal of lands from mining activity when they are included 
        in a pending or future wind or solar energy generation right-
        of-way application, or identified by BLM for potential 
        authorization for that purpose;
  --BLM sage grouse habitat management in 10 Western States, which 
        could unduly restrict uranium mining activity; and
  --EPA Region 6's departure from EPA Guidelines for Reviewing Aquifer 
        Exemption Requests for mining projects and unilaterally 
        establishing its own evaluation standards.
316(b) Regulations Will Increase Consumer Electricity Prices With No 
        Environmental Benefit Unless They Are Made More Flexible to 
        Account for Ecological, Geographic and Engineering Diversity of 
        Existing Industrial Facilities
    EPA has issued a proposed regulation to reduce aquatic life 
mortality at cooling system intake structures for existing industrial 
facilities, including powerplants. The final rule is scheduled to be 
promulgated in July. The proposed regulation treats entrainment (fish 
drawn through the cooling system) and impingement (fish trapped on 
intake screens of these systems) separately. The proposed impingement 
requirements will result in the installation of costly, ineffective 
technologies with no assurance of compliance or environmental benefit. 
The EPA cost-benefit calculations indicate that the proposed rule will 
cost citizens 21 times the benefit they will derive if these changes at 
facilities are implemented. In addition, the Nation's electricity 
sector could face grid reliability challenges if the rule is 
promulgated recommending excessive mitigation technologies that could 
reduce plant efficiency and electrical output.
    Studies of aquatic life population conducted periodically at 
America's powerplants indicate that once-through cooling systems do not 
harm aquatic life populations. This is because the very small number of 
fish lost to the cooling system, when compared to the overall 
population, is readily replaced by reproduction. Any nationwide numeric 
performance standard ignores ecosystem diversity at the 1,152 affected 
sites. For instance, there are 3,153 species of fish in U.S. waters. 
Every water body has a different mix and population of fish species and 
each species differs in susceptibility to impingement and impingement 
mortality, and in behavioral responses to various technologies 
developed to prevent these occurrences.
    If EPA continues to insist upon a nationwide impingement 
requirement, it should be a technology-based standard that would 
accommodate rather than violate site diversity. The regulation should 
offer a variety of pre-approved technologies from which to choose for 
compliance. Also, there should be the opportunity to propose an 
alternative technology if it can achieve significant impingement 
mortality reduction at that site.
    The electricity industry, including companies who own and operate 
nuclear energy plants, continues to encourage EPA to develop cooling 
water intake structure regulations that strike a reasonable balance 
between electricity production and environmental protection. A 
technology-based standard for a nationwide impingement requirement 
would accommodate site bio-diversity. The proposed rule, in its current 
form, does not achieve these results. We ask the subcommittee to 
encourage EPA to adopt a technology-based standard for impingement.

DOI's Withdrawal of Land from New Uranium Mining in Northern Arizona Is 
        Unnecessary for Environmental Protection and Removes from 
        Production a Domestic Source of High-Grade Uranium for Energy 
        Security
    DOI has withdrawn from new uranium mining activity 1 million acres 
outside the boundaries of the Grand Canyon National Park, which 
encompasses 1.2 million acres and includes a buffer zone to protect the 
Grand Canyon. There is no current or proposed uranium mining inside 
Grand Canyon National Park.
    The proposed land withdrawal is not justified by information 
contained in DOI's Final Environmental Impact Statement. For instance, 
regarding land disturbance, ``impact to overall soil productivity and 
watershed function would be small because the level of disturbance 
represents a very small fraction of the respective parcel areas.'' In 
terms of water resources, ``impacts would be local and temporary.'' 
Modern in situ mining practices and standards, unlike the mining of 50 
to 60 years ago, have minimal environmental impact. Contrary to 
Secretary Salazar's statement in announcing the land withdrawal on 
January 9, today's environmental laws ensure that ore extraction and 
production at uranium mines have negligible impact on surrounding land, 
water and wildlife.
    Uranium resources in the Arizona Strip are among the highest-grade 
ores in the United States. These uranium resources are higher grade 
than 85 percent of the world's uranium resources, according to DOI's 
Final Environmental Impact Statement. The area represents as much as 
375 million pounds of uranium--more than seven times U.S. annual 
demand. NEI supports legislation introduced in the Senate and the House 
to overturn the DOI decision. NEI encourages the subcommittee to hold 
an oversight hearing on this very important issue.

BLM's Proposal to Amend Land Segregation Regulations to Allow 
        Withdrawal of Lands from Mining Activity for Wind or Solar 
        Energy Generation Violates the Multiple-Use Mandate of Federal 
        Lands, Penalizing Economic Growth and Job Creation
    The Federal Land Policy and Management Act of 1976 requires BLM to 
manage public lands to accommodate multiple uses and to provide for the 
Nation's mineral needs so that the most benefit will accrue to U.S. 
citizens. Conflicts should be resolved in favor of maximum land use and 
benefit. The BLM proposal violates the multiple-use requirement, being 
overly broad in its outright segregation of lands for renewable energy 
use only. Moreover, the amendment is unnecessary, as conflict 
resolution is possible.
    Mining and all renewable energy projects are not mutually 
exclusive. Wind energy projects and mining operations can be co-located 
and developed simultaneously. Solar projects consisting of fields of 
photovoltaic panels, on the other hand, eliminate all other uses of the 
land, including grazing, recreation, and oil and gas exploration and 
production. Photovoltaic fields also eliminate the mining of minerals, 
many of which are required for renewable energy generation and 
transmission.
    Thus, rather than BLM designating lands solely for solar projects, 
NEI urges the subcommittee to direct BLM to evaluate whether other 
potential uses of Federal land are being prevented and if benefits 
would be lost to the American public during the BLM process of 
determining sole use segregation of land for renewable energy 
production.

BLM Sage Grouse Habitat Management in 10 Western States May Unduly 
        Restrict Uranium Mining Activity
    BLM has issued two instructional memorandums regarding immediate 
and longer term conservation actions for sage grouse priority habitat 
(breeding, late brood-rearing, winter concentration areas) and general 
habitat (additional occupied seasonal or year-round areas). Both types 
of habitat are being identified in collaboration with state wildlife 
agencies.
    The affected Western States are California, Colorado, Idaho, 
Montana, Nevada, North Dakota, Oregon, South Dakota, Utah, Washington, 
and Wyoming. With about 47 million acres of sage grouse habitat 
involved, BLM's conservation efforts could have a substantial impact on 
uranium mining activity on public lands. Wyoming's guidance for sage 
grouse preservation has been approved by the Fish and Wildlife Service 
and adopted by BLM. For the other States, the interim management 
memorandum guidance instructs mining operators ``to avoid effects on 
sage grouse and its habitat.''
    According to the long-term planning directive memorandum, BLM will 
establish consistent protection measures for the sage grouse and its 
habitat. BLM will incorporate the protection measures into one or more 
alternatives for analysis in the environmental impact statements that 
BLM will use to amend its resource management plans. These plans are 
scheduled for release in 2014. NEI believes there is the potential that 
these plans will require wholesale withdrawal of lands from mining 
activities with no validity examination allowed for ongoing or future 
mining claims.
    NEI recommends close congressional oversight of the BLM process for 
releasing the Sage Grouse Habitat Management plan. In addition, NEI 
asks that the subcommittee direct BLM to adopt a balanced approach to 
sage grouse conservation that is consistent with BLM's statutory 
mandate for multiple uses of public lands and avoid or minimize adverse 
social and economic impacts.

EPA Region 6's Departure from EPA Guidelines for Reviewing Aquifer 
        Exemption Requests Will Have a Prohibitive Effect on Expanding 
        the Domestic Uranium Industry
    EPA guidance is clear regarding evaluation of requests to exempt 
aquifers from drinking water protections so that mining projects can 
proceed: (1) the exempted area does not currently serve as a source of 
drinking water and (2) it cannot now, and will not in the future, serve 
as a source of drinking water because of the presence of minerals or 
hydrocarbons expected to be commercially producible. To demonstrate 
that a particular area meets these requirements, applicants must 
perform, respectively, a water well survey covering the exempted area 
and a buffer of one-quarter mile from the exempted area's boundary, and 
provide a history of mineral production in the area.
    In the case of the Goliad County, Texas, uranium mining project, 
EPA Region 6 is requiring modeling analysis in addition to a well 
survey and history--a unilateral departure from the established EPA 
guidance. Moreover, the requested modeling is not defined, and Region 6 
says that it will review whatever modeling results are submitted to 
determine if more modeling is needed, creating an open-ended regulatory 
process.
    The new standards unilaterally imposed by Region 6 will jeopardize 
future uranium mining in Texas and limit the potential of one of this 
country's most promising domestic supplies of uranium. Moreover, this 
effect will be compounded if one, or more additional EPA regions, 
unilaterally decides to impose its own evaluation criteria counter to 
established EPA guidance.
    The nuclear industry believes that the result will be a serious 
impediment to expanding the domestic uranium industry and ensuring a 
reliable and secure supply of nuclear powerplant fuel. In addition, the 
EPA Region 6 process introduces uncertainty into well-known guidance. 
The overall result will adversely impact U.S. mining operations and 
unnecessarily restrict domestic job creation.
    NEI urges the subcommittee to direct the agency to review the 
guidelines for reviewing aquifer exemption requests to ensure that 
these guidelines are clear and the EPA regions are not unilaterally 
imposing unfunded mandates on mining companies.
                                 ______
                                 
  Prepared Statement of the National Federation of Federal Employees 
                               Local 1957

    I am writing on behalf of the National Federation of Federal 
Employees (NFFE) Local 1957, the bargaining unit for the National 
Minerals Information Center (NMIC), USGS, Reston, Virginia. The 
President's proposed fiscal year 2013 budget for the USGS includes a 
$1.2 million cut (8 percent) to the NMIC's current funding level of 
$14.8 million, and $3.96 million (8 percent) cut from $49.2 million for 
the entire Mineral Resource Program (MRP), of which we are a part. This 
is on top of the enacted fiscal year 2012 MRP budget cut of $2.94 
million, of which $588,000 is expected to be allocated to the National 
Minerals Information Center. We have three things to ask of you.
    First: Reject the proposed fiscal year 2013 budget cuts to the USGS 
National Minerals Information Center and, at a minimum, set the fiscal 
year 2013 at the fiscal year 1996 funding level of $16 million.
    The proposed budget cut would render NMIC ineffectual and the USGS 
noncompliant with its congressional mandate by severely limiting NMIC's 
international information function. Without international data, NMIC's 
ability to meet its core mission--to collect, report, and analyze data 
on the supply of nonfuel minerals critical to the Nation's economic and 
defense needs--would be severely and irreparably compromised. This is 
because of the global nature of the minerals industry. The U.S. import 
dependence for most strategic and critical nonfuel minerals and metals 
exceeds 75 percent, which is greater than the country's dependence on 
foreign oil. In 2011, NMIC found that U.S. import reliance was more 
than 50 percent for 43 minerals critical to national security and the 
U.S. economy. Of those, the import reliance was 100 percent for 19 
minerals.
    With limitations to NMIC's international function, the USGS, 
therefore, could not fulfill its congressional mandate to assure there 
is an adequate and dependable supply of mineral materials for national 
defense, as established by The Defense Production Act of 1950, as 
amended (1980 and 1992).
    NMIC would lose an estimated 10 FTEs on top of the 11 incurred in 
fiscal year 2012, which would require a reduction in force. This would 
result in the loss of existing expertise and the inability to attract 
new hires for succession planning. Commodity and country report 
coverage would also be significantly reduced. NMIC is relied upon as an 
objective source of nonfuel minerals information and expertise by 
Federal, State, and local governments, as well as by private, academic, 
and nongovernmental organizations. NMIC produces more than 800 reports 
per year covering nonfuel minerals, including Mineral Commodity 
Summaries for the congressional offices. In 2011, our Web site had 
about 14.5 million hits and more than 9.7 million publication 
downloads.
    Second: Add $7.7 million to NMIC's fiscal year 2012 funding level 
for a total of $22.5 million. We would not ask for added funding in a 
time of such record deficits if we did not sincerely believe it was 
necessary. NMIC is unique to the Federal Government--it is the only 
comprehensive source of nonfuel mineral analysis to the Nation. In 
fiscal year 1996, Congress recognized this fact when it transferred the 
NMIC function to the USGS from the former U.S. Bureau of Mines with 
specific responsibility for analyses of domestic and foreign mineral 
supplies. Since then, NMIC has endured a continually shrinking budget 
both in current and real terms (1996 dollars). NMIC's budget has 
declined by 36 percent in real dollars to $10.3 million through fiscal 
year 2012. The proposed fiscal year 2013 budget would result in a 41 
percent reduction in NMIC funding from that of fiscal year 1996 to $9.5 
million in real dollars (Figures 1 and 2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Figure 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 2.

    Compounding the problem, NMIC has had to absorb mandated increases 
in salaries and cost of living adjustments. Not surprisingly, filled 
FTE positions have fallen--by 33 percent (55 positions) from fiscal 
year 1996 to fiscal year 2012. Quite frankly, NMIC is now at the point 
that even flat levels of funding will prevent the group from fully 
accomplishing its mission. Additional funding would allow NMIC to make 
much needed improvements, such as increasing the voluntary reporting of 
mineral production and consumption by U.S. companies; upgrading its 
data management system; and expanding data collection and analysis 
further down the supply chain.
    Third: Support Realignment of NMIC within the Federal Government so 
NMIC can be more autonomous, adaptable, and stable. NMIC's budget has 
been arbitrarily maintained at roughly 30 percent of the USGS MRP 
budget since fiscal year 1996. This is despite increasing requests for 
further collaboration by NMIC customers and recommendations by the 
National Research Council in 2008 in the report, ``Minerals, Critical 
Minerals, and the U.S. Economy,'' as well as the 2011 report by the 
American Physical Society and Materials Research Society entitled, 
``Energy Critical Elements: Securing Materials for Emerging 
Technologies.'' The 2008 report recommended that ``the Federal 
Government should continue to carry out the necessary function of 
collecting, disseminating, and analyzing mineral data and information. 
The USGS Minerals Information Team [now National Minerals Information 
Center] . . . should have greater authority and autonomy than at 
present. It also should have sufficient resources to carry out its 
mandate . . .''
    NMIC has never been well supported by the USGS. In addition to the 
proposed fiscal year 2013 budget cuts, NMIC and MRP budgets were 
proposed to be reduced in fiscal year 2004-2009. Prior Congresses 
strongly rejected those attempts. For example, the 2006 congressional 
joint committee managers wrote, ``[we] strongly disagree with the 
Administration's proposed reductions to the mineral assessment program 
and believe it irresponsible for the Administration to decrease or 
eliminate funding for what is inherently a Federal responsibility.'' 
(See Box 1 for our rebuttal to several of the principles used to 
prioritize the fiscal year 2013 budget.)
    NMIC realignment would greatly enhance its position as the leading 
Government source of nonfuel minerals information and analyses. See Box 
2 for additional rationale and options.
    Thank you for your consideration of these issues that affect both 
our Union's and the Nation's interests.

    ----------------------------------------------------------------

      Box 1: Rebuttal to Fiscal Year 2013 USGS Budget Formulation
    The USGS budget justification for fiscal year 2013 states that the 
2013 budget ``builds on the core historical mission of the USGS''. NMIC 
and the MRP were one of only several USGS programs slated for reduction 
in fiscal year 2013--this at a time when the USGS would receive greater 
than a 3 percent increase in funding to $1.1 billion.
    Some of the principles used to prioritize the fiscal year 2013 USGS 
budget formulation include:
  --Maintaining programs that are unique to the USGS and conducted on 
        behalf of the Nation;
  --Retaining programs that are legislatively mandated; and
  --Aligning targeted increases with emerging science priorities that 
        are of national and global significance.
    Principle 1 is met. NMIC is the only group within the Federal 
Government that provides comprehensive nonfuel mineral analyses for the 
Nation.
    Principle 2 is met. The NMIC function is mandated by Defense 
Production Act of 1950, as amended; various sections under Title 30 of 
the U.S. Code (U.S.C.)--Mineral Lands and Mining; and section 98 of 50 
U.S.C.--Strategic and Critical Materials Stock Piling Act of 1946, as 
amended.
    Principle 3 is met. The increasing need for more and more minerals 
information by NMIC is well documented. This has been recognized by the 
National Research Council in its 2008 report, ``Minerals, Critical 
Minerals, and the U.S. Economy,'' and the 2011 report by the American 
Physical Society and Materials Research Society entitled, ``Energy 
Critical Elements: Securing Materials for Emerging Technologies''. 
Further, Congress introduced 7 bills in 2011 alone regarding the need 
for additional studies by the USGS on the availability and use of rare 
earth elements (REE) and other critical mineral materials.

    ----------------------------------------------------------------

    ----------------------------------------------------------------

             Box 2: NMIC Realignment Rationale and Options

    NMIC is artificially located within a sub-regional reporting 
structure within the USGS. Such a reporting structure is contrary to 
NMIC's assessment of mineral materials availability for the United 
States within national and international contexts. This forces some 
NMIC resources to be diverted on unrelated activities that could be put 
to better use for the USGS, such as improving the voluntary reporting 
of mineral production and consumption by U.S. companies; upgrading the 
data management system; and expanding data collection further down the 
supply chain.
    NMIC's research is fundamentally different from other programs 
within the USGS. NMIC's research necessarily requires strong economic 
and social-science expertise that is quite different from traditional 
USGS scientific investigations. The mainstay of NMIC information comes 
from regional, commodity, and minerals industry analysts with 
multidisciplinary backgrounds (chemists, economists, engineers, 
geologists, etc.).
    NMIC's mission is fundamentally different from most other USGS 
programs. NMIC's mission requires quick turnaround, high-volume data 
gathering, analysis, and dissemination, unlike the research and 
assessment component of the MRP and many other USGS programs, which 
engage in long-term, project-oriented, fundamental scientific studies.
    Options for realignment include:
  --Reporting directly to the Office of Director, USGS. NMIC would have 
        greater flexibility to enable USGS management to respond to 
        mineral issues of national and international significance and 
        in seeking cross-disciplinary solutions to these issues.
  --Reporting directly to the Office of Secretary, Department of the 
        Interior. This would be similar to how the Energy Information 
        Administration is organized under the Department of Energy.
  --Transfer to some other Federal agency.

    ----------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit testimony regarding fiscal year 2013 funding for 
the National Fish and Wildlife Foundation (NFWF). NFWF's fiscal year 
2013 appropriations request will be matched dollar for dollar with non-
Federal funds to conserve fish, wildlife and their habitats through 
local partnerships.
    We believe that NFWF is a sound investment in a time of constrained 
budgets because of our proven track record and statutory requirement to 
leverage Federal funding with private contributions to maximize 
conservation benefit. We appreciate the Subcommittee's past support and 
respectfully request your approval of funding at the following levels:
  --$7.525 million through the U.S. Fish and Wildlife Service's 
        Resource Management General Administration appropriation;
  --$3 million through the Bureau of Land Management's Management of 
        Lands and Resources appropriation; and
  --$3 million through the Forest Service's National Forest System 
        appropriation.
    Since its inception, NFWF has leveraged nearly $576 million in 
Federal funds into $2 billion in on-the-ground and in-the-water 
conservation with less than 5 percent aggregate overhead to the Federal 
Government and fewer than 100 staff nationwide.
    NFWF was established by Congress in 1984 to catalyze private 
investments to conserve fish, wildlife and their habitats. NFWF is 
required by law to match each federally appropriated dollar with a 
minimum of one non-Federal dollar. We consistently exceed this 
requirement by leveraging Federal funds at a 3:1 average ratio while 
building consensus and emphasizing accountability, measurable results, 
and sustainable conservation outcomes.
    The goal of NFWF is to ensure abundant wildlife species in order to 
allow the economic health of our Nation to continue. The key elements 
of our approach include: (1) leverage, (2) efficiency, (3) 
partnerships, (4) transparency, and (5) measurable outcomes.
    A positive example of this approach is our ongoing response to the 
2010 Deepwater Horizon oil spill. As you know, NFWF took immediate 
action following the oil spill to help protect the species most at 
risk. NFWF's long-standing relationships with Federal and State 
agencies, scientists, and on-the-ground conservation organizations were 
invaluable in assessing local wildlife needs and shaping effective 
responses. In the first phase of its gulf response, NFWF invested in 22 
projects which are now delivering results in Louisiana, Mississippi, 
Alabama, Florida and Texas. This first phase of projects was financed 
using $8.8 million from the Recovered Oil Fund for Wildlife, 
established by BP with proceeds from the sale of oil recovered from the 
spill site, as well as a $2.25 million commitment from Walmart. Since 
then, NFWF has invested an additional $14.1 million from the Recovered 
Oil Fund for Wildlife and other sources--$22.9 million total--to 
bolster populations of species affected by the spill in advance of 
formal restoration efforts. These investments have helped to pilot 
cost-effective conservation approaches and build capacity in the region 
to sustain conservation outcomes. With our Federal and private 
partners, more than 500,000 acres of coastal of freshwater wetland 
habitat was established to benefit a variety of migratory birds. Other 
investments have increased the number of sea turtle hatchlings by over 
100,000 and are ensuring the survival of an additional 800-1,000 adult 
and juvenile sea turtles annually.

                           NFWF PARTNERSHIPS

    With the Subcommittee's support, fiscal year 2013 funds will 
support our long-standing partnerships and new initiatives with the 
U.S. Fish and Wildlife Service (FWS), Bureau of Land Management (BLM), 
and Forest Service (FS). Some of our priority initiatives for fiscal 
year 2013 are described below.
    Longleaf Pine Ecosystem.--Building on nearly a decade of investment 
to protect and restore vanishing longleaf pine forests in the 
southeastern United States, NFWF established the Longleaf Stewardship 
Fund in 2011. This landmark public-private partnership will award 
approximately $3 million in fiscal year 2012 with support through the 
U.S. Fish and Wildlife Service, Forest Service, USDA's Natural 
Resources Conservation Service, U.S. Department of Defense, and 
Southern Company. With the combined financial and technical resources 
of the public-private partnership, the expanded program will support 
accelerated restoration of the longleaf pine ecosystem and 
implementation of the Range-Wide Conservation Plan for Longleaf Pine. 
NFWF is working with partners to establish specific measurable 
conservation goals that can be tracked over time. These goals will 
support the recovery of important keystone species of the longleaf pine 
ecosystem including red cockaded woodpecker, gopher tortoise and 
Northern bobwhite quail and advance specific habitat restoration goals 
outlined in the Range-Wide Plan.
    Chesapeake Bay, Great Lakes, and Long Island Sound.--Watershed 
health plays an important role in fish and wildlife conservation and 
has been a feature of NFWF's grantmaking since establishing our 
partnership with the Environmental Protection Agency (EPA) in 1998. In 
the last decade, NFWF has formed strategic public-private partnerships 
to restore and protect fish and wildlife habitat while improving water 
quality in the Chesapeake Bay, Great Lakes, and Long Island Sound. 
Federal partners in the programs include EPA, Department of the 
Interior agencies, Forest Service, USDA's Natural Resources 
Conservation Service, NOAA, and others. NFWF leverages various Federal 
funds for these partnerships but, more importantly, has attracted 
private contributions from corporations and other private foundations. 
Through these partnerships, Federal agencies are able to leverage 
resources with NFWF's corporate sponsors to increase the impact any one 
of them could have alone. NFWF's watershed grant programs continued 
positive results in 2011 with priority project requests far exceeding 
available funds.

        JOBS AND ECONOMIC BENEFITS FROM CONSERVATION INVESTMENTS

    In 2011, NFWF commissioned a report by Southwick Associates that 
revealed that investments in natural resource conservation have a 
strong positive impact on local jobs and economies. The report examines 
existing data on the economic value of natural resource conservation, 
outdoor recreation and historic preservation. It calculates the total 
U.S. economic impact of these three areas as $1.06 trillion. This 
includes 9.4 million jobs and $107 billion in Federal, State and local 
tax revenues.

                          NFWF REAUTHORIZATION

    The National Fish and Wildlife Foundation Reauthorization Act (S. 
1494) was introduced in August 2011 with strong bipartisan support. S. 
1494 renews NFWF's direct appropriations authorization level of $30 
million for an additional 5 years. The $30 million authorization 
includes $20 million annually through the Department of the Interior; 
$5 million annually through the U.S. Department of Agriculture (USDA); 
and $5 million annually through the Department of Commerce. S. 1494 
affirms the original purposes of NFWF and strengthens NFWF's ability to 
raise private dollars, work with Federal agencies more effectively, 
reduce bureaucratic burdens, and maximize conservation outcomes. 
Importantly, S. 1494 will ensure NFWF's ability to save money for the 
Federal Government through efficient grant administration, effective 
collaboration, and significant leverage through private sector 
contributions.
    S. 1494 is sponsored by Chairwoman Boxer and includes the following 
co-sponsors: Baucus (D-MT), Bingaman (D-NM), Cardin (D-MD), Cochran (R-
MS), Collins (R-ME), Murkowski (R-AK), Roberts (R-KS), Snowe (R-ME), 
Tester (D-MT), Thune (R-SD), Udall (D-NM), and Whitehouse (D-RI). A 
legislative hearing by the Senate Committee on Environment and Public 
Works was held on April, 24 2012. A companion bill in the House of 
Representatives is pending.

                               CONCLUSION

    For nearly three decades, NFWF has been at the forefront of 
national conservation activity. With our partners, NFWF has contributed 
to some of the Nation's most important conservation programs, invested 
millions in worthy and successful projects, and spearheaded programs to 
conserve our Nation's most treasured natural resources. We have a 
successful model of coordinating and leveraging Federal funds and 
attracting support from the private sector to address the most 
significant threats to fish and wildlife populations and their 
habitats. NFWF currently has partnerships with 14 Federal agencies and 
more than 50 corporations and private foundations.
    Meaningful and measurable outcomes, evaluation, and accountability 
are NFWF's building blocks to ensure maximum conservation impact. We 
are working directly with the Federal agencies and our other partners 
to maximize results and produce sustainable conservation outcomes. To 
that end, the Foundation is incorporating monitoring and evaluation 
into our programs to measure progress, promote adaptive management, 
demonstrate results, and continuously learn from project investments. 
We look forward to building on our partnerships with FWS, BLM and FS in 
fiscal year 2013 and appreciate the Subcommittee's continued support of 
these collaborative efforts.

          BACKGROUND ON NATIONAL FISH AND WILDLIFE FOUNDATION

    As of fiscal year 2011, the Foundation has awarded over 11,600 
grants to national and community-based organizations through successful 
partnerships with the Department of the Interior agencies, USDA's 
Forest Service and Natural Resources Conservation Service, the 
Environmental Protection Agency, the National Oceanic and Atmospheric 
Administration, and others. This collaborative model brings together 
multiple Federal agencies with State, tribal and local governments and 
private organizations to implement coordinated conservation strategies 
in all 50 States.
    We work directly with Federal and State agencies and our other 
partners to measure progress, promote adaptive management, demonstrate 
results, and continuously learn from project investments. NFWF's grant-
making involves a thorough internal and external review process. Peer 
reviews involve Federal and State agencies, affected industry, 
nonprofit organizations, and academics. Grants are reviewed by the 
NFWF's science and evaluation team before being recommended to the 
Board of Directors for approval. By law, congressional offices are 
notified 30 days in advance of any grant that will be given out in 
their district or State that includes more than $10,000 in Federal 
funds.
    Mr. Chairman, we greatly appreciate your continued support and hope 
the Subcommittee will approve funding for the Foundation in fiscal year 
2013.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association

    The National Ground Water Association (NGWA) requests that $10 
million be included in the U.S. Geological Survey's (USGS) Groundwater 
Resources Program account to begin implementation of a national 
groundwater monitoring network. NGWA is the world's largest association 
of groundwater professionals, representing public and private sector 
engineers, scientists, water well contractors, manufacturers, and 
suppliers of groundwater-related products and services.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. In the United States, 78 percent of 
community water systems, nearly all of rural America's private 
household wells; and 42 percent of agricultural irrigation water are 
supplied by groundwater. While the Nation's people, food supply, 
economy and ecosystems depend on groundwater, no systematic nationwide 
monitoring network is in place to measure what is currently available 
and how groundwater levels and quality may be changing over time. As 
with any valuable natural resource, our groundwater reserves must be 
monitored to assist in planning and minimizing potential impacts from 
shortages or supply disruptions. Just as one cannot effectively oversee 
the Nation's economy without key data; one cannot adequately address 
the Nation's food, energy, economic, and drinking water security 
without understanding the extent, availability and sustainability of 
the critical commodity--groundwater.
    In the face of current and anticipated water supply shortages, 
public and private sector water professionals have put out the call 
over the years for increased groundwater monitoring and the 
dissemination of the resulting data to the Nation.\1\ And the need to 
take action continues to this day.\2\ \3\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. Freshwater Supply: 
States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Shortages. (GAO-03-514). July 2003. Page 1.
    \2\ White House Council on Environmental Quality. Progress Report 
of the Interagency Climate Change Adaptation Task Force: Recommended 
Actions in Support of a National Climate Change Adaptation Strategy. 
October 5, 2010. Page 11.
    \3\ U.S. Government Accountability Office. Energy-Water Nexus: A 
Better and Coordinated Understanding of Water Resources Could Help 
Mitigate the Impacts of Potential Oil Shale Development. (GAO-11-35). 
October 2010. Page 39.
---------------------------------------------------------------------------
    Congress responded to these requests for enhanced groundwater 
monitoring by authorizing a national groundwater monitoring network 
with passage of Public Law 111-11 (Omnibus Public Land Management Act) 
in 2009. In 2010, six States \4\ voluntarily pilot tested concepts for 
a national groundwater monitoring network as developed by the Federal 
Advisory Committee on Water Information's (ACWI) Subcommittee on Ground 
Water (SOGW). If this effort moves forward, consistent, comparable 
nationwide data would become accessible through a web portal for 
Federal, State, local government and private sector users. In these 
tight fiscal times, the proposed network would build on existing State 
and Federal investments, maximizing their usefulness and leveraging 
current dollars to build toward systematic nationwide monitoring of the 
groundwater resource.
---------------------------------------------------------------------------
    \4\ The six pilot States were Illinois, Indiana, Minnesota, 
Montana, New Jersey, and Texas. Additionally, Idaho, North Carolina, 
South Carolina, Washington and Wyoming volunteered as pilots but were 
not included given limited oversight resources.
---------------------------------------------------------------------------
    The administration's fiscal year 2013 USGS budget request allocates 
$2.5 million under the heading National Ground Water Monitoring 
Network. But the UGSG budget justification suggests spreading these 
funds over three different programs--the National Ground Water 
Monitoring Network, a groundwater climate response network, and a 
Brackish Aquifer Assessment. Apart from the other two programs 
referenced, as part of the fiscal year 2013 Ground Water Resources 
Program, we ask the Subcommittee to allocate $10 million exclusively 
for the National Ground Water Monitoring Network to do the following:
  --Provide grants to regional, State, and tribal governments to cost 
        share increased expenses to upgrade monitoring networks for the 
        50 States to meet the standards necessary to understand the 
        Nation's groundwater resources. The shared funding arrangements 
        should be modeled after highly successful cooperative programs 
        (e.g. STATEMAP) that already exist between the U.S. Geological 
        Survey and States; and
  --Support the additional work necessary for USGS to manage a national 
        groundwater monitoring network and provide national data access 
        through an Internet web portal.
    The redirection of an appropriation of $10 million for groundwater 
monitoring requested here is small in comparison to the entirety of the 
Department of the Interior's appropriations. But the $10 million 
appropriation is vital when we understand that for a small investment 
we can begin finally to put in place adequate monitoring of the hidden 
resource that provides nearly 40 percent of the Nation's drinking water 
supply. Thank you for your consideration of this request.
    The National Ground Water Association is a not-for-profit 
professional society and trade association for the groundwater 
industry. NGWA is the largest organization of groundwater professionals 
in the world. Our members from all 50 States and 72 countries include 
some of the leading public and private sector groundwater scientists, 
engineers, water well contractors, manufacturers, and suppliers of 
groundwater related products and services. The Association's vision is 
to be the leading community of groundwater professionals that promotes 
the responsible development, use and management of groundwater 
resources.
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance

                            FUNDING OVERVIEW

    For fiscal year 2013 the National Humanities Alliance strongly 
urges the subcommittee to provide no less than $154.3 million in 
funding for the National Endowment for the Humanities, the same amount 
requested by the Administration. This represents an $8.2 million 
increase over the final fiscal year 2012 appropriation ($146 million). 
The NEH budget has suffered a significant funding reduction over the 
last 2 years--more than $21 million (13.2 percent) between fiscal year 
2010 and fiscal year 2012, almost entirely in program funds. In 
addition, the agency is still trying to recover from cuts totaling 
nearly 40 percent that were made in the mid-1990s.
    At its nominal funding peak in fiscal year 1994, NEH's total budget 
was equivalent to $271.5 million in 2012 inflation-adjusted dollars. At 
its peak in real dollars in fiscal year 1979, the agency's 
appropriation equaled $455.8 million in current dollars--three times 
the fiscal year 2012 level.

                    IMPACT OF THE PRESIDENT'S BUDGET

    Program Funds.--At the level proposed by the Administration, the 
fiscal year 2013 NEH budget would nearly equal its fiscal year 2011 
level ($154.7 million). However, the proposed increase would still 
restore only $5 million in program funds, which are proposed at $124 
million in fiscal year 2013, compared to $118.6 million enacted for 
fiscal year 2012 (still far below the $140 million enacted for fiscal 
year 2010). The remaining $3 million of the proposed increase for 
fiscal year 2013 would be set aside for administration to help cover 
anticipated relocation costs associated with the pending redevelopment 
of the Old Post Office.
    Competitive Grants.--Within the President's request, funding for 
NEH competitive grants would increase by $2.6 million, from $68.8 
million in fiscal year 2012 to $71.4 million in fiscal year 2013. This 
includes small increments for each of the NEH's core program divisions 
and offices: Research, Education, Preservation & Access, Challenge 
Grants, Digital Humanities, and Public Programs. We are pleased to see 
these increases, as we have been especially concerned about the long-
term erosion of funding suffered by competitive grants programs, which 
stand at only 40 percent of their value (in real dollars) in fiscal 
year 1994.
    Although modest, the increments proposed by the President would 
have a significant impact. For example, at the proposed fiscal year 
2013 level, the NEH Research Division could make 24 more awards than in 
fiscal year 2012. This means that an additional 22 individual scholars 
could receive fellowships, and two more collaborative research projects 
could receive continuing support. This kind of support is vital for 
humanities faculty. It enables recipients to devote themselves to 
intensive, systematic research--the kind of research needed to produce 
new understandings of American and world history and literature. NEH's 
continuing support can enable a long-term project to continue, 
leveraging additional institutional support, and providing unique 
research opportunities for participating graduate and undergraduate 
students. Similarly, the NEH Education Research Division could enable 
265 additional teachers to revitalize their knowledge of the humanities 
through participation in summer workshops; approximately 33,000 high 
school students would benefit from this valuable professional 
development for teachers.

                             NATIONAL NEEDS

    The NEH founding legislation articulates the imperative of Federal 
support for the humanities: ``An advanced civilization must not limit 
its efforts to science and technology alone, but must give full value 
and support to the other great branches of scholarly and cultural 
activity in order to achieve a better understanding of the past, a 
better analysis of the present, and a better view of the future.'' At a 
time when globalization has connected the world's societies and 
economies, and when America plays a central role in political 
developments in every continent, the wisdom of this statement is more 
evident than ever. We cannot afford to abandon the study of America's 
and the world's languages and literatures, religions and governments, 
traditions and innovations. Without the knowledge that the humanities 
provide, we cannot understand our own past or the present condition of 
the world.
    We do our humanities work well in the United States. American 
higher education remains the best in the world--a beacon for students 
across the liberal arts disciplines and an inspiration for the teaching 
and modeling of creative and critical thinking. The research funded by 
the NEH is essential to maintaining that standing, which enables 
American universities to attract students from every continent eager 
for the value of an American liberal education.
    This is not, however, an argument for complacency; it is not a 
defense of the status quo. The same technological forces that are 
transforming the physical, biological, and social sciences are 
transforming the humanities as well. Humanists are using the new 
resources of the digital age to reformulate age-old questions about 
human experience and find new answers for them; to explore new ways of 
making the humanities accessible and relevant. The NEH has played a 
leading role in supporting this work, not only financially but through 
such initiatives as its acclaimed ``EDSITEment'' web site, which 
effectively spreads the word about the superb digital resources that 
NEH grants have made available to teachers.
    The NEH's impact extends well beyond our classrooms and research 
institutes. The humanities are a lifelong enterprise and a public 
resource. America's museums, libraries, and other cultural institutions 
play a central role in humanities education. Partly thanks to the NEH, 
they now offer a range of digital resources that have already 
transformed the way in which the general public discovers and 
experiences the past and the world of culture. Like universities, these 
institutions can do more--especially if the NEH, which has played a 
vital role in mobilizing new digital techniques and designing more 
creative approaches to the integration of educational and cultural 
institutions, can continue to support these efforts.

                              THE NEH ROLE

    The NEH is the lead Federal agency with the mission to create, 
preserve, and disseminate knowledge in the humanities--knowledge that 
is essential to healthy public culture in a democratic society. Each 
year, NEH awards hundreds of competitive, peer-reviewed grants to a 
broad range of nonprofit educational organizations and institutions, 
and to individual scholars, throughout the country. Grantees include 2- 
and 4-year colleges, universities, research institutes, museums, 
historical societies, libraries, archives, scholarly associations, K-12 
schools, television/film/radio producers, and more. These grants help 
support educational advancement; professional development; and 
institutional activities for thousands of students, teachers, faculty, 
and others engaged in the humanities in communities across the United 
States every year. By enhancing the work of our cultural institutions, 
colleges, and universities, they create jobs because such institutions 
attract tourists and students from abroad. The American economy, as 
much as its public culture, benefits from high quality work in the 
humanities.
    The NEH stands at the center of much of this work. The reputation 
of the NEH's peer review process helps its grantees attract significant 
non-Federal funding for humanities projects nationwide. NEH funded 
projects attract and benefit from further support provided by 
corporations and foundations. These funders view NEH peer review as a 
certification of quality.
    But the support that the NEH can provide for such projects today 
does not meet the needs of our Nation's best work in the humanities. 
The demand for humanities project support far exceeds available 
funding, rendering NEH grants extremely competitive. In fiscal year 
2011, NEH received 5,710 grant proposals representing $552.6 million in 
requested funds, but could fund only 905 (15.8 percent) of these 
applications. This figure is strikingly low when compared to recent 
rates as high as 32 percent reported by grant-making agencies like the 
National Science Foundation.
    Underfunding is pervasive. There is too little money for digital 
humanities projects, which often represent the cutting edge in teaching 
and research, and for the public film, radio, television and digital 
media projects that reach a national public; for professional 
development for teachers who need (and want) to learn how to use new 
media in humanities education; for preserving great collections, many 
of them fragile and in need of conservation, as State support dwindles; 
for challenge grants to help institutions build their own capacities 
and offer the kind of leverage that attracts new donors and builds 
habits of philanthropy; and for the individual fellowships and 
collaborative research projects that promote new understandings of the 
past and the present. Without stronger support, enterprises from 
university research to public education will lose capacity, and as they 
do our ability to deal with the complexities of the world will dwindle.

                               CONCLUSION

    The National Humanities Alliance is grateful for the opportunity to 
submit testimony on behalf of funding for the National Endowment for 
the Humanities.
    This Subcommittee stands as steward to many of our Nation's 
greatest shared cultural and natural resources, and we recognize that 
you face especially difficult and complex choices in crafting the 
fiscal year 2013 Interior appropriations bill. We are also deeply 
grateful for the strong support that the Subcommittee has demonstrated 
for the NEH over the years. We hope that you will continue to consider 
the NEH as a vital investment in the Nation's global competitiveness, 
the strength and vitality of our civic institutions, the preservation 
and understanding of our diverse cultural heritage, and the lives of 
our citizens. Thank you for the opportunity to be heard.
    The National Humanities Alliance was founded in 1981 to advance 
public support for the humanities. With 104 organizational and 
institutional members, the Alliance encompasses a broad range of 
humanities-related disciplines and institutions, and is the only 
organization that represents the humanities community as a whole. Its 
members, and the thousands of teachers, scholars, humanities 
organizations and institutions they represent, use NEH grants to 
maintain a strong system of academic research, education and public 
programs in the humanities.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide written testimony on the fiscal year 2013 
Interior, Environment and Related agencies appropriations. My name is 
Billy Frank, Jr. and I am the Chairman of the Northwest Indian 
Fisheries Commission (NWIFC). The NWIFC is comprised of the 20 tribes 
that are party to the United States vs. Washington \1\ (U.S. vs. 
Washington). To meet the many natural resource management 
responsibilities required of the tribes, I submit the following 
requests for the Bureau of Indian Affairs (BIA) and the Environmental 
Protection Agency (EPA).
---------------------------------------------------------------------------
    \1\ United States vs. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
           SUMMARY OF FISCAL YEAR 2013 APPROPRIATIONS REQUEST

Bureau of Indian Affairs
            Rights Protection Implementation
    Provide $17.146 million for BIA Western Washington Fisheries 
Management
    Provide $2.777 million for BIA Washington State Timber, Fish and 
Wildlife (TFW)
    Provide $4.8 million for BIA U.S./Canada Pacific Salmon Treaty 
(PST) Implementation
    Provide $2.4 million for BIA Salmon Marking
            Fish, Wildlife and Parks
    Provide $5.452 million for BIA Fish Hatchery Maintenance
            Contract Support
    Provide $228 million for BIA Contract Support
Environmental Protection Agency
    Provide $96.375 million for EPA General Assistance Program (GAP)
    Provide $20 million for EPA Multi-media Tribal Implementation 
Grants Program
    Provide $50 million for EPA Puget Sound
National Requests
    We also support the budget priorities and funding requests of the 
National Congress of American Indians.

         TREATY RIGHTS AT RISK AND THE FEDERAL TRUST OBLIGATION

    Before providing justification on our specific funding requests, I 
want to highlight an initiative that we have been pursuing--our Treaty 
Rights at Risk initiative. The treaty rights of the western Washington 
treaty tribes to harvest salmon are in imminent danger. The danger 
exists due to the inability to restore salmon habitat faster than it is 
being destroyed. The Federal Government has an obligation to the tribes 
to protect their constitutionally based treaty rights. By fulfilling 
these Federal obligations and implementing our requested changes to 
protect and restore salmon habitat, I have no doubt that we will 
recover the salmon populations. It is imperative that we are successful 
with this initiative as salmon are critical to the tribal cultures, 
traditions and their economies.
    The tribes have developed sophisticated natural resource programs 
designed to protect and enhance their treaty rights. Tribal programs 
have served as the backbone of salmon recovery, providing the 
technical, policy and legal framework for this incredibly difficult 
task. Tribes perform complicated harvest, hatchery and habitat 
management tasks that neither the state nor the Federal Government can 
effectively carry out. It is because of the role that tribes play in 
protecting their rights that they require adequate, long-term, and 
stable funding.
    We are pleased that the fiscal year 2013 President's budget 
continues to be supportive of the northwest tribes' natural resources 
funding requests. On behalf of our 20 member tribes, our specific 
requests to the fiscal year 2013 natural resource management programs 
contained in the BIA and EPA are further described below.
                       justification of requests
Bureau of Indian Affairs
            Provide $17.146 million for BIA Western Washington 
                    Fisheries Management
    Over the past several years, the tribes and the NWIFC have 
requested an increase of $12 million in the base Western Washington 
Fisheries Management program (WW). In fiscal year 2010, Congress heard 
our plea and increased the national Rights Protection Implementation 
account by $12 million with $3.386 million of this going to the WW 
Program. This increase was very much appreciated, however, we once 
again ask Congress to address the remaining identified needs of the 
NWIFC and our member tribes. The President's fiscal year 2013 budget 
contains $8.66 million. We respectfully request $17.146 million, an 
increase of $8.486 million over the President's fiscal year 2013 
budget. This request is consistent with our needs assessment presented 
in fiscal year 2010. This will provide new monies for shellfish, 
groundfish, enforcement, habitat, wildlife and other natural resource 
management needs.
            Provide $2.777 million for BIA Washington State Timber, 
                    Fish and Wildlife (TFW)
    The Timber-Fish-Wildlife Agreement is one of the most successful 
models of collaboration in natural resource management. This 
coordinated approach of private forest landowners, environmental 
groups, and tribal, State and Federal governments has led to greater 
integration of management responsibilities that ensures protection for 
salmon and wildlife while allowing for a financially viable timber 
industry. Tribes need the ability to participate in this process to 
help develop consensus-based solutions for natural resource management 
and landowner issues. The President's fiscal year 2013 budget contains 
$2.777 million. We support funding this account at $2.777 million as 
requested in the President's fiscal year 2013 budget. This will provide 
the necessary funding to tribal TFW programs to fully participate in 
the TFW process.
            Provide $4.8 million for BIA U.S./Canada Pacific Salmon 
                    Treaty (PST) Implementation
    The Pacific Salmon Treaty Act of 1985 charges the United States 
Section of the Pacific Salmon Commission with the responsibility for 
implementation of the Pacific Salmon Treaty, a bilateral treaty with 
Canada. Tribes assist in meeting the Federal Government's obligations 
in implementing the treaty by participating in cooperative research and 
data gathering programs. The President's fiscal year 2013 budget 
contains $4.364 million. We support the U.S. Section's recommendation 
to fund the BIA at $4.8 million, an increase of $436,000 over the 
President's fiscal year 2013 budget. This will provide sufficient 
funding to ensure that the tribes can continue to participate 
effectively in the bilateral PST process.
            Provide $2.4 million for BIA Salmon Marking
    These funds are used to mark salmon at tribal hatcheries, which are 
used to scientifically monitor salmon populations and watersheds in 
western Washington. This is necessary due to the Federal requirement to 
mass mark Pacific salmon reared in facilities funded by Federal 
dollars. The President's fiscal year 2013 budget contains $1.068 
million. We respectfully request an additional $1.332 million to fully 
implement more extensive selective fisheries targeted at these marked 
fish. This is the true need as determined by the tribes to meet the 
request of Congress.
            Provide $5.452 million for BIA Fish Hatchery Maintenance
    Tribal fish hatcheries in western Washington are part of the 
largest fish hatchery system in the world. These hatcheries provide 
fish that significantly contribute to both non-Indian recreational and 
commercial harvest, as well as for tribal fisheries. Today, hatcheries 
also play a large role in recovering pacific salmon, many of which are 
listed under the Endangered Species Act. A comprehensive needs 
assessment study was conducted in fiscal year 2006 by the BIA at the 
request of Congress which identified a level of need of over $48 
million in necessary hatchery maintenance and rehabilitation costs. 
This account has been increased over the last few years to better 
reflect the tribal need and the backlog of maintenance projects 
requested for tribal hatcheries. The President's fiscal year 2013 
budget contains $4.838 million. We support funding this account at 
$5.452 million as previously requested in the President's fiscal year 
2012 budget.
            Provide $228 million for BIA Contract Support
    In fiscal year 2011 these funds received an increase of $53.56 
million over the fiscal year 2010 enacted level of $166 million. The 
President's fiscal year 2013 budget contains $228 million. We support 
funding this account at $228 million as requested in the President's 
fiscal year 2013 budget. By not fully funding Contract Support it 
hampers the tribes' ability to fully exercise their right to self-
govern and requires tribes to use direct program dollars to fund the 
required contract support functions.
Environmental Protection Agency
            Provide $96.375 million for EPA General Assistance Program 
                    (GAP)
    This funding has built essential tribal capacities and remains 
critical to the tribes' ability to sustain their important water 
quality programs. The President's fiscal year 2013 budget contains 
$96.375 million for the nationwide GAP. We support funding this account 
at $96.375 million as requested in the President's fiscal year 2013 
budget.
            Provide $20 million for EPA Multi-media Tribal 
                    Implementation Grants Program
    This program was initially included in the President's fiscal year 
2011 budget request but it did not receive an appropriation. These 
funds would allow the EPA to provide targeted multimedia (cross 
discipline) grants to tribes for implementation of Federal 
environmental programs. This program logically follows the capacity 
building function under the Tribal GAP, as noted above. The President's 
fiscal year 2013 budget did not include any funding for this new 
initiative. We respectfully request $20 million for this program as 
previously requested in the President's fiscal year 2012 budget. This 
program will provide targeted grants to tribes for implementation of 
Federal environmental programs and would move the EPA/tribal 
partnership from capacity building to implementation of these important 
environmental programs. Identifying western Washington as a pilot for 
designing an EPA Indian program implementation strategy would build on 
the current investment EPA has made in tribal program development.
            Provide $50 million for EPA Puget Sound
    The Puget Sound Geographic Program provides essential funding that 
will help protect, restore and enhance Puget Sound. Tribes will 
continue to seek funding from this EPA account, in coordination with 
the Puget Sound Partnership. Such funding will allow the tribes to 
participate in the necessary scientific work, implementation measures, 
and policy discussions on issues that affect our treaty rights. The 
President's fiscal year 2013 budget contains $19.289 million. We 
respectfully request $50 million, an increase of $30.711 that restores 
this program to the fiscal year 2010 enacted level of $50 million. With 
this level of funding, collaborative work can continue on key marine 
issues, salmon recovery, land use management and regulatory changes.

                               CONCLUSION

    We know that it is difficult to allocate scarce Federal funds at 
this time. However, we believe the management work that we perform to 
protect our valuable resources and to help fulfill the trust obligation 
of the Federal Government continues to be worthy of your support. Thank 
you.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources

    Mr. Chairman, I am Jeff Allen, Director of the South Carolina Water 
Resources Center at Clemson University's Strom Thurmond Institute. My 
statement is submitted on behalf of the National Institutes for Water 
Resources (NIWR), the organization that collectively represents the 
State water resources research institutes. My statement is in support 
of restoration of funding for the Water Resources Research Act programs 
as part of the fiscal year 2013 U.S. Geological Survey's budget.
    The Water Resources Research Act (42 U.S.C. 10301 et seq.) 
establishes a Federal, State, and university partnership in water 
resources research, education, and information transfer and 
dissemination. There are 54 Water Resources Research Institutes located 
at the land grant universities of the 50 States, as well as in the 
District of Columbia, the Virgin Islands, Puerto Rico, and Guam. The 
Act authorized a State-based network of institutes dedicated to solving 
problems of water supply and water quality in partnership with 
universities, local governments and the public. It is the only 
federally mandated research network that focuses on applied water 
resources research, education, training and outreach. These institutes 
provide a direct, vital link between Federal water interests and public 
needs with the academic expertise located within the States' research 
universities. It is a mechanism for ensuring State, regional, and 
national coordination of water resources research, the education of 
future water professionals, and the transfer of results and outcomes to 
State and Federal water professionals. The Act's significant matching 
requirements ensure that States invest in water research and training.
    The Water Resources Research Act authorizes the two grant 
components. The first component is the base grant program which is 
allocated among the institutes. Institutes are required to match each 
Federal dollar with two non-Federal dollars. Federal funds cannot be 
used to pay indirect costs at the universities. This is the strictest 
match requirement of any Federal research program. Each Institute uses 
these funds to leverage research and/or student training through a 
statewide competitive grants process. In fiscal year 2012, each 
Institute received $92,335, equaling a total appropriation for the base 
component of $5.2 million. NIWR respectfully requests the Subcommittee 
provide $7 million in fiscal year 2013 for competitive water supply 
research seed grants, technology transfer, professional education, and 
outreach to the water-user community by the Institutes, approximately 
$125,000 per institute.
    The second grant component is a national competitive grants program 
that has the objective of supporting research on water resources 
problems that are regional or national in nature. In 2011 this 
competition received 40 applications, which underwent rigorous peer 
review from a national panel. This panel selected five projects from 
Alabama, Colorado, Illinois, Kansas and New Jersey for funding. The 
selection is as competitive and as rigorously peer-reviewed as other 
Federal research programs. The NIWR respectfully recommends the 
Subcommittee provide $1.5 million in fiscal year 2013 to support the 
national competitive research grants program.
    I would like to share with you some personal stories from the South 
Carolina Water Resources Center. First, let me talk about research 
quality and impact. Our Center awards approximately 2 grants per year, 
generally to researchers in the university community of South Carolina. 
While numerous water institutes across the country provide matching 
funds to investigators through other State appropriations, that is not 
the case in South Carolina. So, researchers who apply to the South 
Carolina research competition must provide their own match at the 2:1 
required rate. It is always refreshing that they value the research so 
much that they find the matching funds. We have funded research 
projects across a range of water issues, from land use change effects 
on streams to assessing stream conditions based upon fish health to the 
development of remote sensing wireless monitoring technologies. In 
fact, one of our projects helped build remote sensors for stream buoys 
that jump-started a multi-million dollar stream-monitoring network on 
the Savannah River. It is a technology, which we think could be used 
around the country and even around the world to monitor stream health 
without requiring extensive fieldwork.
    The South Carolina Water Resources Center also co-sponsors a 
biennial conference for water professionals, managers, educators and 
researchers. Other water institutes hold similar meetings in their 
States. We are proud to say that for our relatively small State, we had 
an attendance of over 300 water professionals in 2010 and expect at 
least as many this fall in 2012. Conference participants come from the 
State agencies to water organizations to private consultants to college 
and university researchers. This is the one time each year that the 
entire water resources community comes together under one roof. The 
feedback is continually positive with participants telling us it is 
critical to keep these types of meetings ongoing.
    The Water Resources Research Act holds all of this together as a 
network. The Act places the Institutes at land-grant universities, 
where in coordination with their Extension services, they specialize in 
identifying problems within their States, developing solutions to those 
problems, and engaging with the public to implement those solutions. 
One of the Institute program's greatest strengths is that the research 
funded by each Institute is tailored to that State's needs, based on 
priorities set by consultation with an advisory panel. I would like to 
cite several examples of research conducted by institutes across the 
country.
    The Rhode Island Water Resources Center has an outreach program for 
water resource professionals and non-professionals targeted equally 
through the combination of an established conference for industry 
professionals and a summer camp for high school students. The primary 
objectives of the conference and the camp are the same; to advance 
awareness and knowledge of the importance of clean water in Rhode 
Island and to discuss and provide insight into the various factors 
affecting the State's ability to obtain clean water for multiple uses.
    The Alaska Department of Transportation & Public Facilities lacks 
sufficient hydrologic information to obtain permits for construction of 
transportation corridors to important resource-rich areas of the State. 
The Alaska Water and Environmental Research Center is conducting a 
series of modeling and measuring projects providing ADOT&PF with the 
data required to design and permit roads and bridges on the North Slope 
and elsewhere.
    The Montana Water Center has developed the Montana Watercourse, a 
statewide program for schools and citizens, providing water 
information, resources, tools and education. Among the projects 
sponsored as part of the Watercourse are: a series of water-rights 
trainings for conservation district supervisors, recruiting and 
training student interns from Montana's tribal colleges for a cutting-
edge water-informatics research project that assembles streaming sensor 
data for visualization and modeling, and water information sharing with 
audiences throughout the State, including individuals, watershed 
groups, conservation districts, cities and counties.
    In a study of forest management and water yields, in collaboration 
with several nonprofit agencies, researchers supported by the 
California Institute for Water Resources will undertake a three-part, 
multi-year, multi-disciplinary project to research and assess issues 
related to climate change, vegetation manipulation and the forest water 
cycle in the Sierra Nevada Mountains. The Sierras harbor globally 
distinctive forest resources that deliver hydropower and water supply 
to downstream users in California and elsewhere.
    Mississippi relies heavily on agricultural commodity production as 
a source of revenue and jobs. And rice, one of Mississippi's top 
commodities and exports, relies heavily on water for germination and 
growth. Demand for water use from irrigated crop production has put 
enormous pressure on Mississippi Delta's groundwater supply. Research 
sponsored by the Mississippi Water Resources Research Institute has 
shown that intermittent irrigation can reduce the amount of water 
needed to grow a successful rice crop by up to 50 percent, compared 
with the conventional method of continuous flooding. Researchers 
designed a rain gauge that helps farmers tell from a distance how wet 
their fields are, and is now developing ways to remotely and 
automatically shut off water pumps to save rice producers time and 
money. The goal is to maximize the use of rainfall, relying on precious 
groundwater reserves only during dry spells. Data generated by this 
research also indicates savings of millions of dollars in production 
fuel costs for Mississippi's farmers.
    The Louisiana Water Resources Research Institute advised the State 
of Louisiana on the environmental impact of the BP oil spill on coastal 
wetlands. The LWRRI is coordinating research and damage assessment for 
the ecologically important coastal headland ``Fourchon Beach'' and 
adjacent marshes that remain heavily impacted by the spill. This 
research has resulted in changes in the response techniques for these 
unique environments and a better understanding of how to respond to 
future spills. In addition, it has helped organize scientific 
conferences and symposia related to the BP spill and researchers have 
presented over 20 invited presentations on spill response and impacts 
around the United States.
    The University of Wisconsin Institute of Water Resources funded a 
number of projects dealing with groundwater protection. Projects 
include the development of a new remote-sensing method to detect 
infiltration areas for the replenishment of the groundwater that feeds 
aquifers across the State and the development of new management tools 
to help rural water managers implement groundwater protection measures 
more effectively. In addition, the Institute also supported the 
development of new molecular techniques to detect and measure pathogens 
and viruses such as E. coli in groundwater. Currently, the occurrence 
of such pathogens in groundwater are not well documented.
    We often tout the value of the network of institutes supported by 
the Water Resources Research Act program and their ability to work 
together to serve the public on regional water issues.
    In May 2011 the Water Resources Research Institutes in Colorado, 
Idaho, Montana, Oregon, and Washington collaborated on a conference on 
exempt wells. The most common water-use exception is the exemption of 
certain water uses from many States' water rights management processes 
in the West. The goal of the conference was to identify the critical 
issues associated with the management and impacts of exempt domestic 
wells and to stimulate new ideas to solve the conflicts that have 
arisen between traditional water rights holders and water users that 
rely on exempt wells.
    The short supply in the Western States and fears that there will 
not be enough water for all projected future demands, is creating 
strained relationships between those in the agricultural, urban and 
environmental sectors. The Institutes in Arizona and Colorado are 
working together to improve the relationship between these groups by 
facilitating discussions about creative ways they can share water and 
contribute to viable solutions. The institutes' efforts have already 
been successful in generating action at the State level and through 
industry groups that have initiated roundtable discussions, retreats 
and tours among water industry leaders.
    Several Water Resources Research Institutes in the Southeast are 
helping water utilities reduce water usage because of research 
supported by the North Carolina Water Resources Research Institute. 
Researchers collected water data from utilities in Georgia, South 
Carolina and North Carolina and then developed five case studies for 
use in workshops and presentations. Using the results of the research, 
utilities have been able to conserve water without sacrificing revenue 
by adjusting their rate structures, billing, customer communication and 
conservation programming.
    For more than 4 decades the Water Resources Research Institutes 
have provided research results and impacts to our Nation, and proved 
successful at bringing new water professionals into the work force. 
NIWR recommends the Subcommittee provide $8.8 million to the USGS for 
the Water Resources Research Institute Program for fiscal year 2013. 
This includes $7 million for institutional grants, $1.5 million for 
national competitive grants, and $300,000 for USGS administration.
    The water institute directors recognize the fiscal challenges 
facing the Nation and Congress, but NIWR strongly supports the USGS 
Coalition request that Congress appropriate at least $1.2 billion for 
the USGS in fiscal year 2013, a level that will support critical USGS 
programs that improve the Nation's environment, health, safety, quality 
of life, and future economic growth.
    On behalf of all the Institute directors, I thank you for your 
continuing support of the Water Resources Research Act program.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board

    Chairman Reed, Ranking Member Murkowski, and members of the 
Subcommittee the Northwest Portland Area Indian Health Board (NPAIHB) 
is honored to provide this testimony on the Indian Health Service (IHS) 
fiscal year 2013 budget.
    Established in 1972, NPAIHB is a Public Law 93-638 tribal 
organization that represents 43 federally recognized Tribes in the 
States of Idaho, Oregon, and Washington on healthcare issues. Over the 
past 21 years, our Board has conducted a detailed analysis of the 
Indian Health Service (IHS) budget. Our Annual IHS Budget Analysis and 
Recommendations report has become the authoritative Tribal document on 
the IHS budget. It is used by the Congress, the administration, and 
national Indian health advocates to develop recommendations on the IHS 
budget. It is indeed an honor to present you with our recommendations.

Indian Health Disparities
    The recent reauthorization of the Indian Health Care Improvement 
Act (IHCIA) includes a declaration of national Indian health policy. 
Congress declares that it is the policy of this Nation, in fulfillment 
of its special trust responsibilities and legal obligations to Indians, 
to ensure the highest possible health status for Indians and to provide 
all resources necessary to effect that policy.\1\ Congress recognizes 
that it has a duty to elevate the health status of American Indian and 
Alaska Native (AI/AN) people to a parity with the general U.S. 
population and to provide the resources necessary to do so. Our 
recommendations are consistent with this policy declaration and we 
respectfully ask the Congress to fulfill this duty.
---------------------------------------------------------------------------
    \1\ 25 U.S.C. Sec. 1601.
---------------------------------------------------------------------------
    While Tribes have been successful at reducing the burden of certain 
health problems, there is strong evidence that other types of diseases 
are on the rise for Indian people. For example, national data for 
Indian people compared to the United States all races rates indicate 
they are 638 percent more likely to die from alcoholism, 400 percent 
greater to die from tuberculosis, 291 percent greater to die from 
diabetes complications, 91 percent greater to die from suicide, and 67 
percent more likely to die from pneumonia and influenza.\2\ In the 
Northwest, stagnation in the data indicates a growing gap between the 
AI/AN death rate and that of the general population. Evidence suggests 
that this gap might be widening in recent years. These data document 
the fact that despite the considerable gains that Tribes have made at 
addressing health disparities, these gains are reversing themselves and 
the health of Indian people could be getting worse.\3\
---------------------------------------------------------------------------
    \2\ Fiscal Year 2000-2001 Regional Differences Report, Indian 
Health Service, available: www.ihs.gov.
    \3\ Please note findings in The Health of Washington State: A 
Statewide Assessment of Health Status, Health Risks, and Health Care 
Services, December 2007. Available: http://www.doh.wa.gov/hws/
HWS2007.htm.
---------------------------------------------------------------------------
Recommendation: Maintain Current Services
    The fundamental budget principle for Northwest Tribes is that the 
basic healthcare program must be preserved by the President's budget 
request and Congress. Preserving the IHS base program by funding the 
current level of health services should be a fundamental budget 
principle of Congress. Otherwise, how can unmet needs ever be addressed 
if the existing program is not maintained? Current services estimates' 
calculate mandatory costs increases necessary to maintain the current 
level of care. These ``mandatories'' are unavoidable and include 
medical and general inflation, Federal and tribal pay act increases, 
population growth, and contract support costs.
    The IHS congressional justification reports that the President's 
budget provides a $115.9 million to support activities identified by 
the Tribes as budget priorities including increasing resources for the 
Contract Health Services (CHS) program; funding Contract Support Costs 
(CSC) shortfall; funding for health information technology activities; 
and providing routine facility maintenance. The IHS explains that the 
overall increase is adequate to ``sustain the Indian health system, 
expand access to care, and continue to improve oversight and 
accountability'' despite the insignificant increase. How can you 
sustain the system or expand access to care if you do not fund 
inflation? NPAIHB projections indicate that an additional $287 million 
is needed to maintain the current levels of care.
    Inflation and population growth alone using actual rates of medical 
inflation extrapolated from the Consumer Price Index (CPI) and IHS user 
population growth predict that at least $304 million will be needed to 
maintain current services. Compound this with the fact that nearly half 
of the proposed increase is for staffing and operation of six new 
facilities ($49 million), which will only leave $66 million to cover 
current services. Estimates developed by the IHS during the fiscal year 
2013 budget formulation process and used during Tribal Consultation to 
develop Tribal recommendations on the fiscal year 2013 budget, estimate 
current services at $136.8 million for pay act costs, inflation and 
population growth. These are IHS estimates and not Tribal estimates, 
thus there should be no question about the validity of these 
projections.

              FISCAL YEAR 2013 CURRENT SERVICE REQUIREMENTS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                             Increase
       Mandatory Cost to Maintain Current Services            Needed
------------------------------------------------------------------------
CHS Inflation estimated at 5.5 percent; and Population            64,112
 Growth.................................................
Health Services Account (not including CHS) inflation...         167,058
Contract Support Costs (unfunded).......................          99,300
Population Growth (estimated at 1.6 percent of Health             72,722
 Services accounts).....................................
                                                         ---------------
      Total Mandatory Costs.............................         403,192
------------------------------------------------------------------------

    The administration's proposal does not provide any funding 
increases for inflationary costs except for the CHS program. The $54 
million increase for the CHS program is respectable but will fall short 
by $10 million to maintain current services. Aside from this request 
for CHS, there is absolutely no additional funding requested for 
inflation, population growth or civilian and Tribal pay cost increases. 
NPAIHB estimates that at least $213.4 million is needed to fund 
inflationary costs and an additional $90.4 million is needed to cover 
population growth. Add to this the accumulated past year's CSC 
shortfall of $99.3 million, means that there are at least $403 million 
in mandatory costs that will have to be absorbed by IHS programs--most 
likely by cutting services to Indian people.
Per Capita Spending Comparisons
    The most significant trend in the financing of Indian health over 
the past 10 years has been the stagnation of the IHS budget. With 
exception of a notable increase of 9.2 percent in fiscal year 2001 and 
last year's 14 percent increase, the IHS budget has not received 
adequate increases to maintain the costs of current services 
(inflation, population growth, and pay act increases). The consequence 
of this is that the IHS budget is diminished and its purchasing power 
has continually been eroded over the years. As an example, in fiscal 
year 2009, we estimated that it would take at least $513 million to 
maintain current services \4\. The final appropriation for the IHS was 
a $235 million increase, falling short by $278 million. This means that 
Tribes must absorb unfunded inflation and population growth by cutting 
health services. The IHS Federal Disparity Index (FDI) is often used to 
cite the level of funding for the Indian health system relative to its 
total need. The FDI compares actual healthcare costs for an IHS 
beneficiary to those costs of a beneficiary served in mainstream 
America. The FDI uses actuarial methods that control for age, sex, and 
health status to price health benefits for Indian people using the 
Federal Employee Health Benefits (FEHB) plan, which is then used to 
make per capita health expenditure comparisons. It is estimated by the 
FDI, that the IHS system is funded at less than 60 percent of its total 
need.\5\
---------------------------------------------------------------------------
    \4\ Fiscal Year 2009 IHS Budget Analysis & Recommendations, 
Northwest Portland Area Indian Health Board, March 17, 2008; available: 
www.npaihb.org.
    \5\ Level of Need Workgroup Report, Indian Health Service, 
available: www.ihs.gov.
---------------------------------------------------------------------------
Fiscal Year 2013 IHS Budget Recommendations
    NPAIHB recognizes that the following recommendations may seem 
unreasonable in the current fiscal environment. However when the 
significant healthcare needs of Indian people are considered, our 
recommendations are realistic. We all recognize that in this difficult 
budget environment, we all must make sacrifices for our country. As the 
historic record on Indians will demonstrate, no one has sacrificed more 
than Native Americans. We hope you will recognize the significant 
healthcare needs of Indian Country by supporting the IHS budget.
  --NPAIHB recommends that the Subcommittee restore funding eliminated 
        in the President's request for inflation, population growth and 
        Tribal pay costs. Our estimates are based on budget worksheets 
        provided and used by the IHS during fiscal year 2013 National 
        Budget Formulation Meetings. We recommend $13.4 million to 
        cover Tribal pay costs; $60 million for inflation, and; $52.4 
        million for population growth.
  --NPAIHB recommends that at least an additional $10 million be 
        provided for the IHS Contract Health Service Program (CHS) to 
        cover inflation and population growth. The CHS program is 
        extremely important for Portland Area Tribes since we do not 
        have any hospitals and rely on the CHS program for all 
        specialty and inpatient care. Other parts of the IHS system 
        have access to hospitals for specialty and inpatient care. 
        Because of this, the CHS program makes up 34 percent of the 
        Portland Area budget and when less than adequate inflation and 
        population growth increases are provided, Portland Area tribes 
        are forced to cut health services to absorb these mandatory 
        costs.
  --We recommend that the Subcommittee provide an additional $99.3 
        million to fund past years' CSC shortfalls that are owed to 
        Tribes under Public Law 93-638. The well-documented 
        achievements of the Indian self-determination policies have 
        consistently improved service delivery, increased service 
        levels, and strengthened Tribal governments, institutions, and 
        services for Indian people. Every administration since 1975 has 
        embraced this policy and Congress has repeatedly affirmed it 
        through extensive amendments to strengthen the Self-
        Determination Act in 1988 and 1994.
  --The Portland Area has developed a new innovative approach to 
        constructing health facilities in order to address the health 
        needs of Tribes. Portland Tribes have conducted a pilot study 
        to examine the feasibility of developing regional referral 
        specialty care centers to improve healthcare access and quality 
        of healthcare. The study concludes that regional referral 
        specialty care centers are feasible, and recommended a 
        demonstration project to validate the concept's viability 
        through the collection of actual data. The pilot study 
        recommended that the demonstration project be located in the 
        Northwest quadrant of the Portland Area. This would serve 
        24,000 users from Tribal facilities within an hour's drive. We 
        recommend that the Subcommittee include $10 million for the 
        Portland Area to develop this demonstration project.
    Thank you for this opportunity to provide our recommendations on 
the fiscal year 2013 IHS budget. I am happy to respond to any questions 
from the Subcommittee.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association

    Mr. Chairman, Ranking Member Murkowski, and members of the 
subcommittee, I am Tom Kiernan, President of the National Parks 
Conservation Association (NPCA). I appreciate the opportunity to 
testify on behalf of our more than 600,000 members and supporters from 
every State and congressional district to provide our views regarding 
appropriations for the National Park System for the upcoming fiscal 
year. Since 1919, NPCA has been the leading, independent, private voice 
in support of promoting, protecting and enhancing America's national 
parks for people from all walks of life to learn from, be inspired by 
and enjoy--now and on into the future.
    We respect that it will be a challenge again for you to sort out 
and balance competing, often conflicting demands for limited Federal 
resources; we understand the difficult task you face. I commend each of 
you for your commitment and for your fortitude in going forward even 
with the specter of an unprecedented sequestration looming over all our 
heads. I particularly want to compliment the members of this committee 
for working so hard last year to keep out of your bill any policy 
riders that could harm national parks. We were deeply grateful that we 
did not have to fight that battle in this chamber.
    I am here to argue that during these times especially, investing in 
the national parks should be an American priority. Providing adequate 
funding for the national parks is more than simply another expenditure; 
it is an investment in our Nation's future with tangible returns that 
are particularly significant now as we continue to try to recover from 
this long economic downturn.
    We've noted before that for every Federal dollar spent on the 
national parks, at least $4 are generated in economic value to the 
public at large. Adequately funded national parks create jobs, 
sustainable businesses and vibrant communities. The national parks are 
reliable economic engines: visitors to the National Park System 
contributed more than $31 billion to local economies and supported 
258,000 jobs in 2010, an increase of $689 million and 11,500 jobs over 
2009, according to recently published data by the park service and 
Michigan State University. The same data showed that visitors to 
Yellowstone spent $334 million, supporting almost 5,000 jobs, and City 
of Rocks supported 85 jobs through $6.3 million in visitor spending. 
These are just two illustrative examples of the economic impact of park 
units on local communities.
    According to a 2011 study from the McKinsey Global Institute 
commissioned by the Interior Department, the national parks make up 60 
percent ($33 billion) of Interior's overall contribution to the economy 
due to outdoor recreation. The study also determined that for every two 
people employed by the national parks, another job was created in local 
economies. In one example, Glacier National Park led to 18,000 local 
jobs, accounting for 25 percent of the jobs in the restaurant sector, 
and 50 percent of jobs in the lodging sector.
    But people won't come to the parks if their experience isn't 
enjoyable or if it's marred by parks in poor condition and lacking 
necessary staff.
    In January, NPCA, the National Park Hospitality Association, and 
the National Parks Foundation, in collaboration with the National Park 
Service, convened an unprecedented event called America's Summit on 
National Parks. The gathering, which included hundreds of diverse 
community, education, economic, business, tourism, healthcare, 
conservation, youth, and political leaders, reinforced the strong 
support for national parks among a wide cross-section of the American 
public. The nonpartisan nature of support for national parks was 
evident there, and at the subsequent White House Conference on 
Conservation. Summit participants agreed on a set of principles to 
guide national park-related policies, opportunities and funding as we 
prepare for the 2016 centennial. The principles--which include a focus 
on funding--quickly garnered endorsements from nearly 100 businesses, 
philanthropic, conservation, tourism and recreation groups, and many 
more continue to sign on. Efforts launched at the summit continue. We 
all look forward to working with you to help ensure the Federal 
Government does its part to perpetuate the American story and values 
through the national parks.
    This February, President Obama signed an Executive order to promote 
tourism in the United States, and at the time Secretary Salazar noted 
that, ``By investing in our parks and promoting them to visitors, 
especially internationally, we can have the dual benefit of an improved 
National Park System and a stronger economy that produces more jobs.'' 
Unfortunately, the administration's fiscal year 2013 budget request for 
the National Park Service is just not consistent with their lofty and 
ambitious pronouncements. We ask you to find a way to do better.
    With an overall request for the Park Service that is essentially 
flat, the administration would increase funding for specific, targeted 
activities under park service operations by $13.5 million. These 
include some additional money for the administration's priorities, but 
mostly funding for a lot of things that really just have to be paid 
for, such as the Presidential inauguration. The problem is that under 
the administration's budget, these worthwhile things would come at the 
expense of base park operations--the very account that keeps the parks 
open and functioning and keeps rangers on the job. We were disappointed 
that the administration simultaneously claimed to provide funding for 
fixed costs while cutting budgets at the park level by nearly $22 
million; we respectfully ask your subcommittee to find the funds to 
prevent this staff cut at a time when we are seeking to enhance the 
tourism economy and keep parks protected. The damage these cuts would 
do to the gains and improvements made as a result of this 
subcommittee's laudable efforts are not theoretical. This cut would 
result in the loss of more than 200 FTE, which depending on how those 
cuts are apportioned, could eliminate as many as 600 seasonal ranger 
positions. It makes no sense to market our national parks to 
international visitors while cutting the funding necessary for the 
parks to serve those very visitors when they arrive.
    National parks are among the most visited locations in America. 
According to Forbes, 8 of the top 25 U.S. travel destinations are 
national parks. If the administration is serious about promoting 
tourism as a boon to the economy, funding for the national parks--and 
especially base park operations--should really be increased rather than 
kept flat or reduced. What kind of impression will it make on visitors 
if the parks are allowed to return to the days of missing rangers, 
shuttered visitor centers, dirty restrooms, deteriorating resources, 
dangerous roads and trails, and reduced interpretive and educational 
programs? Not a very good one, I suspect. At the very least, we are 
hopeful the subcommittee will improve on the administration's request 
and provide more adequate and realistic funding for base park 
operations and fixed costs.
    NPCA fully supports helping the Park Service understand, prepare 
for, and respond to climate-driven changes unfolding in national parks 
throughout the country. Planning in advance for things such as 
increasing wildfires, invasive species, and coastal flooding is needed.
    We're also worried about the continuing trend of reductions in the 
national parks construction account and the impact that will have on 
the continually growing deferred maintenance backlog.
    Last fall, NPCA released a report entitled ``Made in America: 
Investing in National Parks for our Heritage and Our Economy'', which 
highlighted the jeopardy in which continual, incremental cuts place our 
national parks, the heritage they protect, and the experiences they 
provide. Over the last 2 years, NPS discretionary funding has been 
reduced 6 percent; operations funding has been reduced $25 million; and 
construction has been cut by 35 percent, or $84 million, contributing 
to a 66 percent decline in that account since fiscal year 2002 in 
today's dollars. Total discretionary funding for the National Park 
Service is more than $400 million--or 14 percent--below fiscal year 
2002 in today's dollars.
    The construction cut is proposed despite a maintenance backlog of 
more than $3 billion for the most critical systems, and a total 
deferred maintenance backlog of more than $11 billion. The backlog is 
attributable to chronic funding deficiencies in several categories, 
including operations, transportation and construction. These 
deficiencies have forced park managers to make choices between what 
needs to be done and what absolutely must be done immediately to keep 
facilities up and running and visitors safe and satisfied for the time 
being. The longer needed repairs and maintenance to facilities is put 
off, the more expensive and difficult they become. The National Park 
Service needs almost $700 million annually just to keep up with the 
backlog, yet receives just half that. We realize deferring projects is 
one mechanism to minimize cuts to other accounts in an austere climate, 
but we fear we are getting to the point where there is nothing left in 
that account, and that is compounding the problem and the long-term 
threat to our national heritage.
    We are pleased that the administration recognizes the need to 
continue to fund the Land and Water Conservation Fund (LWCF), so that 
critical lands like the State lands in Grand Teton National Park can be 
protected. It's important to recognize that there are so many LWCF 
needs that continue to go unfunded, with a backlog of more than $2 
billion for NPS acquisitions. There are currently more than 2.6 million 
acres of private inholdings in national parks, and when there are 
willing sellers, there is broad public support for acquisition because 
people want to see public access for recreation and intact parks that 
don't suffer from incompatible development.
    Removing privately owned inholdings and completing parks actually 
makes their administration and resource management more efficient and 
cost effective, thereby freeing up money for other needs. Purchasing 
inholdings from willing sellers can help facilitate better invasive 
species control and water quality, reduce fire risks, remove obstacles 
to recreation and wildlife management, and facilitate conservation of 
historic resources. At the moment, with real estate prices at rock 
bottom, there are many good deals to be had from willing sellers. We 
are hopeful the President's LWCF request will accommodate what is 
necessary to carry out the purchase and exchange of Wyoming State lands 
to benefit Grand Teton National Park and other timely needs. We 
appreciate this subcommittee's bipartisan understanding of the value of 
the program and your effort to modestly restore some funding for the 
program in fiscal year 2012. We hope we can work with you to continue 
support in fiscal year 2013.
    It seems as if there's always a good deal of talk on Capitol Hill 
about what the American people want, expect and deserve. Phrases such 
as those are thrown about fairly readily on both sides of the Capital 
on both sides of the aisle. The views of the American people about 
their national parks are pretty clear. Their love affair with the 
national parks spans time, region, economic status and political 
persuasion. As reflected in a recent Harris poll, national parks are 
among the most popular roles for the Federal Government. The National 
Park Service is arguably the most popular Federal agency and the park 
ranger may be the most recognizable and appreciated Federal public 
servant. Statistics show that support for national parks has remained 
strong and even increased with the recent downturn in the economy. A 
2010 poll found that 9 out of 10 Americans have visited a national park 
and 6 out of 10 did so within the past 2 years. Despite concerns about 
the economy and the Federal deficit, 88 percent of Americans say it is 
either extremely important or quite important to protect and support 
the national parks. And with the park service centennial in mind, 85 
percent of voters surveyed favor giving national parks enough funding 
so they are fully restored and ready to serve the public for the next 
100 years.
    By taking care of our national parks, this subcommittee can show 
that Congress can still do some things well. Despite a political scene 
that is so divisive and dysfunctional at so many levels, Americans from 
all walks of life and political persuasions cherish our national parks 
and want them protected. This subcommittee can make a statement that it 
understands that, and that the Congress is still capable of hearing 
them. And at the same time, it can make an investment in local 
economies and help recapture the U.S. share of the tourism market by 
ensuring parks are well protected and maintained and visitors have a 
safe and inspiring experience.
    As the milestone 100th anniversary approaches, the parks will be 
more and more at the forefront of people's minds, and more and more 
Americans will be drawn to visit a national park or park unit. We hope 
they will be proud of what they find and take pride in their experience 
and heritage. Whether this happens or not is, in no small measure, a 
function of the actions this subcommittee and your colleagues in 
Congress undertake.
    Again, thank you for the opportunity to testify.
                                 ______
                                 
     Prepared Statement of the Nez Perce Tribal Executive Committee

    Honorable Chairman and members of the Committee, as Chairman of the 
Nez Perce Tribal Executive Committee, I would like to thank you for the 
opportunity to provide testimony on behalf of the Nez Perce Tribe to 
this Committee as it evaluates and prioritizes the spending needs of 
the United States regarding IHS, BIA, EPA, the Forest Service and the 
Fish and Wildlife Service.
    As with any government, the Nez Perce Tribe does a wide array of 
work and provides a multitude of services to the tribal membership as 
well as the community at large. The Nez Perce Tribe has a health clinic 
with a satellite office, a tribal police force with 16 officers, a 
social services department, a comprehensive natural resource program 
that does work in forestry, wildlife management, land services and land 
management, habitat restoration, air quality and smoke management, 
water quality and sewer service, and one of the largest fisheries 
departments of any tribe in the Nation working on recovery of listed 
species under the Endangered Species Act. The Nez Perce Tribe conducts 
its extensive governmental functions and obligations through a 
comprehensive administrative framework, which is necessary for a 
sovereign nation that oversees and protects the treaty rights of the 
Nez Perce People in addition to providing the day to day governmental 
services to its members and the surrounding communities. The Nez Perce 
Tribe has long been a proponent of self determination for tribes and 
believes its primary obligation is to protect the treaty-reserved 
rights of the Nez Perce Tribe and its members. All of the work of the 
Tribe is guided by this principle. As a result, the Tribe works 
extensively with many Federal agencies and proper funding for those 
agencies and their work with, for and through Tribes is of vital 
importance.

Indian Health Services
    The Nez Perce Tribe was pleased to see the President's budget 
provided for increased spending for Indian Health Services. The request 
for $4.422 billion is an increase of $115.9 million over the fiscal 
year 2012 enacted level but more is needed. The Tribe requests that IHS 
contract support costs be funded at $571 million. The Tribe's shortfall 
for fiscal year 2011 for CSC was $859,860.54. Proper funding for the 
operations of the clinic is imperative. The Nez Perce Tribe currently 
operates one healthcare clinic on the Nez Perce Reservation, Nimiipuu 
Health, the main clinic in Lapwai, Idaho and a satellite facility 65 
miles away in Kamiah, Idaho. Nimiipuu Health provided service to 3,870 
patients in fiscal year 2011. These 3,870 patients represented 79,573 
visits, which included pharmacy and laboratory visits in addition to 
medical provider visits. Our expenditure total for fiscal year 2011 was 
$12,555,959. Our Contract Health Services (CHS) cost for outpatient 
services for fiscal year 2011 was $3,674,368. In this fiscal year for 
the 4 months ended January 31, 2012, our expenditures totaled 
$4,989,836. Annualized for the full 12 months this will result in a 
cost of $14,969,508. Our CHS cost at the end of January was $2,118,537. 
When annualized, this amount will result in a total expenditure of 
$6,355,611. Our revenue from IHS for 2011 was $10,082,221 and is 
projected for fiscal year 012 at $9,873,494.
    In 2011 the Tribe expended $2,626,164 of third party billings 
collected in 2011. If expenditures continue as projected based on the 
first 4 months of fiscal year 2012, the Tribe will have to collect in 
third party billings $5,096,014. This will require approximately 57 
percent more collections in third party revenue than is currently 
budgeted and anticipated in fiscal year 2012. The Tribe has been in 
priority one status for our CHS patients for 9 months of fiscal year 
2011 and for the first 4 months of fiscal year 2012. Even in this 
priority one status we are already 32 percent over expended in fiscal 
year 2012 with six identified Contract Health Emergency cases being 
processed for reimbursement through the CHEF funds. Priority one cases 
include only those circumstances where loss of life or limb will occur 
without treatment. All other referrals for outside treatments are 
placed on a deferred services list. At the end of fiscal year 2011, our 
deferred list totaled $516,817. At the beginning of fiscal year 2012, 
the patients on this deferred list were re-evaluated by the medical 
providers and either received treatment based on the condition reaching 
priority one status, remained on the deferred services list or denied 
services based on their condition at that time. Currently our deferred 
list totals $209,998 after only 4 months of referrals. Any shortfall in 
funding creates a trickle-down effect in emergency and preventative 
patient care.

Bureau of Indian Affairs
    For the fiscal year 2011 budget proposal, the BIA proposed several 
spending recommendations for improving trust land management that were 
supported by the Tribe. The Nez Perce Tribe entered into an agreement 
with the United States in 2005 known as the Snake River Basin Water 
Rights Settlement Act of 2004 (Title X of Division J of Public Law 108-
447, 118 Stat. 3431, et seq.). A component of the agreement was the 
transfer of approximately 11,000 acres of land from the Bureau of Land 
Management to the Tribe. The lands were supposed to be surveyed as part 
of the transfer. Full funding for those surveys has not been made to 
this date. The fiscal year 2011 budget request called for $695,000 for 
that fiscal year to begin that process. Although that amount would not 
cover the full cost of the surveys, it would allow the process to 
begin. The Tribe supports a renewal of that appropriation request in 
the fiscal year 2013 budget that was not funded during the past several 
budget cycles.
    In addition, it is important to note that under the terms of the 
Snake River Basin Act referenced in the previous paragraph, for fiscal 
year 2013, a payment shall be made to the Nez Perce Tribe in the amount 
of $9 million. This is the last payment to the Nez Perce Tribe under 
the terms of the settlement. The waivers and terms of the agreement are 
not considered final and effective until the terms and conditions such 
as this payment are made and it is important that this payment be 
included in the fiscal year 2013 budget.
    The Tribe requests more emphasis be placed on funding for contract 
support costs through the BIA and that the BIA's request of $228 
million be funded fully. The Nez Perce Reservation covers 1,200 square 
miles and covers five counties and has a mixture of tribal and non-
tribal residents. Currently, the Nez Perce Tribe contributes $600,000 
per year to cover the shortfall in BIA funding for the Tribe's law 
enforcement. This funding comes from cigarette taxes levied by the 
Tribe.
    The Tribe also relies on the BIA for funding for its work related 
to endangered species and protection of the Tribe's treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement the research efforts of the Tribe relative to Big Horn 
Sheep. The BIA Endangered Species Program provides tribes with the 
technical and financial assistance to protect endangered species on 
trust lands but funding of this program has declined significantly over 
the last 8 years.
    In addition, the funding provided under the BIA Rights Protection 
fund is critical as it supports the exercise of off-reservation hunting 
and fishing for tribes like the Nez Perce. It is important to 
understand that this funding is not for equipment but is used for job 
creation. The Tribe has employed two new conservation officers and an 
additional biologist for our programs under the funding during the last 
several fiscal years. The Tribe has to cover and manage a large area in 
fisheries related activities from the Lostine River in Oregon to the 
South Fork of the Salmon River and a capable and adequate staff is 
vital to continue this work.
    The Tribe supports the funding requests for the BIA Wildlife and 
Parks Tribal Priority Allocations. This funding is allowing important 
work to be done on fish recovery through hatchery operation and 
maintenance. As stated earlier, the Tribe has invested a large amount 
of its personnel and resources in the restoration and recovery of this 
important resource through its fisheries programs. The State of Idaho 
directly benefits from this work as well through its sports fisheries. 
These programs have been successful but more work needs to be done.

Fish and Wildlife Service and Forest Service
    The Tribe relies heavily on funding sources within the Fish and 
Wildlife Service and the Forest Service. First, the Tribal Wildlife 
Grants account for a small pot of money that has resulted in huge 
returns from the Tribe's perspective. This competitive grant does not 
simply dole out funds for projects but awards grants based on the 
quality of the proposal. The Tribe has received funding from this grant 
4 out of the last 5 years based on the quality of our research work on 
Big Horn Sheep. The Big Horn Sheep is a treaty resource of the Tribe 
that is declining rapidly within the Tribe's ceded territory. The funds 
from this program provide the resources to keep the research going. 
Funding for these grants was reduced to $4 million in the fiscal year 
2012 budget. The Tribe strongly urges this committee to increase this 
funding as it provides a large return in work for a small investment. 
It is also one of the few sources of funds tribes can tap into for 
wildlife research.
    The Tribe also supports increased funding for the work of the 
Forest Service in the protection of treaty reserved resources of 
tribes. The Nez Perce Tribe reservation and its usual and accustomed 
areas are rich in natural resources and encompass eight different 
national forests. The Tribe works closely with each forest 
administration to properly manage its resources on behalf of the Tribe. 
These range from protecting and properly managing the products of the 
forest to managing the vast wildlife in each one such as elk, deer, 
bighorn sheep and wolves. For example, the Payette Forest will need 
increased funding for monitoring over the next several years. Increased 
funding is necessary so that the Forest Service can meet these trust 
obligations and continue to work with tribes such as the Nez Perce on a 
government to government basis.
    The Tribe also strongly supports the recommendations of the United 
States Forest Service in the fiscal year 2013 Presidential budget 
justification for the United States Department of Agriculture to 
eliminate or delete Section 431 of the Consolidated Appropriations Act, 
2012 (Public Law 112-74) from the fiscal year 2013 budget. Section 431 
restricts agency flexibility in the implementation of decisions and 
will prove harmful to the Nez Perce Tribe as it will limit the ability 
of the Forest Service to provide protection to treaty reserved 
resources of the Nez Perce Tribe such as big horn sheep.
    Similarly, the Tribe is looking for funding for solutions to help 
with its Bison hunt in the Gallatin National Forest near Yellowstone 
National Park. For the last 6 years, the Nez Perce Tribe has returned 
to the Gallatin to exercise its treaty right to harvest bison in that 
area. The treaty hunt has been successful and this year the Tribe 
harvested over 80 animals. However, disease transmission by the bison 
is a concern and therefore a ship and slaughter program used by the 
State of Montana to protect domestic livestock has the potential to 
endanger such treaty based hunts. More funding for work and research to 
assist in helping the Forest Service, the Fish and Wildlife Service and 
the National Park Service meet the treaty hunting rights of the Nez 
Perce Tribe and the Confederated Tribes of the Salish Kootenai is 
needed.

Environmental Protection Agency
    The Nez Perce Tribe currently implements, on behalf of the 
Environmental Protection Agency, the Federal Air Rules for Reservations 
program (FARR). The program monitors air quality and regulates field 
burning throughout the Nez Perce Reservation. The Tribe is located in 
Region 10 of the EPA. The Tribe is currently dependent on several EPA 
sources for funding for the FARR. Continued funding is needed for 
Tribes to meet their air quality needs and operate programs under the 
delegation of the EPA. EPA consistently uses the Nez Perce Tribe's FARR 
Direct Implementation Tribal Cooperative Agreement (DITCA) program as a 
model of success but Region 10 is being forced to look for ways that 
the Nez Perce Tribe can reduce the cost of its FARR DITCA. The Nez 
Perce Tribe cannot cut its FARR DITCA budget without adversely 
impacting the Tribe's ability to protect the health and welfare of the 
18,000 residents of the Nez Perce Reservation. The Nez Perce Tribe 
currently operates its entire FARR DITCA program for about the same 
cost per year as the State of Idaho operates solely an agricultural 
burning program, therefore, EPA gets a much bigger ``bang for their 
buck'' with the FARR DITCA program compared to the state program and is 
a program worthy of investment.
    The Tribe was pleased to see that most tribal set asides received 
increased funding in fiscal year 2012. Funding for these tribal 
programs is important. In addition to the air quality program, the 
Tribe is currently in facilitated discussions with the State of Idaho 
that are being funded through grants from the EPA. The facilitated 
discussions involve the Tribe adopting water quality standards to 
improve the water quality on the Nez Perce Reservation. The Tribe also 
relies heavily on contract support dollars for our water resource 
programs such as the storage tank remediation issues and watershed 
restoration. As you can see, the Nez Perce Tribe does a variety of 
work, sometimes instead of and sometimes on behalf of the United States 
but the Tribe still expects the United States to provide proper funding 
under its trust obligations.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association

    Thank you Chairman Reed, Ranking Member Murkowski, and other 
honorable members of the subcommittee for this opportunity to submit 
written testimony on the fiscal year 2013 Interior appropriations bill 
and, specifically, the Land and Water Conservation Fund.
    The National Recreation and Park Association (NRPA) is a nonprofit 
organization working to advance parks, recreation and environmental 
conservation efforts nationwide. Our members touch the lives of every 
American in every community every day. Through our network of 
approximately 20,000 citizen and professional members we represent park 
and recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities.
    In fiscal year 2012, you provided $322.9 million for the Land and 
Water Conservation Fund (LWCF), with $45 million of that amount 
allocated to the State Assistance Program. You also specified that zero 
State Assistance dollars were to be used for the Department of the 
Interior's (DOI) proposed competitive grant program. We thank you for 
investing in conservation through the LWCF, and especially thank you 
for investing in States and local communities through the State 
Assistance Program and for protecting the integrity of that program.
    As this committee works to craft the fiscal year 2013 Interior 
appropriations bill, NRPA makes three requests. First, we ask that you 
provide ample funding for the LWCF; second we ask that you choose to 
invest in local communities by allocating 40 percent of total LWCF 
appropriations to the State Assistance Program; and third we ask that 
you, once again, deny the DOI the ability to deprive States and local 
communities of funding by specifying that zero State Assistance dollars 
are to be used for the DOI's proposed competitive grant program.
    We recognize that you face difficult decisions relative to fiscal 
year 2013. However, the LWCF is budget neutral, having been authorized 
with a dedicated funding source of oil and gas leasing revenues. Over 
$6 billion a year is provided through these leases, and the funding 
provided to the LWCF is a minuscule fraction of this amount. Zeroing 
out the LWCF would negatively impact our country, especially at the 
State and local levels. There is a common misconception that LWCF is 
merely a Federal land acquisition program. Nothing could be further 
from the truth, as the LWCF State Assistance Program provides dollar-
for-dollar matching grants to States and local communities for the 
construction of outdoor recreation projects. The land purchased with 
LWCF State Assistance funding remains the property of the State or 
local government, and the facilities developed through the LWCF remain 
publicly accessible in perpetuity.
    The LWCF State Assistance Program ensures that local communities, 
such as Blackfoot, Idaho, have places where adults and children can go 
to recreate and enjoy the outdoors. It is a means by which this 
committee can provide investment to local communities, and for fiscal 
year 2013, we are asking this committee to make the investment by 
allocating a minimum of 40 percent of total LWCF appropriations to the 
State Assistance Program. Current law requires that a minimum of 40 
percent of LWCF appropriations be provided to the Federal land 
acquisition program, and we are merely asking for you to invest in 
local communities by allocating the same percentage amount to the State 
Assistance Program. Evidence of the impact of such an allocation is 
clear when you consider that in fiscal year 2012 California received 
approximately $3.6 million through the State Assistance Program. Had 40 
percent of LWCF appropriations been allocated to the State Assistance 
Program, the State would have received more than $11 million. Rhode 
Island received $426,000 in fiscal year 2012, but would have received 
more than $1.3 million with a 40 percent allocation.
    There are many viable reasons for such an allocation. One seemingly 
simple reason is access. Not everyone in America has access to our 
amazing National Park System, but everyone does have access to local 
outdoor spaces and recreational facilities provided through their State 
and local community. Additionally, accessibility to physical activity 
through outdoor recreation is crucial to reaping the benefits of 
healthy lifestyles and reducing healthcare epidemics such as childhood 
obesity.
    Close-to-home public parks and recreation are available to every 
age, ethnicity, gender, and socio-economic class in every community, 
both urban and rural, of every State. Is there any other program that 
so effectively treats all individuals so equally? This is made possible 
because LWCF funding has always been allocated by formula through the 
State Assistance Program, whereby a portion of funds are equally 
allocated among all States and territories and the remainder is 
allocated based on population. This ensures that 100 percent of the 
State Assistance funding is equitably distributed throughout the 
Nation. This formula currently does not favor one congressional 
district or party affiliation over the other, or projects that can gain 
the most national visibility. That would radically change under the 
DOI's proposal whereby more than one-third of the State Assistance's 
funding would be used for a DOI-administered competitive grants 
program. The DOI proposal would effectively decrease the amount of 
funding provided to each State as only a small number of projects would 
likely be funded. For example, Ohio would have lost approximately 
$950,000 in fiscal year 2012 LWCF funding under the DOI proposal. 
Additionally, more rural States, such as Alaska or Wyoming, would have 
to expect a loss of funding as only urban projects of national 
significance could compete for the grants. The distribution formula 
used for the past 47 years has yielded equitable results as 98 percent 
of America's counties have received State Assistance funds. In fiscal 
year 2012, this committee ensured equal allocation among the States by 
specifically directing that zero dollars were to be spent on a 
competitive grant program in the fiscal year 2012 appropriations bill. 
NRPA supports repeating that language in fiscal year 2013 and rejecting 
any ongoing or future efforts by DOI to do otherwise. Absent directive 
language, the DOI has authority to implement its program.
LWCF State Assistance: Addressing National Issues on the Local Level
    Few programs can address so many national priorities as effectively 
as the LWCF State Assistance Program does, with so few dollars and 
without negatively impacting the Federal budget.
    The National Park Service documented in a March 2011 report that 
the $40 million appropriated to LWCF State Assistance in 2010 made a 
direct impact on park and recreation facilities in or near 221 local 
communities, helped communities make 5,905 new acres available for 
outdoor recreation use and enjoyment, and helped ``encourage active 
participation to strengthen the health and vitality of the citizens of 
the United States pursuant to the original intent of the Act.'' While 
the LWCF State Assistance program annual benefits hundreds of local 
communities, local communities are in need of more recreational 
resources. As documented by the National Park Service, our country 
faces more than $18 billion in unmet need for outdoor recreational 
resources.

LWCF State Assistance Stimulates Jobs and Local Economies
    According to a study by Southwick in October 2011, the economic 
impacts of outdoor recreation, natural resource conservation, and 
historic preservation activities in the United States contributed a 
minimum of $1.06 trillion to the economy, created a $107 billion return 
on investment to Federal, State and local governments through tax 
revenue, and supported 9.4 million jobs. The National Association of 
State Park Directors reports that America's State park system 
contributes $20 billion to local and State economies. Impressively, 
this section of the economy continues to grow even during the ongoing 
economic recession, and thus has enormous potential to immediately 
create new jobs. For example, the Outdoor Industry Association reported 
in October 2011 that the outdoor recreation industry grew at a rate of 
4.1percent in 2010 and 5.9 percent in 2011. As more people are using 
the outdoors, more jobs are being created, and nowhere is outdoor 
recreation more prevalent than State and local outdoor recreation 
areas.
    Virtually every community in New York has acquired and/or developed 
outdoor recreational facilities with the help of the LWCF State 
Assistance Program. As a result, the New York active outdoor recreation 
economy supports 130,000 jobs across New York, generates nearly $800 
million in annual State tax revenue, and produces $11.3 billion 
annually in retail sales and services.
    Arizonans also recreate close-to-home in local parks and venues. 
Parks like the De Anza Trail help the Arizona active outdoor recreation 
economy support 82,000 jobs across Arizona, generate nearly $350 
million in annual State tax revenue, and produce almost $5 billion 
annually in retail sales and services.
    Without the continued support of this committee for the Nation's 
treasured State and local parks and recreation sites, Congress would 
effectively contribute to State and local unemployment rates and deeper 
budget deficits.

Public Health
    The LWCF State Assistance Program plays a critical role in 
advancing parks and recreation that directly contributes to fighting 
our Nation's obesity and Type 2 diabetes epidemics. Several medical 
studies have shown that there is a strong correlation between proximity 
to recreational facilities and parks and increased participation in 
physical activity. It is estimated that obesity costs the United States 
Government about $344 billion in medical-related expenses by 2018, 
accounting for approximately 21 percent of healthcare spending. The CDC 
currently estimates 65 percent of adults and 16 percent of children are 
overweight or obese, and even small improvements in the lifestyles of 
Americans would yield marked health improvements and contribute 
substantially to decreasing the Nation's rising healthcare costs. In 
fact, CDC notes that the creation of or enhanced access to places for 
physical activity led to a 25.6 percent increase in the percentage of 
people exercising on 3 or more days per week. Investing in programs 
such as the LWCF State Assistance Program would provide a significant 
return on investment through the reduction in healthcare costs by 
ensuring access to places for physical activity.

Environmental Benefits
    The LWCF State Assistance Program not only meets important national 
goals and delivers tangible health and economic benefits to everyone; 
it also significantly contributes to protecting the environment and 
promoting environmental stewardship. LWCF State Assistance projects 
have a historical record of contributing to reduced and delayed 
stormwater runoff volumes, enhanced groundwater recharge, stormwater 
pollutant reductions, reduced sewer overflow events, increased carbon 
sequestration, urban heat island mitigation and reduced energy demands, 
resulting in improved air quality, increased wildlife habitat, and 
increased land values on the local level.
    For example, LWCF State Assistance funding allowed the Rhode Island 
Department of Environmental Management to complete the construction of 
a new beach facility at Salty Brine State Beach in Narragansett, Rhode 
Island. One of Rhode Island's most popular beaches, the new fully 
accessible facility is LEED Certified to the Silver Standard. According 
to DEM Director W. Michael Sullivan, the new bathhouse will generate 
more energy than it will use, making it the first State facility that 
is self-sufficient.
    In Clark County, Washington, LWCF funding enabled the Salmon Creek 
Greenspace to acquire uplands and riparian wetlands at the confluence 
of Salmon Creek and Morgan Creek will provide new trail access for 
hiking, walking and trail running. The 64-acre acquisition protects 
critical open space within the City of Battle Ground.
    In Juneau, Alaska, LWCF State Assistance funding was used to 
construct a ski lift, lodge, warming hut, trails, and maintenance 
buildings at the Eaglecrest Recreation Area.
    Mr. Chairman and members of the subcommittee, local parks and 
recreation agencies are not merely community amenities; they are 
essential services necessary for the economic and environmental 
vitality, as well as physical wellness, of communities throughout this 
country. LWCF's State Assistance Program has proven itself invaluable 
to improving State and local economies, while simultaneously reducing 
long-term healthcare costs through increased access to physical 
activity. This subcommittee and Congress have the rare opportunity to 
achieve national goals without increasing spending or adding to the 
deficit, and can do so by adopting three simple recommendations: do not 
zero out the LWCF; allocate a minimum of 40 percent of LWCF funding to 
the State Assistance Program; and prohibit any diversion of formula 
funds to a DOI competitive grant program.
    Thank you for the opportunity to present testimony. Please do not 
hesitate to contact Stacey Pine, Vice President of Government Affairs 
for NRPA at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96e5e6fff8f3d6f8e4e6f7b8f9e4f1">[email&#160;protected]</a> for more information.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance

    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2013 
appropriations for the Department of the Interior (DOI). We encourage 
Congress to provide the DOI Working Capital Fund with at least $70.6 
million in fiscal year 2013.
    The Natural Science Collections Alliance is a nonprofit association 
that supports natural science collections, their human resources, the 
institutions that house them, and their research activities for the 
benefit of science and society. We are comprised of over 100 
institutions which are part of an international community of museums, 
botanical gardens, herbariums, universities, and other institutions 
that house natural science collections and utilize them in research, 
exhibitions, academic and informal science education, and outreach 
activities.
    Scientific collections are a vital component of our Nation's 
research infrastructure. Whether held at a national museum, government 
managed laboratory or archive, or in a university science department, 
these scientific resources contain genetic, tissue, organismal, and 
environmental samples that constitute a unique and irreplaceable 
library of the Earth's history. The specimens and their associated data 
drive cutting edge research on significant challenges facing modern 
society, such as improving human health, enhancing food security, and 
understanding and responding to environmental change. Collections also 
inspire novel interdisciplinary research that drives innovation and 
addresses some of the most fundamental questions related to 
biodiversity.
    The institutions that care for scientific collections are important 
research centers that enable scientists to study the basic data of 
life, conduct modern biological, geological, and environmental 
research, and provide undergraduate and graduate students with hands-on 
training opportunities.
    The Federal Interagency Working Group on Scientific Collections 
(IWGSC) was established by President Bush to evaluate the status of 
federally owned object-based scientific collections. In 2009, the IWGSC 
reported that, ``scientific collections are essential to supporting 
agency missions and are thus vital to supporting the global research 
enterprise.'' In response, in 2010, the Office of Science and 
Technology Policy directed Federal agencies to budget for the proper 
care of collections. ``Agencies should ensure that their collections' 
necessary costs are properly assessed and realistically projected in 
agency budgets, so that collections are not compromised.''
    We are pleased to see that DOI has included an increase of $3.5 
million in its budget request for the Cultural and Scientific 
Collections program. Interior is an important caretaker of museum 
collections; the Department has an estimated 146 million items, which 
is second in size only to the Smithsonian Institution. Although many of 
the department's collections are located in bureau facilities, 
artifacts and specimens are also housed by non-governmental facilities, 
such as museums and universities.
    The fiscal year 2013 budget request would implement a multi-year 
action plan to address recommendations made by the DOI Inspector 
General regarding Interior's accountability for its cultural and 
scientific specimens. In a December 2009 report, the Inspector General 
found that DOI has failed to properly accession, catalogue, or 
inventory museum collections, leaving artifacts ``unavailable for 
research, education, or display and . . . subject to theft, 
deterioration, and damage.'' The proposed budget increase would support 
oversight and technical assistance for better care of collections, 
start a pilot project to identify and assess collections at non-Federal 
repositories, and study consolidation of bureau and non-bureau 
facilities housing collections.
    We support the proposed DOI study of bureau and non-bureau 
facilities housing biological collections to determine the potential 
for economies of scale, improvements of oversight and accountability, 
and space reduction. Because excellent public and private facilities 
already exist in every State, we believe the study is likely to 
conclude that contracting with existing bio-repositories that have the 
experience and expertise to house and curate the collections and 
associated data will be the most efficient and cost-effective means by 
which Federal agencies can access the collections data required to 
accomplish agency missions. We applaud the increased recognition by DOI 
and other Federal departments of the immense importance of biological 
collections and the data they provide in support of the Nation's 
research enterprise that ultimately drives economic growth, improves 
human health, addresses energy needs, and enables sustainable 
management of our natural resources.
    The National Park Service is also planning to continue its 
investments in collections. The proposed budget would support the third 
year of an initiative to eliminate the archival backlog at 165 parks 
and to address the recommendations made by the Interior Inspector 
General. In fiscal year 2013, the National Park Service plans to 
catalog an estimated 7.4 million additional museum objects through the 
Flexible Park Program.

                               CONCLUSION

    Scientific collections are an important part of our Nation's 
research enterprise. Research specimens connect us to the past, are 
used to solve current societal problems, and are helping to predict 
future environmental changes. Continued investments in scientific 
collections are critical for our Nation's continued scientific 
leadership. Please support the budget request for the Department of the 
Interior's Capital Working Fund, which will support Interior's efforts 
to preserve scientific collections--a truly irreplaceable resource.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation

    The request of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2013 Indian Health Service (IHS) budget is $21.6 million 
for the staffing of our new hospital and ambulatory care center which 
will open this fall. This is $10.9 million in addition to the 
administration's request of only $10.6 million.
    The Norton Sound Health Corporation is the only regional health 
system serving Northwestern Alaska, along the Bering Strait Region. The 
system includes a regional hospital, which we own and operate under an 
Indian Self-Determination and Education Assistance Act (ISDEAA) 
agreement, and 15 village-based clinics \1\.
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    NSHC is in the final stages of completing the construction of a 
replacement hospital and ambulatory care center facility in Nome. The 
construction was funded by the Recovery Act. NSHC worked its way over 
many years to the top of the IHS health facility construction priority 
system and when the Recovery Act was enacted we were in a position to 
be awarded $160 million in construction funds. The IHS and Norton Sound 
Health Corporation have been working together as government-to-
government partners to construct and furnish the new facility, in part 
under a Title V Construction Project Agreement under ISDEAA. 
Construction has proceeded on course and NSHC will open its new 
facility early this fall. Now, IHS has only to fund the expanded 
staffing needs for operation of the replacement hospital.
    The replacement facility is almost three times the size of the 
current Norton Sound Regional Hospital and will allow for increased 
patient visits in the primary and acute care areas, including chronic 
disease prevention and management, and allow us to provide enhanced 
trauma and emergency services. And the presence of a significant number 
of new jobs at the replacement hospital will give an economic boost to 
the Nome area.
    The Administration's Staffing Proposal Would Not Allow Optimal Use 
of the Facility.--The administration's request of funding for only 81 
new positions in fiscal year 2013 for the Norton Sound replacement 
hospital would greatly constrain our ability to effectively utilize 
this new facility. We point out to the Subcommittee that the IHS Alaska 
Area office recommended to IHS Headquarters that we need 159 new 
positions in fiscal year 2013, based on the IHS Resources Requirements 
Methodology (RRM), and that is what we are requesting. While NSHC will 
still be able to open in the fall if only 81 new positions are funded, 
the result would be that NSHC could not expand healthcare services, 
which is after all the purpose of the new and larger facility. NSHC 
would be limited to funding only the necessary maintenance, facilities, 
technology and security positions--few if any new needed healthcare 
provider positions could be filled.
    For instance, NSHC currently has two in-house dentists, while our 
new facility has space for a much needed 12-chair dental operation. The 
unmet dental need in our region is staggerinig, but under the 
administration's proposal we perhaps could add only one dentist. 
Failing to provide adequate dental staffing through a new staffing 
package will in essence result in a failure to fully realize the 
Recovery Act funding spent for the new hospital and its intention to be 
used to provide increased and quality healthcare services in Nome.
    Exacerbating the inadequate funding request is that the IHS 
provides funding for only 85 percent of what it identifies as staffing 
need. Further straining the staffing situation is the fact that we 
received no fiscal year 2012 funds for the costly transition to the new 
facility. Transition to a new and much larger facility requires a great 
deal of planning, training, and coordination. Patients must be 
transported, some equipment moved, and staff must master new mechanical 
and electrical systems, medical equipment and work flow systems. Just 
moving into the new facility will require $2-$3 million in operational 
costs that the Norton Sound Health Corporation cannot divert to 
staffing needs.
    Should NSHC receive only enough fiscal year 2013 funding for 81 new 
positions, it will greatly limit our ability to recruit and hire 
medical professionals; much of the hiring in fiscal year 2013 would of 
necessity be core operational staff, as opposed to additional 
healthcare providers. Even if additional funding is provided for 
staffing in fiscal year 2014, it is nearly impossible to successfully 
recruit medical staff--likely some who will need to move to Nome with 
their family--based on an anticipation of Congress potentially making 
the money available in a future year. Delaying the funding over a 2-
year fiscal period would thus prevent the Norton Sound Health 
Corporation from recruiting and filling needed healthcare professionals 
until well into 2015--up to 3 years or more after we open the new 
facility.
    Given the realities of the appropriations process, we greatly need 
the full funding in fiscal year 2013 for 159 new positions at a total 
cost of $21.6 million.
    Village Built Clinics Lease Program.--We also remind the 
Subcommittee that Norton Sound Health Corporation filed joint testimony 
with Aleutian Pribilof Islands Association, Bristol Bay Area Health 
Corporation and Maniilaq Association--all co-signers to the Alaska 
Tribal Health Compact--regarding the urgent need for additional fiscal 
year 2013 IHS funding for the Village Built Lease Program. As noted 
above, the Norton Sound Health Corporation healthcare system includes 
15 village built clinics.
    Thank you for your consideration of our request that adequate 
fiscal year 2013 IHS staffing funding be made available for the Norton 
Sound Health Corporation replacement hospital. We are very excited 
about the possibilities this facility brings for improved healthcare 
for the people of Northwestern Alaska. We are happy to provide any 
additional information you may request.
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition

    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, of Washington, DC. I 
appear here today as counsel to the National Tribal Contract Support 
Cost Coalition, comprised of 20 Tribes and tribal organizations 
situated in 11 States and collectively operating contracts to 
administer over $400 million in IHS and BIA facilities and services on 
behalf of over 250 Native American Tribes.\1\ Thank you for the 
opportunity to appear once again to discuss the legal duty and urgent 
need to fully fund the ``contract support costs'' that are owed these 
and other Tribes performing contracts and compacts on behalf of the 
United States pursuant to the Indian Self-Determination Act--
specifically $571 million for IHS contract support cost requirements 
and $228 million for BIA contract support cost requirements.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (AK), Arctic Slope Native Association (AK), Central Council 
of the Tlingit & Haida Indian Tribes (AK), Cherokee Nation (OK), 
Chippewa Cree Tribe of the Rocky Boy's Reservation (MT), Choctaw Nation 
(OK), Confederated Salish and Kootenai Tribes (MT), Copper River Native 
Association (AK), Forest County Potawatomi Community (WI), Kodiak Area 
Native Association (AK), Little River Band of Ottawa Indians (MI), 
Pueblo of Zuni (NM), Riverside-San Bernardino County Indian Health 
(CA), Shoshone Bannock Tribes (ID), Shoshone-Paiute Tribes (ID, NV), 
SouthEast Alaska Regional Health Consortium (AK), Spirit Lake Tribe 
(ND), Tanana Chiefs Conference (AK), Yukon-Kuskokwim Health Corporation 
(AK), and the Northwest Portland Area Indian Health Board (43 Tribes in 
ID, WA, OR).
---------------------------------------------------------------------------
    No single enactment has had a more profound effect on more tribal 
communities than has the Indian Self-Determination Act. In just three 
decades Tribes and inter-tribal organizations have taken over control 
of vast portions of the BIA and IHS, including Federal governmental 
functions in the areas of healthcare, education, law enforcement and 
land and natural resource protection. Today, not a single Tribe in the 
United States is without at least one self-determination contract with 
each agency, and collectively the Tribes administer over $2.82 billion 
in essential Federal governmental functions, employing an estimated 
35,000 people.
    In the IHS Aberdeen Area, over 20 percent of the IHS budget is 
under contract to the Tribes. In Alaska, 100 percent of the IHS budget 
and most of the BIA budget has been contracted over to the Tribes. From 
the Navajo Nation to the Pacific Northwest to California, Tribes in 35 
States have demanded their self-determination rights and secured 
control over IHS and BIA programs.
    The ISDA employs a contracting mechanism to carry out its goal of 
transferring essential governmental functions from Federal agency 
administration to tribal government administration. To carry out that 
goal and meet contract requirements, the Act requires that IHS and the 
BIA fully reimburse every tribal contractor for the ``contract support 
costs'' that are necessary to carry out the contracted Federal 
activities. (Cost-reimbursable Government contracts similarly require 
reimbursement of ``general and administrative'' costs.) Full payment of 
fixed contract support costs is essential: without it, offsetting 
program reductions must be made, vacancies cannot be filled, and 
services are reduced, all to make up for the shortfall. In short, a 
contract support cost shortfall is equivalent to a program cut.\2\
---------------------------------------------------------------------------
    \2\ Contract Support Costs are the necessary costs of operating a 
Federal program under contract. When the BIA and IHS operate these 
programs, the agencies are supported by their own bureaucracies and 
other Federal agencies (i.e., the General Services Administration, the 
Office of Personnel Management and the Department of Justice) to 
provide personnel and financial management systems, legal resources, 
procurement systems and the like. Tribal contractors require similar 
resources, as well as resources to meet mandatory Federal requirements 
such as annual audits. They cover those requirements with contract 
support costs. Most fixed contract support costs are set by Government-
issued indirect cost rates, with the rates issued based upon certified 
independent audits and adjusted based upon post-year audits.
---------------------------------------------------------------------------
    For years the administration failed to request full funding for its 
contract support cost obligations, and the resulting shortfalls grew. 
The first major effort to address this deficiency in the past 10 years 
occurred in fiscal year 2010, when Congress enacted a $116 million 
increase to narrow the IHS contract support cost shortfall by about 
one-half, and a $19 million increase to address BIA contract support 
cost shortfalls. The IHS increase, alone, will eventually restore 2,820 
health sector jobs in Indian country.
    Today IHS refuses to disclose its shortfall projections for fiscal 
year 2012 and fiscal year 2013. Based upon our own projections, we 
believe the shortfall this year will be approximately $60 million, and 
that the shortfall in fiscal year 2013 will approach $99 million. Our 
calculations and assumptions are attached to my testimony. 
(Unfortunately, IHS's failure to disclose data for the past 2 years 
means our projections are subject to change.) Unless remedied, we 
foresee a $99 million cut in tribally contracted programs next year--
not IHS-administered programs, but tribally administered health 
programs alone--to cover the shortfall that will be left unaddressed.
    In this context, IHS's request for a $5 million increase is 
shocking, all the more so given this Committee's instruction to IHS 
last year that the agency must prioritize fully funding these contracts 
before requesting other discretionary increases. In contrast, the BIA 
has responded to Indian Country, and it has heeded this Committee's 
instruction, by requesting $228 million--an amount the BIA says will 
fully fund all contract support cost requirements.
    It is not acceptable for the agency to prioritize discretionary 
increases over its contract obligations. It is not acceptable to seek 
deficit reduction by cutting contract payments. It is not acceptable to 
treat tribal contractors differently from other contractors. And it is 
not acceptable to single out tribally administered health programs for 
grave cuts in essential governmental services, while the agency seeks 
enhancements to the rest of its budget. Congress 24 years ago warned 
that the agencies ``must cease the practice of requiring tribal 
contractors to take indirect costs from the direct program costs, which 
results in decreased amounts of funds for services,'' S. Rep. No. 100-
274, at 9 (1987). At long last this practice must stop.
    Last year we detailed for the Committee the extraordinary impact 
that addressing CSC shortfalls has on job creation across Indian 
country. Just as the shortfall costs jobs, eliminating the shortfall 
restores jobs. Addressing the IHS shortfall in contract payments is 
therefore not just a matter of legal obligation and sound policy; it is 
good economics at a time of terrible unemployment.
    The National Tribal Contract Support Cost Coalition recommends the 
following:
  --The Coalition recommends that in fiscal year 2013 (1) the IHS 
        contract support cost line be increased to $571 million; and 
        that (2) the BIA's request to increase its contract support 
        cost line to $228 million be accepted.
  --The Coalition recommends that the Committee adopt language 
        requiring IHS and BIA to promptly disclose each year all 
        available contract support cost data--precisely as both 
        agencies have historically done up until the past year. 
        Language to address this issue accompanies my testimony. The 
        agencies are suddenly claiming that, because CSC data is 
        eventually wrapped up inside a formal Report to Congress, the 
        otherwise disclosable data cannot be disclosed until the Report 
        is fully cleared through each Department and through OMB. That 
        is a sure way to keep the data secret and under wraps for 
        years--witness the fact that only this month, March 2012, did 
        IHS submit its Report detailing 2009 data, 3 years too late. 
        Without data there is no way for Tribes, or Congress, to see 
        how these tribal funds are being managed.
      Such secrecy does not accompany any other agency funds, and only 
        leads one to speculate that the agencies have something to 
        hide. Indeed, last year's multiple IHS errors in projections 
        that were furnished to Congress suggest that the agencies want 
        to hide both their own errors and the magnitude of the 
        shortfalls. This is unacceptable, and it should not require 
        costly Freedom of Information Act lawsuits every year for 
        Tribes and Congress to learn what is going on inside the 
        agencies with appropriated funds.
      This is a major issue. Today Tribes have been denied all access 
        to 2011 data about how last year's appropriation--all of which 
        belongs to the Tribes--was spent. They are also being told that 
        they will not see how the 2012 funds, which Congress 
        appropriated in December, will be spent this year--not until 
        formal reports are sent to Congress years from now. They are 
        being denied access to the critical information that would 
        permit them to see if systemic errors are being made--a 
        particularly acute problem given the wholesale loss of all CSC 
        expertise within the agency. They are even being told that 
        Tribes, themselves, favor this secrecy--notwithstanding that 
        section 106(c) of the Indian Self-Determination Act mandates 
        Tribe-by-Tribe disclosure, and notwithstanding that such 
        diverse entities as the Great Plains Tribal Chairman's Health 
        Board, the Northwest Portland Area Indian Health Board, the IHS 
        Contract Support Cost Work Group (all attached), as well as 
        this 11 State, 20 Tribe, Coalition, all have demanded 
        disclosure.
  --The Coalition recommends that the Committee once again require both 
        agencies to consistently project and budget the additional CSC 
        requirements associated with new contracts and program 
        expansions (on average, 13.5 cents for each new IHS program 
        dollar, and 10.4 cents for each new BIA program dollar). The 
        IHS did this in its fiscal year 2012 budget, but ceased doing 
        it in the fiscal year 2013 budget. This is the first time in 
        some 25 years that IHS has not disclosed in its budget 
        justification its projection of CSC requirements for the coming 
        year. Congress cannot do its work without this information.
  --Finally, the Coalition recommends that the Committee reconcile the 
        different language used in the IHS and BIA portions of the 
        bill, and that the Committee eliminate the old ``section 314'' 
        language (a useless vestige after the Cherokee v. Leavitt 
        case). Variations in language only raise unnecessary questions 
        as to the Committee's intent. Suggested language accompanied 
        our testimony to the Committee last year.
    Thank you again for the opportunity to offer these recommendations.

                    INDIAN HEALTH SERVICE CONTRACT SUPPORT COST PROJECTIONS FISCAL YEARS 2011, 2012, 2013 AND 2014--FEBRUARY 15, 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                              Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
            FISCAL YEAR 2011
 
Fiscal year 2010 CSC need (from fiscal    \1\ $520,715,1
 year 2010 CSC data collected from                    03
 Tribes).
Tribal shares available for CSC (from        $32,683,845
 fiscal year 2010 CSC data).
IDC on unpaid DCSC in fiscal year 2010        $1,756,818             2011 program increases                                 54 percent      25 percent
 (calculated from fiscal year 2010 CSC
 data).
Base CSC funding (fiscal year 2010          $398,490,000  Services....................................  ...............  ...............  ..............
 appropriation).
Inflation for fiscal year 2011 at 1.5         $5,977,350  Facilities..................................  ...............  ...............  ..............
 percent.
Estimated new and expanded programs       ..............  Staffing of new facilities..................  ...............  ...............  ..............
 (ISD) in fiscal year 2011.
                                                                                                       -------------------------------------------------
CSC for program increases in the fiscal   ..............        TOTAL.................................  ...............  ...............  ..............
 year 2010 omnibus budget.
                                         ----------------                                              =================================================
      Total funding required in fiscal      $495,765,425
       year 2011.
      Base funding (fiscal year 2010        $398,490,478
       omnibus budget).
      Additional CSC needed in fiscal        $97,274,947
       year 2011.
Projected average CSC level of need                80.38
 funded (percent).
                                         ================
            FISCAL YEAR 2012                                         2012 program increases                                 60 percent      25 percent
 
Total funding required in fiscal year       $495,765,425  Services....................................     $64,361,881      $38,617,129       $9,654,282
 2010.
Inflation (DCSC at medical inflation          $8,069,432  Facilities..................................       6,712,000        4,027,200        1,006,800
 (3.6 percent)/IDC at regular Inflation
 (1.5 percent)).
Estimated new and expanded programs          $10,000,000  Staffing of new facilities..................      62,950,119       38,678,119        9,669,530
 (ISD) in fiscal year 2012.
                                                                                                       -------------------------------------------------
CSC for program increases in the fiscal   \2\ 20,330,612        TOTAL.................................     134,024,000       81,322,448       20,330,612
 year 2012 enacted budget.
                                         ----------------                                              =================================================
      Total CSC funding required in         $534,165,469                    $38,426,396--Increase in CSC need over previous fiscal year
       fiscal year 2012.
      Adjustment for additional tribal           $26,352
       shares and IDC on DCSC shortfall.
      Base funding (fiscal year 2012        $471,437,000             $72,946,522--Increase in CSC funding available over previous fiscal year
       enacted budget).
      Additional CSC needed in fiscal        $62,754,822
       year 2012.
Projected average CSC level of need                88.25
 funded (percent).
                                         ================
            FISCAL YEAR 2013                                         2012 program increases                                 60 percent      25 percent
 
Total funding required in fiscal year       $534,191,822  Services....................................      62,998,000       37,798,800        9,449,700
 2012.
Inflation (DCSC at medical inflation          $9,546,599  Facilities..................................       2,259,000        1,355,400          338,850
 (3.6 percent)/IDC at regular Inflation
 (1.5 percent)).
Estimated new and expanded programs          $10,000,000  Staffing of new facilities..................      49,236,000       49,236,000       12,309,000
 (ISD) in fiscal year 2013.
                                                                                                       -------------------------------------------------
CSC for program increases in the          \3\ 22,097,550          TOTAL...............................     114,493,000       88,390,200       22,097,550
 proposed fiscal year 2013 budget
 request.
                                         ================                                              =================================================
      Total CSC funding required in         $575,835,971                    $41,670,897--Increase in CSC need over previous fiscal year
       fiscal year 2013.
      Adjustment for additional tribal           $26,748
       shares and IDC on DCSC shortfall.
      Base funding (fiscal year 2013        $476,446,000              $5,009,000--Increase in CSC funding available over previous fiscal year
       President's budget).
      Additional CSC needed in fiscal        $99,416,719
       year 2013.
Projected average CSC level of need                82.74
 funded (percent).
                                         ================
            FISCAL YEAR 2014                                         2014 program increases                                    60 percent     25 percent
 
Total funding required in fiscal year       $575,862,719  Services....................................  ...............  ...............  ..............
 2013.
Inflation (DCSC at medical inflation          $9,648,032  Facilities..................................  ...............  ...............  ..............
 (3.6 percent)/IDC at regular Inflation
 (1.5 percent)).
Estimated new and expanded programs          $10,000,000  Staffing of new facilities..................  ...............  ...............  ..............
 (ISD) in fiscal year 2014.
                                                                                                       -------------------------------------------------
CSC for program increases in the          \4\ 21,214,081          TOTAL...............................  ...............  ...............  ..............
 proposed fiscal year 2014 budget
 request (average of previous 2 years)..
                                         ================                                              =================================================
      Total CSC funding required in          616,724,831                    $40,889,261--Increase in CSC need over previous fiscal year
       fiscal year 2014.
      Adjustment for additional tribal           $27,149
       shares and IDC on DCSC shortfall.
      Base funding (fiscal year 2013        $476,446,000                  $0--Increase in CSC funding available over previous fiscal year
       President's budget).
      Additional CSC needed in fiscal        140,305,980
       year 2014.
Projected average CSC level of need                77.25
 funded (percent).
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Taken from fiscal year 2010 contract support cost shortfall data collected from tribes.
\2\ CSC associated with the portion of the fiscal year 2012 appropriation increases that are to be included in Self-Determination awards. (60 percent of
  the increase, times 25 percent for CSC).
\3\ CSC associated with the fiscal year 2013 proposed budget increases that are anticipated to be included in Self-Determination awards. (60 percent of
  the increase, times 25 percent for CSC).
\4\ CSC associated with the fiscal year 2014 budget increases that are anticipated to be included in Self-Determination contracts and compacts. (Average
  of previous 2 years).
\5\ This amount does NOT include any CSC based on program increases anticipated in the proposed budget.


----------------------------------------------------------------------------------------------------------------
                                                                      Amount       Inflation \1\     ISD fund
----------------------------------------------------------------------------------------------------------------
Total CSC funding required in fiscal year 2015..................  \2\ $634,087,0     $12,335,040      $5,000,000
                                                                              19
Total CSC funding required in fiscal year 2016..................  \2\ $651,768,7     $12,681,740      $5,000,000
                                                                              60
Total CSC funding required in fiscal year 2017..................  \2\ $669,804,1     $13,035,375      $5,000,000
                                                                              35
----------------------------------------------------------------------------------------------------------------
\1\ Inflation is computed at 2.0 percent of the prior fiscal year's total requirement.
\2\ This amount does NOT include any CSC based on program increases anticipated in the proposed budget.


                                     INDIAN HEALTH SERVICE--DETAIL OF CHANGE
----------------------------------------------------------------------------------------------------------------
                                                     Fiscal year--
                                              --------------------------  Difference   Fiscal year   Difference
           Program enacted request                 2011         2012       2012 over       2013       2013 over
                                                 enacted      enacted        2011        request        2012
----------------------------------------------------------------------------------------------------------------
Services:
    Hospitals & Health Clinics...............   $1,762,865   $1,810,966      $48,101    $1,849,310      $38,344
    Dental Services..........................      152,634      159,440        6,806       166,297        6,857
    Mental Health............................       72,786       75,589        2,803        78,131        2,542
    Alcohol & Substance Abuse................      194,409      194,297         (112)      195,378        1,081
    Contract Health Services.................      779,927      843,575       63,648       897,562       53,987
                                              ------------------------------------------------------------------
      Total, Clinical Services...............    2,962,621    3,083,867      121,246     3,186,678      102,811
                                              ==================================================================
    Public Health Nursing....................       63,943       66,632        2,689        69,868        3,236
    Health Education.........................       16,649       17,057          408        17,450          393
    Community Health Reps....................       61,505       61,407          (98)       61,531          124
    Immunization AK..........................        1,930        1,927  ............        1,927  ............
                                              ------------------------------------------------------------------
      Total, Preventive Health...............      144,027      147,023        2,996       150,776        3,753
                                              ==================================================================
    Urban Health.............................       43,053       42,984          (69)       42,988            4
    Indian Health Professions................       40,661       40,596          (65)       40,598            2
    Tribal Management Grants.................        2,581        2,577  ............        2,577  ............
    Direct Operations........................       68,583       71,653        3,070        72,867        1,214
    Self-Governance..........................        6,054        6,044          (10)        6,044  ............
    Contract Support Costs...................      397,693      471,437       73,744       476,446        5,009
                                              ------------------------------------------------------------------
      Total, Other Services..................      558,625      635,291       76,666       641,520        6,229
                                              ==================================================================
      TOTAL, SERVICES........................    3,665,273    3,866,181      200,908     3,978,974      112,793
                                              ==================================================================
Facilities:
    Maintenance & Improvement................       53,807       53,721          (86)       55,470        1,749
    Sanitation Facilities Construction.......       95,665       79,582      (16,083)       79,582  ............
    Health Care Facilities Construction......       39,156       85,048       45,892        81,489       (3,559)
    Facilities & Environmental Health Support      192,701      199,413        6,712       204,379        4,966
    Equipment................................       22,618       22,582          (36)       22,582            -
                                              ------------------------------------------------------------------
      TOTAL, FACILITIES......................      403,947      440,346       36,399       443,502        3,156
                                              ==================================================================
      TOTAL, BUDGET AUTHORITY................    4,069,220    4,306,527      237,307     4,422,476      115,949
----------------------------------------------------------------------------------------------------------------
From DHHS/IHS Fiscal Year 2013 Justification of Estimates for Appropriation Committees.


------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
The fiscal year 2012 staffing packages total was
 $62,950,119
    Carl Albert.........................................      $2,487,000
    Lake Co HC..........................................       1,088,000
    Elbowoods...........................................       7,315,000
    Cheyenne River HC...................................      24,272,000
    Absentee Shawnee HC.................................       8,981,000
    Vinita HC...........................................       8,665,000
    Undesignated (place holder two JV facilities........       9,843,000
                                                         ---------------
      Total.............................................      62,651,000
                                                         ===============
The fiscal year 2013 staffing was estimated at
 $49,236,000
    Ardmore, OK.........................................       8,948,000
    Vinita, OK..........................................       2,792,000
    Tishomingo, OK......................................       5,341,000
    Wasilla, AK.........................................      13,462,000
    Fairbanks, AK.......................................       8,074,000
    Nome, AK............................................      10,619,000
                                                         ---------------
      Total.............................................      49,236,000
------------------------------------------------------------------------

    Notwithstanding any other provision of law, the Bureau of Indian 
Affairs and the Indian Health Service shall, on or before April 1 of 
each fiscal year, circulate to every tribal and tribal organization 
engaged in contracting or compacting under Public Law 93-638, as 
amended, data from the preceding year showing (1) for each tribe and 
tribal organization, nationally, and by Area and Region, the total 
amounts of funds provided for the direct costs of contracted or 
compacted programs, and the total amounts of funds provided for the 
contract support costs associated with such programs; (2) for each 
tribe and tribal organization, nationally, and by Area and Region, any 
deficiency (or surplus) in funds needed to provide required contract 
support costs; (3) the indirect cost rate and type of rate that has 
been negotiated with the appropriate Secretary for each tribe and 
tribal organization; (4) the direct cost base and type of base from 
which the indirect cost rate is determined for each tribe and tribal 
organization; (5) the indirect cost pool amounts and the types of costs 
included in the indirect cost pool; and (6) for the current fiscal 
year, each agency's calculation of the estimated national contract 
support cost requirement for all tribes and tribal organizations, based 
upon the President's most recent budget submitted to Congress.
                                 ______
                                 
               Northwest Portland Area Indian Health Board,
                             Portland, OR 97201, February 22, 2012.
Yvette Roubideaux, M.D., M.P.H.,
Director, Indian Health Service, 801 Thompson Avenue, Suite 440, 
        Rockville, MD 20852.
    Dear Dr. Roubideaux: On behalf of the IHS Contract Support Cost 
(CSC) Work Group, I want to thank you for reconvening the Work Group to 
begin the evaluation process concerning the 2007 CSC Policy contained 
in the IHS Manual. As the Tribal Chair of the CSC Work Group, I write 
to follow up on the Work Group's initial recommendations made during 
our January 31-February, 2012 Rockville, Maryland meeting.
    You charged the CSC Workgroup with reviewing and evaluating the 
2007 CSC Policy changes, but to also make recommendations on how to 
improve other aspects of the Policy. You also requested that we 
consider technical revisions to clarify definitions, consider deadlines 
and dates that are referenced in the Policy, and engage in a discussion 
about whether Tribes remain open to having their data disclosed for 
purposes of reporting CSC requirements and deficiencies. In order to 
address this ambitious agenda, I believe it is important that we 
identify specific follow-up actions needed for the CSC Workgroup to 
complete its work in an efficient manner and to prepare for our next 
meetings.
    As we explained during our exit meeting, the CSC Work Group cannot 
do an assessment of the 2007 CSC Policy until IHS complies with the 
existing Policy by releasing the data which the Policy currently 
requires be released. In substantial part, reviewing this data will 
permit the Work Group to assess how the 2007 changes which you have 
requested us to examine have worked over time. All of the data the CSC 
Work Group requested for fiscal year 2009, fiscal year 2010, and fiscal 
year 2011 is required to be disclosed under IHS Manual, Chapter 6-
3.5(8)(4). We expressly did not request the disclosure of congressional 
reports that are not yet cleared for disclosure. Again, absent 
disclosure of this raw data, the Work Group believes it cannot proceed 
with a full assessment of the 2007 Policy, as charged. I respectfully 
renew our request that this data be released.
    The CSC Workgroup also requests additional information concerning 
the following items:
  --When were the Ch. 6-3.5(B) data reports certified by the IHS Chief 
        Financial Officer for fiscal year 2009, fiscal year 2010 and 
        fiscal year 2011?
  --What specific provisions of the Manual does IHS propose be changed 
        and how does IHS propose they be changed? (A redline of IHS's 
        suggestions would expedite the Work Group's review and work.)
  --What provision of law or regulation has been relied upon by IHS to 
        withhold disclosure of the data reports regarding the 
        expenditure of closed appropriations? As we discussed, we 
        believe these disclosures are not only necessary to comply with 
        the Policy, but necessary to facilitate maximum tribal 
        consultation on issues directly impacting federally recognized 
        Tribes.
  --What is the allocation plan for the $74 million increase in 
        contract support cost appropriations enacted for fiscal year 
        2012? (The Manual requires the allocation by March 30, 2012, 
        and the Work Group believes that disclosure of the allocation 
        plan before allocations are made will maximize the President's 
        commitment to tribal consultation.)
  --How were the fiscal year 2010 and fiscal year 2011 CSC 
        appropriations allocated?
    The forgoing information is essential for the CSC Work Group to 
fully and properly review the existing CSC Policy, consistent with the 
government-to-government relationship and the President's commitment to 
maximum tribal consultation.
    With regard to dates and deadlines, I would note that, while some 
of the dates may initially be confusing, I understand that the dates 
and deadlines were specifically adopted to accommodate the declination 
and rejection deadlines that appear in the Indian Self-Determination 
Act. I also understand that other dates and deadlines were adopted by 
IHS to permit an orderly reporting process and a prompt allocation of 
appropriated funds based upon that data. It would be beneficial to the 
CSC Work Group to have IHS staff go through the Policy, to review the 
dates and logic behind them, and to propose other dates that might 
better achieve these goals consistent with the Act. The Work Group 
intends to do the same.
    Similarly with regard to definitions and terms, efficiency in Work 
Group meetings will best be served if IHS would identify the terms or 
definitions that agency staff would like us to consider revising, again 
using a ``redline'' method. CSC Work Group members should also feel 
free to prepare ``redline'' amendments which they would like the full 
Work Group to consider. All such redline documents should be shared 
with one another prior to our next meeting.
    Finally, I would like to accommodate the request of some CSC Work 
Group members for an orientation to CSC policy. Toward this end, I 
believe it would be most beneficial to arrange a joint Federal-Tribal 
panel that would provide a brief history of the CSC changes that have 
taken place over the years, and a discussion of how the key Policy 
provisions are being implemented. This will allow new Work Group 
members and IHS staff, alike, to see the evolution of the Policy to its 
present form. I understand that the goal of each successive change has 
been to improve equity across Tribes while maximizing tribal self-
determination. If so, the more Work Group members and IHS staff 
understand this evolution, the more likely we are to develop new 
recommendations consistent with those goals. I am committed to working 
with you to develop this joint Federal-Tribal presentation for the 
Workgroup.
    I am hopeful that with assistance from IHS staff we can get these 
requests organized and addressed over the next 2 weeks, so that we 
prepare an agenda for our next CSC Work Group meetings. I believe our 
request is consistent with your priorities to strengthen the IHS' 
partnership with Tribes and to have the work of IHS be as transparent, 
accountable, fair, and inclusive as possible. Our request is consistent 
with your principles to improve the work of IHS.
    I have directed my technical staff, Jim Roberts, NPAIHB Policy 
Analyst, to work with your office or designee to follow up on the 
details of this letter. You and your staff should feel free to contact 
Mr. Roberts at (503) 228-4185 or by email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6208100d0007101611220c12030b0a004c0d10054c">[email&#160;protected]</a>
            Respectfully,
                                        Andrew Joseph, Jr.,
    Chairperson, Colville Tribal Council Member, Tribal Chair, CSC 
                                                         Workgroup.
Enclosures:
    ATNI Resolution
    GPTCHB Resolution
              northwest portland area indian health board
Burns Paiute Tribe
Chehalis Tribe
Coeur d' Alene Tribe
Colville Tribe
Coos, Suislaw & Lower Umpqua Tribe
Coquille Tribe
Cow Creek Tribe
Cowlitz Tribe
Grand Ronde Tribe
Hoh Tribe
Jamestown S'Klallam Tribe
Kalispel Tribe
Klamath Tribe
Kootenai Tribe
Lower Elwha Tribe
Lummi Tribe
Makah Tribe
Muckleshoot Tribe
Nez Perce Tribe
Nisqually Tribe
Nooksack Tribe
NW Band of Shoshone Tribe
Port Gamble S'Klallam Tribe
Puyallup Tribe
Quilecute Tribe
Quinault Tribe
Samish Indian Nation
Sauk-Suiattle Tribe
Shoalwater Bay Tribe
Shoshone-Bannock Tribe
Siletz Tribe
Skokomish Tribe
Snoqualmie Tribe
Spokane Tribe
Squaxin Island Tribe
Stillaguamish Tribe
Suquamish Tribe
Swinomish Tribe
Tulalip Tribe
Umatilla Tribe
Upper Skagit Tribe
Warm Springs Tribe
Yakama Nation
  
                                 ______
                                 
              2012 WINTER CONVENTION, SHELTON, WASHINGTON
                           RESOLUTION #12-09

    ``REQUESTING THE INDIAN HEALTH SERVICES (IHS) DIRECTOR TO DIVULGE 
CONTRACT SUPPORT COST (CSC) DATA PURSUANT TO THE IHS CONTRACT SUPPORT 
COST POLICY; AND SUPPORT FOR THE NORTHWEST PORTLAND AREA INDIAN HEALTH 
BOARD (NPAIHB) FREEDOM OF INFORMATION ACT REQUEST FOR CSC DATA''

                                PREAMBLE

    We, the members of the Affiliated Tribes of Northwest Indians of 
the United States, invoking the divine blessing of the Creator upon our 
efforts and purposes, in order to preserve for ourselves and our 
descendants rights secured under Indian Treaties, Executive Orders, and 
benefits to which we are entitled under the laws and constitution of 
the United States and several States, to enlighten the public toward a 
better understanding of the Indian people, to preserve Indian cultural 
values, and otherwise to promote the welfare of the Indian people, do 
hereby establish and submit the following resolution:
    WHEREAS, the Affiliated Tribes of Northwest Indians (ATNI) are 
representatives of and advocates for national, regional, and specific 
tribal concerns; and
    WHEREAS, ATNI is a regional organization comprised of American 
Indians/Alaska Natives and tribes in the States of Washington, Idaho, 
Oregon, Montana, Nevada, Northern California, and Alaska; and
    WHEREAS, the health, safety, welfare, education, economic and 
employment opportunity, and preservation of cultural and natural 
resources are primary goals and objectives of the ATNI; and
    WHEREAS, on October 11, 2011, the Indian Health Service (IHS) 
Director sent a Dear Tribal Leader Letter initiating Tribal 
consultation on the IHS 2007 Contract Support Cost (CSC) Policy, the 
purpose of the consultation is to review and evaluate policy changes 
made in 2007, and to make recommendations on whether to continue or 
change the IHS CSC Policy; and
    WHEREAS, the 2007 CSC Policy revised the methodology associated 
with CSC funding for new or expanded awards under the Indian Self-
Determination and Education Assistance Act (ISDEAA, Public Law 93-638, 
as amended), at Section 6-3.3A(3) and Manual Exhibit 6-3-D; this change 
was temporary and implemented only for fiscal years 2007-2010. The CSC 
Policy further states that:

    ``To ensure responsiveness to the needs of Tribes in administering 
their health programs, and continued support of the IHS's commitment to 
the Federal Government's policy of Indian Self-Determination, the 
change will be monitored and fully evaluated during the fiscal year 
2010 funding period to determine if the change should be made 
permanent.''

All other aspects of the CSC Policy were unchanged; and
    WHEREAS, as part of the Tribal consultation process the IHS 
Director appointed a CSC Workgroup comprised of Tribal leaders or 
designees to act on their behalf who convened their first meeting in 
Rockville, Maryland on January 31-February 1, 2012; and
    WHEREAS, in order for the CSC Workgroup to evaluate the impact of 
the 2007 CSC Policy changes the Workgroup must have CSC data in order 
to assess the impact that the CSC Policy changes have had on the CSC 
shortfall, deficiencies, and to evaluate the impact of the policy 
change on new and expanded programs as well as the impact on current 
self-determination contractors and compactors; and
    WHEREAS, during the CSC Workgroup meeting the IHS Director refused 
to divulge CSC data with the Workgroup, which resulted at an impasse 
between the IHS Director and the Workgroup and resulted in the CSC 
Workgroup not being able to complete its charge to evaluate the 2007 
CSC Policy changes; and
    WHEREAS, the CSC Workgroup acknowledges that prior year's CSC data 
has been regularly disclosed by IHS to Tribal leaders, the public and 
to Indian Tribes at meetings attended by the IHS Director and by 
representatives of the Office and Management and Budget; and
    WHEREAS, the CSC Workgroup contends that there is no basis in law 
for withholding disclosure of the requested CSC data and documents; and
    WHEREAS, absent the CSC data the CSC Workgroup cannot and should 
not evaluate the impact of the 2007 CSC Policy changes, and to do so 
would not be fiscally prudent nor in the best interest of Indian 
Tribes; and
    WHEREAS, if IHS does not complete the evaluation of the 2007 policy 
changes, the Agency will be out of compliance with its CSC Policy; now
    THEREFORE BE IT RESOLVED, that ATNI does hereby request that the 
Office of Management and Budget, the Secretary for the Department of 
Health and Human Services and the IHS Director make available and 
disclose CSC data prepared pursuant to the IHS Contract Support Cost 
Policy at Chapter 6-3.5(B)(4) for fiscal year 2009, fiscal year 2010, 
and fiscal year 2011; and
    BE IT FURTHER RESOLVED, that ATNI does hereby acknowledge and 
support the Freedom of Information Act (FOIA) request made by the 
Northwest Portland Area Indian Health Board for Contract Support Cost 
data for fiscal year 2010, fiscal year 2011, and fiscal year 2012; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
ATNI until it is withdrawn or modified by subsequent resolution.
                             certification
    The foregoing resolution was adopted at the 2012 Winter Convention 
of the Affiliated Tribes of Northwest Indians, held at Little Creek 
Casino Resort, Shelton, Washington on February 13-16, 2012, with a 
quorum present.

                                                Fawn Sharp,
                                                         President.
                                          Norma Jean Louie,
                                                         Secretary.
                                 ______
                                 
              GREAT PLAINS TRIBAL CHAIRMAN'S HEALTH BOARD
                           RESOLUTION 2012-02

    WHEREAS, the Great Plains Tribal Chairmen's Health Board (GPTCHB) 
is comprised of the Chairmen/Presidents of seventeen (17) Tribes and 
one (1) Health organization in a four State area including North 
Dakota, South Dakota, Nebraska, and Iowa; and
    WHEREAS, federally recognized Indian Tribes have an absolute right 
to healthcare from the United States Federal Government, based on 
treaty rights, on Congressional Acts, on Federal Court decisions, and 
on the Federal Government's trust responsibility to Indian Tribes;
    WHEREAS, the GPTCHB is primarily responsible for addressing the 
health concerns and needs of the American Indian Tribes in the Aberdeen 
Area; and
    WHEREAS, the Great Plains Tribal Chairman's Association recognizes 
that over 20 percent of the Aberdeen Area IHS budget is currently 
operated by Tribes under self-determination contracts; and
    WHEREAS, tribes cannot operate these contracts properly without 
full reimbursement of indirect costs and other contract support costs; 
and
    WHEREAS, despite substantial increases in fiscal year 2010 and 
fiscal year 2012, IHS has historically failed (and continues to fail) 
to request full funding from Congress and failed (and continues to 
fail) to fully reimburse tribal contract support costs; and
    WHEREAS, services to tribal members suffer when Tribes have to use 
program funds to cover the shortfall in IHS contract support cost 
reimbursements; and
    WHEREAS, the law (25 U.S.C. 450j-1(c)) and the IHS Manual (IHS 
Manual Part 6, Chapter 3.5B) requires that IHS annually track and 
publish all indirect, contract support need and contract support 
shortfall data for every Tribe in the country;
    WHEREAS, in violation of the IHS Manual (IHS Manual Part 6, Chapter 
3.5B), HIS has failed and refused to distribute this data to all Tribes 
for fiscal year 2010, fiscal year 2011 and fiscal year 2012, either 
nationally or on an Area basis (showing data for all Tribes within each 
Area); and
    WHEREAS, due to this failure, Tribes cannot tell how IHS is 
handling and managing tribal contract support cost funds, either from 
Tribe to Tribe or from Area to Area, and also cannot tell how IHS is 
allocating its contract support cost appropriation and whether it is 
doing so in conformity with the law and the IHS Manual; and
    WHEREAS, the law mandates the public disclosure of all contract 
support and related data for every tribal contract, and Tribes 
therefore do not object to this disclosure of financial data regarding 
contracted Federal funds; and
    WHEREAS, IHS's failure to share its data on a timely basis, as 
mandated by the IHS Manual, is unprecedented, is particularly 
inappropriate for an Administration committed to transparency, and has 
contributed to a lack of trust in the Indian Health Service;
    NOW THEREFORE BE IT RESOLVED, that the Great Plains Tribal 
Chairman's Health Board calls upon the Director of IHS to immediately 
release all data specified in IHS Manual Part 6, Chapter 3.5B for 
fiscal year 2010, fiscal year 2011 and fiscal year 2012 for every Tribe 
in the United States, including data showing how IRS calculated the 
distribution of contract support cost funds in fiscal year 2010 and 
fiscal year 2011, and data showing how IHS has calculated the 
distribution of contract support cost funds for fiscal year 2012.
                             certification
    This is to certify that the foregoing Resolution was adopted by the 
GPTCHB Board/Executive Committee by Meeting/Conference Call/Special 
session, February 6, 2012 by a vote of _11_ FOR _0_ OPPOSED _7_ NOT 
VOTING.
    MOTION CARRIED/DENIED.
                                            Rodger Trudell,
                    GPTCHB Chairmen, Chairmen, Santee Sioux Nation.
                                            John Blackhawk,
       GPTCHB Vice-Chairmen, Chairmen, Winnebago Tribe of Nebraska.
                                 ______
                                 
    Prepared Statement of the National Tribal Environmental Council

    On behalf of the National Tribal Environmental Council (NTEC) and 
our 187 member tribes, we thank you for the opportunity to provide 
fiscal year 2013 funding recommendations for the Department of the 
Interior and other agencies under the purview of this Committee.
    Founded in 1991, NTEC works with federally recognized tribes to 
protect tribal environments. NTEC's mission is to support Indian Tribes 
and Alaska Natives in protecting, regulating, and managing their 
environmental resources according to their own priorities and values.
    Despite having some of the most pristine habitat in the United 
States, tribes have been historically underfunded for wildlife and 
natural resource management and conservation. There are 565 federally 
recognized American Indian tribes and over 300 reservations in the 
United States. Tribes manage 95 million acres of land, 11 million acres 
more than the National Park Service (NPS). Tribal lands contain more 
than 997,000 acres of lakes, 13,000 miles of rivers, and 18 million 
acres of forested lands. Tribal lands provide vital habitat for more 
than 525 federally listed plants and animals, many of which are both 
ecologically and culturally significant to tribes.
                     bureau of indian affairs (bia)
Interior Department (DOI) Cooperative Landscape Conservation Initiative
            Increase the Bureau of Indian Affair's allocation of the 
                    DOI's Climate Change Adaptation Initiative to $8.75 
                    million
    DOI began the Cooperative Landscape Conservation Initiative in 
2009, an undertaking that Indian tribes support. The administration's 
fiscal year 2013 budget request for the initiative is $175 million. The 
$136 million for the initiative in fiscal year 2011 did not include any 
funding for tribes.
    In fact, BIA repurposed $419,000 of its own funds for tribal 
participation in the DOI Cooperative Landscape Conservation Initiative. 
Out of the $175 million for the Initiative in fiscal year 2012, BIA was 
only allocated $200,000. As such, tribes were accorded a mere .001 
percent of the funding. Moreover, given the past failures to allocate 
new funding to BIA for this program, it is doubtful this funding will 
appear and likely that BIA will once again be compelled to repurpose 
its own funds. The lack of funding for tribes is highly inequitable, 
especially considering the disproportionate effect of climate change on 
tribes and their homelands. Sovereign Indian tribes deserve a broader 
seat at the table in the Climate Change Adaptation Initiative and a 
more equitable share of the funding.
    Tribal lands comprise 4 percent of the U.S. land base, but 
represent a higher percentage if compared to the Federal lands involved 
in the initiative. Tribal lands comprise 95 million acres which, 
divided by the total 587 million acres of Federal land, equal16 
percent. Tribal lands include 11 million acres more than NPS, yet the 
administration proposed nearly 50 times more funding for NPS in fiscal 
year 2012.

                              [In millions]
------------------------------------------------------------------------
                         Agency                                Acres
------------------------------------------------------------------------
BLM.....................................................             258
FWS.....................................................             150
BIA/Tribes..............................................              95
NPS.....................................................              84
                                                         ---------------
      Total.............................................             587
------------------------------------------------------------------------

    Given that tribal natural resources have been historically 
underfunded and there is no Federal program or funding that 
specifically supports tribal climate adaptation efforts, we request 
that the allocation to tribes via the BIA should be increased to $8.75 
million, or 5 percent of DOI's Cooperative Landscape Conservation 
Initiative, for tribes to address and adapt to the impacts of climate 
change. This funding level was justified in a report submitted to the 
House Interior Appropriations Subcommittee in May 2011.\1\ To achieve 
this equitable increase for tribes, the money provided to the various 
Interior agencies for the Initiative must be reallocated. We request 
that you include language in the bill directing the Secretary to set 
aside these funds for tribes.
---------------------------------------------------------------------------
    \1\ Tribal recommendations for the fiscal year 2012 Department of 
the Interior Climate Change Adaptation Initiative, transmitted on May 
20, 2011, to Mike Simpson, Chairman, House Subcommittee on Interior and 
Environment, www.ncai.org/fileadmin/appropriations/
Tribal_Recommendations_for_2012_ 
DOI_Climate_Change_Adaptation_Initiative.pdf.
---------------------------------------------------------------------------
Trust Natural Resources Program
            Provide $170.521 million for Bureau of Indian Affairs Trust 
                    Natural Resources Program
    The BIA Trust Natural Resources (TNR) Program represents the 
largest amount of base, Federal funding for tribal natural resource 
management. In 1999, the BIA reported that tribes had more than $356 
million of unmet annual needs for natural resource management.\2\ 
Despite some annual increases since then, the BIA and tribes have 
lagged significantly behind in funding compared to other Interior 
agencies. For example, the fiscal year 2013 budget requests increases 
of $34.5 million for USGS and $28 million for BLM, yet the request for 
BIA is a decrease of $110 million. Moreover, in roughly the last decade 
the BIA budget has grown only 8 percent compared to an average of over 
23 percent for other Interior agencies (FWS: 30 percent; NPS: 28 
percent; USGS: 19 percent; BLM: 13 percent). Because BIA spending on 
natural resources in the last 11 years has been relatively flat 
compared to inflation and BIA's budget has been historically inadequate 
to meet the natural resource needs of Indian tribes, their needs have 
multiplied. The fiscal year 2013 request is $13.51 million less than 
the fiscal year 2010 enacted level.
---------------------------------------------------------------------------
    \2\ U.S. Department of the Interior, Bureau of Indian Affairs, 
Report on Tribal Priority Allocations, July 1999, 52.
---------------------------------------------------------------------------
    Due to the significant unmet annual needs for tribal natural 
resource management and the historic underfunding of tribal natural 
resource base programs, we believe it is vital to augment TNR base 
funding. We request that $170.521 million be provided to the BIA TNR 
Program. We support allocating that amount to various TNR programs per 
the 2013 Indian Country budget request.\3\
---------------------------------------------------------------------------
    \3\ Available at: http://www.ncai.org/fileadmin/FY2013/
FY2013_Indian_Country_Budget_Request.pdf.
---------------------------------------------------------------------------
                  u.s. fish and wildlife service (fws)
Tribal Wildlife Grants Program
            Increase U.S. Fish and Wildlife Service Tribal Wildlife 
                    Grants funding to $8 million
    Unfortunately, tribes are not eligible for funding under Federal 
wildlife and fishery restoration programs such as the Federal Aid in 
Wildlife Restoration Act (Pittman-Robertson) or the Federal Aid in 
Sport Fish Restoration Act (Dingell-Johnson) that fund activities 
through an excise tax on hunting and fishing equipment. Although tribal 
members pay taxes that support this funding, they remain excluded from 
receiving the benefits and only States are allowed to access them.
    In 2002, Congress authorized FWS to provide funding to tribes under 
the Tribal Wildlife Grant (TWG) and Tribal Landowner Incentive Programs 
(TLIP). Tribal proposals for support often total more than $30 million 
annually. In fiscal year 2009, FWS only funded 41 TWG proposals out of 
101 submitted, awarding $7 million to tribes with a meager average 
award of $170,000. With 566 federally recognized tribes, competition is 
severe and tribes rarely receive sufficient funds to fully support 
important conservation efforts.
    In fiscal year 2011, States received nearly $1 billion from the 
Pittman-Robertson, Dingell-Johnson, and State Wildlife Grants programs. 
Thus, the $7 million tribes received from the TWG program was only .007 
percent of the amount States received. From 2002-2010, States received 
nearly 86 times more FWS funding than tribes for fish and wildlife 
conservation, or $6.25 billion for States compared to $72.2 million for 
tribes.\4\ In fiscal year 2011 and 2012, tribes only received $4.3 
million from TWG in each year.
---------------------------------------------------------------------------
    \4\ In this example, State funding includes the FWS Wildlife and 
Sport Fish Restoration Programs and State Wildlife Grants. Tribal 
funding includes the FWS Tribal Wildlife Grants and Tribal Landowner 
Incentive Program.
---------------------------------------------------------------------------
    Since the inception of the TWG program in 2002, no more than $7 
million per year has been made available on a competitive basis to the 
Nation's 565 federally recognized tribes. At this low level of funding, 
very few tribes receive any TWG funding; those receiving TWG funding 
typically get very little; and no tribe receives sufficient funding to 
sustain long-term tribal wildlife and natural resource management 
efforts. We request that TWG Program funding be increased to $8 million 
for fiscal year 2013.
                 environmental protection agency (epa)
General Assistance Program
            Increase funding to $75 million for the EPA General 
                    Assistance Program
    Since 1992, the EPA's Indian Environmental General Assistance 
Program (GAP) has served a critical need by providing funding to tribes 
to build capacity for environmental management. Unfortunately, GAP 
funding has not kept pace with the growth of tribal environmental 
programs over the years, forcing tribes to perform the increased duties 
of maturing programs with fewer resources. The average cost for tribes 
to sustain a basic environmental program was set at $110,000 per tribe 
in 1999 and has not been adjusted for inflation since that time. fiscal 
year 2012 funding for GAP was slightly more than $ 67.5 million. 
However, a $175,000 per tribe distribution (totaling almost $99 
million) would be more equitable for tribes. We request that the EPA 
GAP Program be funded at $75 million level to begin incrementally 
meeting the need of $99 million.
Multimedia Tribal Implementation Grants Program
            Authorize and appropriate $20 million for the Multimedia 
                    Tribal Implementation Grants Program
    The fiscal year 2012 EPA budget included a request for this new 
program to support on-the-ground implementation of environmental 
protection on tribal lands. This program would provide $20 million 
(almost $13 million less than the fiscal year 2011 request) for tribes 
to address their most pressing environmental needs. This program would 
allow tribes to move beyond the planning measures supported by GAP and 
begin implementing tribal environmental priorities. We request that the 
Multimedia Tribal Implementation Grants Program be funded at the $20 
million level.
Tribal Water Pollution Control, Clean Water Act Section 106
            Provide a tribal allocation of 20 percent
    Clean Water Act Section 106 grants are critical to tribal efforts 
to control water pollution. Such efforts include water quality planning 
and assessments; developing and implementing water quality standards 
and total maximum daily loads; providing ground water and wetland 
protection; and engaging in nonpoint source control activities. Between 
1998 and 2010, the number of eligible tribes to receive CWA Section 106 
funding increased from 141 to 257. The national CWA 106 allocation to 
tribes has remained flat and periodically decreased (e.g., 15.49 
percent in 1998 to as low as 11.55 percent in 2005). Only 40 of 565 
federally recognized tribes have EPA-approved water quality standards 
(WQS), yet the vast majority of States have them. Section 106 grants 
would enable tribes to bridge this gap. We request 20 percent of the 
national CWA Section 106 allocation be made specifically available to 
tribes.
Nonpoint Source Pollutant Control--Clean Water Act 319
            Eliminate caps on tribal funding for Nonpoint Source 
                    Pollution Control
    Clean Water Act Section 319 provides tribes with grants to develop 
and implement polluted runoff control programs that address critical 
water quality concerns identified in the 106 program and other 
monitoring programs. Tribal needs for this funding exceed availability. 
We request that any caps on tribal funding for Nonpoint Source 
Pollution Control be eliminated to help close the vast inequity in 
funding.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation

    Mr. Chairman and Members of the Subcommittee, I appreciate this 
opportunity to present the National Trust for Historic Preservation's 
recommendations for fiscal year 2013 appropriations. My name is Thomas 
J. Cassidy, Jr. and I am the Vice President of Government Relations and 
Policy. The National Trust is a privately funded nonprofit organization 
chartered by Congress in 1949. We work to save America's historic 
places to enrich our future. With headquarters in Washington, DC, 12 
field offices, 29 historic sites, and partner organizations in 50 
States, territories, and the District of Columbia, the National Trust 
protects significant historic sites and advocates for historic 
preservation as a fundamental value in programs and policies at all 
levels of government.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation, conservation and recreation programs should suffer from 
disproportionate funding reductions. We look forward to working with 
you, Mr. Chairman, as you address the ongoing needs for investments to 
sustain our Nation's rich heritage of cultural and historic resources 
that also generate the economic vitality of communities throughout the 
Nation.

                       HISTORIC PRESERVATION FUND

    The Historic Preservation Fund (HPF) is the principal source of 
funding to implement the Nation's historic preservation programs. Like 
the Land and Water Conservation Fund, its dedicated revenues are 
generated from oil and gas development on the Continental Shelf.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, inventory, public education, 
and project review for the Federal Historic Rehabilitation Tax Credit 
(HTC), State and Tribal Historic Preservation Plans, and the National 
Register of Historic Places. The HTC is the most significant Federal 
investment in historic preservation. It has catalyzed the 
rehabilitation of more than 38,000 buildings throughout the Nation. 
Since its creation 30 years ago, the HTC has created 2 million jobs and 
leveraged nearly $100 billion in private investment.
    The President proposes level funding for the Historic Preservation 
Fund at the fiscal year 2012 enacted level of $55.9 million. While we 
appreciate there is not a cut to this program, we recommend that the 
Committee provide a modest increase for this program reflecting ongoing 
demands for preservation services and the increasing number of Tribes 
who qualify for HPF THPO funding.
    We also look forward to working with the Committee to restore a 
program of competitive grant funding, such as formerly provided by Save 
America's Treasures, to provide matching grants to restore and preserve 
significant historic resources such as the Star Spangled Banner, the 
World Trade Center's Vesey Street Stairway, Touro Synagogue in 
Providence, Rhode Island and the Holy Assumption Orthodox Church in 
Kenai, Alaska.

NATIONAL PARK SERVICE: OPERATION OF THE NATIONAL PARK SYSTEM, CULTURAL 
                         RESOURCES STEWARDSHIP

    Two-thirds of our National Parks were created to protect our most 
important historic and cultural resources. Over the past two decades, 
the National Park Service (NPS) has added over 30 new parks, which are 
predominantly cultural and historical in value. However, funding for 
cultural resources stewardship has not receiving support commensurate 
with natural resources stewardship. During the fiscal year 2010 budget 
hearings, then Acting National Park Service Director Dan Wenk stated 
that NPS had been neglectful of cultural resources. A report of the 
National Academy of Public Administration (NAPA) found that during the 
fiscal year 1999-2006 period the NPS bolstered stewardship of natural 
resources by an additional $77.5 million. However, during this same 
period, funding for park cultural programs decreased by 28 percent. 
Since the release of the NAPA report we have seen no significant effort 
by NPS to create funding parity between natural and cultural resources 
in the Park Base Operations Funding. And, although the fiscal year 2013 
budget requests an increase in natural resources stewardship, there is 
a reduction proposed for cultural resources. We urge the Committee to 
at least restore the cultural resources stewardship account to its 
fiscal year 2012 enacted levels.

        NATIONAL PARK SERVICE: FACILITY OPERATIONS & MAINTENANCE

    Of the nearly $11 billion deferred maintenance needed for NPS, $3 
billion is for the 27,000 properties in National Park units listed on 
the National Register of Historic Places. According to a report issued 
by the National Academy of Public Administration, Saving Our History: A 
Review of National Park Cultural Resource Program (2008), more than 40 
percent of historic buildings and structures in our national parks are 
in fair or poor condition. Without funding, the condition of these 
properties will continue to deteriorate and become more expensive to 
repair and preserve in the future. Therefore, we recommend that the 
Committee restore the proposed $15 million cut from the repair, 
rehabilitation, and maintenance accounts and provide funding at the 
fiscal year 2012 enacted level. The National Trust is conducting 
fundraising efforts to address the gap--most recently and successfully 
at White Grass Dude Ranch in Grand Teton National Park--but private 
money must be matched by Federal money. Continued loss of Federal 
maintenance money will reduce the opportunity to raise private funds 
for the preservation of these important structures.
    The Administration is proposing a significant reduction in the 
line-item Construction account, most of which funds new construction. 
We are concerned, however, that the proposed reduction not adversely 
impact important rehabilitation of historic structures.

  NATIONAL PARK SERVICE: LEASING HISTORIC STRUCTURES IN NATIONAL PARKS

    We appreciate the Committee's inclusion of language in the fiscal 
year 2012 conference report recognizing that historic leases provide a 
cost-effective and innovative solution to mitigate the maintenance 
backlog of historic structures. We are working with the NPS and private 
partners to successfully implement such leases and bring private 
investment to rehabilitation expenses.
    One promising new and cost-effective opportunity for the NPS to 
address the backlog of historic maintenance in the parks is through the 
recently signed MOU establishing ``Historicorps,'' a new cooperative 
among NPS, the other Federal land agencies, and several NGOs, including 
the Student Conservation Association and The Corps Network.

             NATIONAL PARK SERVICE: NATIONAL HERITAGE AREAS

    We are disappointed that the Administration has proposed a nearly 
50 percent decrease in funding for the National Heritage Areas (NHAs). 
The proposed reduction, justified as ``encouraging self-sufficiency,'' 
would severely impair the sustainability of the program and the 
individual NHAs that Congress has established, including the John H. 
Chafee Blackstone River Valley National Heritage Area. A recent NPS 
study found ``without funding to replace the NPS investment, few NHAs 
are expected to survive longer than a few years.'' NPS Northeast 
Region, Report of Impacts and Operation Strategy for Sunsetting 
National Heritage Areas (2012).
    During these challenging economic times, every program that 
receives Federal funding needs to justify its worth and deliver 
substantial benefits to the American public. NHAs more than meet this 
test. They are congressionally designated places where community driven 
partnerships advance heritage conservation and economic development. 
Heritage areas have a proven record of fostering job creation and 
advancing economic, cultural, historic, environmental, and community 
development through their leverage of each Federal dollar by $5.50 of 
non-Federal investments. We urge the Committee to maintain funding for 
NHAs at the fiscal year 2012 enacted level.

   BUREAU OF LAND MANAGEMENT: NATIONAL LANDSCAPE CONSERVATION SYSTEM

    The Bureau of Land Management's (BLM) National Landscape 
Conservation System (National Conservation Lands) includes 27 million 
acres of congressionally and presidentially designated lands, including 
National Monuments, National Conservation Areas, Wilderness, Wilderness 
Study Areas, National Scenic and Historic Trails, and Wild and Scenic 
Rivers.
    The National Conservation Lands protect some of our country's most 
significant historical and cultural resources, yet the BLM's ability to 
steward these resources is undermined by insufficient funding averaging 
$59.6 million, or just $2.20 per acre. The National Conservation Lands 
are just one-tenth of BLM managed lands but they host one-third of all 
BLM's visitors. This high visitation rate has resulted in increased 
needs to protect and steward historic and archaeological sites from 
looting and reckless off-road vehicle use. Without sufficient funding, 
the BLM also struggles to complete essential resource protection, such 
as signing trails, closing illegal and unnecessary routes, and 
inventorying and protecting cultural sites.
    We support the Administration's fiscal year 2013 request of $69.549 
million, a proposed increase of $4.58 million over the fiscal year 2012 
enacted level, to prevent critical damage to the resources found in 
these areas, ensure proper management and provide for a quality visitor 
experience. This funding level would enable BLM to hire essential 
management and law enforcement staff, monitor and protect natural and 
cultural resources, close unauthorized routes that fragment fragile 
ecosystems, and undertake needed ecosystem and species restoration 
projects.

        BUREAU OF LAND MANAGEMENT: CULTURAL RESOURCES MANAGEMENT

    The BLM oversees the largest, most diverse, and scientifically most 
important body of cultural resources of any Federal land managing 
agency, including 21 National Historical Landmarks, 5 World Heritage 
Sites, and more than 263,000 documented cultural properties. However, 
yet BLM receives the least amount of cultural resources money per acre 
of any Federal agency. In the 34 years since the enactment of the 
Federal Land Policy and Management Act (FLPMA) only 8 percent of the 
land managed by the BLM has been surveyed for cultural resources. 
Understanding the location and significance of cultural resources on 
BLM land creates greater certainty in decisionmaking about land uses 
including energy development, recreation, and resource protection. 
Proactive survey for cultural resources is also required under the 
National Historic Preservation Act. A long term goal of surveying 20 
percent of BLM land would be a significant step toward helping our 
Nation efficiently and cost effectively develop energy resources on our 
public lands. We strongly support the President's fiscal year 2013 
request of $17.325 million for Cultural Resources Management, an 
increase of $1.22 million over fiscal year 2012 enacted.

                LAND AND WATER CONSERVATION FUND (LWCF)

    The National Trust supports robust funding for the Land and Water 
Conservation Fund. Many of the Nation's most significant historic and 
cultural landscapes have been permanently protected through LWCF 
investments, including the Flight 93 National Memorial, Minidoka 
National Historic Site, Lewis and Clark National Historic Trail, 
Gettysburg National Military Park, Martin Luther King Jr. National 
Historic Site, Canyons of the Ancients National Monument, and Harpers 
Ferry National Historic Park. We strongly support the Administration's 
fiscal year 2013 request for NPS Civil War Sesquicentennial Units and 
American Battlefield Protection Program Grants.

               ADVISORY COUNCIL ON HISTORIC PRESERVATION

    We are concerned that the Administration proposes a 6.2 percent 
reduction for the operating budget of the Advisory Council on Historic 
Preservation (ACHP). Although the overall request for the ACHP is an 
increase over fiscal year 2012 enacted, this is solely because of an 
increase of $1.3 million included specifically for the agency's move 
from its headquarters in the Old Post Office.
    The National Trust recommends a continuation of fiscal year 2012 
enacted funding, plus the $1.3 million for the required move requested 
by the President. In addition, we suggest the Committee include report 
language recommending the President appoint a full-time Chairman. Such 
a recommendation was made by the ACHP membership at its November 2011 
meeting, as did a task force of historic preservation organizations, 
including the National Trust. We believe a full-time Chairman would 
enhance the effectiveness of the ACHP.

  ENVIRONMENTAL PROTECTION AGENCY: OFFICE OF SUSTAINABLE COMMUNITIES 
                                 (OSC)

    The National Trust supports the President's fiscal year 2013 
request for funding EPA's Office of Sustainable Communities (OSC). OSC 
is helping America's communities become more sustainable by encouraging 
the renovation of historic buildings and the revitalization of older 
neighborhoods. Repurposing older buildings--particularly those that are 
vacant--reduces the need for construction of new buildings and the 
consumption of land, energy, materials, and financial resources that 
they require.
    The fiscal year 2013 funding request would enable OSC to continue 
its technical assistance to tribal, state, regional and local 
governments and to remain a strong partner with the U.S. Department of 
Transportation and the U.S. Department of Housing and Urban Development 
in the Partnership for Sustainable Communities. It will also support 
such programs as Building Blocks for Sustainable Communities, Greening 
America's Capitals, Smart Growth Implementation Assistance, and Smart 
Growth Implementation Assistance for Coastal Communities. For example, 
in Concord, New Hampshire, OSC helped identify ways to support 
redevelopment of historic properties in the downtown core that comply 
with new energy-efficiency and green building standards while also 
conforming to historic preservation codes.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2013 Interior, Environment and 
Related Agencies appropriations bill.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation

    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest conservation advocacy and education organization, and our more 
than 4 million members and supporters, we thank you for the opportunity 
to provide fiscal year 2013 funding recommendations for the Department 
of the Interior and other agencies under the jurisdiction of this 
Subcommittee.
    We understand the very difficult budget choices facing the 
Subcommittee and the Nation as we move forward under the constraints of 
the Budget Control Act. That said, it is our belief that 
disproportionate cuts to conservation programs represent policy 
positions not consonant with the priorities and values of most 
Americans. These programs protect cherished lands and waters and 
conserve the natural resources that are vital to the Nation's continued 
economic vitality. Recent studies estimate that outdoor recreation, 
nature conservation, and historic preservation account for $1.06 
trillion in overall economic activity and support 9.4 million jobs each 
year. Outdoor recreation alone generates more than $49 billion in 
annual Federal tax revenue.
    NWF and its members remain concerned about proposed funding 
reductions to many of the Federal Government's core commitments and 
programs for conserving fish and wildlife, sustaining and restoring 
important ecosystems, and maintaining clean air and water. Perhaps of 
even greater concern are efforts to rewrite the Nation's landmark 
environmental laws through the use of policy riders on the 
appropriations bill. National Wildlife Federation urges the 
Subcommittee to make the necessary investments in our essential 
conservation and environmental programs and commitments in the fiscal 
year 2013 appropriations bill, and to pass a bill free of such riders.
    National Wildlife Federation is overall supportive of the 
President's fiscal year 2013 budget request, which we view as balancing 
fiscal responsibility with continued investments in essential 
conservation and environmental programs. Below, we offer 
recommendations for specific budget items and programs.

                     U.S. FISH AND WILDLIFE SERVICE

State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the Nation's core 
program for preventing wildlife from becoming endangered in every 
State. We are extremely concerned about the impact on the Nation's 
wildlife of the nearly 30 percent cut to this program in the fiscal 
year 2012 appropriations bill, which included a significant reduction 
to the tribal component of the program. We urge Congress to honor its 
commitment to this important effort and strongly recommend funding this 
program at its previous level of $90 million, a $28.7 million increase 
from the President's fiscal year 2013 request of $61.3 million.
Cooperative Landscape Conservation and Adaptive Science
    Safeguarding fish and wildlife resources from climate change is a 
major concern for the entire natural resource conservation community, 
and the Fish and Wildlife Service's Landscape Conservation Cooperatives 
represent an important means for leveraging Federal, State, and private 
resources to achieve effective conservation outcomes. We urge Congress 
to meaningfully address the very real threats of climate change to our 
fish and wildlife and support the administration's request of $33 
million for cooperative landscape conservation and adaptive science.
Cooperative Endangered Species Fund
    The Cooperative Endangered Species Fund provides essential 
assistance to States for the protection of endangered species on non-
Federal lands. We strongly support the President's fiscal year 2013 
request of $60 million.
National Wildlife Refuge System Operations and Maintenance
    The National Wildlife Refuge System is the largest system in the 
world dedicated to wildlife conservation. Simply maintaining the 
management capability to operate the Refuge System requires a $15 
million increase each year. NWF, in support of the Cooperative Alliance 
for Refuge Enhancement (CARE), strongly endorses the President's fiscal 
year 2013 funding request of $495 million for Operations and 
Maintenance for the National Wildlife Refuge System. Should across-the-
board sequestration cuts of 9-10 percent take effect in fiscal year 
2013, the impacts to the Refuge System would be devastating and could 
force FWS to close or end major programs at more than 130 refuges.

                         U.S. GEOLOGICAL SURVEY

Climate Science Centers
    The National Climate Change and Wildlife Science Center and 
associated regional Climate Science Centers are important for improving 
the scientific support required to successfully cope with the 
challenges of a changing climate. NWF is supportive of the 
administration's proposed $26.2 million in funding for fiscal year 
2013.

                        BUREAU OF INDIAN AFFAIRS

Trust Natural Resources Program
    The BIA Trust Natural Resources (TNR) Program represents the 
largest amount of base, Federal funding for tribal natural resource 
management. Funding, however, has not kept pace over the decade with 
inflation or the increasing needs of tribes to manage natural 
resources. We are strongly supportive of the administration's fiscal 
year 2013 request of $162.11 million, which is $4.86 million more than 
in fiscal year 2012. Among these increases, we are particularly 
supportive of the $800,000 in additional funding for tribal 
collaboration with DOI Landscape Conservation Cooperatives. Although we 
believe that tribal engagement in climate adaptation is still severely 
underfunded, we are supportive of the administration's fiscal year 2013 
request of $1 million for this activity.

                       BUREAU OF LAND MANAGEMENT

National Landscape Conservation System
    The National Landscape Conservation System contains many of the 
most special places in the American West. Funding the Conservation 
Lands at the President's fiscal year 2013 funding request of $69.5 
million is needed to prevent critical damage to the resources found in 
these areas, ensure proper management, and provide for a quality 
visitor experience.

                          NEW ENERGY FRONTIER

    The New Energy Frontier initiative provides resources for six 
bureaus across DOI for renewable energy planning, leasing, and 
permitting activities. The initiative presents an opportunity for the 
nation to facilitate large-scale clean energy projects without 
compromising crucial wildlife interests and investments. NWF strongly 
supports the President's request of $86.5 million for fiscal year 2013, 
an increase of $15.2 million from fiscal year 2012 enacted.

                          U.S. FOREST SERVICE

Urban and Community Forestry Program
    The Urban and Community Forestry program improves the forests where 
people live, work, and play. With urban tree canopies in decline, the 
program is critical to support carbon sequestration, energy 
conservation, stormwater management, and air quality, while also 
providing cooling benefits in urban areas. We support the President's 
fiscal year 2013 request of $28 million for this program. We also 
support the request of $4 million for the recently established 
Community Forest and Open Space Program.
Landscape Scale Restoration
    The new Landscape Scale Restoration line item streamlines the 
budget while continuing USFS's landscape-scale restoration efforts to 
sustain and create jobs, restore ecosystem resilience, and enhance 
recreation infrastructure. This new line item formalizes the State and 
Private Forestry Redesign process, funding to State-level projects and 
allowing the engagement of multiple landowners across boundaries. We 
support the President's fiscal year 2013 budget request of $18 million 
for this new line item.

                    LAND AND WATER CONSERVATION FUND

    The Land and Water Conservation Fund (LWCF) is the primary tool of 
the Federal Government for acquiring land valuable for wildlife habitat 
and open space. LWCF is authorized to receive $900 million in revenue 
from offshore oil and gas drilling annually. Nonetheless, this program 
has been woefully underfunded over the years, with only a fraction of 
the dedicated revenues appropriated and available for use. National 
Wildlife Federation strongly endorses the President's fiscal year 2013 
request of $450 million for the Land and Water Conservation Fund. In 
addition, we support current legislative efforts to provide robust and 
dedicated funding for LWCF outside of the budget process.

                    ENVIRONMENTAL PROTECTION AGENCY

Urban Waters Grant Program
    Most Americans now live in urban areas, but our urban waterways are 
imperiled from the effects of human development, including pollution 
from industrial point-source pollution and urban stormwater runoff. The 
Urban Waters Grant Program not only funds innovative approaches for 
water quality improvements that benefit aquatic ecosystems, but also 
revitalizes urban waterfronts, providing economic benefits and 
recreation value for residents. We support the President's fiscal year 
2013 budget request of $4.4 million for this program.
Geographic Programs--Ecosystem Restoration Initiatives
    America's Great Waters are the lifeblood of our Nation. Sustained, 
consistent restoration funding is crucial for the successful 
implementation of multi-year, complex ecosystem restoration plans. As 
such, we are concerned that this important funding is reduced for the 
second year in a row. While NWF is fully supportive of the proposed 
increases for EPA's Chesapeake Bay Program Office ($57.4 million 
requested), we are concerned about significant proposed funding 
decreases for several other regional efforts, and urge Congress to 
restore funding to fiscal year 2010 levels for: Great Lakes Restoration 
Initiative ($475 million vs. $300 million); Long Island Sound ($7 
million vs. $5.3 million); and Puget Sound Program ($50 million vs. $30 
million).
EPA National Estuary Program
    The National Estuary Program (NEP) works to restore and protect 
nationally significant estuaries. Unlike traditional regulatory 
approaches to environmental protection, the NEP targets a broad range 
of issues and engages local communities in the process. The program 
focuses not just on improving water quality, but on maintaining the 
integrity of the whole system--its chemical, physical, and biological 
properties, as well as its economic, recreational, and aesthetic 
values. NWF is disappointed in the reduction in funding proposed for 
this program, and recommends $30 million, a $3 million increase from 
the fiscal year 2012 enacted.
Clean Water State Revolving Fund
    Since the 1970's, CWSRF projects have helped improve the quality of 
wastewater treatment in communities throughout the country. Yet the job 
is far from complete and the Nation faces trillions of dollars in 
funding needs to repair aging wastewater treatment systems and keep our 
rivers and streams pollution free. To provide States with needed 
funding to upgrade aging sewer systems and to comply with the Clean 
Water Act, NWF urges Congress to increase funding from the President's 
fiscal year 2013 request of $1.46 billion to $2 billion.
Clean Water Act 319 Nonpoint Pollution Reduction Program
    When Congress recognized the need for greater Federal leadership in 
assisting with nonpoint source pollution reduction efforts, The Clean 
Water Act was amended to establish Section 319. Continued funding for 
the Nonpoint Source Management Program will provide State and local 
nonpoint source remediation efforts with the funds that are crucial to 
the implementation of these projects. As such we recommend that the 
Subcommittee increase program funding from the $164.7 million requested 
by the President to the fiscal year 2012 enacted level of $175 million.
Air/Climate Programs
    NWF supports EPA's priority goal of improving the country's ability 
to measure and control greenhouse gas emissions, and we support the 
President's request of $825.4 million for this activity, an increase of 
$56.4 million over fiscal year 2012 enacted. This funding will allow 
the agency to conduct statutorily mandated work on the National Ambient 
Air Quality Standards for criteria pollutants, including ozone. We also 
support the requested $32.8 million increase over the fiscal year 2012 
enacted level for climate protection, allowing the Agency to support a 
full range of approaches for reducing GHGs and the risks they pose to 
human health and the environment.
National Environmental Education Act Programs
    EPA's Office of Environmental Education implements highly 
successful, nationwide environmental education programs. We are 
grateful for the Subcommittee's support of environmental education in 
previous years and recommend fiscal year 2012 baseline funding levels 
for NEEA at $9.7 million in fiscal year 2013.
                                 ______
                                 
           Prepared Statement of Friends of Rachel Carson NWR

    Mr. Chairman and Honorable Members of the Subcommittee, I am Bill 
Durkin, President of the Friends of RCNWR in Maine. I have been a 
member of the Friends of Rachel Carson NWR for the past 20 years. The 
group was founded in 1987; we are a small group of about 200 members. 
This time of the year all of the letters go out to Congress asking for 
support of the refuge. I have given numerous written statements over 
the years and we really appreciate your support in the past. This year, 
our refuge is not requesting any appropriations directly for Rachel 
Carson National Wildlife Refuge; this is a request for general funding 
of the System. I thank you all for your consideration.
  --We are requesting an overall funding level of $495 million in 
        fiscal year 2013 for the operations and maintenance budget of 
        the National Wildlife Refuge System, managed by the U.S. Fish 
        and Wildlife Service. This would be level funding from fiscal 
        year 2012. All of the refuges are in dire need of staffing and 
        upkeep. Refuges provide unparalleled opportunities to hunt, 
        fish, watch wildlife and educate children about the 
        environment. Without increased funding for refuges, wildlife 
        conservation and public recreation opportunities will be 
        jeopardized.
  --Refuges are vital places for the American people to connect with 
        nature and get involved. Currently, refuge Friends and 
        volunteers do approximately 20 percent of all work on refuges. 
        In 2011, these 1.5 million hours equated to roughly 8 
        volunteers for every 1 Refuge System employee. Without staff to 
        oversee volunteers, their commitment and passion is lost, as is 
        their desperately needed contribution to the System. We request 
        $80 million for Visitors Services for the NWRS.
  --The Land and Water Conservation Fund is our Nation's premier 
        Federal program to acquire and protect lands at national parks, 
        forests, refuges, and public lands and at State parks, trails, 
        and recreational facilities. These sites across the country 
        provide the public with substantial social and economic 
        benefits including promoting healthier lifestyles through 
        recreation, protecting drinking water and watersheds, improving 
        wildfire management, and assisting the adaptation of wildlife 
        and fisheries to climate change. For all these reasons, LWCF 
        needs to be funded at the $700 Million level. Created in 1965 
        and authorized at $900 million per year (more than $3 billion 
        in today's dollars), the LWCF is our most important land and 
        easement acquisition tool. The President has included 
        meaningful increases to the program in his fiscal year 2013 
        budget, and I support the Administration's commitment to fully 
        funding the program in the near future. This wise investment in 
        the Land and Water Conservation Fund is one that will 
        permanently pay dividends to the American people and to our 
        great natural and historical heritage.
    The Land and Water Conservation Fund should be fully funded at $900 
million annually--the congressionally authorized level. LWCF is good 
for the economy, it is good for America's communities and their 
recreational access and it is critical for our public lands.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best seller The Sea 
Around Us. This landmark study, led Rachel Carson to become an advocate 
on behalf of this Nation's vast coastal habitat and the wildlife that 
depends on it, the refuge that bears her name is dedicated to the 
permanent protection of the salt marshes and estuaries of the southern 
Maine coast. This year, we will be celebrating the 50th anniversary of 
Rachel Carson's publication of her historic book, Silent Spring.
    I again extend our appreciation to the Subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior Appropriations Subcommittee allocate $495 million 
for the Refuge System's fiscal year 2013 Operations & Maintenance (O&M) 
budget, $80 million for Visitors Services of the NWRS, and fund the 
LWCF at the $700 million level.
    Thank you again, Mr. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and its habitat. Enjoy your 
next walk out on a National Wildlife Refuge.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, Friends 
organization affiliates and concerned citizens, thank you for your 
strong support for the National Wildlife Refuge System (NWRS). The NWRA 
appreciates the opportunity to offer comments on the fiscal year 2013 
Interior appropriations bill.
    The meaningful funding increases in fiscal years 2008-2010 allowed 
the System to emerge from years of chronic funding shortfalls. But 
unfortunately, those substantial gains are undermined by more than $17 
million in cuts to the System's funding in fiscal years 2011 and 2012 
that equate to a larger loss of over $41 million when annual increases 
in refuge fixed costs are factored in. Consequently, we support the 
President's 2013 budget request of $495 million because it will 
maintain existing management capabilities. Should across-the-board 
sequestration cuts of 9-10 percent take effect in fiscal year 2013, the 
impacts to the Refuge System would be devastating and could force FWS 
to close or end major programs at more than 130 refuges.
    We respectfully request the Subcommittee support the following 
funding allocations for programs in the NWRS and the U.S. Fish and 
Wildlife Service (FWS):
  --$495 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS including $23 million for Inventory and Monitoring, 
        $39 million for Refuge Law Enforcement, $80 million for 
        Visitors Services, $3.8 million for Challenge Cost Share, $2.5 
        million for Cooperative Recovery and $5 million for the Pacific 
        Marine Monuments;
  --$57 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$30 million for the National Wildlife Refuge Fund;
  --$700 million for the Land and Water Conservation Fund (LWCF), 
        including $150 million for the NWRS;
  --$33 million for Landscape Conservation Cooperatives (LCCs) in the 
        FWS;
  --$37 million for the FWS construction account for large scale refuge 
        restoration projects, visitor facility enhancements, visitors 
        centers and energy efficiency projects;
  --$60 million for the FWS' Partners for Fish and Wildlife Program;
  --$61.5 million for the State and Tribal Wildlife Grants Program;
  --$39.4 million for the North American Wetlands Conservation Fund;
  --$6.5 million for the Neotropical Migratory Bird Fund;
  --$8.4 million for Wildlife Without Borders; and
  --$7.5 million for the National Fish and Wildlife Foundation (NFWF) 
        in the FWS' Resource Management General Administration 
        appropriation.
National Wildlife Refuge Funding--O&M and Construction
    The NWRA chairs the Cooperative Alliance for Refuge Enhancement 
(CARE), a diverse coalition of 22 sporting, conservation, and 
scientific organizations representing more than 15 million Americans 
that supports increased funding for the Refuge System. After a century 
of chronic underfunding, increases in fiscal years 2008-2010 put the 
Refuge System on a path to full funding. But cuts in fiscal years 2011 
and 2012 totaling $16.2 million ($40.5 million decrease in real 
dollars) is reversing the gains made and puts damaging workforce 
downsizing plans on the table should an across-the-board sequestration 
cut of 10 percent occur in fiscal year 2013. Should that happen, CARE 
estimates that FWS will be forced to close or end major programs at 
more than 130 refuges, eliminate more than essential 200 wildlife 
management jobs, cut more than 35 visitor services jobs needed to 
mobilize the System's 40,000 volunteers and administer recreational 
programs, and cut law enforcement staff by more than 40 officers 
leaving a force of only 170 when 845 are needed.
    These cuts are particularly harmful because the System is already 
having to respond to damages from natural disasters. From fiscal years 
2005-2011, the Refuge System sustained $693 million in damages from 
natural disasters such as tornadoes, fires, hurricanes, flooding, a 
tsunami and an earthquake. The damages in 2011 alone were almost $200 
million, approaching half of the System's operations and maintenance 
funds for the year. Of the $693 million in damages, Congress 
appropriated $254 million in emergency supplemental funding and the 
remaining $439 million has been added to the Refuge System's $2.5 
billion deferred maintenance backlog.
    NWRA respectfully requests that the Committee provide $495 million 
in fiscal year 2013 for Refuge System Operations and Maintenance (O&M), 
essentially level funding from fiscal year 2012. We estimate that 
refuges would need at least $527 million in fiscal year 2013 to 
maintain management capabilities from fiscal year 2010; this request 
would only maintain status quo at current funding levels. The current 
Federal salary freeze still leaves Refuges needing at least $8 million 
to absorb other fixed costs. CARE estimates that the Refuge System 
needs at least $900 million in annual funding to properly administer 
its 150 million acres and remains committed to aiming for this goal.
    Refuges have almost $1 billion worth of construction needs, 
including the replacement of deteriorating structures that are becoming 
more expensive to maintain. We request $37 million for the System's 
construction budget, including funds for large-scale habitat 
restoration and small-scale visitor facility enhancements. Funds for 
new visitor/administration centers, including those at the Potomac 
River Refuges near Washington, DC and the Sherburne NWR outside 
Minnesota's Twin Cities, will provide a net benefit in efficiencies and 
in economic impact. Refuges with a broad range of programs create more 
service industry jobs and more income for local communities.
Supporting Prescribed Fire to Reduce Catastrophic Burns
    Fire as a wildlife habitat management tool is one of the most 
important items in the FWS tool chest but it is also perhaps the least 
understood. Unfortunately, the President has called for a 23 percent 
decrease to DOI's Hazardous Fuel Reduction program, which would have a 
negative impact on the FWS fire program. Prescribed burns reduce the 
occurrence of catastrophic fires and protect our most vulnerable 
communities and habitats. For instance, prescribed burns are used 
extensively in Florida where lightning strikes would normally cause 
fires annually or every couple of years. Consequently, when lightning 
caused a fire in the middle of the night at the Arthur R. Marshall 
Loxahatchee NWR in Palm Beach last year, the wildfire burned only 13 
acres and extinguished itself despite record drought conditions. 
However, at the Alligator River NWR in North Carolina, a lack of 
resources to do the amount of prescribed burning needed led to a 
wildfire that burned more than 45,000 acres on the refuge and adjacent 
lands, burning deep into the soil, and cost almost $15 million to 
contain. A combination of hydrology restoration and prescribed burns 
would have reduced the fire's intensity and containment costs. We urge 
maintaining current capabilities for FWS at $57 million for fiscal year 
2013 for Hazardous Fuel Reduction and Preparedness funding.
Supporting Jobs, Economic Activity and Leveraging American Volunteerism
    Refuges are economic engines and a good investment. According to a 
recent report by Southwick Associates, refuges generate more than $32.3 
billion in ecosystem services and $4.2 billion in economic activity, 
returning over $65 and $8 respectively for every $1 appropriated by 
Congress.
    Refuges are job creators: more than 32,500 jobs--largely in the 
private sector--are attributed to refuge-related activities. And on a 
national level, each $5 million invested in the Refuge System's 
appropriations (salary and non-salary) impacts an average of 83.2 jobs, 
$13.6 million in total economic activity, $5.4 million in job-related 
income and $500,000 in tax revenue.
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends and volunteers do 
approximately 20 percent of all work on refuges. In 2011, these 1.5 
million hours equated to roughly eight volunteers for every one Refuge 
System employee. Without staff to oversee volunteers, their commitment 
and passion is lost, as is their desperately needed contribution to the 
System. We request $80 million for Visitors Services for the NWRS.
Protecting the Public and Refuge Resources--NWRS Law Enforcement
    In 2005, the International Association of Chiefs of Police (IACP) 
conducted a first of its kind analysis of law enforcement (LE) needs 
for a land management agency, focusing on the Refuge System. They 
recommended a force of 845 full-time LE officers to adequately protect 
visitors and taxpayer resources; but the System has only a little more 
than one-quarter of that amount with 246 officers for the 150 million 
acre System. Further, since the report was completed in 2005, the 
System has grown by 50 million acres with the addition of the Pacific 
monuments by President Bush and visitation has grown by 15 percent from 
37 million visitors in 2005 to over 45 million in 2011.
Using Science to Guide Adaptive Management
    The FWS and the Refuge System are developing landscape level 
strategies to address habitat changes due to shifting land use, 
increasing human population, the spread of invasive species and 
changing climates. We strongly support the FWS initiative to establish 
Landscape Conservation Cooperatives (LCCs) to bring the best science to 
help local, State and Federal agencies make the most educated 
management decisions. We recommend an allocation of $33 million to fund 
LCCs in fiscal year 2013 and $23 million for the System's Inventory and 
Monitoring program.
Commitment to Refuge Communities--Refuge Revenue Sharing
    The Refuge System uses net income derived from things like use 
permits and timber harvests to make payments to local counties or 
communities to offset lost property tax revenue, and relies on 
Congressional appropriations to the Refuge Revenue Sharing program to 
compensate for the shortfall between revenues and obligations. Due to 
declining revenue and lack of appropriations, the Service has been 
paying less than 50 percent of its tax-offset obligations since 2001. 
This has a measurable impact on local communities that is felt even 
more starkly in difficult economic times--and it creates severe strain 
in relations between the Federal units and their local community, 
threatening the goodwill and partnerships that are keystones of 
successful conservation. NWRA requests $30 million for the Refuge 
Revenue Sharing Program, which, in recognition of the President's 
proposal to zero out funding, is still only about half of what is 
needed. The NWRA also calls for a review of the Refuge Revenue Sharing 
Act of 1935 as amended, and consideration of conversion to a Payment-
in-Lieu of Taxes (PILT) program to be consistent with other Federal 
land management agencies and to provide Refuge communities with more 
equitable payments.
Partnerships and Strategic Growth
    We strongly support $3.8 million in fiscal year 2013 for Challenge 
Cost Share (CCS). Partners are the key to successful conservation; no 
Federal or State agency can do it alone. Because of this, we support 
programs that leverage Federal dollars such as the CCS program. Partner 
organizations such as local volunteer ``Friends'' groups leverage these 
funds to give American taxpayers more bang for their buck for projects 
like trails, education, boardwalks and habitat restoration.
    The Partners for Fish and Wildlife Program is another powerful tool 
for working with private landowners to collaboratively conserve refuge 
landscapes. The program consistently leverages Federal dollars for 
conservation, generating between $4 and $10 in conservation return for 
every $1 appropriated, and has been key to the success of many iconic 
landscape conservation projects. If funded at its authorized level of 
$75 million, the program would net at least $300 million worth of 
additional conservation. NWRA requests an fiscal year 2013 
appropriation of $60 million for the Partners for Fish and Wildlife 
Program, a $5 million increase to maintain current capabilities.
    NWRA also calls upon Congress to fund the Land and Water 
Conservation Fund (LWCF) at $700 million. Created in 1965 and 
authorized at $900 million per year (more than $3 billion in today's 
dollars), the LWCF is our most important land and easement acquisition 
tool. With more than 8 million acres still unprotected within existing 
refuge boundaries, and the need to establish key wildlife corridors and 
connections between protected areas, the LWCF is more important than 
ever. NWRA strongly supports the new Collaborative Conservation 
requests of the Departments of the Interior and Agriculture, bringing 
together several Federal agencies around a common goal. NWRA supports 
the following projects and those advocated by refuge Friends 
organizations:
  --Everglades Headwaters NWR & Conservation Area (Florida)--$50 
        million;
  --Bear Lake NWR (Idaho)--$1.5 million
  --Bear River Migratory Bird Refuge (Utah)--$2.5 million;
  --Blackwater NWR (Maryland)--$2.5 million;
  --Cache River NWR and White River NWR (Arkansas)--$8 million;
  --Cokeville Meadows NWR (Wyoming)--$1.5 million
  --Connecticut River--Silvio O. Conte NFWR (New Hampshire, Vermont, 
        Massachusetts, Connecticut)--$12 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$5 million;
  --Great Bay NWR (New Hampshire) and Rachel Carson NWR (Maine)--$4 
        million
  --Middle Rio Grande NWR (New Mexico)--$1.5 million;
  --Rocky Mountain Front Conservation Area (Montana)--$19 million;
  --Rhode Island NWR Complex (Rhode Island)--$5 million;
  --Southeast Louisiana Refuge Complex (Louisiana)--$3 million;
  --St. Marks NWR/Longleaf Pine (Florida)--33 million; and
  --St. Vincent NWR (Florida)--$1 million
    The NWRA believes the Refuge System can meet its responsibilities 
to the American people with collaboration and sufficient funding and we 
urge Congress to help the FWS meet these obligations.
                                 ______
                                 
                  Prepared Statement of OPERA America

    Mr. Chairman and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors and its 2,000 organizational and 
individual members. We strongly urge you to support increased 
appropriations of $155 million for the National Endowment for the Arts 
for fiscal year 2013. This testimony and the funding examples described 
below are intended to highlight the importance of Federal investment in 
the arts, so critical to sustaining a vibrant cultural community 
throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. Seventy percent of the opera companies in 
existence today have been established since 1960. The growth of the 
field corresponds to the establishment and growth of the NEA. Over the 
last 20 years, a rich repertoire of American operas has been created by 
composers who communicate the American experience in contemporary 
musical and dramatic terms. The growth in number and quality of 
American operas corresponds directly to the investment of the NEA in 
the New American Works program of the former Opera-Music Theater 
Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools, too, extend the civic reach of opera 
companies as they introduce children to another multi-media art form 
and discover promising young talent.
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    The following are some examples of the impact of NEA funding on 
opera programs from the NEA's 2012 Art Works Program:

American OPERA Projects, Inc.
Brooklyn, New York
$10,000
    To support the development and workshop production of Paul's Case 
by composer Gregory Spears and librettist Kathryn Walat. Based on the 
short story by Willa Cather, the 85 minute score featuring seven 
singers and a six-piece chamber orchestration will see two semi-staged 
workshops in Brooklyn and two in Princeton.

Anchorage Opera Company
Anchorage, Alaska
$11,500
    To support Verdi's Macbeth as part of the company's 50th 
anniversary season. Educational outreach, seminars, and public lectures 
highlighting the achievements of the composer will take place in public 
schools and community centers in metropolitan areas and throughout the 
State's south-central region.

Beth Morrison Projects
New York, New York
$10,000
    To support the world premier of Song From the Uproar: The Lives and 
Deaths of Isabelle Eberhardt by composer Missy Mazzoli in collaboration 
with librettist Royce Vavrek and filmmaker Stephen Taylor. Culled from 
the journals of Swiss explorer, Eberhardt, at the turn of the last 
century, the multimedia work explores Eastern and Western cultures, the 
elation of self-discovery, and the mystery of death.

Boston Lyric Opera Company, Inc.
Boston, Massachusetts
$22,500
    To support the adaptation and remounting of the comic opera The 
Inspector by composer John Musto and librettist Mark Campbell, as well 
as outreach activities. Based on the play The Government Inspector by 
Nikolai Gogol, the production will expand the physical and orchestral 
elements, working with the original creative team to make the work 
accessible for larger opera houses.

Central City Opera House Association
Denver, Colorado
$22,500
    To support a new production of The Turn of the Screw by composer 
Benjamin Britten. Based on the Henry James novella, the 20th-century 
English chamber opera will launch a season celebrating the 100th 
anniversary of the composer's birth.

Chateauville Foundation
Great Falls, Virginia
$17,500
    To support the fourth Castleton Festival, which takes place 
annually on a farm in rural Virginia and includes opera performances 
with orchestral accompaniment. The festival's mission to engage young 
artists will be met by the residency program that will allow 40 
advanced voice students to live, study, and perform onsite during the 
festival.

Chicago Opera Theater
Chicago, Illinois
$25,000
    To support Moscow, Cheryomushki by composer Dmitri Shostakovich. 
The production marks the first time a Shostakovich opera will be 
performed in Chicago in 25 years, and it will feature the U.S. premier 
of the re-orchestrated score arranged by Shostakovich scholar, Gerard 
McBurney.

Houston Grand Opera Association, Inc.
Houston, Texas
$20,000
    To support year two of activities from East + West, a 4-year 
program of chamber opera focused on Houston's Asian populations. 
Dedicated to art as a vehicle for cultural diplomacy and community 
building, the second year of the initiative will focus on Iranian and 
Cambodian communities in Houston, exploring subjects such as the 
relationship between first- and second-generation immigrants, 
displacement of war refugees, storytelling traditions, and cultural 
inheritance.

Lyric Opera of Kansas City, Inc.
Kansas City, Missouri
$16,500
    To support Nixon in China by composer John Adams. Coinciding with 
the 40th anniversary of the historic presidential visit, local 
partnerships with the Kemper Museum of Contemporary Art and the 
University of Kansas will engage new audiences.
North Carolina Opera
Raleigh, North Carolina
$10,000
    To support the production of Philip Glass's Les Enfant Terribles. 
The performance aligns with the company's commitment to present an 
annual mainstage production of a contemporary work.

Opera Theatre of Saint Louis
St. Louis, Missouri
$40,000
    To support the U.S. premier of Alice in Wonderland by composer 
Unsuk Chin and librettist David Henry Hwang.

Regents of the University of California at Berkeley
Berkeley, California
$75,000
    To support performances of Einstein on the Beach by composer Philip 
Glass and librettist Robert Wilson. A 2-week residency with the 
composer and librettist and numerous education and community programs 
will bring this significant work to the stage.

San Diego Opera Association
San Diego, California
$42,500
    To support the new opera Moby Dick by composer Jake Heggie and 
librettist Gene Scheer, based on the novel by Herman Melville.

Seattle Opera
Seattle, Washington
$20,000
    To support the new production of Orphee et Eurydice by composer 
Christoph Willibald Gluck. Education events will include preview 
lectures, post-performance Q and A's, and the company's Experience 
Opera program, which allows student to experience in-class 
presentations and dress rehearsals for free.

Tulsa Opera, Inc.
Tulsa, Oklahoma
$16,500
    To support Dead Man Walking by composer Jake Heggie. Due to the 
unique subject matter and its potential appeal to those not familiar 
with the art form, both pre- and post-performance surveys will gauge 
the level of engagement among audience members. Sister Helen Prejean 
will also participate in various lectures and panel discussions prior 
to the production.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million in the past 2 years, leaving its 
programs seriously underfunded. We urge you to continue toward 
restoration and increase the NEA funding allocation to $155 million for 
fiscal year 2013.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
           Prepared Statement of the Town of Ophir, Colorado

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior Appropriations Bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $1 million for the Ophir Valley 
project in the Uncompahgre National Forest. I am pleased that this 
funding was included in the request and urge Congress to provide 
necessary funds for LWCF for this important project.
    Located in the heart of southwestern Colorado's San Juan Mountains, 
the Ophir Valley project area in the Uncompahgre National Forest is one 
of the San Juans' hidden gems. A short detour of only a mile off of 
Highway 145--part of the nationally acclaimed 236 mile San Juan Skyway 
Scenic Byway--brings visitors into a compact valley ringed by 13,000 
foot peaks and serrated ridge lines.
    Against a backdrop of unsurpassed alpine scenery, the Ophir Valley 
offers an abundance of recreational opportunities for residents and 
visitors. Hiking, camping, mountain biking, cross-country skiing, four-
wheeling, and fishing are all popular pastimes. In addition, the valley 
supports habitat for the Canada lynx, a federally listed threatened 
species, and provides important habitat for the endangered Uncompahgre 
fritillary butterfly and other sensitive species. It also contains the 
headwaters of Howard Fork, a key tributary to the San Miguel River, 
which The Nature Conservancy has called ``one of the last naturally 
functioning rivers in the West.'' The San Miguel sustains a globally 
rare narrowleaf cottonwood-Colorado blue spruce/black twinberry plant 
community.
    While much of the Ophir Valley is in public ownership, the region's 
mining heritage also created hundreds of privately owned patented 
mining claims scattered across the landscape like matchsticks. These 
private inholdings once were vital to sustaining 19th century efforts 
to find and extract mineral wealth. Now, however, at a time when hard 
rock mining in southwestern Colorado appears increasingly less viable 
economically, many former mining districts, such as Ophir, are seeing 
these private inholdings develop into sites for second homes. As a 
result, more and more of the Ophir Valley's subalpine and alpine 
environments are at risk of being developed, potentially creating 
significant management issues for the U.S. Forest Service, fragmenting 
wildlife habitat, and spoiling the scenic splendor and recreational 
opportunities so important to residents and visitors.
    Currently, the Forest Service has the opportunity to acquire all of 
the remaining acres out of a total 1,145 acres of patented mining 
claims that had been under one ownership in the Ophir Valley. Prior to 
this acquisition effort, these claims represented approximately 90 
percent of the valley's privately owned inholdings. Federal 
appropriations provided in previous years have allowed the Forest 
Service to begin acquiring these mining claims. Funding in fiscal year 
2012 will allow the agency to begin the purchase of the final 101 
acres. This project resolves many land use and access conflicts that 
stem from the development of private inholdings within public lands, 
while promoting effective land management practices by the U.S. Forest 
Service. In particular, the ongoing acquisition protects critical 
habitat, maintains high-quality recreational opportunities on public 
lands, protects water quality, and helps maintain the quality of life 
of the region's residents.
    This protection effort is a natural extension of the successful Red 
Mountain project, located just to the north and east of the Ophir 
Valley along a different portion of the San Juan Skyway. It will also 
complement other land protection and recreation enhancement efforts 
along and adjacent to the San Juan Skyway, one of only 27 All-American 
Roads in the National Scenic Byway program. In recent years, for 
example, Great Outdoors Colorado Trust Fund has pledged $5.7 million 
for land protection in the area. In fiscal year 2013, an allocation of 
$2.5 million from the Land and Water Conservation Fund is needed to 
help the Forest Service to complete the protection of these critical 
inholdings. It is my hope that the Forest Service will be able to 
identify funds in addition to the budgeted amount in order to finish 
the Ophir Valley project this year.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for Ophir Valley. I 
want to thank the Chairman and the members of the subcommittee for this 
opportunity to testify on behalf of this nationally important 
protection effort in Colorado, and I appreciate your consideration of 
this funding request.
                                 ______
                                 
               Prepared Statement of the Outdoor Alliance

    The Outdoor Alliance is a coalition of Access Fund, American Canoe 
Association, American Hiking Society, American Whitewater, 
International Mountain Bicycling Association and Winter Wildlands 
Alliance, six national, member-based organizations representing 
millions of Americans who paddle, climb, mountain bike, hike, ski and 
snowshoe on our Nation's public lands, waters and snowscapes.
    The Outdoor Alliance has extensive experience working with Federal 
land managers across the country concerning recreation and conservation 
policies. Adequate funding for the National Park Service, U.S. Forest 
Service, and Bureau of Land Management is required to support public 
access and enjoyment of the cherished public lands and rivers they 
manage. Although Federal land managers are integrating recreation, 
conservation, and restoration programs to more effectively manage 
public lands for Americans, budget cuts to these agencies will mean 
less access to and conservation of our public land. Under-funded and 
under-staffed land managers, when forced to make resource protection 
and visitor use decisions, are much more likely to close or highly 
restrict public access.
    The Outdoor Alliance supports a common sense budget approach that 
adequately funds Department of the Interior and Department of 
Agriculture activities essential to conservation and the provision of 
public recreation access to high quality public lands and waters. Human 
powered and active outdoor recreation supports the $730 billion annual 
outdoor recreation economy and is critical in reconnecting our youth 
and our increasingly diverse citizenry with nature. To achieve these 
goals, we offer the following budget recommendations for fiscal year 
2013.

               DEPARTMENT OF AGRICULTURE--FOREST SERVICE

    The Outdoor Alliance supports the President's fiscal year 2013 
budget request of $4.86 billion for the Forest Service, an increase of 
$15.5 million over the 2012 appropriated level.
    Recreation on national forest lands greatly supports local 
economies and employment. The 2010 National Visitor Use Monitoring 
Report found that spending by recreation visitors in areas near 
national forests totals almost $13 billion annually. Protecting these 
economic benefits requires an adequately funded planning process, an 
effective infrastructure of trails and roads, and protected natural 
landscapes and rivers. Forest Service land management plans (with 
appropriate inventory and monitoring efforts) are critical to respond 
to existing and developing management challenges, and to inform 
intelligent and strategic forest management that allows for responsible 
recreational access. Forest plans must be maintained and revised 
repeatedly to maintain relevancy. Updated data and information is 
critical for present-day planning and management efforts, and to ensure 
that forest planning is integrated effectively. In the last 8 years 
funding for Forest Service planning dropped by over one-third, and we 
see associated unmet issues and obligations that lead directly to 
restrictions of various Outdoor Alliance activities.
    The President's fiscal year 2013 budget proposes a consolidated 
budget line item to facilitate a consolidated approach to landscape 
management, merging Land Management Planning, and Inventory and 
Monitoring, into a single budget line item called Land Management 
Planning, Assessment, and Monitoring. This proposed consolidated budget 
line item provides the agency flexibility to implement the requirements 
of the new Planning Rule (collaborative science-based approach for 
planning, monitoring, and conducting assessments that considers 
information from and about all lands affected by, or influencing, 
planning unit activities). To maintain a basic planning program that is 
able to respond to today's management challenges, we support the 
President's requested budget of $205 million for Land Management 
Planning, Assessment & Monitoring.
    The Recreation Management, Heritage and Wilderness program oversees 
all recreation on National Forest lands. This program is chronically 
under-funded and understaffed. Outdoor Alliance supports the 
President's allocation of $267 million that will permit the Forest 
Service to begin to prioritize resources and facilities, maintain 
current on-the-ground staff, and continue basic recreation resource 
analyses and planning. Additionally, this funding level will assist in 
leveraging partnerships with the human-powered recreation community, 
who devote many thousands of volunteer hours to conservation and 
stewardship projects on our national forests. Additional funds will 
allow these critical activities to be accomplished in a timelier 
manner.
    The National Forest System serves over 50 million visitors annually 
who participate in activities that include cross-country skiing, 
hiking, climbing, boating, and mountain biking on over 153,000 miles of 
trails. Nearly all Forest visitors use the trails to some extent and 
the recreation economy depends on quality trail experiences, yet the 
Forest Service struggles with maintenance backlogs in the billions of 
dollars. We believe that $346 million in fiscal year 13 for Capital 
Improvements and Maintenance is the basic support needed to avoid 
adding to the massive deferred maintenance backlog, improve human 
powered trail infrastructure, mitigate resource impacts, and provide 
high-quality recreational experiences on Forest Service lands.
    Integrated Resource Restoration (IRR) is a new funding approach 
that merges several different funds into one large restoration funding 
line item. Last year the Administration and Congress agreed on a three-
region pilot (Regions 1, 3, and 4) to test IRR on the ground. However, 
the President's budget for 2013 proposes skipping the assessment phase 
and adopting IRR wholesale across all Forest Service lands in 2013. 
This would mean no assessment of what worked and what did not and is 
not prudent.
    The Outdoor Alliance does not support the absorption of Legacy 
Roads and Trails funding into IRR in fiscal year 2013. Our national 
forests are interspersed with old roads that receive little or no use 
yet cause serious environmental impacts and pose long-term financial 
threats. Removing old and unused roads and investing in the roads and 
trails used by hikers, climbers, backcountry skiers, mountain 
bicyclists, and boaters is good for recreation, good for the 
environment, creates jobs, and improves water quality benefitting 
downstream users. Since its creation in 2007, the Legacy Roads and 
Trails Remediation Fund has improved over 12,000 acres of watershed, 
maintained 3,170 miles of trails, improved 10,959 miles of authorized 
roads, and decommissioned 2, 970 miles of unauthorized roads. The 
Legacy Roads initiative creates or retains approximately 1,500 jobs 
every year which provide a significant economic stimulus to rural 
America. If the program is merged into the IRR, there is no guarantee 
that any funds would be used for the purposes Congress intended in 
establishing this program. Outdoor Alliance is concerned that although 
Congress and the Administration agreed to test the concept in a three 
region pilot program last year, there has been no assessment of its 
success and now the program is being rolled out nationwide. We believe 
such an assessment is critical before implementation across the board 
occurs.
    The Outdoor Alliance supports an fiscal year 2013 appropriation of 
$793.1 million for the Integrated Resource Restoration budget line for 
the restoration and management of priority watersheds, with at least 
$75 million of that allocated to continue the important work of the 
Legacy Roads and Trails program.

           DEPARTMENT OF THE INTERIOR--NATIONAL PARK SERVICE

    Our national parks offer opportunities for world-class recreation 
and they serve as iconic locations for Outdoor Alliance activities. 
Enthusiasts travel from all over the world to climb, hike, boat, bike, 
and ski in places like Zion, Rocky Mountain, and the North Cascades 
National Parks. Importantly, our parks also serve as crucial economic 
engines for local economies. While the Administration's overall request 
for the Park Service is essentially flat, it proposes cuts to base park 
operations by almost $22 million which will likely eliminate hundreds 
of full time employees and lead to deteriorating Park resources. If we 
are serious about maintaining our Parks as economic engines for local 
economies it is critical that we maintain funding for base park 
operations. We are hopeful that Congress will improve on the 
Administration's budget request and provide critical funding for base 
park operations.
    The Outdoor Alliance supports the President's proposed fiscal year 
2013 appropriation of $2.3 billion for the Operation of the National 
Park System, including $52 million for National Recreation and 
Preservation. However, the Administration's request must be increased 
if $2.3 billion will not at least maintain basic park operations after 
fixed costs have been addressed.
    The Rivers, Trails and Conservation Assistance (RTCA) program helps 
people build parks and trails and preserve open space and river 
corridors in their local communities. The RTCA program produces a 
multiplier effect for local economies. It leverages Federal funding by 
assisting locally-led conservation and outdoor recreation projects 
nationwide to develop important community infrastructure, inspire 
volunteerism and environmental stewardship, and connect Americans to 
close-to-home recreation opportunities. This is especially important 
for kids. Accordingly, the Outdoor Alliance supports an RTCA 
appropriation of at least $10 million for fiscal year 2013 in order for 
this essential capacity-building conservation and recreation program to 
maintain its high level of effectiveness.

         DEPARTMENT OF THE INTERIOR--BUREAU OF LAND MANAGEMENT

    Many Outdoor Alliance members recreate on BLM lands across the 
country, including those in the National Landscape Conservation System. 
Opportunities to recreate on BLM lands--such as rock climbing at 
Colorado's Shelf Road, mountain biking around Moab, Utah, boating New 
Mexico's Rio Chama, backcountry skiing at Gunnison Gorge NCA in 
Colorado--are some of the most sought-after recreation opportunities in 
America. Outdoor Alliance believe that the BLM is uniquely positioned 
to contribute to the success of the America`s Great Outdoors initiative 
and its goals of reconnecting Americans to our exceptional recreation 
resources. Accordingly, we support the President's inclusion of $70.3 
million fiscal year 2013 budget for Recreation Management that will 
help to begin to enable BLM to strengthen its protection and management 
of popular, high quality recreation areas. We also believe that the 
President's call for funding of $35.1 million for National Landscape 
Conservation System programs is necessary to maintain necessary 
staffing, enable adequate planning and resource monitoring to protect 
natural and recreational resources and allow for a quality visitor 
experience.

        DEPARTMENT OF THE INTERIOR AND DEPARTMENT OF AGRICULTURE

    The Land and Water Conservation Fund uses off shore oil and gas 
royalties to address the national need to preserve natural areas and 
provide recreation opportunities. Outdoor Alliance supports the 
President's stated goal of fully funding the Land and Water 
Conservation Fund by 2014 and supports his fiscal year 2013 LWCF 
requests. We also believe that Congress may have opportunities to 
significantly exceed these figures this year and encourage them to do 
so. In addition, we support the President's suggested funding of the 
Forest Legacy Fund.
    Wild and Scenic Rivers offer Americans some of the best outdoor 
recreation opportunities on Federal lands and is a core component of 
the America's Great Outdoors initiative. Explicitly funding Wild and 
Scenic River program staff and activities within each agency would 
ensure that agencies have the capacity to protect these rivers and 
provide world-class recreation opportunities.
    We support the Administration's proposed $9.3 million for the BLM 
Wild and Scenic River Program, request that a new line item for the 
Forest Service Wild and Scenic Rivers program be funded at $19 million 
out of the Recreation Management, Heritage and Wilderness budget, and 
that the Wild and Scenic Rivers Program line item in the NPS budget be 
funded at no less than $1 million to complement the Park Unit, 
Partnership Rivers, and Special Resource Studies budget lines.
department of commerce: national oceanic and atmospheric administration
    The President's budget has recommended $10.8 million for the 
Fisheries Habitat Restoration program, which is comprised of the 
Community-based Restoration Program that restores coastal and marine 
habitat and the Open Rivers Initiative that removes obsolete dams and 
other stream barriers in coastal watersheds that currently block salmon 
from their native spawning habitat. While these two programs are 
focused on improving fish habitat, they provide direct benefits to 
recreational users of our waterways by enhancing the riverscape we 
enjoy and reconnecting rivers currently blocked by dams that are 
barriers to navigation. We strongly recommend the program receive $19 
million in fiscal year 2013, and that the President's proposal to merge 
the program with the Estuary Restoration Program and the Marine Debris 
Program be rejected.
    Thank you for considering our perspectives.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

    The Oregon Water Resources Congress (OWRC) was established in 1912 
as a trade association to support member needs to protect water rights 
and encourage conservation and water management Statewide. OWRC 
represents non-potable agricultural water suppliers in Oregon, 
primarily irrigation districts, as well as water control districts, and 
other special districts and local governments that deliver irrigation 
water. The association represents the entities that operate water 
management systems, including water supply reservoirs, canals, 
pipelines, and hydropower production.
    OWRC is concerned about continued reductions to the U.S. 
Environmental Protection Agency's (EPA) Clean Water State Revolving 
Fund Loan Program (CWSRF) and is requesting that appropriations for 
this program be increased to at least $2 billion in fiscal year 2013. 
The CWSRF is an efficient loan program that addresses critical water 
infrastructure needs while benefitting the environment, local 
communities, and the economy.
    OWRC is also concerned about various efforts by EPA to increase 
regulatory authority over water resources planning and urges the Senate 
to take action and prevent further jurisdictional overreach. EPA's 
actions to increase its jurisdiction are counterproductive to 
collaborative planning and detract from the positive solutions achieved 
through the CWSRF program.

                    FISCAL YEAR 2013 APPROPRIATIONS

    We are disappointed that the Administration's request of $1.175 
billion for the CWSRF program is a sharp reduction from enacted 2011 
funding, and is still far short of what is needed to address critical 
water infrastructure needs in Oregon and across the Nation. As 
acknowledged in EPA's budget materials, this will lead to ``fewer water 
infrastructure projects,'' and therefore a reduction in improvements to 
water quality. The Oregon Department of Environmental Quality's (DEQ) 
most recent ``Proposed Intended Use Plan Update #2--State Fiscal Year 
2012,'' lists 115 projects in need of a total of $273,263,717 in Oregon 
alone.
    Additionally, EPA budget materials indicate that ``a number of 
systems could have access to capital through the Administration's 
proposed Infrastructure Bank,'' but this has not happened yet and there 
are numerous dire water infrastructure needs now. OWRC supports the 
creation of an infrastructure bank, but the needs facing communities 
now cannot wait for a new funding mechanism, particularly when the 
CWSRF has worked very efficiently in Oregon. The CWSRF has been an 
extremely valuable tool in Oregon for improving water quality and 
efficiently addressing infrastructure challenges that are otherwise 
cost-prohibitive.
    Six OWRC member districts have successfully received loans from the 
CSWRF over the last several years and many more will apply if funds are 
available. Numerous irrigation districts and other water suppliers need 
to pipe currently open canals, thereby improving water quality by 
eliminating run-off into the canals and increasing water availability 
for fish and irrigators by eliminating water loss from the canal 
system. These projects not only benefit the environment and the patrons 
served by the water delivery system, but also benefit the economy.
    Four irrigation districts received over $11 million funding in 
Oregon from the 2009 ARRA funding through the CWSRF for projects which 
created valuable jobs while improving water quality. These four 
projects were essential to DEQ not only meeting but exceeding the 
minimum requirement that 20 percent of the total ARRA funding for the 
CWSRF be used for ``green'' projects. Those districts' applications had 
been on DEQ's list of eligible projects for many years and would 
probably still be on that list had the ARRA funding not been made 
available. We provide that comment not to complain, but to emphasize 
the need for additional funding for this program.
    We acknowledge and support the Administration's desire to ``expand 
``green infrastructure'' options and their multiple benefits'' as part 
of EPA's In fact, as mentioned above, irrigation districts and other 
water suppliers in Oregon are on the forefront of ``green 
infrastructure'' through innovative piping projects that provide 
multiple environmental benefits. However, continually reducing the 
amount of funds available for these worthwhile projects is 
counterproductive and has created increased uncertainty for potential 
borrowers about whether adequate funding will be available in future 
years. CWSRF is often an integral part of an overall package of State, 
Federal and local funding that necessitates a stronger level of 
assurance that loan funds will be available for planned water 
infrastructure projects. Reductions in the CWSRF could lead to loss of 
grant funding and delay or derail beneficial projects that irrigation 
districts have been developing for years.
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. 
However, the CWSRF is a perfect example of the type of program that 
should have funding increased because it creates jobs while benefitting 
the environment, and is an efficient return on taxpayer investment. 
Oregon is facing record levels of unemployment and the CWSRF funded 
projects provide much needed construction and professional services 
jobs. Moreover, as a loan program, it is not a hand-out but a wise 
investment that allows local communities to leverage their limited 
resources and address critical infrastructure needs that would 
otherwise be unmet.
    We respectfully request the appropriation of at least $2 billion 
for the U.S. Environmental Protection Agency's Clean Water State 
Revolving Loan Fund for fiscal year 2013.

                        EPA REGULATORY OVERREACH

    OWRC is very concerned about EPA's recent efforts to revise Clean 
Water Act Guidance without appropriate public process or legislative 
oversight. The proposed changes would greatly broaden EPA authority and 
illustrates an apparent desire to dictate watershed planning methods 
for the Nation using a top-down regulatory approach from a desk in 
Washington, DC. This regulatory overreach will lead to uncertainty for 
landowners and water users, increased litigation and destroy 
collaborative efforts (including CWSRF projects) already underway in 
Oregon and across the Nation. OWRC concerns are now being reflected in 
new bi-partisan legislation, HR 4965, introduced by several 
distinguished members of Congress. EPA recently also has been pushing 
Oregon's Department of State Lands (DSL) to assume the Army Corps of 
Engineers 404 program. Based on the controversy and EPA's incorrect 
interpretation of the Clean Water Act, OWRC opposes these efforts.
    Oregon is the model for watershed planning and does not need a new 
Federal agency or executive branch office to continue watershed 
planning. Watershed planning in Oregon formally began in 1995 with the 
development of the Oregon Plan for Salmon Recovery and Watershed 
Enhancement, a statewide strategy developed in response to the Federal 
listing of several fish species. This strategy led to the creation of 
the Oregon Watershed Enhancement Board (OWEB), a State agency and 
policy oversight board that funds and promotes voluntary and 
collaborative efforts that ``help create and maintain healthy 
watersheds and natural habitats that support thriving communities and 
strong economies'' in 1999.
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Planning 
activities are conducted through local watershed councils, volunteer-
driven organizations that work with local, State and Federal agencies, 
economic and environmental interests, agricultural, industrial and 
municipal water users, local landowners, tribes, and other members of 
the community. There are over 60 individual watershed councils in 
Oregon that are already deeply engaged in watershed planning and 
restoration activities.
    OWRC has written and commented on many of the EPA activities. These 
documents can be found on our web page. Below are links to these 
documents.
  --http://www.owrc.org/useruploads/files/Federal/
        CWAJurWhitePaper_owrc.pdf
  --http://www.owrc.org/useruploads/files/Federal/
        SustainableWatershedPlanningAct_OWRC%20Letter%20to%20OR%20Delega
        tion.pdf
  --http://www.owrc.org/useruploads/files/Federal/
        OWRC_comments_EPA_DraftStrategic%20Plan_July2010.pdf
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ agency to make targeted loans that address CWA issues but also help 
water quantity and quality while addressing ESA in some instances. This 
voluntary approach creates and promotes cooperation and collaborative 
solutions to water resources challenges.
    Conversely, regulatory overreach destroys cooperation, creates 
mistrust and has a very negative affect on jobs and local economies. 
OWRC applauds Congress' bi-partisan effort in the House to reel in EPA 
overreach. We encourage the Senate to pass H.R. 872, support H.R. 4965, 
and increase oversight of EPA.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress

                                REQUEST

    The Oregon Water Resources Congress (OWRC) requests $25 million to 
fully fund the U.S. Fish and Wildlife Service (FWS) Fisheries 
Restoration Irrigation Mitigation Act (FRIMA) program in fiscal year 
2013 as authorized in the Omnibus Public Lands Act Public Law 111-11, 
Section 13002. OWRC continues to be deeply disappointed that the 
Administration has not requested any funding in the fiscal year 2013 
budget submission for this valuable program. The FRIMA program is an 
important tool for FWS to help achieve its priorities in fish species 
conservation and restoration and fills a void that other FWS programs 
cannot provide.

                                  NEED

    OWRC was established in 1912 as a trade association to support 
member needs to protect water rights and encourage conservation and 
water management statewide. OWRC represents non-potable agriculture 
water suppliers in Oregon, primarily irrigation districts, as well as 
other special districts and local governments that deliver irrigation 
water. OWRC members operate water management systems, including water 
supply reservoirs, canals, pipelines, and hydropower production.
    There are over 100 irrigation districts and other special districts 
in Oregon that provide water supplies to over 1 million acres of 
irrigated cropland in the State. Almost all of these districts are 
affected by either State or Federal Endangered Species Act listings of 
Salmon and Steelhead, Bull Trout or other sensitive, threatened or 
endangered species.
    FRIMA meets a critical need in fishery protection and restoration 
and compliments other FWS programs. Fish passage and fish screens 
installations are a vital component to fishery protection with several 
benefits:
  --Keeps protected fish species out of water canals and delivery 
        systems;
  --Allows fish to be safely bypassed around reservoirs and facility 
        structures; and
  --Eliminates water quality risks to fish species.
    Oregon irrigation districts anticipate no less than $500 million in 
funding will be required to meet current fish passage and fish screen 
needs. Limited cost-share funds are available from the Oregon Watershed 
Enhanced Board (OWEB) program in Oregon, but the primary cost-share for 
fish screen and fish passage projects has been provided by the 
districts and their water users. Project needs include both 
construction of new fish screens and fish passage facilities as well as 
significant upgrades of existing facilities to meet new requirements of 
the NOAA Fisheries Service and FWS.

 BACKGROUND OF FISHERIES RESTORATION IRRIGATION MITIGATION ACT (FRIMA) 
                                PROGRAM

    FRIMA, enacted November 2000, created a Federal partnership program 
entailing voluntary cost-share fish screen construction for water 
withdrawal projects in Idaho, Oregon, Washington and western Montana. 
FWS is to implement this program through the four States' fishery 
agencies. The funding goes to local governments for construction of 
fish screens and fish passage facilities. Irrigation districts and 
other local governments that divert water for irrigation can access the 
funding directly; individual irrigators can access funding through 
their local Soil and Water Conservation District (SWCD), which are 
local governments affiliated with the Natural Resources Conservation 
Service (NRCS).
    The original legislation in 2000 (Public Law 106-502) was supported 
and requested by the Pacific Northwest Partnership, a coalition of 
local governmental entities in the four Northwest States. As one of the 
members of that coalition, we appreciate your consideration of this 
request. When Congress reauthorized the program in 2009 in the Omnibus 
Public Lands Act minor clarifying changes were made to the legislation 
while reauthorizing the program for 5 more years at $25 million a year.

                                FUNDING

    The legislation calls for $25 million annually, to be divided 
equally among the four States from 2001 forward. Agency administrative 
costs cannot exceed 6 percent of the funding. FWS has never requested 
funding for FRIMA in its budgets since passage of the legislation. 
Congress provided the first funding in 2001 through a write-in of $4 
million to be shared among the four States. The agency did not get the 
program up and running until late 2002, at which time the first moneys 
were distributed.
    In 2000, in its report accompanying the initial authorizing 
legislation for FRIMA, the Congressional Budget Office (CBO) estimated 
outlays of $70 million between 2001 and 2004. The actual appropriation 
was only $8.8 million during that time period and all of the money was 
a write-in. For fiscal year 2005, Congress provided $2 million for the 
program in the Consolidated Appropriations Act and, $2 million in 
fiscal year 2006. The fiscal year 2007 funding of $1 million was part 
of an appropriation to FWS but was not a separate, designated 
appropriation. Again, all of those appropriations were the result of 
Congressional write-ins, not FWS budget requests.
    As you can see, total amount of money that Congress has written in 
for the program is woefully inadequate for the accomplishments 
anticipated for the program. The Administration did not request funding 
for the program for fiscal year 2013, consistent with its past budget 
submittals, despite widespread benefits from the money that Congress 
has provided.
    OWRC appreciates the funding Congress has provided for the FRIMA 
program in the past. That funding has begun to address the need for 
fish screens and fish passages to protect sensitive, threatened, and 
endangered fish species in the States in the Northwest but there still 
continues to be a significant need.

                            PROJECT BENEFITS

    A report by FWS covering program years fiscal year 2002-2012 
provides State-by-State coverage of how the Congressional provided 
funding has been used in the program. Funding funneled through FWS to 
State fishery agencies is distributed using an application and approval 
process that is based on a ranking system implemented uniformly among 
the States, including the following factors: fish restoration benefits, 
cost effectiveness, and feasibility of planned structure. The project 
must provide improved fish passage or fish protection at water 
diversion structures and must benefit fish species native to and 
present in the area, including those listed on State or Federal 
endangered species or conservation lists. The project must use 
applicable State and Federal requirements for project construction and 
operation.
    FRIMA-funded projects will increase the survival of many native 
fish species in a relatively short period of time. Compared to other 
recovery strategies, the risks posed by these activities are low and 
the assurance of success in increasing numbers of fish is high. 
Dislocation of existing social and economic activities is minor. 
Screening and passage can make a very substantial contribution 
utilizing existing implementation mechanisms and methods well accepted 
by landowners and rural communities.

                               COST SHARE

    FRIMA provides for a maximum Federal cost-share of 65 percent. The 
applicant's cost-share is 35 percent plus the ongoing maintenance and 
support of the structure for passage or screening purposes.
    Applicants operate the projects and the State agencies monitor and 
review the projects. This program is headquartered in the Portland, 
Oregon, regional office of FWS. For more information, see the FWS 
Fisheries Resources website for the Pacific Region at: http://
www.fws.gov/pacific/Fisheries/FRIMA.

                       OREGON'S PROJECT BENEFITS

    Twenty-six fish screens or fish passage projects in Oregon have 
been funded using funding from FRIMA for part of the project since the 
start of the FRIMA program. These projects have led to:
  --Installation of screens at seventeen diversions or irrigation 
        pumps;
  --Removal or modification of 12 fish passage barriers; and
  --Three-hundred sixty-five miles being re-opened to fish passage.
    In addition, the Oregon Department of Fish and Wildlife (ODFW) has 
used some of the FRIMA funding to develop an inventory of need for fish 
screens and passages in the State. Grants have ranged from just under 
$6,000 to $400,000 in size with a local match averaging 64 percent of 
the project costs, well over the amount required under the Act (35 
percent). In other words, each Federal dollar invested in the FRIMA 
program generates a local investment of just over $1 for the protection 
of fish species in the Pacific Northwest.
    The following are examples of how Oregon has used some of its FRIMA 
money:
  --Santiam Water Control District Project.--Fish screen project on a 
        large 1,050 cubic feet per second (cfs) multipurpose water 
        diversion project on the Santiam River (Willamette Basin) near 
        Stayton, Oregon. Partners are the Santiam Water Control 
        District, ODFW, Marion Soil and Water Conservation District, 
        and the City of Stayton. Approved FRIMA funding of $400,000 
        leverages a $1,200,000 project. Species benefited include 
        winter steelhead, spring Chinook, rainbow trout, and cutthroat 
        trout.
  --South Fork Little Butte Creek.--Fish screen and fish passage 
        project on a 65 cfs irrigation water diversion in the Rogue 
        River Basin near Medford, Oregon. Partners are the Medford 
        Irrigation District and ODFW. Approved FRIMA funding is 
        $372,000 and leverages a $580,000 total project cost. Species 
        benefited include listed summer and winter steelhead, coho 
        salmon, and cutthroat trout.
  --Running Y (Geary Diversion) Project.--Fish screen project on a 60 
        cfs irrigation water diversion in the upper Klamath Basin near 
        Klamath Falls, Oregon. Partners are the Wocus Drainage 
        District, ODFW, and Jeld-Wen Ranches. Approved FRIMA funding of 
        $44,727 leveraged a total project cost of $149,000. Species 
        benefited included listed red-band trout and short-nosed 
        sucker.
  --Lakeshore Gardens Project.--Fish screen project on a 2 cfs 
        irrigation water diversion in the upper Klamath Basin near 
        Klamath Falls, Oregon. Partners are the Lakeshore Gardens 
        Drainage District and ODFW. Approved FRIMA funding is $5,691, 
        leveraging a total project cost of $18,970. Species benefited 
        include red-band trout, short-nosed sucker and Lost River 
        sucker.

                              WHY FUND NOW

    FRIMA should be a priority program of the U.S. Department of the 
Interior as it prepares to meet the court-ordered January 1, 2014, 
deadline for a new Federal Columbia River Power System Biological 
Opinion that provides reasonable and prudent alternatives to mitigate 
impacts to Columbia-Snake river salmon and steelhead. FRIMA funded 
projects funded will help the Bureau of Reclamation, Bonneville Power 
Administration, the U.S. Army Corps of Engineers, and NOAA Fisheries 
meet these requirements.
    Moreover, FRIMA funds projects that are ready to be constructed and 
will provide immediate improved protections for fish and immediate jobs 
for the construction of the projects. Dollar-for-dollar, providing 
screening and fish passage at diversions is one of the most cost-
effective uses of restoration dollars, creating fishery protection at 
low cost, with low risk and significant benefits. While we acknowledge 
the efforts of the U.S. Department of the Interior and its agencies in 
habitation restoration through the Cooperative Landscape Conservation 
Program, this is a longer range program for fish and habitat 
protection. FRIMA projects provide immediate protection for fish and 
fill a large unmet need in the Pacific Northwest for cost-share 
assistance with fish screening and fish passage installations and 
improvements.
    We urge the full authorization funding of $25 million for FRIMA in 
fiscal year 2013 and urge Congress' oversight in encouraging FWS to 
budget for this successful program in the future.
    Thank you for the opportunity to provide this statement for the 
hearing record.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance

    We urge the Committee to designate a total of $155 million to the 
National Endowment for the Arts (NEA) for fiscal year 2013. Mr. 
Chairman and distinguished members of the subcommittee, I am grateful 
for this opportunity to submit testimony on behalf of the Performing 
Arts Alliance (PAA) and its member organizations--American Composers 
Forum, Association of Performing Arts Presenters, Chorus America, 
Dance/USA, Fractured Atlas, League of American Orchestras, National 
Alliance for Musical Theatre, National Association of Latino Arts and 
Culture, National Performance Network, New Music USA, OPERA America, 
and Theatre Communications Group. The PAA is a national network of more 
than 27,000 organizational and individual members comprising the 
professional, nonprofit performing arts and presenting fields.
    This testimony is intended to highlight the importance of the 
Federal investment in the arts in order to sustain a vibrant cultural 
community. With strong Federal support, the NEA can widen citizen 
access to the cultural, educational, and economic benefits of the arts, 
and advance creativity and innovation in communities across the United 
States.
    The NEA increases opportunities for the American public to enjoy 
and benefit from the performing arts. Since the establishment of the 
NEA in 1965, access to the performing arts has improved in communities 
large and small across the country. The NEA has helped foster the 
development of the many regional theatres, opera companies, dance 
companies, orchestras, and performing arts centers that Americans now 
enjoy. Despite diminished resources, the NEA awarded more than 2,400 
grants in fiscal year 2011 to nonprofit arts organizations for projects 
that encouraged artistic creativity, provided lifelong learning 
opportunities, and engaged audiences in the finest the arts have to 
offer.
    The NEA contributes to the economic growth and development of 
communities nationwide. The arts are part of a diversified 21st century 
economy. Along with nonprofit arts organizations, creative enterprises 
make significant contributions to State and local economies, generating 
employment and tax revenues and providing goods and services in high 
demand by the public. A strong arts sector is an economic asset that 
stimulates business activity, attracting companies that want to offer 
their employees and clients a creative climate and amenity-rich 
community.

                THE NONPROFIT PERFORMING ARTS COMMUNITY

    The following member profiles of the PAA, which include national 
service organizations representing composers, presenting, chorus, 
dance, musical theatre, Latino arts and culture, new music, opera, 
orchestras, and theatre fields, exemplify the economic, educational, 
and quality of life benefits that performing arts organizations bring 
to communities across the country.

                        AMERICAN COMPOSERS FORUM

    American Composers Forum (Forum), one of the Nation's premier 
composer services organizations, works to make composers, and the music 
they create, a vibrant and integral part of our culture. Forum programs 
reflect the diversity of our world, and they partner with a variety of 
ensembles and organizations including faith communities, rural and 
urban schools, healthcare facilities, Indian reservations, and civic 
organizations. With over 2,000 members nationwide, the organization 
serves thousands of artists annually through its online networks and 
social media.

                            ARTS PRESENTERS

    Performing arts presenters bring professional performing artists 
from all over the world into the communities they serve and include 
organizations such as performing arts centers in major urban cities, 
academic institutions, festivals and fairs as well as the artists, 
artist managers, agents, and local arts agencies. The Association of 
Performing Arts Presenters (APAP) is the national service and advocacy 
organization with more than 1,400 members worldwide, dedicated to 
developing and supporting a robust performing arts presenting field and 
the professionals who work within it. APAP members bring performances 
to more than 2 million audience-goers each week and spend in excess of 
$2.5 billion annually, and the field of presenters serves more than 6 
million audience members every week. The membership includes a range of 
organizations from very small presenting groups (under $50,000 budgets) 
to multi-million dollar budgets and individuals who are artists or 
performing arts professionals, representing a diversity of performing 
arts fields.

                                 CHORUS

    Chorus America's mission is to build a dynamic and inclusive choral 
community so that more people are transformed by the beauty and power 
of choral singing. Chorus America strengthens choral organizations and 
provides their leaders with information, research, leadership 
development, professional training, and advocacy to help them deliver 
the best possible contributions to their communities and to the choral 
art. The more than 2,000 choruses, individuals, businesses, and 
organizations that are members of Chorus America speak with a strong 
and unified voice to increase recognition of choral singing as an 
essential part of society.

                                 DANCE

    Over two-thirds of America's professional dance companies are less 
than 45 years old; as an established art form with national identity 
and presence, dance has burst onto the scene almost entirely within 
living memory. And yet, America can boast some of the greatest dance 
companies of the world and can take credit for birthing two indigenous 
dance styles--tap and modern dance. The key to this spectacular 
achievement was the creation of a national marketplace for dance, 
especially in the 1970s and 1980s. When the NEA instituted its Dance 
Touring Program in the 1970s, great dance became accessible to every 
community in the United States. NEA programs have continued to ensure 
that the best of American dance is for all of the United States and a 
showpiece for the rest of the world. Based on data from almost 300 
nonprofit dance companies from across the United States, Dance/USA, the 
national service organization for not-for-profit professional dance, 
estimates that dance companies employed over 12,800 people in a mix of 
full-time and part-time positions; paid approximately $316 million in 
wages and benefits; earned $178.9 million, or 30 percent of their 
income, from performances; received $235.7 million, or 47 percent of 
their income in contributions; and generated more than $585 million in 
economic activity across the United States.

                            FRACTURED ATLAS

    Fractured Atlas is a nonprofit organization that serves a national 
community of artists and arts organizations. Their programs and 
services facilitate the creation of art by offering vital support to 
the artists who produce it, and they help artists and arts 
organizations function more effectively as businesses by providing 
access to funding, healthcare, education, and more, all in a context 
that honors their individuality and spirit. Their fiscal sponsorship 
program has grown from 6 local groups to over 2,200 nationally, and in 
2011 their membership topped 16,000 artists and arts organizations, 
with an expanded audience of over 140,000 through their Open Arts 
Network.

                            MUSICAL THEATRE

    National Alliance for Musical Theatre (NAMT) is the national 
service organization dedicated exclusively to musical theatre and 
serving some of the leading musical theatre producers in the world. 
Last season, NAMT members collectively staged over 18,500 performances 
attended by over 11.5 million people, employed over 16,500 people, and 
provided education programs for over 1 million students and teachers. 
NAMT has presented its Festival of New Musicals annually since 1989, 
bringing together theatre producers and writers, with the goal of 
furthering the development and production of new musicals. NAMT's 
Festival has showcased almost 500 writers and almost 300 new musicals.

            NATIONAL ASSOCIATION OF LATINO ARTS AND CULTURE

    Founded in 1989, the National Association of Latino Arts and 
Culture (NALAC) is the Nation's only multidisciplinary Latino arts 
service organization. NALAC provides critical advocacy, funding, 
networking opportunities, and professional development training to 
build the capacity and sustainability of the Latino arts and cultural 
field to sustain artists and arts organizations in every region of the 
country. NALAC's constituency is a multi-ethnic, multigenerational, and 
interdisciplinary community that includes thousands of artists and 
hundreds of not-for-profit Latino arts and cultural organizations in 
the United States.

                      NATIONAL PERFORMANCE NETWORK

    The National Performance Network (NPN) is a group of diverse 
cultural organizers, including artists, working to create meaningful 
partnerships and to provide leadership that enables the practice and 
public experience of the contemporary arts in the United States. As a 
nationwide network, NPN functions as an applied learning community. 
NPN's resources currently support and connect 50-75 performing arts 
organizations, called NPN Partners. The NPN constituency ranges from 
the most grassroots operations to large regional arts centers. NPN 
Partners are ethnically, culturally, and stylistically diverse and 
reflect a cross-section of urban, suburban, and rural communities that 
are generally under-represented.

                             NEW MUSIC USA

    New Music USA's mission is to increase opportunities for composers, 
performers and audiences by fostering the creation, dissemination, and 
enjoyment of new American music, both nationally and internationally. 
New Music USA places special emphasis on broadening the public 
community for the music and musicians whom we serve.

                                 OPERA

    OPERA America members are found in communities all across the 
country--a total of 122 companies in 43 States. In the United States, 
over half of these companies were established after 1970, and over 40 
percent were established since 1980, indicating the growth of opera 
throughout North America in the last 40 years. Over 6.7 million people 
attended a live performance at one of OPERA America's Professional 
Company Members in the 2009-2010 season, including education and 
outreach programs, and festivals. In 2009-2010, OPERA America's 
Professional Company Members in North America presented 1,298 
mainstage, festival, educational, and other programs. Beyond the opera 
house, opera companies are finding new and exciting ways to bring the 
essence of opera to other local theaters and community centers, 
frequently with new and innovative works that reflect the diverse 
cultures of the cities they serve. Strong partnerships with local 
schools, too, extend the civic reach of opera companies as they 
introduce children to another multi-media art form and discover 
promising young talent.

                               ORCHESTRAS

    Supported by a network of musicians, volunteers, administrators, 
and community leaders, America's symphony, chamber, collegiate, and 
youth orchestras total more than 1,800, existing in every State and 
territory, with annual budgets ranging from less than $10,000 to more 
than $90 million. More than half a million individuals are involved in 
orchestras, including conductors, staff, board members, musicians, and 
volunteers. Orchestra revenue totaled $1.69 billion in 2008-2009, and 
their economic impact exceeds several times that amount as orchestras 
create jobs, engage in commerce with local businesses, and spur local 
expenditures on related goods and services. NEA grants to orchestras 
and the communities they serve support arts education for children and 
adults, expand public access to performances, preserve great classical 
works, and foster the creative endeavors of contemporary classical 
musicians, composers, and conductors. Orchestras now offer nearly 
13,000 education concerts, more than 1,000 community engagement 
concerts, and more than 40 kinds of programs, including pre-school 
programs; in-depth, multi-year community residencies; and long-term 
partnerships with schools, instrumental instruction, educational 
classes for seniors, and programs in libraries and hospitals.

                                THEATRE

    In 1961, nonprofit theatre in America consisted of only 16 theatre 
companies. Today, thanks in large measure to the pivotal role played by 
the NEA since 1965, the nonprofit theatre field consists of more than 
an estimated 1,800 theatres located in major metropolitan centers, 
urban neighborhoods, suburbs, and rural communities. Theatre 
Communications Group (TCG), the national organization for the American 
nonprofit theatre, reports that the estimated 1,807 nonprofit 
professional theatres in the United States employ more than 119,800 
theatre workers--actors, directors, playwrights, designers, 
administrators, and technicians--and constitute a nearly $1.9 billion 
industry. Collectively, these theatres are estimated to have offered 
163,000 performances that attracted 31 million patrons. Based on recent 
surveys of 171 nonprofit theatres, TCG reports that over 1,100 outreach 
and educational programs are in existence today, serving over 2.5 
million people. The direct impact of a theatre receiving funding from 
the NEA comes not only in the form of project grants, but also in the 
multiplier effect that NEA grants, through its matching funds 
requirement, have on theatres' abilities to leverage and attract other 
private and public funding.

                               CONCLUSION

    Performing arts organizations are a vital component of community 
life, allowing citizens to appreciate our Nation's culture and heritage 
through excellent artistic programming. The NEA is an investment that 
realizes significant returns on the Federal dollars invested, both 
measurable and intangible. We urge you to designate no less than $155 
million to the NEA. Thank you for your consideration of our request.
                                 ______
                                 
     Prepared Statement of the Pennsylvania Fish & Boat Commission

Introduction
    The Pennsylvania Fish and Boat Commission (PFBC) is submitting the 
following statement supporting two complementary programs: the State 
and Tribal Wildlife Grant (SWG) and Aquatic Nuisance Species (ANS) Plan 
funding. The SWG Program is directed at protecting and recovering 
native species of greatest conservation need, whereas the Aquatic 
Nuisance Species (ANS) Plan funding helps to prevent and reduce aquatic 
nuisance species which pose a serious threat to native flora and fauna.
State and Tribal Wildlife Grants Program
    The Pennsylvania Fish and Boat Commission (PFBC) respectfully urges 
your consideration for continued support of the State and Tribal 
Wildlife Grants (SWG) Program for fiscal year 2013. This appropriation 
to Pennsylvania and other States is crucial for slowing and reversing 
the decline of imperiled species. In the past decade, the SWG Program 
has become an integral component in the Commonwealth's wildlife 
conservation efforts and crucial to implementation of federally 
required State Wildlife Action Plan. State Wildlife Grants are matched 
with non-Federal funds from a variety of State and non-governmental 
partners, thus allowing even greater work to be conducted. With 
increasing financial stresses on States and their partners, maintaining 
the Federal/non-Federal match rate of 65:35 is an important aspect of 
the program.
    Congress has had the exceptional foresight to recognize that 
endangered species prevention provides fundamentally efficient use of 
taxpayer dollars, and early intervention is the most effective 
approach. As a Federal cooperative effort with the States and tribal 
entities, State Wildlife Grants provide preventative care of natural 
resources. This is the core program for preventing the listing of 
endangered species and for the recovery of declining fish and wildlife. 
In Pennsylvania, the Fish and Boat Commission, through SWG-funded 
projects, has gained incredibly valuable information about the 
distribution and abundance of species, for which we previously had 
minimal data. Consequently, we have been able to delist 10 species from 
the State threatened and endangered species list because we found the 
populations of these species to be sufficiently abundant to preclude 
listing as threatened or endangered. These new data have also 
highlighted low abundances of other species toward which we can further 
expect to direct additional efforts to help recover their populations 
to help avoid Federal listing.
    Additionally, the SWG Program has allowed the Commission and our 
partners to implement proactive projects that have benefitted several 
of the Commonwealth's most vulnerable species and habitats. Direct 
habitat restoration, exemplified by the Commission's nationally 
renowned fish passage program, has resulted in the removal of over 170 
small dams since 2004. This habitat restoration improves water quality 
and opens critical habitat for numerous species of greatest 
conservation need. Further, through our environmental review process, 
funded by SWG, we are able to make prudent and appropriate decisions 
that protect species and their habitats while advancing societal needs. 
Increasing pressures from a variety of stressors and threats make the 
value of this program an essential part of species protection.
    State Wildlife Grants funds are vital for statewide efforts to 
monitor and manage at-risk species populations, manage and restore 
their critical habitats, and prevent further species decline. The 
projects supported by State Wildlife Grants have improved public 
safety, served private landowners, supported small business 
contractors, and provided targeted management attention in every 
congressional district of the Commonwealth. This proactive and non-
regulatory program, that ensures cost-effective matching funds, 
provides a large return on a relatively small Federal investment.
Aquatic Nuisance Species Plans
    We also respectfully urge your consideration for continued support 
of funding for implementation of State Aquatic Nuisance Species (ANS) 
Plans. ANS in Pennsylvania are of ever-increasing concern to 
Pennsylvania's $3.4 million fishing and boating industry that supports 
nearly 18,000 jobs and generates $120 million in annual State and local 
tax revenues. A few examples with economic and ecological impacts, that 
have either been recorded in Pennsylvania, or are a potential threat 
include; the fish virus viral hemorrhagic septicemia (VHS), zebra and 
quagga mussels, the algal didymo, and fishes such as the round goby, 
Eurasian ruffe and Asian carp--Pennsylvania Sea Grant Aquatic Invasive 
Species: http://seagrant.psu.edu/publications/ais.htm.
    Yet, despite the negative economic and ecological impacts posed by 
these diverse ANS, State funding is inadequate, and most of 
Pennsylvania's Federal funding to address this problem is received 
through the Great Lakes Restoration Initiative (GLRI), which is focused 
on critical needs associated with the Lake Erie area. The ANS Plan 
funding is the primary Federal funding available for use statewide, 
without geographic restriction.
    In Pennsylvania, the ANS Plan funds support Pennsylvania Sea Grant 
initiatives to work with watershed associations, angling groups, 
boating organizations, diving groups, State agencies, and other 
interested parties to conduct programs and develop outreach materials 
to emphasize the steps that can be taken to prevent the spread of ANS. 
This outreach effort is emphasizing both the national Stop Aquatic 
Hitchhikers! campaign message and the Pennsylvania Clean Your Gear 
campaign message. It also supports Pennsylvania's participation in 
regional ANS coordination efforts like the Mid-Atlantic ANS Panel and 
the Great Lakes ANS Panel, because ANS movement is not limited by State 
boundaries.
    ANS Plan funding has been used to support the aquatic nuisance 
(invasive) species workgroup of the Pennsylvania Invasive Species 
Council, help develop a model rapid response plan, conduct early 
detection and monitoring work for certain species, and develop an ANS 
prevention sign for boat ramps that is now used by multiple agencies 
across the Commonwealth.
    Addressing ANS requires a diverse approach with prevention as the 
initial effort. Once established, aquatic nuisance species can wreak 
substantial negative ecological and economic impacts on native flora 
and fauna. Preventative action is crucial to avoiding the cost and 
ecological degradation that accompanies the establishment of these 
aquatic invaders. As part of this prevention effort, education and 
outreach provide the public, and all who may be impacted, with the 
information needed to prevent or slow ANS transmission. Pennsylvania 
Sea Grant has been a vital partner in providing this outreach. Special 
initiatives such as ``clean your gear,'' ANS fact sheets, presentations 
and other outreach efforts provide anglers and boaters with information 
that can help reduce the inadvertent spread of ANS among waterbodies. 
Early Detection and Monitoring can help reduce the establishment and 
spread of ANS by providing an opportunity to control and potentially 
eradicate an ANS before it is firmly established and broadly 
distributed. Research to help repress, and perhaps eliminate, ANS is 
another important facet in this effort to control these undesirable 
species. ANS often demonstrate dramatic growth in abundance and 
distribution after establishment, so measures to control and contain 
the invasion may reduce the resulting outcomes from their occurrence.
    Without the continued State ANS Plan funding, State agencies and 
organizations will not have the necessary tools to leverage other 
monies and resources to continue to implement this important program 
which can have profound ecosystem, public health, and economic impacts. 
In addition to these significant concerns posed by expansion of aquatic 
nuisance species, aquatic nuisance species threaten Pennsylvania's 
diverse native flora and fauna. This ANS plan funding is crucial to 
maintain our natural heritage for future generations.
                                 ______
                                 
               Prepared Statement of PNM Resources, Inc.

    I am requesting your support for fiscal year 2013 appropriations to 
the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program consistent with the President's recommended 
budget. I request that the Subcommittee:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element within 
        the $81,709,000 item entitled ``Recovery'') to the U.S. Fish 
        and Wildlife Service (FWS) to allow FWS to continue its 
        essential participation in the Upper Colorado River Endangered 
        Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Recovery'' funds for the San Juan 
        River Basin Recovery Implementation Program to meet expenses 
        incurred by FWS's Region 2 in managing the San Juan Program's 
        diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $43,189,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.
    I request the Subcommittee's assistance in assuring fiscal year 
2013 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
Subcommittee has greatly facilitated the success of these ongoing 
efforts.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System

    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 18 
years, through operations funding and dedicated Challenge Cost Share 
funds, for the national scenic and historic trails administered by the 
National Park Service. We also appreciate your increased allocation of 
funds to support the trails administered and managed by the Forest 
Service and for the trails in the Bureau of Land Management's National 
Landscape Conservation System. To continue the progress that you have 
fostered, the Partnership requests that you provide annual operations 
funding for each of the 30 national scenic and historic trails for 
fiscal year 2013 through these appropriations:
  --National Park Service.--$16.21 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction: $380,000 for the Ice 
        Age Trail and $200,000 for the Pacific Crest Trail.
  --USDA Forest Service.--$9.096 million to administer 6 trails and 
        $1.2 million to manage parts of 16 trails administered by the 
        NPS or BLM. $1 million for Iditarod Trail construction.
  --Bureau of Land Management.--To coordinate its National Trails 
        System Program: $250,000; to administer these trails: Iditarod 
        Trail: $700,000, the Camino Real de Tierra Adentro Trail: 
        $230,000, the Old Spanish Trail: $350,000 and to manage 
        portions of 10 trails administered by the Park Service or the 
        Forest Service: $4 million; $3,140,000 for operating five 
        National Historic Trail interpretive centers; Construction: 
        $300,000 for the Pacific Crest Trail.
  --We ask that you appropriate $4.5 million for the National Park 
        Service Challenge Cost Share Program and continue to direct 
        one-third ($1,500,000) for national scenic and historic trails 
        or create a separate $1.5 million National Trails System 
        Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and allocate it for the national 
        scenic and historic trails it administers or manages.
    We ask that you appropriate from the Land and Water Conservation 
Fund for land acquisition:
  --to the Forest Service: $7.25 million for the Pacific Crest Trail, 
        $1.5 million for the Florida Trail; $2.65 million for the Old 
        Spanish Trail; $3.24 million for the Appalachian Trail; $1.5 
        million for the Nez Perce Trail; $3 million for the Continental 
        Divide Trail; $45,000 for the Pacific Northwest Trail; and 
        $15,000 for the Arizona Trail;
  --to the Bureau of Land Management: $3.5 million for the Oregon Trail 
        in Oregon; $732,000 for the Pacific Crest Trail in Oregon; and 
        $1 million for the Oregon, California, Mormon Pioneer, and Pony 
        Express Trails in Wyoming;
  --to the Park Service: $6.2 million to continue work with the State 
        of Wisconsin for the Ice Age Trail; $2 million for the North 
        Country Trail, $2.5 million for the New England Trail; $1.125 
        million for the Appalachian Trail; $4 million for the Ala 
        Kahakai Trail; and $450,000 for the Overmountain Victory Trail.
National Park Service
    The $16.21 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
over the past 7 years. We support the administration's requested 
funding for the new Star Spangled Banner and Washington-Rochambeau 
National Historic Trails and we request $400,000 for the Park Service 
to implement planning and administration for the New England National 
Scenic Trail.
    We request an increase of $626,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop GIS mapping, and to fund public educational 
outreach programs of the Santa Fe Trail Association. An increase of 
$780,000 for the Trail of Tears will enable the Park Service to work 
with the Trail of Tears Association to develop a GIS to map the Trail's 
historical and cultural heritage sites to protect them and to develop 
interpretation of them for visitors. We request an increase of $346,000 
to $866,000 for the Ala Kahakai Trail to enable the Park Service to 
work with E Mau Na Ala Hele, the Ala Kahakai Trail Association, and 
other community organizations to care for resources on the land and 
with the University of Hawaii to conduct archaeological and cultural 
landscape studies along this trail.
    We request an increase of $193,000 to $1,708,000 for the 
Appalachian Trail to expand the highly successful ``Trail to Every 
Classroom'' program of the Appalachian Trail Conservancy. The 
$1,483,000 we request for the 4,200 mile North Country Trail will 
enable the Park Service to provide greater support for the regional GIS 
mapping, trail building, trail management, and training of volunteers 
led by the North Country Trail Association. This funding will also 
enable the Park Service to move the administrative office for the North 
Country Trail to Michigan for more efficient and effective 
collaboration with the North Country Trail Association. The $1,389,000 
we request for the Ice Age Trail includes a $535,000 increase to build 
partner and citizen capacity for protecting the natural, cultural and 
recreational resources on the Ice Age NST and Ice Age Trail lands as 
well as to provide NPS with a property manager for NPS-owned lands.
    Construction.--We request that you appropriate for trail 
construction projects $380,000 for the Ice Age Trail and $200,000 for 
the Pacific Crest Trail in the national parks crossed by the trail.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership's member organizations applaud the administration's 
decision to restore these highly effective programs of the Park 
Service, Bureau of Land Management, and Fish and Wildlife Service. We 
request that you fund all of them and appropriate $4.5 million in 
Challenge Cost Share funding to the Park Service for fiscal year 2013 
as a wise investment of public money that will generate public benefits 
many times greater than its sum. We ask you to continue to direct one-
third of the $4.5 million for the national scenic and historic trails 
to continue the steady progress toward making these trails fully 
available for public enjoyment. We suggest, as an alternative to the 
annual allocating of funds from the Regular Challenge Cost Share 
program, that you create a separate National Trails System Challenge 
Cost Share program with $1.5 million funding.
    We support the administration's requested $934,000 for the Connect 
Trails to Parks project to enhance the public's understanding of the 
National Trails System and its relationship to the National Park 
System.
USDA--Forest Service
    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 5 
national scenic trails and 1 national historic trail, and managing 
parts of 16 other trails. We ask you to appropriate $9.096 million as a 
separate budgetary item specifically for the Arizona, Continental 
Divide, Florida, Pacific Crest, and Pacific Northwest National Scenic 
Trails and the Nez Perce National Historic Trail within the overall 
appropriation for Capital Improvements and Maintenance for Trails. 
Full-time managers have been assigned for each of these trails by the 
Forest Service. Recognizing the on-the-ground management responsibility 
the Forest Service has for 838 miles of the Appalachian Trail, more 
than 650 miles of the North Country Trail, and sections of the Ice Age, 
Anza, Caminos Real de Tierra Adentro and de Tejas, Lewis & Clark, 
California, Iditarod, Mormon Pioneer, Old Spanish, Oregon, Overmountain 
Victory, Pony Express, Trail of Tears and Santa Fe Trails, we ask you 
to appropriate $1.2 million specifically for these trails.
    Work continues, supported by funds you provided over the past 10 
years, to close several major gaps in the Florida Trail. In 2011 
Florida Trail Association volunteers maintained 1,143 miles and 
completed 8 major construction and restoration projects along the 
Trail. The Partnership's request of $9.096 million above includes $2.5 
million to enable the Forest Service and FTA to continue this 
maintenance, to control invasive species, do ecosystem restoration, and 
otherwise manage 4,625 acres of new Florida Trail land.
    The Partnership's request of $9.096 million above also includes $2 
million for the Pacific Crest Trail, $2.2 million for the Continental 
Divide Trail, $1 million for the Pacific Northwest Trail, $826,000 for 
the Nez Perce Trail, and $570,000 for the Arizona Trail. Some of the 
additional funds requested will enable the Forest Service to develop 
Comprehensive Management Plans for the latter three trails. We also 
request $1 million of additional funding for construction of sections 
of the Iditarod Trail.
Bureau of Land Management
    While the Bureau of Land Management has administrative authority 
only for the Iditarod, El Camino Real de Tierra Adentro, and the Old 
Spanish National Historic Trails, it has on-the-ground management 
responsibility for 641 miles of five scenic trails and 3,115 miles of 
eight historic trails administered by the National Park Service and 
U.S. Forest Service. The bureau recognized the significance of these 
trails by including them in the National Landscape Conservation System 
and since fiscal year 2002 has provided funding for each of them. The 
Partnership applauds these decisions of the Bureau and encourages its 
staff to budget specific funding for each of these trails.
    Although considerably more money is needed to fully administer the 
National Landscape Conservation System and protect its resources, we 
support the administration's request of $69.549 million in base funding 
for the System for fiscal year 2013 and ask that you appropriate as new 
permanent base funding $250,000 for National Trails System Program 
Coordination, $700,000 for the Iditarod Trail, $230,000 for El Camino 
Real de Tierra Adentro Trail, $350,000 for the Old Spanish Trail, and 
$4,000,000 for management of the portions of the 10 other trails under 
the care of the Bureau of Land Management. For trail maintenance we 
request $300,000 for the Pacific Crest Trail and $50,000 for the Nez 
Perce Trail; and request $3,140,000 to operate five historic trails 
interpretive centers.
    We ask you to fund the Bureau's Challenge Cost Share program and to 
add $500,000 directed for projects for the National Trails System as 
you have done for many years with the Park Service's Challenge Cost 
Share program.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2012 and to direct the 
Bureau to include unit-level allocations by major sub-activities for 
each of the scenic and historic trails, and wild and scenic rivers--as 
the Bureau has done for the monuments and conservation areas--within a 
new activity account for the National Landscape Conservation System in 
fiscal year 2013. Existing accounts for Wilderness Areas and Wilderness 
Study Areas should also be included in this new National Landscape 
Conservation System activity account. The Bureau's lack of a unified 
budget account for National Trails prevents the agency from efficiently 
planning, implementing, reporting, and taking advantage of cost-saving 
and leveraging partnerships and volunteer contributions for every 
activity related to these national resources.
Land and Water Conservation Fund
    The Partnership applauds and supports the administration's 
intention to provide $449.934 million for the Land and Water 
Conservation Fund. We request that you provide at least this amount to 
keep on a trajectory to achieve annual full funding for the LWCF and 
that you make the specific appropriations for national scenic and 
historic trails detailed at the beginning of this statement and below.
    Forest Service.--The $7.25 million we request for the Pacific Crest 
Trail will continue to support the acquisition underway by the Forest 
Service Lands Team and the Park Service National Trail Land Resources 
Program Center, protecting 3 miles of PCT in Washington, 0.5 mile in 
Oregon, and 8 miles (including taking 3.4 miles off of roads) in 
California. The $1.5 million requested for the Florida Trail will 
continue another successful collaboration between these two agencies to 
protect 30 tracts and 3.4 miles of the Trail along the Suwanee River. 
We request $2.65 million to protect a section of the Old Spanish Trail 
in the Carson National Forest, $3.240 million to protect sections of 
the Appalachian Trail in the Cherokee, Pisgah and George Washington/
Jefferson National Forests, and $1.5 million to acquire land in Hell's 
Canyon of the Snake River in Oregon to protect sites along the Nez 
Perce Trail.
    Bureau of Land Management.--We request $732,000 for the Cascade 
Siskiyou National Monument that will preserve a section of the Pacific 
Crest Trail in Oregon, $3.5 million to purchase land along the Big 
Sandy River in Oregon for the Oregon Trail, and $1 million to protect 
sections of the Oregon, California, Mormon Pioneer, and Pony Express 
Trails along the Platte River in Wyoming.
    Park Service.--The National Trails System Act encourages States to 
assist in the conservation of the resources and development of the 
national scenic and historic trails. Since fiscal year 2000 Wisconsin 
has matched $13.6 million Federal LWCF funding with $27.7 million to 
help protect 67 miles of the Ice Age National Scenic Trail by 
purchasing 51 parcels totaling 7,727 acres. Another 40 parcels are 
under negotiation, appraisal or option to purchase. The requested $6.2 
million will continue this successful Federal/State/local partnership 
for protecting land for the Ice Age Trail. We request $2 million to 
close gaps in the North Country Trail, $4 million to acquire one parcel 
for the Ala Kahakai Trail, $2.5 million to acquire three parcels for 
the New England Trail, and $1.125 million to acquire parcels in 
Pennsylvania and Vermont for the Appalachian Trail.
    The Partnership strongly supports the new ``National Rivers and 
Trails Initiative'' funding line for fiscal year 2013 as a first step 
to providing consistent annual funding to acquire the land needed to 
complete Congressionally authorized trails. We urge you to provide 
considerably more than the $4 million requested by the administration 
since the LWCF funding requests above total more than $15 million.
Private Sector Support for the National Trails System
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grassroots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2011 the trail organizations fostered 1,157,493 
hours--an increase of 4 percent over 2010--of documented volunteer 
labor valued at $24,724,054 to help sustain the national scenic and 
historic trails. The organizations also raised private sector 
contributions of $8,740,790 to benefit the trails.
                                 ______
                                 
               Prepared Statement of Preservation Action

                                REQUEST

    $46.925 million in appropriations (level funding) from the Historic 
Preservation Fund for State Historic Preservation Offices (SHPOs).
    $9.7 million in appropriations from the Historic Preservation Fund 
for Tribal Historic Preservation Offices (THPOs).
    $10 million in appropriations from the Historic Preservation Fund 
for a Historic Preservation Grant Program run through SHPO offices.
    $17.4 million in appropriations (level funding) from the 
Preservation and Recreation Account for National Heritage Areas.
funding for the historic preservation fund and for the preservation and 
 recreation account--core sources of funding for the federal functions 
       outlined in the national historic preservation act of 1966

    Thank you Chairman Reed, Ranking Member Murkowski, and members of 
the Subcommittee for the opportunity to submit testimony. We would like 
to respectfully request $66.2 million in appropriations for the 
Historic Preservation Fund (HPF). Recognizing our Nation's economic 
challenges, this number represents a funding level approximately 17 
percent less than fiscal year 2010, and about 18 percent higher than 
the President's request--but still substantially less than 50 percent 
of the $150 million authorized from the HPF each year. We would also 
like to request level funding for National Heritage Areas of $17.4 
million, paid for out of the Preservation and Recreation account.
    Beginning with the HPF, we ask that this funding be allocated at 
$46.925 million for State Historic Preservation Officers (SHPOs), which 
is level with fiscal year 2012 and equal to the President's request, 
$9.7 million for Tribal Historic Preservation Offices (THPOs)--which is 
a slight increase of 10 percent, and $10 million for a fully 
competitive historic preservation grant program administered by the 
SHPOs in consultation with the National Park Service. This would 
restore some degree of programmatic capabilities lost with the 
elimination of funding for Save America's Treasures and Preserve 
America in fiscal year 2011.
    SHPOs carry out a substantial portion of our Federal historic 
preservation program that provides citizens the tools needed to 
revitalize, rehabilitate, and protect the places that give meaning to 
America. They also assure State and local input into the designation of 
the cultural resources that are important to them. Funding for SHPOs, 
leverages investments through local jobs, non-Federal contributions and 
long-term economic development. In 2011, the Rehabilitation Tax Credit, 
administered by SHPOs, leveraged over $4 billion in private investment 
and created over 55,000 jobs. SHPOs, as required by the National 
Historic Preservation Act, also review Federal projects for their 
potential impact on historic sites. In 2011, 140,600 projects were 
reviewed. Another vital component administered by the SHPOs, the 
Certified Local Government Grant program, provided small grants and 
assistance to 1,800 communities throughout the Nation.
    THPOs carry out many of the same functions as SHPOs, but on tribal 
lands. While the THPOs are exempt from matching requirements, over the 
life of this program, tribes overmatch the Federal funds by a factor of 
between 5 and 10 to 1. There are currently over 130 THPOs, compared to 
only 12 in fiscal year 1996 when the program was first funded. 
Unfortunately, the amount of funding annually appropriated to the THPO 
program has not kept pace with this expansion. It is important to keep 
in mind that this expansion is the result of the recognition of tribes, 
not from out of control growth of a program. Thus, the addition of new 
THPOs each year without additional funding actually means substantial 
budget cuts for the tribes recognized by the program. With the growing 
popularity of outdoor recreation, tourism and amateur treasure-hunting, 
under-funding this program jeopardizes the irreplaceable cultural 
artifacts from thousands of years of civilization.
    We also respectfully request $10 million for the establishment of a 
fully competitive historic preservation grant program administered by 
SHPOs. Recognizing the difficult economic times we are in, and our 
country's need to better leverage our existing programs, this request 
represents only one-third of the total previously funded through the 
Save America's Treasures and Preserve America programs. In fiscal year 
2011, funding for the Save America's Treasures and Preserve America 
programs--collectively representing slightly over $30 million was 
completely eliminated, leaving no dedicated Federal funding stream 
solely for the purpose of restoring, rehabilitating and surveying 
historic places of national importance. The justification for this, as 
published in the Interior Budget in Brief document last year, was so 
that the National Park Service could ``focus available resources on 
managing national parks and other primary responsibilities.'' We take 
great exception to this observation.
    The Organic Act of 1916 created the National Park Service in the 
Department of the Interior ``. . . to conserve the scenery and the 
natural and historic objects and the wild life therein . . .'' Since 
1933, the NPS has managed the Historical American Buildings Survey, the 
Federal government's oldest historic preservation program responsible 
for the creation of more than 556,900 measured drawings, large-format 
photographs, and written histories for more than 38,600 historic 
structures and sites. The National Historic Preservation Act of 1966, 
which forms the basis of our Nation's Federal historic preservation 
program within the Department of the Interior, further expanded the 
role of the NPS in the designation and maintenance of historic 
resources. Coupled with the fact that the NPS is the steward of more 
than 27,000 significant structures, 66,000 archaeological sites and 115 
million objects in museum collections, one could argue that not only is 
historic preservation a core part of the mission of the NPS, it helps 
define it.
    We would be happy to work with a broad group of legislators, 
preservationists, agencies and organizations to define the program to 
meet strict performance metrics--assuring a sensible and balanced 
program for restoring and sustaining our places of national 
significance and a good return on investment.
    We are also seeking level funding ($17.4 million) for National 
Heritage Areas, paid for out of the National Recreation and 
Preservation Account. National Heritage Areas, of which there are 49, 
have been individually designated by Congress because their natural, 
cultural, historic, and scenic resources are considered uniquely 
representative of the American experience. While the National Park 
Service provides technical assistance and funding, 85 percent of the 
support for National Heritage Areas comes from the impacted regions 
through private, State, and local government sources. The Federal seed 
monies provided have spurred grassroots conservation efforts that are 
self-determining, self-defined and thereby reflective of their 
individual values in a national context.
    Recognizing concern about the sustainability of Heritage Areas, 
recently, legislation has been introduced, which Preservation Action 
supports, that would formally define the program and establish 
performance metrics, and paths to self-sufficiency--so that we can get 
the best return on our national investment. The Administration's 
proposed 50 percent reduction in funding for National Heritage Areas, 
so that they can focus resources on park operations and other critical 
partnership programs is disingenuous. In past attempts to cut this 
funding, Interior and the NPS have cited the lack of the program 
legislation that is now on the table--when they know full well of its 
existence--because they helped to draft it. Cutting funding by 50 
percent because the legislation does not exist yet is 
counterproductive--unfairly harming the very program they are 
attempting to better define. Given the economic value of Heritage 
Areas, the number of jobs they produce (estimated at 152,324, paying 
$3.2 billion in wages), and their ability to tie together history, 
place, tourism and environment--we believe they are a good investment 
and support small business.
           the national park service is more than just parks
    Preservation and conservation are intertwined. In implementing the 
National Historic Preservation Act, there was recognition of this fact 
by placing the primary responsibility for both federally owned and non-
federally owned resources of national significance within the 
Department of the Interior, who subsequently assigned responsibilities 
to the National Park Service. Yet there seems to be an ongoing tension 
between natural resources or ``parks'' and their broader 
responsibilities for non-park based ``partnership programs.'' In the 
Administration's budget, we see continued level funding for SHPOs and 
THPOs, no funding replacing the $30 million in project grants 
eliminated by not funding Save America's Treasures and Preserve 
America, a 50 percent cut to National Heritage Areas, a $1.4 million 
reduction in cultural resource stewardship, and reduced funding for 
construction and major maintenance (in the face of an enormous 
maintenance backlog and the fact that only 58.5 percent of our historic 
structures are considered to be in good condition). At the same time 
there is $215 million proposed for natural resource stewardship 
programs (twice the amount of cultural), and a proposed increase of 
$104 million to the Land and Water Conservation Fund--used primarily 
for land acquisition. We should be prepared to increase our investment 
in preserving the very assets we already own as well as new ones.
    Based upon several years of similar trends, this past year, 
Preservation Action convened a Task Force consisting of eleven national 
historic preservation organizations, examined this problem, and 
published a series of findings and recommendations in a report called 
``Aligned for Success, Recommendations to Increase the Effectiveness of 
the Federal Historic Preservation Program.'' Among the Task Force's 
findings are that the current structure of the Federal historic 
preservation program does not ``provide for the levels of leadership, 
public and private partnerships, advocacy, innovation and visibility 
required to realize the transformative vision for historic preservation 
set forth in the 1966 Act.'' The Task Force also found that there 
exists a competition for resources between park-based and non-park 
based cultural resources--a finding directly related to the funding 
choices made by the National Park Service.
    To correct the problem, the Task Force recognizes that visibility 
for the historic preservation program is key so that it can get the 
resources needed to fully realize the vision of the National Historic 
Preservation Act. These no-nonsense solutions don't require tremendous 
a lot of funding--attempting to maximize return on investment, and 
better positioning existing resources:
  --Realign the responsibilities for Preservation Partnership Programs 
        within the National Park Service under a Deputy Director for 
        Historic Preservation and Heritage who reports to the Director 
        of the National Park Service.
  --Designate a Senior Policy Officer for Historic Preservation and 
        Heritage in the Department of Interior as a Special Advisor for 
        Heritage to the Secretary of the Interior.
  --Make the Advisory Council on Historic Preservation Chairman a full-
        time position.
  --Designate a senior staff position for historic and cultural 
        resources on the President's Council on Environmental Quality 
        (CEQ).
    We would welcome the opportunity to work with members of this 
Committee to find a way to facilitate these changes, and to provide 
encouragement or instruction to the National Park Service and the 
Department of the Interior to make them happen. The result would be a 
more effective program, and one better able to sustain itself while at 
the same time focusing on our national heritage.
    Our Nation's cultural resources and natural resources are both 
important. We believe that they should not be an either-or proposition. 
Further, during this time of economic challenge, and widespread 
discussion on investments in infrastructure, we respectfully ask that 
you consider investment in our cultural resources, the preservation of 
our heritage, and the jobs that go along with historic preservation as 
a vital part of the solution.
    Preservation Action is a nonprofit grassroots advocacy organization 
founded in 1974. Our membership is made up organizations and 
individuals throughout the United States who share an ongoing interest 
and concern in our Nation's Federal historic preservation programs.
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission

    Mr. Chairman, and Honorable Members of the Committee, I am W. Ron 
Allen, Chairman of the U.S. Section's Budget Committee on the Pacific 
Salmon Commission (PSC). The U.S. Section prepares an annual budget for 
implementation of the Treaty. The integrated budget details program 
needs and costs for Tribal, Federal, and State agencies involved in the 
Treaty. Under the Bureau of Indian Affairs budget, the U.S. Section 
recommends that Congress:
      Fund the tribes' program at a restored funding level of 
        $4,800,000 for tribal research projects and participation in 
        the U.S.-Canada Pacific Salmon Treaty process, an increase of 
        $500,000 over the President's requested level for 2013. This 
        funding level represents status quo funding plus adjustments to 
        meet increased obligations under the 2009-2018 Pacific Salmon 
        Treaty Agreement. The funding for tribal participation in the 
        U.S./Canada Salmon Treaty is a line item in the BIA's budget 
        under the Rights Protection Implementation, Wildlife and Parks, 
        Other Recurring Programs Area.
    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
recommends that Congress:
      Provide base funding of $417,000 for USFWS participation in the 
        Treaty process, and provide funding of $315,000 for the Pacific 
        States Marine Fisheries Commission's Regional Mark Center. This 
        funding level represents an increase for the Mark Center to 
        make up for losses from other programs and allow the Mark 
        Center to maintain the same level of service to the U.S. 
        Section.
    This base funding for the U.S. Fish and Wildlife Service will pay 
for the critically important ongoing work. The funding for Pacific 
States Marine Fisheries Commission's Regional Mark Center is utilized 
to meet Treaty requirements concerning data exchange with Canada. These 
program recommendations are integrated with those of the State and 
Federal agencies to avoid duplication of effort and provide for the 
most efficient expenditure of scarce funds.
    A copy of the integrated U.S. Section budget justification has been 
made available to the Committee. The budget summary justifies the 
funding we are recommending today. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation of the Treaty and are used in cooperative programs 
involving Federal, State, and Tribal fishery agencies and the 
Department of Fisheries in Canada. The monetary commitment of the 
United States is matched by the commitment of the Government of Canada.
    The U.S. Section of the Pacific Salmon Commission is recommending 
an adjustment to the funding for the work carried out by the 24 treaty 
tribes' that participate in the implementation of the Treaty. Programs 
carried out by the tribes are closely coordinated with those of the 
States and Federal agencies. Tribal programs are essential for the 
United States to meet its international obligations. Tribal programs 
have taken on additional management responsibilities due to funding 
issues with State agencies. All participating agencies need to be 
adequately funded to achieve a comprehensive U.S. effort to implement 
the Treaty.
    We are strongly recommending maintaining base funding of $417,000 
for the U.S. Fish and Wildlife Service so the United States can 
maintain the critical database to implement the Treaty. We also 
strongly recommend funding of $315,000 to allow continuation of work 
carried out by the Regional Mark Processing Center. This work, 
maintaining and updating a coastwide computerized information 
management system for salmon harvest and catch effort data as required 
by the Treaty, has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission. The U.S. Fish and Wildlife Service will contract with the 
PSFMC to provide this service.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than 20 years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver Bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Commission provides a forum to ensure cooperative management of salmon 
populations. In 2008, the United States and Canada successfully 
concluded lengthy negotiations to improve this management, including 
the adjustments to the coastwide abundance-based management regime for 
Chinook salmon and a framework for abundance based management for 
southern Coho populations. The agreement is intended to last through 
2018. The Fraser River sockeye and pink chapter to the Pacific Salmon 
Treaty expired in 2010 and negotiators worked out an interim 
arrangement while Canada's Cohen Commission completes its judicial 
inquiry on the Fraser River sockeye fishery.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, Tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work toward the true intent of the 
Treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your Committee. I want to thank the Committee for the 
support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section, through the 
Office of the U.S. Section Coordinator to answer any questions you or 
Committee members may have regarding the U.S. Section of the Pacific 
Salmon Commission budget.

      SUMMARY OF TRIBAL AND FISH AND WILDLIFE SERVICE PROGRAMS UNDER THE U.S.-CANADA PACIFIC SALMON TREATY
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                   2012 enacted        2013          Increase
                                                                   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------
Department of the Interior:
    Bureau of Indian Affairs, Wildlife and Parks, Rights              $4,120,000      $4,300,000       +$180,000
     Implementation.............................................
    U.S. Fish and Wildlife Service, Anadromous Fisheries........         667,000         732,000         +65,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide testimony on the fiscal year 2013 appropriations 
for American Indian and Alaskan Native programs. My name is David Z. 
Bean, Tribal Council Member for the Puyallup Tribe of Indians. The 
Puyallup Tribe is an independent sovereign nation having historically 
negotiated with several foreign nations including the United States in 
the Medicine Creek Treaty of 1854. This relationship is rooted in 
Article I, Section 8, of the United States Constitution, Federal laws 
and numerous Executive orders. The governing body of the Puyallup Tribe 
of Indians is the Puyallup Tribal Council which upholds the Tribe's 
sovereign responsibility of self-determination and self-governance for 
the benefit of the 4,416 Puyallup tribal members and the 25,000 plus 
members from approximately 355 federally recognized Tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061 acre 
reservation is a ``checkerboard'' of tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
    The following written testimony being submitted to the U.S. Senate 
Appropriations Subcommittee documents the Puyallup Tribe's views on the 
President's fiscal year 2013 Federal budget. On February 13, 2012, 
President Obama delivered his fiscal year 2013 budget to Congress. The 
budget proposal focuses on job creation and the beginning steps to 
reducing the Nations projected deficits. Within the budget, $2.5 
billion is provided for the Operation of Indian Programs. This 
represents an overall increase of $4.6 million from current levels. For 
the Indian Health Services, $4.422 billion is provided, an increase of 
$115.9 million over the fiscal year 2012 enacted level. We appreciate 
the increased funding provided for the operation of Indian programs 
within the Bureau of Indian Affairs and the Indian Health Services. 
However, the years of inadequate funding and the effects of inflation 
has impacted the Tribe's ability to fully exercise self-determination 
and self-governance. As negotiations proceed on the fiscal year 2013 
budget and future appropriations, efforts to insure adequate funding is 
provided for the operation of Indian programs will be paramount. To 
preserve the increased funding levels realized in recent years and 
contained in the proposed fiscal year 2013 budget for the Bureau of 
Indian Affairs and Indian Health Services, the increases should be 
viewed by Congress and the administration as new ``base funding'' 
amounts with annual increases to meet actual need. Specific issues and 
needs are:
Department of Interior--Bureau of Indian Affairs
    Public Safety and Justice.--The fiscal year 2013 budget request 
includes $353.8 million for BIA Public Safety and Justice. This 
represents a $8.4 million increase over the fiscal year 2012 enacted 
level which is fully supported by the Puyallup Tribe. The $88.1 million 
for Tribal and BIA detention and corrections funding is of great 
importance to the Puyallup Tribe. Within this amount, $6.3 million 
increase is directed to fund operations and O&M costs at newly 
constructed facilities. While this increase is supported by the 
Puyallup Tribe, it is of concern that current and ARRA funded 
facilities will remain understaffed. It is estimated that 373 positions 
are needed to fully staff existing direct service facilities and Public 
Law 93-638 contracted facilities. The Department of Justice funded 13 
tribes for the construction and/or expansion of detention facilities. 
According to the BIA Greenbook, five new or expanded facilities will 
become operational by the end of fiscal year 2013. It is estimated that 
186 additional staff will be needed to operate these facilities. In 
fiscal year 2009, the Puyallup Tribe received a Department of Justice 
ARRA grant, in the amount of $7.9 million to construct a 43 bed adult 
corrections facility. The Tribe has mobilized the Project Team, 
addressed all Special Conditions of the Grant Award, completed facility 
environmental documentation, design and established a Groundbreaking 
Ceremony for Spring/Summer 2012. The Project will be completed and be 
coming online by the end of the third quarter of fiscal year 2013. Over 
the past 2 years the Puyallup Tribe has been working closely with the 
BIA-Office of Justice Services National and Regional staff on 
identifying the future operating and staffing costs associated with the 
Puyallup Tribe's new adult corrections facility. The Puyallup Tribe has 
submitted a Public Law 93-638 contract request to the BIA for 
Operations and Maintenance funding for the new facility, including Pre-
Award, Start-up, Transitional funding, Staffing and O&M funding. We are 
requesting support from the Subcommittee on our contract request to the 
BIA for the O&M funding for the Tribe's Adult Corrections facility, 
estimated at $3.1 million annually. Further, the Puyallup Tribe 
requests the Subcommittee support to increase funding for BIA 
Detention/Corrections by $32.2 million to reflect actual funding need. 
In addition, we have submitted a Public Law 93-638 contract request to 
the BIA for Tribal Court funding, including pre-award and start-up 
funding. In fiscal year 2012, the BIA was able to fund only one-third 
of actual need of pre-award and start-up funding requests. We are 
requesting support from the Subcommittee on our contract request for 
Tribal Court funding and to fund pre-award and start-up funding at 100 
percent level of need, approximately an increase of three times the 
fiscal year 2012 base funding.
    Natural Resources Management.--The Puyallup Tribe as stewards for 
land and marine waters in the Usual and Accustomed fish, shellfish and 
wildlife areas has treaty and governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
tribal membership and the regional communities. Despite our diligent 
program efforts, the fisheries resource is degrading and economic 
losses are incurred by Native and Non-native fishermen and surrounding 
communities. Our resource management responsibilities cover thousands 
of square miles in the Puget Sound region of the State of Washington 
with an obligation to manage production of anadromous, non-anadromous 
fish, shellfish and wildlife resources. Existing levels of support are 
inadequate to reverse the trend of resource/habitat degradation. For 
fiscal year 2013, $8.660 million is provided for BIA Western Washington 
Fisheries Management, a small increase over the fiscal year 2012 
enacted level of $8.257. The Puyallup Tribe agrees with the Northwest 
Indian Fisheries Commission (NWIFC) request of $17.146 million for 
Western Washington Fisheries Management. The $8.486 million increase in 
funding would provide new monies for shellfish, groundfish, 
enforcement, habitat, wildlife and other natural resource management 
needs. As the aboriginal owners and guardians of our lands and waters 
it is essential that adequate funding is provided to allow Tribes to 
carry out our inherent stewardship of these resources. The Puyallup 
Tribe will continue to secure increased funding for Hatchery Operations 
and Maintenance. The President's fiscal year 2013 budget contains 
$4.838 million for Tribal Hatcheries, compared to the fiscal year 2012 
budget request of $5.452 million. The Puyallup Tribe supports the NWIFC 
recommendation to fund the Fish Hatchery Maintenance at $5.452 million, 
an increase of $614,000 over the President's fiscal year 2013 request. 
The Timber, Fish and Wildlife (TFW) Supplemental and U.S./Canada 
Pacific Salmon Treaty programs has allowed for the expansion of tribal 
participation in the State forest practice rules and regulations and 
participation in inter-tribal organizations to address specific 
treaties and legal cases which relate to multi-national fishing rights, 
harvest allocations and resource management practices. We request 
Subcommittee support to provide funding for the TFW at the President's 
request of $2.777 million and U.S./Canada Pacific Salmon Treaty program 
at $4.8 million, an increase of $436,000 over the President's request 
of $4.364 million. The Puyallup Wildlife Management program has been 
the lead agency in management activities to benefit the South Rainier 
elk herd since 2004. The South Rainier elk herd is the primary stock of 
elk harvested by the Puyallup Tribe. The Tribe has not only established 
more reliable methods for population monitoring, but has also been 
proactive in initiating habitat enhancement projects, research and land 
acquisition to ensure sustainable populations of elk for future 
generations. Funds that are available to the Tribe have been on a very 
competitive basis with a limited amount per program via USFWS Tribal 
Wildlife grants and the BIA Unresolved Hunting and Fishing Rights grant 
program. We request Subcommittee support to provide base funding to the 
Tribes Wildlife Management Program in the amount of $100,000 through 
the BIA Unresolved Hunting and Fishing Rights program in fiscal year 
2013 appropriations.
    Education.--The fiscal year 2013 budget requests funding of $795 
million for the Education program, a decrease of $3.8 million from 
current levels. We operate the pre-K to 12 Chief Leschi Schools which 
included a verified 2008-2009 School student enrollment of 910 plus 
students, including ECEAP and FACE programs. With an increasing number 
of pre-kindergarten enrollment, Chief Leschi Schools will exceed design 
capacity in the near future. Additional education facility space will 
be required. Additional, the cost of operation and maintenance of the 
Chief Leschi School facilities continues to increase in the areas of 
supplies, energy and student transportation costs. The Tribe will work 
with Congress and the BIE to increase funding in fiscal year 2012, 
including; Tribal Grant Support Cost for Tribally Operated Schools--
$72.3 million; Student Transportation--$73 million; School Facilities 
Accounts--$109.8 million in facilities operations and $76 million in 
facilities maintenance; and Indian School Equalization Formula (ISEF)--
$431 million.
    Operations of Indian Programs and Tribal Priority Allocations.--The 
President's fiscal year 2013 budget is in drastic need for increased 
funding for the BIA Operations of Indian Programs. Within the 
Operations of Indian Programs is the Tribal Priority Allocations (TPA). 
The TPA budget functions include the majority of funding used to 
support ongoing services at the ``local tribal'' level, including; 
natural resources management, child welfare, other education, housing 
and other tribal government services. These functions have not received 
adequate and consistent funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases TPA has received over the past few years has not been 
adequate to keep pace with inflation. The Puyallup Tribe is requesting 
support from the Subcommittee to fund the Operation of Indian Programs 
at the fiscal year 2013 request of $2.5 billion and Tribal Priority 
Allocations at a minimum of $897,436 million, an increase of $6,366 
million of the fiscal year 2012 enacted level. We further request 
support from the Subcommittee to increase funding for Indian Child 
Welfare (TPA) by $45 million; Increase Urban Indian Child Welfare 
programs by $15 million; and increase BIA Child Welfare Assistance by 
$55 million.
Department of Health and Human Services--Indian Health Service
    The Inadequate funding of the Indian Health Service is the most 
substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to the Native American population in Pierce 
County, Washington. The current patient load exceeds 9,000, of which 
approximately 1,700 are Tribal members. There are no Indian Health 
Service hospitals in the Portland Area so all specialties and hospital 
care have been paid for out of our contract care allocation. The 
Contract Care allocation to PTHA has been significantly inadequate to 
meet the actual need since fiscal year 2004 when the Puyallup Tribe 
subsidized Contract Health with a $2.8 million contribution. By fiscal 
year 2012 the tribal subsidy had reached a staggering $6 million. Given 
that the PTHA service population is only comprised of 17 percent 
Puyallup Tribal members, tribal budget priorities in fiscal year 2011 
and 2012 has made continued subsidies to the PTHA financially difficult 
for the Puyallup Tribe. The fiscal year 2013 budget requests $5.5 
billion in discretionary budget authority for the Indian Health 
Service. This represents a $115.9 million increase over the fiscal year 
2012 enacted level. For Health Services programs the fiscal year 2013 
budget request is $3.978 million, an increase of $112 million over the 
fiscal year 2012 enacted level. Included within the increases are 
funding for Contract Support Costs ($476.4 million), Contract Health 
Services ($897.5 million) and Alcohol and Substance Abuse funding ($195 
million). The Puyallup Tribe fully supports funding increases for 
existing IHS programs and will work Congress to continue efforts to 
increase funding for IHS and the critical programs administered by this 
Agency.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation

    ``The Great Spirit bestowed life to all of us . . . including the 
animals, birds, fish, insects and plants. Our collective Native 
warnings and predictions were ignored in the rush to capitalize and 
exploit the bountiful resources of the land. Countless irreplaceable 
species are preserved now in museums or documents in textbooks. As the 
consequences of unmanaged exploitation and pollution reach irreversible 
proportions, the United States heeded our centuries old appeals for 
environmental protection. We only hope it's not too late and that 
Mother Nature's wounds can still be healed. We will continue to serve 
as the environmental conscience to the Nation and the world.''----
Joseph B. DeLaCruz, President, Quinault Indian Nation, 1972-1993

    In the spirit of these profound words of our former President, I am 
honored to appear before this Committee on behalf of the Quinault 
Indian Nation and provide testimony on our priority requests and 
recommendations on the fiscal year 2013 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS).
Tribal Specific Priority Requests
    $8.714 million a Year for Blueback Restoration (for 2013-2020)--
BIA.
    $4.64 million for Substance Abuse and Comprehensive Drug Strategy 
Plan--BIA and IHS.
    $2.21 million for the McBride Road Maintenance and Emergency 
Reservation Exit--BIA.
Support Local/Regional Requests and Recommendations
    Affiliated Tribes of Northwest Indians
    Northwest Portland Area Indian Health Board
    Northwest Indian Fisheries Commission
Support National and Self-Governance Budget Priorities
            Bureau of Indian Affairs
    Increase of $8.8 million to fully fund Contract Support Costs (CSC)
    Increase of $13.7 million to fully fund Fixed Costs/Pay Costs
    Increase of $89 million for Tribal Priority Allocations
    Fully fund all provisions of the Tribal Law & Order Act of 2010
    Office of Self-Governance--Request not to consolidate in other 
division within Indian Affairs
            Indian Health Service
    Increase of $99.4 million to fully fund Contract Support Costs 
(CSC)
    Increase of $200 million for Contract Health Services (CHS)
    Increase of $40 million for alcohol and substance abuse programs
    Increase of $304 million for Mandatory Costs to maintain current 
services
    Office of Tribal Self-Governance (OTSG)--Increase $5 million to the 
IHS OTSG
               justification for tribal specific requests
$8.714 million annually for Blueback restoration (annually from 2013-
        2020 = $61 million)
    The Blueback Restoration Program is designed to halt the current 
habitat loss and deterioration and to repair and restore natural 
habitat forming processes and sockeye production on the Quinault 
floodplain. Conditions that will result from implementation of this 
program will benefit other salmon stocks in the system and will serve 
to protect private property and public infrastructure. The program plan 
calls for formation of public and private coalitions and partnerships 
to implement restoration actions.
    The Quinault River Blueback (Sockeye Salmon) Restoration Program 
will help to restore the natural beauty and productivity of the 
Quinault River Basin to historic levels, thus making it a more 
attractive tourism destination. In addition, the program will provide 
local construction jobs during its implementation phase, and the 
restoration program will result in conditions that will improve and 
sustain commercial and sport fishing on the Quinault River. The program 
will also benefit local residents and businesses by reducing the 
likelihood of flooding and property loss and increasing local economies 
both in the near and long term future. Implementation of the 
restoration program will help avoid the burdensome and restrictive 
consequences of having the Quinault sockeye listed as threatened or 
endangered under provisions of the Endangered Species Act (ESA).
    This unique and valuable stock of salmon is near collapse due 
mostly to degraded habitats in the upper Quinault River Basin and in 
Lake Quinault. This habitat loss has occurred over the past century due 
to historic timber harvesting, property development, and infrastructure 
construction. Natural processes on the floodplain began unraveling in 
the late 1800s and the deterioration is continuing in the present time.
    This is a long term project expected to take up to 20 years to 
complete structure placement and enhancement, including the engineering 
and material procurement, with full implementation occurring in the 
decades following as natural processes rebuild the habitat to historic 
conditions. Through successful efforts of this program, it will protect 
and restore the livelihoods of 100 commercial fishermen and 25 sport 
fishing guides in Grays Harbor and Jefferson Counties and the Quinault 
Indian Reservation.
    The program will also contribute partial support for approximately 
20 jobs in the fish processing industry in western Washington, thus 
improve the economic status of the families living in the communities 
within the Quinault Indian Reservation. The program will provide 
employment for 10-30 laborers and equipment operators in Grays Harbor 
and Jefferson counties during the construction phases of individual 
projects. This project will reverse adverse environmental impacts by 
restoring habitats and ecosystems of the Quinault River and Lake 
Quinault while at the same time stabilizing the river channel in 
efforts to protect infrastructure and property loss.
    The construction phase of this plan was implemented in the fall of 
2008 with the construction of 12 engineered log jams. With full funding 
as needed on an annual basis, the basic construction phase of this 
project is expected to be completed at the end of fiscal year 2020. 
Fertilization, data acquisition and monitoring will continue for many 
years.
$4.64 million for substance abuse and comprehensive drug strategy plan
    The Quinault Indian Nation Substance Abuse and Comprehensive Drug 
Strategy Plan seeks to improve, integrate, and strengthen the overall 
health and services to protect the communities on the reservation from 
the significant risks related to drug production, sale, and use by 
targeting enforcement, outreach, prevention, stabilization and harm 
reduction services to high risk-populations.
    The Quinault Indian Nation is located along the southwest coast of 
Washington State. We are facing ever-escalating threats of drug 
trafficking, narcotic distribution, gang activity and weapons 
offenses--leading to devastating social, health and environmental 
consequences including damage to the pristine ecosystems. It is 
documented that for every 1 pound of methamphetamine that is produced, 
there are 6 pounds of hazardous waste materials created.
    The regional topography renders us susceptible to drug smuggling 
and production. The Washington section of the U.S.-Canadian border is 
approximately 430 miles in length, a significant portion of which is 
vast, dense forest. The border has 13 official ports of entry (POE'S), 
but the rest of the border is largely unpatrolled. Drug smugglers 
exploit the national parks and forests, as well as other forestlands 
and waterways adjacent to the border, to smuggle drugs into Washington. 
Similarly, the clandestine manufacturing of methamphetamine in this 
region is of epidemic proportions.
    To combat this problem, the Quinault Indian Nation Tribal 
legislative body (the Business Committee) formed and funded the 
Quinault Nation Narcotics Enforcement Team (QNNET) in September, 2011. 
Reporting directly to the Attorney General of the Quinault Indian 
Nation, QNNET works to prevent and suppress narcotic trafficking and 
drug use through intensive investigations. QNNET also collaborates and 
communicates with other local law enforcement agencies, the Department 
of Justice, elected officials and the community at large. During the 
first quarter of fiscal year 2012, we have made 48 arrests with 100 
percent convictions and confiscated heroin, meth, prescription drugs, 
weapons and explosives. Cases have been prosecuted in Tribal, State and 
Federal courts.
    The General Accountability Office (GAO) is currently conducting a 
study that will focus on: (1) the scope of border and security issues 
facing Indian country; (2) what tribes are doing to combat the 
problems; (3) the challenges and successes in working with Federal 
partners. The Quinault Indian Nation will make a perfect case study for 
the GAO undertaking and gain National visibility for the collective and 
multi-jurisdictional efforts of law enforcement and behavioral health 
agencies.
    The Quinault Indian Nation's Substance Abuse component to the 
Comprehensive Drug Strategy Plan is part of a broader more 
comprehensive alcohol and drug strategy that recognizes the need to 
plan for the future. Quinault Indian Nation drug prevention and 
education programs are funded at 72 percent less than the national 
average per capita. To provide equivalent substance abuse prevention, 
treatment, and interdiction funding consistent with national levels, 
the Quinault Indian Nation must generate and budget $4,640,000 annually 
through Federal and State grants combined with Tribal investment into 
these critical and vital programs. The estimated distribution of this 
annual budget need is:
  --Prevention: $1.8 million annually;
  --Treatment: $1.54 million annually; and
  --Interdiction: $1.3 million annually.
    The Nation has encouraged collaborative relationships among 
Government departments, health authorities, professionals, community 
members and families to create conditions that prevent drug use, treat 
drug users, educate the public and hold offenders accountable and 
control access to supply while helping ensure safer communities.
    Most importantly, we have actively sought the guidance and wisdom 
of our elders and with the participation of our youth, community, 
churches and school districts we have undertaken a multidisciplinary 
approach and strategy, emphasizing prevention, enforcement, treatment 
and aftercare. Unfortunately, the best plans prove valuable only when 
the funding is available to execute and implement the strategy. We have 
found that at every level and in every discipline, funding to support 
our strategy is appallingly inadequate. We stress the urgent need to 
reclaim our communities to protect our families, our elders and our 
next seven generations from this menacing and deteriorating drug on the 
Quinault Indian Nation Reservation.
$2.21 million McBride Road maintenance and emergency reservation exit 
        route: BIA/roads maintenance program
    The Quinault Reservation is located in Grays Harbor County in the 
village of Taholah, Washington; a rural isolated and economically 
deprived area. The village of Taholah lies in a tsunami danger zone. 
The site of the village is barely above sea level and experts have 
determined that the sea level is rising because of global warming 
patterns. For Taholah, tsunami is a health and safety risk factor that 
we must live with everyday. The Quinault Reservation is interlaced with 
thousands of miles of roads that are left over from large logging 
contracts that ended in about 1980. Most of these roads do not have the 
required right-of-way and do not receive funding for maintenance.
    The village of Taholah is accessible via SR 109 that parallels the 
Pacific Ocean. The McBride Road, a single forest road, is the only 
escapement route available to the 1,000 community members of the 
Quinault Indian Nation living in the village of Taholah. Its state of 
disrepair necessitates that immediate action be taken to bring the road 
up to a Class B gravel road status to be used in cases of emergency. 
The cost for this project is $876,500 to repair 10.75 miles and could 
be accomplished within a 3-month timeframe during dry weather 
conditions. The Project will create four new jobs in right-of-way 
acquisition and road engineering and will impact about 400 jobs of 
timber workers, fishermen, and fishing guides that rely on these roads 
for their livelihood.
    Major portions of this route are at sea level. What is particularly 
important to understand is that the portions of this road above sea 
level are susceptible to mudslides. Three such mudslides have occurred 
in the past 5 years. In a single event, the road blocked access for 3 
days. Medical needs for village people became an issue, while those in 
need of kidney dialysis were particularly affected. Some tribal members 
were able to evacuate the village by using another, longer alternate 
route. Still, this application is unsafe for use by the general public 
because the forests roads are not patrolled, well maintained, have 
limited signage and cell reception.
    Thank you for allowing me to provide this testimony on behalf of 
the Quinault Indian Nation.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries

    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to preserve the Nation's network of 
estuaries by protecting and restoring the lands and waters essential to 
the richness and diversity of coastal life. Restore America's Estuaries 
is a national alliance of 11 community-based organizations that protect 
and restore coastal and estuarine habitat. Our 11 member organizations 
include: American Littoral Society, Chesapeake Bay Foundation, 
Coalition to Restore Coastal Louisiana, Save the Sound--a program of 
the Connecticut Fund for the Environment, Conservation Law Foundation, 
Galveston Bay Foundation, North Carolina Coastal Federation, People For 
Puget Sound, Save The Bay--San Francisco, Save the Bay--Narragansett 
Bay, and Tampa Bay Watch. Collectively, we have over 250,000 members 
nationwide.
    For fiscal year 2013, Restore America's Estuaries supports the 
following coastal programs and funding levels within the Department of 
the Interior and Environmental Protection Agency: USFWS Coastal 
Program: $14.87 million and USEPA National Estuary Program: $35 
million.

                         USFWS COASTAL PROGRAM

    The Coastal Program is a voluntary, incentive-based program that 
provides technical and financial assistance to coastal communities and 
landowners to protect and restore fish and wildlife habitat on public 
and private lands. The Coastal Program works with other Federal, State, 
local, and non-governmental partners and private landowners to deliver 
strategic habitat protection and restoration for the benefit of Federal 
trust species.
    Support for the management and stewardship of our coastal 
ecosystems that bridge land and sea has never been more important due 
to the accelerating pace of environmental change now occurring. While 
environmental degradation of estuaries has continued in recent years, 
the Coastal Program has been a key program aimed at on-the-ground 
habitat restoration. Despite the program's relatively small cost--it is 
having a huge impact on-the-ground. A recent estimate by USFWS Coastal 
Program staff show that the program leverages $8 non-Federal dollars 
for every Federal dollar spent--this makes the Coastal Program one of 
the most cost-effective habitat restoration programs within the U.S. 
Fish and Wildlife Service.
    Restore America's Estuaries has enjoyed a collaborative 
relationship, with the Coastal Program for many years. The nature and 
scope of our partnership spans the national and local levels as we work 
with CP headquarters on long-term issues, and locally the program works 
with our member groups through Regional CP staff to conduct on-the-
ground habitat restoration.
    As an example of a true partnership, the Coastal Program recently 
worked with RAE member Save The Bay--San Francisco as well as the San 
Francisco Bay National Wildlife Refuge to restore salt marsh on Bair 
Island. This project is helping to provide critical habitat for a 
variety of species, including the endangered California clapper rail 
and the salt marsh harvest mouse, and a number of birds that traverse 
the area on their journey across the Pacific.
    On the East Coast, the Coastal Program assisted RAE member 
Chesapeake Bay Foundation to choose and prepare a site to plant redhead 
grass near the Magothy River in Maryland. This is a good example of the 
invaluable technical assistance that the Coastal Program is able to 
provide to a non-governmental organization, which can then better 
restore habitat for numerous migratory bird and interjurisdictional 
fish species.
    In the Gulf, the Coastal Program worked side-by-side with RAE 
member Galveston Bay Foundation to construct geotextile tube offshore 
breakwaters on Snake Island Cove. This effort has led to the protection 
of 200 acres of estuarine marsh from erosion and the creation of a 65 
acre calm shallow water area conducive to seagrass restoration.
    The Coastal Program also is essential in efforts to restore fish 
passage of anadromous fish populations and restore riverine habitat. 
RAE member Conservation Law Foundation worked with the Coastal Program 
and other regional partners to support the removal of dams along the 
Penobscot River as well as install fishways to restore native Atlantic 
salmon.
    Restore America's Estuaries urges your continued support and 
funding for USFWS Coastal Program. This program delivers habitat 
protection and restoration in priority coastal areas on both public and 
private lands through partnerships with other Service programs, Federal 
agencies, State and local agencies, tribal governments and native 
corporations, non-governmental organizations, universities, 
corporations and private landowners.
    Further, we believe that the Coastal Program's ability to work with 
coastal communities and landowners on both public and private lands has 
been key to the program's ability to deliver restoration of priority 
coastal habitats, including coral reefs, shorelines, marshes, wetlands, 
uplands, and rivers and streams.

                     USEPA NATIONAL ESTUARY PROGRAM

    The National Estuary Program is a non-regulatory, network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country program. The program 
utilizes a consensus-building process to identify goals, objectives, 
and actions that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each NEP focuses it work within a 
particular place or boundary called a study area which includes the 
estuary, and surrounding watershed.
    Restore America's Estuaries urges your continued support of the NEP 
and ask that you continue to invest directly in the stewardship of our 
Nation's coasts by ensuring that the authorized amount of $35 million 
be provided for the NEP for fiscal year 2013, and that of these funds 
each of the 28 NEPs in the field receive $1 million.

                               CONCLUSION

    Restore America's Estuaries greatly appreciates the support this 
Subcommittee has provided for these important programs. These programs 
help to accomplish on-the-ground restoration work which results in 
major benefits:
  --Jobs.--Coastal habitat restoration creates more than 30 jobs for 
        each million dollars invested. That's more than twice as many 
        jobs as the oil and gas sector and road constructions 
        industries combined.
  --Leverage.--USFWS Coastal Program leverages non-Federal dollars at a 
        ratio of 8 to 1. In a time of shrinking resources, these are 
        rates of return we cannot afford to ignore and help to 
        accomplish more on-the-ground conservation.
  --Fish.--Traditional fisheries management tools alone are inadequate. 
        Fish need healthy and abundant habitat for sustainable 
        commercial and recreational fisheries.
    We appreciate your taking our requests into consideration as you 
move forward in the fiscal year 2013 appropriations process and look 
forward to working with you to ensure the health of our Nation's 
estuaries and coasts.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters

    Good morning Chairman and members of the Subcommittee. My name is 
Robert W. Malmsheimer, and I am a professor of forest policy and law at 
the SUNY College of Environmental Science and Forestry. I am here today 
to testify on behalf of the Society of American Foresters (SAF).
    The Society of American Foresters (SAF), with more than 12,000 
forestry professionals across the country in all segments of the 
profession, believes in sound management and stewardship of the 
Nation's public and private forests. Funding for the Department of the 
Interior (DOI) and the USDA Forest Service (USFS), both contained in 
the Interior, Environment, and Related Agencies Appropriations bill, 
are particularly important to maintaining and improving the Nation's 
forests.
    We would like to begin by thanking the Administration for 
recognizing the importance of the USFS and forestry components of the 
DOI and maintaining funding at approximately fiscal year 2012 enacted 
levels for USFS and the Bureau of Land Management (BLM). That said, the 
751 million acres of forests in the United States are subject to 
tremendous pressures from wildfires, insects, disease, invasive 
species, changing climates, and more. At the same time, people are 
relying on forests more and more for clean water and air, recreational 
opportunities, hunting, fishing, forest products, and scenic values. 
These pressures and harsh economic times force Federal agencies to look 
for innovative ways to complete more work with limited resources.
    SAF remains deeply concerned about these issues and the overall 
sustainability of the Nation's forests. To that end, SAF urges a focus 
on several key areas that directly impact the range of programs within 
the DOI and USFS budgets. Key areas include: Forest health on public 
and private forestlands; addressing barriers to active forest 
management; and SAF budget recommendations.

                             FOREST HEALTH

    As the largest professional society for foresters in the world, SAF 
represents the forest managers of both public and private forests in 
the United States. Across the country, our forests are reaching a 
critical threshold that, if passed, could lead to even further negative 
impacts including: continued closures of established infrastructure; 
job losses to rural communities; pressure of invasive species; expanded 
areas of insects and disease; overstocked stands; increased risk of 
wildfire.
    Since 1910, the U.S.'s forest area has been relatively stable, with 
a slight increase in the last two decades.\1\ The current volume of 
annual timber growth is 32 percent higher than the volume of annual 
removals. This, in part, has led to the need for restoration on 65 to 
82 million acres of the National Forest System (NFS), as Chief Tidwell 
mentioned in his testimony to the Subcommittee on February 17, 2012.\2\ 
In 2012, the USFS is proposing to complete only 4 million acres of 
restoration on NFS lands, yielding 2.6 BBF in forest products.\3\ This 
is not enough to combat our Nation's declining forest health, 
especially in light of the current bark beetle epidemic in the west 
that has led to unprecedented numbers of dead and dying trees. This low 
production level on public lands pressures private forestlands, which 
already provide 91 percent of wood production, to meet demand.\4\
---------------------------------------------------------------------------
    \1\ U.S. Forest Service (USFS). 2007. U.S. Forest Resource Facts 
and Historical Trends. Available online at http://fia.fs.fed.us/
library/brochures/docs/Forest%20Facts%201952-
2007%20English%20rev072411.pdf; last accessed March 2012.
    \2\ Tidwell, T. 2012. Statement of Tom Tidwell, Chief, U.S. Forest 
Service before the Senate Committee on Energy and Natural Resources 
concerning the President's budget request for the U.S. Forest Service 
in fiscal year 2013. March 6, 2010. Available online at http://
www.energy.senate.gov/public/index.cfm/files/serve?File_id=8f60d724-
f8e5-4d57-9f01-b8a6837d9f5d; last accessed March 2012.
    \3\ U.S. Forest Service (USFS). 2012. Increasing the Pace of 
Restoration and Job Creation on Our National Forests. Available online 
at http://www.fs.fed.us/publications/restoration/restoration.pdf; last 
accessed March 2012.
    \4\ U.S. Forest Service (USFS). 2010. National Report on 
Sustainable Forests--2010. Available online at http://www.fs.fed.us/
research/sustain/2010SustainabilityReport/documents/
2010_SustainabilityReport.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    Constraints on forests and forest management have led to a steady 
decline in the forestry-related job sector. From 2005 to 2010 primary 
(forestry and logging, paper, wood manufacturing, etc.) and secondary 
(residential construction, furniture, etc.) employment have seen a 
combined reduction of 920,507 total jobs. In fact, total U.S. annual 
timber harvests are at their lowest levels since the 1960s. This lack 
of production led to the closure of more than 1,000 mills from 2005 to 
2009, which decreased overall sawmilling capacity by 15 percent, and 
lowered production levels below 50 percent of capacity at the remaining 
mills.\5\
---------------------------------------------------------------------------
    \5\ Smith, B.W., and Guldin, R.W. 2012. Forest Sector Reeling 
during Economic Downturn. The Forestry Source January, 2012. Available 
online at http://www.nxtbook.com/nxtbooks/saf/forestrysource_201201/
index.php; last accessed March 2012.
---------------------------------------------------------------------------
                  BARRIERS TO ACTIVE FOREST MANAGEMENT

    SAF understands that the economic downturn has impacted forest 
industries. However, in recent decades other factors have developed 
that also negatively affect the forestry profession and create barriers 
to active forest management. One of those barriers is the Equal Access 
to Justice Act (EAJA).
    Last year the House Appropriations Subcommittee included report 
language in its budget recommendation that addressed the complexity and 
conflicts often associated with EAJA. The committee requested detailed 
reports on the disposition of EAJA applications, the amount of agency 
funds paid as the result of the Act, the names of the fee recipients 
and Federal judges involved in EAJA cases, and the hourly rates of 
attorneys and expert witnesses.\6\
---------------------------------------------------------------------------
    \6\ U.S. Congress. 2012. Department of the Interior, Environment, 
and Related Agencies Appropriations Bill 112th Congress First Session 
Report 112-151. Available online at http://www.gpo.gov/fdsys/pkg/CRPT-
112hrpt151/pdf/CRPT-112hrpt151.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    In 2011, Dr. Michael J. Mortimer, Director, College of Natural 
Resources at Virginia Tech University, and I completed a study on EAJA 
that examined concerns raised by interest groups, stakeholders, and 
congressional members. The study, published as a peer-reviewed article 
in the Journal of Forestry, examined EAJA fees paid by USFS in 
litigation from 1999 to 2005. Our results, which analyzed data obtained 
through Freedom of Information Act (FIOA) requests and the analysis of 
public records, documented that Federal agency EAJA fee records 
differed considerably. As Table 1 reflects, there was nearly a $1 
million difference between the data provided in 2006 by the Secretary 
of Agriculture to the U.S. Senate Committee on Energy and Natural 
Resources (SCENR) and the records we obtained from the USFS, and the 
Secretary's response was nearly double the total amount Department of 
Justice (DOJ) records indicate were paid.

 TABLE 1.--COMPARISON OF U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT
                       PAYMENTS, 1999 TO 2005 \1\
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Forest Service FOIA Information.........................      $6,137,583
DOJ FOIA Information....................................       3,526,632
Information provided to SCENR...........................       7,002,530
------------------------------------------------------------------------
\1\ Mortimer, M.J., and R.W. Malmsheimer. 2011. The Equal Access to
  Justice Act and U.S. Forest Service Land Management: Incentives to
  Litigate? Journal of Forestry 109(6): 352-358.

    Given these inconsistencies and the controversy surrounding EAJA 
payments, SAF supports the inclusion of EAJA reporting requirements in 
this year's budget. We believe that doing so will greatly improve the 
transparency of EAJA payments and provide policymakers and stakeholders 
with standardized information that they can use to assess the Act's 
performance.

                       SAF BUDGET RECOMMENDATIONS

    SAF understands that the Subcommittee has to make difficult 
decisions when funding Federal agencies. We would like to commend the 
members of the Subcommittee for your continued focused efforts on 
forest sustainability. With this in mind, we will not give 
recommendations for all of the programs we support. Instead, we will 
focus on several of our top priorities and ask that the committee 
recognize that our support is not limited to the recommendations that 
follow.
    SAF supports the fiscal year 2012 budget language to increase the 
NFS timber harvest from 2.4 BBF to 3 BBF this fiscal year. While SAF is 
encouraged by USDA Secretary Vilsack's announcement to increase harvest 
levels to 2.6 BBF in fiscal year 2012,\7\ we support increased 
restoration efforts by the administration to restore priority 
watersheds. We look forward to continuing to work with Congress and the 
Administration to see increased restoration work.
---------------------------------------------------------------------------
    \7\ U.S. Forest Service. 2012. U.S. Forest Service highlights 
expansion of restoration of national forests and funding for 
Collaborative Forest Landscape Restoration projects. U.S. Forest 
Service Press Release Feb. 2, 2012. Available online at http://
www.fs.fed.us/news/2012/releases/02/restoration.shtml; last accessed 
March 2012.
---------------------------------------------------------------------------
    USFS Research and Development (R&D) provides for essential research 
on priority areas such as disturbances (including wildfire), watershed 
restoration needs, local level emphasis, and strategic programs. R&D's 
Forest Inventory and Analysis (FIA) program is the backbone of U.S. 
forestry knowledge, providing the only national census of forests 
across all ownerships. Through FIA, USFS (partnering with State 
forestry agencies and the private sector) collects and analyzes forest 
data to assess trends on issues such as forest health and management, 
fragmentation and parcelization, and forest carbon sequestration. FIA 
data also evaluates forest disturbance risks, such as wildfire, insects 
and disease, and spread of invasive species. SAF requests that Congress 
support FIA at no less than $69 million in fiscal year 2013.
    More than 50 percent of our Nation's forests are privately owned. 
This makes USFS State and Private Forestry (S&PF) allocations, used in 
part to assist in managing these lands, essential to the health of our 
forests. SAF strongly supports S&PF funding including the Forest Health 
Management (FHM) Budget Line Items (BLI) for both Federal and 
cooperative lands. We recommend funding FHM BLI's at fiscal year 2012 
enacted funding levels of $112 million. These dollars are critical for 
monitoring conditions of forest health on Federal and non-Federal 
lands. Funds provide the assistance to prevent and mitigate insect and 
disease outbreaks as well as the spread of invasive species.
    SAF strongly supports the Administration's request to permanently 
reauthorize Stewardship Contracting within the USFS budget. The 
Stewardship Contracting authority is a successful tool used by the USFS 
and BLM to accomplish restoration work on multiple restoration projects 
simultaneously using funds provided by projects' timber revenues. It is 
also an important tool to carry out the Administration's priority 
Collaborative Forest Landscape Restoration Program. Without this 
authority, these programs would be unable to complete the work outlined 
in collaborative proposals. From 2006 to 2011 approximately 900 
Stewardship contracts, which treated 545,625 acres, were awarded, 
including 208 contracts in 2011.\8\
---------------------------------------------------------------------------
    \8\ Pinchot Institute for Conservation. 2012. The Role of 
Communities in Stewardship Contracting: Fiscal Year 2011 Programmatic 
Monitoring Report to the USDA Forest Service. Available online at 
http://www.fs.fed.us/forestmanagement/stewardship/reports/documents/
2011/FinalFY11USFSMonEvalReport.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    SAF also commends the Administration for their request to fully 
fund the Collaborative Forest Landscape Restoration Program (CFLR). 
CFLR encourages collaborative, science-based ecosystem restoration of 
priority forest landscapes.\9\ In 2 years, the projects selected in 
2010 created 2,100 jobs and supplied approximately 2.3 MMBF.\10\ To 
ensure CFLR's continued success, SAF and five other Steering Committee 
members along with approximately 140 members of other organizations, 
participate in the CFLR Coalition to support continued funding at $40 
million.
---------------------------------------------------------------------------
    \9\ U.S. Forest Service. 2012. Collaborative Forest Landscape 
Restoration Program. U.S. Forest Service Website. Accessible online at 
http://www.fs.fed.us/restoration/CFLR/index.shtml; last accessed March 
2012.
    \10\ U.S. Forest Service 2012. Fiscal Year 2013 President's Budget 
Justification. Available online at http://www.fs.fed.us/aboutus/budget/
2013/fy2013-justification.pdf; last accessed March 2012.
---------------------------------------------------------------------------
    Hazardous Fuels funding is a critical component to USFS and DOI 
hazardous fuels reduction efforts. Funds are used to restore forest 
health and resilience and reduce the cost of suppressing wildfires. In 
2011, over 74,000 wildland fires burned more than 8.7 million 
acres.\11\ These funds are also used to assist the 66,700 communities 
across the country currently at risk of wildland fire. SAF recommends 
maintaining the fiscal year 2012 funding levels of $318 million for the 
USDA Forest Service and $184 million for the Department of the 
Interior.
---------------------------------------------------------------------------
    \11\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, p. 9. Accessible online at http://
www.predictiveservices.nifc.gov/intelligence/2011_statssumm/
intro_summary.pdf; last accessed February 2012.
---------------------------------------------------------------------------
    One of the significant changes to the fiscal year 2013 budget 
proposal includes the merger of seven BLIs into the proposed Integrated 
Resource Restoration (IRR) Line item that was enacted as a pilot 
program in three regions in the fiscal year 2012 budget. SAF recommends 
funding the seven BLIs at fiscal year 2012 levels if the committee does 
not enact IRR nationally.
    I would like to close by discussing the decrease in the BLM's 
Public Domain Program found in the fiscal year 2013 budget 
justification. The proposed $3.5 million is a 41 percent decrease in 
the program. This would reduce the number of employees managing 60 
million acres from 80 employees to approximately 50. SAF recommends 
funding BLM's Public Domain Program at enacted fiscal year 2012 levels.
    On behalf of the Society of American Foresters, I thank you for 
this opportunity.
                                 ______
                                 

             [From the Journal of Forestry, September 2011]

     The Equal Access to Justice Act and U.S. Forest Service Land 
                  Management: Incentives to Litigate?
          (Michael J. Mortimer and Robert W. Malmsheimer \1\)
---------------------------------------------------------------------------
    \1\ Michael J. Mortimer (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbd6d4c9cfd2d6dec9fbcdcf95dedfce">[email&#160;protected]</a>) is director of Graduate 
Programs, Virginia Tech, College of Natural Resources and Environment, 
7054 Haycock Road, Room 411, Falls Church, VA 22043. Robert W. 
Malmsheimer (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2654514b474a4b554e6643554008434253">[email&#160;protected]</a>) is professor, SUNY College of 
Environmental Science and Forestry, 1 Forestry Drive, Syracuse, NY 
13210.
---------------------------------------------------------------------------
    The Equal Access to Justice Act (EAJA) provides for attorneys fees 
and court costs to be awarded to parties prevailing in litigation 
against U.S. federal agencies. We examined EAJA awards paid by the U.S. 
Forest Service from 1999 to 2005, finding more than $6 million awarded 
to various plaintiffs. Awards were most commonly paid to environmental 
litigants, although all categories of litigant stakeholders made use of 
the law. Although it remains uncertain whether EAJA provides an 
incentive to sue the U.S. Forest Service in any specific instance, 
because litigation against the U.S. Forest Service generally has a low 
probability of success, EAJA one-way fee shifting does alter litigation 
risks among potential plaintiffs. Frequent EAJA claimants often possess 
considerable financial resources calling into question how the purposes 
of the law have evolved in the last 20 years.
    Keywords: national forest, litigation, fees, interest groups, 
courts.
    ``Paying litigants to sue certainly encourages legal action'' 
(Thomas 2000, p. 9). This quote by former chief of the U.S. Forest 
Service, Jack Ward Thomas, expresses concerns that the Equal Access to 
Justice Act (EAJA; codified at 28 U.S.C. Sec. 2412 and 5 U.S.C. 
Sec. 5045) may be an incentive for litigation against the U.S. Forest 
Service and other Federal land-management agencies. The EAJA is a fee-
shifting statute that allows litigants to recover attorney fees and 
other legal expenses (such as court filing fees) from the Federal 
Government when they successfully sue an administrative agency.
    Numerous scholars have described the increasing use of litigation 
as a tool to influence U.S. Forest Service land-management decisions. 
Jones and Taylor (1995) completed the first study, examining cases 
decided between 1971 and 1993. They found that the frequency of U.S. 
Forest Service lawsuits increased during these 20 years and concluded 
that litigation was used as a tool to effect change within the agency. 
Malmsheimer et al. (2004) examined all published Federal Court of 
Appeals cases from 1970 through 2001 in which the U.S. Forest Service 
was a defendant. They found that the number of lawsuits involving the 
agency had increased since 1970 and that ``judicial review of national 
forest management is intensifying'' (Malmsheimer et al. 2004, p. 20). 
In the most recent and thorough examination of U.S. Forest Service 
litigation, Keele et al. (2006) examined the final outcome of all 
cases, both published and unpublished, initiated from 1989 through 2002 
in which the U.S. Forest Service was a defendant, again finding that 
litigation directed against the agency had generally increased. Others 
have confirmed these observations (Mortimer 2002, Broussard and 
Whitaker 2009). For example, the Council on Environmental Quality's 
(2009) records indicate that the U.S. Forest Service is the most common 
Federal agency defendant in National Environmental Policy Act 
litigation. These studies suggest that litigation has become an 
integral aspect of U.S. Forest Service decisionmaking and land 
management: ``The legal environment is as important to national forest 
. . . management as the ecological and economic environments'' 
(Malmsheimer et al. 2004, p. 25). The payment of attorney fees is an 
important component of this legal environment.
    The U.S. legal system operates under what is known as the American 
rule, which provides that each party in a lawsuit must bear its own 
legal expenses (Sisk 1993). This differs from the English rule under 
which the losing party pays the winner's legal costs. Fee-shifting 
statutes in the United States are a relatively rare exception to the 
American rule, providing for the recovery of legal expenses in a manner 
similar to the English rule. Although some criticize the economic 
incentives created by fee-shifting statues and citizen suit provisions 
(Benson 2006, Greve 1990), others believe that subsidizing litigation 
against land-management agencies through the EAJA is a socially 
valuable use of public resources (Nie 2008). In either case, it is 
indisputable that citizen suits are an important aspect of modern 
public natural resource management.
    The EAJA is a one-way fee-shifting statute that specifically allows 
parties who bring successful lawsuits against Federal land-management 
agencies to recover their costs, such as attorney fees and filing 
costs, directly from the agencies' budgets. The EAJA was originally 
intended to (1) make the Federal justice system more accessible to 
parties defending themselves against what Congress perceived as 
unreasonable government action, (2) provide an incentive for citizens 
to contest excessive Government regulation, (3) supply additional 
compensation for citizens who were injured by Government actions, and 
(4) deter overreaching regulation by Federal agencies (Hogfoss 1985, 
Sullivan 1984, Mezey and Olson 1993, Sisk 1993). By providing attorney 
and other fees, the Act removed some of the economic obstacles citizens 
face when contesting Government regulation. Table 1 lists EAJA process 
and eligibility requirements. Although it was recognized, at the dawn 
of environmental public interest litigation, that a bevy of 
institutional obstacles existed preventing access to the Federal court 
system (Large 1972), the EAJA was not established with that particular 
set of litigants in mind. It has, however, over the last 20 years 
evolved to address a broader class of litigant stakeholder.

    ----------------------------------------------------------------

Table 1.--The Equal Access to Justice Act fee recovery requirements (28 
       U.S.C. Sec. 2412(d)(2)(B) and 5 U.S.C. Sec. 504(b)(1)(B))
Process requirements (Plaintiff must meet all)
    Plaintiff must have incurred legal expenses.
    Plaintiff must have prevailed in some aspect of the case.
    Plaintiff must submit an application for a fee award to the court 
within 30 days of the final judgment.
    Plaintiff must allege that the Government's position was not 
``substantially justified.''
Eligibility requirements (Plaintiff must meet one)
    Individuals with a net worth of $2 million or less.
    Businesses with no more than 500 employees and a net worth of $7 
million or less.
    Charitable or other tax-exempt 501(c)(3) organizations with no more 
than 500 employees.
    Agricultural cooperative associations with no more than 500 
employees.
    Other partnerships, corporations, associations, units of local 
government, or organizations with a net worth of not more than $7 
million and no more than 500 employees.

    ----------------------------------------------------------------

    Although little empirical research has been conducted regarding the 
EAJA's impact on land-management agencies, the law's role in 
potentially spurring litigation has been a topic of press and 
congressional investigation and speculation for nearly 10 years. 
Pulitzer Prize winning reporter Knudson's 2001 series in the Sacramento 
Bee entitled ``Environment, Inc.'' presented a high-profile discussion 
of the environmental movement's reliance on litigation and attorney 
fees. In the series, Knudson focused primarily on litigation directed 
against the U.S. Fish and Wildlife Service's administration of the 
Endangered Species Act. Knudson (2001) found that during the 1990s, 434 
environmental cases were brought against the Federal Government and the 
Government paid out more than $31.5 million in attorney fees. In 2006, 
Senator Jeff Bingaman (D-NM) requested agency information on the amount 
of EAJA fees paid out by the U.S. Forest Service from 1999 through 
2005. An editorial on U.S. Forest Service litigation in The Missoulian 
\2\ concluded that the EAJA ``has become a self-funding mechanism for 
environmental groups fundamentally opposed to prevailing national 
forest management direction'' (Missoulian 2007). Most recently, a 
Wyoming attorney and former Department of the Interior employee claimed 
that the Government paid environmental law firms more than $1.6 million 
between 2003 and 2005 for litigation involving national forests in six 
U.S. Forest Service regions \3\ (Budd-Falen 2009). Despite persistent 
interest and allegations surrounding the EAJA and U.S. Forest Service 
litigation, no comprehensive empirical study and analysis (with the 
exception of the response to Senator Bingaman's request) has 
systematically examined the issue.
---------------------------------------------------------------------------
    \2\ A newspaper in one of the most litigious National Forest System 
Regions (see Keele et al. 2006).
    \3\ Regions 1-6.
---------------------------------------------------------------------------
    The effects of a particular fee-shifting policy are highly 
dependent on contextual variables. Characteristics of the adversaries, 
the relative value of the fee awards to the parties, and the parties' 
respective views of the strength of their cases make empirical 
examinations inherently challenging (Rowe 1984). This should not be 
surprising, because work to date has noted the complexity and 
uncertainty in predicting the potential effects of fee arrangements on 
litigation behavior as well as the unsettled state of understanding of 
these effects (Kritzer 2002). This study attempts to quantify and 
contribute to an understanding of the role of one-way fee shifting in 
U.S. Forest Service litigation.
Methods
    Since EAJA payment figures are not generally publicly available, we 
used the Freedom of Information Act (FOIA) \4\ to compile EAJA payment 
data from the U.S. Forest Service and the U.S. Department of Justice 
(DOJ). We asked DOJ for payment information because it defends the U.S. 
Forest Service in the Federal court system and we believed its EAJA 
payment records would supplement U.S. Forest Service records. Written 
FOIA requests were made to the U.S. Forest Service on Oct. 3, 2006 and 
to the DOJ on Oct. 11, 2006. We received responses from the U.S. Forest 
Service on Nov. 27, 2006 and from the DOJ on Apr. 11, 2007. We 
requested a list of all EAJA fees paid by the U.S. Forest Service from 
1990 to 2005, including the amount of EAJA fees paid, litigants' names, 
court decision dates, and judicial decision citations. We also 
requested copies of all documents containing any information regarding 
the payment of EAJA fees during this time.
---------------------------------------------------------------------------
    \4\ 5 U.S.C. Sec. 552.
---------------------------------------------------------------------------
Results
    The U.S. Forest Service and DOJ supplied differing information to 
our FOIA requests. The U.S. Forest Service provided records from 1999 
through 2005. The DOJ provided U.S. Forest Service-based EAJA records 
from 1989 through 2006--including data from 1989 to 1998 that the U.S. 
Forest Service was unable to provide. As Table 2 indicates, EAJA fee 
records differ considerably. For example, in 2006 the Secretary of 
Agriculture provided the U.S. Senate Committee on Energy and Natural 
Resources with information about EAJA fees paid by the U.S. Forest 
Service (Senate Hearing 2006). As Table 2 reflects, there is nearly a 
$1 million difference between the data provided in the 2006 by the 
Secretary and the records we obtained from the U.S. Forest Service, and 
the Secretary's response is nearly double the total amount DOJ records 
indicate were paid. The EAJA has no agency recordkeeping or reporting 
requirements, and the inconsistencies we found in the agency's and 
DOJ's records substantiate ongoing congressional concerns that EAJA 
payments are being inadequately tracked by Federal agencies (Western 
Congressional Caucus 2009). These concerns have manifested as proposed 
bipartisan legislation in the prior sessions of Congress.\5\
---------------------------------------------------------------------------
    \5\ H.R. 4717, 111th Congress.
---------------------------------------------------------------------------
    The DOJ provided EAJA award records for 17 years (1989 through 
2006)--10 more years than the U.S. Forest Service. These records 
indicate that during this time the U.S. Forest Service paid more than 
$6 million in EAJA payments. Focusing on the overlapping years (1999 
through 2006), the U.S. Forest Service data differed considerably from 
the DOJ records--U.S. Forest Service records indicated it paid an 
additional $2.5 million in this 6-year period (see Table 2).

        TABLE 2.--COMPARISON OF THE U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT (EAJA) FEES, BY YEAR
----------------------------------------------------------------------------------------------------------------
                                                                       EAJA payments              Secretary of
                                                           ------------------------------------    Agriculture
                                                                                                 response to the
                                                                                                   U.S. Senate
                           Year                                U.S. Forest                        Committee on
                                                              Service FOIA      DOJ FOIA data      Energy and
                                                                  data                               Natural
                                                                                                   Resources'
                                                                                                     request
----------------------------------------------------------------------------------------------------------------
1999......................................................          $794,774          $498,406          $814,774
2000......................................................           232,348           240,710           602,698
2001......................................................           999,938           457,535           581,567
2002......................................................           626,741           704,230         1,077,441
2003......................................................           794,414           586,649         1,236,668
2004......................................................         1,412,804           571,676         1,557,804
2005......................................................         1,276,564           467,427         1,131,578
                                                           -----------------------------------------------------
      Total...............................................         6,137,583         3,526,632         7,002,530
----------------------------------------------------------------------------------------------------------------
FOIA, Freedom of Information Act.
 
Source: Data provided by the U.S. Forest Service, DOJ, and Congressional Research Service.

Payments
    U.S. Forest Service records indicated that EAJA fees were awarded 
in 149 instances from 1999 to 2005, resulting in the agency paying more 
than $6 million in fees during this 7-year period (Table 3).\6\ To put 
these numbers in context, between 1982 and 1994 all Federal agencies 
reported court EAJA decisions awarding $29.6 million, with an average 
award size of $5,250 (U.S. Government Accountability Office [GAO] 
1998). The number of cases per year in which the agency paid fees 
ranged from 9 cases in 2002 to 29 cases in both 2001 and 2004, with an 
average annual number of cases of 21. Total fee awards per year ranged 
from $232,348 in 2000 to $1,412,804 in 2004, with annual awards 
averaging $876,798. The average award per case during the 7 years was 
$41,192, although 18 payments exceeded $100,000 (Table 4). It is 
unclear whether average annual fees are increasing.
---------------------------------------------------------------------------
    \6\ One case, which resulted in a $75,000 payment, did not list a 
year of payment. We omitted that case from our inventory and subsequent 
analysis.

   TABLE 3.--U.S. FOREST SERVICE'S EQUAL ACCESS TO JUSTICE ACT (EAJA) AWARD PAYMENTS BY YEAR FROM 1999 TO 2005
----------------------------------------------------------------------------------------------------------------
                                                                                   No. of cases/      Average
                              Year                                 EAJA payments     payments         payment
----------------------------------------------------------------------------------------------------------------
1999............................................................        $794,774              21         $37,846
2000............................................................         232,348              12          19,362
2001............................................................         999,938              29          34,481
2002............................................................         626,741               9          69,638
2003............................................................         794,414              23          34,540
2004............................................................       1,412,804              29          48,717
2005............................................................       1,276,564              26          49,099
                                                                 -----------------------------------------------
      Total.....................................................       6,137,583             149          41,192
----------------------------------------------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.


 TABLE 4.--FREQUENCY OF U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT
                      AWARDS FROM 1999 THROUGH 2005
------------------------------------------------------------------------
                                                          Frequency (no.
                  Award/payment amount                     of payments)
------------------------------------------------------------------------
Less than $500..........................................               3
$501-1,000..............................................  ..............
$1,001-5,000............................................              28
$5,001-10,000...........................................              16
$10,001-20,000..........................................              21
$20,001-30,000..........................................              20
$30,001-50,000..........................................              23
$50,001-75,000..........................................              14
$75,001-100,000.........................................               6
$100,001-150,000........................................              12
$150,001-200,000........................................               3
$200,001-300,000........................................               3
Over $300,000...........................................  ..............
------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.

Payment Location and Recipients
    We used the information from the U.S. Forest Service records to 
understand where the cases supporting EAJA payments were located. These 
records also allowed us to learn the types and names of plaintiffs 
receiving EAJA fees.
    We categorized the responses to our FOIA request by U.S. Forest 
Service region (Figure 1). Payments per region ranged from $114,310 in 
Region 9 (Eastern Region) to $1,408,140 in Region 1 (Northern Region; 
Table 5). The number of cases ranged from 4 in Region 9 to 30 in Region 
1. It is important to note that Region 2 did not provide data for 1999 
and 2000 and that Region 8 did not provide data for 2005. This suggests 
that our results underestimate the number of fees paid and their total 
amount.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Figure 1.--Boundaries of the U.S. Forest Service regions (map was 
provided courtesy of U.S. Forest Service). Note that there is no Region 
                                   7.


 TABLE 5.--U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT (EAJA) AWARDS
                    BY REGION FROM 1999 THROUGH 2005
------------------------------------------------------------------------
                                                           No. of cases/
               Region \1\                  EAJA payments     payments
------------------------------------------------------------------------
1.......................................      $1,408,140              30
2 \2\...................................         360,776              19
3.......................................         632,908              21
4.......................................         698,645              20
5.......................................         999,239              13
6.......................................         850,584              22
8 \3\...................................         347,943               5
9.......................................         114,310               4
10......................................         406,350               5
WO......................................         318,689              10
                                         -------------------------------
      Total.............................       6,137,584             149
------------------------------------------------------------------------
\1\ There is no Region 7.
\2\ Region 2 did not provide 1999-2000 data.
\3\ Region 8 did not provide 2005 data.
 
WO, Washington Office.
 
Source: Data provided by the U.S. Forest Service.

    The U.S. Forest Service records were also used to categorize the 
litigants receiving EAJA fee awards. We organized the fee recipients 
into five categories:
  --Attorney/Law Firm.--Fee recipients who could be easily identified 
        as an attorney or a law firm.\7\
---------------------------------------------------------------------------
    \7\ It is important to note that the fee recipients in the attorney 
category represented clients that can be categorized into one of the 
other categories--all attorneys and law firms represented clients in 
these cases.
---------------------------------------------------------------------------
  --Commodity Interests.--Fee recipients involved in commodity 
        production, such as ranching and grazing operations, timber 
        companies, and mining organizations.
  --Environmental Organizations.--Fee recipients whose stated 
        organizational goal was to protect some aspect of the 
        environment.
  --Individuals.--Fee recipients who were individuals and not readily 
        identifiable as attorneys (but who may include attorneys).
  --Other.--Fee recipients, such as Native American tribes, who could 
        not be classified into another category.
    The U.S. Forest Service records listed a fee recipient for 120 of 
the 149 EAJA awards the agency reported (Table 6). Eighty-three (69.2 
percent) of these 120 recipients were environmental organizations, and 
more than two-thirds ($3.2 million) of EAJA fees were paid to these 
organizations. The agency records did not allow us to determine whom 
attorneys or law firms represented. Thus, the number and percentage of 
fee recipients in the other four categories may vary from the results 
presented in Table 6.

TABLE 6.--NUMBER AND DOLLAR AMOUNT OF U.S. FOREST SERVICE EQUAL ACCESS TO JUSTICE ACT (EAJA) AWARD PAYMENTS FROM
                                   1999 THROUGH 2005, BY TYPE OF FEE RECIPIENT
                           [Percentages may not equal 100 percent because of rounding]
----------------------------------------------------------------------------------------------------------------
                                                                    No. of EAJA                     Percent of
                      Type of fee recipient                           awards       Dollar amount    EAJA award
                                                                     received     of EAJA awards      dollars
----------------------------------------------------------------------------------------------------------------
Environmental...................................................              83      $3,219,447            69.4
Commodity.......................................................               6         400,932             8.6
Attorney/law firm...............................................               9         308,627             6.7
Individuals (may include attorneys).............................              11         426,124             9.2
Other...........................................................              11         286,286            6.2
----------------------------------------------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.

    The U.S. Forest Service data allowed us to determine the litigants 
that repeatedly received EAJA awards. All the litigants awarded fees in 
more than one case were environmental groups (Table 7). Nine of these 
14 groups are listed by Gambino Portuese et al. (2009) in their list of 
12 most frequent parties opposing the U.S. Forest Service in land-
management cases from 1989 to 2005. In fact, The Wilderness Society is 
the only ``high frequency party''--parties Gambino Portuese et al. 
(2009) found averaged two or more cases per year--that was not involved 
in more than one of the EAJA cases. This raises questions, which our 
data can not conclusively answer: do these groups litigate more because 
their legal costs are reimbursed, and/or do they request EAJA fees so 
often because they litigate often? A lack of risk to plaintiffs 
operating under one-way fee shifting, like the EAJA, where the 
plaintiff bears no possibility of having to pay the agency defendant's 
legal costs can theoretically favor litigation, particularly over less 
expensive conflict settlement options (Rowe 1984, Gambino Portuese et 
al. 2009).

TABLE 7.--ORGANIZATIONS LISTED AS A PLAINTIFF IN MORE THAN ONE LAWSUIT 
  AGAINST THE U.S. FOREST SERVICE THAT RESULTED IN AN EQUAL ACCESS TO 
JUSTICE ACT (EAJA) PAYMENTS FROM 1999 THROUGH 2006, BY NUMBER OF TIMES 
                                 LISTED

------------------------------------------------------------------------
                                                           No. of times
                                                             listed as
                    Organization name                      plaintiff in
                                                             EAJA suit
------------------------------------------------------------------------
American Wildlands......................................               6
Center for Biological Diversity.........................               6
Earthjustice............................................               3
Forest Guardians........................................               8
Heartwood (includes Kentucky Heartwood).................               7
Idaho Sporting Congress.................................               8
Kettle Range Conservation Group.........................               4
Klamath Siskiyou Wildlands Center.......................               2
League of Wilderness Defenders..........................               4
Native Ecosystems Council...............................               7
Oregon Natural Resources Council........................               5
Sierra Club/Sierra Club Legal Defense Fund..............              12
Swan View Coalition.....................................               4
The Ecology Center......................................               9
                                                         ---------------
      Total.............................................              85
------------------------------------------------------------------------
Source: Data provided by the U.S. Forest Service.

Discussion
    The challenge in analyzing our results is that we are left with 
perhaps more questions than with which we began. Although we can 
contribute to the empirical understanding of fee shifting and land-
management litigation, we cannot resolve the entirety of questions 
surrounding EAJA with any degree of certainty.
    In terms of what our study can definitively tell us, we know this 
much. We can establish that the U.S. Forest Service faces a formidable 
litigation environment and that the number of lawsuits is increasing. 
We found that lawsuits against the agency are accompanied by requests 
for legal fees under the EAJA and that the agency has paid out 
approximately $6 million over a 7-year period--although we acknowledge 
that this dollar total is imprecise. This is a relatively small 
percentage of the U.S. Forest Service's annual budget,\8\ and that is 
not surprising because only a small percentage of the thousands of 
projects proposed by the U.S. Forest Service are ultimately litigated. 
We also found that the most common U.S. Forest Service EAJA fee 
recipients, environmental groups, are also the organizations that file 
the most lawsuits against the agency (Gambino Portuese et al. 2009). 
Finally, although not homogenous, most of these frequent environmental 
litigants possess substantial financial resources (Table 8).
---------------------------------------------------------------------------
    \8\ For example, the fiscal year 2009 U.S. Forest Service budget 
for the National Forest System was $1.51 billion (USDA 2009).
---------------------------------------------------------------------------
    By using the example of national forest litigation and of the 
litigants from our study, we can also establish that current use of 
EAJA by these plaintiffs diverges from the law's initial purpose on its 
passage nearly 30 years ago. As discussed earlier, the congressional 
intent behind the EAJA appears focused. The overarching theme behind 
the statute's passage was the prevention of ``excessive Government'' 
regulation. The three goals of the EAJA were to ``(1) encourage parties 
that are the subject of unreasonable Federal Government action to seek 
reimbursement for attorney's fees and other costs, (2) restrain 
overzealous regulators, and (3) ensure that the Government pays for the 
costs of refining and formulating public policy'' (GAO 1998, p. 8). 
Bill sponsor Senator Pete V. Domenici stated that the EAJA's purpose 
was ``to redress the balance between the Government acting in its 
discretionary capacity and the individual'' (House Hearing 1980). The 
EAJA was intended to allow plaintiffs access to the legal system to 
challenge excessive regulation by the Federal Government, particularly 
where such regulations caused economic harm to members of the public. 
Although agencies such as the Environmental Protection Agency (EPA) 
typically engage in public regulation, land-management agencies, such 
as the U.S. Forest Service, do not. Legal actions directed against 
land-management agencies are rarely brought by individuals or small 
businesses contesting excessive Government regulation. Rather, 
litigation against the U.S. Forest Service usually challenges 
discretionary land-management decisions.\9\ Congress was informed that 
EAJA could be used in lawsuits contesting agency decisions. For 
example, during EAJA's legislative hearings Federal agencies, including 
the EPA, warned Congress of the bill's potential to encourage excessive 
interference with agency decisionmaking (Mezey and Olson 1993). Whether 
Congress disregarded or underestimated these concerns is difficult to 
discern; however, recent events, such as the Western Congressional 
Caucus members' (Western Congressional Caucus 2009) and Idaho Senate 
Delegation's (2009) letters to DOJ, indicate that some legislators 
believe EAJA may not be addressing its original purposes. Congress's 
intention when it enacted EAJA was to address the resource disparity 
between private litigants and the Government--the ultimate ``repeat 
player'' (see Galanter 1974). However, our findings suggest EAJA's 
legal eligibility requirements may not be restricting its use to groups 
with limited financial resources. For example, we found the 
organizations involved in more than one EAJA case collectively reported 
net assets in 2005 of more than $88 million and annual revenues of more 
than $116 million (Table 8).
---------------------------------------------------------------------------
    \9\ For example see Figure 5 of Keele et al. (2006), which 
illustrates the types of management activities most often challenged in 
U.S. Forest Service land-management litigation.
---------------------------------------------------------------------------

 TABLE 8.--DESCRIPTION AND 2005 FINANCIAL SUMMARY OF THE ORGANIZATIONS 
LISTED AS A PLAINTIFF IN MORE THAN ONE LAWSUIT AGAINST THE U.S. FOREST 
 SERVICE, WHICH RESULTED IN EQUAL ACCESS TO JUSTICE ACT AWARD PAYMENTS 
           FROM 1999 THROUGH 2006, BY NUMBER OF TIMES LISTED

------------------------------------------------------------------------
            Organization name               Net assets       Revenues
------------------------------------------------------------------------
American Wildlands......................        $438,600        $521,833
Center for Biological Diversity.........       2,347,991       3,477,044
Earthjustice............................      28,261,755      21,086,300
Forest Guardians........................         511,326         764,626
Heartwood...............................          86,539         159,435
Idaho Sporting Congress.................          31,657          60,428
Kettle Range Conservation Group.........         ( \1\ )         ( \1\ )
Klamath Siskiyou Wildlands Center.......          73,199         350,684
League of Wilderness Defenders..........          16,171          82,996
Native Ecosystems Council...............         ( \2\ )         ( \2\ )
Oregon Natural Resources Council (now          1,181,477       1,214,995
 Oregon Wild) \3\.......................
Sierra Club \4\.........................      54,604,888      85,183,435
Swan View Coalition.....................          84,040          37,891
The Ecology Center......................       1,166,694       3,158,765
                                         -------------------------------
      Total.............................      88,804,337    116,098,442
------------------------------------------------------------------------
\1\ Tax extension filed.
\2\ Information not available on Guidestar.
\3\ Guidestar data from 2004.
\4\ Agency records repeatedly list the Sierra Club as an EAJA fee
  recipient. Because the Sierra Club is ineligible to receive fees as a
  501(c)(4) organization, the court awards were most likely awarded to
  the Sierra Club Legal Defense Fund.
 
Source: Guidestar.org., n.d.

    We can also draw some informed conclusions from both the fee-
shifting literature and from our findings. We recognize immediately 
that the behavior of any particular litigant is highly context specific 
and the effects of fee-shifting legislation such as EAJA are difficult 
to predict. Additionally, the rationale to litigate is multivariate; 
Armstrong (2008), e.g., lists nine plausible reasons why a party would 
choose litigation over alternative dispute resolution. That said, the 
literature is consistent in suggesting that fee shifting reduces the 
risk of choosing litigation for would-be plaintiffs (e.g., Rowe 1984). 
Litigation under the American Rule is an inherently risky conflict 
resolution alternative because failure to prevail can be financially 
costly to the parties. It is even more risky under a fee-shifting 
arrangement, such as the English Rule, wherein the loser pays the 
winners' legal expenses. This risk is shared symmetrically only if both 
parties are potentially liable for prevailing opponent's legal costs--
known as two-way fee shifting--something EAJA does not require. If the 
U.S. Forest Service prevails, the losing plaintiffs are not required to 
pay the Government's legal fees and costs associated with defending the 
action. In turn, this may reduce the perceived risk of commencing 
litigation (Rowe 1984). Kagan (2001) suggests that the number of 
lawsuits brought to trial is a function of how plaintiffs perceive the 
``stakes'' in those lawsuits. That is to say, the likelihood of success 
and the expected value of winning lawsuits are related directly to the 
number of lawsuits. Exposure to unfavorable rulings, the costs of 
bringing the lawsuit, and the threat of having to pay other party's 
legal costs all contribute to the decision to litigate. However, EAJA 
influences this decision process by providing for partial fee shifting.
    Additionally, because lawsuits against the U.S. Forest Service are 
unlikely to succeed in general, these suits could subsequently be 
classified as low-probability litigation.\10\ It has been noted that 
``plaintiffs in . . . low-probability litigation . . . are likely to be 
risk seeking'' (Guthrie 2000 p. 187), and more likely to prefer 
judicial outcomes to negotiated settlement options. Partial fee 
shifting's distortion of lawsuit risk presumably encourages both repeat 
plaintiffs and an increasing number of lawsuits. Our EAJA litigation 
findings--that frequent U.S. Forest Service litigators are also 
frequent EAJA claimants--provide evidence of this, although as we have 
noted several times this relationship is not well defined or 
understood. The potential to avoid paying their own fees (and never 
having to pay their opponent's fees) means that EAJA-eligible 
plaintiffs do not face the same risks as do typical defendants under 
the American Rule (Rowe 1984). Frequent U.S. Forest Service plaintiffs 
as rational, self-interested litigators would likely have some 
sensitivity to the monetary costs of lawsuits (Fein 1984, Greve 1990, 
Adler 1996, Barnett and Terrell 2001). The financial risk asymmetry 
created by EAJA would not be lost on such plaintiffs. Other factors 
must be considered as well: Malmsheimer et al. (2004, p. 24) 
hypothesized that groups secure other benefits from litigation ``. . . 
such as publicity and delay of U.S. Forest Service action . . .'' and 
Juni (2002, p. 93-94) likewise noted that ``environmental groups' 
donations may suffer if [they use a nonlitigation] . . . approach [that 
can be] viewed as less `splashy.' '' Alternatively, it has been 
suggested that litigation is actually an effective means to facilitate 
cooperative bargaining and agreements between plaintiffs and agency 
defendants (Coglianese 1996). Regardless of the specific set of 
motivations facing a particular plaintiff--and on which we can only 
ponder--one-way fee shifting under the EAJA decreases the potential 
financial risk associated with national forest litigation.
---------------------------------------------------------------------------
    \10\ During a 20-year period from 1989 to 2009, plaintiffs suing 
the U.S. Forest Service prevailed on the merits in only 19.3 percent of 
the cases (based on an analysis of the database described at Keele et 
al. 2006). Although the effects of any one suit may be extensive, for 
purposes of this article, we generally consider such litigation to have 
a low probability of success.
---------------------------------------------------------------------------
    Finally, there are various questions about which we can only 
speculate. We have previously mentioned the riddle of whether more 
frequent litigants naturally make more frequent EAJA requests for legal 
fees or whether more frequent EAJA awards facilitate more frequent 
litigation. This we cannot answer. Likewise, we cannot address whether 
the EAJA has incentivized any particular lawsuit. Nor can we quantify 
the role that EAJA fees might play in the overall operating budgets of 
potential plaintiffs--thereby framing EAJA's relative potential as an 
incentive--because we do not have access to these organizational 
finances. What little information we do have access to (Internal 
Revenue Service Form 990s) is inconsistent and lacking in detail among 
the various plaintiffs in this study. Likewise, we cannot conclude that 
in the absence of the EAJA the number of lawsuits against the U.S. 
Forest Service would subside. Finally, we cannot make any claims to how 
paying $6 million in legal fees has affected the U.S. Forest Service, 
apart from noting that, generally, the specter of lawsuits does affect 
agency perceptions and behaviors (Mortimer et al. 2011). In keeping 
with what prior scholarship has noted (see Kritzer 2002), there are 
formidable empirical challenges to making concrete claims on the effect 
of fee shifting, and it is no less the case in this instance.
Conclusion
    The increasing use of litigation as a tool to influence Federal 
public land-management agency decisions remains controversial and 
politically charged. Our investigation of EAJA's interaction with the 
U.S. Forest Service suggests several findings important to future 
policy discussions and to understanding the relationships among the 
litigants:
  --The EAJA creates a litigation risk asymmetry that may cause 
        stakeholders dissatisfied with U.S. Forest Service land-
        management decisions to embrace litigation. Enabling this 
        behavior through one-way fee shifting is, of course, a public 
        policy decision, but statutory reform of any perceived 
        inequities or undesirability associated with EAJA and one-way 
        fee shifting would necessarily require plaintiffs to face some 
        ``. . . real prospect of out-of-pocket loss'' (Guthrie 2000, p. 
        211).
  --There remains insufficient evidence to conclude that the EAJA is a 
        driver for any particular plaintiff to challenge any particular 
        U.S. Forest Service project. Decisions to litigate are likely 
        driven by multiple factors and policymakers should realize that 
        EAJA reform might not eliminate or reduce U.S. Forest Service 
        land-management litigation. For example, some organizations' 
        raison d'etre is to initiate ``public interest litigation.'' 
        Even if EAJA were completely repealed, these organizations 
        would likely continue to sue land-management agencies. Also, 
        some national forest management decisions are so offensive to 
        some stakeholders that litigation is probably inevitable. 
        Additionally, as Gambino-Portuese et al. (2009, p. 22, emphasis 
        in original) noted, ``the vast majority of parties (74.4 
        percent) are only involved in one lawsuit. These are groups and 
        individuals whose interest is in a specific U.S. Forest Service 
        project or activity and who use litigation to try to change 
        that particular . . . land management decision.'' It is 
        doubtful that these ``one-timers'' take EAJA's distortion of 
        litigation risk into account when they make litigation 
        decisions. Most importantly, many organizations have found that 
        litigation provides an effective policy forum. It is often a 
        more effective and less costly alternative to (1) the resources 
        required to effect policy changes in administrative and 
        legislative branches or (2) participate in collaborative public 
        land-management efforts.
  --The original intent of the EAJA has drifted with its use in 
        national forest management litigation. In our study, most EAJA 
        payments were made to environmental interest groups with widely 
        varying financial capabilities. We note that many are quite 
        well financed and therefore not the class of plaintiffs for 
        which the law was designed to provide access to the expensive 
        federal litigation system. The increasing capabilities and 
        sophistication of such public interest litigants, their 
        relative financial resources, and the social desirability of an 
        evolution in the usage of the EAJA might be related topics of 
        inquiry for future policy studies of fee shifting and the EAJA.
Literature Cited
    Adler, J.H. 1996. Rent seeking behind the green curtain. Regulation 
4:26-34.
    Armstrong, P.M. 2008. Why we still litigate. Pepp. Disp. Resol. Law 
J. 8(3):379-384.
    Barnett, A.H., and T.D. Terrell. 2001. Economic observations on 
citizen-suit provisions of environmental litigation. Duke Environ. Law 
Policy 12(1):1-38.
    Benson, B.L. 2006. Unnatural bounty: Distorting the incentives of 
major environmental groups. PERC Policy Series (PS-37):29.
    Broussard, S.R., and B.D. Whitaker. 2009. The Magna Charta of 
environmental legislation: A historical look at 30 years of NEPA-Forest 
Service litigation. For. Policy Econ. 11: 148-154.
    Budd-Falen, K. 2009. September 15 Memorandum Re: Environmental 
litigation gravy train. Available online at 
www.westernlegacyalliance.org/images/pdfs/September_15.pdf; last 
accessed Sept. 1, 2010.
    Coglianese, C. 1996. Litigating within relationships: Disputes and 
disturbance in the regulatory process. Law Soc. Rev. 30(4):735-765.
    Council on Environmental Quality (CEQ). 2009. NEPAnet. NEPA 
litigation (online). Available online at www.nepa.gov/nepa/nepanet.htm; 
last accessed July 15, 2009.
    Fein, B. 1984. Citizen suit attorney fee shifting awards: A 
critical examination of Government subsidized litigation. Law Contemp. 
Prob. 47(1):211-232.
    Galanter, M. 1974. Why the ``haves'' come out ahead: Speculations 
on the limits of legal change. Law Soc. Rev. 9:95-160.
    Gambino-Portuese, B., R.W. Malmsheimer, A. Anderson, D.W. Floyd, 
and D.M. Keele. 2009. Litigants' characteristics and outcomes in Forest 
Service land management cases 1989 to 2005. J. For. 107(1):16-22.
    Greve, M.S. 1990. The private enforcement of environmental law. 
Tulane Law Rev. 65:339-394.
    Guidestar.Org. n.d. About us. Available online at 
www.guidestar.org/; last accessed June 18, 2007.
    Guthrie, C. 2000. Framing frivolous litigation: A psychological 
theory. Univ. Chicago Law Rev. 67(1):163-216.
    Hogfoss, R. 1985. The Equal Access to Justice Act and its effect on 
environmental litigation. Environ. Law 15(3):533-563.
    House Hearing. 1980. Hearing before the Subcommittee on Courts, 
Civil Liberties, and the Administration of Justice of the House 
Committee on the Judiciary on S. 265. U.S. House of Representatives, 
96th Cong., 2nd Sess.
    Idaho-Senate-Delegation. 2009. Available online at 
www.westernlegacyalliance.org/images/pdfs/november_9.pdf; last accessed 
Sept. 1, 2010.
    Jones, E.S., and C.P. Taylor. 1995. Litigating agency change: The 
impact of the courts and administrative appeals process on the Forest 
Service. Polit. Stud. J. 23(2):310-336.
    Juni, R.L. 2002. Public access to environmental dispute resolution 
processes: U.S. and U.K. trends towards a common approach. P. 87-103 in 
Environmental dispute resolution: An anthology of practical solutions. 
MacNaughton, A.L., and J.G. Martin (eds.). ABA Publishing, Chicago.
    Kagan, R.A. 2001. Adversarial legalism: The American way of law. 
Harvard University Press, Cambridge. 339 p.
    Keele, D.M., R.W. Malmsheimer, D.W. Floyd, and J.E. Perez. 2006. 
Forest Service land management litigation 1989-2002. J. For. 
104(4):196-202.
    Knudson, T. 2001. Litigation central: A flood of costly lawsuits 
raises questions about motive (third of five parts). Sacramento Bee, 
April 24.
    Krent, H.J. 1993. Fee shifting under the Equal Access to Justice 
Act--A qualified success. Yale Law Policy Rev. 11(2):458-508.
    Kritzer, H.M. 2002. Lawyer fees and lawyer behavior in litigation: 
What does the empirical literature really say? Texas Law Rev. 80(7): 
1943-1983.
    Large, D.W. 1972. Is anybody listening? The problem of access in 
environmental litigation. Wisconsin Law Rev. 62(1):62-113.
    Malmsheimer, R.W., D. Keele, and D.W. Floyd. 2004. National forest 
litigation in the U.S. Courts of Appeals. J. For. 102(2): 20-25.
    Mezey, S.G., and S.M. Olson. 1993. Fee shifting and public policy: 
The Equal Access to Justice Act. Judicature 77(131):13-20.
    Mortimer, M.J. 2002. The delegation of lawmaking authority to the 
U.S. Forest Service: Implications in the struggle for national forest 
management. Admin. Law Rev. 54(3):907-982.
    Mortimer, M.J., M.J. Stern, R.W. Malm-Sheimer, D.J. Blahna, L.K. 
Cerveny, and D.N. Seesholtz. 2011. Environmental and social risks: 
Defensive National Environmental Policy Act in the U.S. Forest Service. 
J. For. 109(1):27-33.
    Nie, M. 2008. The underappreciated role of regulatory enforcement 
in natural resource conservation. Polit. Sci. 41:139-164.
    Rowe, T.D. JR. 1984. Predicting the effect of attorney fee 
shifting. Law Contemp. Probs. 47(1):139-171.
    Senate Hearing. 2006. Hearing before the Committee on Energy and 
Natural Resources on Proposed Fiscal Year 2007 Budget Request for the 
Forest Service. U.S. Senate, 109th Cong., 2nd Sess.
    Sisk, G.C. 1993. A primer on awards of attorney's fees against the 
Federal Government. Arizona State Law J. 25(4):733-800.
    Sullivan, J.J. 1984. The Equal Access to Justice Act in the Federal 
Courts. Columbia Law Rev. 84(4):1089-1117.
    The Missoulian. 2007. Equal access to injustice, more like it. The 
Missoulian, March 19, Opinion page.
    Thomas, J.W. 2000. What now? From a former Chief of the Forest 
Service. P. 10-43 in A vision for the U.S. Forest Service: Goals for 
its next century. Sedjo, R.A. (ed.). Resources for the Future Press, 
Washington, DC.
    USDA. 2009. Fiscal Year 2011 Budget Summary and Annual Performance 
Plan. Available online www.obpa.usda.gov/budsum/FY11budsum.pdf; last 
accessed Jan. 17, 2011.
    U.S. Government Accountability Office (GAO). 1998. Equal Access to 
Justice Act: Its use in selected agencies. GAO/HEHS-98-58R, Washington, 
DC. 28 p.
    Western Congressional Caucus. 2009. Available online at 
www.westernlegacyalliance.org/images/pdfs/
doj_eaja_final_letter_11_3_09.pdf; last accessed June 10, 2010.
                                 ______
                                 
 Prepared Statement of the SouthEast Alaska Regional Health Consortium

    My name is Charles Clement and I am the President and CEO of the 
SouthEast Alaska Regional Health Consortium (SEARHC). Chairman Simpson, 
Ranking Member Moran, and members of the Committee, it is a pleasure to 
be here and I thank you for the opportunity to testify before this 
Committee.
    I have been involved in the provision of Alaska Native healthcare 
for 15 years. Prior to my employment at SEARHC I worked for the 
Southcentral Foundation in Anchorage, Alaska, as the vice president/
chief operating officer; vice president--operations; director of 
information technology/chief information officer; and special assistant 
to the president. As the new president/CEO of SEARHC, I am amazed at 
the positive impact the consortium has on the health spectrum of Alaska 
Natives.
    SEARHC is an inter-tribal consortium of 18 federally recognized 
Tribes situated throughout the Southeast panhandle of Alaska. Our 
considerable service area encompasses over 35,000 square miles, an area 
larger than the State of Maine. With no road system connecting our 
communities, the challenges to deliver robust health services are 
considerable.
    I am proud to say that SEARHC meets these challenge through a 
network of community clinics and through the Mount Edgecumbe Hospital. 
We provide an array of health services that includes medical, dental, 
mental health, physical therapy, radiology, pharmacy, laboratory, 
nutritional, audiology, optometry and respiratory therapy services. In 
addition we provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing.
    We administer over $42 million in IHS facilities and related 
programs and services and have had more than 115,040 encounters in the 
last fiscal year. These are Federal services which we operate on behalf 
of the Federal Government through a self-governance compact and 
associated funding agreement.
    To carry out IHS programs under this contract requires us to incur 
certain fixed costs, including a number of costs mandated by the 
Federal Government. These costs include substantial annual audit costs, 
insurance costs and an array of administrative costs to operate our 
personnel and financial management systems.
    Only a portion of the contract support costs for the above health 
services are covered in the direct service budget which IHS contracts 
to pay for under our funding agreement. This is because IHS either does 
not incur these costs at all (in the case of audit expenses and 
insurance costs), or because IHS receives resources to carry out these 
functions from other portions of the IHS budget, other divisions of the 
Department of Health and Human Services, or even other departments of 
the Federal Government. Still, these are mandatory fixed costs which 
SEARHC must incur every year, and--for SEARHC--these costs are 
negotiated annually by the DHHS Division of Cost Allocation, Western 
Field Office.
    Decades ago SEARHC was required to accept a contract that did not 
provide for the payment of these contract support costs. Over the 
years, through amendments to the Indian Self-Determination Act, 
Congress changed the law to require that full contract support costs be 
added to the negotiated budget for our direct services. Thus today, 
both the law, as well as our compact and funding agreement, require 
that contract support costs be added in full.
    IHS, however, has not paid the full amount owed under our contract. 
In fact, it is not clear how much IHS will honor under the contract 
until it is fully performed. Even this year--nearly half way through 
the year--we have no idea what IHS will pay us because IHS has not 
announced how it will distribute this year's contract support cost 
funding, which was an increase of $74 million increase.
    As an example of the impact contract support cost underfunding has 
on SEARHC, last fiscal year SEARHC was underpaid approximately $2.8 
million in fixed contract support costs. SEARHC has no tax base and, 
thus, has no way to make up for the difference other than to use 
resources that would otherwise support the delivery of services. This 
shortfall severely impacted on our ability to fully aid the Alaska 
Native community and our ability to provide the maximum level of care 
to our beneficiaries. Interestingly, in other areas of Government 
contracting, the United States does not fail to pay for its contracted 
for services.
    SEARHC is a member of the National Tribal Contract Support Cost 
Coalition, and we fully endorse the NTCSCC's testimony. Full funding of 
support costs in fiscal year 2013, at $100 million increase above the 
President's request would impact SEARHC daily operations by allowing 
for our contract support costs to be fully paid and preventing the need 
to use direct service funds to supplement contract support costs 
normally unpaid by IHS.
    It has been almost 8 years to the day since the Supreme Court 
required that the Government honor its self-determination contracts 
with tribal healthcare providers in the landmark case Cherokee Nation 
of Oklahoma v. Leavitt, 543 U.S. 631 (2005). Honoring these contract 
support costs obligations is inimical to SEARHC's ability to provide 
robust health services to our community.
    I thank you for the opportunity to testify before the Committee and 
would be happy to answer any questions you have for SEARHC.
                                 ______
                                 
    Prepared Statement of the Arctic Slope Native Association; the 
   Chickasaw Nation of Oklahoma; the Choctaw Nation of Oklahoma; the 
  Citizen Potawatomi Nation; Kodiak Area Native Association; the Nez 
Perce Tribe; the Port Gamble S'Klallam Tribe; Southcentral Foundation; 
  SouthEast Alaska Regional Health Consortium; the St. Croix Chippewa 
         Indians of Wisconsin; and the Tanana Chiefs Conference

    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Endreson & Perry, LLP, of Washington, DC. I 
am submitting this testimony on behalf of 11 Tribes and tribal 
organizations that experienced contract support cost shortfalls but who 
have been denied their day in court, due to no fault of their own. On 
behalf of these 11 Tribes and tribal organizations we request that the 
Committee include language which would deem their claims to have been 
timely filed so that they can finally have their day in court. The 
language would not guarantee any outcome on the claims, and would only 
assure that the Tribes and tribal organizations are permitted to bring 
them.
    The 11 Tribes and tribal organizations named here were all caught 
in a double catch-22 that was not of their making.
    The first catch-22 concerned two law suits that were pending before 
New Mexico Federal Judge Leroy Hansen. One was a class action lawsuit 
against the Bureau of Indian Affairs over unpaid contract support 
costs, and is called the Ramah case.\1\ The other was a class action 
law suit against the Indian Health Service over unpaid contract support 
costs and is called the Zuni case.\2\ These were essentially identical 
law suits. The Ramah BIA suit was filed in 1990, and the Zuni IHS suit 
was filed in 2001.
---------------------------------------------------------------------------
    \1\ Ramah Navajo Chapter v. Lujan, No. 1:90-cv-00957 (D.N.M. filed 
Oct. 4, 1990).
    \2\ Pueblo of Zuni v. United States, No. 1:01-cv-01046 (D.N.M. 
filed Sept. 10, 2001).
---------------------------------------------------------------------------
    In the BIA class action case, Judge Hansen ruled in 1993 that 
individual tribal contractors did not need to individually ``present'' 
their own claims to the Government in order to be covered by the law 
suit. Instead, Judge Hansen ruled, the claims that were filed by the 
Ramah Navajo Chapter were sufficient to cover all tribal contractors. 
Later, in 1999 and 2001, portions of this lawsuit were settled and all 
qualifying tribal contractors in the country shared in the 
settlements.\3\
---------------------------------------------------------------------------
    \3\ Ramah Navajo Chapter v. Babbitt, 50 F. Supp. 2d 1091 (D.N.M. 
1999); Ramah Navajo Chapter v. Norton, 250 F. Supp. 2d 1303 (D.N.M. 
2002).
---------------------------------------------------------------------------
    The Zuni class action law suit against IHS was filed in 2001, and 
for 4 years it was handled by Judge Hansen. Since Judge Hansen had 
already ruled in the Ramah case that individual tribal contractors did 
not need to present their individual claims in order to be covered by 
the class action law suit--and because Judge Hansen's decision was the 
only decision in the country to address this issue--individual tribal 
contractors likewise relied on the 2001 Zuni class action law suit to 
protect their claims. They did not file individual claims.
    In 2005, the Zuni law suit was assigned to a new Judge. Within a 
few weeks the Government informed the new Judge that the Government 
intended to challenge Judge Hansen's earlier 1993 ruling. Shortly after 
this development--again, in 2005--all of the 11 Tribes and tribal 
organizations named above filed individual claims against the 
Government. The claims reached back as far back as fiscal year 1996 (5 
years before the Zuni case was filed, but 9 years before the 2005 
claims were filed). Eventually, the new Judge handling the Zuni case, 
Judge Johnson, announced that he disagreed with Judge Hansen's 1993 
decision. Judge Hansen ruled that a class action law suit does not 
protect individual tribal contractor's claims if those claims have not 
been separately presented to the Government within 6 years after they 
first accrued. (Partly for this reason, Judge Johnson ended up refusing 
to certify the Zuni case as a class action. It was later dismissed.)
    This was the first catch-22. The 11 Tribes and tribal organizations 
named here relied on Judge Hansen's ruling that a class action lawsuit 
relieves individual tribal contractors of the burden of filing their 
own claims. No one could have predicted that the Zuni case being 
handled by Judge Hansen would be transferred to Judge Johnson, and that 
Judge Johnson would then disagree with Judge Hansen and require all 
tribal contractors to present their claims one by one.
    The second catch-22 concerns what happens when a class action law 
suit is not certified. The usual rule is that individuals who are 
covered by an uncertified class action are protected during the time 
that the law suit was pending. They do not lose any rights. If the 
class is not certified, the individuals are then free to go forward on 
their own, and they are given the extra time that the law suit was 
pending to pursue their own individual claims. This is called ``class 
action tolling,'' because the class action law suit ``tolls'' the time 
for the individual to act on his or her own.
    That is the usual rule. But when the 11 Tribes and tribal 
organizations sought to rely on the usual ``class action tolling rule'' 
to pursue their individual claims, the Federal Circuit Court of Appeals 
held that the ``class action tolling rule'' does not apply in 
Government contract litigation. As a result, claims that were filed 
more than 6 years after the claims arose are considered untimely.\4\
---------------------------------------------------------------------------
    \4\ Arctic Slope Native Assoc., Ltd. v. Sebelius, 583 F.3d 785 
(Fed. Cir. 2009). Subsequent cases have ruled that the ``equitable 
tolling'' doctrine also does not apply in this setting to preserve the 
timeliness of claims more than 6 years old. See, e.g., Menominee Indian 
Tribe of Wisconsin v. United States, __ F. Supp. 2d __, 2012 WL 192815 
(D.D.C. 2012).
---------------------------------------------------------------------------
    This is the second catch-22. In 2001, these 11 Tribes and tribal 
organizations assumed that the usual class action tolling rules would 
protect them if there were ever any problem with the Zuni class action 
law suit, only to learn, for the very first time in 2009, that the 
usual rules do not apply to this kind of law suit. By then--even by 
2005--it was too late to cure the problem of the claims having been 
presented too late.
    Two catch-22 situations should not stand in the way of Tribes 
having their day in court on legitimate assertions that the Government 
underpaid their contract support cost requirements. For this reason, we 
request that the Committee consider including in the bill the following 
language:

    ``, Provided, That claims presented to an Indian Health Service 
contracting officer on or before October 31, 2005, and involving claims 
which accrued after October 1, 1995, and on or before September 30, 
1999, shall be deemed timely presented''.

    The proposed language would deem the claims that were filed in 
2005, and covering contract years 1996-1999, to have been timely filed. 
If enacted, each of the 11 Tribes and tribal organizations will finally 
have its day in court. The proposed language does not guarantee any 
outcome, just a day in court.
    Thank you for the opportunity to present this testimony.
                                 ______
                                 
    Prepared Statement of the South Eastern Wildlife & Environment 
                      Education Association, Inc.

    Mr. Chairman and Members of the Subcommittee, on behalf of the over 
1,100 members of the South Eastern Wildlife & Environment Education 
(SEWEE) Association, Friends Group for Cape Romain, EFH ACE Basin and 
Waccamaw National Wildlife Refuges in South Carolina, I would like to 
thank you for your commitment to the National Wildlife Refuge System 
(NWRS) through increased funding over the past few years. We realize 
that in this time of budget cuts, it may be difficult to justify 
increasing the NWRS funding, but once the Refuges start to decline it 
will cost many times more than these small increases to return them to 
a condition that will fulfill their mandates. We respectfully request 
that you consider the following in your appropriations:
  --Fund the National Wildlife Refuge System $495 million in fiscal 
        year 2013, essentially keeping level funding from fiscal year 
        2012.
  --Fund the Land and Water Conservation Fund (LWCF) at $700 million 
        for fiscal year 2013.
  --Fund Visitor Services for the NWRS at $80 million for fiscal year 
        2013.
  --Support $3.8 million in fiscal year 2013 for Challenge Cost Share 
        (CCS).
    Our partner refuges are located along coastal South Carolina in 
five counties, from Myrtle Beach through Georgetown and Charleston and 
into the nationally acclaimed ACE Basin area. The budget increases in 
the past few years have helped them to increase management, protection, 
and restoration of the Refuges and given them the ability to better 
meet their Comprehensive Conservation Plan (CCP) goals. For example, in 
2010 the Cape Romain Refuge Manager left for another position in 
Florida and in early 2011 the resident biologist was promoted to this 
position. We were so excited to have this happen, as this person has 
worked on this refuge for several years and had a great perspective of 
the needs and challenges. However, with delays in budget approvals, 
they were not able to fill the now vacant position of the biologist 
that year. This was a major problem as Cape Romain has the most active 
Loggerhead Sea Turtle nest protection program in South Carolina, which 
is a major project for the biologist. Our dedicated refuge manager made 
sure this project was able to continue while over 1,200 nests were laid 
in the refuge that summer. With your support of continued Operations 
and Maintenance funding for fiscal year 2012, Cape Romain will now be 
able to hire a biologist this year as we prepare for a new nesting 
season. This has become even more critical as Hurricane Irene had major 
impacts on the refuge islands last year and new procedures will be 
needed to monitor and protect all the nests laid in the refuge this 
year. All of our refuges operate with very small staffs, so they would 
not be able to handle any staff reductions. They have already 
participated in staffing reviews and reductions and are at their 
minimum level, so we ask that you allow them to keep their current 
levels.
    Another major need in Operations and Maintenance is for dredging of 
the Cape Romain docks and landing at Garris Landing and on Bulls 
Island. Between natural silting action and extreme high tides, the dock 
basins at these sites are almost unusable at low tide. Their boats 
cannot be subjected to potentially ``bottoming'' overnight as the 
repairs would be very expensive. Also, the boat landing has filled in 
as well and is almost inaccessible at low tide. This not only impacts 
the refuge staff, but all the recreational and commercial boaters who 
use this facility. As no one can control the extremes in tides that we 
are experiencing, the only option is to dredge this area to allow it to 
be used by the public and by refuge staff. We appreciate your support 
of the funding levels for fiscal year 2012 and ask that you support the 
continuation of that level for fiscal year 2013 so that projects like 
this can be done before they become more expensive.
    Our partners are also involved in land acquisitions that are funded 
in part by the Land and Water Conservation Fund. These oil and gas 
revenues have allowed Waccamaw NWR to work with The Nature Conservancy 
to protect valuable lands within their boundaries that were offered for 
sale by International Paper as they scaled back their holdings. These 
floodplain areas are now protected for various species and have water 
and land trails for use by the public to explore. Cape Romain NWR is 
working with Francis Marion National Forest and the National Park 
Service to protect lands along the Gullah Geechee National Historic 
Corridor and to protect long-leaf pine habitat from the coast to the 
midlands as part of the America's Great Outdoors project. Funding of 
LWCF at the requested levels will allow this valuable work to continue.
    SEWEE Association has been the Friends Group for Cape Romain NWR 
since 1996 and in 2002 we added EFH ACE Basin NWR and Waccamaw NWR as 
our partners. We have been able to provide Environmental Education to 
over 100,000 students and teachers through our staff and volunteers on 
these refuges and gain tremendous support for our partners through this 
work. We also have provided interns and technicians to the refuges to 
help with special projects, such as the Loggerhead Sea Turtle nest 
protection; eradication of invasive species; water quality monitoring 
and shorebird surveys. We also were able to supply major funding to 
help with the exhibits of the new Waccamaw Environmental Education 
Center and with upgrades to audio-visual equipment at Cape Romain's 
Sewee Visitor and Environmental Education Center. Our association 
members are passionate about our refuges and want to see them have a 
chance to meet their mission. Therefore we ask you to help us through 
these requests:
  --The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
        that the NWRS needs a budget of at least $900 million annually 
        in operation and maintenance funding in order to properly 
        administer its 150 million acres as mandated in the Refuge 
        Improvement Act. The current budget is far short of the amount 
        actually required to effectively operate and maintain the 
        Refuges. In this time of tightening budgets, we respectfully 
        request that you keep the NWRS budget at the same level as 
        fiscal year 2012 ($495 million) so that the Refuges do not 
        backslide even further in protecting these valuable lands and 
        ecosystems.
  --The Land and Water Conservation Fund was created in 1965 and 
        authorized at $900 million. We ask that you fund the LWCF at 
        $700 million for fiscal year 2013. These funds are used for 
        land acquisition to protect wildlife and their habitats. With 
        the effects of a changing climate, it is more important now 
        than ever to establish key wildlife corridors between protected 
        areas so wildlife can migrate to more suitable habitat as their 
        historic ones changes. These landscape level conservation 
        efforts through conservation easements and land purchases are 
        the best way to protect the diversity of flora and fauna. The 
        price of real estate is low at this time and the $700 million 
        can go much further in protecting habitats than it can in a 
        higher market. When we start to lose species due to lack of 
        food, water, shelter, or space, we are changing the balance of 
        nature. We urge you to fund the LWCF at $700 million for fiscal 
        year 2013. The LWCF is not funded by taxpayer money.
  --The refuges give the American people places to connect with nature 
        and get involved. In 2011 refuge Friends and volunteers 
        contributed 1.5 million hours of work for the refuge system. 
        This is about eight volunteers for every one refuge system 
        employee. These Friends and volunteers do approximately 20 
        percent of all work on refuges for free. Without a refuge 
        system employee to guide them, the volunteers can't perform 
        these valuable free services. We request $80 million for 
        Visitors Services for the NWRS.
  --Please support the Challenge Cost Share (CCS) with $3.8 million in 
        fiscal year 2013. Partners are the key to successful 
        conservation. The Federal Government doesn't need to foot the 
        bill alone. Through programs that leverage Federal dollars 
        (such as the CCS program), partner organizations such as our 
        Refuge Friends groups can get matching dollars from other 
        entities to give the American taxpayers more for their dollars. 
        Projects such as trails, education, boardwalks, and habitat 
        restoration give the American public places to connect with 
        nature and relax.
    In conclusion, the SEWEE Association believes the National Wildlife 
Refuge System can meet its important conservation objectives only with 
strong and consistent funding leveraged by the valuable work of refuge 
staff and volunteers. We again extend our appreciation to the 
Subcommittee for its ongoing commitment to our National Wildlife Refuge 
System. We encourage you to approve a $495 million for the fiscal year 
2013 National Wildlife Refuge System Operations and Maintenance budget 
managed by FWS and to approve $700 million for fiscal year 2013 for the 
LWCF land acquisition budget as well as funding refuge Visitor Services 
at $80 million and the CCS at $3.8 million.
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation

    Southcentral Foundation (SCF) is a tribal organization that 
compacts with the Secretary of Health and Human Services under Title V 
of the Indian Self-Determination Act. Under SCF's compact we carry out 
various Indian Health Service programs across our region. In doing so, 
SCF acts pursuant to tribal authority granted by Cook Inlet Region, 
Inc., an Alaska Native regional corporation designated by Congress as 
an Indian Tribe for purposes of Indian Self-Determination Act 
activities. As my testimony reflects, SCF requests that in fiscal year 
2013 Congress (1) fully fund our Mat-Su Clinic joint venture staffing 
requirements, as required by our joint venture contract agreement with 
IHS, and (2) fully fund SCF's and all other contract support cost 
requirements at $572 million, as required by over 330 self-
determination contracts with IHS.
    SCF has carried out IHS programs under Self-Determination Act 
agreements for more than 25 years. In accordance with its compact with 
the DHHS, SCF currently provides medical, dental, optometric, 
behavioral health and substance abuse treatment services to over 45,000 
Alaska Native and American Indian beneficiaries living within the 
Municipality of Anchorage, the Matanuska-Susitna Borough, and nearby 
villages. SCF also provides services to an additional 13,000 residents 
of 55 rural Alaska villages covering an area exceeding 100,000 square 
miles and larger than the State of Oregon. To administer and deliver 
these critical healthcare services, SCF employs over 1,400 people.
    Today I will focus my remarks on two issues, joint venture funding 
and contract support cost funding.
Joint Venture Funding
    The first issue I need to address concerns our joint venture (JV) 
contract with IHS. Under Section 818(e) of the Indian Health Care 
Improvement Act, IHS is authorized to enter into JV contracts under 
which, (a) a Tribe borrows funds to build a facility to IHS 
specifications, and (b) IHS agrees ``to provide the equipment, 
supplies, and staffing for the operation and maintenance of such health 
facility.'' The agreements are contracts and they are enforceable as 
such.
    Two years ago SCF and IHS entered into a binding JV contract. SCF 
agreed to construct a new 88,451 square-foot Primary Care Clinic in the 
Mat-Su Valley of Alaska, using borrowed funds from non-IHS sources. In 
return, IHS agreed that it ``shall provide the supplies and staffing 
for the operation and maintenance of the Facility . . . subject to 
appropriations by the Congress.'' Art. VIII.A. See also Art. VIII.G 
(``IHS will staff, operate and Maintain the Facility in accordance with 
Articles XI through XIV of this Agreement.''); Art. XI (``As authorized 
by Section 818(e)(2) of Public Law 94-437 (`subject to the availability 
of appropriations for this joint venture project, commencing on the 
beneficial occupancy date IHS agrees to provide the supplies, and 
staffing necessary for the operation and maintenance of the Facility. 
The IHS will request funding from Congress on the same basis as IHS 
requests funding for any other new Facility.')''
    Our concern arises out of the fact that, while we will receive our 
certificate of beneficial occupancy on July 15, 2012, and thus be 
operational during all of fiscal year 2013 at an IHS-calculated 
staffing cost of $27 million, IHS's Budget only requests 50 percent of 
the staffing requirement for the Clinic (or $13.5 million). We are 
gravely concerned over this gap, all the more because the original $27 
million which IHS committed to pay already reflects a 15 percent 
reduction of our total staffing costs. (This is because, as a matter of 
policy, IHS will not staff any new facility at more than 85 percent of 
the facility's staffing requirement.) If IHS does not receive 
additional funds to fully meet its contract commitment to SCF, IHS 
would be forced to reprogram other funds to make up for the difference.
    We are not alone in this situation, and some of the other staffing 
packages which IHS is committed to provide are similarly underbudgeted. 
We calculate that to fund the staffing packages will require $95.2 
million, not the $49.2 million requested. Before IHS requests, and 
before Congress funds, discretionary increases in other IHS accounts, 
contractually committed staffing packages should be paid in full.
Contract Support Cost Funding
    The second problem is the budget's inadequate request for contract 
support cost funding--another contractually required payment to Indian 
Self-Determination Act contractors like SCF. The budget requests a mere 
$5 million increase for fiscal year 2013, despite the fact that IHS's 
former contract support cost expert Ron Demaray projects a $99 million 
shortfall in fiscal year 2013 (calculated at the President's proposed 
budget level). Here, we have developed our own projection because, for 
the first time in some 20 years, the IHS budget justification does not 
include a shortfall projection.
    Contract support cost funding reimburses SCF's fixed costs of 
running its contract with IHS. If IHS fails to reimburse these costs, 
SCF has no choice but to cut positions, which in turn cuts services, 
which in turn cuts down our billings and collections from Medicare, 
Medicaid and private insurers (billings which would otherwise go into 
additional staff and services for our people). The reverse is also 
true. When in fiscal year 2010 Congress appropriated an historic 
increase in contract support cost funding, SCF opened 97 positions to 
fill multiple healthcare provider teams and support staff.
    Our fixed contract support costs are largely ``indirect costs'' 
that are set by the HHS Division of Cost Allocation. The remainder of 
our contract support costs (about 20 percent) are set directly by IHS. 
These costs include federally mandated audits, and such items as 
liability and property insurance, workers' compensation insurance, and 
payroll and procurement systems. We have to buy insurance. We need to 
make payroll. We have to purchase supplies and services, and we have to 
track property and equipment. All of our costs are independently 
audited every year by Certified Public Accountants, as required by law.
    Last year this Committee reiterated the binding nature of these 
contracts and directed IHS and the BIA to fully fund all contract 
support cost requirements. The BIA has done this, but the IHS budget 
justification defies the Committee's direction and insists that these 
contracts are not binding at all. So far as we can tell, no other 
contractors are treated this way. HHS, including IHS, only treats its 
contracts with Indian Tribes this way--as optional, discretionary 
agreements that it can choose not to pay. We provide a contracted 
service for a contracted price, but IHS only pays us what it chooses to 
pay.
    This has to stop. In fiscal year 2013 IHS should finally pay its 
contract obligations in full. The contract support cost line-item 
should be fully funded at a minimum $571 million.
    As SCF said last year before this Committee, underfunding contact 
support costs disproportionately balances budgetary constraints on the 
backs of tribal contractors. Worse yet, it punishes the people being 
served by forcing reductions in contracted programs. If Congress is 
going to cut budgets or limit budget increases, fairness demands that 
such actions occur in portions of the budget that are shouldered 
equally by IHS and the Tribes and tribal organizations (like the 
contract health services line).
    Again, SCF respectfully calls upon Congress to provide at least 
$571 million in contract support cost funding for fiscal year 2013, so 
that the Department can finally honor these contracts in full. 
Remember, every Tribe has contracts with IHS to carry out some of the 
agency's healthcare services, and most of those Tribes are being 
penalized for taking that initiative. Closing the contract support cost 
gap will eliminate that penalty and directly benefit the vast majority 
of Indian and Alaska Native communities served by IHS.
    On a related note, SCF requests that Congress direct IHS to resume 
promptly disclosing to Tribes all IHS data on contract support cost 
requirements and payments. Up until last year, IHS was doing this 
regularly. Then suddenly IHS stopped--we think because IHS may have 
been embarrassed by errors in its data. Now, IHS claims that releasing 
its data may be opposed by some Tribes--even though the release of data 
is mandated by section 106 of the ISDA. IHS also claims that because 
the data is also used in a report to Congress, releasing the data 
violates OMB clearance procedures, and that there is some kind of 
embargo on data regarding the expenditure of Federal funds (similar to 
the embargo applicable to the development of the President's Annual 
Budget). This is simply not so, and in prior years OMB participated in 
the disclosure of IHS data to the Tribes. Contract support cost 
appropriations belong to the Tribes, and Tribes have a right to know 
what is happening to these funds on a timely basis. Waiting for a 
report to Congress that includes other information is not helpful, 
since most reports never get to Congress. The few that do are 
interminably delayed. In fact, the CSC Report Congress just received 
from IHS regarding 2009 data was 2 years late. We ask that the 
Committee add appropriate language to the appropriations Act directing 
IHS to disclose its data promptly.
    Thank you for granting me the opportunity to testify on behalf of 
the Southcentral Foundation and the 58,000 Native American people we 
serve.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation

    Chairman Simpson and distinguished Members of the Committee, my 
name is George L. Thurman, and I am the Principal Chief of the Sac and 
Fox Nation. I thank you for the opportunity to present the Sac and Fox 
Nation's testimony before this esteemed Committee. We appreciate your 
dedication to righting the wrongs our people suffered in the past and 
suffer in the present. Thank you for supporting the increases for 
Indian programs. We understand the fiscal constraints of the Country 
and together we can provide a future that has many opportunities for 
self-sufficiency through Self-Governance.
    Sac and Fox Nation Tribal Specific Budget Requests:
  --Add $4.8 million to the Bureau of Indian Affairs Detentions/
        Corrections to fully funded the Sac and Fox Nation Juvenile 
        Detention Center
  --Direct the Assistant Secretary--Indian Affairs to continue the 
        Federal corporate charter for Sac and Fox--support tribal 
        economic development
    National Budget Requests:
      BIA:
        CSC: Fully fund $8.8 million increase included in President's 
            request
        Fixed Costs/Pay Costs: Fully fund--Provide $13.7 million 
            increase
        Fully fund all provisions of the Tribal Law and Order Act of 
            2010
        Do not consolidate the Office of Self-Governance; must remain 
            stand-alone
      IHS:
        CSC: $99.4 million over President's request
        Mandatory Costs: $304 million increase to maintain current 
            services
        Indian Health Care Improvement Fund: $45 million increase
        Contract Health Costs: $200 million increase
        Alcohol and Substance Abuse: $40 million increase
        Office of Tribal Self-Governance: $5 million increase
      Support the Requests of the National Indian Health Board
      Support the Requests of the National Congress of American Indians
About the Sac and Fox Nation
    The Sac and Fox Nation is headquartered in Stroud, Oklahoma, and 
our Tribal jurisdictional area covers Lincoln, Payne, and Pottawatomie 
Counties. Of the 4,000 enrolled Tribal members, 2,600 live in Oklahoma. 
We are proud pay tribute to a Sac and Fox descendent and Great Native 
American, Jim Thorpe. One of the most revered Olympic athletes who have 
ever represented the United States; Mr. Thorpe won the pentathlon and 
decathlon in the 1912 Olympics.
Tribal Specific Budget Requests--$4.8 Million for Juvenile Detention 
        Center
    The passage of the Tribal Law and Order Act was applauded by the 
Sac and Fox Nation because we saw this as the opportunity for the 
Federal Government to finally fulfill the commitment to the Nation and 
fully fund our Juvenile Detention Center (JDC). In 1994, the Sac and 
Fox Nation Juvenile Detention Center (JDC) opened its doors after years 
of planning and construction made possible by funding from the 
Department of the Interior, Bureau of Indian Affairs. The JDC is the 
first juvenile facility designed for American Indians/Alaska Natives as 
well as the first juvenile facility developed under Public Law 100-472, 
the Self-Governance Demonstration Project. The JDC is a full service, 
24 hour juvenile detention facility that provides basic detention 
services to all residents to insure their health, safety and welfare 
and provides programs tailored to meet the specific needs of our 
clients. These programs include behavioral management, substance abuse, 
spiritual, cultural, self-esteem, arts and crafts, health and fitness, 
horticulture, nutrition, life skills, counseling and educational 
programs. The 39 Tribes included in the Southern Plains Region will 
support the JDC but due to underfunding and staffing shortages, the JDC 
cannot accommodate the detention needs of the regional Tribes.
    In recent appropriations testimony provided by Assistant Secretary 
Larry Echo Hawk, he requested $6.5 million for Detention/Correction and 
an additional 18 FTEs. We take great exception to the this request 
inasmuch as the Department of the Interior/Bureau of Indian Affairs has 
never provided the full funding that was committed for the 
appropriation, planning and construction process of the JDC. The Sac 
and Fox Nation, due to the failure of the full funding commitment by 
Federal officials not being honored, has had to utilize funds that 
could have been used for other social services needs. The Sac and Fox 
Nation is committed to working with the Department of the Interior/
Bureau of Indian Affairs officials in an effort to help them fulfill 
their financial commitment. With the promise of full funding realized, 
the JDC will be ready, willing and able to meet the needs of Tribes who 
need our help in guiding their children toward a successful future 
while providing a culturally and spiritually sensitive environment.
    In fiscal year 2004, the Office of the Inspector General issues the 
report, ``Neither Safe nor Secure''--An Assessment of Indian Detention 
Facilities, citing the existence of serious safety, security, and 
maintenance deficiencies at detention centers throughout Indian 
Country. One of the primary recommendations was the need to identify 
and remedy staffing shortages whereby Indian Affairs responded that 
``current facilities still remain understaffed by a total of 373 
positions (74 positions for Indian Affairs direct service programs and 
299 positions for programs operated by Tribes under Public Law 93-638 
and Self-Governance compacts).\1\ The Sac and Fox Nation is requesting 
that the Bureau of Indian Affairs recommits to funding for the JDC.
---------------------------------------------------------------------------
    \1\ Fiscal year 2013 U.S. Department of the Interior Budget 
Justifications--Green Book.
---------------------------------------------------------------------------
Tribal Specific Request--Federal Corporate Charter
    Since Federal recognition as an organized Tribe, the Sac and Fox 
people have fought to maintain the well-being of our people. The Sac 
and Fox have persevered to maintain our sovereignty through history and 
into the era of Self-Governance despite broken treaties and inadequacy 
of Federal funding.
    Historically the people of the Sac and Fox Nation stood alongside 
many nations to seek and pave paths to new frontiers for all Tribes in 
the United States. This is evident in our Supreme Court victory on May 
17, 1993 over the State of Oklahoma with regard to registering vehicles 
and issuing license plates for Tribal members.
    Then, once again, the Sac and Fox Nation forged new territory in 
the seeking of Federal Corporate Charter in accordance with the Indian 
Reorganization Act of 1934 and the Oklahoma Indian Welfare Act of 1936. 
In 1987 the Sac and Fox Nation moved this exercise of Self-Governance 
forward with the signing of a Federal Corporate Charter by, then 
Assistant Secretary of Indian Affairs, Ross Swimmer. The key purposes 
of our Charter are to advance the standard of living of the Tribe 
through the development of Tribal resources, the acquisition of new 
Tribal land, the preservation of existing land holdings, the better 
utilization of lands, the development of a credit program for the 
Tribe, and the furtherance of economic industrial development within 
the Tribal jurisdiction.
    In October 2007, after decades of attempting to place tracts of 
land into trust through the process administered by the Bureau of 
Indian Affairs, the Sac and Fox Nation placed 24 tracts of land into 
trust in accordance with our Federal Corporate Charter. Where trust 
applications had been disapproved in the past by the Bureau of Indian 
Affairs for reasons such as not having an easement despite the fact the 
Sac and Fox Nation owns the adjacent property, the Sac and Fox Nation 
placed these 24 tracts into trust in accordance with the Charter and 
Laws of the Sac and Fox Nation. On November 6, 2007, the Sac and Fox 
Nation issued notice of these actions to the Secretary of the Interior, 
the Southern Plains Regional Director of the Bureau of Indian Affairs, 
Oklahoma State agencies, and each respective County agency. The Sac and 
Fox Nation's peak of accomplishment was hit hard by opposition in a 
letter from the Bureau of Indian Affairs Southern Plains Region dated 
March 7, 2008 stating ``it is a well-established legal precedent, that 
absent the Secretary's approval of such conveyance, trust status is not 
imposed.'' The Sac and Fox Nation holds firm that Secretarial approval 
was granted in the signing of the Federal Corporate Charter. We stand 
strong behind the foresight of the leaders of the Sac and Fox Nation 
that held close the vision of improving the quality of life for our 
people through the economic development provisions of the 1987 Federal 
Corporate Charter.
    The insight of the leaders of the Sac and Fox Nation subsequent to 
those essential to the 1987 Federal Corporate Charter ignited the 
initiative to further extend the resources of the Sac and Fox Nation to 
improve the well-being of its people by the passing of a Tribal 
resolution on May 13, 2008 petitioning the Secretary of the Interior to 
approve a second Federal Corporate Charter. Consultation with then 
Assistant Secretary of Indian Affairs, Carl Artman, at the 64th annual 
NCAI Convention and Trade Show held in Denver in November 2007 and in 
an audience granted during a trip to Muskogee, Oklahoma in the spring 
of 2008, led to the signing of a second Federal Corporate Charter on 
May 22, 2008. The significant intentions of the second Federal 
Corporate Charter were to advance the standard of living of the Nation, 
its citizens, other Indians, and other persons associated with the 
Nation, through the acquisition of new Indian land, the preservation 
and expansion of Indian land holdings, the development of natural 
resources, the better utilization of land, the development of credit 
programs for the acquisition, development, and improvement of lands and 
the reduction of fractionated heir ships. In addition the Nation could 
further explore economic and industrial development on Indian lands; 
promote economic self-sufficiency and political self-determination for 
Indian Tribes and members of Indian Tribes; encourage inter-Tribal, 
regional, and international trade and business development in order to 
assist in increasing productivity, improving the standard of living of 
citizens of Indian Tribes, and improving the economic self-sufficiency 
of the governing bodies of Indian Tribes.
    Although the Sac and Fox Nation has two Federal Corporate Charters 
approved and signed by two former Assistant Secretaries of Indian 
Affairs, opposition has arisen again. The 2008 Federal Corporate 
Charter signed by former Assistant Secretary Carl Artman waits to be 
scrutinized by the Solicitor's office of the Department of the Interior 
in advisement to the National Indian Gaming Commission. A letter 
received from the National Indian Gaming Commission dated February 17, 
2012, states that ``the Office of General Counsel will coordinate with 
the Department of the Interior, Office of the Solicitor on whether the 
Indian lands definition is permissible under IGRA and whether such 
lands are eligible for gaming under IGRA.'' While Interior review was 
neither solicited nor warranted, the historical resistance of the 
Office of the Secretary of the Interior is peaking over the shoulders 
of the National Indian Gaming Commission. The current Assistant 
Secretary of Indian Affairs, Larry Echo Hawk, has diverted questions 
regarding Interior's position with regard to our Federal Corporate 
Charters to standard bureaucratic statements such as ``I cannot answer 
at this time as it is under review by the Office of Solicitor.'' 
Attempts to seek an audience with Assistant Secretary Echo Hawk are 
weighed down with a discouraging screening process while the fate of 
the economy of the Sac and Fox Nation gets lost in redtape. Assistant 
Secretary Echo Hawk's written testimony to the Senate Committee on 
Indian Affairs on the President's 2013 budget request for Indian 
Programs in the Department of the the Interior states the Department of 
the Interior is seeking an increase for $43.8 million in funding for 
the Strengthening Tribal Nations initiative yet the Department of the 
Interior does not support the Sac and Fox Nation's Federal Charters 
which require no increase in Federal funding and directly address the 
Bureau of Indian Affairs initiatives.
    The Sac and Fox Nation is proud to say we are a Self-Governance 
Tribe. Thank you.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe

    On behalf of the Tribal Leadership and members of the Squaxin 
Island Tribe, I am honored to submit our funding priorities and 
recommendations for the fiscal year 2013 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS). The fiscal 
year 2013 President's proposed budget presents a renewed opportunity 
for the U.S. Government to live up to the promises made to American 
Indian/Alaska Native (AI/AN) Tribal governments. We want to thank this 
Subcommittee for their long standing support and urge your 
consideration of the following requests:
Tribal Specific Requests
    $1.2 million increase for Northwest Indian Treatment Center (NWITC) 
residential program in IHS
    $650,000 for law enforcement and public safety; four full-time 
police officers in BIA
Regional Requests and Recommendations
    The Squaxin Island Tribe is actively involved in the collective 
Northwest Tribal efforts and supports the requests and recommendations 
of: Northwest Portland Area Indian Health Board, Affiliated Tribes of 
Northwest Indians, and Northwest Indian Fisheries Commission.
Self-Governance and National Requests/Recommendations
            Bureau of Indian Affairs
    +$8.8 million to Fully Fund Contract Support Costs
    +$30 million Law Enforcement
    Fully Fund All Provisions of Tribal Law and Order At of 2010
    +$13.7 million to fully Fund Fixed Costs/Pay Costs
    +$89 million Tribal Priority Allocations (10 percent increase over 
fiscal year 2012 enacted)
    Increase funding to the Office of Self-Governance to fully staff 
the office for the increase of Tribes entering Self-Governance and do 
not consolidate this office within Indian Affairs
            Indian Health Service
    +$100 million to Fully Fund Contract Support Costs
    +$200 million for Contract Health Services
    +$40 million for Alcohol and Substance Abuse Programs
    +$304 million for Mandatory Costs to Fully Fund Current Services
    +Fully Fund the Implementation of the Indian Health Care 
Improvement Act
    +$5 million for the HIS Office of Tribal Self-Governance
Squaxin Island Tribe Background
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and is 
a signatory to the 1854 Medicine Creek Treaty. We were 1 of the first 
30 federally recognized Tribes to enter into a Compact of Self-
Governance with the United States. We establish our own priorities and 
budgets for funds previously administered by the Bureau of Indian 
Affairs and the Indian Health Service.
    Our treaty-designated reservation is approximately 2.2 square miles 
of uninhabited forested land. Because the Island lacks fresh water, the 
Tribe has built its community on roughly 26 acres at Kamilche, 
Washington purchased and placed into trust. The Tribe also owns 6 acres 
across Pickering Passage from Squaxin Island and a plot of 36 acres on 
Harstine Island, across Peale Passage. The total land area including 
off-reservation trust lands is 1,715.46 acres. In addition, the Tribe 
manages roughly 500 acres of Puget Sound tidelands.
    The Tribal government and our economic enterprises constitute the 
largest employer in the county with over 1,250 employees. The Tribe has 
a current enrollment of 1,017 and an on-reservation population of 426 
living in 141 homes. Squaxin has an estimated service area population 
of 2,747; a growth rate of about 10 percent, and an unemployment rate 
of about 30 percent (according to the BIA Labor Force Report).
Tribal Specific Requests Justifications
            $1.2 million increase for Northwest Indian Treatment Center 
                    (NWITC) residential program in IHS
    ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters to 
the Light''--NWITC has not received an adequate increase in its base 
Indian Health Service budget since the original congressional set-aside 
in 1993. An increase of $1.2 million would restore lost purchasing 
power and meet the need to add mental health and psychiatric components 
to the treatment program. This increase would allow NWITC to continue 
its effective treatment of Native Americans.
    The Squaxin Island Tribe operates the NWITC, which is located in 
Elma, Washington. NWITC is a residential chemical dependency treatment 
facility designed to serve American Indians from Tribes located in 
Oregon, Washington and Idaho who have chronic relapse patterns related 
to unresolved grief and trauma. NWITC is unique in its integration of 
Tribal cultural values into a therapeutic environment for co-occurring 
substance abuse and mental health disorders.
    NWITC has nearly 20 years of experience providing residential 
treatment with culturally competent models and is accredited by the 
Commission on Accreditation of Rehabilitation Facilities (CARF), an 
international accrediting organization for behavioral health programs. 
The NWITC is also certified by Washington State Division of Alcohol and 
Substance Abuse (DASA) Division of Behavioral Health and licensed by 
the Department of Health.
    In 2011, the NWITC served 212 patients from 28 Tribes and added 
intensive case management and crisis support to alumni in order to 
continue to promote positive outcomes for clients. This is a 10 percent 
increase over 2010 service levels. Our base allocation in 1994 was 
$850,161. In 2010 it was $994,877. If value equity to the 1994 baseline 
were maintained, the 2010 allocation would have been $1,250,895. 
Despite funding challenges, NWITC has continued to develop and deliver 
innovative, culturally appropriate services to meet increasingly 
complex demands.
    It is critical to increase the NWITC's annual base allocation from 
IHS in order to sustain the current services to the Tribes of the 
Northwest. We respectfully request the Subcommittee increase the annual 
base allocation for the NWITC by $1,200,000 additional dollars to 
guarantee that patients can be admitted based on need, not State 
funding streams, and that culturally infused, integrated and 
comprehensive treatment services and recovery support services will be 
maintained.
            $650,000 for law enforcement and public safety; four full-
                    time police officers
    The Squaxin Island Tribal Public Safety and Justice Department is 
dedicated to protecting lives, maintaining peace and ensuring that the 
property and resources of the Squaxin Island Tribe are protected. The 
Department includes a 12-member police force, Tribal court and 
emergency management center.
    For a number of years, the Tribe has requested an increase in 
baseline BIA funding to ensure that the public safety and justice needs 
of our community are fully met. In the intervening years, the Tribal 
community and the surrounding area has grown considerably, more than 
challenging our Public Safety and Justice Department's ability to 
ensure public safety and fulfill our responsibility as managers of our 
natural resources. The need for additional funding is greater now than 
ever before.
    We have enhanced the shellfish habitat and production programs 
which increased the demand on water enforcement to address issues of 
illegal harvesting. Growth in the region's commercial and recreational 
fin and shell fisheries present increasing threats and challenges to 
enforcement of our treaty rights and protection of our natural 
resources. It is vitally important to ensure that natural resources are 
protected.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Currently, the Tribe only has funding sufficient for two Public 
Safety and Justice officers to be assigned to natural resources 
protection, although patrols are needed to monitor clam digs, geoduck 
diving and fishing areas during the respective seasons, as well as 
patrol closed areas to prevent poaching or other encroachment. 
Frequently, hunting and fishing seasons overlap, dividing available 
human resources between land and water patrols, though the need for law 
enforcement presence in both habitats are critical to public safety and 
protection of our treaty rights and trust responsibility. Squaxin 
hunters depend on harvesting deer and elk from our hunting areas in the 
foothills of the Cascade Mountains, more than 115 miles southeast of 
the Reservation. Our usual and accustomed hunting lands are located 
near Randle and Packwood, Washington, a 2+ hour drive from the 
Reservation for both treaty hunters and law enforcement patrols.
    The Tribe has been successful in obtaining Department of Justice 
(DOJ) Community Oriented Policing Services (COPS) grant funding for new 
or enhanced programs. However, increased baseline funding is needed to 
meet the ongoing public safety, enforcement and justice needs of the 
Tribe. DOJ grant funds can only be used to enhance public safety, 
including domestic violence and crime prevention, not for basic 
operations.
    The Squaxin Island Tribe is seeking long and short term assistance. 
In the short term, the Tribe needs immediate funding for four full-time 
police officers to achieve full 24/7 water patrol coverage. In the long 
term, BIA funding for law enforcement and public safety programs needs 
to be significantly increased to meet the need for expanded protection 
of our natural resources, particularly water patrol. The budget for 
four officers, equipment, supplies and training is:

------------------------------------------------------------------------
                                  Amount
--------------------------------------------
Salaries....................        $230,170
Fringe......................         100,910
Space costs.................           3,600
Telephone & cellular........           4,000
Non-capital equipment.......           6,000
Travel and training.........           4,000
Supplies....................          12,000
Vehicle Maintenance.........          40,000
Insurance...................          10,000
                             -----------------
      Subtotal..............         410,688
Indirect Costs @ 44.14......         179,312
Equipment > $5,000/month....          60,000
                             -------------------------------------------
      Total.................         650,000
------------------------------------------------------------------------

    The Squaxin Island Tribe's Public Safety department would benefit 
greatly by increased short term funding as well as long term base 
funding needed to operate a full-fledged water patrol program to 
provide the 24-hour, 7 days week coverage needed to ensure that the 
community, property and resources are being protected effectively.
    The Squaxin Island Tribe envisions a culturally and economically 
strong community of self-governing, resilient people, united by shared 
values and traditions . . . by protecting life and maintaining the 
peace, protecting tribal property and resources, serving in a 
reasonable and prudent manner, and carrying out these responsibilities 
diligently, courteously, and with pride.
    We support all requests and recommendations of the National 
Congress of American Indians (NCAI) and the National Indian Health 
Board (NIHB).
    Thank you.
                                 ______
                                 
      Prepared Statement of the Santa Monica Mountains Conservancy

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the National Park 
Service included $2.441 million for the acquisition of land at Santa 
Monica Mountains National Recreation Area. I am pleased that this 
funding was included in the request and urge Congress to provide 
necessary funds for LWCF for this important project.
    Southern California is one of only five locations in the world that 
feature the Mediterranean biome (a geographically limited ecosystem). 
Characterized by mild, rainy winters and warm, dry summers, these 
ecoregions are moderated by the windward presence of cold ocean 
currents offshore. The landscapes in these areas are noted for the 
evergreen shrublands, called chaparral in California, which host very 
diverse, but spatially limited, ecosystems of flora and fauna. These 
Mediterranean biomes also present attractive climates for human 
habitation, leaving the ecosystems highly threatened by development. 
Protecting undeveloped lands in these fragile ecological areas has 
become especially urgent in the burgeoning Los Angeles metropolitan 
area.
    The Santa Monica Mountains National Recreation Area was established 
in 1978 to protect land in the mountains northwest of the Los Angeles 
basin. In creating this park, Congress noted the region's important 
scenic, recreational, and historic resources, as well as the public 
health benefits from protecting lands in the Santa Monica Mountains. In 
addition to National Park Service lands, a number of State-owned lands, 
including Point Mugu, Leo Carrillo, Malibu Creek, and Topanga State 
parks and several State beaches, are located within the boundaries of 
the national recreation area.
    Available for acquisition in fiscal year 2013 is the 6.16 acre 
Ramirez Canyon property, which lies in the Zuma/Trancas Canyons area of 
the park. The Zuma and Trancas Canyons have been inhabited for over 
10,000 years. Ancestors of the Chumash Indians gathered food and found 
shelter in the canyons, which were later included in a Spanish land 
grant of 13,330 acres and became Rancho Topanga Malibu Sequit. 
Eventually the Pacific Coast Highway crossed the land, making its 
beauty accessible to travelers. Most of this land is now under National 
Park Service ownership, protecting its multitude of natural and 
historic resources, but a number of inholdings remain unprotected.
    This tract is part of a larger property that benefits from the 
year-round flow of Ramirez Creek, providing important riparian habitat 
shaded by sycamore trees. The tract itself predominantly contains oak 
woodlands habitat, which was identified in the California State 
Wildlife Action Plan as an underprotected ecological community type. 
Oak woodlands within the park support an array of wildlife, including 
native wildflowers, acorn woodpeckers, spotted towhees, valley quail, 
pocket gophers, gray foxes, mule deer, and perhaps even an occasional 
mountain lion. This land has been designated environmentally sensitive 
habitat under the California Coastal Act.
    The property has important linkages with already protected lands, 
including an invaluable trailhead providing access from Kanan Dume Road 
to the National Park Service lands at Zuma/Trancas Canyons. The land 
has been subdivided into developable parcels, and a ready access road 
adds to the development potential of the property. This is a critical 
time for Santa Monica Mountains NRA to acquire the Ramirez Canyon 
property, as delay will only increase the likelihood of residential 
housing adding to habitat fragmentation and environmental degradation.
    The National Park Service at Santa Monica has identified a number 
of additional properties for future acquisition, and it is important 
for the Park Service to continue the acquisition and protection of 
these ecologically, recreationally, and archaeologically important 
scenic lands. The fiscal year 2013 President's budget recommendation of 
$2.441 million through the Land and Water Conservation Fund will permit 
the acquisition of Ramirez Canyon and other important lands in the 
Zuma/Trancas Canyons.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Santa 
Monica Mountains NRA. I want to thank the Chairman and the members of 
the subcommittee for this opportunity to submit testimony on behalf of 
this nationally important protection effort in California, and I 
appreciate your consideration of this funding request.
                                 ______
                                 
 Prepared Statement of the Office of the State Engineer, State of New 
                                 Mexico

    I am requesting your support for fiscal year 2013 appropriations to 
the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. The Upper Colorado and San Juan recovery 
programs are highly successful collaborative conservation partnerships 
involving the States of Colorado, New Mexico, Utah and Wyoming, Indian 
Tribes, Federal agencies and water, power and environmental interests. 
They are working to recover the four species of endemic Colorado River 
fish such that they can each be removed from the Federal endangered 
species list. Through these efforts, water use and development has 
continued in our growing western communities in full compliance with 
the Endangered Species Act (ESA), State water and wildlife law, and 
interstate compacts. Implementation of the ESA has been greatly 
streamlined for Federal agencies, tribes and water users. Recognizing 
the need for fiscal responsibility, I must also point out the 
participants would all be spending much more in ESA-related costs in 
the absence of these programs.
    The State of New Mexico requests action by the Subcommittee to:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element; within 
        the $81,709,000 item entitled ``Recovery'') for fiscal year 
        2013 to allow the U.S. Fish and Wildlife Service (FWS) Region 6 
        to continue its essential participation in the Upper Colorado 
        River Endangered Fish Recovery Program.
  --Appropriate $200,000 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element; within 
        the $81,709,000 item entitled ``Recovery'') to allow FWS Region 
        2 to continue its essential participation in the San Juan River 
        Basin Recovery Implementation Program during fiscal year 2013.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $43,189,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.
    On behalf of the State of New Mexico, I thank you for your 
consideration of my request and for the past support and assistance of 
your Subcommittee; it has greatly facilitated the ongoing and 
continuing success of these multi-state, multi-agency programs that are 
vital to the recovery of the endangered fish and providing necessary 
water supplies for the growing Intermountain West.
                                 ______
                                 
               Prepared Statement of the Sawtooth Society

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $500,000 for the Salmon-Selway 
Initiative in Idaho's Sawtooth National Recreation Area. I am pleased 
that this funding was included in the request and urge Congress to 
provide necessary funds for LWCF to finish this important project.
    Located in central Idaho, the Salmon-Selway Ecosystem, totaling 
almost 4 million acres, is one of the largest and wildest habitats in 
the continental United States. A rugged complex of mountains, rivers, 
and forests, it includes the Selway-Bitterroot and the Frank Church-
River of No Return wilderness areas, five national forests, numerous 
rivers, and the Sawtooth National Recreation Area. The area provides 
unique habitats critical for fish and wildlife including threatened and 
endangered species such as Chinook salmon, steelhead trout, bull trout, 
lynx, and gray wolves. Each year in late summer, salmon and steelhead 
trout return to the high reaches of the Salmon and Clearwater Rivers, 
traveling 900 miles and climbing 7,000 feet from the Pacific Ocean to 
the mountain tributaries of their birth--the highest salmon spawning 
grounds on Earth. An appropriation of $500,000 from the Land and Water 
Conservation Fund in fiscal year 2013 will complete the work that was 
initiated in fiscal year 2012 for the protection of the Rodeo Grounds 
Ranch. This project is one of the largest remaining inholdings in the 
Sawtooth National Recreation Area and helps to conserve the traditional 
landscape and scenic character of the region, protect wildlife habitat, 
water quality, and ensure public access for recreation.
    The 756,000 acre Sawtooth National Recreation Area (SNRA) comprises 
one of the largest and most magnificent national recreation areas in 
the United States. Four mountain ranges: the Sawtooths, Boulders, White 
Clouds, and Smokies provide scenic landscapes in every direction, with 
more than 50 major peaks over 10,000 feet, 300 lakes, and 250 miles of 
trails. There are more than 1,000 high mountain lakes and glacial tarns 
here, as well as the headwaters of four of Idaho's major rivers: the 
Salmon, South Fork of the Payette, the Boise, and the Big Wood.
    More than 300 species of wildlife inhabit the forests, valleys, and 
rocky peaks of the Sawtooth National Recreation Area including gray 
wolves, mountain goat, pronghorn antelope, mule deer, elk, coyote, red 
fox, and black bear. Birding enthusiasts can encounter a wide range of 
species from Clark's nutcracker, junco and chickadees to the more 
elusive sandhill crane and bald and golden eagles. Furthermore, the 
SNRA's abundance of lakes and rivers play an important role in the 
protection and re-establishment of salmon populations to Idaho's 
waterways.
    The Sawtooth NRA offers some of the finest and most renowned 
outdoor recreation in the world including fishing, white-water sports, 
hiking, backpacking, snowmobiling, mountain biking, and Nordic skiing. 
With 37 developed campgrounds, family camping attracts more 
recreationists to the Sawtooth National Recreation Area than any other 
single activity. The Sawtooth NRA is heaven for those looking for 
scenic drives with three National Scenic Byways--the Sawtooth, Salmon 
River, and Ponderosa Pine scenic byways--converging in Stanley, Idaho, 
the largest settlement in the Sawtooth NRA.
    With a proud ranching tradition stretching back for over a century, 
traditional land uses have long been interwoven with the public values 
here, and stewardship of these natural and recreational assets has been 
outstanding. To protect the historic uses and compatible public 
recreation values of this remarkable landscape, the Forest Service has 
utilized Land and Water Conservation Fund appropriations dating back to 
1972 to acquire conservation easements that protect some 17,000 acres 
of private land within the national recreation area.
    Available for acquisition at the Sawtooth NRA in fiscal year 2013 
is a conservation easement on the 157 acre Rodeo Grounds Ranch. Located 
just 5 miles from the historic town of Stanley, the property is a well-
known and prominent component of the viewshed along Idaho Route 21--the 
Ponderosa Pine Scenic Byway--that connects the Sawtooth NRA to Boise. 
With substantial frontage on Valley Creek, a major Salmon River 
tributary, the ranch provides habitat for all four fish species listed 
as threatened or endangered in the Sawtooth NRA: Chinook salmon, 
sockeye salmon, bull trout, and steelhead. The Forest Service has 
identified Valley Creek as one of the most important tributaries in the 
Upper Salmon River watershed for the recovery of the Chinook salmon, 
especially for rearing and spawning habitat. Protection of Rodeo 
Grounds Ranch will advance fisheries recovery efforts, protecting a 
total of 1.8 miles of Valley Creek and its tributaries and 
approximately 96 acres of related riparian areas.
    The conservation easement on Rodeo Grounds Ranch will allow for 
continued historic use and private ownership of the property, while 
conserving its natural values and recreational access by anglers to 
Valley Creek. This access would likely be lost if the property were to 
be developed, converted from existing use, or fragmented into smaller 
holdings. Moreover, incompatible development of this key Sawtooth 
gateway property would irreparably compromise a scenic landscape that 
draws hundreds of thousands of visitors each year. The easement will 
protect the historic ranch structures and the scenic landscape of the 
valley.
    In fiscal year 2013, an appropriation of $500,000 from the Land and 
Water Conservation Fund will augment funding provided in fiscal year 
2012 to allow the completion of this important conservation easement 
acquisition valued at $3 million. Protection of Rodeo Grounds Ranch, a 
highly visible property and longstanding priority for the Forest 
Service, will protect the fisheries and recreational resources of the 
ranch and help ensure the scenic integrity of the Sawtooth NRA.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Salmon-
Selway Initiative. I want to thank the Chairman and the members of the 
subcommittee for this opportunity to testify on behalf of this 
nationally important protection effort in Idaho, and I appreciate your 
consideration of this funding request.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation

    My name is Thomas ``Stoney'' Anketell, I am a member of the 
Executive Board of the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation. On behalf of the Fort Peck Tribes, I am pleased to present 
testimony on the fiscal year 2013 budget. We are a large, land-based 
tribe located in northeastern Montana. The Fort Peck Reservation 
encompasses 2 million acres. The Reservation Native American population 
is approaching 8,000 and our Tribal enrollment is over 12,000 members. 
Our greatest need is healthcare, infrastructure, economic development 
and public safety.
    The Tribes' unemployment rate on the reservation is 56 percent. Of 
our Tribal members who are working, 4 in 10 live below the poverty 
level. Given the enormous unemployment and poverty rates on the 
Reservation, our needs for the Bureau of Indian Affairs (BIA), Indian 
Health Service (IHS), and Environmental Protection Agency (EPA) 
programs and services are substantial.
    The United States has a continuing trust responsibility to assist 
Tribes address the basic governmental services such as safe drinking 
water, public safety and healthcare. More than 20 years ago, an earlier 
Congress noted that when there is community stability--with core 
governmental services being met--``Indian tribes are in the best 
position to implement economic development plans, taking into account 
the available natural resources, labor force, financial resources and 
markets.'' If the Federal Government could provide greater assistance 
to us with these core governmental services, our members would be much 
better off.
    Contrary to what some may think, the appropriation of funds for 
Tribal Governments is not a discretionary act by the United States, 
rather these appropriations represent the Federal Government's 
fulfillment of its mandatory obligation under the treaties and 
agreements entered into with Tribal governments. We kept our word. The 
United States must do the same.

                        BUREAU OF INDIAN AFFAIRS

    The Fort Peck Reservation Rural Water System.--The health status of 
a community is directly related to the quality of our available water. 
That is why the Fort Peck Tribes took the lead in building the Fort 
Peck Reservation Rural Water System project, a Project that will 
provide quality drinking water to the Reservation and surrounding 
communities. Congress enacted the Fort Peck Reservation Rural Water 
System Act of 2000, Public Law 106-382, to ensure a safe and adequate 
drinking water supply to all of the residents of the Fort Peck Indian 
Reservation. Under the law, the BIA has the statutory obligation to 
fund the operation and maintenance of this Project. We are very excited 
that the BIA has included $750,000 in programmatic funding for the 
operation of this important Project in its budget. However, the cost of 
operating this Project in fiscal year 2013 will be $1.866 million. 
Thus, the BIA will need an additional $1.11 million to meet its 
statutory obligation with regard to the operation of the Fort Peck 
Reservation Rural Water Project if Congress appropriates only what the 
BIA has requested.
    The Tribes and the Bureau of Reclamation have completed 
construction of many components of this $200 million project, including 
the raw water intake facility and the water treatment facility. The 
integrity of the Water Treatment facility is vital, as the EPA has 
determined that the well that now provide water to the City of Poplar, 
the seat of tribal government, home to the BIA and IHS agency and the 
location of the Poplar schools, is contaminated by a brine plume. 
Again, while the BIA budget includes $750,000 for the O&M of this 
important Project, more funding is needed. Specifically, an additional 
$1.11 million is needed to fully operate the Fort Peck Reservation 
Rural Water System in fiscal year 2013.
    Office of Indian Energy and Economic Development and Road 
Maintenance.--The Tribes are very supportive of the BIA's request for 
$8.5 million for energy development in Indian country. However, we are 
concerned that of this amount $2.5 million will be directed only at the 
Fort Berthold Reservation. We believe that these resources should be 
more equitably distributed among the tribes who are presented with the 
opportunities now being experienced at Fort Berthold.
    The Bakken formation, which is in play at Fort Berthold extends to 
the Fort Peck Reservation. An April 2008 USGS Report determined that 
there are 3 to 4.3 billion barrels of recoverable oil in the Bakken 
formation alone. This represents a once in a lifetime opportunity for 
our Tribal government--working in close collaboration with our Federal 
trustee--to use the bounty of our natural resources to create jobs and 
spur sustainable economic development to erase the persistently high 
rates of unemployment and poverty on our Reservation.
    However, our experience--like that at Fort Berthold a few years 
ago--is that the BIA Regional and Agency staff often do not have 
adequate technical expertise in the complex field of energy 
development, and they do not always appreciate that ``time is of the 
essence'' when it comes to energy development.
    Consequently, the Fort Peck Agency's long delays in processing 
mineral leases and other critical energy development paperwork often 
frustrate our energy development plans and serve only to push oil, gas 
and other types of energy and mineral development off the Reservation. 
In fact, BIA approval of oil and gas leases can take so long that 
Indian probates have been known to open and close before any BIA action 
is ever taken. We know from the experience at Fort Berthold that if the 
BIA makes an investment in the people at the agency level to ensure 
that they have the knowledge and capacity to work in the field of 
energy development great things can happen. We believe the same 
opportunities exist on the Fort Peck Reservation and the BIA needs to 
make the same commitment that it made to the Fort Berthold Tribes to 
the Fort Peck Tribes.
    Another disincentive to drilling on Indian lands is the $6,500 that 
the BLM charges for a permit application to drill on Federal land, 
including Indian and tribal trust lands. In fiscal year 2010, the 
Appropriations Committee increased this fee from $4,000 to $6,500. In 
theory, this fee is intended to cover the BLM's cost of processing the 
drilling permit application. However, the funds collected on Indian 
lands are not dedicated to processing permits on Indian lands. 
Moreover, the fee is highly disproportionate to the $75 that the State 
of Montana charges to process the same kind of permit on State fee 
land. This is creates a disincentive for developers to consider Indian 
and tribal lands. We would ask that Indian lands be exempt from the BLM 
fee.
    Closely related to economic development is the adequacy and safety 
of our public roads. We have seen the increased fatalities at Fort 
Berthold resulting from the explosion of truck traffic on the 
reservation resulting from oil drilling. Paved roads have deteriorated 
rapidly from the increased traffic, often by overweight vehicles. 
Please reverse the harmful trend of the last 30 years, and increase 
funding for the BIA Road Maintenance Program by $10 million, so that 
tribes can provide routine and emergency road maintenance services to 
ensure the safety of our existing roads. Years of budget cuts have 
undermined our ability to maintain our transportation infrastructure to 
an adequate design standard. This is a public safety issue.
    Funding for Public Safety and Detention.--The need for increased 
law enforcement and Tribal Courts remains a priority for the Fort Peck 
Tribes. We greatly appreciate the increases Congress has recently 
provided for public safety programs. These increases, however, are 
insufficient to fulfill the United States' basic trust responsibility 
in the areas of health and safety. Our Reservation needs more officers 
and the resources they require to patrol a large land base. This must 
be matched with additional resources for Tribal Courts and detention 
facilities.
    I want to particularly support the $6.5 million requested to fund 
the operations of the newly constructed detention facilities. The Fort 
Peck Tribes received a grant from the Department of Justice to rebuild 
our detention facilities. We have entered into a contract with the BIA 
for the operation of this newly expanded facility and are excited. We 
will be operational in fiscal year 2013. This new facility will allow 
us to better house and care for our prisoners close to their families 
and the community support that they need to become productive members 
of our society again. Please ensure that the BIA and OFMC have the 
resources needed to maintain these facilities after they are built. We 
lack infrastructure. When built, these facilities must be properly 
maintained or they will deteriorate far sooner under our harsh Montana 
winters.

                         INDIAN HEALTH SERVICE

    Indian country continues to suffer higher rates of infant 
mortality, suicide, accident, alcoholism, diabetes, and heart disease 
when compared with other minorities and the general American 
population. Yet money directed to healthcare, especially preventative 
care--such as routine checkups and health education that clearly 
improves the quality of life and helps avoid more expensive health care 
costs in the future--has not been provided to Tribal communities. The 
Federal Government has a trust responsibility to provide healthcare to 
Native Americans, an obligation that was paid for by the Native people 
of this county with millions of acres of land, resources, and the 
sacrifice of our traditional way of life.
    Fort Peck Dialysis Center.--There is a desperate need on our 
Reservation for a fully staffed and equipped health facility capable of 
providing a full range of medical services to our members. The IHS 
needs to evaluate and plan the process for new facilities in Montana, 
including the urgent expansion of the Fort Peck Tribal Dialysis Unit to 
18 stations (from 10) or construction of a new dialysis unit. We are 
now at capacity, serving 33 patients 6 days a week. We have additional 
73-100 pre-renal patients. If we cannot expand our services, these 
patients will have to travel great distances for this life-sustaining 
care. The Indian Health Care Improvement Act now allows the Indian 
Health Service to dedicate resources to dialysis, which is an important 
aspect of healthcare in Indian communities. We request that the 
Subcommittee direct the Indian Health Service to report to Congress on 
its efforts to address the need for dialysis treatment in Indian 
country, especially rural areas such as the Rocky Mountain Region.
    Contract Health.--We recognize the significance of the requested 
$20 million increase in Contract Health Care but this increase is 
inadequate to address the growing healthcare crisis in Indian country. 
The Fort Peck Tribes alone need a near doubling of our inadequate 
Contract Health Care budget--to $11 million--to meet the growing health 
demands of our more than 12,000 tribal members. Far too many members 
are not referred out for Contract Health Care Services which their 
primary health care providers determine are medically necessary because 
we only have CHS dollars to treat life threatening illnesses and 
injuries.
    Currently, the IHS does not refer individuals for necessary medical 
care, even when they have medical insurance, because the IHS does not 
want to pay the minimal co-pays or deductible for these services. As a 
result, our members do not get the care they need until it reaches the 
critical ``life or limb'' stage at which point the IHS would still only 
have to pay the minimal co-pay or deductible. It would seem that it 
would be far better public policy to pay the co-pay or the deductible 
for preventive care rather than let medical conditions worsen until a 
person's health deteriorates to a life-threatening life or limb crisis. 
Yet, the IHS will not reconsider its interpretation of the payor-of-
last resort policy to allow for these sound health policy decisions to 
be made and implemented within available health care funds.
    At a minimum, the Congress should request that a study be conducted 
to examine how CHS funds are expended and to make recommendations that 
will help save lives.

                     ENVIRONMENTA PROTECTION AGENCY

    Finally, I want to express the Tribes' strong support for the 
increased funding for Tribal environmental programs. Specifically, I 
urge the Subcommittee to support the $96.3 million for the Tribal 
General Assistance Program (Tribal GAP program). The Fort Peck Tribes 
were one of the first Tribes in the country to obtain Treatment as a 
State Status under the Clean Water Act and one of the first to obtain 
Class I air designation for our Reservation. For the Fort Peck Tribes, 
protecting the land and resources that our ancestors fought so hard to 
preserve for us is our paramount mission. We work closely with our 
Federal and State partners to accomplish this goal and appreciate the 
continuing support of Congress for these efforts. The Tribal GAP 
program is critical to maintaining tribal capacity in these areas.
    Thank you for providing me the opportunity to present the views of 
the Fort Peck Tribes.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State

    I am Joseph Pavel, Vice Chairman of the Skokomish Tribe of 
Washington State. I would like to thank the Subcommittee for the 
opportunity to present testimony on the fiscal year 2013 Interior and 
Related Agencies budget.
    Like all governments, the Skokomish Indian Tribe handles a number 
of everyday operational responsibilities as well as continuing the 
necessity of long-term planning activities. Daily the Tribe continues 
to strengthen the institutional and executive capacity to effectively 
manage the expansion of new programs. The Skokomish Indian Reservation 
is a rural community located at the base of the Olympic Peninsula with 
a population of over 1,000 people. The 5,300 acre Reservation is a 
fraction of the 2.2 million acre of the Tribe's Treaty area. The 
Skokomish Tribe operates several departments including Administration, 
Community Development, Information Services, Early Childhood Education 
(includes the Skokomish Head Start program), Education, Health Clinic, 
Housing, Legal, Natural Resources, Public Safety, Public Works, and 
Tuwaduq Family Services. These departments provide a broad range of 
governmental services to our citizens.

                   BUREAU OF INDIAN AFFAIRS PROGRAMS

    Law Enforcement.--The Skokomish Tribe respectfully requests 
increased funding for our law enforcement programs within the Bureau of 
Indian Affairs.
    The Tribal Council created the Skokomish Department of Public 
Safety in 1995. The department has grown from one untrained officer, to 
six Washington State certified/Washington State equivalency trained or 
BIA certified law enforcement officers. The SPSD provides land and 
water patrol, and emergency services 24/7 in Hood Canal Basin. It 
enforces tribal ordinances, treaty rights, court orders, and State/
Federal statutes. Our officers provide day-to-day law enforcement 
services on the Reservation. They are also responsible for patrolling 
the 2.2 million acres that make up our treaty protected fishing and 
hunting areas. SPSD not only services the Reservation but also roughly 
10,000 neighboring county residents and 15,000 annual tourists.
    Skokomish dispatch is cross linked with Mason County Dispatch. With 
only one scheduled per shift, Public Safety Officers patrol alone and 
respond alone to both misdemeanor and felony calls. Officers are placed 
in danger because back up from other agencies could be delayed in 
responding, if they are available at all. For natural disasters, SPSD 
officers are recognized as 1st Responders for the area. To be fully 
staffed at a baseline minimum for the area and scope of service that 
the Skokomish Department of Public Safety is tasked with, we need a 
total of 18 officers. Thus, we are almost 80 percent below what is 
needed to safely serve our community. Currently, the Tribe contributes 
approximately $200,000 per year to cover the BIA shortfall in funding 
for the Tribe's Public Safety Department. This funding comes from fuel 
taxes levied by the Tribe. In an effort to efficiently use our limited 
resources, the Tribe entered into a memorandum of understanding with 
the Mason County Sheriff's Office to use a provisional officer on an 
as-needed basis. This occurs when one of the four patrol officers is on 
leave or training.
    The Tribe constantly looks for ways to efficiently use the funding 
available while improving services. Recently, the Tribe worked with the 
BIA Office of Justice Services (OJS), to receive technical assistance. 
The technical assistance came in the form of a monitoring process 
designed to evaluate the compliance of policy, standards, and 
professional practices of the Tribe's law enforcement program. The BIA 
evaluator used a Program Monitoring Instrument (PMI) which consists of 
standards that will be reviewed and evaluated to determine if the 
program is in compliance with each specific standard. The department 
has already used the initial recommendations to begin improving in 
areas of training, re-writing the standard operating procedures; and 
instituting community policing strategies. In the end, the Tribe will 
be able to document that we meet and/or exceed the standards of the BIA 
for public safety agencies.
    We strongly support the $500,000 request for Conservation Officers. 
These law enforcement professionals serve a vital role in ensuring that 
our fishermen are able to properly exercise their rights to the treaty-
protected resources. The Tribe has to cover and manage a large area in 
fisheries related activities. Over the past few years we have 
experienced increased tension between treaty fishermen and non-Indian 
fishermen. While these conflicts have not escalated into serious 
physical harm, we fear without proper law enforcement presences that it 
will.
    Tribal Courts.--Having a fair and qualified judiciary is the 
bedrock of any government's justice system. Skokomish has long 
understood this. In 1963, the Skokomish Tribe was the first Tribe in 
the Northwest (and one of the first in the country) to institute a 
tribal court.
    Today, Tribal Courts handle huge criminal, civil and juvenile 
dockets, which could not be handled by the already over burdened State 
and Federal courts. At the close of 2011, Skokomish had 362 open cases 
compared to 447 open cases at the end of fiscal year 2010. These cases 
range from criminal cases to child welfare cases. With the use of the 
one-time funding award from the BIA in fiscal year 2011, we hired a 
Probation Officer. The Probation Officer has helped satisfy and close 
83 cases and continually meets with probationers. This Probation Office 
has resulted in a great deal of success in clearing criminal cases and 
providing support for our tribal members to exit the criminal justice 
system. We fully utilized this funding until it was exhausted. Although 
we have many needs with our limited resources, the Council approved the 
use of Tribal funds for the continuation of the probation program. We 
believe it is beneficial to the members of the Tribe to have a 
probation program.
    Thus, we urge Congress to support Tribal Courts and provide at 
least the $1.1 million that the administration has requested and 
encourage the BIA to fund and support Tribal probation officers for 
Tribal Courts.

                         INDIAN HEALTH SERVICE

    The Skokomish Tribe strongly supports the $4.422 billion budget 
request, an increase of $115.9 million over the fiscal year 2012 
enacted level. We have a Tribally operated Ambulatory Health Center 
located in a geographically challenged area and continue to face 
financial barriers that are not unique to the Skokomish Tribe, but 
unfortunately plague Indian Country as a whole. Our Contract Health 
(CHS) Funds continue to be taxed and we appreciate the proposed 
programmatic increase to CHS of $20 million. We continually ask for CHS 
increases and we do know this need will always be in existence and 
especially with the rising cost of healthcare and the increased serious 
health issues our patients are experiencing such as cancer, diabetes, 
and heart disease. One proposal to address these costs is the NW 
Portland Area Indian Health Board's efforts to develop three regional 
health facilities in the Portland Area to send our Tribal members to 
for specialty health services not provided in our tribal clinics. This 
would reduce the CHS expenditures currently spent at local specialty 
providers.
    Another way to reduce the burden on CHS is to focus on prevention 
and find innovative ways to make our community healthier. By investing 
in our member's health up front and focusing on prevention up front, we 
hope to offset the rising CHS costs. In this regard, we support adding 
additional funding for the Health Protection and Disease Prevention 
Program. One of the Skokomish Health Center's long term goals is to 
build a culturally sensitive wellness center to focus on prevention, 
medical and holistic healing programs.
    Due to recent cuts in State Medicaid funding, we have experienced a 
growing strain on our substance abuse treatment resources. We urge 
additional funding to be available for treatment. In this regard, we 
currently do not have a recovery after care facility for our clients 
when they finish treatment. If a client lacks the resources and family 
support, they are left to return to their previous addiction 
environments, which is likely to reduce their chance of success at 
recovery.
    Finally, related to mental health, we have identified a need for a 
youth mental health facility. While there are youth substance abuse 
treatment facilities, there are no facilities available to treat mental 
health issues for youth, who do not have any substance abuse issues. 
This recently hit home as we had a young teenage girl who had no 
substance abuse issues but was in need of in-patient mental health 
services. After exhausting all avenues to find a Tribal/IHS mental 
health facility to place this young lady in we were unable to locate 
one. The child is on the east coast and will remain in a non-Tribal/IHS 
institution for lack of a facility available to bring her closer to 
home with her extended family on the Skokomish Reservation. This young 
lady has attempted suicide on several occasions at the facility where 
she is currently located. We urge Congress to direct the IHS to report 
on its effort to develop a youth behavioral health facility to meet the 
growing mental health needs of our Native youth.

                 TRIBAL HISTORIC PRESERVATION PROGRAMS

    In 1995, Congress began encouraging tribes to assume historic 
preservation responsibilities as part of self-determination. These 
programs conserve fragile places, objects and traditions crucial to 
tribal culture, history and sovereignty. As was envisioned by Congress, 
more tribes qualify for funding every year. Paradoxically, the more 
successful the program becomes, the less each tribe receives to 
maintain professional services, ultimately crippling the programs. In 
fiscal year 2001, there were 27 THPOs with an average award of 
$154,000. Currently there are 132 tribes operating the program, each 
receiving less $51,000. We join the National Congress of American 
Indians and the National Organization of Tribal Historic Preservation 
Officers in supporting the requested $15 million increase in funding 
for this program.

                    ENVIRONMENTAL PROTECTION AGENCY

    The Skokomish Tribe urges the Subcommittee to maintain funding for 
key environmental programs, in particular, funding for Puget Sound 
restoration efforts. This funding is critical to the collaborative 
efforts to restore the health of the Puget Sound, and in particular the 
Hood Canal--the Jewel of the Puget Sound. The program is vital to the 
Tribe's efforts to manage and protect our treaty protected resources in 
the Hood Canal.

                               CONCLUSION

    The Tribe thanks the Subcommittee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
              Prepared Statement of Sustainable Northwest

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to provide testimony before the Subcommittee on Interior, 
Environment, and Related Agencies on the Subcommittee's fiscal year 
2013 funding priorities. On behalf of Sustainable Northwest, I would 
like to take this opportunity to highlight programs, funds and tools 
that are important to the people and communities of the rural West and 
that we believe should receive full Congressional funding in fiscal 
year 2013.
    My name is Martin Goebel and I am the President of Sustainable 
Northwest. We are a nonprofit organization that promotes collaborative, 
community-based solutions to natural resource management issues. We 
work in rural communities throughout the West, bringing together 
multiple, often opposing, stakeholders to create and promote solutions 
through a collaborative process.
    Today, I am going to address two agency budgets--the USDA Forest 
Service (Forest Service) budget and the DOI Fish and Wildlife Service 
(FWS) budget.
      sustainable northwest's recommendations for fiscal year 2013
    Fully fund the Collaborative Forest Landscape Restoration Program 
at $40 million.
    Enact and fully fund the national Forest Service Integrated 
Resource Restoration line item at $793 million.
    Create permanent authority for the use of stewardship end-result 
contracting to restore our national forests and provide local jobs.
    Invest in programs that support the capacity of community-based 
partners who work directly with the land management agencies, including 
Forest Service, FWS, and Bureau of Land Management.
    Fully fund the Community Wood to Energy Program at $4.25 million 
and the Woody Biomass Utilization Grant Program at $5 million.
    Fully fund the FWS Partners for Fish and Wildlife Program at $55 
million.
    Allocate $1.6 million from the FWS Fisheries and Aquatic Resource 
Conservation activity area to conservation and planning within the 
Klamath Basin.
              usda forest service fiscal year 2013 budget
Collaborative Forest Landscape Restoration Program
    The bipartisan Collaborative Forest Landscape Restoration Program 
(CFLRP) was established in 2009 to encourage the collaborative, 
science-based restoration of priority landscapes. The purposes of this 
program are to: (1) create job stability, (2) achieve a reliable wood 
supply, (3) restore forest health, and (4) reduce costs of wildfire 
suppression in overgrown forests. CFLRP received $10 million in fiscal 
year 2010, $25 million in fiscal year 2011, and $40 million in fiscal 
year 2012. The President's fiscal year 2013 budget proposal recommends 
maintaining funding at $40 million, and Sustainable Northwest 
respectfully encourages the Subcommittee to allocate full funding.
    CFLRP has already proven itself to be a highly successful and 
accessible program. Interest in this program is very high, with 
increasing numbers of applicant sites each year. Further, CFLRP 
produces tangible, documented results. In the first year alone, CFLRP 
projects generated and maintained 1,550 jobs; produced 107 million 
board feet of timber; generated $59 million of labor income; removed 
fuel for destructive mega-fires on 90,000 acres near communities; 
reduced mega-fire on an additional 64,000 acres; improved 60,000 acres 
of wildlife habitat; restored 28 miles of fish habitat; and enhanced 
clean water supplies by remediating 163 miles of eroding roads. Since 
then, the program has expanded to include 10 new projects, for a total 
of 20 projects across 13 States, across 7 Forest Service regions \1\. 
These projects represent an incredible opportunity for advancing 
public-private approaches to landscape and watershed restoration.
---------------------------------------------------------------------------
    \1\ People Restoring American's Forests: A Report on the 
Collaborative Forest Landscape Restoration Program, November 2011. 
Available at http://www.fs.fed.us/restoration/CFLR/index.shtml.
---------------------------------------------------------------------------
Integrated Resource Restoration Budget Line Item
    Sustainable Northwest strongly supports the national Integrated 
Resource Restoration (IRR) budget line item (BLI) included within 
Administration's fiscal year 2013 budget recommendations. IRR takes a 
broad, multifaceted funding approach to restoration of our national 
forests. The goal of the IRR line item is to increase funding 
efficiency by combining funding for forest management activities 
previously funded under Wildlife & Fisheries Habitat Management; Forest 
Products; Vegetation & Watershed Management; Legacy Roads and Trails, 
and Roads; Hazardous Fuels Non-Wildland Urban Interface; and 
Rehabilitation and Restoration budget line items.
    This BLI was included in the Forest Service's budget as a pilot 
program in fiscal year 2012. It was limited to Forest Service Regions 
1, 3 and 4. The President's budget recommends expanding the IRR to a 
national program covering all Forest Service Regions in fiscal year 
2013 and fully funding it at $793 million. We support this expansion 
because we believe IRR is an important tool in building a forest 
restoration economy that will create new jobs in rural communities. It 
will better integrate funding and authorities related to forest 
restoration and water quality, while reducing administrative costs. 
This is a forward-thinking approach to budgeting within the Forest 
Service, and we urge you to support this approach by fully funding IRR 
at $793 million in fiscal year 2013.
Permanent Stewardship End-Result Contracting Authority
    Stewardship end-result contracting is one of the best tools 
available for funding stewardship and restoration on our national 
forestlands. It increases the ability of districts and field offices to 
carry out high quality restoration projects by lowering project 
administration costs. It helps achieve land management goals and 
improve the collaborative atmosphere on our national forests. With its 
best value contracting authority, stewardship contracting helps improve 
the quality of work on the ground and increases economic opportunities 
and jobs in communities located near public lands.
    Between fiscal year 1999 and fiscal year 2010, the Forest Service 
awarded 874 contract and agreements for restoration treatments on over 
558,020 acres nationwide. Current legislation authorizes the Forest 
Service and Bureau of Land Management to enter into stewardship end 
result contracts until September 30, 2013. The President's fiscal year 
2013 budget assumes that the Agencies are able to secure permanent 
stewardship contracting authority. We believe stewardship end-result 
contracting is a necessary and important tool to the help our forests 
and our rural communities achieve ecological and economic outcomes. We 
strongly support permanent authorization.
Strengthening Community Capacity for Collaboration and Land Stewardship
    Community capacity is the collective ability and resources rural 
communities have to solve diverse challenges and meet the multiple 
needs of their communities by drawing on human, social, cultural and 
physical capital. By investing in building the collaborative and 
stewardship capacity of rural communities, the Federal Government can 
support collaborative and common ground solutions to improve the 
delivery and effectiveness of Federal budgets; promote small business 
development and job creation; foster ``bottom up'' natural resource 
decisions that include the input of local citizens and governments; and 
save and leverage money by working through local organizations. 
Programs and initiatives of the Forest Service like CFLRP, stewardship 
contracting, the new planning rule and the watershed condition 
framework all rely on effective partnerships between the Federal 
Government and community based locally led organizations. These 
investments are critical.
    One example of the impact of capacity funds can be seen through the 
work of the Blue Mountain Forest Partners (BMFP), a collaborative 
organization on the Malheur National Forest. With public and private 
grant funds, BMFP is increasing its institutional capacity to become a 
self-governed entity and to serve as a catalyst for forest restoration 
and job creation in Grant County, Oregon. The BMFP has increased 
project size, decreased the amount of time required to reach agreement, 
avoided litigation and appeals over the last 5 years, and have been 
selected to participate in the CFLRP program through a project on the 
Malheur National Forest. For small and emerging organizations such as 
BMFP, capacity programs offer the opportunity to increase skills and 
sophistication necessary to create and maintain capacity for 
collaborative decisionmaking and responsible land stewardship.
Community Wood to Energy Program and Woody Biomass Utilization Grant 
        Program
    The use of woody biomass to generate thermal energy provides a 
tremendous opportunity to reduce our dependency on petroleum, reduce 
carbon emissions by displacing combustion of fossil fuels, support 
ecologically based forest restoration, and promote a distributed energy 
economy which includes rural communities as part of the solution. 
Forest Service programs such as the Community Wood to Energy Program 
(CWEP) and Woody Biomass Utilization Grant Program (WBUG) provide 
support for development of woody biomass facilities and markets. If 
funded at the President's fiscal year 2013 request of $4.24 million, 
CWEP will provide grant funds to State, Tribal, and local governments 
to develop community wood energy plans; acquire community wood energy 
systems; and secure technical assistance for public facilities that use 
woody biomass as the primary fuel. WBUG encourages woody biomass 
removal through restoration activities and use of woody biomass in 
facilities with commercially proven technologies. Sustainable Northwest 
supports the President's request for full funding for CWEP at $4.25 
million and WBUG at $5 million.
         doi fish and wildlife service fiscal year 2013 budget
Partners for Fish and Wildlife Program
    The Partners for Fish and Wildlife Program (PFW) is one of the 
FWS's critical conservation tools for voluntary, citizen and community-
based fish and wildlife habitat restoration activities on privately 
owned land. PFW serves as a bridge to landowners to develop individual 
partnerships and habitat restoration projects for the benefit of fish 
and wildlife species. In many instances, restoration projects can help 
decrease risks and burdens associated with regulatory activity, as well 
as increase the underlying value of these properties. The approach is 
simple: engage willing partners and landowners, using direct financial 
and technical assistance, to conserve and protect fish and wildlife 
values on their property. Working with over 44,000 private landowners 
from 1987-2010, PFW has successfully restored and enhanced 1,026,000 
acres of wetlands; 3,235,000 acres of uplands; 9,200 miles of stream 
habitat; and worked with more than 3,000 partnering organizations. 
Sustainable Northwest supports the Administration's recommendation of 
$55 million for PFW in fiscal year 2013.
Funding for Conservation in the Klamath Basin
    The Administration's fiscal year 2013 budget recommendation for the 
Fisheries and Aquatic Resource Conservation activity area within the 
FWS includes $1.6 million for conservation, planning and restoration 
within the Klamath Basin. This funding is essential, as demand on FWS 
in the Klamath is expected to increase dramatically in 2013 and 2014, a 
direct result of ongoing demand on limited water supplies and potential 
efforts to implement the plans outlined in the Klamath Basin 
Restoration Agreement. Klamath Basin funding is needed to restore high-
priority stream habitats and recover listed and native fish species in 
the Klamath system and work cooperatively with stakeholders on natural 
resource management issues. Restoration of the Klamath Basin fisheries 
and habitat is a high priority for Sustainable Northwest, and we ask 
that you ensure support for this important work.
    Thank you very much for this opportunity to testify.
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference

    My name is Jerry Isaac and I am the President of the Tanana Chiefs 
Conference. TCC is a nonprofit inter-tribal consortium of 39 federally 
recognized Tribes located in the Interior of Alaska. TCC is a Co-Signer 
of the Alaska Tribal Health Compact under Title V of the Indian Self 
Determination and Education Assistance Act, Public Law 93-638. TCC 
serves approximately 13,000 Native American people in Fairbanks and our 
rural villages. Our traditional territory and current services area 
occupy a mostly roadless area almost the size of Texas, stretching from 
Fairbanks clear up to the Brooks Range, and over to the Canadian 
border.
    I will be testifying on two matters. First, I will provide an 
overview of the Joint Venture Construction Program and specifically 
address TCC's staffing needs. Second, I will explain the impact 
suffered by TCC and others from the contract support cost shortfall and 
how that shortfall will have the most impact for those entities 
starting to operate replacement or joint venture facilities in fiscal 
year 2013.
    TCC needs the full staffing package amount in fiscal year 2013, as 
agreed to in our Joint Venture Agreement.
    The Joint Venture Construction Program is authorized in Section 
818(e) of the Indian Health Care Improvement Act, Public Law 94-437. 
The authorization directed the Secretary of HHS to make arrangements 
with Indian tribes to establish joint venture projects. The program is 
executed through a JVCP agreement--a contract--in which a tribal entity 
borrows non-IHS funds for the construction of a tribally owned 
healthcare facility, and, in exchange, the IHS promises to lease the 
facility, to equip the facility and to staff the facility.
    In the Conference Report which accompanied the Department of the 
Interior, Environment, and Related Agencies Appropriation Act, 2010, 
the conferees explained the importance of the Joint Venture program. 
That program is a unique way of addressing the persistent backlog in 
IHS health facilities construction projects serving American Indians 
and Alaska Natives. The conferees reported, ``The conferees believe 
that the joint venture program provides a cost-effective means to 
address this backlog and to increase access to healthcare services for 
American Indians and Alaska Natives. The conferees are aware that IHS 
is currently reviewing competitive applications from Tribes and Tribal 
organizations to participate in the 2010 joint venture program and 
encourage the Service to move forward with the process in an 
expeditious manner.''
    IHS has followed the direction of Congress and/or the conference 
report. In 2010 IHS signed a legally binding Joint Venture Construction 
Agreement with TCC. In the agreement IHS agreed to ``request funding 
from Congress for fiscal year on the same basis as IHS requests funding 
for any other facilities.'' Given that IHS has requested full-funding 
for some projects and less than full for others, it appears that IHS 
has not requested funding on the same basis across all facilities.
    TCC is concerned to say the least, at the proposed funding for our 
Joint Venture project. IHS requested less than 27 percent of the 
staffing package for TCC (or around $8 million) even though our 
facility will be open for the entire fiscal year. Alaska is a unique 
place in which the additional costs for recruitment, training and 
program creation are far higher than in the Lower 48. TCC will need the 
full $30 million staffing package to be successful this opening year.
    TCC has done everything in our power to see a successful opening in 
fiscal year 2013. TCC has remained in close contact with IHS throughout 
the construction of our projects. We are on budget and ahead of 
schedule. Both Secretary Sebelius and Dr. Roubideaux were able to visit 
with TCC last fall. Since that visit, the date of completion for the 
clinic has moved up. IHS's funding requests were based on last year's 
projected opening dates. But TCC's current beneficial occupancy date 
for our JV clinic is September 2012. TCC's clinic will open much 
earlier than what is reported in the IHS Budget Justification.
    TCC has never before owned its own primary care medical facility. 
This is because the majority of our current clinic space is leased from 
Banner Health at Fairbanks Memorial Hospital (FMH). Additionally, in 
the past TCC has purchased lab, radiology, housekeeping, laundry, 
groundskeeping and maintenance services from FMH. These are services 
that TCC will begin self performing in less than 5 months when we move 
into the new clinic. Already we have started the planning process for 
the transition and recruitment of the staff we will need.
    Staff within IHS have written that our Joint Venture partnership 
could be characterized as a model for what can be achieved between 
Tribal Health Organizations and IHS to improve access to healthcare for 
American Indian and Alaska Native people. TCC is well on our way to 
upholding our end of the Joint Venture agreements. We need IHS, and 
Congress, to hold up the Government's side of the bargain.
    TCC will be fully operational for all of fiscal year 2013. Our 
staffing packages should be provided in the full amounts proportionate 
to our operations. Any reduction from the full staffing amount will 
only result in decreasing our ability to provide services to our 
beneficiaries. Worse yet, it could endanger our ability to service the 
debt we have incurred in constructing the new clinic.
    The contract support cost request by IHS will worsen the national 
CSC shortfall and require further program cuts for Self-Determined 
Tribes, and the burden will fall especially hard on those Tribes which 
will operate new facilities in fiscal year 2013.
    Related to the Joint Venture Construction Program is our concern 
with IHS's requested funding for contract support costs. These costs 
are owed to Tribes and tribal organizations like TCC performing 
contracts on behalf of the United States pursuant to the Indian Self-
Determination Act. ``Contract support costs'' are the fixed costs which 
we incur and must spend to operate IHS's programs and clinics.
    The Indian Self Determination Act depends upon a contracting 
mechanism to carry out its goal of transferring essential governmental 
functions from Federal agency administration to tribal government 
administration. To carry out that goal and meet contract requirements, 
the Act requires that IHS fully reimburse every tribal contractor for 
the ``contract support costs'' that are necessary to carry out the 
contracted Federal activities. (Cost-reimbursable government contracts 
similarly require reimbursement of ``general and administrative'' 
costs.) Full payment of fixed contract support costs is essential: 
without it, offsetting program reductions must be made, vacancies 
cannot be filled, and services are reduced, all to make up for the 
shortfall. In short, a contract support cost shortfall is equivalent to 
a program cut.
    Funding contract support costs in full permits the restoration of 
Indian country jobs that are cut when shortfalls occur. The fiscal year 
2010 reduction in the contract support cost shortfall produced a 
stunning increase in Indian country jobs. Third-party revenues 
generated from these new positions will eventually more than double the 
number of restored positions, and thereby double the amount of 
healthcare tribal organizations like our's will provide in our 
communities.
    The problem is that for 2013, IHS has requested only a $5 million 
increase. Yet, the current shortfall is already $50 to $60 million, and 
with several new clinics becoming operational, the fiscal year 2013 
shortfall will likely grow to over $90 million. Against that contract 
requirement, a $5 million increase is obviously inadequate.
    When contract support costs are not paid, we have no choice but to 
take the shortfall in funding out of the programs themselves. Because 
TCC will be creating and expanding programs to operate our JV project, 
our reliance on CSC will also expand. This is also true for Tribes 
initiating other new Federal programs as the initial building of a 
program is heavily reliant on contract support.
    A continued increase in shortfalls for contract support costs, in 
addition to the limited funding requested for TCC will end up punishing 
a majority of the Native beneficiaries in Alaska. The Government has a 
legal duty and trust responsibility to provide for the full staffing 
packages and the full contract support costs it has, by contract, 
agreed to pay. We are not asking for a favor; we are only expecting 
that the government will hold up its end of the bargain.
    Members of the subcommittee, thank you for the honor of presenting 
testimony today.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group

    Mr. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 499 not-for-profit member theatres across the country 
and the 31 million audience members that the theatre community serves. 
We urge you to support funding at $155 million for the National 
Endowment for the Arts for fiscal year 2013.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs and attracts tourism dollars. The not-for-profit 
arts generate $166.2 billion annually in economic activity, support 5.7 
million jobs and return $12.6 billion in Federal income taxes. Art 
museums, exhibits and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an uncertain economy where corporate 
donations and foundation grants to the arts are diminished, and 
increased ticket prices would undermine efforts to broaden and 
diversify audiences, these Federal funds simply cannot be replaced. 
Maintaining the strength of the not-for-profit sector, along with the 
commercial sector, will be vital to supporting the economic health of 
our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.
    Here are some recent examples of NEA grants and their impact:
From the NEA's Access to Artistic Excellence Program
    Located in southern Vermont, Weston Playhouse was the recipient of 
an NEA grant in the category of Artistic Excellence in Musical Theatre 
for $45,000. This grant supported the world premiere production of 
Saint-Ex, a new musical by composer Jenny Giering and author Sean 
Barry, directed by Kent Nicholson. Inspired by the life of author and 
aviator Antoine de Saint-Exupery (The Little Prince), Saint-Ex provides 
an impassioned and deeply moving portrait of a man whose work is 
cherished by millions across the globe, but whose astonishing life 
remains little known. Saint-Ex began performances on August 28 at the 
Weston Playhouse. Interrupted just 3 days into the run when Tropical 
Storm Irene ripped through Weston, flooding countless homes and 
businesses, the lower level of the Weston Playhouse sustained extensive 
damage after being submerged in 8 feet of water. Response to these 
devastating events was overwhelming, with company and community members 
coming out to help with the cleanup. Recovering from this natural 
disaster, a restaged version of Saint-Ex opened just 5 days after the 
flood and served as a platform for community catharsis with every 
subsequent performance receiving an emotional standing ovation. Saint-
Ex ran for 2 weeks with 12 total performances, 2,013 adults and 
students in attendance and 27 artists in addition to 39 Weston 
Playhouse staff members participating in the project.
From the NEA's Art Works Program
    CENTERSTAGE in Baltimore, Maryland, received $55,000 to support the 
presentation of Gleam, an adaptation by Bonnie Lee Moss Rattner of Zora 
Neale Hurston's novel Their Eyes Were Watching God directed by Marion 
McClinton. This novel is considered one of the jewels of the Harlem 
Renaissance by one of America's literary giants.
    Milwaukee Repertory Theater received $20,000 to support a musical 
production of Next to Normal, composed by Tom Kitt, with libretto and 
lyrics by Brian Yorkey, and directed by artistic director Mark Clements 
with accompanying community and student educational programming. The 
award-winning contemporary musical portrays a family grappling with 
depression and mental illness.
    Perseverance Theatre, in Douglas, Alaska, received $20,000 to 
support a production of A Raisin in the Sun by Lorraine Hansberry. A 
seminal work in the development of African American theatre, as well as 
a study of the issues of race relations, the play portrays an African 
American family living in Chicago's South Side during the 1940s and 
examines the American dream of children striving to rise above their 
parents' accomplishments.
From the NEA's Challenge America Program
    Tennessee Women's Theater Project in Nashville, Tennessee received 
$10,000 to support the creation and tour of a new play by Regina Taylor 
examining the experience of breast cancer from the African American 
perspective. Partners will include the Tennessee Breast Cancer 
Coalition.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 50 percent of the 
applications it receives, so 50 percent of the theatres are turned away 
because there aren't sufficient funds. Theatre Communications Group 
urges you to support a funding level of $155 million for fiscal year 
2013 for the NEA, to maintain citizen access to the cultural, 
educational and economic benefits of the arts, and to advance 
creativity and innovation in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and its economic vitality. It is supported by a 
remarkable combination of Government, business, foundation and 
individual donors. It is a striking example of Federal/State/private 
partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $146 million in the fiscal year 2012 budget; however, it has 
never recovered from a 40 percent budget cut in fiscal year 1996 and 
its programs are still under-funded. We urge the subcommittee to fund 
the NEA at a level of $155 million to preserve the important cultural 
programs reaching Americans across the country.
                                 ______
                                 
  Prepared Statement of the Tlingit and Haida Indian Tribes of Alaska

    Greetings from Alaska! My name is Edward K. Thomas. I am the 
elected President of the Central Council of the Tlingit and Haida 
Indian Tribes of Alaska (Tlingit Haida), a federally recognized Indian 
tribe of 28,000 tribal citizens. I am honored to provide this testimony 
on the very important matter of the fiscal year 2013 Federal 
appropriations legislation. I commend Congress, and especially this 
Committee, for holding this hearing and giving me, and other tribal 
leaders, an opportunity to provide you our perspective on the fiscal 
year 2013 Federal budgets on Native American programs. One of the most 
important legal principles in defining the relationship between the 
Federal Government and the Indian and Alaska Native Tribes is that of 
the fiduciary responsibility the United States has to Tribal 
governments. This hearing is very important in strengthening the 
Federal Government's Trust relationship to Tribal governments.

   FUNDING NOT BASED ON NEEDS, WHICH ARE MUCH GREATER IN RURAL AREAS

    I have been involved in managing Federal programs since 1976 and 
find that the method of formulating Federal budgets for the benefit of 
needy Native Americans is deficient and ineffective. Each year Federal 
budgets are put together mostly based upon the previous year's funding; 
totally disregarding the level of unmet needs in Indian Country. This 
becomes a much bigger problem when it becomes necessary to reduce total 
Federal funding.
    Our Nation's poverty level is at the highest level since 1993. 22 
million or 1 in every 6 Americans lives in poverty; 22 percent of all 
American children live in poverty. The poverty levels are much higher 
in rural tribal communities. In rural Alaska, higher energy costs have 
compounded an already depressed economy in rural Alaska. The cost of 
living in certain parts of rural Alaska is nearly twice that of the 
average cost of living elsewhere in the United States. Electricity 
costs are often 4 to 5 times higher. Over the past decade, funding for 
Native American programs has not even kept pace with national inflation 
rates let alone the dramatic inflationary costs in rural Alaska.
 non-bia agencies have received funding priority in interior department
    Between fiscal year 2004 and 2012, the Bureau of Indian Affairs 
(BIA) budget grew 8 percent. Over that same period of time, funding for 
non-BIA programs grew at a much greater rate: Fish and Wildlife by 30 
percent; Park Services by 27 percent; Geodetic Surveys by 18 percent; 
and Bureau of Land Management by 13 percent. It makes sense that 
funding to needy tribal communities could be increased if these non-BIA 
agencies were reduced to the 2004 funding levels plus 8 percent.
    The single biggest factor that financially undermines Tribal Self-
Determination and Self-Governance is the Federal practice of 
underfunding or putting caps on indirect costs or Contract Support Cost 
(CSC). For the period between 2006 through 2009, the CSC shortfalls and 
underfunding have cost my Tribe a total of $2,651,088; or an average of 
$662,772 per year. While our people are grateful for the programs 
designed to help our needy Tribal citizens, we simply cannot afford to 
continue to pay this amount of money to manage these important 
contracts. My Tribal government provided $84,689,247 (an average of 
$21,172,300 per year) in contractual services to our needy Tribal 
citizens over that period of time. Simply put, the difference between 
the way indirect costs are calculated and the way they are paid by the 
United States creates an ever-tightening chokehold on my Tribe's 
ability to administer programs. If we follow the law and spend the 
administrative costs we are required to spend, Federal law provides us 
less and less money to meet these federally required expenditures. The 
more we spend, the less we get. The less we spend, the less we get. 
Both Congress and the Federal agencies have caused this crisis. 
Together we can solve it.

    TLINGIT HAIDA TRIBAL TRUST FUNDS PAY FOR FEDERAL RESPONSIBILITY

    Federal law specifically states that a tribe who contracts for the 
management of a Federal contract is entitled to the same administrative 
support as the Federal Government itself would have were it to retain 
the management of that contract. Appropriations legislation that 
underfunds contract support costs violates this provision of Federal 
law and severely undermines the concept of tribal self-determination.
    Tlingit Haida diligently tries to abide by Federal laws that set 
our indirect cost rates and to live within other Federal appropriations 
laws that provide us much less than the Federal Government's own audits 
say we should collect from each agency to manage contracts for them. We 
were forced to pull the $2,651,088 shortfall in contract support costs 
over the past 4 years out of our modest Trust Fund earnings in order to 
meet the costs we were stuck with by the United States. We cannot 
continue to afford to pay for these Federal responsibility costs going 
into the future. There are no gaming tribes in Alaska; the economy in 
rural Alaska is weak to non-existent; and unemployment rates in some of 
our villages often exceed 50 percent.
    Our Tribal Trust Fund is what remains of a judgment fund provided 
to us in exchange for land taken by the United States from our Tribe. 
Our Tlingit Haida tribal government has a fiduciary responsibility to 
preserve the principal of this Tribal Trust Fund for future generations 
and the earnings of this fund that are so critical to maintaining 
essential governmental functions for our Tribe. It is not the purpose 
of our Tribal Trust Fund to use the interest earned to make up for 
shortfall created by the United States. The choice we face each and 
every year is to either shutdown all of the vital services we provide 
our membership, shut our offices, layoff employees, and pay for early 
termination of contracts, or dip deeper and deeper into our Tribal 
Trust Fund earnings to maintain operations. We have chosen to continue 
but we need your help in order for us to continue in providing 
essential services to our needy tribal citizens.
    In addition to the diversion and diminishment of our Tribal Trust 
Fund earnings, the shortfall in BIA contract support funding has been 
felt throughout Tlingit Haida. As an immediate result of this shortfall 
which the CSC caps place on so many programs our Tribe is eligible to 
apply for, we have had to abstain from applying for some very important 
federally funded programs that could be of tremendous help to mitigate 
the serious economic challenges facing our tribal communities. While 
businesses, other governments and government agencies saw benefit from 
the American Recovery and Reinvestment Act (ARRA), Tlingit Haida had to 
abstain from fully participating in available programs because of the 
15 percent cap of administrative costs placed on those programs. We did 
accept one $1.5 million award for childcare assistance to supplement 
our ``welfare to work'' initiatives but this cost Tlingit Haida 
$330,000 of our own money, again, depleting our meager Tribal Trust 
Fund, to manage that federally funded program.

               INDIRECT COSTS ARE FIXED COST REQUIREMENTS

    If indirect costs were not primarily ``fixed'' costs, the recurring 
problem of a shortfall in BIA contract support cost funding would, 
perhaps, be survivable. But most of our actual indirect costs are 
``fixed''. For example, typically the most cost-effective way to 
acquire facility space or equipment is through a long-term lease with 
locked-in costs. Similarly, package deals for telephone and some forms 
of transportation offer significant cost savings over time. And 
obviously, the salary and benefit costs of accounting, administrative, 
and management staff must be treated as ``fixed'' or else we cannot 
hire or keep employees. When Federal agencies do not send us 100 
percent of the funds required by our federally set indirect cost rate, 
we have a shortfall associated with our operation of BIA programs and 
something has to give.
    We refer to tribal indirect cost funding as a ``requirement''--not 
a ``need''. They are requirements because they are derived from audits 
conducted by the National Business Center (NBC) on behalf of the 
Federal Government who sets rates that are used uniformly by all 
Federal agencies with whom Tlingit Haida manages a contract or grant. 
The rates use actual expenditures from prior years to project costs in 
the future year. Once our federally established indirect cost rate is 
set, Federal law requires that our Tribe apply that Federal rate 
uniformly to all the programs we administer. In other words, Federal 
law requires us to spend money on administrative costs, but will not 
let us charge all of that spending to the Federal grants and contracts.
    Another problem is that the Single Audit Act requires a tribal 
contractor's cognizant agency (e.g., Department of the Interior) to 
audit the indirect costs of the tribal contractor and establish an 
indirect cost rate that must be applied to all programs the tribal 
contractor administers. If that rate is 25 percent, and a program like 
Head Start caps administrative cost recovery from its funding at 15 
percent, the law requires the tribal contractor to pay the difference 
from non-Federal funds or through a rate increase the following year 
that will obtain a higher recovery from BIA's contract support cost 
fund in future years.
    Let me be clear. We would spiral into complete financial disaster 
as a Tribe if we chose to not spend at the budgeted amounts. Failing to 
pay certain fixed costs would actually increase our costs (breaking 
leases, terminating employees, breaching contracts). Deferring certain 
costs to the following year aggravates the hardship of the shortfalls 
that cripple that year. The Public Law 93-638 language which supposedly 
protects Tribal contractors against theoretical under-recovery does 
work with respect to BIA funds, but historical underfunding of CSC has 
caused our Tribe very serious difficulties in dealing with shortfalls 
in non-BIA programs for which we must, by law, use the same indirect 
cost rate. If in year one we don't spend uniformly on all programs, BIA 
and non-BIA alike, this will increase the approved rate for the 
following year because the amounts not collected from the agencies are 
available to add on to the CSC for the subsequent year. Higher indirect 
cost rates are no answer, given the uncertainty of future funding 
levels. Tlingit Haida, in our efforts to keep our CSC indirect cost 
rates lower has chosen not to carry all of those costs forward and so 
has had to pay the shortfalls out of non-Federal sources. But Tlingit 
Haida, and many other tribes, have very few non-Federal sources of 
funding. For these reasons, I ask your consideration of including the 
following bill language in the fiscal year 2013 Interior appropriations 
law. It would provide flexibility to Tlingit Haida and other tribes 
caught by a crushing, unfunded Federal mandate.

              PROPOSED NEW FISCAL YEAR 2013 BILL LANGUAGE

    ``Notwithstanding any other provision of law, including any 
otherwise applicable administrative cost limitations, any Federal funds 
made available under this or any other appropriations act for fiscal 
year 2013 to an Indian tribe may, at the option of the Indian tribe, be 
applied to pay for up to 100 percent of the approved indirect costs 
associated with the administration by the Indian tribe of those funds, 
provided that such costs are calculated in conformity with the 
federally-determined indirect cost rate agreement of that Indian tribe 
and the relevant OMB circulars.''

                   INTENT AND EFFECT OF BILL LANGUAGE

    The proposed amendment is intended to apply a tribal contractor's 
uniform indirect cost rate established under the Single Audit Act to 
recover costs required by that uniform indirect cost rate from each 
federally funded award or agreement without regard to any otherwise 
applicable administrative cost cap limitations otherwise governing 
those awards or agreements.
    The proposed amendment would expand existing authority to permit a 
tribal contractor an additional tribal option--it would provide tribal 
authority to use any federally funded award to meet up to all of a 
tribe's approved indirect costs that are calculated in conformity with 
its federally established indirect cost rate agreement and the relevant 
OMB circulars without regard to any otherwise applicable administrative 
cost cap limitations. This would not require any increase in overall 
Federal funding. The funding level of each award would not be affected. 
It would simply extend flexibility to a tribal contractor to apply its 
federally awarded funds to meet federally required administrative 
costs. This would be a huge benefit to tribal contractors, like Tlingit 
Haida, who are providing services in high-cost areas with few or no 
financial resources other than Federal awards and grants.

                               CONCLUSION

    I very much understand the serious financial challenges facing the 
Federal Government. It is vitally important that there be a balanced 
approach in addressing Federal budget deficits. Balancing our Nation's 
budget on the backs of the programs serving the needy will not work. I 
thank you for the opportunity to share my views with you. I wish you 
well in your deliberations and I trust you will make the right 
decisions on the issues of grave concern to our people.
    Gunalcheesh! Howa! Thank you!
                                 ______
                                 
            Prepared Statement of The Trust for Public Land

    On behalf of The Trust for Public Land, thank you for the 
opportunity to submit testimony in support of programs under your 
jurisdiction for the fiscal year 2013 appropriations process. The Trust 
for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the support members of this 
subcommittee and other conservation leaders in Congress have shown for 
Federal conservation programs during these challenging fiscal times. We 
recognize that the subcommittee will again face enormous challenges in 
meeting the broad range of priority needs in the Interior and 
Environment bill this year. But we believe the American people support 
continued investments in conservation, even during a time of economic 
challenge. Most recently, on ``Super Tuesday'' in March, voters in 
communities in Florida, Georgia and Ohio approved conservation funding 
measures, putting 2012's passage rate at 100 percent--four for four so 
far.
    These ballot initiatives reflect the very essence of conservation 
in the 21st century: collaborative, leveraged, partnership-based and 
locally supported. Federal funding is an absolutely critical part of 
the conservation toolbox and provides manifold benefits to the American 
people. Given the limited public conservation funding at all levels of 
government, TPL works to leverage Federal conservation dollars, 
bringing to bear private philanthropic support as well as State and 
local funding to forge workable solutions to complex conservation 
funding challenges.
    We are especially grateful for your recognition during the fiscal 
year 2012 process that funding for programs like the Land and Water 
Conservation Fund (LWCF) is a worthwhile investment. TPL respectfully 
requests that you continue this commitment by supporting the 
President's budget request for fiscal year 2013 for LWCF of $450 
million. This amount includes $270 million for Federal land purchases, 
$60 million for grants to States for parks and outdoor recreation, 
including a new competitive grant component for city parks, $60 million 
for the Forest Legacy Program and $60 million for the Cooperative 
Endangered Species program. Continued investment in this suite of LWCF 
programs is essential and TPL is ready to work with the Subcommittee to 
ensure that dollars invested are well spent on our most urgent needs. 
We urge you to also support the President's budget requests for the 
North American Wetlands Conservation Act and the Community Forest 
Program.

                    LAND AND WATER CONSERVATION FUND

    For almost 50 years the Land and Water Conservation Fund has been 
the cornerstone that sustains our Federal public lands heritage and 
remains today a compelling and urgently needed program. When Congress 
created LWCF in 1964, it sought to ensure that land conservation would 
receive funds every year by dedicating certain revenues. For most of 
its history, the major source of LWCF funds has been revenues from 
offshore oil and gas development in Federal waters. LWCF activities 
neither require nor are designed to receive taxpayer dollars. This 
arrangement is built on the principle that the revenues generated from 
energy development and natural resource depletion should be used for 
the protection of other natural resources such as parks, open space, 
and wildlife habitat for the benefit of current and future generations 
of Americans. TPL believes that this principle remains a sound one and 
that the American public supports using this very small percentage of 
OCS receipts--which annually average over $6 billion--as a conservation 
offset.
    Federal Land Acquisitions.--Every year tens of millions of 
Americans, as well as international visitors to our country, visit our 
public lands. Federal funding of land acquisition ensures that the 
public can access lands for these recreational and educational 
purposes. If accessible properties are instead sold for development or 
subdivision, there is no guarantee that the public will be able to 
enjoy the nearby public lands. Purchase can also enhance the quality of 
recreational experiences, encouraging greater public participation and 
use, and in some cases resolve public land management issues and 
achieve cost savings. There is a clear economic impact from these 
activities. A 2006 Federal interagency study determined that 87.5 
million people annually spend $122.3 billion on fishing, hunting and 
wildlife watching alone. These activities and others have significant 
ripple effects. The Outdoor Industry Foundation estimates that active 
outdoor recreation contributes $730 billion annually to the U.S. 
economy, supports nearly 6.5 million jobs across the United States, 
generates $49 billion in annual national tax revenue, and produces $289 
billion annually in retail sales and services across the country.
    Among the recreation destinations whose economic and natural 
resource values might be significantly compromised without sufficient 
LWCF funding in fiscal year 2013 are Virgin Islands National Park where 
TPL is working to finally connect the two sections of the national park 
along the shores of Maho Bay, the Sawtooth National Recreation Area in 
Idaho, where a conservation easement will protect the lands along the 
river are scenic vista at the gateway to the NRA, the California 
Coastal National Monument, where a property will connect visitors to 2 
miles of the Pacific coast, and along the Pacific Crest Trail in 
Washington State.
    Incompatible development within established Federal units is a 
continuing concern for the public and for public land managers, and we 
have found that private landowners of inholdings and edgeholdings are 
open to and quite often seek a conservation solution. Faced with 
uncertainty about the availability of Federal land acquisition dollars, 
however, many landowners find that they cannot afford to wait on a win-
win outcome. Adequate and timely acquisition of inholdings through the 
LWCF is critical to efforts to protect the Nation's public lands 
heritage when these time-sensitive acquisition opportunities arise. 
Often the window for a conservation outcome is narrow, and the 
availability of LWCF funds ensures that landowners can sell their 
properties in a timely manner. For instance, important conservation 
properties are available for a limited time at Kennesaw Mountain 
National Battlefield Park in Georgia, at the new Middle Rio Grande 
National Wildlife Refuge in New Mexico and at Red Cliffs National 
Conservation Area in Utah. Funding for Kennesaw Mountain--a national 
battlefield that is under severe development threat--is particularly 
important given the ongoing commemoration of the Sesquicentennial of 
the Civil War. In addition, a number of partially completed projects at 
Virgin Islands NP, Sawtooth NRA, and the Carson, Uncompahgre and 
Superior National Forests await further funding to be completed and are 
included in the fiscal year 2013 President's budget request. Recent 
funding levels for LWCF have been insufficient to allow agencies to 
complete these projects in a timely fashion and we urge your support 
for funding levels in fiscal year 2013 that address these needs.
    We also urge the Subcommittee to consider fully the urgent need for 
funding for Civil War Sesquicentennial units, national trails and 
recreational/hunting/fishing access projects as proposed in the fiscal 
year 2013 President's budget for the National Park Service, Bureau of 
Land Management, and U.S. Forest Service, respectively. TPL has pending 
projects eligible under each of these categories and stand ready to 
provide information to the Subcommittee to support these categorical 
line item requests.
    As the Subcommittee evaluates the myriad programmatic needs and 
measures for making programs more efficient for the fiscal year 2013 
Interior and Environment Appropriations Bill, we look forward to 
working with you and your staff to ensure that funds are spent wisely 
on strategic and urgent conservation priorities.
    National Park Service LWCF grants.--Since 1965, the stateside 
program has provided 41,000 grants to States and local communities for 
park protection and development of recreation facilities. This program 
reaches deep into communities across our Nation, supporting citizen-led 
efforts to conserve places of local importance. Stateside funds were an 
essential part of land protection in Maine's famed 100-Mile Wilderness, 
the northernmost and wildest stretch of the Appalachian Trail. Most 
recently, TPL worked with the State of Tennessee to add 1,388 acres to 
the popular Cumberland Trail, extending it by 19 miles, using State 
LWCF grant funding. To meet needs such as these as they continue to 
arise in all 50 States and in U.S. territories, we urge you to fund 
this program at $60 million.
    Competitive grants.--Within the $60 million requested for State 
LWCF grants in the President's budget for fiscal year 2013, the 
administration has proposed a new competitive grant program to invest 
in community parks and greenways, landscapes, and recreational 
riverways. This effort will particularly help cities and urbanized 
counties increase the availability of parks and green spaces for 
residents of our more populated areas, many of whom lack access to 
safe, close-to-home recreational sites. This proposed targeting of LWCF 
funds to areas most in need of new parks will help address the health 
threats many Americans--especially children--are now facing due to lack 
of access to parks. TPL is the Nation's only national land conservation 
organization working to create parks in cities across the Nation, and 
we strongly support this competitive grant program as laid out in the 
Department of the Interior's fiscal year 2013 budget proposal. With our 
extensive experience creating parks for people nationwide, we see this 
type of program as meeting a critical need in the places where most 
people live and recreate. There is currently no Federal program that 
addresses park needs for cities, metropolitan areas and urbanized 
counties. The NPS LWCF grants program--funded competitively rather than 
by formula--could assist TPL's work in places like San Francisco and 
Los Angeles in California; Portland, Maine; Chattanooga, Tennessee; and 
New Orleans, Louisiana.

               U.S. FOREST SERVICE FOREST LEGACY PROGRAM

    The Forest Legacy Program provides extraordinary assistance to 
States and localities seeking to preserve important working forests. 
Since its inception in 1990, the Forest Legacy Program has protected 
over 2 million acres of forestland together with over $630 million in 
non-Federal matching funds. For fiscal year 2013, the President's 
budget recommends projects that provide multiple public benefits that 
derive from forests--clean water, wildlife protection, climate change 
adaptation and mitigation, public access to recreation, economic 
development and sustainable forestry. The Forest Legacy Program has 
been very effective over its short history, leveraging a dollar for 
dollar match to Federal funds, well more than is required under the 
program. TPL urges your continued support for sustained investment in 
this strategic conservation program. Included in the fiscal year 2013 
budget are three projects where TPL is working in partnership with the 
States of Idaho, Vermont and Wisconsin to protect recreation access for 
snowmobilers and hikers, ensure jobs in the woods, buffer important 
Federal and State conservation areas and provide strategic land 
conservation that fits a larger goal.

    U.S. FISH AND WILDLIFE SERVICE--LAND CONSERVATION GRANT PROGRAMS

    We are grateful for the Subcommittee's historic support for U.S. 
Fish and Wildlife Service grant programs, including the Cooperative 
Endangered Species Conservation Fund--which leverages State and private 
funds and has protected threatened and endangered species habitat 
across the Nation. Through the most recent grant cycle, for example, 
TPL, in partnership with the State of Washington, secured a $3.5 
million grant that helped protect 2,700 acres of pristine habitat along 
the Methow River in Okanogan County. This habitat is considered 
critical spawning habitat for the endangered Pacific salmon, but 
benefits many other protected species as well, like Canada lynx, gray 
wolves, and bull trout. The Methow Watershed project leveraged $4.27 
million in non-Federal funding, which is more than double the non-
Federal match required under the program. We also urge your support for 
program funding at the President's budget level of $60 million in 
fiscal year 2013. The North American Wetlands Conservation Act (NAWCA) 
provides much-needed matching grants to carry out wetlands 
conservation, restoration and enhancement projects. We urge the 
Subcommittee to provide the President's budget request of $39.4 
million.

              U.S. FOREST SERVICE COMMUNITY FOREST PROGRAM

    Last but not least, we urge your continued support for the 
Community Forest Program (CFP), which received appropriations in fiscal 
years 2010, 2011 and 2012 and now has its first-ever grant solicitation 
underway. This program will provide a complement to existing 
conservation programs by helping local communities and tribes identify, 
purchase, and manage important forestlands that are threatened with 
development. These locally led efforts can be tailored to the needs of 
each community, from timber revenue for local budgets to recreation 
access and outdoor education. Every Federal dollar from CFP will be 
evenly matched by funding from State, local, and private sources. We 
believe the response to the first grant round will be substantial and 
that this program will generate significant interest from local 
entities concerned about the future of their close-to-home forests. TPL 
is working right now to create new community forests in California, 
Montana and Vermont, and we hope that the Community Forest Program 
funds will contribute to these efforts. Given the strong interest in 
community forests from coast to coast, we urge you to include the 
President's budget level for CFP of $4 million in the fiscal year 2013 
bill.
    Thank you again for the opportunity to submit public testimony. The 
programs highlighted in my testimony are critical to the future of 
conservation at the local, State and Federal levels, reflect the 
continued demand on the part of the American people for access to 
outdoor recreation, help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2013 Interior, Environment and Related 
Agencies bill. Thank you for help and support, and for your 
consideration of our requests.
                                 ______
                                 
     Prepared Statement of the Tennessee Wildlife Resources Agency

    Members of the Senate Appropriations Subcommittee on Interior, 
Environment, and Related Agencies, my name is Bobby Wilson and I am the 
Chief of Fisheries for the Tennessee Wildlife Resources Agency. I thank 
you for the opportunity to provide testimony for the State of Tennessee 
in support of the continued funding for the Aquatic Nuisance Species 
Plan grant to the States.
    Aquatic nuisance species pose serious problems to the ecology and 
economy in Tennessee. According to the U.S. Fish and Wildlife Service's 
``National Survey of Fishing, Hunting, and Wildlife-Associated 
Recreation'', over 874,000 citizens participated in fishing, 332,000 
hunted, and 2,385,000 participated in wildlife watching activities. 
Tennessee citizen's spent $592 million on fishing, $476 million on 
hunting, and slightly over $1 billion on wildlife watching. In 
addition, the wholesale value of commercial fishing is estimated to be 
$13 million and the value for commercial musseling is $1.5 million. 
Revenues from these natural resource-related activities are important 
to the economy and well-being of the citizens of Tennessee. These 
economic returns can only continue to occur if these resources are 
protected from the invasion of aquatic nuisance species.
    Tennessee is one of the most aquatically bio-diverse States in the 
Nation. Currently there are at least 315 species of fish, 120 species 
of mussels, and 84 species of crayfish in our waters. The State has 
three major river systems (Mississippi, Tennessee, and Cumberland 
Rivers) which contribute to 700,000 acres of impounded reservoirs and 
19,000 miles of streams.
    Some of the more problematic aquatic non-native species in 
Tennessee include zebra mussels, Eurasian water milfoil, and Asian 
carp. Others include several species of aquatic snakes, turtles, frogs, 
crayfish, snails, and salamanders. Together over 50 species of aquatic 
animals have been identified as invasive to Tennessee.
    To identify the needs for addressing the problems of aquatic 
nuisance species, Tennessee developed a management plan in 2008. This 
plan focused on the prevention of new introductions but also dealt with 
the management and control of existing species that already exist in 
our waters. There are 26 strategies and 67 actions listed in the plan 
to address the concerns which include the development of educational 
materials such as pamphlets, posters, DVD's, and an Aquatic Nuisance 
Species web site. It also includes hiring an aquatic nuisance species 
coordinator, improving enforcement and regulations that prohibit the 
possession, purchase, and transport of aquatic nuisance species in 
Tennessee.
    During the 3 years that our State has received the Aquatic Nuisance 
Species Federal grant we have accomplished action items identified in 
our management plan: We have monitored our extensive crayfish 
population for the presences of nuisance crayfish; we partnered with 
the Tennessee Aquarium in Chattanooga for the development of an aquatic 
nuisance species display at their facility; we implemented a new live 
bait regulation which will help prevent the introduction of various 
invasive species of fish, amphibians, and crayfish; and developed the 
``Angler's guide to Tennessee Fish'' which includes a section on the 
identification of various aquatic nuisance species of fish and crayfish 
in the guide.
    However we have only touched the surface of a very serious problem. 
Asian carp populations are continuing to expand in the Tennessee and 
Cumberland River systems; zebra mussels have recently been discovered 
in one of our most pristine and heavily visited lakes, Norris 
Reservoir; and various invasive species of aquatic plants are 
constantly showing up in waters where they have not been seen before. 
We must continue to work on these problems as they arise as well as try 
to prevent the introduction of new invasive species before they become 
established and it is too late.
    In speaking on behalf of the Tennessee Wildlife Resources Agency, 
and on behalf of the citizens of Tennessee, I ask that the Senate 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies approve within the budget of the U.S. Fish and Wildlife Agency 
the continued funding of Aquatic Nuisance Species State grants.
    The State of Tennessee looks forward to continue working with the 
U.S. Fish and Wildlife Service on this important issue. Again, thank 
you for the opportunity to allow me to provide testimony on behalf of 
the State of Tennessee.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to provide 
testimony on the fiscal year 2013 budget for the Department of the 
Interior, Environment, and Related Agencies. The Wildlife Society was 
founded in 1937 and is a nonprofit scientific and educational 
association representing over 11,000 professional wildlife biologists 
and managers, dedicated to excellence in wildlife stewardship through 
science and education. Our mission is to represent and serve the 
professional community of scientists, managers, educators, technicians, 
planners, and others who work actively to study, manage, and conserve 
wildlife and its habitats worldwide.
U.S. Fish and Wildlife Service
    The State and Tribal Wildlife Grants Program is the only Federal 
program that supports States in preventing wildlife from becoming 
endangered. It is also the primary program supporting implementation of 
comprehensive wildlife conservation strategies, known as State Wildlife 
Action Plans, which detail conservation actions needed on the ground in 
every State to keep common species common. Funding assistance for these 
State wildlife agencies is one of the highest priority needs for 
wildlife in order to prevent further declines in at-risk wildlife 
populations in every State. These grants also provide key funding to 
federally recognized tribal governments for wildlife management and 
conservation. We recommend Congress appropriate $70 million for State 
and Tribal Wildlife Grants in fiscal year 2013. We also ask that 
Congress support continuation of a reduction in the non-Federal match 
requirement from 50 percent to 35 percent, relieving some of the onus 
of providing adequate matching funding from severely cashed-strapped 
States.
    The Cooperative Alliance for Refuge Enhancement (CARE) is a diverse 
coalition of 22 wildlife, sporting, conservation, and scientific 
organizations representing over 14 million members and supporters. A 
comprehensive analysis by CARE determined the National Wildlife Refuge 
System needs $900 million in annual operations funding to properly 
administer its nearly 150 million acres, educational programs, habitat 
restoration projects, and much more. Many years of stagnant budgets 
have increased the Operations and Maintenance backlog; refuge visitors 
often show up to find visitor centers closed, hiking trails in 
disrepair, and habitat restoration programs eliminated. Invasive plant 
species are taking over on refuges, requiring $25 million per year to 
treat just one-third of its acreage, and illegal activities such as 
poaching are on the rise, requiring an additional 209 officers ($31.4 
million) to meet law enforcement needs. We recommend that Congress 
provide $495 million in fiscal year 2013 for the Operations and 
Maintenance of the National Wildlife Refuge System. Additionally, The 
Wildlife Society supports the increase of $3 million for the Refuge 
System's Inventory and Monitoring program, which is needed to provide 
the Service with the necessary information to guide effective use of 
funds.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded despite 
its demonstrated effectiveness. We recommend a small increase over the 
fiscal year 2012 funding level of $35.5 million, to bring the funding 
to $40 million in fiscal year 2013.
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the United States, 
Latin America and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. The Wildlife Society recommends 
Congress fund the Neotropical Migratory Bird Conservation Act at $6.5 
million in fiscal year 2013.
    The Wildlife Society supports adequate funding levels for all 
subactivities within the Endangered Species Program. Endangered species 
recovery efforts can ultimately lead to delisting, resulting in 
significant benefits to species through State management efforts. 
Currently, all subactivities within the program are understaffed while 
the costs for management of listed species continue to rapidly 
escalate. We recommend Congress match the President's request for the 
Endangered Species Program and provide $179.7 million in funding in 
fiscal year 2013.
    The voluntary Partners for Fish and Wildlife Program provides 
financial and technical assistance to landowners to restore degraded 
habitat on their property. With over two-thirds of our Nation's lands 
held as private property, and up to 90 percent of some habitats lost, 
private lands play a key role in preserving our ecosystem. We urge 
Congress to provide $60 million in support of the Partners for Fish and 
Wildlife Program in order to allow landowners to help contribute to 
land and wildlife preservation.
    Through its International Affairs office, FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. International trade, import, and transportation of 
wildlife species can have a huge impact on America's security, economy, 
and environment. Careful regulation of imports and implementation of 
international policies is an important task. We ask Congress to support 
FWS in protecting our economy, our environment, and our national 
security by providing a necessary $13.054 million in support of FWS 
International Affairs.
Bureau of Land Management
    BLM lands support over 3,000 species of wildlife, more than 300 
federally proposed or listed species, and more than 1,300 sensitive 
plant species. Historically, the Wildlife and Fisheries Management 
(WFM) and the Threatened and Endangered Species Management (TESM) 
programs have been forced to pay for the compliance activities of BLM's 
energy, grazing, and other non-wildlife related programs, eroding both 
their ability to conduct proactive conservation activities and their 
efforts to recover listed species. Given the significant underfunding 
of the BLM's wildlife programs, combined with the tremendous expansion 
of energy development across the BLM landscape, we recommend Congress 
appropriate $55 million for BLM Wildlife Management. This will allow 
BLM to maintain and restore wildlife and habitat by monitoring habitat 
conditions, conducting inventories of wildlife resources, and 
developing cooperative management plans. We support the proposed 
increase of $15 million for sage grouse conservation efforts; this kind 
of broad-scale, landscape based conservation is exactly what is needed 
to manage and conserve sage grouse across their range.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program, to allow BLM to meet its responsibilities 
in endangered species recovery plans. BLM's March 2001 report to 
Congress called for a doubling of the Threatened and Endangered Species 
budget to $48 million and an additional 70 staff positions over 5 
years. This goal has yet to be met. In light of this, we strongly 
encourage Congress to increase overall funding for BLM's endangered 
species program to $33 million in fiscal year 2013.
    The Wildlife Society appreciates the commitment of BLM to 
addressing the problems associated with Wild Horse and Burro 
Management. The President has requested an increase of $2 million for 
research and development on contraception and population control. The 
Wildlife Society is concerned about BLM's emphasis on fertility 
control. Given that horses and burros have been maintained above the 
Appropriate Management Level for many years, we believe that additional 
funding should be requested to correct the habitat damage that has 
occurred due to overpopulation of these animals. The requested $77.068 
million should be provided to BLM if they continue removing excess 
horses from the range at a reasonable rate and focus additional 
resources on habitat restoration.
U.S. Geological Survey
    The basic, objective, and interdisciplinary scientific research 
that is supported by the USGS is necessary for understanding the 
complex environmental issues facing our Nation today. This science will 
play an essential role in the decisionmaking processes of natural 
resource managers as we adapt to climate change, and it will help 
protect our water supply and conserve endangered species. More 
investment is needed to strengthen USGS partnerships, improve 
monitoring, produce high-quality geospatial data, and deliver the best 
science to address critical environmental and societal challenges. The 
Wildlife Society supports funding of at least $1.2 billion for USGS in 
fiscal year 2013.
    The Ecosystems Program of USGS contains programmatic resources for 
fisheries, wildlife, environments, invasive species and the Cooperative 
Fish and Wildlife Research Unit. The Ecosystems unit is a new 
department within USGS resulting from the recent reorganization that 
strives to maximize research and support for comprehensive biological 
and ecosystem based needs. The Wildlife Society supports the 
President's request of $177.85 million for USGS's Ecosystems Department 
in fiscal year 2013. Within Ecosystems, we support the request of $49.4 
million for the Wildlife Program. Additionally, we appreciate the 
requested addition of $1 million to support research and surveillance 
of White Nose Syndrome and of $2.2 million for research on hydraulic 
fracturing and its effects on land use, terrestrial wildlife, and 
habitats.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) are 
managed under the Ecosystems Department and conduct research on 
renewable natural resource questions, participate in the education of 
graduate students, provide technical assistance and consultation on 
natural resource issues, and provide continuing education for natural 
resource professionals. In fiscal year 2001, Congress fully funded the 
CFWRUs, allowing unit productivity to rise to record levels. Since 
then, budgetary shortfalls have caused an erosion of available funds, 
resulting in a current staffing vacancy of nearly one-quarter of the 
professional workforce. In order to fill current vacancies, restore 
seriously eroded operational funds for each CFWRU, and enhance national 
program coordination, the fiscal year 2013 budget for the CFWRUs should 
be increased to $22 million. This would restore necessary capacity in 
the CFWRU program and allow it to meet the nation's research and 
training needs.
    The Wildlife Society appreciates the fiscal year 2011 funding of 
$25.5 million for the National Climate Change and Wildlife Science 
Center. This center plays a pivotal role in addressing the impacts of 
climate change on fish and wildlife by providing essential scientific 
support. In order for this role to be fully realized, The Wildlife 
Society recommends that Congress fund the National Climate Change and 
Wildlife Science Center at the requested $26.2 million in fiscal year 
2013.
U.S. Forest Service
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered, and another 3,250 at-risk species. 
In fiscal year 2011, the Forest Service combined several programs and 
budgets, including Vegetation and Watershed Management, Wildlife and 
Fisheries Habitat Management, and Forest Products into a single 
Integrated Resource Restoration activity budget. We are concerned with 
this merger because it makes accountability to stakeholders and 
Congress more difficult. However, with these reservations noted, we 
urge Congress to support the request of $793 million for the Integrated 
Resource Restoration program in fiscal year 2013.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. Furthermore, it will 
play a key role in developing strategies for mitigating the effects of 
climate change. We urge Congress to provide $300 million in fiscal year 
2013 for Forest and Rangelands to support this high-quality research.
    Thank you for considering the recommendations of wildlife 
professionals.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR), a consortium of 77 research universities that manages the 
National Center for Atmospheric Research, I submit this written 
testimony regarding the fiscal year 2013 appropriations for the 
Department of the Interior's (DOI) climate science programs, for the 
record of the Senate Committee on Appropriations, Subcommittee on 
Interior, Environment, and Related Agencies. The U.S. Geological 
Survey's (USGS) and U.S. Fish and Wildlife Service's (FWS) climate 
science, adaptation, and education programs contribute a distinct and 
important component to the country's efforts to better understand, 
predict, and respond to the impacts of climate variability on human and 
natural systems. These programs are perhaps the most important in the 
entire Federal Government for helping scientists understand the 
relationship between climate variability and our Nation's abundant 
natural resources and treasures. I urge the Subcommittee to fully fund 
the fiscal year 2013 budget request of $1.102 billion for the U.S. 
Geological Survey, including $67.7 million for Climate Variability, 
which funds the Nation's eight regional Climate Science Centers. I 
similarly urge the Subcommittee to fully fund the $1.5 billion budget 
request for the U.S. Fish and Wildlife Service, including $33.1 million 
for Cooperative Landscape Conservation and Adaptive Science, which 
funds the Nation's network of Landscape Conservation Cooperatives.
    The Federal leaders in natural resources science, USGS and FWS are 
making major contributions to science and data integration on the 
impacts that climate variability is having and may have in the future 
on natural resources, including wildlife, ecosystems, and landscapes. 
These agencies are building the knowledge, capacity, and networks to 
work with and guide hunters, farmers, natural resource managers, Indian 
tribes, and resource-dependent businesses toward more sustainable, 
productive, and resilient management practices. In particular, the 
establishment of eight regional Climate Science Centers over the last 
few years to directly support a national network of Landscape 
Conservation Cooperatives will provide the scientific basis for future 
adaptive land and water management decisions. By building on the body 
of basic research conducted by the atmospheric research community and 
linking it to managed environments and social systems, the DOI's 
climate science and adaptation programs have been set up to maximize 
and leverage the value of the entire national scientific enterprise.
    The USGS's efforts in this field were stepped up with the 
establishment of a National Climate Change and Wildlife Science Center 
in 2008 and came to fruition with the recent completion of a national 
network of 8 Climate Science Centers and 22 Landscape Conservation 
Cooperatives. Through these regionally integrated research and 
stakeholder hubs, the DOI is now engaged in first-tier research 
focusing on impacts such as wildlife migration patterns, wildfire risk, 
precipitation levels and drought, coastal erosion, and invasive 
species, spearheading how environmental and climate science can be more 
effective and practical, and thus useful, on the ground. These programs 
will bring critical regional information to local and regional resource 
managers and decision makers in order to help them manage cities and 
towns, tribes, farms, waterways, and public lands.
    The eight Climate Science Centers, managed by the USGS, are carried 
by university consortia within the region to better serve the specific 
needs of their area as well as the country. They will advance 
interdisciplinary science in an end-to-end environment by coordinating 
research among themselves and optimizing investments across the 
regional network, and they will collaborate with national laboratories 
to conduct research and develop computer models that can better predict 
large regional impacts of climate variability on natural resources. The 
nationwide network serves the Alaska, Pacific Islands, Northwest, 
Southwest, North Central, South Central, Northeast, and Southeast 
regions. Landscape Conservation Cooperatives, managed by the FWS, 
engage with other Federal agencies, States, tribes, and local partners, 
to develop timely products and craft strategies that are based on the 
science and can be easily translated into adaptive, practical 
management solutions.
    In order to ensure the strength and sustainability of these 
programs, I hope you will support the fiscal year 2013 budget request 
of $1.102 billion for the U.S. Geological Survey, including $67.7 
million for Climate Variability, and $1.5 billion for the U.S. Fish and 
Wildlife Service, including $33.1 million for Cooperative Landscape 
Conservation and Adaptive Science. Thank you in advance for your 
support of the DOI's efforts to contribute to and disseminate knowledge 
that will enable stakeholders to protect and more efficiently manage 
their land and our Nation's natural resources and treasures.
                                 ______
                                 
           Prepared Statement of 1,237 Forest Owners, et al.

    Dear Chairman Reed and Ranking Member Murkowski: Representing the 
more than 10 million U.S. family forest owners, the 1,237 undersigned 
forest owners would like to show our support and gratitude to all our 
State service foresters. In order to ensure these trusted men and women 
continue to help forest owners across the country, we urge Congress to 
maintain funding for the Forest Stewardship Program--a program that 
provides boots-on-the-ground assistance to ensure the health and 
vitality of America's forests for generations to come.
    Families and individuals steward more of America's forests than the 
Federal Government or big companies. With the largest area of forest 
ownership, families and individuals own 35 percent--or 251 million 
acres--of our Nation's forests. Our forests provide clean air, clean 
water, recreation, renewable resources that build our homes and 
communities, and good-paying rural jobs. But we cannot do it alone. 
Every state has a network of reliable and trusted service foresters 
that help us make good forest management decisions. Boots-on-the-ground 
make all the difference.
    As private forest owners, we rely on the U.S. Forest Service Forest 
Stewardship Program, which provides our State foresters with the 
resources they need for outreach, education, and technical assistance. 
We are grateful for the reliable assistance our service foresters 
provide every day. Without this boots-on-ground assistance, forests 
will fall victim to an ever-increasing list of challenges, such as 
insects and disease, development pressures, and growing ownership 
costs.
    The planning assistance made possible by the Forest Stewardship 
Program helps us realize the full potential of our land and provides us 
the peace-of-mind that our forests will be around for our kids and 
grandkids to enjoy. We hope that you will maintain current funding for 
this important program in the fiscal year 2013 appropriations process 
so that families (and our forests) continue to reap these important 
benefits. We are happy to answer any questions you may have or provide 
additional input from the perspective of family forest owners.
    Thank you for your time and consideration of this important 
request.
                                alabama
Russell Miller, Cullman, AL
Don Heath, Birmingham, AL
Jon H. Gould, Birmingham, AL
Robert Amason, Tuscaloosa, AL
Frances Lewis, Aliceville, AL
Rusty Lewis, Aliceville, AL
Katherine RouLaine, Coker, AL
Irvin Eatman, Eutaw, AL
James P. Jeter, Gordo, AL
Jimmy Murphree, Spruce Pine, AL
Daniel Hogue, Sr., Russellville, AL
Edward Staley, Muscle Shoals, AL
William Snoddy, Huntsville, AL
John C. Pirtle, Billingsley, AL
Derek Bryan, Brantley, AL
Paul Hudgins, Greenville, AL
Walter E. Cartwright, Greenville, AL
Bob Roberts, Pike Road, AL
Noah Poe, Prattville, AL
Rrice & Johnnie Nichols, Prattville, AL
Bill Tomlin, Prattville, AL
James Hyland, Montgomery, AL
Don C. East, Lineville, AL
Lamar Dewberry, Lineville, AL
Bruce Williams, Piedmont, AL
Eddye Williams, Piedmont, AL
Leslie Williams, Piedmont, AL
Paul Williams, Piedmont, AL
Roy Reeves, Roanoke, AL
Ted Vignola, Elba, AL
Gail Jones, Andalusia, AL
Joe Bush, Andalusia, AL
Salem Saloom, Brewton, AL
Haden Swift Tirey, Monroeville, AL
Sara N Bradley, Monroeville, AL
Jimmy Hutto, Opp, AL
Neal Dansby, Moundville, AL
John A. Stephens, Coffeeville, AL
Ben Holifield, Camden, AL
Lehman H Bass, Jr, Opelika, AL
Sidney D Beckett, Auburn, AL
Carolyn Graves Stubbs, Waverly, AL
Leroy Sellers, Waverly, AL
Billy Hildreth, Enterprise, AL
                                 alaska
Mark Stahl, Talkeetna, AK
Carol D'Angelis, Ketchikan, AK
Lawrence R. Gaffaney, Juneau, AK
Jason Borer, Cordova, AK
                                arkansas
John Sutherland, Pine Bluff, AR
John McAlpine, Monticello, AR
Charles Westmoreland, Ivan, AR
Josh Smith, Magnolia, AR
Mike Bentley, Magnolia, AR
John S. Collins, Stephens, AR
Fred Fallis, De Queen, AR
Danny A. Wilcox, Lewisville, AR
Robert Kyle Martin, Texarkana, AR
Charles Purtle, Prescott, AR
Lynda & Luther Strother, Mill Creek Ranch, Benton, AR
Steven Burgess, Perryville, AR
Laura Shirley, Scotland, AR
Henry Wells, Sheridan, AR
Russ Matson, Little Rock, AR
Audrey Beggs, Little Rock, AR
Conrad Beggs, Little Rock, AR
Bobby D Johnson, Cherry Valley, AR
Carolyn McBay, Compton, AR
Jim Woodruff, Rogers, AR
Tim White, Russellville, AR
Larry P. Aikman, Bluffton, AR
                                arizona
Bruce Bilbrey, Carefree, AZ
  
                               california
Paul Moore, Los Angeles, CA
Christopher E. Glancy, Los Angeles, CA
Tiffany Michelle Horn, Los Angeles, CA
Mike Bone, Santa Monica, CA
Eric Grimes, Glendale, CA
Veronica Raymond, Temple City, CA
M. Harlan and Regina F. Horner, del Mar, CA
Daniel Martin, Lakeside, CA
Liz Sandler, Oceanside, CA
Dave Fitz, San Diego, CA
Margaret D. Potvin, Crestline, CA
Dan & Geri Begley, Running Springs, CA
Joan Moseley, Running Springs, CA
Laura Dyberg, Running Springs, CA
Michelle French, Running Springs, CA
Robert P Moser, Ventura, CA
Wayne Miller, Orinda, CA
Catherine Moore, Felton, CA
Charles A. Oveland, Saratoga, CA
Jill Butler, Sebastopol, CA
Alice Webb, Sonoma, CA
Steve VanderHorst, Ukiah, CA
Mark D. Collins, Eureka, CA
Wayne D. Rice, Eureka, CA
Dawn Pedersen, Fortuna, CA
Barry Dobosh, Korbel, CA
John & Linda Gaffin, Myers Flat, CA
Frances J. Belden, Redding, CA
James Chapin, Redding, CA
Ron Berryman, McCloud, CA
Betsy McNeil, Oak Run, CA
Dave McNamara, Oak Run, CA
Gary Hendrix, Oak Run, CA
Lois Kaufman, Oak Run, CA
Den Corrin, Shasta, CA
Dennis Bebensee, Shingletown, CA
Gene Goodyear, Weaverville, CA
                                colorado
Meg Halford, Castle Rock, CO
Howard Smith, Littleton, CO
Deward Walker, Boulder, CO
Robert J Clemans, Golden, CO
Kathy and Terry Bedbury, Conifer, CO
Paula Petrites, Conifer, CO
Carolyn Fordham, Evergreen, CO
Chris Payne, Evergreen, CO
Jim & Vicki Norton, Evergreen, CO
Tom Nelson, Evergreen, CO
Carolina Manriquez, Steamboat Springs, CO
Christine & Don Allender, Bellvue, CO
Nicki Rutt, Bellvue, CO
Scott B. Hamilton, Bellvue, CO
Scott Golden, Bellvue, CO
James G. Williams & Patti L.Williams, Estes Park, CO
Steve and Katie Soliday, Estes Park, CO
Rich Harvey, Estes Park, CO
Thomas H. Ebert, Fort Collins, CO
J Rick Scanlan, Fort Collins, CO
Ray Herrmann, Fort Collins, CO
Oliver & Donna Moore, Loveland, CO
Kristie Millsapps, Brighton, CO
Pat Smith, Greeley, CO
Jim & Carol Thalman, Pagosa Springs, CO
John Janowski, Pagosa Springs, CO
Ron Chacey, Pagosa Springs, CO
Judy Bolton, Durango, CO
Illene Pevec, Paonia, CO
Herman Ball, Lafayette, CO
                              connecticut
John Hoover, Barkhamsted, CT
Greg Clarke, Coventry, CT
Sidney Organ, Ashford, CT
James H. Poole, III, Willington, CT
Cathie Peitzsch-Gibbs, Oakdale, CT
Charles Potter, Guilford, CT
Catherine Worthley, Higganum, CT
Jack Norris, Milford, CT
Kathleen Wagner, Stamford, CT
                          district of columbia
William H Phillips Jr., PD, Washington, DC
  
                                florida
Karla Gaskins, Fort White, FL
Charles King, Green Cove Springs, FL
Ray Weinaug, JR, Hilliard, FL
Charles M. Goodowns, Sr., Starke, FL
Timothy W. Williams, Wellborn, FL
Stephen Lloyd, Daytona Beach, FL
Jeff Doran, Tallahassee, FL
John Alter, Malone, FL
Linda Basford, Marianna, FL
Sharon Driscoll, Pensacola, FL
Paul J. Langford, Pensacola, FL
Dwight O'Neal, Cantonment, FL
Jeff Hester, Century, FL
Russ Weber, Gainesville, FL
Mike Lackey, Deltona, FL
Sabato Daniele, Merritt Island, FL
Barbara C. Glancy, Homestead, FL
Terry A. Glancy, Homestead, FL
William J Richards, Palmetto Bay, FL
Marcia L. Tedesco Sanborn, Bushnell, FL
Ms Audrey Lauer, Kissimmee, FL
Linda and Alan Weiland, Chipley, FL
Rebecca Stallard, Boca Raton, FL
                                georgia
Alan E. Pigg, Marietta, GA
Joseph Bryan, Fayetteville, GA
Lawrence T. Lipford, Franklin, GA
Frank H. Barron, Newnan, GA
Margaret D Pierce, Atlanta, GA
Andy McNeely, Jr., Louisville, GA
Bryan Snow, Lyons, GA
Christy Powell, Statesboro, GA
David A Kidd, Comer, GA
Guy Dabbs, Madison, GA
Tyler Verdery, Washington, GA
Buford Sanders, Watkinsville, GA
Steve L. Welch, Appling, GA
Tom Mims, Hephzibah, GA
Wanda T. Barrs, Cochran, GA
Chuck Leavell, Dry Branch, GA
Carla Rapp, Forsyth, GA
Tommy Joines, Helena, GA
Colin Maldonado, Milledgeville, GA
Ruth Eilers, Milledgeville, GA
Warren Faircloth, Warner Robins, GA
Lynda G Beam, Savannah, GA
Lawanna King, Waycross, GA
Edward I. Herbert, Waycross, GA
Jorene Turner, Fitzgerald, GA
Joel Robertson, Lumpkin, GA
James Kent, Richland, GA
Allan Tucker, Iron City, GA
Jan Mazzucco, Winterville, GA
                                  iowa
Jim Sheets, Ames, IA
Paul Tauke, DeSota, IA
Craig Cable, Indianola, IA
Marilyn Dorland, Osceola, IA
Russell Wilkins, Runnells, IA
Charles E Semler, MD, Story City, IA
Denny Michel, Story City, IA
John Paule, West Des Moines, IA
Jon Grace, Des Moines, IA
Carl Varley, Clive, IA
Rick Adams, Algona, IA
Wayne Fuhlbrugge, Webster City, IA
Jon and Ann Schneckloth, Charles City, IA
Susan West, Fairbank, IA
Bruce Vosseller, Plainfield, IA
Richard Kaufman, Dubuque, IA
Brian Willhite, Colesburg, IA
Jim and Jody Kerns, Dyersville, IA
Agnes Kenney, Elkader, IA
Jerry Muff, Elkader, IA
Richard B & Mary E Hyde, Elkader, IA
Tom Kenney, Elkader, IA
Dean Gotto, Farley, IA
Terry J Weller, Garnavillo, IA
James Gamerdinger, Guttenberg, IA
Harold J. Krambeer, Saint Olaf, IA
Ace and Judy Hendricks, Decorah, IA
Lora Friest, Decorah, IA
Nancy Bolson, Decorah, IA
Richard Kittelson, Clermont, IA
Jim Farnsworth, McGregor, IA
James R McShane Lcdr (Ret), Waterville, IA
Shannon Ramsay, Anamosa, IA
Kevin Kelly, Clarence, IA
Paul Millice, Iowa City, IA
Dennis Goemaat, Marion, IA
Larry Wiley, Palo, IA
Max D. Grover, Rowley, IA
Allen J Wagner, Springville, IA
Larry Rummells, West Branch, IA
Tim Dohrmann, Cedar Rapids, IA
George and Janelle McClain, Cedar Rapids, IA
Levi Ward, Moravia, IA
Carl D. Petersen, Mediapolis, IA
Daryl H. Bohlen, West Burlington, IA
Bob Brown, Yarmouth, IA
Robert & Joyce Saacke, Farmersburg, IA
                                 idaho
David B. Reay, Horseshoe Bend, ID
John and Darlene Lillehaug, McCall, ID
Frank Fish, Boise, ID
Erik Sjoquist, Bonners Ferry, ID
Gordon Sanders, Cataldo, ID
Paul Buckland, CF 948, Coeur D Alene, ID
Steve and Janet Funk, Coeur D Alene, ID
Donald N. Heikkila, Harrison, ID
Thomas Davis, Hayden Lake, ID
Eric Besaw, Saint Maries, ID
Marianne Besaw, Saint Maries, ID
Steve Cuvala, Saint Maries, ID
Donald Collins, Boise, ID
                                illinois
Marion Mycynek, Des Plaines, IL
Barbara Gosh, Ingleside, IL
J. M. Tabor, Mount Prospect, IL
Brad Koschak, Spring Grove, IL
George Stone, Wilmette, IL
John and Joanne Oliver, Lake In The Hills, IL
Ted Knorring, Wheaton, IL
John W. Sims, Naperville, IL
M J Remec, Riverside, IL
Roger Grimes, Chicago, IL
Paul G Dennis Jr, Roscoe, IL
Barrie McVey, Vermont, IL
David Tebbe, Breese, IL
Eugene Van Dorn, Carlyle, IL
Rebecca Brummel, Collinsville, IL
Michael W. Jobst, Westfield, IL
Jack Wohlstadter, Havana, IL
Greg and Pat Zak, Springfield, IL
Bryan Keller, Anna, IL
                                indiana
Bob Burke, Martinsville, IN
David Applegate, Zionsville, IN
Kurt Pedersen, Indianapolis, IN
Rex A Brock, Bourbon, IN
Garry D. Weybright, Syracuse, IN
Charles Boebel, North Manchester, IN
Don Bonsett, Walton, IN
Ronald Gasaway, Elizabeth, IN
Fran Squires, New Albany, IN
Frank W Gottbrath, Pekin, IN
John Seifert, North Vernon, IN
Matthew Sherck, Connersville, IN
Kerry Winter Haver, Bloomfield, IN
Phyll Thomas, Nashville, IN
Robert Woodling, Unionville, IN
Eva McCullough, West Baden Springs, IN
Wesley G Crawford, Lafayette, IN
                                 kansas
Rebecca Shaffer, Louisburg, KS
Ryan Neises, Ottawa, KS
Caroline Kern, Denison, KS
Bob Atchison, Manhattan, KS
Larry G. Rutter, Meriden, KS
John Weilert, Fredonia, KS
Scott A. Sjolander, Scandia, KS
                                kentucky
Carolyn M Puckett, Franklin, KY
Philip Haag, La Grange, KY
Barry Joyce, Milton, KY
Stephen Perry, Pendleton, KY
Heather B. Singer, Louisville, KY
Kevin Woods, Morehead, KY
Jerry L. Adams, Winchester, KY
Mark Kamber, Lexington, KY
Ann Bowe, Lexington, KY
Robert Bauer, Frankfort, KY
Sarah Douglas Gracey, Frankfort, KY
Jared Calvert, Miracle, KY
Kevin Galloway, Maysville, KY
Roy Boggs, Prestonsburg, KY
Rick Harrell, Owensboro, KY
Matthew Adkins, Monticello, KY
Mark Wiedewitsch, Campbellsville, KY
Melven D Hack, Caneyville, KY
Belinda Wilkins-Smith, Greensburg, KY
                               louisiana
Eric Gee, Covington, LA
Ginny Nipper, Homer, LA
W. Allen Nipper, Homer, LA
Albert Smoak, Shreveport, LA
Edwin Edgerton, West Monroe, LA
C. McDavid Hughes, West Monroe, LA
Debbie Dodd, Alexandria, LA
C.A. ``Buck'' Vandersteen, Alexandria, LA
Vance and Paula Morris, Pineville, LA
                             massachusetts
Alden Bacon, Williamsburg, MA
Justamere Tree Farm, Worthington, MA
Amy Burdick, Pittsfield, MA
Wendy Zunitch, Pittsfield, MA
Sean Connors, Becket, MA
Bill & Chris Pike, Peru, MA
Christine Pike, Peru, MA
Gregory Cox, Charlemont, MA
Al Futterman, Ashby, MA
Brian LeBlanc, Lunenburg, MA
John Robbins, Concord, MA
Joan Cudhea, Middleton, MA
Nancy Delano, Duxbury, MA
Robert Delano, Duxbury, MA
                                maryland
Reg. Townsend, Drayden, MD
William Reed, Drayden, MD
Dawn Balinski, Lusby, MD
Bob Weisman, Nanjemoy, MD
Howard Anderson, Chesapeake Beach, MD
H.R. Wainwright, Highland, MD
Henry R Wainwright IV, Highland, MD
Robert H Lindgren, Gaithersburg, MD
Toby M. Turpin, Silver Spring, MD
Bryan Lightner, Bel Air, MD
Julie Bell Wadsworth, Cockeysville, MD
Joseph F. Friend, Columbia, MD
Ronald Hendricksen, Havre de Grace, MD
Donald C. Outen, Timonium, MD
John and Rosemary Beever, Monkton, MD
Jack Walther, Pylesville, MD
Kimberly A. Lewis, Pylesville, MD
Kermit & Cindy Crosby, Severn, MD
Nedda Pray, Sparks, MD
Connie Hoge, Westminster, MD
Leonard Wrabel, Westminster, MD
Andrew A. Holtan, Cardiff, MD
Steve Parker, Towson, MD
Sheryl Heydt, Baltimore, MD
Gary G. Allen, Annapolis, MD
Juls & Barbara Wood, Cumberland, MD
Dottie Turner, Frostburg, MD
Charles N. Hoffeditz, Ph. D., McHenry, MD
Gregan Crawford, Oakland, MD
David K Sharretts, Chestertown, MD
Nevin Dawson, Chestertown, MD
Charles R MacFarland, Adamstown, MD
Matthew Carroll, Boonsboro, MD
Don & Linda Grove, Hagerstown, MD
Judith Niedzielski, Hagerstown, MD
Chester and Jane Wagstaff, New Market, MD
Ron Free, Thurmont, MD
Claude Eans, Walkersville, MD
Larry Arthur, Walkersville, MD
Robert Hess, Marion Station, MD
Dori Murphy, North East, MD
Gabrielle D. Oldham, North East, MD
Donald L. Wolle, Elkton, MD
Margaret Dickerson, Chestertown, MD
Teri Dickerson Batchelor, Chestertown, MD
                                 maine
Earlene Chadbourne, Cumberland, ME
John Schwanda, Freeport, ME
Calvin Hamblen, Gorham, ME
Fred M Mitchell, Lovell, ME
Josiah Pierce, West Baldwin, ME
Anton G. Wagner, Cape Elizabeth, ME
Janet E. Stowell, Bethel, ME
Peter A Jolicoeur, Greene, ME
Harold Burnett, Winthrop, ME
Kevin T McCarthy, Winthrop, ME
Carl H. Sanborn, Bangor, ME
David Wardrop, Bangor, ME
Andrew Abello, Edgecomb, ME
Edson R. Small Jr., Waterville, ME
Greta M. Essency, Farmington, ME
                                michigan
Dean and Susan Reid, Saint Ignace, MI
Elizabeth Stone, Ann Arbor, MI
Jody G. Scott, Ann Arbor, MI
Alfred R. Glancy, Jr., Grosse Pointe, MI
Ruth Glancy, Grosse Pointe, MI
Michael H. Mansour, Lake Orion, MI
Jim Gregart, Harrisville, MI
Shawna Meyer, Grand Ledge, MI
Debra Huff, Laingsburg, MI
Scott Robbins, Lansing, MI
Joyce Hare, Portage, MI
Judith Brook, Three Rivers, MI
Mary Menold, Arcadia, MI
Jessica Turino, Manton, MI
Karen Serfass, Dafter, MI
Matthew R. Brooks, Sault Sainte Marie, MI
John Van Dyke, Trout Lake, MI
Dennis P Renken, Escanaba, MI
Gerald Grossman, Newberry, MI
Bruce Maki, Atlantic Mine, MI
Byron R. Sailor, Baraga, MI
James M. Schmierer, Houghton, MI
                               minnesota
Jon P Bergin, Lake City, MN
Neal W. Chapman, Roseville, MN
Joanne Englund, Saint Paul, MN
Robert Helfinstine, Ramsey, MN
Edward and Janet King, Eden Prairie, MN
Richard Naaktgeboren, Maple Lake, MN
Clement Engen, Minneapolis, MN
Charles R. Hughes, Minneapolis, MN
Ron Reich, Bloomington, MN
Paul Omberg, Esko, MN
Richard Chalupsky, Hibbing, MN
Bruce Barker, Duluth, MN
Valiree Green, Brownsville, MN
Timothy M. Gossman, Chatfield, MN
LaVerne Hofschulte, Elgin, MN
Sarah Greenheck, Wabasha, MN
Natalie Hodapp, Mankato, MN
Ernest Schmitt, Brandon, MN
Thomas Kroll, Long Prairie, MN
Robert Perleberg, Pierz, MN
Steve Donnay, Sauk Centre, MN
Tom Witkowski, Brainerd, MN
Gary Woehler, Crosby, MN
David H Larsen, Nevis, MN
Richard Magaard, Nevis, MN
John Wallin, Pequot Lakes, MN
John F. Walte, Georgetown, MN
Perry Eide, International Falls, MN
Steve Earley, International Falls, MN
                                missouri
David A Watson, Chesterfield, MO
Nancy J. Brod, DeSoto, MO
John Heckmann, Glencoe, MO
Wonder Koch, Saint Louis, MO
Steve Lovell, Saint Louis, MO
Rick Merritt, Eolia, MO
Daniel L Moncheski, Saint Peters, MO
Daniel Joseph Cunningham, La Plata, MO
Larry Lackamp, Bates City, MO
Carl Hepting, Kansas City, MO
Kirk Fine, Gladstone, MO
Martha E. Clark, Helena, MO
Nathaniel R. Forbes, Neosho, MO
Barbara J Ittner, Noel, MO
Dwight Ittner, Noel, MO
Gary Lyndaker, Gravois Mills, MO
Joe Akers, New Bloomfield, MO
Bill McGuire, Jefferson City, MO
John Fleming, Jefferson City, MO
Shelby G Jones, Jefferson City, MO
Matt Arndt, Columbia, MO
Jerry Van Sambeek, Columbia, MO
Bo Wendleton, Boonville, MO
Daniel Hatch, Licking, MO
Kevin Poe, Roby, MO
David Emerson, Ava, MO
Elizabeth Josephson, Oldfield, MO
Richard F and Esther L Myers, Protem, MO
Jay King, Willard, MO
R. Scott Brundage, Columbia, MO
                              mississippi
Justin Dewberry, New Albany, MS
Mark Smith, Oxford, MS
Dennis I Wright MD, Tupelo, MS
Chad Robertson, Amory, MS
Margaret Marlin, Fulton, MS
Brendix Glasgow, Tishomingo, MS
Brant Godbold, Grenada, MS
Bryan McCartney, Grenada, MS
E L Dabbs, Brandon, MS
Betsy K Padgett, Lexington, MS
Freddy Upton, Madison, MS
Tate Ervin, Madison, MS
C. Barlow, Raymond, MS
Margaret Munford, Jackson, MS
Tony K. Morgan, Meridian, MS
Harold Anderson, Philadelphia, MS
John E. Green, Hattiesburg, MS
John Meador, Hattiesburg, MS
Daphna Hummer, Columbia, MS
Carl Blackledge Jr, Laurel, MS
Tommy Cotten, Laurel, MS
Bob Hynson, Laurel, MS
Ruth Cook, Seminary, MS
Henry A. Hudson, Jr., Sumrall, MS
William W. Powell, Gulfport, MS
Kelly Raulerson, Perkinston, MS
Mark Bullock, Bogue Chitto, MS
Travis Stewart, Liberty, MS
Mary Emma Lansing, Magnolia, MS
James D. (David) Hancock, Summit, MS
Patrick Brown, Caledonia, MS
Charles W. Dismukes, Kilmichael, MS
Andrew Self, Starkville, MS
Sarah Self, Starkville, MS
James Henderson, Mississippi State, MS
                                montana
Marion Wambach, Denton, MT
Gary E. Johnson, Missoula, MT
Joe Moran, Drummond, MT
Charles Crouter, Florence, MT
Jim Christensen, Philipsburg, MT
Patricia Young, Philipsburg, MT
Everett J Young, Plains, MT
Jim Watson, Kalispell, MT
Laurence Schroeder, Bigfork, MT
Paul R. McKenzie, Columbia Falls, MT
Valerie A. Beebe, Kila, MT
Jim Kibler, Troy, MT
                             north carolina
Patrick Callaghan, Lewisville, NC
James M. (Jim) Long, Blanch, NC
Libby Jordan, Candor, NC
G. Boon Chesson, Troy, NC
Paul Dean, Cary, NC
Colby Lambert, Fuquay Varina, NC
David Halley, Holly Springs, NC
Ann M. Daniel, Raleigh, NC
Thomas Keller, Durham, NC
Laurell Malone, Durham, NC
Daniel Reynolds, Farmville, NC
Danny R. Maness, Halifax, NC
Cyndi Williams, Nashville, NC
Alice Ricks, Roanoke Rapids, NC
Benjamin Riddick Ricks, Roanoke Rapids, NC
Allan L. Weller, Washington, NC
Meissa Patrick, Washington, NC
Melissa Berrier, Cherryville, NC
John C Miller, Charlotte, NC
Dwight Andrews, Charlotte, NC
Tim Jackson, Dunn, NC
Thaddeus N. Banks, Roseboro, NC
Scott Smearman, Wagram, NC
D. Thompson Tew, Wilmington, NC
Jim Durham, Wilmington, NC
Phillip Brock, Holden Beach, NC
Dwight H. Gerding, Hookerton, NC
Vernon J. Daniels, Jr., Merritt, NC
Bryan Hulka, New Bern, NC
Charles & Carole Torpy, Canton, NC
Katrine Frye, Old Fort, NC
Albert Shaw, Clarkton, NC
Albert Coffey, Wake Forest, NC
                              north dakota
Pamela Meier, Mott, ND
Tim Hanson, Fort Ransom, ND
Anne Hill, Amenia, ND
Kevin R Hartl, Enderlin, ND
                                nebraska
Steve Karloff, Omaha, NE
  
                             new hampshire
Mark Pitman, Francestown, NH
Jean Ragonese, Fremont, NH
William Downs, Mason, NH
Douglas Foprd, New Ipswich, NH
Donald Jackson, Bradford, NH
John M Hodsdon, Meredith, NH
Robert E. Hardy, Tilton, NH
Paul and Deb Doscher, Weare, NH
Rita Carroll, Concord, NH
Robert Bradbury, Concord, NH
Tom Natale, Penacook, NH
John Satas, Troy, NH
Todd Carter, Troy, NH
Haven Neal, Berlin, NH
Putnam W. Blodgett, Lyme, NH
Marilyn Bott, East Kingston, NH
Steve and Elaine Pike, Strafford, NH
                               new jersey
J Anderson, Maplewood, NJ
Tracy R. Cate, Maplewood, NJ
Joseph M. Lashendock III, East Rutherford, NJ
Ron Farr, Newfoundland, NJ
Greg Daly, Oak Ridge, NJ
Timothy Slavin, Stockholm, NJ
Elmer Platz, Vernon, NJ
Clifford G. Raisch, Red Bank, NJ
Ken Schrankel, Holmdel, NJ
Theresa Seibert, Branchville, NJ
Julia Hartenfels, Montague, NJ
Phil Taylor, Columbia, NJ
Brian Cowden, Flanders, NJ
Daniel E. and J. Carolyn Kent, III, Newton, NJ
Doug Tavella, Newton, NJ
Cecelia Illing, Port Murray, NJ
Fred Haffner, Port Murray, NJ
Keith Begraft, Sparta, NJ
Ken Taaffe, Lumberton, NJ
Sam & Susan Marquez, Williamstown, NJ
Frank A. Burns, Leeds Point, NJ
John Benton, Chesterfield, NJ
Les Alpaugh, Stockton, NJ
Ronald J. Sheay, Stockton, NJ
Conrad J. Franz, Trenton, NJ
Charles J Newlon, Trenton, NJ
Scott Hale, Annandale, NJ
The Powers Family, Asbury, NJ
Dennis Galway, Bernardsville, NJ
Jean Blancato, West Milford, NJ
Maria Gsell, Far Hills, NJ
Leah Glucroft, Boonton, NJ
Eric Dornfeld, Long Valley, NJ
Thomas Walsh, Asbury, NJ
Marie L. Cirelli, Lafayette, NJ
Matthew Kathenes, Great Meadows, NJ
Cheri Kathenes, Great Meadows, NJ
Kyle Kathenes, Great Meadows, NJ
Tori Kathenes, Great Meadows, NJ
Michael Quirk, Rockaway, NJ
                               new mexico
Nina Helms, Cuba, NM
Robert B. Foster, Tijeras, NM
Don Berryman, Cebolla, NM
Joseph Stehling, Ocate, NM
                                 nevada
May M McInnis, Caliente, NV
James Lundy, Glenbrook, NV
Terry Aulston, Sparks, NV
Maxine Weiss, Washoe Valley, NV
                                new york
Arthur Wagner, Bronx, NY
Michael Patrick Roach, Cortlandt Manor, NY
Steven A. Knapp, Putnam Valley, NY
John Zylstra, Johnson, NY
Jeanette Vuocolo, Brooklyn, NY
Matthew Gross, Howard Beach, NY
Maureen H Ariola, Holbrook, NY
Jonathan Sferazo, Huntington Station, NY
Gary Kalinkewicz, Galway, NY
Douglas W. Murphy, Stamford, NY
Kathleen Riehl, Schenectady, NY
Elizabeth R. Apgar Triano, Patterson, NY
Barbara Lucas-Wilson, Rhinebeck, NY
Kathrine Rodriguez, Wappingers Falls, NY
Richard J Cipperly, Queensbury, NY
Russell Lacroix, Greenwich, NY
Kenneth T Walder, Hadley, NY
Robert Manning, Johnsburg, NY
Raymond M Scollin, Saranac Lake, NY
Michael Endress, Cortland, NY
Richard Pancoe, Earlville, NY
Don Carbone, Utica, NY
Andrew Willard, Hermon, NY
Sally & Don Chirlin, Norwich, NY
Paul Nowak, Akron, NY
Robert Gorecki, Hamburg, NY
Patrick Marren, Buffalo, NY
Russell L Gardner, Naples, NY
Stanley Olshefski, Rochester, NY
William Hughey, Hinsdale, NY
Tim Levatich, Brooktondale, NY
Daniel J. Cleveland, Erin, NY
                                  ohio
Danuta Lange, Swanton, OH
Denise A. Heban, Swanton, OH
Walt Lange, Swanton, OH
Clayton Rico, Zanesville, OH
Ken Scherf, Byesville, OH
Bob Ball, Caldwell, OH
Cassandra Ridenour, Gratiot, OH
Jeff Wilson, McConnelsville, OH
Jeremy Scherf, New Concord, OH
Matthew Micozzi, Port Washington, OH
Tom Cushing, Ohio Tree Farmer, Scio, OH
Leo Deininger, Cleveland, OH
Ruth Skuly, Cleveland, OH
Barry L. Ulrich, Wadsworth, OH
James T. Elze, Salem, OH
Rick Miller, Dover, OH
Robert Hunter, Glenmont, OH
Gordon W. Zemrock, Shreve, OH
Kathleen Myers, North Canton, OH
Don Ruffing, Bellevue, OH
Clarence Roller, Amelia, OH
Roger & Diana Benter, Batavia, OH
Walt Saranen, Hillsboro, OH
Vincent Urbanek, Cincinnati, OH
Michael J. Besonen, Chillicothe, OH
Jerry Grezlik, Beaver, OH
Ann Hamilton, Athens, OH
Janet Sweigart, Ada, OH
Thomas R. Mills, Findlay, OH
                                oklahoma
George Geissler, Norman, OK
Erin Johnson, Oklahoma City, OK
Kurtis Koll, Lawton, OK
Patt Nelson, Tulsa, OK
Page Belcher, Jay, OK
Christina Stallings Roberson, Pryor, OK
Steve Couch, Tahlequah, OK
Jason Whaley, McAlester, OK
Chris Joslin, Antlers, OK
Chris Parrington, Wilburton, OK
Andy James, Broken Bow, OK
Caleb Fields, Broken Bow, OK
                                 oregon
Ingrid Harper, Beaverton, OR
Margaret Mills, Molalla, OR
Ivan Allen, Saint Helens, OR
Ron Preston, Sandy, OR
Tom Keys, Gresham, OR
Thomas Scoggins, Astoria, OR
Bob and Bonnie Shumaker, Banks, OR
Barbara Brunson, Hillsboro, OR
Craig Alness, Portland, OR
Donald Beaman, Portland, OR
Rainer Hummel, Portland, OR
Rick Zenn, Portland, OR
David Ford, Tigard, OR
Richard W. Courter, ACF, CF, Portland, OR
Jim James, Salem, OR
Mickey Bellman, MSB Consulting Inc., Salem, OR
Dave Schmidt, Albany, OR
Larry Blair, Dallas, OR
Joe Holmberg, Lebanon, OR
Chris Woodward, Lyons, OR
Julie Woodward, Lyons, OR
Clint Bentz, Scio, OR
R Beers, Eugene, OR
Michael R. Atkinson, Eugene, OR
Larry Strickland, Cottage Grove, OR
Warren and Maureen Weathers, Lowell, OR
Bruno C Meyer, Medford, OR
Michael S Meredith, Medford, OR
Donn Comte, Ashland, OR
John Wilda, Klamath Falls, OR
James Edwards, The Dalles, OR
                              pennsylvania
Fred and Debbie Kovalchuk, Donora, PA
David Schreffler, Everett, PA
John Akers, Everett, PA
Tresa L. McVicker, Davidsville, PA
Mark Patterson, Jackson Center, PA
Georgann Kovacovsky, New Bethlehem, PA
Liz Krug, Erie, PA
Harry Pionke, State College, PA
Susan S. Benedict, State College, PA
Dave Jackson, Pleasant Gap, PA
Mike Whitehill, Howard, PA
Allyson Muth, Pine Grove Mills, PA
Linda L. Finley, Port Matilda, PA
David T. Twining, Carlisle, PA
Bruce W. Kile, Biglerville, PA
John Van Ness, Brogue, PA
Gail Landers, Williamsport, PA
John Kuryloski, Millville, PA
Bobbie J. Knudson, Allentown, PA
Nancy G.W. Baker, Sugar Run, PA
Sean T. Carroll, Bryn Mawr, PA
Barry Berkowitz, Fort Washington, PA
Stewart Keener, Philadelphia, PA
Lloyd R. Casey, West Chester, PA
Bonnie Seitzinger, Shartlesville, PA
                              rhode island
Tom Dupree, West Greenwich, RI
Richard K St.Aubin, Little Compton, RI
Milton Schumacher, North Scituate, RI
                             south carolina
Dave Hegler, Kershaw, SC
Charles M. Hemingway, Jr., Manning, SC
Thomas W, Sawyer, Monetta, SC
Harry L. Norton, Summerton, SC
Maxine LeRoy, Charleston, SC
Jay Jackson, Moncks Corner, SC
William Howard, Summerville, SC
Ken Stuart, Bennettsville, SC
Leon Grayson, Kingstree, SC
Jim Bland, Pawleys Island, SC
Carolyn Grayson, Andrews, SC
George Kessler, Central, SC
Eric W. Smith, Greenwood, SC
Walt McPhail, Mauldin, SC
Brent Reed, Chester, SC
Russ Carter, Chesterfield, SC
                              south dakota
Peter Schaefer, Brookings, SD
David & Karen Papcke, Hot Springs, SD
Dianne Miller, Spearfish, SD
                               tennessee
Robert and Laura Qualmaln, Brentwood, TN
Kerry Livengood, Chapel Hill, TN
Linda Hamm, Cunningham, TN
Herb Paugh, Pleasant View, TN
Stephen B. Owen, Benton, TN
Dan Wernick, Kingsport, TN
Russell J. Scott, Harriman, TN
Mark Horne, Huntsville, TN
Steve Roark, Tazewell, TN
Brenda Heindl, Collierville, TN
Cyrus Johnson, Memphis, TN
David Mercker, Jackson, TN
Jeffrey L. Mace, Michie, TN
Sharon Keen, Ramer, TN
John Ross, Savannah, TN
Jeff Thompson, Hilham, TN
Charles Daugherty, Crossville, TN
Stanley B. Leach Sr., Walling, TN
                                 texas
Hance Burrow, Dallas, TX
Howard Moore, Dallas, TX
James Hugh Jones, Paris, TX
Bill Russell, Carthage, TX
Bob Herrin, Marshall, TX
Jim Thompson, Larue, TX
Ronald C. Holcomb, Larue, TX
Donna Freeman, Palestine, TX
Randolph S. Robinson, Palestine, TX
Rick Kaminski, Trinity, TX
Frank B. Shockley, Lufkin, TX
Dan Spivey, Lufkin, TX
Dr. Donald M. Grosman, Lufkin, TX
Carl Taylor, Alto, TX
Ralph W. Schwausch, Garrison, TX
Richard Dottellis, Jasper, TX
Michael M. Pickard, Nacogdoches, TX
Daisy and Dan Braswell, Colleyville, TX
Pamela T. De La Cruz, Grapevine, TX
Judith Franklin, Waco, TX
Ron Mitchell, Houston, TX
Robert Hinton, Houston, TX
Robert E. and Glenda Myers, Houston, TX
Christine Russler, Houston, TX
Earl and Meredith Touchstone, Houston, TX
Jordan Herrin, Huntsville, TX
Roy L. Brunson, Spring, TX
Walter Harbuck, Pasadena, TX
Michael Stryker, San Antonio, TX
Carl Schattenberg, Austin, TX
Jane Baxter, Trinity, TX
                                virginia
William Ameen, Manassas, VA
Natalie Pien, Leesburg, VA
Tom Martin, Falls Church, VA
Jennifer Zimmerman, Falls Church, VA
R. Neil Sampson, Alexandria, VA
Mary Alexander, Alexandria, VA
James B. Kuykendall, Spotsylvania, VA
Ann Herren, Winchester, VA
George J. & Rhoda W. Kriz, Winchester, VA
Joseph R Zimmerman, Winchester, VA
Greg Richard, Star Tannery, VA
David Powell, Charlottesville, VA
John Kauffman, Charlottesville, VA
Anne & Ted Stelter, Orange, VA
Robert S Wait, Ashland, VA
Paul Howe, Glen Allen, VA
Norwood and Emily Nuckols, Glen Allen, VA
Ann Haley Long, Hanover, VA
Norman L. Long, Hanover, VA
Jesse T Crawford III ACF,RF, King William, VA
Tom Harlan, Midlothian, VA
Edward Sontag, Richmond, VA
Leslie Magalis, Henrico, VA
Bruce Powell, Smithfield, VA
Neil Clark, Suffolk, VA
Keith Alston, Windsor, VA
Michelle Alston, Windsor, VA
Malcolm Convington, Petersburg, VA
Mike T. Jones, Jarratt, VA
Denise Wlodyka, Sedley, VA
Kirby Woolfolk, Crewe, VA
Tom Newbill, Hardy, VA
Donald G. Drake, Buena Vista, VA
Shelby L. Spradlin, Jr., Lynchburg, VA
Jay Phaup, Amherst, VA
Ricky Butler, Appomattox, VA
                                vermont
Peter Silberfarb, Norwich, VT
Robert J. Pulaski, Post Mills, VT
Jessica Eaton, Thetford, VT
Margaret Sherlock, Tunbridge, VT
Jen Loyd-Pain, Bennington, VT
John McNerney, New Haven, VT
David Paganelli, Barre, VT
Sam Miller, Waterbury Center, VT
Kathleen Wanner, Chittenden, VT
Trevor Evans, Newport, VT
Alan M. Robertson, Sheffield, VT
                               washington
Michael and Tammie Perreault, Olympia, WA
David Townsend, Bellevue, WA
Angela and Jacob Kirkman, Bellevue, WA
Kimbel Gauthier, Fall City, WA
David Keller, Issaquah, WA
Mary Jaeger, Kent, WA
Donald Hanley, Kirkland, WA
Kristiann Schoening, Mercer Island, WA
Jeanne Koruga, Woodinville, WA
Frederick W. Hayes, Seattle, WA
Alex & Harvey Greenberg, Seattle, WA
William Scott, Seattle, WA
Charles Adams, Seattle, WA
Bob Viggers, Seattle, WA
Roger P. Foucher, Seattle, WA
Nancy Storey, Seattle, WA
Julie Nyborg, Des Moines, WA
Ron Nyborg, Des Moines, WA
Jo Ellen Gillmore, Seattle, WA
Karl G. Stout, Anacortes, WA
Shaunna Harris, Arlington, WA
Diane Garmo, Bellingham, WA
William Franklin, Bellingham, WA
Aubrey Stargell, Bellingham, WA
David Hess, Bow, WA
Loren Schmidt, Concrete, WA
Doug McKee, Coupeville, WA
Katie Collins, Freeland, WA
Kenneth Cohen, Langley, WA
Susan Lindsey Cohen, Langley, WA
Merlene Buller, Marblemount, WA
Saxton's Timber Farm & Sanctuary, LLC, Monroe, WA
AL Craney, CF, Mount Vernon, WA
James V. Owens, Mount Vernon, WA
Kathryn Kerby, Snohomish, WA
April Reid, Bremerton, WA
Ryan Sandstrom, Bremerton, WA
Eric and Joan Hendricks, Brinnon, WA
Charles K. McTee, Eatonville, WA
Paul Alvestad, Gig Harbor, WA
Chris & Linda Goodman (Back40 Forest), Gig Harbor, WA
Catherine Wright, Port Angeles, WA
Robert Kavanaugh, Port Angeles, WA
Coy Eshom, Port Orchard, WA
William Wheeler, Quilcene, WA
Patty Vance, Randle, WA
Kenneth Lundemo, Seabeck, WA
Philip and Teri Martin, Sequim, WA
Helen and Drew Daly, Silverdale, WA
Deborah A Sage, South Prairie, WA
Stephen Ackley, South Prairie, WA
Matthew Miller, Tacoma, WA
Fred L Wagner, University Place, WA
Scott E Swanson, Tacoma, WA
Galen M. Wright, Tumwater, WA
Kirk Hanson, Tumwater, WA
Lynette Falkner, Tumwater, WA
Ron Nelson, Tumwater, WA
Jeanette L. Friis, Olympia, WA
John and Sue Yoachim, Olympia, WA
Roy E. Friis, Olympia, WA
Denny Adkisson, Lacey, WA
John B. Sutherland, Lacey, WA
Nels Hanson, Lacey, WA
Brian Thompson, Tumwater, WA
Dan L. and Joanne M. Campbell, Tumwater, WA
Ken & Bonnie Miller, Tumwater, WA
Norma Green, Tumwater, WA
Alab B. Cain, Olympia, WA
Thomas A. Terry, Olympia, WA
Scott Berken, Aberdeen, WA
Bryon Loucks, Centralia, WA
Charles Codddington, Chehalis, WA
Jim and Trish Murphy, Chehalis, WA
Laura Moerke Jones, Chehalis, WA
Steve Webster, Chehalis, WA
Tom and Sherry Fox, Ethel, WA
Sam and Joy Comstock, Grapeview, WA
Elizabeth Perry, Montesano, WA
Howard Wilson, Montesano, WA
John Henrikson, Oakville, WA
Richard Decker, Onalaska, WA
Russell Armitage, Onalaska, WA
Kamiele Anderson, Rochester, WA
Sylvia Russell and Brian Wester, Roy, WA
John F. Gorman, Shelton, WA
Norris A. Petit, South Bend, WA
Steve Stinson, Toledo, WA
Lou Jean Clark, Winlock, WA
Mike Rotschy, Amboy, WA
Anita Gahimer Crow and Dennis Crow, Bingen, WA
Brian Beeson, Camas, WA
John and Judy Straub, Camas, WA
Kevin Howard, Glenwood, WA
B.J.Jones, Goldendale, WA
Dwayne A. Hansen, Goldendale, WA
Judy and Don Thomas, Goldendale, WA
Vic Blandine, Goldendale, WA
Andrew M. Schreiber, Klickitat, WA
Mary Ann Cincotta, La Center, WA
Julie Ikenberry, Lyle, WA
Ted Stubblefield, Ridgefield, WA
Andrew Jacobson, Trout Lake, WA
Deo and Karen Fisher, Trout Lake, WA
Donald Cox, Trout Lake, WA
Mike Daly, Trout Lake, WA
Patricia L. Arnold, Trout Lake, WA
Hank Patton, Underwood, WA
Irene Jonas, Vancouver, WA
Milan Kokta, Washougal, WA
Alec and Judith Maule, White Salmon, WA
Charles R. Gadway, White Salmon, WA
Jesse Calkins, White Salmon, WA
Michael C Glover, White Salmon, WA
Whitney Miller, White Salmon, WA
Annette Cowan, Yacolt, WA
Douglas P. Bailes, Yacolt, WA
Gary W Brown, Vancouver, WA
Cliff Aaby, Vancouver, WA
Erik Folke, East Wenatchee, WA
Ross & Marianne Frank, Leavenworth, WA
Suzanne Saunders, Leavenworth, WA
Phil & Kris Baker, Tonasket, WA
John & Yolanda Randlett, Cle Elum, WA
John P. (Phil) Hess, Cle Elum, WA
Karen Bailey, Cle Elum, WA
Ronald Miller, Cle Elum, WA
Erin Kreutz, Ellensburg, WA
W R ``Bill'' and Marge Fautch, Newman Lake, WA
Steve Zender, Chewelah, WA
Alan & Ruby Walker, Lost Creek Tree Farm, Curlew, WA
Ray & Jo Bunney, Cusick, WA
Vern Guenther, Hunters, WA
Susan Dechant, Kettle Falls, WA
Ed Styskel, Newport, WA
Mark Simpson, Newport, WA
Robert Thornton, Springdale, WA
Neil Felgenhauer, Spokane, WA
Mike Brewer, Spokane, WA
Shirley Hesseltine, Spokane, WA
Guy Gifford, Spokane, WA
Judy Turner, Dayton, WA
Sandra Colleen Duncan, Lyle, WA
Patti Playfair, Chewelah, WA
Nicole Campbell, Goldendale, WA
Roberta M. Easter, Amboy, WA
                               wisconsin
Steven Beck, Eden, WI
John and Martha Stoltenberg, Elkhart Lake, WI
John D Kucksdorf, Random Lake, WI
Ronald R. Ziegler, Burlington, WI
Ronald Rohrmayer, Dousman, WI
Kendra Johncock, Elkhorn, WI
Art Reimer, New Berlin, WI
Randy and Karen Cooper, New Berlin, WI
Richard Thompson, Lake Geneva, WI
Wil LaJoie Family, Waukesha, WI
John Ballogh, Wauwatosa, WI
Timothy Steffen, Wauwatosa, WI
David DeBarge, Milwaukee, WI
Greg Jervis, West Allis, WI
Connie Champnoise, Blue River, WI
Holly Schnitzler, Cambridge, WI
Joe Arington, Cambridge, WI
James Widder, Dodgeville, WI
Ronald Reynolds, Fort Atkinson, WI
Lee Fahrney, Hollandale, WI
Don Gabower, Janesville, WI
Loren Hanson, Janesville, WI
Stanley Nichols, McFarland, WI
Richard Wells, Mazomanie, WI
David Hatz, Merrimac, WI
Steve Parks, Middleton, WI
Penelope Shackelford, Milton, WI
Ron Martin, Milton, WI
Bill Cary, Richland Center, WI
L E. Stevenson, Richland Center, WI
Russ Reddemann, Spring Green, WI
Craig L. Johanesen, Stoughton, WI
Carol Pollock, Waunakee, WI
Jeffrey Pollock, Waunakee, WI
Amy Wencel, Madison, WI
Tom Donahue, Madison, WI
Brent McCown, Madison, WI
Douglas Duren, Madison, WI
Thomas E. Hamilton, Madison, WI
Dan Amend, Madison, WI
Lucy Gibson, Madison, WI
Michael J Roy, Madison, WI
David Niehoff, Madison, WI
Jerome Harms, Madison, WI
Craig Hollingsworth, Lancaster, WI
Marvin Pinkowski, Friendship, WI
Jean Winther, Marquette, WI
Gregory Knuteson, Poynette, WI
James P. Morgan, Reedsburg, WI
Jack Rasmussen, Baldwin, WI
Judy Padour, Crivitz, WI
Thomas A. Jacobs, Crivitz, WI
Craig Butler, Fence, WI
Robert Nett, Pulaski, WI
Debbie Boettcher, Seymour, WI
Perry D. Pierre, Seymour, WI
Pam Firgens, Suring, WI
Kathleen & Jon Marsh, Townsend, WI
Mike Bohman, Algoma, WI
Randy Cunningham, Green Bay, WI
Ron Bahr, Wausau, WI
Kelly Meronk, Amherst, WI
Randy Williams, Antigo, WI
Ron Resch, Birnamwood, WI
Larry Eggman, Loyal, WI
Daniel A. Flees, Marshfield, WI
George Sparks, Marshfield, WI
Scott G Tranbarger, Nekoosa, WI
Charles Pogorelcnik, Ogema, WI
Joseph B Holman, Plover, WI
James H Jackson, Stevens Point, WI
Dale Zaug, Tigerton, WI
Dave Jones, Willard, WI
Richard P Teske, Boulder Junction, WI
Carl Garske, Harshaw, WI
Gary B. Schlosstein, Alma, WI
Tom W. Ebert, Black River Falls, WI
John and Karen Jaeger, Coon Valley, WI
Paul Richardson, Hillsboro, WI
Rich Joiner, Hixton, WI
James Fischer, Taylor, WI
Lester Hoag, Tomah, WI
J Kevin & Janet Johnson, Eau Claire, WI
Dennis Ferstenou, Chippewa Falls, WI
Steven and Lois Raether, Chippewa Falls, WI
Otto Waldbuesser, Menomonie, WI
Glenn Anderson, New Auburn, WI
Dennis L. Waterman, Cameron, WI
Kim and Neal W Chapman, Frederic, WI
Willard D. Kiefer, Lake Nebagamon, WI
Kent Makela, Maple, WI
Cal Boren, Oshkosh, WI
James Zdanovec, Oshkosh, WI
Steven Foust, Oshkosh, WI
Fred Corsmeier, Appleton, WI
Eugene Berlowski, Berlin, WI
Steven Edwards, Fremont, WI
Nancy M. Livingston, Hancock, WI
Chris Splichal, Hortonville, WI
Merlin C. Becker, Manawa, WI
Gary Schneider, New London, WI
Richard Wickham, Omro, WI
Cherie Hennes, Plainfield, WI
David R Stoiber, Scandinavia, WI
Donald Mark Lochner, Waupaca, WI
Wayne L Ziebell, Waupaca, WI
Buzz Vahradian, Wautoma, WI
FieldStone Farms, Ltd., Wautoma, WI
James A. Rivers, Wild Rose, WI
Tina Wickham, Omro, WI
David R Wilson, Frederic, WI
Don Grassl, Wausau, WI
                             west virginia
Lewis Foe, Arbovale, WV
J. W. Larew, Greenville, WV
Chad Moles, Elkview, WV
Timothy Fink, Tornado, WV
Russ Richardson, Arnoldsburg, WV
Robert Marshall, Kenna, WV
Cinda Francis, Sandyville, WV
Bill Pepper, Charleston, WV
Denis Foley, Hedgesville, WV
Ron Gibson, Ona, WV
David J Bennett, Parkersburg, WV
Gerald William ``Jerry'' Waybright, Washington, WV
Jim Mitchell, Buckhannon, WV
Simeon Duke Layfield, Buckhannon, WV
Barbara Craft Myers, Valley Head, WV
                                wyoming
John C. Varner, Encampment, WY
Lucy Diggins-Wold, Green River, WY
                                 ______
                                 
    Prepared Statement of the African Wildlife Foundation; American 
Veterinary Medical Association; Association of Zoos & Aquariums; Bonobo 
 Conservation Initiative; Born Free USA; The Dian Fossey Gorilla Fund 
      International; Fauna & Flora International; Humane Society 
 International; The Humane Society of the United States; International 
Crane Foundation; International Elephant Foundation; International Fund 
for Animal Welfare; the Jane Goodall Institute; The Nature Conservancy; 
 Ringling Bros. and Barnum & Bailey Center for Elephant Conservation; 
    Rare Species Fund; International Rhino Foundation; Safari Club 
 International; Sea Turtle Conservancy; Wildlife Conservation Society; 
                        and World Wildlife Fund

    Chairman Reed, Ranking Member Murkowski and Members of the 
Subcommittee, the undersigned groups submit this testimony on the 
importance of the international conservation programs within the U.S. 
Fish and Wildlife Service (USFWS) Office of International Affairs, 
specifically the Multinational Species Conservation Fund, the Wildlife 
Without Borders and International Wildlife Trade programs. These 
programs enjoy the support of a broad-based coalition comprised of 33 
organizations representing sportsmen, conservationists, zoos, 
aquariums, circuses, veterinarians, animal welfare groups and their 
more than 20 million members. We thank you for your past and consistent 
support for these programs. In fiscal year 2013, we respectfully 
request your support for continued funding of the Multinational Species 
Conservation Fund at the Administration's requested level of $9.98 
million. We also request continued support for the Office of 
International Affairs at $13 million, as requested by the 
Administration in the fiscal year 2013.
    Wildlife conservation programs are a modest but essential piece of 
the United States' engagement with the developing world. Efforts to 
conserve our planet's wildlife and habitat are of the highest urgency. 
Extinctions are irreversible and increasing at an unprecedented rate. 
Because wildlife recognizes no political borders, an effective response 
requires nations to work together cooperatively, and because these 
animals often reside in relatively impoverished developing countries, 
support from interested countries such as the United States is crucial. 
The U.S. Government has been a consistent leader in this respect, and 
the modest funding for these programs goes a very long way, reaping 
significant returns and making them an excellent investment.

                MULTINATIONAL SPECIES CONSERVATION FUND

    Through the Multinational Species Conservation Fund (MSCF), the 
United States supplements the efforts of developing countries 
struggling to balance the needs of their human populations and endemic 
wildlife. These modest Federal programs, administered by the USFWS, 
make targeted investments in conservation of several global priority 
species. In 1989, Congress passed the African Elephant Conservation Act 
authorizing a dedicated fund in response to the threat posed to that 
species by rampant ivory poaching. Four more funds have since been 
authorized to support the conservation of Asian elephants, great apes, 
marine turtles, and tigers and rhinos. Each of the funds is authorized 
at $5 million, with the exception of the Rhino-Tiger Conservation Fund, 
which was intended as a double fund to address both sets of species, 
and is therefore authorized at $10 million. Appropriated funds for the 
programs have remained roughly 30 percent or less of the authorized 
level.
    MSCF programs have played a critical role in saving wild 
populations of these species by controlling poaching, reducing human-
wildlife conflict and protecting essential habitat. They have generated 
enormous constituent interest and strong bipartisan support in 
Congress. The MSCF has awarded over 1,800 grants to over 265 
organizations for conservation projects in over 75 countries. These 
small grants consistently leverage between two to four times as much in 
matching funds from public and private partners. From 1990 to 2011, 
Congress appropriated a total of $88 million for MSCF grant programs, 
which generated over $200 million in matching and in-kind 
contributions. Administrative costs for the program are low, and 97 
percent of the appropriated funds are distributed through grants. By 
conserving iconic species, these programs help sustain large areas of 
habitat home to a rich diversity of flora and fauna. By working with 
local communities and improving livelihoods, they build capacity and 
support for conservation in the developing world, contribute to 
economic growth and stability, and support U.S. interests in 
strategically important regions of the globe. Following are success 
stories for each of the five funds.
    Rhino-Tiger Conservation Fund (RTCF).--In both Africa and Asia, 
rhinos are suffering a poaching crisis. Fewer than 50 Javan rhinos now 
remain in the wild in Indonesia, with none in captivity. Last year saw 
the extinction of rhinos in Vietnam when the last individual in that 
country was found killed by poachers. South Africa, which is home to 80 
percent of the planet's remaining black rhinos, is experiencing a 
shocking rise in rhino poaching driven by Asian demand for rhino horn, 
which is worth up to $30,000/lb on the black market. Earlier in the 
decade, perhaps a dozen animals were killed in South Africa annually. 
Since 2007, there has been an exponential increase. In 2011 a total of 
448 rhinos were killed--nearly four times as many as in 2009. Other 
African countries fear the poaching will spread to their rhino 
populations. Through the RTCF, USFWS is working to respond. RTCF 
support to World Wildlife Fund (WWF) and local partners for anti-
poaching, habitat restoration and rhino monitoring in Nepal helped to 
ensure that no rhinos were poached in that country in 2011. In Namibia, 
support for camel patrols have reduced illegal wildlife trade, 
providing security and regular monitoring of Namibia's black rhinos, 
which have rebounded to become the world's largest free-roaming 
population. This ongoing recovery is contributing to the exponential 
growth in local economic benefits for rural Namibians due to wildlife-
based tourism, thanks in large part to U.S.-supported conservation 
efforts over the past two decades, including through the RTCF.
    As few as 3,200 wild tigers remain throughout all of Asia--down 
from 5,000-7,000 a decade ago. Tiger body parts continue to be in high 
demand on the global black market, including organs and bones, which 
are used in Asian tonics and medicines purchased by wealthy buyers 
believing they convey strength, virility or status. RTCF funding is 
supporting the creation and expansion of tiger reserves and protected 
areas in Malaysia, India and Thailand, anti-poaching and enforcement 
efforts in Sumatra, and research, monitoring and capacity building in 
countries such as Nepal, where WWF helped conduct the first ever 
nationwide assessment of tiger populations, distribution and prey base 
in 2009. Last July, the government of Thailand arrested tiger poachers 
operating in the Western Forest Complex, one of the country's most 
important protected areas and a critical landscape for tigers and other 
wildlife. The arrest, which yielded an abundance of evidence about 
poaching activities in the region, was an achievement of the SMART 
patrol, a systematic, evidence-based adaptive management program 
designed to increase monitoring and enforcement. With RTCF support, 
Wildlife Conservation Society (WCS) is helping to train rangers in 
countries such as Thailand on SMART patrol methods. In November 2010, a 
Global Tiger Summit was held in St. Petersburg, Russia at which tiger 
range states and supportive countries, including the United States, 
pledged to ramp up coordinated efforts to save tigers, with a goal of 
doubling wild tiger populations by 2022. To address critical needs for 
both rhinos and tigers, we recommend at least $2.697 million for the 
RTCF in fiscal year 2013, the same as in the Administration's fiscal 
year 2013 budget request.
    African Elephant Conservation Fund (AfECF).--Despite much success 
in elephant conservation over the past two decades, ivory remains a 
lucrative commodity, and rising demand in China along with ongoing 
instability and porous borders in many areas of Central Africa provide 
opportunities for well-organized gangs of poachers to decimate that 
region's remaining elephant populations. This winter, heavily armed 
northern Sudanese and Chadian poachers crossed into Cameroon's Bouba 
N'Djida National Park and slaughtered an estimated 300-400 elephants--
over half of the park's remaining population. The scale of the ongoing 
slaughter is unprecedented, and the cross-border incursion has prompted 
an intervention by the Cameroonian military to defend the country's 
sovereignty and save its remaining elephants, with lives lost on both 
sides. The poachers have suspected connections to the Jangaweed 
militia, and profits from illicit ivory sales are believed to help fund 
their purchases of guns and other armaments. The AfECF is supporting 
improved protected area enforcement in several African countries, 
including hiring and training of local ``ecoguards''. Ecoguards in 
Chad's Zakouma National Park prevented organized gangs from poaching 
one of the last and largest herds of elephants in the Sahel. In 
Cameroon's Campo Ma'an National Park, the AfECF supported a large-scale 
anti-poaching operation involving village and forest patrols, soldiers 
and game guards that flushed out four suspected poachers, including two 
notorious elephant poachers, and resulted in the seizure of 450 lbs of 
bushmeat. The AfECF is also helping address elephant-human conflict. In 
Malawi, it has helped to resolve a growing conflict between an elephant 
herd and local villagers that included human deaths and retaliation 
killings against elephants. AfECF support helped the government of 
Malawi and the International Fund for Animal Welfare (IFAW) to move the 
herd--83 elephants in all--to Majete Wildlife Reserve in southern 
Malawi, protecting both the elephants and local livelihoods. We 
recommend at least $1.697 million for the AfECF in fiscal year 2013, 
the same as in the Administration's fiscal year 2013 budget request.
    Asian Elephant Conservation Fund (AsECF).--In Thailand, AsECF 
support has improved wildlife law enforcement, established a population 
monitoring system, and reduced conflicts between humans and elephants 
in Kaeng Krachan National Park by working with local communities to 
deter elephants from raiding crops. In Sumatra, it has also supported 
Flying Squads--teams of rangers equipped with noise and light-making 
devices and trained elephants that drive wild elephants back into the 
forest whenever they threaten to enter villages. The Squads have 
reduced losses suffered by local communities, prevented retaliatory 
killings and helped reduce elephant mortality in Riau by 27 percent in 
2009 compared to the previous 4 years. The AsECF has also supported 
efforts of the International Elephant Fund (IEF) and partners to 
establish Conservation Response Units (CRUs) in Sumatra to mitigate 
human-elephant conflict, reduce wildlife crime in elephant habitat 
through forest patrol and monitoring, and raise local conservation 
awareness. CRU teams have recorded more than 500 cases of illegal 
logging, and 190 cases were reported to government law enforcement 
agencies, resulting in the closure of three illegal saw mills and 
seizure of more than 300m\3\ of illegal timber, 26 vehicles, 17 
chainsaws and two industrial saws. Over 150 arrests have taken place 
and two dozen individuals have received prison sentences ranging from 4 
months to 4.5 years. We recommend at least $1.697 million for the AsECF 
in fiscal year 2013, the same as in the Administration's fiscal year 
2013 budget request.
    Great Ape Conservation Fund (GACF).--In 2008, a GACF-supported 
survey discovered more than 125,000 western lowland gorillas in the 
Republic of Congo. The program is now supporting Ebola surveillance in 
that country, helping hire over 60 eco-guards and training 20 
researchers in carcass sampling and 30 field team leaders in health and 
biological sampling techniques. Over 900 hunters in 71 villages have 
participated in educational programs on Ebola to help prevent its 
spread. Two separate GACF grants are also supporting efforts in the 
Central African Republic to secure long-term protection of the 
country's gorillas, beef up trans-boundary anti-poaching patrols and 
create economic opportunities around sustainable gorilla tourism. MSCF 
grants made it possible for the Dian Fossey Gorilla Fund's Karisoke 
Research Center to continue protecting the mountain gorillas that live 
in the Virunga Volcanoes located on the border between Rwanda, the 
Democratic Republic of Congo (DRC) and Uganda. Karisoke staff follow 
daily almost one-fourth of the 480 remaining Virunga mountain gorillas. 
A 2010 census found that this highly endangered subspecies has achieved 
a remarkable increase of 26 percent since the previous count in 2003, 
with an astounding annual growth rate of 3.7 percent. This is the only 
great ape population to have increased in recent decades. The GACF has 
also supported programs in both Rwanda and the DRC to improve the 
health of communities near gorilla habitat by upgrading rural clinics, 
increasing access to clean water, reducing intestinal parasite 
infestations, and supporting small animal husbandry. This reduces the 
likelihood of people transmitting parasites and other diseases to the 
gorillas and reduces people's need to seek water and game in the 
forest. We recommend at least $2.194 million for the GACF in fiscal 
year 2013, the same as in the Administration's fiscal year 2013 budget 
request.
    Marine Turtle Conservation Fund.--Nicaragua's Pacific Coast 
provides nesting beaches to four highly threatened species of marine 
turtles. The Marine Turtle Conservation Fund (MTCF ) has provided major 
support to the efforts of Fauna and Fauna International (FFI) to 
protect these turtles, especially hawksbill and leatherback 
populations. Before the FFI program began, nearly 100 percent of the 
area's turtle nests were being poached. As a result of beach monitoring 
and protection programs, construction of egg hatcheries and awareness 
efforts, between 80-100 percent of the nests are now successfully 
protected each year and hatching success is increasing annually. During 
the 2010-2011 nesting season, 90 leatherback nests were recorded and 73 
were protected, a 300 percent increase over the previous season. MTCF 
support has helped achieve similar successes at nesting sites in Costa 
Rica (WWF) and Gabon (WCS). We recommend at least $1.697 million for 
the MTCF in fiscal year 2013, the same as in the Administration's 
fiscal year 2013 budget request.

                    OFFICE OF INTERNATIONAL AFFAIRS

    Within the USFWS Office of International Affairs, the Wildlife 
Without Borders (WWB) and International Wildlife Trade (IWT) programs 
provide critical support to the on-the-ground species conservation 
programs of the MSCF. The WWB Regional program supports species and 
habitat conservation in priority regions, including Africa, Latin 
America and the Caribbean, India, and Mexico, through capacity 
building, outreach, education, and training. This includes training 
African wildlife professionals to combat the bushmeat trade and working 
to bolster wildlife laws and increase enforcement capacity in African 
countries. The WWB Global program targets cross-cutting, global threats 
to wildlife; supports signature initiatives to maximize long-term 
impact; and addresses declines of critically endangered species, such 
as amphibians. It also fulfills USFWS mandates to support U.S. 
leadership through wildlife statutes and international treaties, such 
as NAFTA, the Ramsar Convention on Wetlands of International 
Importance, and the Convention on International Trade in Endangered 
Species (CITES). From 2006 to 2010, WWB programs awarded over $14 
million, leveraging nearly $25 million in matching funds for 
conservation actions, regional capacity building, wetlands and 
migratory species protection and efforts to combat disease and illegal 
trade. IWT works to prevent illegal trade in wildlife and wildlife 
products, calculated as the third largest illegal trade after drugs and 
arms, worth over $10 billion annually with strong links to organized 
crime and the illegal trade in arms and drugs. Illegal wildlife trade 
also transmits disease and invasive species, negatively impacting 
public health and economic productivity in the United States, which is 
one of the largest importers and exporters of wildlife products. IWT 
ensures this trade is legal and does not harm species in the wild and 
implements scientific and management requirements of laws and treaties 
for traded species, issuing 15,000-20,000 permits per year. We 
recommend $13.054 million for the Office of International Affairs, as 
requested in the Administration's fiscal year 2013 budget request.
    We hope you will consider the important issues these programs are 
working to address alongside their proven success, their modest cost 
and the broad-based support they enjoy. We urge the Subcommittee to 
fund these programs at the levels outlined above. Thank you for your 
consideration.
                                 ______
                                 
Prepared Statement of the American Bird Conservancy; American Forest & 
 Paper Association; Association of Fish & Wildlife Agencies; Audubon; 
  Bat Conservation International; Environmental Investigation Agency; 
  Fuller Park Community Development Corporation; Hardwood Federation; 
   Klamath Bird Observatory; The Nature Conservancy; North American 
 Banding Council; Point Reyes Bird Observatory; Sierra Club; Union of 
 Concerned Scientists; United Steelworkers; The University of Montana; 
Wildlife Conservation Society; Wild Salmon Center; World Wildlife Fund; 
          and The Xerces Society for Invertebrate Conservation

    The undersigned groups, representing a diverse coalition of timber 
and labor industry, conservation groups and academic institutions, 
thank Chairman Reed, Ranking Member Murkowski and Subcommittee members 
for their continued support for the U.S. Forest Service Office of 
International Programs. The following testimony recognizes the valuable 
investments made by the U.S. Forest Service in promoting U.S. 
leadership in international conservation and helping American 
interests, business and ecological, to remain protected from being 
undercut by illegal logging activities.
    While we understand the Subcommittee's responsibility in finding 
the appropriate balance between conservation and navigating a difficult 
fiscal climate, it is important to note that the U.S. Forest Service 
International Programs (hereafter FSIP) provides tremendous economic 
value to the American public. Industry and congressional reports 
estimate that U.S. roundwood, sawnwood and panel exports could increase 
by approximately $460 million each year if illegal logging was 
eliminated. FSIP works on behalf of the American people to level the 
playing field for the United States in international timber trade while 
protecting the United States from invasive species and recovering 
declining U.S. migratory species.
    We respectfully request the Subcommittee support FSIP by 
maintaining fiscal year 2012 funding level for fiscal year 2013 at $8 
million. This would not only ensure the investments undertaken in 
fiscal year 2012 are maintained, but, more importantly, will ensure 
that FSIP remains an integral part of the U.S. forest policy and 
practice.
Reducing Illegal Logging and Leveling the Playing Field for 
        International Timber Trade
    One of most important contributions FSIP makes to the American 
economy is to level the playing field in international trade for U.S. 
timber producers. Illegal logging is a complex and multifaceted issue, 
affecting international trade, the long-term viability of forest 
ecosystems, land tenure, rural poverty, and governance. For the United 
States, it has detrimental impacts on the U.S. forest products industry 
and disrupts market access, resulting in huge losses in potential 
revenue for American producers.
    To combat illegal logging, FSIP dedicates roughly one-quarter of 
its budget toward a variety of measures to prevent illegal logging from 
many different angles: (a) by developing cutting-edge technologies that 
assist in determining wood type and origin, (b) by organizing regional 
workshops overseas to exchange and transfer knowledge, (c) by 
supporting numerous global platforms and domestic policymaking (such as 
the Lacey Act), and (d) by building global awareness of legality 
requirements and technology. Moreover, with its breadth of expertise in 
forest management, FSIP is coordinating and implementing on-the-ground 
activities in several countries to monitor and manage forest 
ecosystems, support enforcement work and build strong bilateral 
programs in regions with serious illegal logging challenges, such as 
Peru, Brazil, Russia and the Congo Basin. Some highlights include:
  --Hand-held wood identification device and wood identification 
        database.--With support from FSIP and the U.S. Department of 
        State, the U.S. Forest Service scientists are developing a 
        hand-held wood identification device that port inspectors could 
        use to quickly determine whether timber shipments match species 
        declarations. The device also functions on smart phones 
        equipped with cameras. The application will allow the inspector 
        to scan the wood shipment and compare the image to those in 
        libraries of wood identification data.
  --Innovations in DNA testing.--Funded by FSIP, the U.S. Forest 
        Service is working with New Mexico State University to support 
        innovation in DNA testing of wood samples. This will ultimately 
        ensure that declarations citing origin of wood species are 
        accurate, improving the abilities of U.S. enforcement agents to 
        determine legality under the Lacey Act and/or under the 
        Convention on the International Trade of Endangered Species of 
        Flora and Fauna (CITES).
  --Other technologies and education.--The Forest Service is also 
        working on a range of other wood science and technological 
        efforts overseas to enhance data management, timber tracking, 
        and field identification manuals as well as conducting field 
        personnel training on forest monitoring.
  --Targeted Bilateral Assistance.--The FSIP's Peru Forest Sector 
        Initiative (PFSI) assists the government of Peru in complying 
        with the obligations of the U.S.-Peru Trade Promotion Agreement 
        in partnership with the U.S. Agency for International 
        Development. The collaboration focuses on the development of an 
        information and control system for chain of custody for CITES-
        listed species, support for population studies for mahogany and 
        cedar, design of forest inventories, specialized expertise in 
        yield determination and methodology, development of skill in 
        forest and wildlife management including community and 
        indigenous forest management; organizational design and 
        training to regional governments; anti-corruption plans for the 
        forest sector; environmental investigation; and environmental 
        prosecution training.
Protecting the United States from Invasive Species
    Invasive forest pests inflict millions of dollars of damage to the 
U.S. economy every year. Researchers currently estimate there are at 
least 20 destructive forest pests likely to enter the United States in 
the coming decade. The threat of invasive species is often manipulated 
by countries and cited as a barrier to U.S. exports. Reducing the 
threat of invasive species will serve to boost the American economy 
while protecting domestic ecosystems. The USDA Forest Service 
identifies and uses bio-control agents for invasive forest pests as 
bio-control agents, which can be an effective and inexpensive method of 
suppressing devastating pests that wreak ecological and economic havoc 
on American forests. FSIP facilitates projects involving agency 
scientists and land managers with counterparts in those countries where 
the invasive species originate. Without international collaboration, 
pests already in the United States will not be controlled and there may 
be future introductions of economically damaging pests. Current 
international cooperation, to protect the U.S.'s forests occurs with 
many countries including China and Russia. FSIP has worked to address 
invasive species including Sudden Oak Death, Hemlock Woolly Adelgid, 
Mile-a-Minute Weed, Beech Bark Scale, European and Asian gypsy moths, 
and Emerald Ash Borer.
Recovering Migratory Species in Decline by Conserving Habitat
    FSIP invests heavily in protecting overseas habitat for endangered 
species listed on the U.S. Endangered Species Act. Millions of dollars 
invested into domestic habitat conservation for these species is wasted 
if the wintering habitat is not also conserved. For example, wild 
Pacific salmon migrate from the rivers of the West Coast of North 
America and Eastern Russia to the Pacific Ocean. FSIP works in Eastern 
Russia with partner organizations to improve watershed management for 
wild salmon stocks. Also in Russia, FSIP has invested in the recovery 
of the Korean pine-deciduous forests relied upon by prey species such 
as wild boar and deer that has resulted in a steady recovery of the 
Siberian tiger over the past decade.
    In conclusion, we appreciate the support of the Subcommittee and 
request maintaining fiscal year 2012 enacted levels of $8 million for 
the U.S. Forest Service Office of International Programs in fiscal year 
2013. Continued investment in international conservation will improve 
our economic security, while helping our domestic species to flourish 
and protecting our local ecological habitats from invasive species. It 
will also reaffirm our position as the preeminent conservation leader 
in the world.
                                 ______
                                 
                Prepared Statement of the USGS Coalition

                                SUMMARY

    The USGS Coalition appreciates the opportunity to provide testimony 
about the President's budget request for the United States Geological 
Survey (USGS) for fiscal year 2013. The USGS Coalition urges Congress 
to appropriate at least $1.2 billion for the USGS in fiscal year 2013.
    The USGS is uniquely positioned to address many of the Nation's 
greatest challenges. The USGS plays a crucial role in assessing water 
quality and quantity; reducing risks from earthquakes, tsunamis, 
floods, landslides, wildfires, and other natural hazards; providing 
emergency responders with geospatial data to improve homeland security; 
assessing mineral and energy resources (including rare earth elements 
and unconventional natural gas resources); and providing the science 
needed to manage our natural resources and combat invasive species that 
can threaten natural and managed environmental systems and public 
health.
    The USGS Coalition is an alliance of over 70 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. The Coalition 
supports increased Federal investment in USGS programs that underpin 
responsible natural resource stewardship, improve resilience to natural 
and human-induced hazards, and contribute to the long-term health, 
security, and prosperity of the Nation.

                   ESSENTIAL SERVICES FOR THE NATION

    Established by Congress as a branch of the Department of the 
Interior in 1879, the U.S. Geological Survey has a truly national 
mission that extends beyond the boundaries of the Nation's public lands 
to positively impact the lives of all Americans. The USGS plays a 
crucial role in protecting the public from natural hazards, assessing 
water quality and quantity, providing geospatial data, and conducting 
the science necessary to manage our Nation's living, mineral, and 
energy resources. Through its offices across the country, the USGS 
works with partners to provide high-quality research and data to 
policymakers, emergency responders, natural resource managers, civil 
and environmental engineers, educators, and the public. A few examples 
of the USGS' valuable work are provided below.
    The Survey collects scientific information on water availability 
and quality to inform the public and decision makers about the status 
of freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected streamflow data at over 21,000 
sites, water-level data at over 1,000,000 wells, and chemical data at 
over 338,000 surface-water and groundwater sites. This information is 
needed to effectively manage freshwaters--both above and below the land 
surface--for domestic, public, agricultural, commercial, industrial, 
recreational, and ecological purposes.
    The USGS plays a pivotal role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year. Seismic networks and hazard analyses are 
used to formulate earthquake probabilities and to establish building 
codes. USGS monitors volcanoes and provides warnings about impending 
eruptions. Data from the USGS network of stream gages enable the 
National Weather Service to issue flood warnings. The bureau and its 
Federal partners monitor seasonal wildfires and provide maps of current 
fire locations and the potential spread of fires. USGS research on 
ecosystem structure informs fire risk forecasts.
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil and 
mitigate climate change. The USGS is the sole Federal source of 
information on mineral potential, production, and consumption.
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. USGS science is also used to control 
invasive species and wildlife diseases that can cause billions of 
dollars in economic losses. The Survey also provides critical 
information for resource managers as they develop adaptive management 
strategies for restoration and long-term use of the Nation's natural 
resources in the face of environmental change.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.

                           FUNDING SHORTFALL

    Over the years, Congress has worked in a bipartisan fashion to 
restore damaging budget cuts proposed by Administrations from both 
parties. These efforts have paid dividends and helped the USGS continue 
to provide answers to the challenging questions facing decision-makers 
across the country.
    The President's fiscal year 2013 budget request for the USGS is 
$1.1 billion. The budget request contains $49.5 million in program 
reductions in valuable, long-standing programs that offset increases in 
other areas. The proposed budget cuts would have significant negative 
impacts on core scientific capabilities of the USGS.
    Proposed budget cuts in the fiscal year 2013 USGS budget request 
include:
  --$6.5 million for Water Resources Research Act Program;
  --$6.0 million for National Water Quality Assessment Methods 
        Development and Monitoring;
  --$5.0 million for Cooperative Water Program Interpretive Studies;
  --$5.0 million for Mineral Resources;
  --$3.3 million for Hydrologic Networks and Analysis Information 
        Management and Delivery; and
  --$2.0 million for Toxic Substances Hydrology Methods Development and 
        Assessments.
    We urge Congress to support the budget request plus work to restore 
these and other detrimental cuts. An appropriation of $1.2 billion 
would provide the USGS with approximately $50 million that could shore 
up critical research programs, enhance new research efforts, and fully 
fund ``fixed costs'' and ``operational efficiencies.''
    Notably, the proposed budget requests $10.8 million for fixed 
costs. Although we applaud the agency for including these expenses in 
the budget request, we are not certain that this request will fully 
cover these expenses. Moreover, we are concerned about $4.4 million in 
proposed operations and maintenance ``efficiencies.'' According to USGS 
budget documents: ``The proposed reduction will degrade the condition 
and performance of the USGS real property portfolio . . . . In turn, 
the USGS expects to see an increase in the frequency with which 
equipment and facility components will need more costly emergency 
repairs and replacements, as well as a shortening of the overall life 
cycle of our real property assets.''
    The budget request does not propose transferring responsibilities 
for Landsat satellites from NASA to USGS. We appreciate congressional 
efforts last year to ensure that the USGS would not assume budget 
authority for the Landsat satellites. Such a move would have likely 
compromised core USGS science programs as the costs of the satellites 
rose significantly in future years.

                               CONCLUSION

    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. The USGS Coalition requests that Congress appropriate at least 
$1.2 billion for the USGS in fiscal year 2013, a level that will 
support critical USGS programs that improve the Nation's environment, 
health, safety, quality of life, and future economic growth.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of our request.
                                 ______
                                 
      Prepared Statement of the Washington County Commission, Utah

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The President's budget for this year 
recommended $450 million for LWCF.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in LWCF will 
permanently pay dividends to the American people and to our great 
natural, historical and recreation heritage. As LWCF is funded from 
Outer Continental Shelf (OCS) revenues, not taxpayer dollars, these 
funds should go to their intended and authorized use as a conservation 
offset to the energy development of our offshore oil and gas resources.
    As part of the LWCF request in fiscal year 2013, the Bureau of Land 
Management included an allocation of $4 million for Red Cliffs NCA. I 
am pleased that this funding was included in the request and urge 
Congress to provide necessary funds for LWCF for this important 
project.
    The Washington County Commission approved a resolution on February 
7, 2012 expressing its strong support of acquisitions by BLM of private 
in-holdings in the Red Cliffs NCA and the appropriation of Federal LWCF 
funds for these acquisitions. This resolution was passed by unanimous 
approval of the County Commissioners, and states:

    ``WHEREAS, the Washington County Habitat Conservation Plan (HCP) 
was implemented in 1995 to reconcile conflicts between desert tortoise 
conservation and economic development; and
    ``WHEREAS, the HCP established the Red Cliffs Desert Reserve 
(Reserve) to maintain the long-term viability of desert tortoises 
within the Upper Virgin River Recovery Unit; and
    ``WHEREAS, in return, Washington County (County) was granted an 
incidental take permit under Section 10(a) of the Endangered Species 
Act to allow development of tortoise habitat outside the Reserve, 
thereby providing for the ability for the County to meet demands for 
anticipated population growth and economic growth through land 
development; and
    ``WHEREAS, HCP signatories and cooperators include Washington 
County, the Utah Department of Natural Resources, the U.S. Fish and 
Wildlife Service, the Bureau of Land Management (BLM), and local 
municipalities; and
    ``WHEREAS, an objective of the HCP is to acquire remaining private 
in-holdings within the boundaries of the Reserve for protection of 
desert tortoise habitat; and
    ``WHEREAS, the United States Congress passed the Omnibus Public 
Land Management Act of 2009 which established the Red Cliffs National 
Conservation Area (NCA) to be managed by BLM and which had boundaries 
corresponding to the Reserve boundaries; and
    ``WHEREAS, several of the landowners who own private lands within 
the NCA are willing sellers of their land to the BLM and the Federal 
acquisition of these specific lands is an important objective of the 
HCP; and
    ``WHEREAS, the BLM is seeking Federal funds through the Land and 
Water Conservation Fund to acquire these private lands starting with 
the fiscal year 2013 and future years.
    ``NOW, THEREFORE, at a regular meeting of the legislative body of 
Washington County, Utah, duly called, noticed, and held on the 7th day 
of February 2012, upon motion duly made and seconded, it is 
unanimously:
    ``RESOLVED that the Washington County Commission strongly supports 
the acquisitions of private in-holdings in the Red Cliffs National 
Conservation Area from willing sellers by the Bureau of Land Management 
and the appropriation of Federal funds for such acquisitions.''

    In fiscal year 2013, an allocation of $4 million from the Land and 
Water Conservation Fund, as requested in the President's budget for the 
Bureau of Land Management, is needed to begin these key acquisitions at 
Red Cliffs NCA.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Red Cliffs 
National Conservation Area. I want to thank the Chairman and the 
members of the subcommittee for this opportunity to testify on behalf 
of this nationally important protection effort in Utah, and I 
appreciate your consideration of this funding request.
                                 ______
                                 
  Prepared Statement of the Wisconsin Department of Natural Resources

Background
    One of the most significant threats to biodiversity in the Nation's 
coastal and estuarine habitats as well as Wisconsin's inland navigable 
waters is the introduction of nonindigenous aquatic nuisance species 
(ANS) into the ecosystem. The introduction of ANS through intentional 
or accidental means establishes a stress on ecosystems that can result 
in the decline of native species population, serve as an impediment to 
species recovery and pose a long-term economic and ecological threat to 
the health of the area. The control and management of these ANS in such 
areas as the Mississippi River Basin Drainage, Great Lakes, Everglades, 
and San Francisco Bay/Inland Delta costs the economy and taxpayers 
billions of dollars annually.
    The Wisconsin Department of Natural Resources (WDNR) commends 
Congress and the Federal Government's recognition of this problem and 
efforts to address it through enactment of the Non-indigenous Aquatic 
Nuisance Prevention and Control Act (NANPCA) of 1990 (Public Law 101-
646) and the National Invasive Species Act (NISA) of 1996 (Public Law 
104-332). The establishment of the Aquatic Nuisance Species Task Force 
(ANSTF) makes use of a coordinating body to improve efforts to 
administer the Government's responsibilities as carried out by the 
National Oceanic and Atmospheric Administration, U.S. Fish and Wildlife 
Service (USFWS), U.S. Coast Guard, U.S. Environmental Protection 
Agency, U.S. Army Corps of Engineers, and other Federal agencies.
    In 2003, Wisconsin developed an Aquatic Nuisance Species Strategic 
Plan to combat aquatic nuisance species and to prevent their 
introduction into State waters. Wisconsin's actions supplement the 
national activity and are indicative of an ongoing need for resources 
and action to reduce the threat and minimize the impacts of ANS on U.S. 
waters.
State/Interstate Aquatic Nuisance Species Management Plan
    The NANPCA (as amended by NISA) recognized that States are integral 
partners in the battle against ANS by authorizing the State/Interstate 
Aquatic Nuisance Species Management Plan (SIANSMP) grant program. 
Managed by the U.S. Fish and Wildlife Service, the program provides 
annual funding to States, Tribes and Regional organizations to support 
the implementation of State and interstate ANS management plans that 
have been approved by the ANSTF. The SIANSMPs identify feasible, cost 
effective measures to be undertaken by the States and cooperating 
entities to manage ANS infestations in an environmentally sound manner. 
This funding has helped Wisconsin establish an ANS program with 
mechanisms for prevention, early detection and rapid response, 
containment, and control. Wisconsin's efforts link together with other 
State's ANS Plans and Federal efforts to form an effective national ANS 
partnerships to eliminate or reduce the environmental, economic, public 
health and human safety risks associated with ANS.
    Section 1301(c) of NANPCA authorized a total of $4 million for the 
SIANSMP grant program; however, that amount has never been fully 
appropriated. Funding was gradually increased from $68,000 for the 
first approved State Management Plan in 1994, to its current level of 
$1,075,000 beginning in 2004. Over the years, the number of plans 
approved far outpaced the capacity of the SIANSMP funding. In fiscal 
year 2011, Wisconsin received $29,800 to implement its statewide plan 
from the Service.
President's Fiscal Year 2013 Budget
    Wisconsin developed an ANSTF approved management plan and ANS 
programs in accordance with congressional authorizations in NANPCA and 
NISA. The SIANSMP grant program remains a high priority to Wisconsin 
and is critical for our implementation of a successful ANS prevention 
and control program. Funding for the SIANSMPs has remained stable since 
2004 at only 25 percent of the authorized level; however total requests 
to support the 36 approved State/Interstate ANS Management Plans that 
applied for funding in fiscal year 2011 exceeded $9,000,000. The States 
have consistently demonstrated a need for increased appropriations to 
implement ANS prevention and control priorities, yet the President's 
fiscal year 2013 budget eliminates the SIANSMP grant program for 
implementation of ANSTF-approved plans. The WDNR urges Congress to 
restore fiscal year 2013 appropriations of $1,075,000, and to provide 
additional fiscal year 2013 appropriations to fully fund that SIANSMP 
grant program at $4,000,000 as authorized by NANPCA and NISA.
    Wisconsin appreciates the opportunity to provide comments on such a 
critical national issue and looks forward to our continued partnership 
with the Federal agencies that are as committed to preventing, 
containing and controlling ANS as we are.
    Note.--Information provided in this document was pulled from 
existing documents including:
  --2011-2012 Policy Positions for the Jurisdiction of the Environment 
        Committee, National Conference of State Legislatures, http://
        www.ncsl.org/state-Federal-committees.aspx?tabs=855,23,667.
  --State/Interstate Aquatic Nuisance Species Management Plans 2010 
        (1st in a Series of 3). U.S. Fish and Wildlife Service. April 
        2012.
  --Accomplishments of the State/Interstate Aquatic Nuisance Species 
        Management Plans A Summary of State Efforts in the Battle 
        Against ANS (2nd in a Series of 3). U.S. Fish and Wildlife 
        Service. February 2012. The Evolution of the State/Interstate 
        Aquatic Nuisance Species Management Plan Grant Program (3rd in 
        a Series of 3). U.S. Fish and Wildlife Service. April 2012.
                                 ______
                                 
            Prepared Statement of Whitetails Unlimited, Inc.

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Forest Legacy Program (FLP) in the fiscal year 2013 Interior 
appropriations bill. The President's budget for this year recommended 
$60 million for FLP. The Forest Legacy Program works with landowners, 
the States, and other partners to protect critical forestlands with 
important economic, recreation, water quality, and habitat resources 
through conservation easement and fee acquisitions. The program has 
protected over 2 million acres in 43 States and territories, 
consistently with a 50 percent non-Federal cost share, double the 
required 25 percent cost share. For several years this important 
conservation program has been funded under the umbrella of the Land and 
Water Conservation Fund (LWCF), which as a whole received $450 million 
in the budget request.
    The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial public benefits including promoting healthier 
lifestyles through recreation, protecting drinking water and 
watersheds, improving wildfire management, and assisting wildlife and 
fisheries adaptation. LWCF investments also support jobs, tourism and 
economic vitality across our communities.
    I recognize that this subcommittee will face many demands in this 
tight fiscal climate. However, far-sighted investment in the Forest 
Legacy Program will permanently pay dividends to the American people 
and to our great natural, historical and recreation heritage. As LWCF 
is funded from Outer Continental Shelf (OCS) revenues, not taxpayer 
dollars, these funds should go to their intended and authorized use as 
a conservation offset to the energy development of our offshore oil and 
gas resources.
    As part of the FLP request in fiscal year 2013, the U.S. Forest 
Service included an allocation of $3 million for the Central Sands 
Pines project in Wisconsin. I am pleased that this funding was included 
in the request and urge Congress to provide necessary funds for FLP for 
this important project.
    Wisconsin's Central Sands region was the setting for world-renowned 
naturalist Aldo Leopold's ``A Sand County Almanac'', published in 1949. 
This classic work stands with Thoreau's Walden and Rachel Carson's 
Silent Spring as the inspiration for generations of conservationists to 
protect our Nation's treasured places. Today, there is an opportunity 
to heed Leopold's call for a ``land ethic'' by preserving this historic 
landscape.
    The Central Sands region was shaped tens of thousands of years ago 
during the last great ice age, known as the Wisconsin Glaciation. 
Today, this 2 million acre region is located in the bed of the extinct 
Glacial Lake Wisconsin, which left behind a legacy of sandy soils, 
extensive wetlands, and oak and pine forests. The sandy soils cover 
bedrock, and serve as an aquifer for 80 lakes and hundreds of miles of 
headwater streams and wetlands. The area's remarkable hydrological 
system largely occurs underground. The aquifer collects precipitation 
as groundwater, and filters it before conveying it to the Wisconsin 
River and other surface waters. Watershed protection is a major concern 
in the Central Sands region due to relatively high levels of 
groundwater pollution.
    In fiscal year 2013, there is an opportunity to preserve key 
parcels in the Central Sands region that will protect the groundwater 
supply, secure critical endangered species habitat, maintain working 
forests, and preserve public recreational access. The Central Sands 
Pines Forest Legacy project in Adams County is the critical component 
of a larger 9,000 acre plan to fund a conservation easement over 
privately owned timberland. The project will ensure that the acreage 
remains in productive use under private ownership. While much of 
northern Wisconsin remains forested, more than 70 percent of the 
southern part of the State has been cut over and converted to other 
uses. The Central Sands Pines Forest Legacy tract is among the few 
remaining large blocs available for timbering. It currently provides 
pulp for paper production as well as construction lumber and telephone 
poles. This project will support the State's $22 billion forestry 
products industry, which employs more than 50,000 people.
    The Central Sands Pines Forest Legacy project will also protect the 
groundwater recharge zone from pollution. Approximately 700 acres of 
the property consist of wetlands which are important for water 
filtration. A fresh groundwater supply is crucial for crop irrigation 
in the Wisconsin River basin. Irrigated land has increased rapidly over 
the past 50 years, covering 175,000 acres in the Central Sands region. 
Protecting this acreage will allow farmers to continue to pump clean, 
fresh groundwater for irrigating crops.
    Whitetails Unlimited believes the acquisition of this perpetual 
easement is in line with the spirit of our mission statement. Beyond 
protecting critical wildlife habitat, this perpetual easement will 
offer the general public numerous outdoor recreational opportunities. 
In particular, the property offers sportsmen and women prime hunting 
opportunities for white-tailed deer, turkey, and grouse. As Aldo 
Leopold once wrote, ``There are two kinds of hunting: ordinary hunting 
and ruffed-grouse hunting. There are two places to hunt grouse: 
ordinary places and Adams County.'' Whitetails Unlimited commends the 
Forest Legacy Program for promoting the environmental sustainability of 
this property for future generations.
    Forest Legacy funding will also benefit threatened and endangered 
species. The area's mixed oak-pine forests, barrens and peatlands 
provide the habitat needed by the endangered Kirtland's warbler, Karner 
blue butterfly, and whooping crane. The federally listed endangered 
Kirtland's warbler was discovered on this property in 2007. Wisconsin, 
Michigan, and Ontario, Canada have the only documented nesting pairs of 
Kirtland's warbler in the world, and this property contains the highest 
concentration of the species in the entire State.
    The President's budget for fiscal year 2013 requests $3 million 
from the Forest Legacy Program for 5,722 acres of the Wisconsin Central 
Sands Pines project. The State of Wisconsin will provide a match of at 
least $1 million to complete the easement purchase. Securing these 
funds will ensure that the property remains in productive use under 
private ownership. Residents will continue to enjoy recreational 
opportunities, endangered species habitat will be preserved, and local 
groundwater will be protected from pollution.
    In closing, I urge you to provide funding for the Land and Water 
Conservation Fund of $450 million, as proposed in the President's 
fiscal year 2013 budget, including critical funding for the Forest 
Legacy Program and the Central Sands Pines project. I want to thank the 
Chairman and the members of the subcommittee for this opportunity to 
testify on behalf of this nationally important protection effort in 
Wisconsin, and I appreciate your consideration of this funding request.
                                 ______
                                 
   Prepared Statement of the Washington Wildlife Recreation Coalition

    Mr. Chairman and Honorable Members of the Subcommittee: I 
appreciate the opportunity to present this testimony in support of the 
Land and Water Conservation Fund (LWCF) in the fiscal year 2013 
Interior appropriations bill. The Washington Wildlife and Recreation 
Coalition is a nonprofit citizens group founded in a historic 
bipartisan effort by former Governors Dan Evans and Mike Lowry. Our 
members consist of a diverse group of over 250 organizations 
representing conservation, business, recreation, hunting, fishing, 
farming, and community interests.
    Our members come together for the same reason people and businesses 
chose to locate in Washington State: our close-to-home parks, outdoor 
recreation opportunities, and wildlife habitat. Mount Rainier is one of 
our State's great symbols and has been protected as a national park 
since 1899. Across Puget Sound, a major water and economic resource of 
its own, lie the jagged outlines of the Olympic Mountains, and beyond 
them the only temperate rainforest in the world and the rich seashore 
of the Olympic Peninsula. The Cascades stretch from the Canadian border 
to the Columbia River Gorge, protected in four national forests and 
accessible via the Pacific Crest National Scenic Trail. From the Methow 
Valley to Turnbull Wildlife Refuge, eastern Washington holds 
exceptional habitats protected for a diversity of species and 
accessible for hunters and anglers. The Land and Water Conservation 
Fund has helped to protect these iconic places since 1965.
    Consequently, I join conservation leaders, hunters, anglers, 
business owners, and communities across the Nation in urging you to 
support funding for LWCF. This year, the administration's budget 
request includes funding for four high priority, ready-to-go, willing 
seller projects across Washington State's national parks, wildlife 
refuges, forests and other public land. It also makes investments in 
stateside LWCF grants for local parks and trails, ball fields and boat 
launches, and for protecting our working timber and range lands.
    Our parks, forests, refuges, and trails are generators for 
Washington's economy. The Outdoor Industry Foundation (OIF) estimates 
that outdoor recreation throughout the State contributes $11.7 billion 
annually to Washington's economy. This activity supports 115,000 jobs 
and produces $8.5 billion annually in retail sales and services--3.5 
percent of the gross State product. OIF found that 44 percent of 
Washingtonians view wildlife, 39 percent use trails, 36 percent camp, 
and 32 percent ride bicycles for recreational purposes.
    In addition to fueling these economic engines for Washington's 
communities, LWCF improves the management of the public lands in our 
State. These measures make for better recreational experiences on the 
land, sustain habitats for wildlife, and ensure quality water supplies. 
They also reduce costs in fighting fires, controlling invasive species, 
and maintaining property boundaries. LWCF accomplishes these management 
improvements largely because most of the funds go toward the 
acquisition of inholdings, private lands bordered on two, three, or 
four sides by existing public lands.
    Washington has two excellent examples of LWCF purchases reducing 
costs and improving public land experiences. First, in 2004, Congress 
passed a law to expand the boundaries at the northwestern entrance of 
Mount Rainier National Park. For many years flooding would wipe away 
parts of the Carbon River Road and make the trailheads, campsites, and 
other visitor facilities inaccessible. The expansion and subsequent 
purchase of land via LWCF funding has allowed the National Park Service 
to begin the process of moving facilities to higher ground, removing 
the future costs and burdens from frequent floods. Second, in the 
central Cascades, much of the land ownership pattern resembles a 
checkerboard. Public lands are interspersed with private lands. For 
many years LWCF funds have been used by the Forest Service to acquire 
priority checkerboard properties that increase recreational access, 
improve segments of the Pacific Crest Trail, and safeguard consolidated 
blocks of prime mountain and forest wildlife habitat and river 
watersheds that supply population centers like Seattle and Tacoma.
    I understand this subcommittee and Congress face severe constraints 
in this tight fiscal climate. However, forward-looking investment in 
LWCF will permanently pay dividends to the American people and to our 
great natural and historical heritage. LWCF is paid for using a very 
small percentage of offshore oil and gas drilling receipts, not 
taxpayer dollars. Congress made a commitment to the American public 
that a small portion of revenues from offshore drilling paid by oil 
companies should go to conservation and outdoor recreation programs. 
Yet nearly every year, the majority of LWCF funds are diverted to other 
unintended purposes--more than $17 billion over the history of the 
program.
    I therefore respectfully ask that you support the administration's 
fiscal year 2013 recommendation of $450 million for the LWCF program. 
At one-half the authorized funding level for the program, this 
represents a measured proposal that spreads limited resources wisely 
across urgent and diverse LWCF priorities and programmatic goals. At 
this level, LWCF would fund four projects at a Fish and Wildlife 
Service refuge, National Park Service unit, a Forest Service site and 
working forest lands in Washington State:
U.S. Fish and Wildlife Service
            Nisqually National Wildlife Refuge: $1 million
    These funds would be used to acquire lands at the Black River Unit 
and along the Nisqually River delta into Puget Sound in order to 
consolidate holdings, preserve wintering habitat for migratory birds, 
and protect wetlands habitat for fisheries.
National Park Service
            Mount Rainier National Park: $1 million
    These funds would be used to complete acquisition of smaller 
properties in the Carbon River expansion area, protecting old growth 
forests along the Carbon River and important habitat for populations of 
anadromous fish, including salmon.
Forest Service
            Pacific Crest National Scenic Trail: $618,000
    The multistate request for the trail includes checkerboard parcels 
in the central Cascades that would improve trail stewardship and access 
and protect the trail corridor and view shed. Available for acquisition 
in fiscal year 2013 are two parcels along the PCT: Pyramid Peak and 
Missing Link within the Wenatchee and Mount Baker-Snoqualmie national 
forests.
            Pysht Coastal Forest: $3 million
    This Forest Legacy Program request would be used to fund a 
conservation easement on working forestland along the Strait of Juan de 
Fuca.
    We support these requests for LWCF funds to acquire critical tracts 
in the parks, refuges, and forests of Washington.
    Mr. Chairman and members of the Subcommittee, I thank you for your 
dedication and service, on behalf of our organization's members and 
also on behalf of my family. I can think of no greater legacy for my 
two sons than the protection of our recreation lands, clean waters and 
wildlife heritage. I appreciate your consideration of these funding 
requests.
                                 ______
                                 
                  Prepared Statement of the Zuni Tribe

Background
    Pre Public Law 93-638, Indian Self Determination and Education 
Assistance Act, the Zuni Tribe, Pueblo of Zuni, acting on a commitment 
for success, contracted with the Bureau of Indian Affairs (BIA) to 
perform functions previously carried out by the Federal Government. 
Namely these functions/programs are: Housing Improvement, Law 
Enforcement, Tribal Courts, Higher Education-Scholarship, Road 
Maintenance and Social Services/Welfare Assistance. Performance of 
these functions by the Tribe was authorized under the authorities of 
the 1934 Indian Reorganization Act with the promise of self-
determination to operate programs fitting tribal needs. However, since 
the 1970's the Zuni Tribe has experienced drastic fund reductions in 
these contracted and other programs still administered/operated by the 
BIA.
    The Zuni Tribe understands the United States' fiscal difficulties 
and challenges at this time and acknowledges the administration is 
focused in reducing the deficit, however, the Zuni Tribe is requesting 
the administration keeps its promise to the Indian country by 
protecting and increasing funding provided under the BIA Tribal 
Priority Allocations (TPA) process in fiscal year 2013. Protecting and 
increasing TPA for the Zuni Tribe will assist in effectively 
administering programs which would otherwise be performed by the 
Federal Government. Not only will the tribe carry out programs 
effectively which affects their respective community, it will also 
continue to be partners in a mutual commitment to strengthen not only 
the tribal and national economy, however, it will have a major impact 
on the health and social well-being of the community as a whole. This 
effort has a ripple effect on generation of jobs, and improvement of 
economies.
    The Zuni Tribes request under the Department of the Interior (DOI), 
BIA fiscal year 2013 President's budget request a total of $9,474,000 
to administer core programs under the TPA categories operated by the 
BIA and under the authorities of Public Law 93-635. The following are 
the amounts specifically identifying programs and their respective 
amounts.
    Tribal Government-Road Maintenance (TPA) BIA Operated.--This 
program requires a minimum level of $992,000 to carry out the program 
responsibilities. This funding level will get closer to the 2009-2010 
target units under a Level of Services rating of 2 or better for the 
Zuni Indian Reservation. The Road Maintenance program supports 411.2 
miles of Indian Reservation Roads in a remote reservation, 
approximately 150 miles from a metropolitan area of Albuquerque, New 
Mexico.
    A 2009 assessment of paved routes in the Zuni community shows that 
at a minimum 4 miles of pavement overlay, and 20 miles of pavement 
surface treatment of major traveled routes with high average daily 
traveled counts. Providing funds for improvement of the Zuni 
Reservation roads will reduce the potential liability of tort claims 
from the traveling public in Zuni. Improvements to the above identified 
miles of roads do not include maintenance of unpaved roads, including 
school bus routes, ingress and egress to homes for medical service 
vehicles such as ambulances, transportation services for patients who 
are on dialysis and need medical care, etc.
    If funds are not provided at a bare minimal level the Zuni Tribal 
Road Maintenance program will continue to incur annual increases of at 
least 4 percent of deferred maintenance backlog on reservation roads 
and bridges. Since fiscal year 2007, this program has been grossly 
underfunded and range in funding for the past several years in the 
amount of $246,642 to a high of $274,116 in fiscal year 2007.
    Human Services--Social Services and Indian Child Welfare Act--TPA 
Public Law 93-638 Tribal Contract.--A minimum level funding for the 
Tribal Social Services program in the amount of $260,000 is needed to 
maintain programs at a current level. A minimum level of $95,000 is 
needed for the Indian Child Welfare Act program. These two programs are 
critical to assist the social-economic programs of the community. 
Program personnel works with various agencies in and outside the 
community which includes child care places-foster home placements and 
domestic violence with the Tribal and outside courts-judicial systems, 
the Zuni Tribal Police Department, etc. Once again this program has not 
been adequately funded for a number of years.
    Human Services--Welfare Assistance--TPA Public Law 93-638 Tribal 
Contract.--A minimum level of $75,000 is required to operate this 
program at a ``bare minimum'' level. With the isolation of the Zuni 
Reservation and lack of employment and other full service programs, 
these funds are needed to deal with socio-economic issues/problems of 
the community.
    Public Safety and Justice--Community Fire Protection--TPA Public 
Law 93-638 Tribal Contract.--A minimum of $150,000 is required to 
operate this program. Minimum funds requested will allowed the program 
to maintain three tribal employees on staff and provide operation 
expenses that services the community which includes a hospital 
operation, high school, junior high school, two elementary schools, a 
community college, BIA agency and tribal infrastructure, two parochial 
schools and other community facilities.
    Public Safety and Justice Tribal Courts--TPA Public Law 93-638 
Tribal Contract.--A minimum of $580,000 is needed to operate the Zuni 
Tribal Court. This level of funding will allow the tribal court of 
access training needs and filling positions that will assist in 
handling an increasing number of criminal, civil, juvenile and child 
welfare cases which are referred to the Tribal court for resolution. 
The number of cases the Tribal court handles range from a low of 4,144 
adult cases to a high of 7,000 cases. The children's court also ranges 
in a low of 455 to a high of 566 cases.
    Natural Resources--BIA Operated.--Minimum level of funds required 
is $392,000 to fulfill the BIA trust responsibilities as it relates to 
natural resources. Funding for this critical program continues to 
increase which the need increases. Critical functions need to be 
continually addressed. These functions at least include: Range and 
agriculture management, Safety of Dam, National Environmental 
Protection Act compliance requirements, Public Law 93-638 contract 
administration and administration of the Zuni Tribal grazing permits 
and leases by encoding, updating and maintaining range permits and 
grazing lease data into TAAMS.
    Natural Resources--Fish and Wildlife Management--TPA Public Law 93-
638 Tribal Contract.--A minimum of $111,000 is required to operate the 
Zuni Fish and Wildlife program. This program manages activities 
associated with cultural and academic biological wildlife management. 
It also works with the other Federal and State agencies including the 
States of New Mexico, Arizona and other customer base clientele from 
the private sector.
    Natural Resources--Forestry and Fire Management--BIA Operated.--
This program requires a minimum funding level of $189,000 to maintain 
program operations and maintain a one FTE.
    Trust Services--Real Estate Services--TPA Public Law 93-638 Tribal 
Contract.--This program requires a minimum level of funding in the 
amount of $198,000 to carry out program responsibilities associated 
with trial trust and individual allotments, tribal fee lands and tribal 
land assignments for the purpose of: Leasing and Permitting, acquiring 
and disposal of lands and promotion of development of mineral resources 
and renewable energy resources, maintenance of existing contractual 
agreement and assurance in recording of all encumbrances in the Tribal 
Trust Assets Accounting Management System and Land Titles and Records 
Office. The Program is responsible for land base protection of 
537,055.55 acres of land. (Included in the level of fund request is 
Probate and Rights Protection along with the Real Estate Services.)
    The program also promotes and encourages consolidation of 
fractionate interests of trust allotments by providing estate planning 
holding outreach efforts to provide information on the American Indian 
Probate Reform Act.
    Executive Direction and Administration--BIA Operated.--A minimum of 
$192,000 is required for the Executive Direction and $160,000 is needed 
for the Administrative Services operations at the Zuni Agency. These 
two program operations provide critical functions which assist the Zuni 
Tribe in maintaining and managing oversight of BIA operated and Tribal 
contract programs. These crucial program operations have been grossly 
underfunded for a number of years to adequately fulfill trust 
responsibilities to the Zuni Tribe.
    Law Enforcement--Zuni Police Department--Public Law 93-638 Tribal 
Contract.--A minimum funding level of $2.9 million is required to 
maintain law and order on the Zuni Reservation, which include the 
immediate community and the surrounding reservation lands. Over several 
years the tribal law enforcement program has not received adequate 
funding for the size of reservation lands and the growing population 
they are responsible for serving and protecting There has been an 
increase in violent crime, gang activities, methamphetamine and other 
drug uses, not to mention violence in the schools.
    Other unfunded mandates such as the Adam Walsh Act and the 
enactment of the Federal Tribal Law and Order Act, Sex Offender 
registry and other like requirement compliances requirements also 
requires that funds be provided to meet these mandates.
    The Zuni Tribal wage scale grossly lags behind other agencies' wage 
scales to maintain law enforcement officers in Zuni. Additional funds 
are also required to maintain a stable trained staff with proper 
equitable compensation. It is critical the Department and BIA consider 
full funding for this critical program.
    Detention Center Public Law 93-638 Contract Program.--A minimum of 
$1.5 million is required to operate the Zuni Tribal detention center. 
Additional personnel with equitable funding are required to maintain 
the detention center operations. The Zuni Detention center is a 24-hour 
7-days a week operation. Like other organizational programs, the Zuni 
Tribe needs to bring the wage scale to a comparable level with other 
agencies to maintain/retain qualified trained personnel. This is a 
crucial operations that is not only associated with stress-related 
duties, but requires commitment and dedication of a workforce.
    Detention Facilities Operations and Maintenance--Public Law 93-638 
Contract Programs.--These two programs have traditionally been funding 
on a formula, square foot basis which does not provide adequate funds 
to operate and maintain infrastructure. Serious considerations need to 
be made to adequately fund operation and maintenance programs of 
facilities. A minimum of $150,000 is needed for the operations portion 
of the facility and a minimum of $30,000 is needed for the maintenance 
of the facility.
    Education and Adult Vocational Training Program.--$1 million is 
requested for the Education Tribal Scholarship program and $500,000 is 
requested for the Adult Vocational Training Program. These two programs 
have been part of the ``477'' program which is not part of the TPA 
program considerations. However, these two programs are critical and 
are abridge to ensuring viable future for the Zuni Community. These two 
programs will provide scholarship funding assistance to students 
pursuing college degrees and vocational type training to acquire 
marketable skills should they seek employment off the Zuni Reservation.
    The Zuni Tribe also requests that funds for be maintained/increased 
for the Indian Guaranteed Loan program to assist the Zuni Tribe in 
pursing economic development ventures.
    In addition, funds should be provided to fully support contract 
support cost for tribes administering programs under the authorities of 
Public Law 93-638. These programs have been traditionally administered 
by the Federal Government; however, when Tribal governments take on 
responsibilities for program administration/operations, their 
budgetary/financial needs are not adequately addressed.
    As stated the Zuni Tribe is aware of the national economic 
conditions, however, in order for the Zuni Tribe to foster self-
determination, including, self-governance, we request you seriously 
consider the Zuni Tribe's funding request.
    The Zuni Tribe extends our appreciation for the opportunity to 
present our funding needs.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
